<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 1998</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



             DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 1998

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS
                              FIRST SESSION
                                ________
                    SUBCOMMITTEE ON NATIONAL SECURITY
                   C. W. BILL YOUNG, Florida, Chairman
 JOSEPH M. McDADE, Pennsylvania      JOHN P. MURTHA, Pennsylvania
 BOB LIVINGSTON, Louisiana           NORMAN D. DICKS, Washington
 JERRY LEWIS, California             W. G. (BILL) HEFNER, North Carolina
 JOE SKEEN, New Mexico               MARTIN OLAV SABO, Minnesota
 DAVID L. HOBSON, Ohio               JULIAN C. DIXON, California
 HENRY BONILLA, Texas                PETER J. VISCLOSKY, Indiana        
 GEORGE R. NETHERCUTT, Jr., 
Washington
 ERNEST J. ISTOOK, Jr., Oklahoma
 RANDY ``DUKE'' CUNNINGHAM, 
California                          
          
 NOTE: Under Committee Rules, Mr. Livingston, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
 Kevin M. Roper, John G. Plashal, David F. Kilian, Alicia Jones, Juliet 
  Pacquing,P Gregory J. Walters, Patricia Ryan, Doug Gregory, Paul W. 
       Juola, Tina Jonas, andP Steven D. Nixon, Staff Assistants
       Stacy A. Trimble and Jennifer Mummert, Administrative Aides
                                ________
                                 PART 2
                                                                   Page
 Commanders in Chief:
   European Command...............................................    1
   Atlantic Command...............................................   95
   Central Command................................................  161
   Pacific Command and United States Forces, Korea................  237
 Testimony of Members of Congress and Other Interested Individuals 
and Organizations.................................................  351
                                ________

         Printed for the use of the Committee on Appropriations

                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 77-757                     WASHINGTON : 2002




                     COMMITTEE ON APPROPRIATIONS

                   BOB LIVINGSTON, Louisiana, Chairman

 JOSEPH M. McDADE, Pennsylvania      DAVID R. OBEY, Wisconsin
 C. W. BILL YOUNG, Florida           SIDNEY R. YATES, Illinois
 RALPH REGULA, Ohio                  LOUIS STOKES, Ohio
 JERRY LEWIS, California             JOHN P. MURTHA, Pennsylvania
 JOHN EDWARD PORTER, Illinois        NORMAN D. DICKS, Washington
 HAROLD ROGERS, Kentucky             MARTIN OLAV SABO, Minnesota
 JOE SKEEN, New Mexico               JULIAN C. DIXON, California
 FRANK R. WOLF, Virginia             VIC FAZIO, California
 TOM DeLAY, Texas                    W. G. (BILL) HEFNER, North Carolina
 JIM KOLBE, Arizona                  STENY H. HOYER, Maryland
 RON PACKARD, California             ALAN B. MOLLOHAN, West Virginia
 SONNY CALLAHAN, Alabama             MARCY KAPTUR, Ohio
 JAMES T. WALSH, New York            DAVID E. SKAGGS, Colorado
 CHARLES H. TAYLOR, North Carolina   NANCY PELOSI, California
 DAVID L. HOBSON, Ohio               PETER J. VISCLOSKY, Indiana
 ERNEST J. ISTOOK, Jr., Oklahoma     THOMAS M. FOGLIETTA, Pennsylvania
 HENRY BONILLA, Texas                ESTEBAN EDWARD TORRES, California
 JOE KNOLLENBERG, Michigan           NITA M. LOWEY, New York
 DAN MILLER, Florida                 JOSE E. SERRANO, New York
 JAY DICKEY, Arkansas                ROSA L. DeLAURO, Connecticut
 JACK KINGSTON, Georgia              JAMES P. MORAN, Virginia
 MIKE PARKER, Mississippi            JOHN W. OLVER, Massachusetts
 RODNEY P. FRELINGHUYSEN, New Jersey ED PASTOR, Arizona
 ROGER F. WICKER, Mississippi        CARRIE P. MEEK, Florida
 MICHAEL P. FORBES, New York         DAVID E. PRICE, North Carolina
 GEORGE R. NETHERCUTT, Jr.,          CHET EDWARDS, Texas                
Washington
 MARK W. NEUMANN, Wisconsin
 RANDY ``DUKE'' CUNNINGHAM, 
California
 TODD TIAHRT, Kansas
 ZACH WAMP, Tennessee
 TOM LATHAM, Iowa
 ANNE M. NORTHUP, Kentucky
 ROBERT B. ADERHOLT, Alabama        
          
                 James W. Dyer, Clerk and Staff Director

                                  (ii)

 
             DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 1998

                              ----------                              

                                       Thursday, February 27, 1997.

           COMMANDER IN CHIEF, UNITED STATES EUROPEAN COMMAND

                                WITNESS

GENERAL GEORGE A. JOULWAN, COMMANDER IN CHIEF, UNITED STATES EUROPEAN 
    COMMAND, U.S. ARMY

                              Introduction

    Mr. Young. Good morning, general. The Committee will come 
to order. This morning the Committee is happy to welcome back 
General George Joulwan, Commander in Chief, United States 
European Command and the Supreme Allied Commander, Europe.
    General, speaking for the Committee, I want to compliment 
you on your tremendous record of leadership. We have been told 
that you might be considering retiring later this year.
    General Joulwan. Yes.
    Mr. Young. That would be the Department of Defense's loss. 
You have a tremendous record and we are very, very proud of you 
and proud of the record that you have established.
    I am also pleased with the way that you have led our 
activities in Bosnia. We would like to talk to you about Bosnia 
this morning. We have been very, very supportive of all of our 
efforts there, although there were some who questioned whether 
we should even be there. But once that decision was made, we 
have been totally supportive, as I am sure you are well aware.
    We are curious about how you see Bosnia today and in the 
next few months and the next few years we are concerned also 
that, as the Congress has been given proposed dates of exiting 
Bosnia, those dates seem to come and go without a lot of 
fanfare and U.S. troops are still there.
    I would like to hear from you as to what you think might be 
the future, what might be an exit strategy, if there is one; 
what the effect might be once we are gone. Those are the kinds 
of things we are interested in hearing from you today.
    You are the first of the four Commanders-in-Chief--CINCS--
who will testify during this appropriation season. And as I 
told you earlier, I had been invited to make a visitation with 
Secretary Cohen today and tomorrow and I had planned to do that 
until I recognized that you were the witness today. I certainly 
wanted to be here for your presentation.
    Mr. Murtha, do you have any opening comments?
    Mr. Murtha. Well, I tell you, we kind of feel you are one 
of this Committee, because you have been before the Committee 
so many times. But the one thing I have noticed, you get a 
bigger staff the longer you are around. It used to be you only 
brought one or two people. Now I notice you have got a whole 
room full now. Is that because you are doing less work?
    General Joulwan. That's right. But they are all in the 
back.
    Mr. Young. But the room is small. His entourage looks big 
because the room is small.
    Okay. General, we are very happy to hear from you, sir. 
Proceed any way that you like. Your entire statement will be 
placed in the record.

                  Summary Statement of General Joulwan

    General Joulwan. Thank you very much, Mr. Chairman, 
Representative Murtha, distinguished Members of the National 
Security Subcommittee. As always, it is a privilege to appear 
before you today to report on the forward deployed and let me 
say forward stationed United States European Command--EUCOM--
Forces. And I welcome this opportunity to provide my assessment 
of the EUCOM theater of operation, a theater that spans Europe, 
the Near East, the northern littoral of Africa and Sub-Saharan 
Africa, 83 countries, 13 million square miles and over 1 
billion people of different ethnic, religious and economic 
conditions.
    At the outset, Mr. Chairman, I would like to thank this 
Committee on behalf of the men and women of EUCOM and their 
families for your support of our efforts in Europe and NATO, as 
well as in our Areas Of Responsibility--AOR--in Africa and the 
Near East.
    I have been appearing before this Committee since 1990, and 
I am particularly grateful this year for the opportunity to 
provide you my assessment of my command, and as you know, Mr. 
Chairman, I have a lengthy posture statement which I would like 
to enter into the record and then briefly make a few points.
    Mr. Young. Yes, sir.

                            OPERATIONS TEMPO

    General Joulwan. The first point, Mr. Chairman, is that 
EUCOM continues to experience the highest operations tempo--
OPTEMPO--in its history. U.S. troops are committed to prevent 
conflict in the former Yugoslavian Republic of Macedonia, 
enforce a ``No Fly Zone'' against Saddam Hussein in Northern 
Iraq and ensure compliance with the Dayton Peace Agreement in 
Bosnia.
    In the past year, EUCOM has extracted hundreds of civilians 
under fire from Liberia, protected Americans in the Central 
African Republic and facilitated the return of hundreds of 
thousands of refugees in Zaire and Tanzania. Clearly, forward-
deployed and forward-stationed forces give the United States 
great flexibility and reach, and EUCOM is demonstrating its 
value every day.
    Our troops are mission-focused and combat-ready. They are 
disciplined forces which have demonstrated the ability to 
respond across the entire conflict spectrum. I need your 
support in ensuring the contingency supplemental is provided in 
time, hopefully by this spring, to maintain EUCOM's high 
readiness and standards.
    Equally important, Mr. Chairman, is that the forward-
deployed forces engaged in peacetime to shape the environment 
and prevent conflict as well as being ready to fight and win. 
This proactive conflict prevention strategy includes working 
with our allies in NATO, exercising with new partners in the 
Partnership for Peace Program and conducting air, land and sea 
operations in conjunction with allies and partners as we are 
doing in Bosnia. By so doing, we promote trust and confidence, 
create stability and prevent crises from developing in the 
conflict.

                    BOSNIA--OPERATION JOINT ENDEAVOR

    The second point, Mr. Chairman, is that Operation JOINT 
ENDEAVOR in Bosnia in 1996 exceeded all expectations and laid 
the groundwork for lasting peace in Bosnia. Today, Operation 
JOINT GUARD, or the Stabilization Force, SFOR, continues to 
provide a secure environment for civilian agencies and the 
former warring parties to begin the process of reconstruction 
and reconciliation. But let me be clear, if I may, to the 
members of the National Security Subcommittee.
    The NATO-led forces of IFOR and now SFOR can create an 
absence of war but cannot establish the peace. Peace depends on 
the will of the people of Bosnia-Herzegovina and on the rapid 
progress of civilian and nongovernmental organizations. While 
some progress has been made, much more needs to be done by the 
civilian agencies and the parties themselves in the remaining 
16 months of the mandated 18-month SFOR mission.
    Again, for clarity, the North Atlantic Council's 
instructions to me are for an 18-month mission ending in June 
of 1998. But to me it is imperative that we concentrate on what 
can be done by many of these civilian agencies in 
reconstruction, resettlement, elections, et cetera, in the time 
remaining and not just concentrate on what is going to happen 
after 18 months.
    Let me also point out that the Stabilization Force is truly 
a unique force in the annals of military history. SFOR is 
multinational with 34 countries making up its force structure 
and 25 nations comprising the headquarters. It is the most 
multinational headquarters in recent history.
    Let me also make clear that U.S. forces in Bosnia are less 
than 25 percent of the Stabilization Force. Our NATO allies and 
non-NATO nations contribute more than 75 percent of the force, 
and I have given you a chart that shows how we are leveraging 
our allies and our non-NATO partners in providing forces not 
just for Bosnia, but for other contingencies.
    Also in Bosnia, we have had great success with intelligence 
fusion and intelligence sharing. Information and intelligence 
superiority have directly influenced events on the ground and 
compliance by the former warring factions. Timely intelligence 
is also responsible for force protection of out troops and 
rapid response to possible threats.
    The third point, Mr. Chairman, is that success in Bosnia is 
directly linked to the strategy I discussed with this Committee 
in testimony in 1994, the Partnership for Peace Program. I said 
then that the intent was to train with former adversaries, and 
now new partners to common standards and common procedures in 
order to one day conduct missions together. In Bosnia, we have 
taken the theory of multinational training and put it into 
practice, and it has been successful. And I want to thank you 
for your support of this military cooperation program. It truly 
works.
    Fourth, in Bosnia, the Russian-NATO relationship is still a 
good one. Joint U.S. and Russian patrols operate today in the 
Brcko area. Recently U.S. Apache gunships were prepared to fire 
in defense of Russians who were endangered by one of the former 
warring factions.
    And in the Brcko arbitration of just two weeks ago, if you 
can imagine this, American forces that were maneuvering in 
blocking positions were joined by Russian, Turkish, Nordic and 
Polish units to prevent conflict and to carry out their 
mandate. And as a result, it was a peaceable implementation of 
that decision.
    And let me just say that from this modest beginning with 
Russians in Bosnia, we are creating the trust and confidence so 
necessary to build the foundation upon which a future NATO-
Russian and U.S.-Russian security relationship can be built.
    As I mentioned last year, I have a three-star Russian 
general as a deputy to the Supreme Allied Command to Europe for 
Russian forces in Bosnia. He is at my headquarters in Mons, 
Belgium, and he has an office in the building that prepared 
plans for the contingencies in Berlin during the Cold War.
    And you might be interested in that he just returned from 
Moscow, where he appeared before the Duma, the Russian 
Parliament, for funding and for the extension of the Russian 
contingent in Bosnia until June of 1998.
    He got both. As you know, this is, indeed, a delicate time 
for Russian-NATO relations. Clearly, there are great internal 
strains that will take time to work out, but we should not 
isolate Russia, but neither should we allow Russia to veto NATO 
decisions. But NATO and the United States need to stay engaged 
with Russia through this very delicate transition period.

                     PARTNERSHIP FOR PEACE PROGRAMS

    The fifth point, Mr. Chairman, is that EUCOM is a total 
force command. The Reserve component plays an increasingly 
important role in accomplishing EUCOM's diverse missions. It 
assists in offsetting the active force in both the operations 
tempo, OPTEMPO, and personnel tempo, PERSTEMPO, that we have in 
theater. It also provides a tangible example to emerging 
democracies in former communist countries of Eastern and 
Central Europe with the role of the military in a democratic 
political system.
    EUCOM is now involved with 21 States of our United States 
with 21 emerging democracies in Europe. For example, 
Pennsylvania is aligned with Lithuania; California with 
Ukraine; Ohio with Hungary; Texas with the Czech Republic; 
North Carolina with Moldova, Minnesota with Croatia and Indiana 
with Slovakia.
    The State Partnership Program is truly low cost and high 
payoff and I thank you for your continued support, and I also 
thank you for your National Guard and Reserve components who 
are doing so well in maintaining this excellent contact.
    Likewise, we have a Marshall Center in Germany, which is 
another low cost-high payoff initiative. It is now in its third 
year and has graduated over 390 mid-level civilian and military 
leaders from mainly Eastern and Central European countries. We 
already are getting very good returns from the Marshall Center 
graduates who are now being appointed to key military and 
civilian leadership positions. What the Marshall Center does is 
balance what we are doing in exercising on the military side 
with education of the role of the military in a democratic 
political system.
    Also, the IMET Program, the International Military 
Education and Training Program, sent 1,200 international 
students from the EUCOM theater of operations to the United 
States. You should know that the current Chief of Defense, in 
other words, General Shalikashvili's equivalent, of the 
Hungarian armed forces, is an Army War College graduate from 
Carlisle, Pennsylvania. Also the brigade commander of the Czech 
rapid reaction brigade, who is now deployed in Bosnia is an 
Army War College graduate; and the head of the Hungarian Air 
Force is a graduate of the Air Force's Air War College at 
Maxwell Air Force Base in Alabama. This is a superb program and 
I urge and I encourage your continued support.

                            QUALITY OF LIFE

    My last point, Mr. Chairman, is that the quality of life 
for our troops and families is an essential part of our 
readiness. I am grateful for this Committee's continued support 
for a decent quality of life for the forward station force. It 
is extremely important, particularly now with our high OPTEMPO, 
and the results of this adequate quality of life are evident 
not only in mission performance but also in higher reenlistment 
rates that we are now experiencing in Europe.
    Mr. Chairman, if I sound proud of my troops, I am. We in 
Europe have developed a new strategy for a new mission. We have 
adapted and adjusted the command and force structure to meet 
the challenges of today and tomorrow. NATO, too, has adapted to 
the realities of a new Europe and to new risk. Not only is NATO 
bringing peace to Bosnia, but NATO is also engaged in this new 
relationship with Russia and with 27 different partner nations.
    In my opinion, Mr. Chairman, the United States must 
continue to stay engaged in Europe politically, economically 
and also militarily. We have reduced our force structure in 
Europe by over 200,000 personnel and by billions of dollars. 
However, the current command and force structure of about 
100,000 needs to be maintained in order for continued U.S. 
leadership and influence in NATO; to leverage the assets of our 
allies and new partners; to promote professionalism within the 
militaries of the new democracies emerging in Eastern and 
Central Europe; to prevent crises from developing into conflict 
and to shape the external environment to promote U.S. 
interests, values and ideals.
    To do so reduces the danger of war and preserves peace, 
freedom and democracy. To do so ensures a better life for our 
children and for our grandchildren.
    Mr. Chairman, I am excited and optimistic about the future. 
We have an historic opportunity and we cannot, and we must not, 
and with your support we will not, fail.
    Thank you very much, Mr. Chairman, and I am prepared now to 
respond to your questions.
    [The statement of General Joulwan follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Young. General, thank you very much for an excellent 
statement. The members of this Committee are also extremely 
proud of our troops, the way they have carried out their 
mission, the way it has been done with very few casualties of 
any type. That makes us very proud of them as usual, but we are 
also very proud of you and your leadership that organized the 
effort and made sure that the mission was carried out properly.
    We have a new member of this Committee, Congressman 
Cunningham, at the end of the table on that side and 
Congressman Visclosky has just returned to the Committee. Duke 
Cunningham has been very patient in all of our meetings being 
at the end of the table. He is always the last one to be 
recognized so at this point I am going to yield the Chairman's 
first 5 minutes to Congressman Cunningham for the first round 
of questioning.
    Mr. Cunningham. I have never had this happen before in my 
life. Once in jail, always in jail.
    I thank you, Mr. Chairman, but that is not necessary if you 
had questions for General Joulwan. I will be happy to wait, 
sir.
    Mr. Young. Take it while you can. This may not happen again 
for a long time.

                FISCAL YEAR 1997 EMERGENCY SUPPLEMENTAL

    Mr. Cunningham. Usually, you are allowed time to get your 
thoughts together. So I will try.
    General Joulwan, the supplemental is very important and I 
don't think there are many Members that won't support it. But 
as you are well aware, the Services have really had to bite the 
bullet on coughing up dollars out of their own funds, out of 
their budgets. That has really hurt.
    The supplemental that you are asking for, I think it is 
accurate to see exactly what the total costs are that the 
services are having to put forward. Not only that, but the 
total cost to this country of what these ``exercises'', I will 
use a light term, exercises are doing.
    For example, what does it cost to steam the carriers, the 
airlifts out of Italy, the total cost, not just what we are 
taking out of the Services, because in a budget, when we are 
trying to tie in--all of this is tied together in the balanced 
budget and you need to know what the real costs are. And it is 
my contention, my opinion, that the President is asking for a 
$4.8 billion cut in defense, but yet we need a supplement. That 
just is not logical.
    Secondly, General Shalikashvili, in his memo, stated that 
Service Chiefs specified that we needed to go to a $60 billion 
modernization budget. In the President's budget, 70 percent of 
the cuts come in the outyears and we keep pushing the purchase 
of all of our equipment to the right, as well as combat 
support. It's that support which you need to do your job, and 
its all pushed out into the outyears.
    Now, any logical and rational person knows that there is no 
way that those that do not support national security over 
social programs are going to reduce social programs in the 
outyears when 70 percent of the cuts come, and at the same time 
increase defense spending.
    So I think it is--the reason I am asking the question, I am 
trying to get a real handle on what our real costs are, sir. 
That is why I would like a complete estimate, not just what it 
is costing us on this.

                       IRANIAN PRESENCE IN BOSNIA

    I have read a lot of documents and have had a briefing from 
our Intelligence Community. There is a dispute on the number of 
Mujahadin and Hamas within Bosnia, but isn't it--even if there 
is a lower number than I believe that is actually the case, 
isn't there an increased presence from Islamic groups from 
Iran, and that their long-term strategy is to wait this out and 
build up the Islamic forces around Izetbegovic believing that 
the U.S. is going to pull out? Because when I have talked to 
some of the Islamic people from that area, they all said that 
they expect the U.S. to pull out. And Iran will always be 
there. So Iran is attempting to establish a tie and that tie is 
going to be a very dangerous tie long-term for us?
    General Joulwan. ------. What we want to do, I think, by 
our policies and it is really in the political side, is to try 
to wean the Bosnia-Herzegovina Government away from Iran and 
the dominance of Iran. I think that is much more than just 
military. I think it is economic, it is social, it is political 
relationships that we need to try to develop.
    I would urge continued contact with the Government of 
Bosnia-Herzegovina so that it does not go back to Iran. And I 
think that takes a comprehensive strategy in order to do that. 
That is much more than just military.
    Mr. Cunningham. I agree. And I think it is one of our long-
term problems, not only with terrorism in Europe, but in the 
United States as well. And I would love to give you a book 
written by Bodanski, which is from a Serb perspective. It lists 
by names the personnel and position, and also which 
humanitarian offices over there they are using.
    General Joulwan. Yes.
    Mr. Cunningham. These offices are used to cover and hide a 
lot of these people. Another tactic is getting them married to 
Bosnian women. And I look at our world-wide threat of 
terrorism, and I think it is a real problem if we don't do 
exactly what you said.
    General Joulwan. Yes, sir.
    Mr. Cunningham. Thank you, Mr. Chairman.
    Mr. Young. Thank you, Mr. Cunningham.
    Let me yield to an old friend of yours that you worked with 
for a long time, Mr. Murtha.

                                 TURKEY

    Mr. Murtha. General, I am looking at the map in the area of 
responsibility that you have, and Turkey seems to be moving in 
the wrong direction. Is that just a perception I am getting or 
are they moving in the wrong direction?
    General Joulwan. We are concerned about Turkey and the 
whole Aegean area. And on the positive side, they are very 
active, as is Greece, in Bosnia. ------.

                                 ISRAEL

    Mr. Murtha. I have always been concerned that this line is 
drawn right here right next to Israel. I am talking about the 
line that you have responsibility for and don't. Is that the 
right place to draw the line? Is that the right delineation of 
responsibility there?
    General Joulwan. We have discussed this often and, in fact, 
I have now established in my EUCOM hat staff talks and next 
week, Central Command will be coming to Stuttgart and we are 
talking back and forth across that boundary.
    When I was in Israel, let me just give you my personal 
experience, I asked that question to, at that time, Prime 
Minister Peres, and though the threat is from the East, the 
values, ideals and their linkage is to the West. And so NATO is 
very much looking at a Mediterranean initiative that will 
include all of the countries of the Mediterranean. ------. So I 
think it is a good one. We are always looking for different 
ways, but I think in this case I would leave it as it is.

                           BOSNIA DEPLOYMENT

    Mr. Murtha. I noticed, we extended the time of 13 months--
or 18 months more for Bosnia. Of course, I opposed vigorously 
the original deployment until the President made up his mind 
and once he made up his mind then I went along with it.
    I knew from talking to you over there that there was a good 
chance that it was going to be extended. But I got the 
impression the fighting may not start--restart in Bosnia, that 
they really wanted peace. And what you said, I think, is 
absolutely true, that these folks were worn out. The land had 
been exchanged and they wanted peace.
    Is it absolutely essential that we stay over there for 
another 18 months?
    General Joulwan. Congressman, what we are about ready to do 
now is the most difficult part. We have separated the forces, 
as you know, by 4 kilometers. We transferred land. We put the 
heavy weapons in the storage areas and there was an election 
conducted and they demobilized many of their forces. The 
difficult part is now.
    Now, what is happening is the return of refugees for 
resettlement and this will determine whether Bosnia Herzegovina 
becomes a multiethnic, multicultural state again, and this is 
the challenge that we are going to face. The secure environment 
for that to take place is provided by the Stabilization Force, 
SFOR. And it is a stabilization, not an implementation. So I 
think there is going to be some need in the next--for the next 
16 months now of the 18-month mandated mission for forces to be 
there.
    Conflict is right beneath the surface, and I--and it is a 
very delicate stage of having people return to their homes, 
particularly when they go into what we would call minority 
areas, where they are the minority, is going to be a great 
challenge. And I just visited recently and saw this in 
operation, and there is a great deal of tension. And what SFOR 
does is provide time for this wound to heal and that is why I 
think, in 18 months, we should know where we are--a much better 
sense of where we are in that respect.
    Mr. Murtha. Well, why is it that the Europeans can't do 
this? I know we originally went over there. They said we don't 
need your advice; we don't need your help. Then they came to 
the conclusion they couldn't do it without the United States. 
What is that we bring to the table that--we only have 25 
percent of the forces. Why do we have to have 25 percent of the 
forces over there?
    General Joulwan. I would like to say leadership in what we 
are trying to do. There is some of that. But also the 
credibility and the weight of the United States of America. 
Don't underestimate what that means in terms of trying to 
ensure compliance with a treaty or continued progress in the 
process in resettlement, reconstruction, elections.
    Mr. Murtha. You are being nice, though. Is it that the 
Europeans can't deal with each other? Is that what the problem 
is? They need leadership? I can't figure this out.
    General Joulwan. Well, first of all, the Europeans wanted 
NATO to come in, and the United States is a key member of NATO. 
For NATO to have a NATO-led force, where they have an American 
as the Supreme Allied Commander it would be difficult not to 
have forces involved. So for a NATO-led operation, it makes 
sense.
    In this case, though, I think the key point is, it is only 
25 percent. In the past, it might have been 85 percent.

                        TRAINING BOSNIA MUSLIMS

    Mr. Murtha. One last question now. We are training the 
Muslims. Europeans don't like us training the Muslims. They 
think that there is balance before you start training the 
Muslims. A lot of people in this country think we ought to be 
training the Muslims. I am not one of them.
    Now, what does this do? We have a couple brigades that are 
well trained. Is this going to change the balance of power over 
there in that area?
    General Joulwan. I think it will balance the balance of 
power. When we first started all of that--by the way, that is 
part of Dayton. It is not something just the U.S. is in.
    Mr. Murtha. I understand.
    General Joulwan. This is part of Dayton. When we started 
it, the preponderance of heavy weapons belonged to the Serbs, I 
mean by a factor of--there were 500 tanks on the Serb side to 
less than 100 on the other side.
    Mr. Murtha. But that is not tank country.
    General Joulwan. They did more damage with tanks over there 
firing point blank into buildings that had civilians in it than 
anything else. Artillery didn't do that much damage. They were 
firing from 40 positions around Sarajevo point blank using the 
tanks just like you use a rifle.
    Mr. Murtha. They used it as artillery, in other words?
    General Joulwan. Well, they used it in direct fire in the 
buildings. I mean, they would aim right into a building, and it 
was very accurate fire.
    They pulled out--when we put in the bombing campaign in 
September with precision bombing, 250 heavy weapons came out 
just from around Sarajevo. So there has to be some balance.
    Now, I think the idea is not to overdo it and to make sure 
that what you are doing is for defensive purposes. And I must 
say, the arm--the training and equip is a program, but I am not 
involved in it.
    Mr. Murtha. I understand that.
    General Joulwan. But I think if you keep it in balance with 
the arms control part of annex 1B of the Dayton Treaty, I think 
it can work, but it needs to be watched.
    And by the way, there are 10 to 15 other countries involved 
now, not just the United States, in arm and equip.
    Mr. Young. Thank you, Mr. Murtha.
    Mr. McDade, the Vice Chairman of the full Appropriations 
Committee.

                   IDENTIFICATION OF MINES IN BOSNIA

    Mr. McDade. Mr. Chairman, thank you very much.
    General, let me extend my personal welcome to you. It is a 
privilege to see you here today and to work with you again.
    I feel badly that you will be leaving the service, I guess 
in the summertime, and I want you to know you carry with you 
the best wishes of the Committee. You have done a superb job. 
We knew you would with Congressman Murtha as a partner, may I 
say to you, but you have really--I remember reading about the 
number of mines in Bosnia, there was some fantastic figure, X 
number of millions.
    General Joulwan. Millions.
    Mr. McDade. I forget how many and predictions about the 
number of youngsters who were going to be maimed and injured, 
killed, because of this proliferation of mines. And I don't 
know how you have handled it, but I am sure you have handled 
it. How have you handled it?
    General Joulwan. Well, first of all, we started a very 
intense identification campaign. Where are the mines? And the 
best people to get were the parties themselves that laid the 
mines. Then we started a very deliberate program of getting 
those who laid the mines to remove them.
    Now, it started to go fairly well at the beginning. It has 
not gone as well in the past I would say, 6 months. Now, what 
we have done is restricted the training. In other words, if--
they have to get permission, these former warring factions to 
go train. If they don't have a plan to remove mines, we don't 
let them out to train. So we put some emphasis in that area.
    There are many nongovernmental organizations that are now 
involved and there is a mine awareness center in Bosnia that is 
trying to catalog all of these mines.
    Mr. McDade. Who runs that, General?
    General Joulwan. I think it is a U.N. agency, but I will--
it is a private organization.
    Mr. McDade. Are they doing a good job?
    General Joulwan. They are doing a good job, but we still 
have a lot of mines, if I can be very candid, and we must get 
rid of them. In terms of the technology we put into space and 
elsewhere we haven't put it into mines, but that is coming. It 
is going to take a little bit longer, but we are now seeing 
some technology come on board.
    Mr. McDade. I forget where I picked up a piece of 
information that related to percentage of youngsters in Vietnam 
who were injured because of mines and body traps and it was 
something like 60 percent of the casualties, isn't it?
    General Joulwan. A great number. I don't know the 
percentage, but a lot.
    Mr. McDade. I don't know the exact number either, but it 
was astonishing to me so many of our people got injured and 
dreadfully injured by those things.
    General Joulwan. The other piece that we do, Congressman, 
is that in my U.S. hat I make everyone going there to Bosnia go 
through a 3-month training program before they go into theater. 
And one of the key elements of that is mine awareness. And so 
there is a great deal of emphasis. And the discipline--this is 
not a peacekeeping operation. This is a peace enforcement. This 
is tough business.
    You go down there and it is not--particularly out along the 
zone of separation, this is tough business. And the troops got 
their head in the game. I just came back from Brcko which is 
surrounded by mines, by the way.
    The other thing which has really helped us, and I must 
credit Secretary Perry, when he first visited me a year ago, he 
said, ``what do you need?'' And I said, armored humvees. And we 
now have humvees that are armored, just about all of our 
vehicles that go out on patrols. And just last week, a U.S. 
patrol hit a mine, blew the heck out of the armored humvee and 
the only damage to the American: he had a little hearing loss 
for a few hours.
    So our technology and what we are trying to do, training, 
discipline of the force and I hope we can keep that going. We 
cannot have soldier complacency, and every time we have a 
rotation of forces we try to reinforce the importance of mines.
    I might say that civilians, however, are getting--are 
becoming casualties as more and more return and we are trying 
to get smarter in working with the nongovernmental 
organizations to--particularly the United Nations High 
Commissioner for Refugees, or UNHCR, and warning people coming 
back.
    Mr. McDade. Do you have any idea what percentages of the 
mines remain in place given say the 9 million? Do you have any 
idea?
    General Joulwan. I would say the vast majority of them.
    Mr. McDade. You still have a long way to go?
    General Joulwan. A long way to go.

                     UNMANNED AERIAL VEHICLE (UAV)

    Mr. McDade. Let me ask you another question. Your command 
was the first to use a new reconnaissance asset in a low-level 
intensity conflict and I remember a demonstration that we saw 
on one occasion. Evaluate the importance of that for the 
Committee, will you?
    General Joulwan. If we are talking the UAV and the Airborne 
Reconnaissance Low, superb. The UAV, the Predator has really 
come into its own. There is still some work we have to do in 
getting it into all-weather sort of things, but it really has 
helped us.
    It is a very good asset.
    Mr. McDade. Have you sufficient assets to do the job you 
need in that department?
    General Joulwan. I believe so, Congressman. What is most 
important is we can downlink from the UAV into the battalion 
Terminal Access Controller, TAC, into a battalion TAC operation 
center. So the battalion commander, lieutenant colonel, can 
dynamically task the UAV flying up ahead.
    We also have at the Combined Air Operation Center that I 
run out of Vicenza, and therefore it is allied supported as 
well, we use. When we had Joint Surveillance Target Attack 
Radar, Joint STARS there, we had Airborne Warning and Control 
System AWACS, the UAV, Airborne RECCE LOW, we put a system of 
systems together and so they could cue back and forth. And so 
if we saw a violation occurring or we saw a movement occurring, 
we could quickly respond and that information dominance in this 
sort of operation really helps. And so we are learning every 
day.
    I am very pleased not only with the platforms themselves, 
but how we can get them down to the lowest level, in this case, 
a battalion.
    Mr. McDade. Thanks for the explanation. My time has 
expired. Thank you, General. Nice to see you.
    General Joulwan. Yes, sir.
    Mr. Murtha. I was just asking the Chairman, Commanders--
aren't they saying that there is a problem with this system, 
they are not getting the satellite feed the way they are 
supposed to?
    General Joulwan. It has been working. We have had a problem 
with icing during the winter, the cold weather, and we are 
trying to work that out.
    Mr. Murtha. That is a connection between the satellite and 
what--but it is working?
    General Joulwan. It is working and we have had good results 
with it in being able to cue it.
    Mr. Hobson. If the gentleman would yield, when I was there, 
they had a couple of them out there but they weren't flying 
them because the weather was a problem. They also had some 
mechanical problems. They were waiting for the next system that 
they thought would really be good, whatever the name of that 
one is. I don't know what it is.
    General Joulwan. Well, there were two different systems. 
One is called Pioneer. The other is called Predator. The 
Predator, at least every indication I have, is working 
extremely well. We have had some problems with it in weather.
    Mr. Murtha. Let us get something on that for the record.
    General Joulwan. All right.
    [Clerk's note.--The Department did not provide a response 
for the record.]
    Mr. McDade. Let me just ask one follow-up question since I 
raised the issue. You say weather. What we hear, what we know 
about Bosnia, is that the weather is always bad. So if the 
weather constrains the use of that asset, how good is it?
    General Joulwan. Well, we are working on a de-icer. When it 
flies and there is no de-icer on-board-capability; it has 
difficulties. So when it is icing conditions, it has got 
problems.
    Mr. McDade. Low visibility isn't bothering it? It can get 
down?
    General Joulwan. It can get down fairly low.
    Mr. Cunningham. Would the gentleman yield?
    Mr. McDade. Yes.
    Mr. Cunningham. I went through the plant this last weekend 
and what they are doing is putting it in the leading edge and 
then they are leaching out a fluid that de-ices the thing. 
Also, with the radar, they can actually see through the clouds 
now and find targets and so on. So it is a pretty good system.
    Mr. Young. General, our next Member is fresh from the 
operating table so go easy on him. We are glad to have Mr. 
Obey, the Ranking Member of the full Appropriations Committee.

                   RUSSIAN REACTION TO NATO EXPANSION

    Mr. Obey. Well, thank you, Mr. Chairman.
    General, I would simply like to ask you roughly the same 
thing that I asked General Shalikashvili yesterday and the 
Secretary of Defense. I have grave misgivings about the 
administration's intentions to expand NATO. I am confident they 
are going to get a deal with the Russians. I think in the end 
Yeltsin will wind up signing on.
    But my concern is that while Yeltsin may buy on because we 
may give him a little cover, I am afraid that that has the 
potential of being greatly exploited by future hard-line 
nationalist politicians who in different circumstances, 
political or economic, could play a pretty mean card by saying 
that they were, quote ``duped by the West.''
    I am also concerned about the fact that it may, in fact, 
make it more difficult to actually achieve Russian ratification 
of arms control treaties that we have signed with them, both 
existing treaties and even new treaties, even though we may 
offer them some sweetener in terms of further reductions on 
conventional arms.
    Do you have any concerns at all about the additional 
opportunities that might present those who within Russia might 
want to resist signing those arms control agreements?
    General Joulwan. Congressman, let me answer it this way if 
I may: Basically, it is a political question of whether NATO 
enlarges from its present 16 members or not. In retrospect, if 
you go back in 1951, the North Atlantic Council originally was 
12 nations. It enlarged to 16 over the next 30 years. Article X 
of the 1949 Washington Treaty that established NATO, Article X 
allows for sovereign nations to apply for membership. That, 
then, must go through the 16 Parliaments, Congresses, et 
cetera.
    I think that applying for membership should be--is a 
sovereign right of any sovereign nation, so I think applying 
for membership is one thing. The impact it would have on 
Russia, I think, needs to be closely looked at. From a geo-
strategic point of view I would say that if many of these 
nations that we talked about are members, it provides stability 
on Russia's western flank, not instability, which is part of 
their concern. So I am not so much concerned about Russia's 
thinking that somehow they are at a military disadvantage 
because of this. It doesn't hold water when you do the 
analysis.
    Whether the countries that we are talking about for 
membership come in or not, again, it is a political decision, 
but they are sharing the risk with NATO right now in Bosnia. 
They have forces on the ground. They are demonstrating shared 
values. Some of these countries have reached out to their 
neighbors and now have treaties with their neighbors, are 
demonstrating that they really want to create the values and 
ideals of the alliance as well. So I would say they ought to at 
least be heard.
    Whether the political side will accept them, that is 
another dimension. But we do have, NATO has, a very active 
program now of consultation with Russia. The Secretary General 
has just met on Sunday with Primakov in Brussels. The month 
before he was in Moscow. There is talk of a Russian NATO 
charter that is being looked at.
    So I think every attempt is made to reach out to Russia; at 
the same time not allowing some sort of Russian veto of what 
NATO is trying to do.
    I don't see it as a threat. I think in many cases, it can 
bring stability to the region.

                       JOINT NATO-RUSSIAN BRIGADE

    Mr. Obey. I guess I would simply say that I think letting 
Spain into an organization is somewhat less troubling to Russia 
than having countries near their border being new found members 
of a Western alliance.
    I am also concerned about the fact that if you are 
Ukrainian or if you are living in Estonia, Latvia or Lithuania 
or any of those areas that, in fact, if we add Poland and some 
other first slice countries, that it creates at least the 
potential for added Russian pressure on those folks who are not 
allowed into NATO at first blush and might, in fact, create 
problems for them down the line, but I recognize that is a 
political judgment.
    Let me ask you this, Secretary Albright just floated this 
idea of a joint NATO-Russian brigade as part of the sweeteners 
package that I was talking bout. Is that a workable idea? How 
much would it cost the U.S.? What kind of capability, in your 
best professional judgment, do the Russians have to finance 
that given their military problems at the time?
    Is NATO liable to wind up being stuck with all of the 
costs, except for payment of the troops, the Russian troops, 
and were you consulted prior to that announcement?
    General Joulwan. The answer is, no, but we are working now 
trying to determine what are the limits of this initiative that 
we have discussed. We have discussed, as part of this, how to 
evolve from what we are doing in Bosnia, which may have led to 
this discussion.
    What we need to do is build on this, this relationship, 
that we have. We have a Russian brigade in Bosnia now, working 
within a multinational division, headed by an American major 
general division commander. We need to build on that.
    I have personally attended lessons-learned seminars in St. 
Petersburg and we are going to have one in April at the 
Marshall Center in Germany.
    So I think we are building on this, and the intent is, can 
we work together in a way to be able to respond to similar 
crises by developing a unit that can help? But we haven't taken 
it to the level of a NATO-Russian brigade, We are just doing 
the fundamental work here. The costing has to be done. What 
equipment, the interoperability of that equipment, all of that 
is yet to be done.
    Mr. Obey. I would simply say that in Defense News, there is 
an article on this subject which contains the following 
paragraphs: Quote, ``What the hell is going on? a military 
planner chief told Defense News February 21st. We have already 
got a very good model of cooperation with Russia and SFOR, but 
the Russians must still learn to walk before they can run, said 
the planner. A joint brigade is way beyond what we can offer 
right now.'' And it says, ``one U.S. official admitted that 
even the issue of financing the joint brigade could be 
problematic for the alliance in view of the Russians' military 
chronic cash shortage.''
    Do you have any----
    [The article follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    General Joulwan. I have seen that article. I am trying to 
find who said that at Supreme Headquarters Allied Powers 
Europe, SHAPE.
    Mr. Obey. But is he really wrong?
    General Joulwan. Well, I think it is an overreaction. I 
don't want to belabor the Committee, Mr. Chairman, but I have 
spent a lot of time with the Russians trying to get through 
this suspicion and fear they have of NATO. And it truly is 
something that has been developed over 45 or 50 years or maybe 
even longer, and we have got to figure out a way to have this 
dialogue And the best thing going for us is what we are doing 
with the military--the military cooperation.
    We have got to build on that. And if it takes some 
initiatives that we are seeing in Bosnia. If we could work this 
three-star general I have in Mons, Belgium, trying to work 
together, seminars, and at the point, if we ever get to that 
point, if we could work out all the details, some way to train 
together, I think that, to me, is the way we need to go. But we 
are having a heck of a time getting through this suspicion and 
fear. And so we need to find ways to do that.
    The reaction by this officer at SHAPE, I think, was an 
overreaction. I think if you talk to most of the people there, 
they are very pleased with the contingent of Russian officers. 
I would like to see, for example, NATO send a similar 
delegation to Moscow to work in their general staff to start to 
build this relationship.
    We know how to fight. If you want to come back, I know how 
to do that. But what we have to be able to do--how can we 
prevent conflict? And that is not a weak way, that is not a 
weak response. We have a hundred thousand white crosses that I 
am responsible for in 21 cemeteries in Europe that we have 
allowed in this century, two World Wars to develop, and I am 
trying to figure out how to prevent another one. And the way 
you do that is to outreach and try to have some dialogue from a 
position of strength. And from our relationship and the United 
States' relationship, we have spent 45 years developing this 
great thing called NATO. Now is the time--the mission 
continues. It doesn't end with the collapse of a Berlin Wall, 
and Russia is the key.
    If we could somehow reach out to Russia and include them in 
what we are doing, not giving them a veto, not running scared 
if they say this country or that country can't come in, but 
work with them in a way to bring about what I think is going to 
be required, that is just trust and confidence, and that may 
mean a NATO-Russian brigade at some point, but we are not there 
now.
    Mr. Young. General, I want to ask you to clarify something. 
Mr. Obey asked you two questions and you answered, no, and I 
wanted to make sure which question you were answering, no, to. 
I think it was the question about whether Secretary Albright 
had consulted with you or had anyone consulted with you before 
she made the proposal. And you answered, no. Was it, no to that 
question?
    General Joulwan. On the specific of the NATO-Russian 
brigade. we had been talking about how to work together with 
their military, but in terms of a NATO-Russian brigade, no.
    Mr. Young. Okay. Mr. Lewis.

             INTERNATIONAL MILITARY EDUCATION AND TRAINING

    Mr. Lewis. Thank you, Mr. Chairman.
    Welcome, General. Blessed are the peacemakers. You know, 
often we forget that that is very much what you are about and 
you articulated that, I think, very well.
    In your statement, you make reference to the International 
Military Education and Training, IMET. Often times we hear, get 
distorted in the way we review programs like that, I remember 
early in my own career here, much of our debate flowed around 
Central America and Latin America and IMET kind of got a 
negative cast here in the mind's eye of many, and yet the point 
that you are making about confidence among Russian military 
people and that longstanding lack of confidence in one another, 
suspicion of one another, it would seem to me that programs 
like IMET affecting those other countries in Eastern Europe, 
those that were part of the Soviet Union, allows us, perhaps, 
avenues for impact that could be very important. Those 
exchanges, it seems to me, should be raised in priority. Could 
you just elaborate a bit on that?
    General Joulwan. Absolutely, Congressman. In fact, I will 
give you a very good example General Vegh, is the Hungarian 
Chief of Defense. In one year he has totally transformed the 
Hungarian military under his leadership. He is a graduate, as I 
said, of the Army War College in Carlisle. He has come to see 
me on several occasions. He has appointed an Air Force fellow 
from Maxwell, a graduate of Maxwell. He has completely 
revolutionized that country's military at a critical time in 
their development, and that is all through IMET.
    We see this throughout most of these countries of Eastern 
and Central Europe. It is a way to instill not just technical 
training, but ideals and values that are going to be very 
important, I think, for the future. This is a different culture 
that they have been under for so many years, and the way you 
change it is by using things, initiatives, like IMET. High 
payoff, low cost.

                         EMERGENCY SUPPLEMENTAL

    Mr. Lewis. Technically IMET doesn't fall under the 
jurisdiction of this subcommittee, but the overlap is obvious.
    You mentioned that 25 percent, we have 25 percent of the 
forces in Bosnia, yet we have a supplemental up here that 
involves $2.5 billion. It is very clear that money is fungible 
and that puts pressure on all of the rest of the services. As 
we go about responding to the President's request, we are 
shrinking the overall budget. Any comment? Ninety percent of 
the cost is ours over there anyway, isn't it? Maybe not.
    General Joulwan. Well, I would say that what I see of the 
multinational force, that we have leveraged it. Many of these 
countries are participating at great cost to them, both in 
manpower and in dollars or whatever their currency is. This is 
a great step forward, and I feel very privileged to be the 
overall operational commander, not just for U.S. forces, but 
for this multinational force who have put their trust in us 
here that we are going to do it right. And they are as 
concerned about their young men and women as we are, and they 
have put their people and their treasure into this in 
comparative numbers given some of these small nations.
    It is a very clear statement, I think, that they really 
want this to be solved. So I think it could add up to dollar 
amounts. I don't think it is 90 percent of the cost. I think it 
is much less than that, but the comparative cost by some of 
these nations--in fact, I figured it out for Norway. For their 
initial contribution, we would have to have over 150,000, in 
the comparative sense, given their population.
    So these nations have contributed, and that includes, 
Russia, the Ukraine, Poland, Hungary, Czech Republic, and 
Austria also Finland, Sweden, Estonia, Latvia, Lithuania, all 
have joined us in this endeavor.

                        UNMANNED AERIAL VEHICLE

    Mr. Lewis. In the meantime, we do have real money pressures 
here, the request to reduce the budget, et cetera. So we just 
need to put all of that in perspective and that is part of what 
this exchange is about.
    Operationally, I just have a minor problem. Some on the 
Committee would suggest that I have heard of UAVs before. But 
in Bosnia, there really has been a demonstration project of the 
potential of the future there.
    For example, we were able through Predator to assess the 
bomb damage that took place there. We knew, for example, that 
the Serb tanks weren't being withdrawn, et cetera, so in many 
occasions it has been very, very valuable. But it was mentioned 
that weather is a problem and the wet wings need, in terms of 
technological development, is very real.
    Currently, you may or may not be sensitive to this, but 
currently, the Air Force, who is managing the program, is not 
volunteering Predator as often as we used to get its services 
and specifically they are resisting testing wet wings in the 
Bosnia theater. That frankly, I think, would decelerate how 
quickly we can put that technology into place and I would urge 
you to focus on that if you haven't had a chance to.
    General Joulwan. I will.
    Mr. Lewis. Mr. Chairman, thank you.
    Mr. Young. Mr. Skeen.

                            TERRORISM THREAT

    Mr. Skeen. Thank you, Mr. Chairman.
    General, I want to congratulate you and express my 
appreciation for the service that you have given this country 
and the intelligence that you have used in trying to come up 
with something in a meaningful solution to some of the 
worldwide problems. That is a heavy load and I am sure that 
your shoulders are going to snap back up in place after you get 
that load off of it after a while. I hope that you enjoy your 
retirement and whoever your area commander is, they will be 
glad to have you there.
    I wanted to ask you, one of the major concerns that we have 
is the protection of our troops against foreign terrorist 
attacks in that theater of operations. What is going on to 
assure that we don't have any losses like we did in Saudi?
    General Joulwan. We are working that very hard, 
Congressman. We are very much involved in on-site inspections. 
I have an oversight group that meets at my headquarters in 
EUCOM. They watch us very closely, every deployment that we 
make.
    We are using technology, as was mentioned, to the best of 
our ability as well. We have something called a--for want of a 
better term--a ``blue dart message.'' I have a Joint Analysis 
Center in Molesworth and we have a cell in there that is 
concentrated on intelligence and terrorist intelligence that 
relates to the troops. And what I found in the past in other 
areas that we have been involved in over the past 30 years, 
that somehow an analyst gets this good report, but the troops 
that need it don't get it in time. So I time them now. They 
have minutes to get it down there to the troops and not analyze 
it to death. And we run drills on this.
    Now, I hate to be that positive because you never know, if 
terrorists are determined they really have the advantage. But 
we are doing everything we can to try to take that advantage 
away from them.
    Mr. Skeen. Very typical situation, and I understand that. 
That is why I am particularly interested in the response 
because it is a huge problem to try to close up all the holes 
in the sieve.
    General Joulwan. But to me, it is a discipline problem, 
mental awareness. That is why we go through this training 
program when we go into Bosnia. We have a deployment today 
taking forces into Liberia. We put a joint task force together. 
They are taking Africans in to control the situation, rather 
than Americans. And we went through a force protection drill. 
Before they deployed, that risk assessment was done. They 
deployed with proper protection and intelligence and so we go 
through this for every deployment.
    Now, you can't reduce the risk to zero, but you can reduce 
the risk and it is the leadership, it is the discipline of the 
soldier, it is using technology, and it is getting the mission 
right, all of that before you deploy.

                        UNMANNED AERIAL VEHICLE

    Mr. Skeen. I would like to put in a word for the UAVs as 
well. Mr. Lewis here on the left, and I have a co-
responsibility. They are producing them in his district, but 
they are testing them in ours in a Desert Sands exercise. It 
has been phenomenal. I watched the utilization and the 
operation, and it is just amazing.
    General Joulwan. The key is we are using them now. I used 
to command the first of the 26th Infantry many, many, years 
ago. I went into their tactical operations center with 
Secretary Perry in November. They are set up in the Posavina 
corridor in the zone of separation, smack dab in the middle of 
it, one operations center better than anything I could ever do.
    And one thing that they have the ability to do is to 
request and get information at the battalion level. So when he 
has a patrol going out, he has a way to either cover it or give 
it intelligence. They have a little intelligence fusion center 
there. And the UAV gives it a capability that we never had 
before.
    Now, we have some product improvement as we go along and we 
have got to do that. The Airborne RECCE LOW is another platform 
that I helped develop when I was in Panama. This you could put 
non-U.S. on board. I have tried to take NOFORN away; and 
encourage foreign release of certain intelligence.
    If we are going to work with these people that contribute 
to troops, we have got to figure out a way to share 
intelligence. And so I am trying to get a system that we could 
put on board. Now, you could put foreigners on board these 
planes or allies and they could actually see a digital readout 
when they are flying over the zone of separation. Where you 
have a problem, you could put three of the warring factions on 
there.
    So we need systems that give me that capability to dominate 
the intelligence and the information that is every bit as 
important as having tanks and Bradleys and ships and all of 
that on the field. And we are getting much better now. We have 
learned a heck of a lot in Bosnia, and I really appreciate the 
contribution the UAV is making.
    Mr. Young. Mr. Skeen, thank you very much.
    Mr. Dicks.

                            MISSILE DEFENSE

    Mr. Dicks. General, I want to compliment you on the great 
job you have done. I was interested in your statement today. 
One of the things I remember is Congressman Murtha and members 
of this Committee who went out to the Gulf War and the 
vulnerability that we felt to theater missiles, to the SCUDS, 
and you started to think that if the Iraqis possessed accurate 
SCUDS with either chemical or biological weapons, nuclear 
weapons, they could have done incredible destruction to us.
    One, we couldn't target the launch. We couldn't find them. 
They used very sophisticated denial and deception techniques, 
and number two, we didn't have an adequate system to defend our 
troops in the field.
    Now, as I read your statement, you say the active defense 
portion of this theater missile defense framework must be 
capable of providing precision engagement and full dimensional 
protection against weapons of mass destruction in support of 
out-of-area operations, as well as wide area defense to protect 
U.S. and allied interests. Our current capabilities are not 
adequate to meet the challenges of the future, particularly in 
our southern region along the Mediterranean and in the Middle 
East.
    Tell me what you think we need to do that we are not doing 
and give me your assessment here.
    General Joulwan. We need a system of systems, Congressman. 
We need to be able to not just look at what I call the boost 
phase, the mid-course and terminal phase of an incoming 
missile. All of that is important. We have got to also look at 
the shooter.
    I would like to have systems that give us intelligence of 
when we have a missile system coming in, some event or some 
other intelligence means and then a means to go after the 
shooter and refires before they can come back to us. That's the 
first one.
    The other thing, the Medium Extended Air Defense System 
MEADS, that we have, are not allied. Italy and Germany have 
joined us in this endeavor. That is very positive. They are 
helping us in the developmental costs and the research and the 
procurement of this system. Excellent. We need to do the same 
thing in theater missile defense.
    Mr. Dicks. This would deploy with our moving forces, right?
    General Joulwan. Yes.
    Mr. Dicks. And give air defense to the brigade or the 
division?
    General Joulwan. Yes, exactly.
    Mr. Dicks. General Peay tells me over and over again that 
this is one thing that he worries about that we are moving to 
the right and we are not as aggressive about this as we ought 
to be.
    General Joulwan. I fought for MEADS. I think it is okay 
now. From what I understand, it is on track. Theater high 
Altitude Air defense, THAAD, is another piece of that, but you 
have to look at the whole system of systems for not only the 
terminal and not only the mid-course and the boost, but also 
for getting the missile before they shoot. Therefore, the 
command and control of this system is very important; that you 
have a command and control system that can move quickly, 
because, as you know, this can happen within minutes and you 
need a command and control system that is responsive. I am 
working on something in Ramstein called an Air Operations 
Center. I have been working theater missile defense now since 
1985.
    Mr. Dicks. Right.
    General Joulwan. So what we are trying to answer is, how do 
you command and control it? And what we are trying to do in the 
southern region of NATO that you mentioned--and let me be very 
clear, Libya is part of the problem, because with their reach, 
they could reach much of NATO in time.
    Iraq, when we put the time lines in it, if technology 
continues to develop, can reach much of NATO.
    Therefore, NATO is looking at theater missile defense as an 
alliance system, and I would encourage that.
    So there are things that are being developed that are 
beyond just the missile, that include command and control that 
are every bit as essential to the conduct of an operation as 
the missile itself.
    Mr. Dicks. All right. Let me just--not to bore my 
colleagues, but let me just give you another idea that I have 
had on this thing.
    When you look back at the Gulf War, one of the true assets 
we had was the F-117, stealth aircraft, and if you could have 
stealth aircraft with Link 16, the ------?
    General Joulwan. That is right.
    Mr. Dicks. My view of this is that you can do this with F-
117s and eventually, when we get the weapons on in the block 30 
upgrade on the B-2, you have another capability to use this 
bomber to come in and attack these targets, to go after the 
surface-to-air missiles, say, with Joint Standoff Weapon JSOW, 
go after SCUDs with sensor-fused weapon or these 2,000 pound 
bombs, to go after relocatables, but it seems to me that that 
gives you the offensive side of it. But you still need to 
develop this umbrella system, this theater missile defense 
system so you can actually defend the fields and defend the 
forces. And if you could put those two systems together you 
would then be able to have a very dynamic ability to, one, 
protect the force, but also attack these targets.
    General Joulwan. Exactly right. That is what we are trying 
to develop. That is why I called it a system of systems. The 
problem is we have talked about an offensive and then another 
group has talked about a defense. You have to get them 
together.
    Mr. Dicks. You have to do both.
    General Joulwan. That is what we have done. I have been 
trying this since 1985 and we are close. But the 
communications, the command-and-control piece, is equally 
difficult, because you are talking about offensive and defense, 
and you are trying to put them both together. And we now are 
experimenting with that at Ramstein AB today.

                            JSTARS AIRCRAFT

    Mr. Dicks. How about JSTARS, how has JSTARS been 
performing?
    General Joulwan. JSTARS, we just had a deployment in 
November and December. JSTARS demonstrated its worth, in my 
opinion, in Bosnia. It has put the zone of separation on its 
maps and gave us great information back. And it has been used 
as a cueing platform that I talked about, and it goes to your 
question of theater missile defense.
    The other thing I would put into the equation is the UAV. 
If you have a region or an area, and you could task a UAV to go 
to that area, it could find the target for you and you can cue 
shooters in to be able to take it out.
    We are on the verge of doing that now out of this Combined 
Air Operations Center and we have learned a great deal about 
how to put these systems together.
    Mr. Dicks. If you would give me one second.
    Mr. Young. One more second.

                       JOINT INTELLIGENCE CENTER

    Mr. Dicks. One more comment.
    I went to Vicenza to the Joint Intelligence Center, and I 
must tell you I thought that was an incredibly successful 
operation. And the ability to use all of our national systems, 
to use our theater systems, aircraft, UAVs, the whole thing and 
fuse it right into one area and then be able to directly 
communicate with the battlefield commanding officers in Bosnia, 
to me, is another incredible step forward.
    What I am asking you, is are we able to do these joint 
centers more than just on an ad hoc basis, but to make this 
kind of part of each of our CINCs and be able to move it out 
there and replicate this in the future?
    General Joulwan. I think so, Congressman. We have worked 
very hard on it, and I think it has applicability elsewhere in 
other theaters as well.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Young. Mr. Hobson.

                        RUSSIAN TROOPS IN BOSNIA

    Mr. Hobson. Thank you, Mr. Chairman.
    General, I think you have done an absolutely amazing job, 
much better than most of us expected the success would be in 
the theater, especially in Bosnia. I have a couple of questions 
about that.
    I differ somewhat with Mr. Obey about approaching the 
Russians and those countries. I think it is very positive. I 
happened to try to go to Latvia to visit one of my constituents 
who is there, very active in defense matters--a former U.S. Air 
Force Colonel.
    A couple of things about Bosnia I would like to ask, and I 
will ask them and then you can answer what you want.
    I am a little concerned about the morale of the troops in 
Taszar and I don't know how many are still there. There were 
like 4,500 when I was there. They were all worried about coming 
home, because they don't have anything to do until everybody 
comes home. Somebody told us they were worried about the water 
in the bottle, but it didn't taste that bad to me. That is one 
question.
    I don't know who the Russian general is now, but General 
Nash and the Russian general that I saw there had a great 
relationship, and I thought it was wonderful. I think it should 
be promoted any way you can, because the understanding of those 
people transcends back into the government later on. This guy 
was an air trooper. He told me he jumped 30 times a year. I 
don't know how he did, but they had a great camaraderie there. 
I don't know how it is going with the new guy, but I think that 
should be encouraged.
    The other thing that concerned me somewhat, when I was 
there--I have been there twice--is the nongovernment aid in 
Srpska by the outside groups. There was hesitancy by the 
other--they were all eager in the Muslim area and Croatian 
area, they would go in there and work, but when you got over in 
the Srpska area, there was a hesitancy by some of the outside 
groups to go in there, maybe for security reasons or a lot of 
other reasons. And they weren't received as well, but there was 
some tension about that. Has that changed any?
    General Joulwan. Let me answer that last question first. It 
is difficult because Srpska will not recognize the national 
governments, the national institutions that have been voted in 
last September, in many respects.
    For example, there is some good news on telephone lines. I 
forget the number. I think it is like 60 to 70 percent now have 
some telephone system. But we can't get it across the Inter-
Entity Boundary Line, IEBL, because Srpska will not agree. We 
are trying to open up four airports, to get funds in there to 
try to open up airports.
    Srpska will not agree to something--similar to our Federal 
Aviation Commission? They will not agree to have one that 
represents the nation. So it has been very difficult.
    I would agree with you that we should try to do more with 
Srpska. They need to cooperate with us, and I have said that to 
Krajisnik and Madam Plavsic that we need to get some 
cooperation from you to get the needed aid that you should 
have, and we are working that very hard.
    On the Russian relationship between Nash and General 
Lenzhov, you are right, that is an excellent relationship, and 
we are building on it. The new team in there now of General 
Meigs and his Russian counterpart. That is also working well.
    The new Russian Commander came in and in 24 hours was in a 
situation where he had to call for fire, or just about call for 
fire, because his troops were in danger and American troops 
were going in to help him, and he passed the test very well. I 
visited the Russian forces, walked their perimeter, crawled 
into some of their holes that they dug and I must tell you that 
I asked the sort of questions that I ask of troops. And they 
are very well-trained.
    Now, I know what we are hearing about Russian forces and 
demoralization of them, and they are not well-trained. But this 
group that they are sending there is extremely well-trained, so 
I think we need to build on that.
    On the morale of our own troops, I must say I also ask a 
lot of questions and am sure we have got some shortages 
somewhere. But in the main, I have found the morale to be very 
high. They are doing a tough mission.
    Mr. Hobson. I think that is true inside the perimeter of 
Bosnia. They are very motivated, but you have got supply-type 
troops sitting around there. They were confined to the base. 
They could only take so many off.
    General Joulwan. You can blame that on me. I am the guy. I 
am the guy that confined them to the base, and they are going 
to be very deliberate in what we do. And I am the guy.
    But I can tell you that I have called them the best support 
troops in the world, and they are. They have done magic in 
Bosnia and in Hungary and they have established a base there 
that is, again, a model for future involvement of how do we 
protect the force and how can I respond quickly if something 
goes sour on us?
    And I assure you I will respond quickly if something goes 
sour, but I need to have the assets to do it, and we have got 
them there in Hungary. So I will look into some of their 
problems. But in my view the medical unit there is superb.
    Mr. Hobson. Everything is fine. It is just that, you know, 
they are sitting around. They are the guys who were the first 
ones there. They are the last ones out. Like any troops 
overseas they want to know when they are coming home because 
they don't have the same heightened tension factor that the 
troops inside the theater do. It is a tough job. I am not 
criticizing.
    General Joulwan. It is.
    Mr. Hobson. I am just saying it is a tough job. There was a 
new general there. I think he was going to try to get after 
that situation. But that is just a potential problem. You have 
got a lot of potential problems.
    General Joulwan. But if you could just visit them, when you 
all go there, and I have seen all of you, particularly 
Congressman Murtha, they talk to those troops, and just a word 
of appreciation from you, I mean, it is worth volumes of what I 
could do.
    So your interest in those sort of troops, not just in 
Bosnia but the support troops, is very much appreciated by me 
and I know by the troops.
    Mr. Hobson. Thank you, sir.
    Mr. Young. Mr. Hefner.

               EFFECT OF U.S. MILITARY PRESENCE IN BOSNIA

    Mr. Hefner. Thank you, Mr. Chairman.
    General, I don't know if this is an appropriate question or 
not. On a scale of 1 to 10, how successful would you rate the 
Bosnian operation and mission at this point?
    General Joulwan. On the military side, I will probably give 
us an 8 or 9. On the civilian side, we have work to do. And I 
have tried to get a sense of urgency in what needs to be done. 
And it is coming, but it is coming very slow.
    I would say on the civilian side we are probably down in 
the 4 and 5 category, but we need to get a sense of urgency and 
organization on that side. We are well organized, and they are 
not.
    Mr. Hefner. On the other side, you are talking about 
investment and rebuilding the infrastructure and things of this 
nature?
    General Joulwan. It is in reconstruction. It is in the 
organization of Security Corporation in Europe, OSCE, which is 
responsible for the elections and arms control. It is the 
United Nations High Committee for Refugees, UNHCR, for the High 
Commission of Refugees. It is the World Bank and what they need 
to do in reconstruction. It is the Red Cross and what they have 
to do. All of these agencies.
    And what I am trying to do behind the scenes is organize to 
meet the mission. Because as I said in my statement, we can do 
everything right. We can be a 10 on the military side and the 
mission in Bosnia will not be successful.
    Mr. Hefner. Well, we had a hearing yesterday and it pretty 
much hinged on as long as you have got a military presence 
there, but if you don't make jobs and repair the country, then 
it won't be a lasting peace. Is that a fair statement?
    General Joulwan. That is very fair. I might give you some 
progress, though. I mean, I couldn't say this last year, but 90 
percent of the people now in Bosnia-Herzegovina have potable 
water. That is very important. Sixty percent have some degree 
of electricity. Two years ago it was 10 percent. And I 
mentioned the number now that can make a telephone call. Those 
are things we take for granted but in that country, this is a 
great improvement. So it is coming, but it is coming awfully 
slow.
    The key issue in 1997 would be the return of refugees to 
their homes, and this will be the important step to say if it 
is going to be a multiethnic society, we have to get on with 
resettlement and return of refugees to their homes, and there 
are a lot of refugees out there.

                            QUALITY OF LIFE

    Mr. Hefner. Over the years on Military Construction, which 
I chaired for quite a few years, we had a desire to do more on 
the quality of life. We had some young men here at a hearing 
that had been in Haiti, some had been in Bosnia, and it was 
remarkable to hear them talk about some of the things that had 
to do with individuals, they were so proud of the mission that 
they were doing, which is a little bit unusual. And they had 
mentioned some programs that they were involved in. And it goes 
to what Mr. Hobson was talking about, about the morale.
    How many Americans have we lost in the Bosnian operation?
    General Joulwan. We have lost, I believe it is 1 to a mine, 
that was early on. It was a mistake, to be very clear. He was 
doing what he shouldn't have been doing. And I believe we lost 
one in a traffic accident.
    Mr. Hefner. That is remarkable. That is astounding.
    General Joulwan. I get nervous every time I mention the low 
number of casualties, because it is something we work very 
hard, but it is sort of ``good news, bad news,'' Congressman. 
Because we have now created a condition that even taking 10 
casualties, would be a disaster that would require great 
explanation by me, and I am trying to avoid it as much as I 
can. But we have taken very few. But that is because we have 
clarity of mission, robust rules of engagement, unity of 
command and we have trained to mission, and all of those 
ingredients are important to get the results that we have had.
    Mr. Murtha. Will the gentleman yield?
    Mr. Hefner. Yes.
    Mr. Murtha A couple of things that you get blamed for but 
it is so imporant, is not drinking, you don't allow them to 
drink and you don't allow them to fraternize with the 
civilians. Both of them would be volatile situation, and I know 
you get blamed and criticized for it, but that has been a key, 
an important part of your success.
    General Joulwan. We have to learn all of that. I didn't let 
them do it when they went to Rwanda or anywhere else. You have 
to have discipline of the force. And this is difficult, and it 
may have impact on morale. It may be due to some other things, 
but I am there to bring them home.
    Mr. Dicks. Will the gentleman yield?

                  ROLE OF GUARD AND RESERVE IN BOSNIA

    Mr. Hefner. Let me have one more question here. You said 
that the Guard and Reserve were very important in this Bosnian 
situation.
    General Joulwan. Yes.
    Mr. Hefner. That they are essential to the total force. 
Could you just give us some examples of what they do and are 
there any functions that they do totally, that the Guard and 
Reserves do totally there? Be specific, if you would, sir.
    General Joulwan. Let me just give you the most important 
function that they do totally is in the civil affairs area. 
This group is so essential that I am going to put them in for a 
special award because they have been the ones that have been 
the glue--the link between the military and the civilian 
agencies. They have left their businesses. They are lawyers, 
economists, teachers, police chiefs, and they come to Bosnia 
for 179 days.
    For example, I have a criminologist and a chief of police 
working with the International Police Task Force. They are the 
glue that holds it together.
    But, gentlemen, I am very concerned about their jobs, to be 
very honest with you. These people have made deployments, many 
of them to Saudi Arabia, Haiti and now into Bosnia, so they are 
doing wonderful work. That is exclusively a Reserve function 
right now, and we couldn't do it without them.
    Mr. Hefner. Well, I think that is good to hear you say that 
because we are going to be having hearings, some meetings about 
their budgets which up to this point haven't been satisfactory 
with some of us, but hopefully we can get it on the right 
track.
    I will yield to the gentleman.
    Mr. Young. The gentleman's time has expired.
    I would like to recognize Mr. Bonilla.

                         BOSNIA RECONSTRUCTION

    Mr. Bonilla. Thank you, Mr. Chairman.
    General, just to follow up briefly on something Mr. Hefner 
asked. Theoretically, if we ever got the civilian effort in 
Bosnia up to 8 or 9 points on the 10-point scale, and it worked 
ideally for a short period of time, do you think that would 
last?
    General Joulwan. I think so. I think because what has to 
happen here is that Bosnia-Herzegovina is going to be a long-
term solution. We need a long-term program here, not a military 
program, not military troops in there forever, but you need 
civilian agencies that are going to be involved in this 
reconstruction and reconciliation for years to come.
    So the foundation you lay now will determine the future in 
Bosnia-Herzegovina. So what you want to do, while you have the 
military there, is get the foundation laid, get the roots 
implanted that you can build on. That is what we are trying to 
do now.
    If we can do that--I'll just tell you a quick story. I was 
in Brcko in February, a couple of weeks ago, and if you 
understand the zone of separation, it is about 4 kilometers 
wide and then there is an Inter-Entity Boundary Line--IEBL in 
the middle of it. I mean, it was like being back in a war zone 
because there are damaged buildings all around in this zone of 
separation.
    But on the Serb side of this IEBL, there is a mosque being 
repaired by about a dozen Muslims and they were going to have a 
service in there and they were getting electricity from Brcko, 
from the Serb side. So there are some steps that are being 
taken.
    If we can just encourage that reconciliation to take place, 
if we can allow electricity and water and telephones, the basic 
necessities, if we can have a return of refugees, a modest 
beginning, I think that will set the stage for long-term 
development. You don't need 30,000 troops in order to do that.
    We have 16 more months. I think we should be trying to 
figure out what we can do in the next 16 months to get the 
civilian agencies established. Once jobs start working, once 
you have factories opening, I think there will be a momentum 
for peace, not to go back to war.

                              NATO FORCES

    Mr. Bonilla. That is encouraging because, frankly, I have 
always had doubts whether there can be long-term peace there, 
but what you are saying means a lot.
    Let me turn now to NATO, General.
    In looking at what lies ahead for NATO, and turning from a 
pure defensive alliance to a collective security organization. 
Do you think that is a good evolution, in your view? Isn't it a 
switch from having our folks there as warriors versus police?
    General Joulwan. I don't see them as police. We are, I 
think, adapting and adjusting in a way to say how do we engage 
in peacetime?
    I will tell you the work I am doing with the Russians is 
not as a police force. We are interacting with them to build 
this common procedure and common doctrine, and trust and 
confidence, as we are with 27 other nations. We have conducted 
130 exercises last year, not police exercises.
    How do we get common standards? The problem that United 
Nations Protection Forces, UNPROFOR made, they put 30 some 
nations on the ground, but they couldn't talk to one another. 
They couldn't communicate. They had no common interoperability.
    What we are doing, engaging now--it is an engagement 
strategy to develop common standards and procedures so 75 
percent of the force in Bosnia is other than U.S. and one-third 
of the force is other than NATO. And it isn't just saying we 
have one-third of the force other than NATO, but are they 
trained to the right standards and procedures? Can we operate 
together? Can some day we fight together?
    So this is not a police function. This is an engagement 
strategy that I think is every bit in our interest to do. And 
what it does do, it creates trust and confidence, and when a 
blip comes along the horizon in one of these countries like 
Bulgaria, the military stays out of it and they allow the 
transition to democracy to take place. That is every bit in our 
interest.
    I don't want to call it police actions and I don't want to 
call it some sort of nation-building. We are involved in a 
strategy that, I think, comes about because of our 48 years of 
involvement in NATO. Now we have to go the next step, which is 
how do we prevent conflict from occurring again?
    Mr. Bonilla. That is encouraging as well, because I would 
be very concerned if our mission were evolving into police or 
nation-building. I don't think that is the way we ought to go. 
If you don't see it that way then----

                          FULL SPECTRUM FORCE

    General Joulwan. If you want my honest opinion for the 
future, we need to have what I call a full-spectrum force. And 
I will be very candid with this Committee, that I don't think 
you can just wait for the big one to occur. You can't sit back 
and wait for the war to start. You have to say how can we 
influence events to prevent the big one? How can we engage in 
peacetime to prevent the train wreck? And that is what I think 
we should be about.
    Now, that takes a certain form of military involvement, but 
also political and economic and diplomacy. It also requires a 
military that can engage in a way to bring about the end that 
we want. And that is the situation we are in now.
    Whether we can carry that off or not, I am not sure. But it 
takes a force structure and a command structure and an 
educational system in this country. That's what we are finding. 
That is the world as it is, not as we hope it is going to be, 
and we have to find a way to engage. It was theory when I first 
spoke to this Committee 3 years ago, but it is now reality, and 
it is working and we have to recognize that.
    Mr. Bonilla. Time for another question, Mr. Chairman?
    Mr. Young. One more question.

               MEDIUM EXTENDED AIR DEFENSE SYSTEM (MEADS)

    Mr. Bonilla. Just a question on the MEADS program in 
closing here. You know I represent Fort Bliss and have a deep 
interest in all air defense systems, and my question is if you 
could briefly comment on the importance of the systems for 
protecting our troops and on the impact U.S. withdrawal from 
this program would have on our German and Italian allies?
    General Joulwan. Let me answer it very quickly. That is 
very important for the protection of our force, and it would be 
very disappointing to our Italian and German allies if we would 
withdraw from this program. They have signed up with us. They 
are developing it with us, and I think this is the way to go. I 
am trying to also do the same for Joint STARS, by the way, to 
get NATO involved in these systems, get allies involved, as we 
are doing with AWACS and so we are not trying to do it alone.
    Mr. Bonilla. General, you are a very impressive person, and 
I wish you also the very best in your retirement.
    General Joulwan. Thank you very much.
    Mr. Young. Mr. Nethercutt.

                           COMPUTER SECURITY

    Mr. Nethercutt. Thank you, Mr. Chairman.
    I join the rest of the Committee, General, in wishing you 
well and thanking you for your service to the country. It is 
indeed, admirable and remarkable and we thank you very much.
    We have had testimony before this subcommittee this year 
and we have seen GAO reports with respect to the security of 
DoD computer systems, and the number of attempted unauthorized 
intrusions into those computer systems. Have you experienced 
this in Europe? To what extent do you think it is a serious 
concern for our country, and are we doing enough to prevent it?
    My worst fear, I am sure yours is also, is that somebody 
gets in, fools with our system, shuts down one aspect or 
another, and then we are in trouble.
    General Joulwan. It is a concern to us. We have looked at 
it in Europe. It has not, at least to my knowledge, yet become 
a serious problem in Europe. But as we go more and more to 
computers in what we are doing, it will continue to be of great 
concern to commanders. And we are very concerned about the 
security of not only computer systems, but all of our 
intelligence systems as well that deal with satellite feeds, et 
cetera. So we are looking at that very closely. But right now, 
I don't see it as a problem, not in my theater of operation.

                          FULL SPECTRUM FORCE

    Mr. Nethercutt. As I look at the map and listen to you talk 
about a full-spectrum force, you know, Africa looms largely.
    General Joulwan. Yes.
    Mr. Nethercutt. My memory is it was Secretary Christopher 
who talked about a U.S.-funded African peace force that would 
be undertaken by African forces.
    Do you see that as a possibility as we look to this full-
spectrum force that you speak of in your testimony?
    General Joulwan. Africa will be an economy of force, 
theater for the U.S. It will not be an area that we are going 
to be involved with a lot of resources or forces, but Africa 
will pose continuing problems that should be solved by Africa.
    How we can help, I think, is in what is called the African 
Crisis Response Force, which we have been talking about for 
some time. We have worked up a strategy in EUCOM to implement 
that, so we would be involved not in the actual deployment of 
the U.S. forces, but we would do so along with our allies. That 
is the great worth of NATO. We can leverage our allies here to 
help us, and we are trying to do that now, and that process is 
under way.
    I really don't have all the results back yet, but it is 
looking promising. And the fact that what we are doing now, 
airlifting some African forces into Liberia to try to stabilize 
that region, is a case in point that I think--of what are some 
of the possibilities of how we can assist, what those 
possibilities could be.
    Mr. Nethercutt. Well, as you look at our force in Europe 
and under your command, it has dwindled, it has been reduced. 
It seems to me it only makes sense to try to think about 
engaging these forces of other countries to take care of 
themselves----
    General Joulwan. Yes.
    Mr. Nethercutt. Rather than have us have to police it.
    But I thank you for your service, and I wish you the very 
best.
    General Joulwan. Thank you very much.
    Mr. Nethercutt. Mr. Chairman.
    Mr. Young. Mr. Visclosky.

                             MINE CLEARING

    Mr. Visclosky. Thank you, Mr. Chairman.
    General, in response to an earlier question by Mr. McDade, 
you had mentioned that you didn't think as much progress was 
being made in the last 6 months on mines and mine removal. Any 
particular reason?
    General Joulwan. First of all, the warring factions stopped 
doing what we wanted them to do, which was remove them. They 
know where they have; they are the maps, et cetera. So we had a 
drop-off in there. That is why we put a very heavy hand to say 
no training unless you go out and start clearing mines. And 
although we had some problems, as the weather gets better, that 
they will start doing that.
    The other is just the enormity of these minefields, and 
some of them are not marked and it is going to take a concerted 
effort.
    This Mine Awareness Center that we talk about is a step in 
the right direction. They are at least in the business now of 
not only cataloging where everything is but trying to get 
nongovernmental organizations, contract people, to come in, to 
try to clear some of these areas that are mined. But it is 
going to be years before we solve that problem.

                        RUSSIAN MILITARY FORCES

    Mr. Visclosky. You mentioned that the Russian troops that 
you have come into contact with in Bosnia were very well-
trained, highly motivated.
    General Joulwan. Yes.
    Mr. Visclosky. What about the Russian military in general? 
And where are they spending their money? What are their 
priority programs?
    General Joulwan. Well, it is a sadder story than that one. 
I am concerned about the deterioration of the Russian military 
because it creates instability and instability creates problems 
of its own. And we--you know, though it may, from a threat-
based standpoint, instability creates uncertainty.
    My concern is also with their conventional forces on the 
ground. They are not paying the troops. Some of their equipment 
is not being maintained. Their trucks and their tanks.
    Mr. Visclosky. They are not getting paid in some cases?
    General Joulwan. They are not getting paid, many, many of 
the forces are not getting paid. I have checked on the ones in 
Bosnia and they are getting paid a little bit better or more 
often, but they also have some problems.
    So we have to get through this period.
    When I deal with militaries of other nations, you have to 
treat them with respect. When they lose their respect, they 
become dangerous, and I am concerned about the respect now of 
the Russian forces. That is why I am trying to reach out with 
this liaison officer I have, with the brigade that we have from 
Russia, to build on that and give them their respect back. And 
the other area that is of concern to me is in the strategic 
nuclear area.
    There are still 20,000-plus nuclear warheads now in Russia. 
They have taken them out of the Ukraine and put them all in 
Russia. So the nuclear warheads are now being maintained by one 
nation: Russia.
    That is the good news. The other challenge is if there is 
instability within Russia: that causes me concern.
    So it is a very dangerous situation that we are facing.
    Mr. Visclosky. What programs are they placing a priority 
on?
    General Joulwan. I think primarily they are still 
maintaining their strategic nuclear forces and that is of great 
concern to us.
    Mr. Visclosky. General, thank you very much.
    Good luck.
    Thank you, Mr. Chairman.

                          BOSNIA EXIT STRATEGY

    Mr. Young. General, you have done just an outstanding job 
in responding to these penetrating questions that the Members 
have asked. Your answers have been very thought-provoking, but 
we haven't really explored another issue, and that is the exit 
strategy for departing in June of 1998. Is there a plan?
    Are we just going to pack everybody up on a given day and 
move them out? Or are we going to phase them out gradually?
    What is the plan for exiting?
    General Joulwan. I addressed that in the operations plan 
that I wrote, and there are some general conditions that we 
would like to see. They included, for example--at the top of 
the list no Spring offensive. And I am working this very hard. 
The cycle over the years is this when they come out of the 
Winter and you have a Spring offensive; so our objective is no 
Spring offensive and no hostilities. We have done that now. 
Last year, and so far this year, that is on track.
    As we go around to 18 months and in the Spring of 1998, I 
would hope that would also be a condition that would exist.
    The second has to deal with these civilian organizations 
that I talk about. I would hope that they would be much more 
established and up and operating as we get closer to June of 
1998.
    The third condition is that we would have elections, 
municipal elections, that would be held hopefully this year, 
and that those institutions, the national level, which were 
held in September, the state level or entity level, which were 
held in September and now this year, the municipal elections, 
that these political institutions would be in place and 
starting to work.
    Howver, having said that, even if they are not there, my 
instructions are to withdraw the force. And so I have to give 
6-month reviews to the North Atlantic Council. The first one is 
in June of this year, and I must report on the progress of 
where we stand, both in my estimation on the military side, as 
well as where we are in working with the civilian agencies.
    Much of that will determine the speed of--or the rate of 
withdrawal.
    But in the end, my instructions are now that the NATO-led 
force will be withdrawn by June of 1998, regardless of those 
conditions that I talked about for an end date.
    Mr. Young. I think one reason that we have this question 
about that date is we were given several different dates when 
U.S. forces would be out. And I remember Mr. Murtha was told 
emphatically that we would be out on December 20th of 1996, and 
he questioned that, and we questioned that. And he kept telling 
us, well, they told me December 20th, 1996, but here it is 1997 
and we are talking about a 1998 withdrawal.
    We understand that these things are not specific and you 
can't be too certain when you are dealing with a situation as 
volatile as this Bosnian operation has been, but how do you 
feel in your own mind that June of 1998 is a date we can 
accomplish?
    General Joulwan. I think if we really put the pressure and 
the organizational skill into the civilian organization, that 
much can be accomplished. I am not sure you need 30,000 NATO-
led forces. Now, perhaps some other organization or some other 
group is going to be needed there.
    I mean, it is not as if everything is going to go away. I 
think some other organization. But a NATO-led force I am not 
sure you need that after June of 1998, and those are my 
instructions.
    I am more interested in what I can do in the next 16 months 
to create the condition so we won't have a force there. That is 
why I have been so hard of the other agencies to get their act 
together, to get arms control moving, to get the 
reconstruction, the rehabilitation, the resettlement, the 
elections, all of those things moving.
    If we can do all of those--I don't think you need 30,000 
NATO-led forces there.
    Mr. Young. General, some of our allies have made the point 
that when the U.S. leaves, they are leaving. When we leave in 
June of 1998, if our allies leave, what kind of a force or--
outside of your civilian lay force, what is there to try to 
keep it all together?
    General Joulwan. Well, there are 30-some nations there. I 
think all of that has to be worked out with the international 
community. The U.N. perhaps needs to get involved. There are 
other organizations. OSCE is another organization. But do you 
need the sort of NATO-led force is what I am talking about, 
which is where the U.S. is involved, in there, forever?
    I have said that I don't think we should have an open-ended 
commitment in Bosnia, and I think that what we need to do is 
say how do we create the conditions now so that in June of 
1998, that another organization can take over from us? And that 
is what I am advocating.
    If you can't get the act together in 2.5 years, which is 
what we are talking about, then I am not sure that the act can 
be gotten together in 10 years.
    Mr. Young. General, you are very persuasive, and I am 
wondering if you have made this same point up the chain of 
command?
    General Joulwan. Absolutely.
    Mr. Young. Good. I am glad to hear that.
    General Joulwan. Absolutely, Mr. Chairman.
    Mr. Young. I have some other questions that I would like to 
submit becasue we are running out of time, and I would like to 
submit them in writing and ask that you respond.
    Mr. Cunningham wanted to claim about 20 seconds of his time 
back.
    Go ahead, Mr. Cunningham.

                       REMARKS OF MR. CUNNINGHAM

    Mr. Cunningham. General, I am not as optimistic and I am 
sure that you have a guarded position. I saw a presentation the 
other night on TV about Aldrich Ames and Russia under Gorbachev 
when they executed 20 of our CIA agents.
    They are selling arms and chemical and biological and 
nuclear rockets to many of our enemies. They are doing things, 
and I do not believe, in my heart, that Russia would be our 
ally if they were not in the economic straits that they are 
right now.
    I look at under the Ural mountains at what they are doing 
with their nuclear first strike, and they already have one. 
That is the size of inside the beltway.
    I look at, you know, Echo Class subs and I look at their 
general direction, and when you have got SU-27s better than our 
F-14s and F-15s you have A-10 missiles better than our AAMRAM 
or Advanced Medium Range Air-to-Air Missile and then you have 
typhoon subs with the new missiles that are coming out with a 
6,000-mile range, I just feel that they are not going back to 
where they were, but they are going to go full circle. And it 
just scares me when we get too deeply involved with those type 
of folks.
    When I was a lieutenant, I made a statement that we 
shouldn't give F-14s to Iran because the Shah wouldn't be there 
every day, and I was slapped about the head and shoulders by my 
boss, and told that I shouldn't say that. But I felt like Billy 
Mitchell when the Shah fell and we looked at those things.
    But, you know, you can take and put a man between a bulldog 
and a cat. You remove that man in Bosnia, I don't care how 
happy you made that cat or how happy you made that dog, they 
are going to kill each other, and there you have a bulldog, a 
cat and a mouse. And I just don't think there is any amount 
that we can get involved that is going to solve that long-term 
problem there.
    And I know that--I have got another theory that in June, 
you know, we come up for elections. The President does not want 
a disaster happening in that particular part of the world 
during elections, and I don't think there is any way that they 
are going to withdraw those troops.
    General Joulwan. Well, if I can respond to the Russian 
question first, I have another theory, and that is if you are 
unsure of someone or you have an enemy, get him very close to 
you so you can look right into his eye and what he is doing. 
And I think we have to get very close to the Russians during 
this transition period to see which way they are going to go 
and see if we can influence it. We may fail.
    Mr. Cunningham. I don't disagree with you.
    General Joulwan. But I think we need to find a way.
    If I could take 30 seconds here, Mr. Chairman?
    Mr. Cunningham. Please do, General.
    General Joulwan. I took Colonel General Shetzhov, who is my 
deputy 3-Star for Russian Forces in Bosnia. He came in October 
of 1995, and he said--he was a typical Russian. I said, ``What 
do you want to see in NATO?''
    He said, ``I want to see this combined air operation center 
in Vicenza.''
    I took him down there. I said to my troops, ``No secrets.''
    And he sat there and they put up screen after screen, that 
showed the air campaign, and he looked at me. And I said, 
``Turn the lights on.''
    And I said, ``Introduce yourself.'' This was spontaneous. 
And a Frenchman and a Brit and a Canadian and a Dutch all 
turned around and introduced themselves.
    He couldn't believe it.
    I said, ``Where do you want to go now?''
    He said, ``I want to see your ACE rapid reaction corps.'' 
This is headed by a British 3-Star in Germany.
    I said, ``Go on down there.'' And he looked at all of that. 
This was the corps that went to Bosnia and headed our effort in 
Bosnia.
    Then he came back. I said, ``Where do you want to go now?''
    He said, ``I want to go to your headquarters in Stuttgart, 
your U.S. headquarters.''
    I said, ``I won't even go with you.'' I sent him down there 
and he spent 3 or 4 days down there looking at everything we 
are doing.
    He came back and he had this long face, very quiet, and he 
said he has been lied to for 45 years. He said, what he saw was 
absolutely opposite what the Soviets thought our mission over 
here was, what we thought you were about. He said, your 
openness, I thought it was just you, but I saw it in every 
person I met in Stuttgart, they had the same openness.
    Now, this Russian Colonel General is giving speeches. He 
was the one that just went before the Duma. You saw it with 
Lenzhov, who is Nash's counterpart. He is also now giving 
positive views on his experiences.
    Now, this is a ripple that I hope will continue, but if we 
let them go into the modernization of their nuclear force, if 
we allow their military to go down the drain on the 
conventional side, and if we expect to have a confrontation 
then we will.
    I say that we can engage now and we can do it in a way that 
brings about this trust and confidence.
    I think it will pay dividends. Look, I know how to fight 
and if we have to, we have a decided advantage, and they know 
it. But now we can interact in a way that can bring about 
results. And that is what I am advocating here; not naive, not 
with rose-colored glasses. Because in the end if we are not 
successful they may go back to the old way of doing business. 
And I don't think that is--
    Mr. Cunningham. Did they offer to let you go anywhere that 
you wanted----
    General Joulwan. Pardon?
    Mr. Cunningham [continuing]. Like under the Ural mountains?
    General Joulwan. Well, we are getting there. I went out to 
see their airborne troops and I had to stand in minus 20 
degrees in low quarters, but we had a good session. We had a 
good session.
    I am sorry, Mr. Chairman.
    Mr. Young. General, I think that is an excellent statement 
to close this hearing on, but Mr. Dixon wants to ask you one 
more thing.

                      WEAPONS OF MASS DESTRUCTION

    Mr. Dixon. You know, one thing that we talked about, the 
SCUD problem and weapons of mass destruction, and one of the 
things that has worried me, both in the Middle East, and in 
Korea in particular, is this notion of whether one of our 
enemies would use chemical or biological weapons against 
airfields.
    General Joulwan. Yes.
    Mr. Dixon. Okay. And that much of our strategy depends upon 
being able to bring out massive amounts of tactical aircraft. I 
think General Peay told me that they have to bring out a 
thousand aircraft from the United States or other places, and 
move it all out there.
    Also, you have got to bring a lot of people from the United 
States. So while you talk about the benefit of being forward-
deployed, you still have to get personnel and aircraft into the 
actual place where you are going to do the fighting.
    Now, is this something that we should be concerned about? 
Do we need to rethink our strategy? In other words, are there 
other options that we need to think about?
    For example, with long-range bombers you don't necessarily 
have to be in theater. In other words, if you are going to get 
locked out, then you are going to need some other capability to 
come in and deal with the threat in the initial stages until 
you can actually deploy in theater.
    General Joulwan. I think you need a wide range of 
capability and I think not just at the action end but also at 
the deterrent end. And chemical and biological weapons are 
something that we are going to have to face here, I think, more 
and more.
    How do you not just react to it? How do you deter the use 
of chemical and biological weapons?
    Allies come into play here. Access to bases comes into 
play. Overflight of airspace comes into play. That is why 
maintaining alliances with allies, and now partners, is 
extremely important.
    But I would agree with you. I think we need the full range 
of capabilities to include at the higher end.
    Mr. Young. General, thank you very much. It has been an 
excellent hearing. Before we adjourn, I wanted to thank the 
Members for the excellent participation today. The attendance 
was outstanding.
    The Committee will meet at 1:30 this afternoon to hear from 
General John Sheehan, Commander in Chief of the U.S. Atlantic 
Command, and we will adjourn as soon as Mr. Lewis has 
completed.
    Mr. Lewis. Mr. Chairman, the General's closing commentary, 
to say the least, is impressive, but just yesterday we 
discussed the fact that General Shalikashvili is leaving us, 
General Joulwan. To say the least, people of this quality and 
depth, in this case, with joint European expertise and 
experience, raises major questions for the Committee's 
consideration. There are voids there that are very, very 
significant beyond just thanking you for your service. It is of 
concern.
    Mr. Young. One of the many signs of a good leader is to 
prepare someone to follow in your place, and I am sure that the 
General has been preparing for that eventuality, but you make a 
very good point, you are absolutely right.
    Mr. Lewis. Mr. Chairman, as you go about that, I presume 
that you have laid this foundation, but don't you think we all 
should think about the fact that John Plashal one of the 
committee staff is going to be leaving us, the person who puts 
together these hearings and spends 10 to 15 hours a day doing 
so.
    Mr. Young. He is an A-number one CODEL organizer, too.
    General, thank you very much, and God bless you. Wherever 
your future takes you, good luck.
    The Committee is adjourned.
    General Joulwan. Thank you very much, Mr. Chairman.
    [Clerk's note.--Questions submitted by Mr. Young and the 
answers thereto follow:]

                        Airborne Reconnaissance

    Question. With airborne reconnaissance assets providing important 
intelligence for the many low intensity operations in your command, 
please describe, with some specificity, your requirements for such 
systems for Bosnia or for smaller operations, such as those in Africa.
    Answer. USEUCOM has historically relied heavily on a varied mix of 
theater reconnaissance assets to support the numerous peacetime and 
contingency operations throughout Europe. Over the past two years 
reliance on intelligence surveillance and reconnaissance (ISR) has 
increased by orders of magnitude. In this theater ISR has become as 
important as ``bombs and bullets'' in carrying out the USEUCOM mission. 
------.
                                 ______
                                 

                  Cost of American Presence in Bosnia

    Question. I would like a full accounting of the cost associated 
with the American presence in the Bosnia. This accounting should 
include, but not be limited to, the following:
    (1) Operation of CV/CVNs as well as the accompanying battle groups 
(O&M costs, supply costs, etc.)
    (2) Cost (fuel, maintenance, diminution of useful life, etc.) of 
all tactical and non-tactical American aircraft operations over the 
Bosnian theater.
    (3) Food/supply drop operations and accompanying air cover.
    (4) Troops stationed in the region but outside of Bosnia to help 
maintain stability.
    (5) Any arms or other supplies given to the parties involved in the 
region.
    (6) Any personnel, training, or equipment costs.
    (7) Mine clearing, countermine operations costs.
    (8) Weapons systems/equipment lost during operations (to include, 
but not limited to Capt. O'Grady's F-16, vehicles lost to mines, and 
the Predator UAV)
    (9) Any relevant non-military costs such as housing, infrastructure 
repair, or so-called ``Nation-building'' activities.
    (10) Contractor logistics support.
    Answers listed by question above:
    (1, 2 and 4) Bosnia operations costs: The incremental costs of DoD 
participation in operations in and around the Former Yugoslavia, 
predominately Bosnia, are estimated to total $6.5 billion for fiscal 
year 1996 through fiscal year 1998 ($2.5 billion in fiscal year 1996, 
$2.5 billion in fiscal year 1997, $1.5 billion in fiscal year 1998) 
with an operational completion date of June 1998. These costs cover the 
preparation, deployment and sustainment of forces for the 
Implementation Force (IFOR), the Stabilization Force (SFOR) and the 
Deterrence Force (DFOR), as well as the costs associated with enforcing 
UN sanctions against Serbia and Montenegro, enforcement of the no-fly 
zone over Bosnia-Herzegovina, and support of other UN humanitarian/
observer related missions in the AOR.
    (3) Humanitarian operations costs: Incremental costs totaling 
$347.4 million in fiscal year 1995, $292.0 million in fiscal year 1994, 
$138.8 million in fiscal year 1993, and $5.8 million in fiscal year 
1992 were incurred by the DoD to support humanitarian related missions 
in, and aircraft operations over, the Former Yugoslavia.
    (5 and 6) Equipment, services and training costs: The President has 
authorized the drawdown of $100 million in DoD equipment and services 
to support the Bosnian Federation as part of the ``Equip and Train'' 
program. As of January 31, 1997 the total value of articles and 
services delivered was $78.65 million.
    (7) Mine clearing activities costs: Concerning mine clearing 
activities in Bosnia, the humanitarian demining program cost the 
Department approximately $1.3 million in fiscal year 1996.
    (8) Equipment replacement costs: We do not track costs of weapon 
systems/equipment lost during operations as they are inventory 
investment items whose replacement is considered during normal budget 
development.
    (9) Nation-building costs: We do not track costs associated with 
``Nation-building'' activities. This program falls under the Department 
of State.
    (10) Contractor Logistics Support: $390 million was provided for 
Bosnia in fiscal year 1996 based on nine months of support. An estimate 
of $386.9 million has been identified in the fiscal year 1997 
Supplemental for twelve months of support including the the phase down 
of the Stabilization Force (SFOR). However, OSD(C) has taken the lead 
to review the requirements with an emphasis towards minimizing 
expenses. If the review results in the identification of savings, the 
appropriate congressional committees will be notified by OSD(C).

                             NATO Expansion

    Question. The executive summary of the Secretary of Defense report 
on NATO Expansion states that the costs to the U.S. will be 
approximately $150 million to $200 million annually for a ten year 
period.
    What do these costs entail? Is it increased foreign aid to the new 
NATO member, military assistance, increased infrastructure costs?
    Answer. These costs are direct enlargement expenses, which are 
calculated on the assumption that NATO would reach ``initial 
capability'' for Article V defense of new members by 2001 and ``mature 
capability'' by 2009. ``Initial capability'' includes enhancements in 
command, control, communications, and intelligence (C3I), and 
reinforcement reception facilities, air command and control, and 
logistics (e.g., renovation of new members' headquarters to accommodate 
a NATO headquarters' elements, training in NATO languages and 
procedures, acquisition of an Air Sovereignty Operations Center (ASOC), 
and interoperable aircraft avionics). ``Mature capability'' includes 
additional direct enlargement enhancements (e.g., command and C3I 
improvements, weapons engagement capability added to each ASOC, 
exercise enhancements, and improvements to airfields, road and rail 
links, ports, etc.).
    Question. Which U.S. government agencies would bear the costs of 
NATO expansion? What share of costs would be borne by the Defense 
Department?
    Answer. U.S. funding sources will be the Department of Defense 
(Warsaw Initiative and Operations and Maintenance funding) and 
Department of State (Security Assistance funds, which include Foreign 
Military Financing, Foreign Military Sales, Excess Defense Articles, 
and International Military Educational Training). Approximately 40% of 
the costs will be borne by the Defense Department.
    Question. Secretary Albright was recently in Moscow with a proposal 
to reduce conventional weapons levels in Europe. What is the outlook of 
this plan?
    Answer. The plan has agreed to by all North Atlantic Treaty 
Organization (NATO) members. It was tabled by NATO to all signatories 
of the CFE Treaty in Vienna on 20 February 1997. Subsequently, on 7 
March 1997, the NATO proposal was rejected by Russia as a basis for 
negotiation. The negotiating group of the Joint Consultative Group in 
Vienna met on 11 March 1997 for formal responses to the Russian 
rejection. The chairman of the Joint Consultative Group will then draft 
a ``food-for-thought'' paper for the following week that will address 
areas that need to be worked out before the negotiating group begins 
actual negotiations on a draft document.
    Question. How significantly would it reduce U.S. arms based in 
Europe?
    Answer. The objective of all States Parties to the Treaty should be 
to achieve overall lower force levels in the area of application. We 
will pursue ways by which our equipment ceilings can be lowered, while 
preserving our ability to meet our defense requirements. We and the 
North Atlantic Treaty Organization are prepared to take significant 
steps in this regard. Specifically, the total of future aggregate 
national ceilings of ground Treaty Limited Equipment of the 16 members 
will be significantly less under the adapted Treaty than the current 
group ceiling.
    Question. Would it lower the size of our forces or would it involve 
withdrawing pre-positioned U.S. arms based in Europe?
    Answer. We are reviewing our current declared national maximum 
levels of holdings to assess whether they reflect current and likely 
future requirements. On the basis of that review, we will reach, 
through a transparent and cooperative process, final conclusions 
regarding the scope for reductions. The resulting national equipment 
ceilings would then be codified in the adapted treaty. This process and 
its outcome will fully respect and be compatible with relevant 
obligations under international agreements, in accordance with 
international law.
    Question. Has there been any discussion of the time frame for 
implementing such a plan if it was to proceed?
    Answer. Yes. Negotiations to adapt the Conventional Armed Forces in 
Europe Treaty began in February 1997. We estimate completion of these 
negotiations will occur in June 1999.

                         Bosnia--Policy Issues

    Question. The deployment of U.S. force to Bosnia continues, with 
the Administration plan now to keep our troops there as part of the 
international ``Stabilization Force'' (SFOR) until June 1998. The 
overall American troop presence has declined, from over 20,000 to about 
8,500. When our forces deployed to Bosnia in late 1995, we were told 
repeatedly that our troops would stay until ``the military tasks 
associated with implementation of the Dayton agreement were completed'' 
with all troops to be withdrawn after one year--by December 1996. Even 
though it seems this original military mission has been fulfilled, the 
policy has changed and we are now committed to Bosnia for an additional 
18 months.
    Are U.S. troops involved in any so-called ``nation building 
activities (repairing houses/infrastructure, etc)?
    Answer. U.S. forces have, to the extent that it supports primary 
military tasks (i.e., freedom of movement), engaged in limited 
infrastructure improvement projects, including road, bridge and rail 
repair, runway improvements, and restoration of power and potable water 
systems. These projects are required to support our troops.
    Question. Are there any plans to involve U.S. or allied forces in 
the seizure or prosecution of indicted war criminals?
    Answer. It is the responsibility of the parties in Bosnia to bring 
indicted war criminals to justice. Stabilization Force (SFOR) forces 
will not actively hunt indicted war criminals, however, if an indicted 
war criminal is encountered during the conduct of operations, they will 
be detained if safe to do so.

                          Bosnia Exit Strategy

    Question. When we sent troops to Bosnia, many in Congress asked 
whether there was an ``exit strategy.'' Your predecessor and other 
senior administration officials basically said we didn't need an exit 
strategy because the President had established a date certain for the 
withdrawal of troops December 1996. That date has now been extended to 
June of 1998. And to all appearances, there is still no ``exit 
strategy'' to ensure our Bosnia deployment will not remain open-ended.
    Most observers believe there will have to be some type of 
international force in Bosnia for several years. Yet the position of 
our European allies appears to be that when the U.S. leaves Bosnia, 
they will withdraw their forces as well. What is the likelihood of any 
major international force being in Bosnia should the U.S. remove its 
troops?
    Answer. The United States has taken the lead where others failed in 
bringing peace to Bosnia. As there has been much progress towards 
achieving a lasting peace, the withdrawal of U.S. ground forces will 
end in mid-1998. This Secretary of Defense has emphatically stated this 
and I have received no contrary guidance.
    However, there may be a requirement for continued international 
peackeeping presence. At that juncture, I believe European security 
organizations such as the WEU or OSCE should be responsible for 
continued progress.
    Question. Given all these problems, would you care to hazard a 
guess as the probability that we will, in fact, withdraw from Bosnia by 
the middle of next year?
    Answer. During the past 15 months since the signing of the Dayton 
Agreement, much has happened. If we remain proactive in addressing the 
challenges that lie ahead in achieving a lasting peace, I am confident 
that the conditions will be right for a complete withdrawal of U.S. 
forces from the country by mid-1998. Furthermore, the Secretary of 
Defense has unequivocally stated that U.S. forces will not be extended 
past the mid-1998 timeline.
    The remaining challenges include:
    <bullet> Complete the transition to a fully functioning state 
through the successful completion of municipal elections and the 
subsequent transition to effective local government. At the same time, 
national-level governing institutions must be put in place.
    <bullet> Repatriation of refugees and displaced persons to Bosnia.
    <bullet> Peaceful implementation of the Brcko arbitration decision.
    <bullet> Regional stabilization through arms control regimes are 
well-underway. In any case, it is the responsibility of the parties in 
Bosnia to cooperate in the effort to achieve lasting peace. Mid-1998 is 
about right for ensuring the civil implementation process has 
progressed to the point where the parties can assume responsibility for 
maintaining order in Bosnia.

                             Troop Strength

    Question. U.S. forces in Bosnia have scaled back from 25,000 to 
8,500. What is the level of ``firepower'' our forces have in Bosnia 
now, compared to when we were at 25,000?
    Answer. We have proportionately less firepower in Bosnia now than 
when the Implementation Force (IFOR) was at full strength. However, the 
security situation in Bosnia is now markedly different than during the 
IFOR mission. The Former Warring Factions (FWF) combat capability has 
significantly decreased, and is not nearly the threat to our forces as 
it was previously. Because of this, our combat power remains 
significantly superior under the current circumstances, and our ability 
to deter large-scale fighting remains high.
    Question. Do you have any fear that the size of the U.S. force in 
Bosnia may have been scaled back to a point that any units cannot 
adequately defend themselves?
    Answer. A commander always worries about protection of his forces, 
and force protection is my number one priority in Bosnia, however, I 
feel that the combat power now in Bosnia provides Stabilization Force 
(SFOR) forces with more than adequate capability to defend themselves 
against the threat from hostile military forces. To counter the threat 
from rogue elements and terrorists, I have taken precautions to 
maximize troop protection (patrols traveling with minimum of 4 
vehicles, focused intelligence gathering mechanisms, etc.). I also have 
a robust theater and strategic reserve force that can be employed 
quickly to ensure large-scale force protection.
    Question. How will the role of day-to-day tactics of our troops in 
Bosnia change in light of the significant scale back of our troops?
    Answer. The Stabilization Force (SFOR) is focused on stabilizing 
the peace, and ensuring a secure environment exists to allow the civil 
implementation process to proceed. In light of a smaller, yet robust 
force presence, SFOR is engaged more in patrolling hot-spots than 
providing country-wide presence. This is possible because the threat of 
large-scale military mobilization of the Former Warring Factions is 
diminished.
    Question. What is the level of non-U.S. troops--British, French, 
etc. currently deployed in Bosnia?
    Answer. The approximate size of the Stabilization Force (SFOR) is 
31,000 troops from NATO and non-NATO troop contributing nations. Our 
allies and non-NATO contributions total approximately 22,500 troops.
    Question. Have our allies deployed in Bosnia scaled their military 
presence back in that country at roughly the same percentage as the 
U.S.?
    Answer. In transitioning from the Implementation Force (IFOR) to 
the Stabilization Force (SFOR), our allies scaled back their 
contributions at roughly proportionate levels.

                  Bosnia Contractor Logistics Support

    Question. To date, Congress has provided over $3 billion for 
operations in Bosnia. This amount presumed a deployment of one year, 
ending in December 1996. As a result of the Bosnia mission extension, 
there is now a requirement for an additional $3.4 billion--a fiscal 
year 1997 supplemental of nearly $2 billion, and $1.5 billion in your 
fiscal year 1998 budget. Should these estimates hold, the total cost of 
the Bosnia deployment would be $6.5 billion.
    In reviewing the supplemental request, the Committee is concerned 
about several costs which appear excessive. Your supplemental request 
includes $390 million for contractor logistics support for the Army. 
This is the same amount provided in the last fiscal year (fiscal year 
1996). Yet the number of deployed troops has declined by more than 50 
percent. Why are logistics support costs so high?
    Answer. The estimate of $386.9 million identified in the fiscal 
year 1997 Supplemental covers twelve months of Logistic Civilian 
Augmentation Program (LOGCAP) support compared to the nine months of 
operation in fiscal year 1996. The fiscal year 1997 estimate is based 
on our actual experience in fiscal year 1996 when 15 base camps were 
supported. IFOR operations remained at full strength at the 15 base 
camps through the first quarter of fiscal year 1997 when the phase down 
of the Stabilization Force (SFOR) began, with attendant support at 
eleven camps. These operational considerations resulted in the LOGCAP 
estimate of $386.9 million for fiscal year 1997 for twelve months of 
support. However, Office of the Secretary of Defense-Comptroller 
(OSD(C)) has taken the lead to review the requirements with an emphasis 
towards minimizing expenses. If the review results in the 
identification of savings, the appropriate congressional committees 
will be notified.
    Question. The Air Force's projected flying hours appear excessive, 
assuming a high OPTEMPO for F-15 and F-16 fighters. Given that 
hostilities have ended, why are you asking for flying hours that appear 
to assume that sanctions and a ``no-fly zone'' are still in effect?
    Answer. Significant reductions in U.S. contributions to the air 
component forces have already been executed over the past several years 
as Operation DENY FLIGHT transitioned to Operation DECISIVE EDGE and 
now Operation DELIBERATE GUARD. Further reductions are considered 
imprudent based upon the situation in Bosnia-Herzegovina.
    Although the situation in Bosnia-Herzegovina is relatively stable, 
tensions are high in some areas and have the potential to escalate to 
violence in the months ahead:
    <bullet> Brcko remains tense during the ongoing arbitration with 
all three factions raising the specter of violence if the arbitration 
results are unsatisfactory.
    <bullet> Historically, the Spring and Summer months have seen an 
increase in military activity by the Former Warring Factions. 
Resettlement issues are contentious in a variety of locations.
    <bullet> The situation could deteriorate in association with the 
upcoming Municipal Elections which may dominate the political scene in 
the Summer and early Autumn months.
    <bullet> Increased involvement by the international community in 
apprehending accused war criminals has the potential for increased 
threat to ground forces.
    To deter potential threats, NATO has established the Air Power 
requirements to support Stabilization Force (SFOR) operations. The U.S. 
provided assets in support of the Statement of Requirements Nine (SOR 
9). The current force has the capability to conduct precision 
airstrikes against multiple targets, provide air presence around the 
clock and meet the most demanding SFOR ground scenario, simultaneous 
close air support in two locations with a four hour time on station 
capability. Any cut or change in U.S. force mix will result in loss of 
both airpower capability and flexibility.
    Though the number of troops on the ground has decreased, the 
requirements to maintain force protection from the air by U.S. aircraft 
has not decreased. The current mix of aircraft provides the required 
capabilities while maintaining a reasonable operations and personnel 
tempo. The air assets, as currently deployed, are the minimum required 
capability and force mix to provide adequate force protection.
    Question. The fiscal year 1998 budget requests $1.5 billion for 
Bosnia. What are the assumptions behind this number (number of troops, 
duration of deployment, any residual costs following a pullout, etc.)?
    Answer. The fiscal year 1998 estimate of $1.5 billion for 
operations in Bosnia is based on the extension of operations through 
June 1998.
    The request will support approximately 8,500 troops with the 
ongoing task of monitoring compliance with the Dayton Accord. NATO has 
agreed to review the mission at the 6 and 12 month marks with the 
intent of reducing force levels to a deterrence sized force at an 
unspecified date commensurate with the security situation in the 
country to facilitate NATO's departure from Bosnia in June 1998.

                       Mine Threat to U.S. Troops

    Question. How many mines have been removed or neutralized thus far?
    Answer. Reports from the Mine Action Center in Zagreb indicate that 
approximately ten thousand of the one to three million mines in Bosnia-
Herzegovina have been removed by indigenous and United Nations forces. 
Of the known minefields, the percentage of mines removed or neutralized 
varies from zero percent to ninety-nine percent. The magnitude of the 
problem is best illustrated by a contractor working for the State 
Department in Bosnia-Herzegovina who estimates that it would take a 
team of one thousand mine-clearers at least thirty-three years to 
completely demine Bosnia-Herzegovina.
    Question. Are you encountering any problems in detecting and 
removing non-metallic mines?
    Answer. Yes, both detecting, with our present detection 
capabilities, and removing, due to the anti-handling devices, can 
create quite a challenge. The plastic mines are impervious to water and 
therefore float or sink but do not deteriorate. Previous war debris and 
the metallic content of the soil make conventional detection with hand 
held mine detectors extremely difficult. However, means of detection 
are improving. Thirty-one teams of dogs will be in Bosnia-Herzegovina 
sometime in April, 1997. These animals are extremely effective at 
picking up the scent of the explosive materials used in landmines. 
Also, new mini-flails which are remotely controlled, small robotic 
systems similar to the flails employed on the front of the M1 Abrams 
Tank, are in place. Training in the employment of these new systems 
started during the first week of March, 1997.
    Question. What, if any, is the role of U.S. troops in the removal 
of land mines?
    Answer. Advisory only, U.S. troops are not authorized to remove any 
mines with the exception of those found inside their operational areas. 
The mines in our operational areas are destroyed in place with 
explosives, never deactivated by hand or moved. Mine awareness classes 
and training on equipment usage is the extent of U.S. troop 
participation with demining. Recently, U.S. Special Forces trained 188 
local nationals using ``train the trainer'' style instruction, on these 
topics. In addition, the State Department is training approximately 180 
local nationals on mine awareness, equipment usage and mine clearing, 
again using ``train the trainer'' type instruction.

                  Role of Guard and Reserve in Bosnia

    Question. Are there any Military Occupational Specialities (MOSs) 
which are exclusively in the Guard and Reserve which, from your 
perspective, should be included in the active force?
    Answer. Reserve Component forces provide essential augmentation 
that allows, U.S. EUROPEAN COMMAND to sustain its current Operational 
Tempo (OPTEMPO). While many of our High-Demand-Low-Density (HDLD) units 
reside in the Reserve Component, there are not specialties (MOSs) 
exclusively in the Guard or Reserve that are not also in the active 
force.

                Progress of Civilian Programs in Bosnia

    Question. Making progress in the various civilian assistance 
programs in Bosnia is the key to the longer term success in Bosnia.
    In the case of refugee resettlement:
    <bullet> How many refugees and displaced persons remained to be 
resettled in Bosnia?
    <bullet> How long do you project it will take to resettle them?
    <bullet> What are the major impediments to their resettlement?
    Answer. Only about 260,000 of the estimated 2 million refugees and 
displaced persons displaced by the four year war have returned to their 
homes, leaving nearly 1.75 million people in refugee or displaced 
persons status. It is difficult to predict the time it will take to 
repatriate those persons still in refugee/displaced persons status 
because of the continuing impediments to their return. Impediments to 
the repatriation process include:
    <bullet> Continued lack of political will by all the parties to 
facilitate the return of refugees and displaced persons.
    <bullet> Ethnic tension, particularly along the inter-entity 
boundary, is resulting in confrontations between ethnic groups, thus 
slowing the return process.
    <bullet> The combination of the aforementioned impediments, coupled 
with lack of progress in the country-wide demining campaign, is 
hampering freedom of movement for the civilian population, thus causing 
another significant impediment to resettlement.
    Question. In the case of reconstruction, what progress is being 
made in economic growth and rebuilding the infrastructure?
    Answer. Reconstruction progress was slowed in 1996 by the lack of a 
functioning central government, inter-entity political differences, 
insufficient coordination, a late start, and failure of donor nations 
to provide previously promised pledges. That aside, there has been 
significant progress in terms of where Bosnia stood at the end of the 
war. Specifically:
    <bullet> Over 60% of the population now has electricity, up from 
10% in 1995.
    <bullet> Over 90% of the population has potable water, however 
sewage systems remain weak.
    <bullet> About 80% of pre-war telecommunications systems have been 
restored, but there is still no general inter-entity telecommunications 
link.
    <bullet> Industrial production is up 110% from 1995 levels.
    <bullet> Employment is up 30% from last year.
    <bullet> Wages are up 408%.
    Question. In the case of War Criminals, how many have been indicted 
and arrested? What is the outlook for future indictments and arrest?
    Answer. It is the responsibility of the International Criminal 
Tribunal for Yugoslavia and the parties to the Dayton Agreement to 
monitor, indict, and arrest suspected war criminals. The Stabilization 
Force (SFOR) has no mandate to hunt down and arrest indicted persons 
suspected of war crimes, however, the SFOR will DETAIN indicted war 
crimes suspects if they come in contact with them in the course of 
their normal duties, and if the situation permits. Given the data that 
I hold, there are 73 persons presently indicted for war crimes. Of 
those 73 persons, 52 are ethnic Serbs, 18 are ethnic Croats, and 3 are 
Bosnian Muslims. To date, only 6 are in Tribunal custody, 1 is in the 
national custody, and only 1 person has been convicted of war crimes. 
The future success of the International tribunal in bringing indicted 
war crimes suspects to justice is the parties' responsibility, and the 
degree of cooperation and vigor of the international community in 
apprehending and extraditing indicted persons who have fled Bosnia.
    Question. How confident are you that significant progress will be 
made in these non-military programs in the next eighteen months?
    Answer. Bosnia is still a dangerous place and the peace process 
remains fragile and can be undone unless all remain vigilant. However, 
in looking back over the past 15 months since the signing of the peace 
agreement, we have made much progress. Nevertheless, much remains to be 
done, and I am convinced the professionals of the Stabilization Force 
(SFOR) will make a significant contribution in meeting the challenges 
that lie ahead.
    Key to the success of the civil implementation effort is the early 
development and implementation of the civil action plan. SFOR is 
working closely with the office of the High Representative to provide 
planning and other assistance within our capabilities. The same rigor 
and discipline is needed with other implementation agencies to give 
civil implementation the chance for success. Indeed, the SFOR can 
achieve all its tasks and the overall mission can fail if the civilian 
agencies do not fulfill their objectives of reconciliation, 
resettlement, reconstruction economic development, and restoration of 
political institutions and law and order. Eighteen months will go by 
quickly and immediate action is now required to move civil 
implementations projects forward.

                         Arms Control in Bosnia

    Question. What is the status of the implementation of the arms 
control agreement in Bosnia?
    Answer. Implementation of the Article II Agreement is proceeding 
satisfactorily, article IV implementation, although many armaments have 
been destroyed, still has problems to be resolved, primarily with the 
Republika Srpska.
    The Article II Agreement (Confidence and Security-Building Measures 
in Bosnia-Herzegovina) was signed 26 January 1996 in Vienna between the 
Republic of Bosnia-Herzegovina, the Federation of Bosnia-Herzegovina, 
and the Republika Srpska. It is deemed as successful. Satisfactory 
progress has been reported on inspections, military liaison missions, 
and information exchanges.
    The Article IV Agreement (Measures for Sub-Regional Arms Control) 
was signed 14 June 1996 in Florence between the Article II signatories, 
Croatia, and Yugoslavia. It is deemed a qualified success. The Parties 
have destroyed almost ------.
    Question. What is the role of the Stabilization Force (SFOR) in 
monitoring compliance with the arms control agreement?
    Answer. SFOR monitors implementation of the arms control agreements 
as only a part of the overall evaluation of the Former Warring Factions 
(FWF) compliance with the General Framework Agreement for Peace in 
Bosnia-Herzegovina.
    The Organization for Security and Cooperation in Europe (OSCE) was 
given the arms reduction mandate. This is not an SFOR responsibility. 
SFOR enforcement of the arms control agreement could degrade the 
perception of evenhandedness. ------.
    Question. Various heavy arms have been pulled back to cantonment 
areas. What, if any control does the Stabilization Force (SFOR) have 
over these cantonment areas? What will happen to these arms when SFOR 
leaves?
    Answer. The cantonment areas are under the operational control of 
the Parties within Bosnia-Herzegovina. SFOR has the right and is 
authorized to compel the removal, withdrawal, or relocation of specific 
forces and weapons from, and to order the cessation of any activities 
in, any location in Bosnia and Herzegovina whenever the SFOR determines 
such forces, weapons or activities to constitute a threat or potential 
threat to either the SFOR or its mission, or to another Party. There is 
cooperation between SFOR and the Organization for Security and 
Cooperation in Europe (OSCE), in that SFOR provides cantonment 
inspection data to the OSCE.
    After SFOR leaves, the arms will remain under the operational 
control of the appropriate Party subject to the provisions of the 
Article II Agreement, Confidence and Security-Building Measures in 
Bosnia-Herzegovina signed 26 January 1996 in Vienna and the Article IV 
Agreement, Measures for Sub-Regional Arms Control, signed 14 June 1996 
in Florence.

                   Condition of the Russian Military

    Question. What programs have the highest priority within Russia's 
defense budget?
    Answer. ------.
    Question. How prevalent are desertions?
    Answer. ------.
    Question. What is your assessment of the outlook for Russia's 
military during the next five years or so?
    Answer. ------.
    <bullet> Unless pay and living conditions are improved 
significantly and a career in the military becomes much more 
attractive, the quality of the personnel making up the force probably 
will not notably improve and Rodionov's objectives will be difficult to 
achieve.
    <bullet> A lack of leadership commitment and inadequate funding 
make the likelihood of successful military reform poor for the near 
term (3 to 5 years) and only slightly improved for the mid-term (5 to 
10 years).

                        Cooperation With Russia

    Question. Russian Troops are currently deployed in Bosnia and 
conducting operations with U.S. and Allied forces.
    How is it working out?
    Answer. One of the great accomplishments in the peacekeeping 
operation in Bosnia is the successful partnership between NATO and 
Russian forces. NATO and Russian forces have operated shoulder to 
shoulder in an extremely difficult area of responsibility executing a 
common mission with common rules of engagement under my command. An 
effective command and control arrangement was created to accommodate 
Russia in this NATO-led operation. A three star Russian general has 
been assigned to my headquarters in Belgium since Oct. 15, 1995 and 
acts as my deputy for Russian forces. This arrangement has led to 
unprecedented consultations (over 80 meetings) between NATO and Russian 
military officials, expanded communications, and broadened mutual 
understanding at the strategic military level. The Russian Brigade has 
performed in an exceptional manner, both independently and in 
coordinated action with U.S. forces since their deployment to Bosnia in 
January 1996. Moreover, we are now taking steps together in Bosnia to 
deepen tactical interoperability by conducting joint missions, joint 
all arms training, and expanding liaison staffs. This successful 
military NATO-Russia partnership is a historic breakthrough that has 
the potential to establish a new foundation for institutionalizing a 
new era in NATO-Russia military cooperation.
    Question. Give us your perspective on the overall future of U.S./
Russian military cooperation.
    Answer. The long-term prospects for U.S.-Russian military 
cooperation are good providing that Russia remains on its current 
reform course. Our ability to conduct combined operations within Bosnia 
underscores the potential successes we can achieve when we work towards 
a common objective.
    In the near-term, Russian preoccupation with NATO enlargement 
issues will cause it to be selective in the types of peacetime military 
engagement activities in which it chooses to participate with us. 
Additionally, a projected reorganization of the Russian military, to 
more adequately address the realities of post-Cold War geopolitics and 
coupled with pressing budgetary constraints, will undoubtedly impact 
its ability to engage us on matters of military cooperation on other 
than a moderate scale.

                     Quality of Military Personnel

    Question. General Joulwan, have you noticed any deterioration in 
the quality of the new troops entering your theater?
    Answer. The quality and motivation of our recruits remains high. 
Negative quality indicators, such as involuntary separations, courts 
martial, and Articles 15 have shown no negative trends.
    Question. What about their physical condition?
    Answer. USEUCOM forces are in excellent shape and our components 
continue to maintain the high state of wellness that is critical to 
supporting our readiness posture and high operations tempo. The recent 
emphasis of the Military Health Services System in focusing on 
promoting healthy life-styles is helping our forces sustain top 
physical condition.
    Question. Are the new troops as mentally disciplined as those in 
prior years?
    Answer. I know of no data to suggest that the troops of today are 
any less mentally disciplined than those of prior years. On the 
contrary, given the current high operations tempo, increased rate of 
deployments, and missions other than war, and the requirement to master 
highly sophisticated equipment, our current cadre of troops 
consistently demonstrates exceptional mental discipline. Our people are 
being asked to leave their families more often and for longer periods 
of time, not to fight a ``cold war enemy,'' but rather to assist in 
major humanitarian peacekeeping/nation building efforts. In many 
respects fulfilling this type of mission requires even more mental 
discipline because the mission role is less clearly defined. Given the 
success of our troops in meeting this daunting task, the mental 
discipline of our new troops is excellent.
    Question. Have you found that the new troops have more ``emotional 
baggage,'' i.e., personal problems, than those in the past?
    Answer. No, I have not. In many respects, the troops of today have 
less emotional baggage than those of the past. For example, the drug 
abuse rate in Europe has dropped substantially since 1986 (1986 rate/
1000 was 8.58, 1996 rate/1000 is 1.4). The other components show 
similar progress. However, warning signs have begun to appear. For 
instance, the Army recently had to adjust recruiting standards in light 
of manpower shortfalls. As a result, we anticipate that 10% rather than 
5% of new Army recruits will enter without a high school diploma. 
Although diplomas do not guarantee emotional stability, we recognize 
that cognitive abilities are positively correlated with successful 
stress management capabilities. Each of the Services must work to 
attract future members from this smaller pool and, therefore, face 
greater risks for ``emotional baggage.''
    Question. How is the morale of your troops in Bosnia and elsewhere 
within the European theater?
    Answer. Morale within Bosnia and throughout the United States 
Forces in Europe remains positive. Our soldiers, sailors, airmen and 
Marines know their presence and their mission is critically important 
to our national interests. The morale of our troops are continually 
assessed through aggressive unit climate assessment programs. The 
process entails both a qualitative and quantitative assessment of 
various factors which positively or negatively impact morale with the 
European command. The assessments are conducted on a routine basis.
    Leadership continues to make strides towards improving quality of 
life in theater, and particularly for deployed personnel. For example, 
at Tent City, located at Aviano Airbase, Italy, six additional morale 
phones were added. This made it much easier for residents to keep in 
touch with their ``home bases.'' They also added modern aerobics 
equipment, a reading room, weekly Bible study classes, and erected a 
``fest'' (recreational) tent for members. These initiatives have 
provided outlets for members to spend time relaxing, getting/staying 
fit, and fulfilling spiritual needs.

                          Military Health Care

    Question. In visiting various stateside bases, members of the 
Committee have been hearing complaints about medical care and dental 
plans. How satisfied are troops and dependents in your command with the 
medical care and dental care for themselves and their dependents?
    Answer. Active duty and family member satisfaction has increased 
significantly in the last three years with the introduction of the 
CHAMPUS Demonstration Project (which eliminated deductibles and cost-
shares for family members who needed health care from host-nation 
sources) and the TRICARE Europe Prime benefit--which preserved the 
elimination of cost-sharing for all TRICARE Prime enrollees. Further, 
access to dental care for family members has improved significantly 
with the addition of more than 60 dentists in this theater specifically 
for the purpose of seeing family members.
    In circumstances in which active duty and family members are 
required to use host-nation care, bilingual patient liaisons are 
available at virtually all of our hospitals and clinics to facilitate 
interaction between the patient and the host-nation providers and 
staff. While this program goes a long way to improving satisfaction, it 
does not always make the medical experience similar to that in a U.S. 
facility. However, feedback from those receiving care in host nation 
facilities, as from military treatment facilities, has been 
overwhelmingly positive.
    There are aspects of both programs that require further attention. 
First, greater support and outreach to geographically isolated 
communities without a nearby US military medical facility is required. 
While these communities clearly benefit from the TRICARE Europe Prime 
cost structure, they do not enjoy an increased access to dental care 
unless they travel to a U.S. facility. Second, continued support for 
the infrastructure improvements in communication systems and telephone 
lines will increase their satisfaction with access.
    Question. What are the major shortcomings of the medical care in 
your command?
    Answer. USEUCOM Component medical services have no MAJOR 
shortcomings to identify. Each Component Surgeon has identified areas 
for improvement, but in general all health services required to support 
active duty personnel and their family members is available.
    In addition, as TRICARE-Europe implementation continues, more host 
nation medical services will be available to U.S. personnel and their 
families in the communities where they reside.
    Question. How many U.S. military operated hospitals are there in 
the European Command?
    Answer. There are a total of NINE U.S. military hospitals with 
inpatient capabilities:
    Air Force: Bitburg (Germany), Lakeheath (United Kingdom) and 
Incirlik (Turkey).
    Army: Heidelberg (Germany), Wuerzberg (Germany), Wuerzbergy 
(Germany) and Landstuhl (Germany).
    Navy: Rota (Spain), Naples (Italy) and Sigonella (Italy).

                   EUCOM Priorities and Deficiencies

    Question. What weapon systems currently funded in procurement and 
R&D are the highest priority from USEUCOM's perspective?
    Answer. Generally, I wouldn't place priorities on specific weapons 
systems, I leave the specifics of procurement to the Service Chiefs. I 
concern myself with the capabilities I require to carry out my mission. 
I identify my requirements in my Theater Integrated Priority List (IPL) 
to the Secretary of Defense and The Military Services for inclusion in 
their Program Objective Memoranda (POM).
    Modernization programs promise to bring important enhancements to 
our operational capability. The C-17 was a critical element of our 
rapid Implementation Forcer (IFOR) deployment and it demonstrated its 
ability to operate in a difficult environment. Future development of 
Strategic Sealift capability such as roll-on/roll-off ships and Joint 
Logistics Over The Shores (JLOTS) are key to movement of forces into 
any area in the USEUCOM Area of Responsibility (AOR) JSTARS has also 
provided an important intelligence capability and proven itself highly 
adaptable to the IFOR requirements. The Precision Guided Munitions we 
employed in Operation DELIBERATE FORCE allowed us to accurately target 
key nodes with minimal collateral damage. This led directly to the 
Dayton Peace Talks. We must also continue to pursue Theater Missile 
Defense (TMD) collaborative development efforts through systems such as 
Theater High Altitude Air Defense (THAAD) System and Medium Extended 
Air Defense Systems (MEADS). These programs will provide the capability 
to counter what is emerging as one of the significant threats to 
American interests.
    Question. Have EUCOM's interests been adequately met in the fiscal 
year 1998 budget request?
    Answer. Yes. I have several opportunities to influence the 
development of the Department of Defense budget. I identify my 
Integrated Priority List (IPL) to the Secretary of Defense and The 
Military Services for inclusion in their Program Objective memoranda 
(POM), I provide direct input to the Defense Planning Guidance, I 
review the Service POMs, and I participate in the Program Budget 
Decision process. I also can address budget issues through the 
developing Joint Requirements Oversight Council (JROC) and its 
influence on the Chairman's Program Assessment and the Chairman's 
Program Review.
    In summary, thanks to the support of Congress through the 
Goldwater-Nichols Act, I have ample opportunity to weigh-in with my 
requirements throughout the planning, programming and budgeting cycle. 
Furthermore legislative hearings such as these provide another path to 
ensure my requirements are given due consideration.
    Question. Do you have any shortfalls in training, equipment, and 
maintenance?
    Answer. The President's budget is sufficient for USEUCOM's 
requirements. But there are some issues I would like to highlight.
    Above all, we must fully funds training readiness. I believe in 
making the scrimmage tougher then the game. The success of the military 
operation in Bosnia illustrates the success of past readiness training. 
Congress has understood this and made appropriations accordingly. But, 
as last year, the timing of Supplemental Appropriation reimbursement is 
critical. Without timely passage of the Supplemental Appropriation that 
is before Congress, USEUCOM forces may not be able to continue training 
after June 97. The bottom line is we really require the Supplemental 
Appropriation by April 97 to prevent disruptions of services and 
training.
    We can also apply additional money against readiness and Quality of 
Life projects such as Military Construction, Real Property Maintenance, 
Military Family Housing, Unaccompanied Personnel Housing, and Quarters 
Furnishings. As a case in point, the appended table quantifies the 
extent of our fiscal year 1997 funding shortfalls in repair, 
maintenance, and new construction for the Theater's facilities.

                           FISCAL YEAR 1998 THEATER INFRASTRUCTURE ACCOUNT SHORTFALLS
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                  Army         Navy      Air Force      Total
----------------------------------------------------------------------------------------------------------------
Military construction.......................................           82            0           40          122
Real property maintenance...................................          334            6           91          431
Military family housing (MFH):
    Construction............................................           16            0            8           24
    Maintenance and repairs.................................           30            0           14           44
      Total.................................................          462            6          153          621
----------------------------------------------------------------------------------------------------------------

                                 Africa

    Question. Most of the continent of Africa is in your commands' Area 
of Responsibility (AOR). How many deployments have you had to this 
region in the past year, and, for the record, what were the size of 
those deployments?
    Answer. As of 27 February 1997, USEUCOM has had ten (10) 
operational deployments into Africa since January 1996, these include: 
Operational Assured Response, Operation Quick Response, USEUCOM Survey 
and Assessment Team (ESAT) to Burundi, ESAT to the Central African 
Republic (CAR), Operation Guardian Assistance, Military Liaison Office-
Liberia, Operation Assured Lift, African Crisis Response Force (ACRF) 
Pilot Team's deployments to Ethiopia, Uganda, and Senegal, and the 
deployment of a Military Representative to CAR.
    Operation Assured Response, from 9 Apr--3 Aug 96, was conducted to 
evacuate 485 American citizens and 1,959 other noncombatants from 
Monrovia, Liberia, following an outbreak of fractional fighting in 
Monrovia. There were 4,533 U.S. military personnel, 20 U.S. military 
aircraft, and 5 U.S. Navy ships deployed over the course of the 
operation to Liberia to support this operation.
    Operation Quick Response, from 20 May--1 Aug 96, was conducted to 
evacuate 208 American citizens and 240 other noncombatants from Bangui, 
Central African Republic, as a result of internal unrest. There were 32 
U.S. military personnel and 2 U.S. military aircraft deployed to 
support this operation.
    Burundi USEUCOM Survey and Assessment Team (ESAT), ------.
    Central African Republic (CAR) USEUCOM Survey and Assessment Team 
(ESAT), ------.
    Military Liaison Office-Liberia, ------.
    Also, they are to monitor delivery, maintenance, and accountability 
of U.S. equipment, being provided to ECOMOG through Presidential 
drawdown authority. This deployment is expected to last 179 days. It 
began with four personnel and has downsized to two.
    Operation Guardian Assistance, from 13 Nov--27 Dec 96, was 
conducted to facilitate humanitarian aid/voluntary repatriation of 
refugees in Zaire. Approximately ------ were deployed to Entebbe, 
Uganda and Kigali, Rwanda in support of this operation. Over 600,000 
refugees were repatriated from Eastern Zaire to Rwanda and assess the 
need for a multinational force to militarily intervene.
    Operation Assured Lift, from 14 Feb--10 Mar 97, was conducted to 
move additional ECOMOG troops and equipment from Mali and Ghana to 
Monrovia, Liberia, as a result of Presidential drawdown authority 
action. There were ------ deployed from Central Europe to Abidjan, Cote 
D'Ivoire, to support this operation. In all, 1160 ECOMOG troops and 452 
tons of equipment were moved to Liberia.
    USEUCOM has deployed its African Crisis Response Force (ACRF) pilot 
team twice since it was formed in Nov 96. This six man team of U.S. 
military personnel was first deployed to Ethiopia and Uganda from 8--20 
Dec 96. The team deployed to Senegal from 2--6 Feb 97. In each 
instance, the purpose of the deployment was for the team to observe, 
evaluate, and report on the training and equipment requirements of the 
forces offered by Ethiopia, Uganda, and Senegal for the ACRF.
    At the request of the U.S. Ambassador to the Central African 
Republic (CAR), USEUCOM ------. This officer is assisting and advising 
the ambassador on military issues and is serving as a liaison between 
the U.S. embassy and the French and CAR militaries and the French-
funded African Peacekeeping Force in CAR. This deployment is for thirty 
days and is scheduled to terminate on 7 Apr 97.
    Question. Presently, an initiative is underway to develop an 
African Crisis Response Force (ACRF). The bulk of this force would 
consist of units from the military of the continent of Africa. What 
role is the U.S. playing in the development and ultimate implementation 
of this initiative?
    Answer. USEUCOM, in conjunction with the interagency Task Force, is 
actively involved in the military aspects of developing the African 
Crisis Response Force initiative.
    USEUCOM has participated in the deployments of political-military 
teams which have traveled through Europe and Africa soliciting 
governmental support for the initiative.
    USEUCOM has also deployed pilot (assessment) teams to Ethiopia, 
Uganda, and Senegal to assess the capabilities of forces those 
governments have offered to the initiative. When the equipment 
necessary to support initial training is provided to the Africans, 
USEUCOM will deploy personnel to each country to conduct specific 
training events. This initial training effort will focus on augmenting 
existing individual soldier skills, developing junior leaders and 
battalion staff officers, and improving combat support and combat 
service support capabilities.
    Subsequent training events will focus on multi-echeloned training 
at the company/battalion level. This training will include host nation 
government, as well as, international relief organizations in order to 
conduct a more realistic training environment.
    As long as the U.S. government supports its development, USEUCOM 
will continue to support the African Crisis Response Force initiative.
    Question. What are the probable primary functions of the U.S. 
military in this initiative?
    Answer. In conjunction with the interagency Task Force, USEUCOM 
will continue to assist in the military development of the African 
Crisis Response Force initiative.
    Assessment, provision of equipment and training, and subsequent 
provision of airlift are the current military functions associated with 
development of the initiative.
    In the developmental stages of the initiative, USEUCOM will provide 
assistance in determining the needs of each African force offered to 
participate in the initiative. Once training equipment is provided, 
USEUCOM will coordinate deployment of mobile training teams to conduct 
country-specific training events.
    Once established, USEUCOM will coordinate sustainment operations 
for the African Crisis Response Force. If committed, USEUCOM may 
coordinate additional training, assist with planning, and may provide 
strategic/tactical airlift in support of contingency operations.

    [Clerk's note.--End of questions submitted by Mr. Young.]
                                       Thursday, February 27, 1997.

           COMMANDER IN CHIEF, UNITED STATES ATLANTIC COMMAND

                                WITNESS

GENERAL JOHN J. SHEEHAN, COMMANDER IN CHIEF, UNITED STATES ATLANTIC 
    COMMAND, U.S. MARINE CORPS

                              Introduction

    Mr. Young. The Committee will come to order. This afternoon 
the Committee welcomes General John Sheehan, Commander in Chief 
of the United States Atlantic Command.
    General, we have worked with you before and I appreciate 
the fact that you say what is on your mind. This Committee is 
very supportive of you and the work that you do. We understand 
the tremendous scope of your responsibility, the geographical 
size of your theatre of operations, as well as the number of 
troops and ships under your command.
    We are very proud of the record that you have established 
and that the force has established. We look forward to your 
testimony today on the state of the Command and we hope that 
you will address such issues as the present readiness of your 
forces and the challenges and deployments and the OPTEMPO that 
you now face.
    We would also like to know about your priorities and any 
deficiencies in terms of personnel, maintenance, and equipment 
that you see as the Commander in Chief of the Atlantic Command. 
And, again, I say we are very pleased with your willingness to 
speak your mind on whatever the issue might be. We will have 
some penetrating questions for you.
    At this point, I would like to invite Mr. Murtha for any 
opening statement he would like to make. Maybe you ought to 
tell us about that ten-dollar transaction

                         Remarks of Mr. Murtha

    Mr. Murtha. I wanted to make sure that I explained that 
ten-dollar transaction. I was down to visit General Sheehan and 
he challenged me to, when I went around visiting these various 
bases, to ask about the staffing and how many people they have 
and what their actual Table of Organization (TO) was. And he 
predicted that we would find substantial numbers over what 
their TO was and that is exactly what we did. And we went to, I 
think, six bases and almost every level of command had more.
    Now, there were two reasons for it. One was that the TO had 
been decreased, which made it look like they had less people 
and actually then they had taken people of the command and they 
had not only more than they were authorized, but they had 
substantially more than I thought they needed.
    So I think what it says in this article, and I have seen 
your comments before about trying to build our force according 
to the threat, is really the key to our success. And getting 
some people out of Washington is absolutely essential.
    We sure don't need this many people in Washington when we 
have so many in the Pentagon and, as you say 150,000 in the 
area. And I am delighted that you are and agree with many of 
the comments that you have made and look forward to hearing 
what your testimony is.
    General Sheehan. Thank you, sir.
    Mr. Young. I might say to Mr. Murtha that the Speaker has 
challenged me to find a way to turn the Pentagon into a 
triangle. To me, that indicates a 40 percent cut somewhere and 
I am not sure how we are going to do that but it is a challenge 
that he has passed on to us.
    General, your entire statement will be placed in our record 
and you can present that information in the statement as you 
wish and when you have completed, we will have some questions 
for you.

                  Summary Statement of General Sheehan

    General Sheehan. Thank you very much, Mr. Chairman. Mr. 
Chairman, distinguished Members of the House Appropriations 
Subcommittee on National Security. I really do appreciate the 
opportunity to appear before you today. And as you mentioned, I 
would ask that my formal testimony be submitted for the record. 
But I would like to summarize a few brief points for the 
Members and these will be very brief statements.
    Following our extensive efforts to alleviate the Haitian 
and Cuban migrant situation in 1996, we found that it is a much 
quieter year in the U.S. Atlantic Command from those two 
perspectives.
    We still have 484 personnel in Haiti Maintaining U.S. 
presence and providing a valuable support for United Nations 
nongovernmental organizations and private volunteer 
organizations. The illegal migration situation at Guantanamo 
Bay, Cuba, has been reduced to the point that we have less than 
100 illegal migrants or asylum seekers at any one time. That is 
done from a peak of 46,950, individuals in 1995.
    The most challenging element of USACOM's current mission is 
the Joint Force Integration Piece, and we try to accomplish 
this through a melding of the technology of the future of 
battlefield systems and the doctrine to build a quality force.
    Our primary means to correct some of the interoperability 
problems is through the Advanced Concept and Technology 
Demonstration ACTDs program and that is adding value to what we 
do.
    We are also addressing the challenges in the areas of Joint 
Theater Missile Defense and taking the initiative of helping 
define that concept and develop the potential of information 
operations as a new concept of warfare fighting.
    The ultimate goal of USACOM's Joint Force Integration and 
Training efforts is to provide mission-ready joint forces to 
other combatant CINCs whenever and wherever they are needed 
around the world.
    On any given day we have over 90 ships, 300 aircraft, 
37,000 Active and Reserve component personnel deployed in 
support of the geographically unified CINCs, plus within our 
own Area of Responsibility (AOR). USACOM has deployed 192 units 
consisting of over 9,000 personnel to the U.S. European Command 
to support IFOR, an now SFOR, in Bosnia.
    Sir, I thank you very much for the opportunity. Now I am 
prepared for your questions.
    [The statement of General Sheehan follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Young. General, thank you very much. We appreciate that 
statement. The staff has gone over your entire statement and 
found it to be very thorough.
    I would like to begin the questioning by asking you about 
the QDR. We were told from time to time that the QDR is a very, 
very important review and I am curious as to what role, if any, 
the U.S. CINC of the Atlantic Command has played in the QDR 
process?
    General Sheehan. Sir, as a CINC, I play it through with my 
staff and as recently as 3 weeks ago during the CINCs 
conference here in Washington, D.C., we spent an entire 
afternoon reviewing the QDR with the OSD and the Joint Staff.
    That was also the first opportunity for Secretary Cohen, 
just having been sworn in as the new Secretary of Defense, to 
participate in this discussion. And I am very, very impressed 
with the sincerity and the intensity which he is approaching 
this QDR.
    Mr. Young. I wanted to make sure that I understand that. 
You said you spent an afternoon?
    General Sheehan. Yes, sir.
    Mr. Young. Was that ample time for you to get your thoughts 
in place or your thoughts presented to the Review Commission or 
the Review Board?
    General Sheehan. I would characterize it as basically 
briefings where the CINSs were allowed some input. But since 
that after noon, Secretary Cohen has gone back and brought all 
the committees back in to help them focus their attention on 
the QDR.
    Mr. Young. Do you think the issues that you are concerned 
about are being adequately addressed by the QDR?
    General Sheehan. I believe they are, sir, at this time, by 
Secretary Cohen.
    Mr. Young. You have been, General, very outspoken and I 
want to call your attention to some of your public quotes and 
see if you feel like these issues are being addressed.
    One quote that I think we have all seen is that there are 
150,000 DoD military within a 50-mile radius of Washington, 
D.C., while there were only 129,000 sailors in the entire 
Atlantic fleet. You say that in the DoD there are 199 separate 
staffs at the civilian and two-star and above flag officer 
level. And you say statistically that the Army has only about 
125,000 war fighters supported by 375,000 uniformed personnel 
and another 300,000 civilian. That works out only to 16 percent 
of the total force.
    You have also concluded that if we are not careful we could 
become the best trained staff to ever get run off a hill.
    General, do you think the QDR is addressing these issues?
    General Sheehan. I hope so, sir. I think that the issue is 
the correct balance. When I raised this issue to Secretary 
Cohen, he thought that the inverted pyramid of what we have is 
a correct characterization of where we are today. And I think 
he is trying to address this issue through this process.
    Mr. Young. I have had an opportunity to talk to the 
Secretary several times since he was sworn in and we have 
discussed the issues that you have raised. I would agree with 
you that he certainly understands the problem that exists or 
that could exist, and I get the feeling that he is strongly 
committed to trying to bring some rhyme or reason out of this.
    In fact, I mentioned to him the same thing that I suggested 
here that the Speaker has challenged me to find a way to reduce 
the unnecessary personnel at the Pentagon. and I mentioned that 
to him, and he said that he thinks that is a good challenge and 
that he would be very happy to cooperate and work with us in 
that effort.
    So may be one of these days we will get more war fighters 
than we have on the tail. We will see.
    Mr. Murtha.

                          INFORMATION WARFARE

    Mr. Murtha. General, one of the responsibilities you have 
is information warfare and defense against information warfare.
    General Sheehan. Yes, sir.
    Mr. Murtha. How vulnerable are we and what are we doing 
about it?
    General Sheehan. A very complex question, sir, but about 2 
years ago in the U.S. Atlantic Command we started to try to 
find out really what capability we had and so we undertook an 
analysis in a war game, a real war game, ------.
    Mr. Murtha. How many countries have the potential of 
invading our systems? Which systems would be the most 
vulnerable?
    [Clerk's note.--Classified discussion was removed.]
    Mr. Murtha. Well, one other statement I have to make. You 
have four staffers back there. Only anybody that ever came 
close to that was General Luck. He had--and I don't know, maybe 
a lot of these people over here are your staff.
    General Sheehan. Sir, actually, it is three. One guy is 
here from the thought police from the Pentagon.
    Mr. Murtha. I'll be darned. That is pretty impressive.
    Who is that?
    General Sheehan. Just kidding, sir.
    But General Luck used to say that the only reason he had 
such a large staff was to support the one marine that he had on 
his staff. That is why I have one Army officer, sir.

                          QUALITY OF RECRUITS

    Mr. Murtha. Okay. But one other thing, we have noticed a 
slip in the quality of the people at the recruit depots in the 
Army and even a little bit in the Marine Corps. Have you seen 
that out in the field yet?
    General Sheehan. It hasn't hit the operating forces yet. I 
do know that there has been a slight decrease in the recruiting 
statistics, but I have not seen it in the operating forces. My 
command sergeant major, who just spent 2 days down in Fort 
Bragg with the 82nd Airborne, 18th Airborne Corps, he told me 
this morning that he is very pleased with what he sees down 
there. So I think it is a problem that is coming through the 
pipeline, but it is not visible right now.
    Mr. Young. Okay. Mr. Murtha, thank you.
    Mr. McDade?

                             JOINT TRAINING

    Mr. McDade. Mr. Chairman, thank you.
    General, welcome. We are glad to have you here. One of your 
major responsibilities is joint training. Is that correct?
    General Sheehan. Yes, Sir.
    Mr. McDade. Can you tell us if Bosnia is having an impact 
on your efforts to do what you think you ought to do in joint 
training?
    General Sheehan. No, sir. Actually, as a matter of fact, we 
train all of the people who leave CONUS to go over to Bosnia. 
We did it for IFOR, and we are doing it again for the SFOR 
forces, especially in the Reserve and National Guard forces 
over there.
    Mr. McDade. Not draining your resources.
    General Sheehan. Bosnia will be--if the $2 billion 
supplemental that Secretary Cohen asked for is not approved, I 
will have to shut down a lot of activity by July or August.
    Mr. McDade. We understand that. But in the normal course of 
your daily events, you don't see any impact?
    General Sheehan. No, sir.
    Mr. McDade. Are you engaging in new initiatives in joint 
training?
    General Sheehan. Yes, sir.
    Mr. McDade. Tell the Committee how you think we could be 
more efficient, will you?
    General Sheehan. The issue in joint training has to do with 
the use of transportation dollars and using computer simulation 
to replicate what we do in the battlefield. We have down at 
Norfolk, Virginia, and Chesapeake an organization called Joint 
Training Analysis and Simulation Center, JTASC where we train 
joint forces to fight on the battlefield. This is with real 
world data bases, real world countries.
    We use that to substitute for training, training in the 
field. We no longer put an army in the field to train a general 
or a Navy at sea. We substitute, for example, a training 
evolution like ocean venture, whatever have you, that at one 
time used to cost us $50 million. We now do that for less than 
$5 million through the computer-aided training.
    Mr. McDade. It is hard for me to visualize how that kind of 
computer activity substitutes for the joint training when you 
actually put them out in the field. How are you comfortable 
with that?
    General Sheehan. Sir, you do it through three phases. The 
first phase what you do is you take someone like the 18th 
Airborne commander, or the 2nd Fleet or 8th Air Force. You 
bring them into a training facility where you teach them joint 
doctrine, joint tactics and techniques and procedures. That is 
a week-long seminar process.
    The second phase, they develop an Opposition Force, OPFOR 
against a real world threat, with a real world enemy. We have a 
thinking OPFOR, that is human beings that actually operate in 
the tactics and techniques and procedures, and all of the 
stimulus that comes up from a component and to the staff is a 
replication of the battlefield as the joint force commander 
understands it. He is forced to deal with very complex issues, 
for example, TPFDF, Time Phased Forced Deployment of Forces.
    Mr. McDade. What was that again? I didn't get that.
    General Sheehan. Time Phased Forced Deployment. It is the 
process of moving forces from the continental limits of the 
United States to a theater of operations. If he gets that 
wrong, he has to fight that fight with the forces that he has. 
If he puts in 15 days worth of supplies, that is all he gets. 
So he is forced to make tactical decisions about using forces.
    He stays at this for one week for 24 hours a day for the 
entire week. And the OPPFOR can win. And so by the time the 
joint force commander and his staff leaves, they have been 
through everything that the battlefield combat training system 
could produce.
    Mr. McDade. Make a few decisions?
    General Sheehan. They made a few bad decisions, too, which 
they learned from. I have three mentors who helped the joint 
force commander, one of them is Gary Luck. He works for me, is 
a senior mentor for the joint force commander. The other is Jim 
Lindsey, former Army four-star, and a three-star Air Force 
officer, a former Air Force commander. So they assist these 
three-star officers on how to become joint force commanders.

                            INTEROPERABILITY

    Mr. McDade. We used to hear inoperability in Desert Storm 
as a problem with joint exercises, et cetera.
    General Sheehan. Yes, sir.
    Mr. McDade. What is your opinion today? Has that gone away 
or is that still a problem?
    General Sheehan. It is still a complex problem because we 
have many legacy systems that are still----
    Mr. McDade. Manyt what?
    General Sheehan. Legacy systems.
    Mr. McDade. Older systems?
    General Sheehan. Older systems that were built by Services 
that still have what we call translators that allow them to 
talk to each other.
    We have to go to a concept of what I call a ``born joint''. 
We right now spend about $40 billion in C3I, C4I. Those systems 
have to start from the conception to be multi-service in 
capability. A software program, for example, if you have to 
retrofit it to become joint after it has been fielded, it is 
400 times its initial cost if you don't get it right the first 
time.
    Mr. McDade. Well, what is the scope of the problem we are 
talking about? Is there any way you can put a dollar figure, 
for example, behind what you are talking about to fix that 
problem?
    General Sheehan. It is a very hard number to calculate, but 
it is a problem that you can solve if you focus your energy and 
activity on it.
    Mr. McDade. Are we doing our best over that?
    General Sheehan. I think the Joint Requirements Oversight 
Council, JROC process is beginning to get its hand around this 
issue. Any new system they bring on-line has to be joint.
    Mr. McDade. The only thing that scares me is they are 
beginning to. Desert Storm was a long time ago.
    General Sheehan. Yes, sir.
    Mr. McDade. It sounds like we need to give them some 
encouragement.
    General Sheehan. Yes, sir.
    Mr. McDade. Thank you, Mr. Chairman.
    Mr. Young. Mr. Obey.

                         BUDGET INEFFICIENCIES

    Mr. Obey. General, as you know, we have tremendous budget 
pressures. It is crucial that we not only get the right amount 
of dollars for our military operations and everything else, but 
that we put those dollars in the right places for the right 
things to buttress the right kind of conceptual framework that 
will give us the most effective defense.
    Where do you think we are most falling short in your best 
professional judgment in doing that? Where do we have the most 
important duplication that we ought to be dealing with? What 
kind of things should we be looking at that we perhaps aren't 
right now? In terms of joint operations, aren't there 
efficiencies that we ought to be looking at more aggressively--
are there inefficiencies we ought to be looking at more 
aggressively than we are?
    General Sheehan. I think the issue has to be a strategy of 
resource match. I think much of our decision process over the 
last couple of years has been decided by programmatics as 
opposed to strategy, and I think that is what Secretary Cohen 
is focusing his attention on.
    Clearly, three weeks ago when we had our discussion with 
him he was clearly focused on the strategy piece and what comes 
out of that from a force structure. But I think that on a macro 
scale, when I look at what we have done to the U.S. forces over 
the last couple of years, we have taken 33 percent of its 
combat structure out. We have only taken down management 
headquarters by 6 percent.
    I think if you returned to the 1987 portions of where we 
were in our structure, I think there is some potential savings 
there. When you look at the enlisted-to-officer ratio, for 
example, we are becoming more officer-intensive and we are 
losing our enlisted structure. You need to keep young officers. 
You need to keep young troops because that is the seed for your 
future. So those are areas that I think from a management 
perspective you could take a very serious look at it. I hope 
the QDR does that, sir.

                     SHORTFALLS IN JOINT OPERATIONS

    Mr. Obey. In terms of the joint operations between 
different services or joint training, in your best professional 
judgment what are our most serious shortfalls?
    General Sheehan. The issue on joint training has to do with 
the number of exercises to be conducted on a worldwide basis. 
The General Accounting Office did a study a couple of years ago 
that basically said 23 percent of the transportation dollars 
are being used to pay--are actually used for joint training, 
Service training or presence training. That, again, is one of 
the issues that we raised with Secretary Cohen and he is trying 
to come to grips with; how much presence is enough?
    What constitutes presence overseas, whether it is 100,000 
in Europe or 100,000 in Japan? What level of exercising is 
necessary for confidence building within a coalition process 
and then how do you really take disparate elements from 
different Services in training what we call joint mission 
essential tasks? We have just finished standardizing the joint 
mission essential task for Services to perform from a joint war 
fighting perspective and hopefully over the next year and a 
half or 2 years, we will be able to use those as a standard to 
measure the training activity to get the most dollar for our 
value. But we are still about a year and a half away from doing 
that.
    Mr. Obey. Can you give us any examples of insufficient 
cooperation between the Services in these areas?
    General Sheehan.I think all of the Services because of 
Goldwater-Nichols have realized that no Service has the ability 
to fight alone in a battlefield, that they need the help from 
the other Services. You will always find pockets of resistance 
in each Service for whatever reason because they are sponsoring 
a certain platform. But at the end of the day, I am very 
comfortable that the joint training is coming along. It is much 
better than it was in 1983, 1986, much better than it was in 
1989. So it is getting better every year.
    Mr. Obey. Thank you.
    Mr. Young. Mr. Lewis.
    Mr. Lewis. Thank you very much, Mr. Chairman.
    General Sheehan, it is nice to be with you.
    General Sheehan. Thank you, sir.

                        UNMANNED AERIAL VEHICLES

    Mr. Lewis. I had recently brought to my attention your work 
relative to the tactical control system concept, and its 
potential is very impressive. I would like to compliment you on 
that work.
    As a result of my work on this Committee and a 
responsibility in another area that deals with the Intelligence 
Committee, I have focused a good deal lately on an item known 
as unmanned aerial vehicles, and maybe to the frustration of 
some of my colleagues I have been using one of those 
procurements as an illustration that takes me to try to probe a 
problem that relates very much to jointness, the item that you 
just mentioned.
    As I understand it, Secretary Perry made USACOM, the 
combatant command or the force provider for UAVs, is that 
right?
    General Sheehan. Yes, sir.
    Mr. Lewis. Could you tell us exactly what that entails?
    General Sheehan. Well, sir, we have one advanced concept 
technology demonstration, Predator, that has been tested and 
used in Bosnia with a great deal of satisfaction by most of the 
users. There were tactical problems that had to do with the 
learning curve on icing of the wings and all those kinds of 
things, but UAVs offer us a great opportunity to make 
commanders more situationally aware.
    UAVs, having watched the Israelis use them and visited the 
Israeli UAV people, I have great hope that we are able to 
manage the data that the UAV is capable of producing. Our 
problem is not the platform itself. Our problem is the ground 
station and our ability to process through automatic target 
recognition what the UAV can show us in the battlefield.
    Mr. Lewis. Would you explain what jointness means as it 
relates to Predator?
    General Sheehan. What it does, it allows us--the Air Force 
is a single Service, for example, but the air combat command, 
my Air Force component, they provide a squadron capability that 
is deployable that works for the ground force commander. It 
covers a large area. You can downlink the information to the 
joint force commander. You can downlink the information to a 
ground station commander, on the ground side. It allows people 
to see the battlefield from a common situation awareness. If 
you can link the picture, then very frankly it allows you then 
to use other weapons systems platforms to destroy targets 
without putting people in harm's way. It has great potential.
    Mr. Lewis. It is my understanding that you wrote the 
Concept of Operations, for the operations of the Predator.
    General Sheehan. Yes, sir.
    Mr. Lewis. Within those concepts you supported the forward 
control element?
    General Sheehan. Yes.
    Mr. Lewis. Essentially, that would say that the Air Force, 
if they were the commander, would be able to hand off to a Navy 
pilot by way of a submarine, you might very well have an Army 
person on the front line who can control this mechanism. So 
jointness has a pretty broad definition in that connection.
    General Sheehan. Yes, Sir.
    Mr. Lewis. Generally speaking, this Committee has supported 
that concept and we have had language in our bill of last year 
supporting the Forward Control Element.
    As of this moment, Air Force, who has command now of this 
asset related to UAVs, has refused that forward control 
element. I would like to have your reaction or comment.
    General Sheehan. I wouldn't say they refused it, sir. This 
is a classic debate between the Services about putting small 
airplanes in air space. They worry about the safety of flight 
for fixed-wing aviation, so as a result, they feel as though 
they have positive control. Who drives the airplane around, 
this is really an issue of the joint force commander, tells his 
air component commander what he wants done. And I don't know of 
a joint force commander who, if there is a ground unit in 
trouble, who is not going to give him that UAV.
    What I need to do is to get to the battalion commander a 
ground station that is small enough and has a low enough 
footprint that the can see what is over the next hill, and if I 
have a component commander that won't give that to an infantry 
battalion commander he is not going to be in the battlefield 
very long.
    Mr. Lewis. Let me be a little more specific. Yesterday this 
subject was raised with the Secretary of Defense. Just 
following that, the Army sent a message out suggesting that 
they ought to have this asset available for joint operations 
and training at Fort Irwin. They got a direct message back that 
was very short, succinct and threatening saying, not no, but 
you can imagine what that is.
    General Sheehan. Yes, sir. It is true General Hartzog, who 
is the radar commander who wants the UAV for Force 21 for use, 
because they understand it would add to the battlefield, and 
that is an issue I am going to have to work out with the 
Chairman, sir.
    Mr. Lewis. I must say that over time, in this subject area, 
that is very important in terms of the total battlefield 
circumstance. It seems to me there is a pretty fundamental 
question here relative to that debate that goes on between 
forces. The definition of jointness, we would hope, is broader 
than would appear to be the case in this instance. And I would 
hope that you would recognize the difficulty of a narrow 
interpretation of what jointness means.
    General Sheehan. Yes, sir, I do. I say it is a ground 
station issue of giving the ground commander the ground 
station, and the joint force commander at the end of the day is 
the one that decides where those resources are allocated.
    Mr. Lewis. You know, you take yourself to the submarine, 
for example, and you can see very quickly some limitation there 
if there wasn't a broad definition.
    General Sheehan. Yes, sir.
    Mr. Lewis. Mr. Chairman, I just wanted to make sure that at 
the highest levels through the forces that you know that 
someone is raising these questions and we don't intend to stop 
raising the questions
    General Sheehan. Yes, sir.
    Mr. Lewis. Thank you, Mr. Chairman.
    Mr. Young. Mr. Lewis, thank you very much.
    Mr. Dicks.

                          INFORMATION WARFARE

    Mr. Dicks. General, I want to welcome you to the Committee. 
I enjoyed very much being able to visit you, I guess it was 
late last year, and to talk to you about some of the major 
issues that we are facing.
    I had an opportunity to go out to Mitre, myself, with--
their staff people and former Defense Secretary Schlesinger for 
a briefing on information warfare. And as a member of the 
Intelligence Committee as well, I have been very concerned 
about this issue. And I think you are absolutely right that the 
vulnerability here isn't just to U.S. military systems, but to 
our entire infrastructure, including, our ability to generate 
and wield electric energy. Our ------ is also vulnerable.
    There are just a whole series of things that could be done 
that would, bring the country literally to a standstill if you 
had a dedicated group of hackers who could be, in essence, 
hired by a terrorist to try and damage our systems. And I also 
understand the exercises that have been done on military 
operations have not been very satisfying, either.
    So I would just like you to, again, to maybe talk in a 
little more depth regarding where our most critical 
vulnerabilities are. The President has named a national 
commission to look into this, and I had a chance to talk to 
Sandy Burger down at the White House on this subject, but 
shouldn't this be given a lot more attention than it has been 
given up to this juncture? Shouldn't there be a little more 
sense of urgency from our top governmental leaders about our 
vulnerability?
    General Sheehan. Sir, I think there has been. Before 
Senator Nunn left the Armed Services Committee, now I know it 
because I just spoke to him about 2 weeks ago on this issue. He 
is from the commercial side very, very focused on this issue. I 
know the money and banking industry is very focused on this 
issue.
    The biggest single problem we have is getting people to 
understand the complexity of the problem. There are many people 
that think that you can go out and buy a commercial cellular 
phone, for example, and buy an encryption device from the local 
AT&T system and use it to talk to somebody and you think you 
are encrypted. Those systems are not secure, as you know.
    Most people--most civilians in the United States that think 
they have commercial encrypted cellular phones, though, you can 
break those in less than 2 seconds. And so it is a very serious 
problem. But getting people to understand it, and this is 
especially a difficult problem because when you are in the 
military and you go to a commercial institution and say let me 
talk to you about your vulnerabilities, because of ------ a 
couple of years ago, people think that this is an intrusion 
into their privacy by the military or by the Federal 
Government. We have got to get over that. We have got to get 
through that process that says, this is about how we live.
    We live in an electronic society. Everything we do from 
money and banking to checking out of a supermarket is done 
electronically. And if that system collapses, there is a large 
segment of this population that is going to suffer some degree 
of inconvenience. And so I think it is an awareness issue. It 
is an issue of understanding how the infrastructure backbone of 
the United States is constructed to do that.
    You need help from AT&T and other large commercial 
organizations. They are reluctant to talk about it. They do 
some work themselves. So I am just hopeful that Mr. Marsh and 
his panel are able to bring all the people together who are 
involved in this issue to raise the awareness from a policy 
perspective, because as I said before, at the end of the day, 
it is the concept, and the organizational theory and then the 
laws that allow you to work in this arena without the 
perception that you are violating someone's rights. It is a 
very complex problem.
    Mr. Dicks. Do you think--should this be handled from the 
civilian side of the Defense Department rather than having the 
military assume responsibility? Would that help in this case?
    General Sheehan. It comes from two different parts. There 
was what I call--the information operations consists of two 
parts: Information and operations, and a tactical perspective, 
the offense piece and the defensive piece, and then there is 
compartmented information programs that you use against 
adversaries.
    Understanding what the defense information structure is 
clearly a policy issue that OSD needs to focus on.
    It also gets at this whole strategy of how the United 
States approaches potential adversaries. I came at this thing 
from a perspective that says the real reason you do information 
operations is not to go to war, but to deter war, because you 
are managing the electronic spectrum. You are managing 
perception management.
    If you ask me to look at a country and deal with that 
country, I am kinetically oriented. You tell me country X and I 
will tell you how to bomb it into oblivion. But that is not 
what the warfare of tomorrow is about. Tomorrow's warfare is 
when you are in a crisis process how do you move the crisis 
back to peace? Or if you are in conflict, how do you move it 
back to pre-crisis? You do it through the manipulation of the 
whole arena in which a country exists. This is the social, the 
economic, the political and the military dimensions.
    To do that, you have to have a national strategy and 
understand what you want as an outcome of dealing with that 
nation. There are probably 12 to 15 nations on the face of the 
earth that fit into this category of we are either economic 
competitors or the military competitors as peer competitors. We 
need to come at this thing from the strategy perspective that 
says this is country X, this is how we approach them from an 
information perspective and the social dimensions, the economic 
dimensions, the political dimensions, the military dimensions 
and manage that information medium in such a way that you can 
manipulate it to your advantage.
    That has very, very threatening connotations to some 
people. The legal people in OSD are terrified of the concept. 
Clearly, the appropriate--as you know, the appropriate 
oversight committees in the Congress want to know exactly what 
you are talking about, about what do you mean putting embedded 
technology into someone's computer system? Who has the 
authority to re-call it? What do you do with the information? 
What do you do especially if it is financial information? So 
there are--there has to be a much more serious dialogue.
    I think that the House is going to have an off site, I 
believe--sometime over the next couple of weeks we are going to 
focus on this issue and they have asked me to come down and 
talk about it in a much more closed forum. But I think the 
House is in the right direction.
    I think John White is trying to focus on this issue. And I 
think that in my discussions with Tony Lake, should he be 
confirmed, I think he is really trying to focus on this issue 
also from a CIA perspective.

                       NATIONAL MILITARY STRATEGY

    Mr. Dicks. All right. When you talk about our lack of or 
the necessity for us to develop a new national military 
strategy, I think that is absolutely essential, and then from 
the strategy to decide what we need to do in the resource area.
    What I have seen over the last few years, frankly, is a 
budget-driven strategy, a lack of strategy and just a budgetary 
approach to this, where the services each have items that are 
their priorities. Frankly, if you ask me, do I think Goldwater-
Nichols is working, I think that it is working at the CINC 
level, but I don't think the real hard trade-off decisions with 
the limited budget that we have got today are being made at the 
highest level.
    One area I, frankly, worry about is that we are out there 
buying a lot of things, for example, nonstealthy tactical air, 
that are going to have a hard time performing in the threat 
environment of the future. And yet we are ending programs like 
the B-2 where you have a chance to use advanced technology, 
with much cheaper weapons, and I think which provides us with a 
revolutionary capability to deal with long range power 
projection. Yet we can't seem to get the top people in the 
Pentagon to focus on these things and make the hard calls. And 
it is because, I think, they are all fearful of each of the 
services riling one of the others.
    Give me your perspective on this. How do you see this?
    General Sheehan. I come at it in a parallel path. Wherever 
I read Goldwater-Nichols, the thing that strikes me most often 
is that the primary purpose of Goldwater-Nichols was to 
reinforce surrendering control of the military. When you read 
the law, that is what the real issue is. Then down embedded is 
this whole issue of creating jointness.
    I think the issue of the strategy piece is that we need a 
better connection. I think the Office of the Secretary of 
Defense clearly needs to influence the process. He does it 
through three ways: Through policy, through budget and through 
operations.
    I think you are right in the sense that the expertise to 
get at the strategy piece, then go from strategy to resource 
allocation, is the part that we need more effort in. And I am 
very, very kind of encouraged by the way that Secretary Cohen 
is approaching this thing. I think he clearly understands that 
as the Secretary of Defense he comes at this thing from a 
policy perspective.
    I think much of the activity in OSD is they get confused 
between policy and management. They focus on management and not 
the policy piece. If you fix the policy piece, the management 
piece then follows by subcontracting that to people who have 
the authority to do that. And I think then you get at the issue 
that you are trying to get your hands on.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Young. Mr. Visclosky.

                         RUSSIAN NAVAL ACTIVITY

    Mr. Visclosky. Mr. Chairman, thank you very much.
    General, could you tell me about Russian Naval activity in 
your area?
    General Sheehan. Sure. Russian Naval activity is 
significantly down. Part of it has to do with the miserable 
state of the Russian military budget. Large numbers of ships 
are tied up at the pier with families living on them because 
there is no housing for them. We had two incidents over the 
last 6 months where fleet vessels actually sent armed guards to 
the power plants to demand power for their ships because the 
Navy had not paid for them. And so one--in one sense, their 
surface Navy has been significantly degraded.
    The other interesting part, though, is that they are 
investing in submarine technology. They still are--have a very 
quiet submarine, the Akula. They have three submarines out in 
the Barents Sea today. They are--if all of the indications are 
correct, by the year 2000, 50 percent of their strategic 
forces, their strategic nuclear force will be sea-based. It 
will be based on the Kola Peninsula.
    Mr. Visclosky. Fifty percent.
    General Sheehan. Fifty percent. The Chief of Defense at 
Finland was just at my headquarters the last two days. He is 
concerned about the stability of the Leningrad district, which 
is the area he is concerned about. Much of that is easy as he 
travels back and forth to the district. The towns up in that 
Kola Peninsula are off limits to even him.
    So I think that--I am hopeful that the progress towards 
democracy in Moscow works, in Russia. I am very, very concerned 
about the state of the Russian military. I think Rodionov is 
playing to the audience about the security of the nuclear 
forces. I am very comfortable that those forces are in good 
shape from being paid, but their conventional forces are in 
abysmal condition.

                           DRUG INTERDICTION

    Mr. Visclosky. On drug interdiction, my opinion is we 
haven't put a dent into the problem. That is my personal 
opinion.
    From your perspective and the responsibilities you are 
charged with, what has worked and what hasn't worked? I 
recognize that there are a lot of moving parts to this problem 
outside of your control.
    General Sheehan. What hasn't worked is a national will to 
deal with this problem. We have been at this since 1989 when 
the U.S. military first got involved, because we had the 
command and control architecture and the intelligence to do 
this. And plus we became the synapse that allowed that 
organizations who were not accustomed to working with each 
other to come to a common room and work in a cooperative basis. 
We have become much better since 1989, but there are parts to 
the problem. One is the source and transit zone piece and third 
is domestic consumption.
    For the first couple of years, we kind of focused on the 
transit zone, trying to create a barrier and it is amazing the 
consistency, that basically we interrupt or disrupt or capture 
one-third of the product and we still are talking about 300 
tons, in round numbers, coming into the United States. We went 
to a source country strategy a couple of years ago built around 
Colombia, and I don't have to speak about Samper and Mexico and 
the problems of corruption that does the Nation. So the source 
country piece, they are working on that very hard. I give Bob 
Gilbart and Barry McCaffrey a great deal of credit for the 
courage that they have undertaken to hammer guys like Samper 
and the Mexicans.
    But at the end of the day, if people demand drugs, the drug 
dealer is going to find a way to deliver it. So we have to 
focus more attention here in the United States on the consumer.
    I think the military is an example of where zero tolerance 
with drugs is a way that other public institutions, where the 
life and safety of individuals associated with it, that you 
have to institute various kinds of programs like drug testing. 
I think until the American people come to grips with this 
issue, I think you are going to continue to see drug barons 
produce a product and earn a huge profit by delivering it.
    Mr. Visclosky. General, thank you very much.
    Thank you, Mr. Chairman.

                 THEATER AND BALLISTIC MISSILE DEFENSE

    Mr. Young. General, this morning we spent the morning with 
General Joulwan and one of the issues that developed was the 
issue of theater missile defense.
    General Sheehan. Yes, sir.
    Mr. Young. And I understand that late last year, some time 
in the fall, that the Defense Science Board and the Defense 
Policy Board suggested that the U.S. Atlantic Command be put in 
charge of the department's Joint Theater Missile Defense 
architecture. Has that happened?
    General Sheehan. It has and it hasn't. We are doing--the 
Theater Missile Defense Program is called cooperative defense. 
We are taking Roving Sands, which was an air defense exercise, 
and over the last 2 years have moved it towards a Theater 
Missile Defense Program.
    EUCOM has a unique problem, as does Korea, in the theater 
missile defense because what--they are called what I call 
linear theaters. So we are working with the Services to produce 
a concept of operations that is universally applicable.
    Theater missile defense, at the end of the day, is the 
absolute joint program. No one Service has the capability to 
deal with this issue. So we have a concept of operations that 
we are going to test out this spring and summer down in Forth 
Bliss, Texas. It will be a mature theater, it will be 45-days 
so we will have all the command and control facilities in 
place. It is hopeful that out of this process will develop the 
tactics and techniques and procedures, in some cases suggest 
what we can buy more of or kill a program that doesn't fit.
    We are working very closely with the Ballistic Missile 
Defense Office to do this. We have the requirement from the 
Joint Staff and OSD to write the operational requirements 
document for this. So it is that sense we are in charge of it. 
And hopefully this summer we will move that step a further 
downstream.
    Mr. Young. Is this going to create a conflict with BMDO?
    General Sheehan. No, sir. Actually, we have an open 
dialogue with BMDO. We use their facilities. Many of the 
concepts we use, we use their software modeling and simulation. 
So it's a very cooperative relationship. We have a--we have a 
twice a year meeting with the advisory panel from BMDO and the 
BMDO office itself.
    Mr. Young. Where are we headed on our ability to 
effectively defend against theater missiles?
    General Sheehan. I think it will be an operational reality, 
probably within 3 years. I think we have got a fair capability 
now. I think the problem is once we get to a link 16 
capability, we have link 16 across the board in all systems. We 
will be able to take the Navy's cooperative engagement 
capability, with the Patriot-enhanced systems and the Hawk and 
be able to present to shooters a common picture.
    So I think that if we do it right and we stay at it and 
stay focused, we will have a deployable capability, a real 
deployable capability, with a higher probability than we had in 
the Persian Gulf to deal with this problem.
    Mr. Young. Yesterday Mr. McDade asked several questions of 
General Shalikashili about the ground-based laser. As you look 
into the future, is that a player?
    General Sheehan. Not in the near term, sir. I think right 
now we are talking about AEGIS, Patriot type weapons systems. 
Right now it is the integration of information management 
systems, what we call battlefield C3I; the ability to move data 
rapidly around the battlefield, because in a theater missile 
defense system you are talking about minutes for a response 
time from detect to attack.
    The other part that we have--after 2 years of modeling and 
simulation is that it is what we call the intelligence 
preparation in the battlefield. If you do good intelligence 
work, you can do some very good predictive work on where tails 
are going to be going. And so then you can attack the talks 
before the launch phase starts. So I think what we are focusing 
on right now is the battlefield C4I, integration of systems, 
link 16 presenting a common battle picture to the theater 
commander.
    Mr. Young. Mr. Dicks, do you have further questions?

                                LINK-16

    Mr. Dicks. Let me make sure I understand this, link 16, and 
I understand it, is the link between the satellite in space and 
the cockpit of the airplane?
    General Sheehan. It covers all sorts of airplanes from 
AWACS, any kind of search radar system that can present you a 
battle space picture, AEGIS by radar systems, for example. So 
what is--it is a common picture of the battle space.
    Mr. Dicks. It shows you where the Scud launches from?
    General Sheehan. It shows a radar returned.
    Mr. Dicks. Right. So then you have not only the ability 
with theater missile defense system to stop the incoming 
attack, but also to offensively go out and go after----
    General Sheehan. Yes, sir.
    Mr. Dicks. The Scud launchers are a big problem, as you 
well know, in the Gulf War.
    General Sheehan. Yes.
    Mr. Dicks. We were unable to do it and Saddam used very 
sophisticated denial methods regarding where the location was 
and moved those around and presented us with a lot of false 
decoys, and other things, that caused us a problem. And, again, 
my view of this is this is another area where stealth gives you 
an advantage in that you don't have to have all of the 
supporting aircraft to go in after the launcher.
    If you have got the F-117 or the joint strike fighter, when 
the Navy finally gets a stealthy airplane, or the B-2, you have 
an ability to go in and take those launchers out. Because you 
have got the link right from the satellite and you have the 
ability to go in and perform that mission. That was something 
we couldn't do in the Gulf.
    General Sheehan. Absolutely.

                              NBC WEAPONS

    Mr. Dicks. What I worry about is the use of chemical, 
biological or nuclear weapons against our airfields that lock 
out our TACAIR, lock out our ability to bring the troops into 
the theater and then we are going to sit there and say, why 
didn't we buy some more bombers, that we could use from the 
United States? Now, you have--you have got a reinforce in the 
United States, is that right?
    General Sheehan. Yes, sir, the 8th Air Force.
    Mr. Dicks. Have you seen the new tape on the first dropping 
of the GATS/GAM?
    General Sheehan. Yes, sir.
    Mr. Dicks. Forty-one thousand feet, day, night, all 
weather. This is why I am so possessed by this issue. I have a 
chart here of seven different conventional weapons that you 
could drop off the B-2; to go against advancing armor, to go 
against fixed targets, to go against relocatables, surface-to-
air missiles and deep underground bunkers.
    Now, that, to me, is a tremendous, almost revolutionary 
conventional capability that we haven't had before, and the 
reason I think it is so important is because you can deploy 
this aircraft a third of the way around the earth in 8 hours 
from Whitelman, from Guam or Diego Garcia. If we had enough 
aircraft to deploy in those three cases, you literally could 
cover the world.
    And, you know, we don't have all these systems yet. They 
are just starting to come into the inventory and you have to do 
all the things necessary to get them on the airplane. It isn't 
just the B-2s. The B-1s could use some of these on other 
platforms.
    But to me when you are thinking about this problem with 
theater missile defense not having as good a system as I think 
we need to protect our kids, you can't just attack the problem 
on the side of defending against these weapons. You have got to 
also be able to go on the offense. And am I right here? Isn't 
stealth a big advantage in attacking these systems?
    Mr. Sheehan. The intelligence preparation in the 
battlefield and the battlefield location is key to this whole 
process. Every single game that we have run in the analysis, if 
you can get the tail on the ground before it goes in a recce 
phase and launch phase, it makes the battlefield solution that 
much better.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Young. Mr. Lewis, do you have further questions?

                           READINESS TRAINING

    Mr. Lewis. Thank you, Mr. Chairman.
    General, yesterday when we spent time with the Secretary 
and General Shalikashvili, the first three items in summarizing 
their priorities pointed to quality of troops, pointed to 
training and pointed to modern procurement.
    As a backdrop to all of that, we are faced very shortly 
with having to move quickly on a supplemental for Bosnia. The 
budget request that is before us goes down and not up, and we 
all know that money is fungible.
    So in connection with that piece that involves training, 
just for your edification, both twenty-nine Palms and the 
National Training Center are in my district so I pay a little 
bit of attention to training questions. Tell me, do you believe 
that the troops under your command are receiving adequate 
training? And if they are not, why not?
    Mr. Sheehan. I deal with joint training. We have a three-
tiered training program in U.S. Atlantic Command. It is kind of 
consistent on a worldwide basis. Tier I is a Service 
responsibility. Tier 2 is we train for joint interoperability. 
We do that across the United States by scheduling tankers and 
airplanes and those things, until you get them joint certified.
    And then Tier 3 is what we already talked about, the JTASC. 
Twenty-nine Palms and Force 21, for example, at Fort Hood, 
Texas, those are Service responsibilities. I visit those 
training facilities. I am very satisfied with where we are 
right now.
    I will tell you, though, that from a distribution of 
dollars, with 70 percent being O&M and 30 percent investment, 
if we continue this trend and we keep using equipment with old 
trucks, et cetera, we are going to wear the stuff out that we 
have and you are not going to have the equipment to train in a 
couple of years from now.
    Mr. Lewis. Going specifically to joint training as it 
relates to your command, what joint training exercises will 
take place in 1997 in your command and what is the budget for 
1998?
    Mr. Sheehan. Sir, the big item that we are going to spend 
the next couple of months working on is a cooperative defense 
which is the theater missile defense roving sands at Fort 
Bliss, Texas. We are also going to do what we call a unified 
endeavor, that is, the joint JTASC Training Simulation Program. 
That will be in the fall of the year.
    We will do one Partnership for Peace exercise in the United 
States, called Cooperative Osprey, and we are going to take 
basically a battalion minors from the 82nd Airborne with the 
Central Asian Peacekeeping Battalion, called CENTRASBAT and do 
an exercise in Uzbekistan and Kazakhstan.
    In 1998, we are going to focus on combined joint training 
with the US and plus the normal activity we in the operations 
through the Unified Endeavor Exercise. We do not do large scale 
exercises per se, putting 50- or 60,000 people in the field. We 
only do that once every 5 years and that is called Purple Star 
exercise.

                            JOINT OPERATIONS

    Mr. Lewis. General, in your earlier response to Mr. Obey 
and to myself, I kind of--I heard at least you are coming down 
on both sides of the answers that might be given relative to 
the adequacy of jointness.
    I feel very strongly that we need the broadest 
interpretation of the values and the impact of joint activity.
    The illustration I gave you relative to UAVs and the Air 
Force Command would indicate just exactly the opposite to me. 
Would you be very clear to me? Do you think we have got major 
problems in this area of jointness?
    General Sheehan. I think that there are always going to be 
problems in this area, because when you are talking about 
budget programs and money and Service cultures, roles and 
missions, you are always going to have friction. But from 
someone that has watched this process evolve, I am more than 
comfortable in terms of where we are in our maturity. It takes 
time to flesh out of the system people who are single-Service 
and parochial. You will always find that. I think that we have 
come a long way.
    I worked in the Office of the Secretary of Defense when 
Goldwater-Nichols was first drafted. I happened to be fortunate 
or unfortunate to be in the room when the Service chiefs argued 
against Goldwater-Nichols. One of the Service chiefs said that 
Goldwater-Nichols was unAmerican, and they fought very hard 
against it.
    We are a better Service, we are a better military, because 
of Goldwater-Nichols. We still have warts. And that is mostly 
personality-dependent people who just haven't understood that 
the U.S. military fights for this Nation; that it isn't about 
being in the Air Force, it isn't about being in the Marine 
Corps or the Army, but it is about giving the best possible 
product for this Nation.
    So we are still a couple of years away from fleshing out 
from the system people who haven't got the message. But I am 
encouraged by what I see. I see this every single day in joint 
training. I am surprised and encouraged by the maturity of some 
of the people that you run across in this business.
    Mr. Lewis. One of the reasons I have been using the 
illustration that I have been using is that among procurement 
efforts, new programs, the Predator was one I saw move forward 
very quickly. It seemed to break the mold of having to have a 
library of information and checks against counterchecks before 
you moved forward with procurement. And now that we have gone 
through that initial phase, now we--it seems to me that we, by 
way of the way--by way of the delegation of authority we have 
taken ourselves back to an over standard and it is a reflection 
of something less than maturing, and what I am hearing from you 
at least is that you are very supportive of more rapid 
maturing.
    General Sheehan. I think that the decisions to give it to a 
single Service was the correct decision. I am very comfortable 
that in General George Joulwan's mind, there was no question in 
General George Joulwan's mind just who owned the Predator and 
who could move it around the battlefield.
    Mr. Lewis. I can say that in our session earlier, there was 
some question when he heard that wetness was not an addition or 
development that would take place in Bosnia, I mean that--it is 
just the other side of what you just said.
    General Sheehan. But at the end of the day, as the Joint 
force commander, he will decide. We face this issue on certain 
platforms. I mean, we do--I mean, to give you an example a 
couple of years ago in September of 1994, when we put Army 
rangers on an aircraft carrier, the Marine Corps had a heart 
attack. They got over it. It takes time.
    Mr. Lewis. Thank you, General.
    Thank you.
    Mr. Young. Mr. Visclosky, do you have additional questions?

                                  CUBA

    Mr. Visclosky. Mr. Chairman, just if I could, General, what 
is your assessment of the political and economic situation in 
Cuba today?
    General Sheehan. The economic situation is improving, 
partially because of tourism, partially because of some foreign 
investment. The political situation is stable. Castro clearly 
is in charge. I think that--part of that, I think, is because 
we have forced the elites of Cuba together because of our 
recent decision in Helms-Burton. I think that the Cuban 
military clearly understands that regardless of what happens in 
the transition in Cuba they are going to be forced to be dealt 
with either for the good or for the bad.
    My argument has always been that somehow or another, you 
either get a line into the Cuban military, not because Raul and 
his brother Fidel are good people. It is just that I discount 
them. The Cuban military recognizes they are on a downward 
spiral. There is no exit; that they are--they don't want to--I 
mean, my sense from talking to them is that they don't want to 
go out into the streets and kill their own people.
    I think the Revolutionary Armed Forces, FAR headquarters 
clearly is politically loyal to Castro, but I think the--we 
can't treat them as a monolithic organization. I think the 
economic peace will stabilize, but eventually deteriorate. 
Large segments of the population are on a starvation diet. What 
I mean by that is less than 1,700 calories. And I think Castro 
is a very shrewd guy.
    Mr. Visclosky. General, thank you.
    Thank you, Mr. Chairman.
    Mr. Young. General, thank you very much for a very thought-
provoking presentation this afternoon. We appreciate that and 
we invite you to keep in touch with us. If there are problems 
that we ought to be aware of, let us know.
    The Committee is adjourned until 10:00 a.m. on Wednesday, 
when we will hear testimony from Admiral Preuher, Pacific 
Command; and General Tilleli, Commander U.S. Forces, Korea. At 
1:30 in the afternoon we will hear from General Peay, Commander 
in Chief, U.S. Central Command.
    If there is nothing further, the Committee is adjourned.
    General Sheehan. Thank you, Mr. Chairman.
    [Clerk's note.--Questions submitted by Mr. Young and the 
answers thereto follow:]

                      Current Operations/Training

    Question. Please list for the Committee the major deployments 
undertaken by the Atlantic Command in the past fiscal year.
    Answer. The following operations have been supported by the U.S. 
Atlantic Command during the period October 1995--September 1996. 
Operations are listed as operation/contingency name, dates and 
description:

------------------------------------------------------------------------
           CONTINGENCY                   DATES            DESCRIPTION
------------------------------------------------------------------------
Global Naval Force Presence       Continuous........  ------.
 Policy (GNFPP).
Global Naval Force Presence       Continuous........  ------.
 Policy (GNFPP).
Global Naval Force Presence       Continuous........  ------.
 Policy (GNFPP).
Global Naval Force Presence       Continuous........  ------.
 Policy (GNFPP).
Air Expeditionary Force (AEF) in  Continuous          ------.
 support of GNFPP gaps in          (between 95-180
 CENTCOM.                          days per year).
Multinational Force and           7/78-Present......  Force provider for
 Observers (MFO).                                      United Nations
                                                       (UN) peacekeeping
                                                       operations to
                                                       enforce Camp
                                                       David Accords
                                                       ending Egyptian-
                                                       Israeli October
                                                       1973 War in Sinai
                                                       Peninsula.
Counterdrug Operations..........  7/90-Present......  Various
                                                       counterdrug
                                                       operations in the
                                                       Caribbean and
                                                       southeast U.S. by
                                                       Joint Task Force
                                                       (JTF) 4, Joint
                                                       interagency Task
                                                       Force (JIATF)
                                                       EAST, and JTF 6;
                                                       conduct detection
                                                       and monitoring,
                                                       and coordinate
                                                       with law
                                                       enforcement
                                                       agencies (LEAs).
Operation PROVIDE promise.......  7/92-12/95........  Force provider for
                                                       UN peacekeeping
                                                       operations in
                                                       Bosnia.
Operations SHARP GUARD/DECISIVE   7/92-Present......  Force Provider for
 ENHANCEMENT.                                          UN embargo in
                                                       Adriatic Sea.
Operation SOUTHERN WATCH........  8/92-Present......  Force provider for
                                                       Central Command
                                                       to enforce the UN
                                                       no-fly zone over
                                                       southern Iraq;
                                                       increased US
                                                       presence with
                                                       AEFs to Bahrain
                                                       (10/95) and
                                                       Jordan (3/96).
Opertions DENY FLIGHT/DECISIVE    4/93-Present......  Force provider
 EDGE.                                                 support of UN no-
                                                       fly zone over
                                                       Bosnia-
                                                       Herzegovina (B-
                                                       H).
Task Force ABLE SENTRY (TFAS)...  6/93-Present......  Force provider
                                                       support of UN
                                                       military
                                                       observers in
                                                       Macedonia.
Operation SEA SIGNAL............  5/94-4/96.........  Establish JTF 160
                                                       and the Joint
                                                       Logistics Support
                                                       Group (JLSG) to
                                                       support Haitian
                                                       and Cuban migrant
                                                       operations at
                                                       Guantanamo Bay,
                                                       Cuba.
Operation UPHOLD DEMOCRACY......  9/94-Present......  Establish JTF 180,
                                                       JTF 190, United
                                                       Nations Mission
                                                       in Haiti (UNMIH),
                                                       U.S. Support
                                                       Group Haiti
                                                       (USSPTGPHAITI);
                                                       conduct
                                                       multinational
                                                       operations to
                                                       restore
                                                       democracy;
                                                       continued support
                                                       under exercise
                                                       FAIRWINDS after 4/
                                                       96.
Operation VIGILANT WARRIOR II...  8/95-11/95........  Force provider to
                                                       Central Command
                                                       to augment forces
                                                       in Southwest Asia
                                                       (SWA) following
                                                       defection of
                                                       Hussein's family
                                                       members and
                                                       Iraq's unstable
                                                       government.
Operations JOINT ENDEAVOR/JOINT   12/95-Present.....  Force provider in
 GUARD.                                                support of
                                                       European Command
                                                       for the NATO
                                                       peace
                                                       implementation
                                                       force (IFOR) and
                                                       stabilization
                                                       force (SFOR) in
                                                       Bosnia;
                                                       established the
                                                       Joint Preparation
                                                       and Onward
                                                       Movement (JPOM)
                                                       Center, Fort
                                                       Benning to
                                                       provide joint
                                                       training for IFOR/
                                                       SFOR augmentees
                                                       assigned to joint
                                                       staffs.
Operations SENTINEL LIFEGUARD/    2/96-3/96.........  Designate JIATF
 STANDOFF FOUR.                                        EAST as CJTF 4 to
                                                       assist U.S. Coast
                                                       Guard search and
                                                       rescue (SAR)
                                                       efforts following
                                                       the 24 February
                                                       1996 shootdown of
                                                       two Brothers to
                                                       the Rescue (BTTR)
                                                       aircraft;
                                                       monitored post
                                                       shootdown BTTR
                                                       flotilla
                                                       activities.
Operation STANDOFF FIVE; CJTF     3/96-Present......  Designate JIATF
 110 operations.                                       EAST as CJTF 110
                                                       to monitor Cuban
                                                       exile flotilla
                                                       activity and
                                                       subsequent Cuban
                                                       military activity
                                                       in the Florida
                                                       Strait.
Operation VIGILANT SENTINEL.....  4/96..............  Force provider to
                                                       Central Command
                                                       to augment forces
                                                       in southwest Asia
                                                       (SWA).
Operation DESERT FOCUS..........  8/96-Present......  Force provider to
                                                       Central Command
                                                       to increase
                                                       security
                                                       following the
                                                       terrorist bombing
                                                       of a U.S.
                                                       compound in Saudi
                                                       Arabia (6/96);
                                                       force provider to
                                                       build a new base
                                                       in Saudi Arabia.
Operation DESERT STRIKE.........  9/96..............  Force provider for
                                                       air-launched
                                                       missile strikes
                                                       against Iraqi air
                                                       defense targets
                                                       to protect
                                                       expanded no-fly
                                                       zone over
                                                       northern Iraq;
                                                       completed in
                                                       conjunction with
                                                       the movement of
                                                       Kurdish foreign
                                                       service nationals
                                                       to Pacific
                                                       Command
                                                       (Operation
                                                       PACIFIC HAVEN).
Exercise INTRINSIC ACTION.......  9/96-Present......  Force provider for
                                                       show of force
                                                       exercises in
                                                       southwest Asia
                                                       (SWA).
Panama Canal Treaty.............  3/94-Present......  Force provider to
                                                       Southern command
                                                       to augment force
                                                       structure in
                                                       Panama until
                                                       redeployment of
                                                       U.S. forces
                                                       following
                                                       turnover of the
                                                       Canal Zone to
                                                       Panama.
Operation SUSTAIN LIBERTY.......  3/96-Present......  Force provider to
                                                       Southern Command
                                                       to augment force
                                                       structure in
                                                       Panama.
JTF BRAVO.......................  3/94-Present......  Force provider to
                                                       Southern Command
                                                       to support peace
                                                       efforts in
                                                       Honduras.
Operation SAFE BORDER...........  3/94-Present......  Force provider to
                                                       Southern Command
                                                       to support peace
                                                       efforts along the
                                                       Peru-Ecuador
                                                       border.
Sensitive Reconnaissance          10/95.............  Force provider to
 Operations (SRO).                                     European and
                                                       Pacific Commands
                                                       with RIVET JOINT
                                                       aircraft.
                                  11/95-6/96........  Force provider to
                                                       Pacific Command
                                                       with COBRA BALL
                                                       aircraft.
Air Sampling Operations.........  4/96-7/96.........  Force provider to
                                                       Pacific Command
                                                       with air sampling
                                                       aircraft.
Unit Deployment Plan (UDP)......  3/92-Present......  Force provider to
                                                       Pacific Command
                                                       for the U.S.
                                                       Marine Corps unit
                                                       rotation plan to
                                                       Japan.
Operation ASSURED RESPONSE......  4/96-8/96.........  Force provider to
                                                       European Command
                                                       in support of non-
                                                       combatant
                                                       operations (NEO)
                                                       in Liberia.
Operation QUICK RESPONSE........  5/96..............  ..................
Operation MARATHON..............  10/96.............  Designated
                                                       Commanding
                                                       Officer, Naval
                                                       Base Guantanamo
                                                       Bay as Commander
                                                       Joint Task Force
                                                       (CJTF) MARATHON
                                                       to support
                                                       transfer of 109
                                                       rescued Chinese
                                                       migrants to Wake
                                                       Island (Pacific);
                                                       continued in
                                                       Pacific Command
                                                       as Operation
                                                       MARATHON PACIFIC.
African Crisis Response Force     11/96-Present.....  Force provider to
 (Operation GUARDIAN ASSISTANCE).                      European Command
                                                       in support of
                                                       relief and
                                                       humanitarian
                                                       support to UN
                                                       forces in Zaire
                                                       and Rwanda.
Hurricane Opal Relief...........  10/95.............  Supported Federal
                                                       Emergency
                                                       Management Agency
                                                       (FEMA) relief
                                                       operations in
                                                       Gulf of Mexico
                                                       coast states.
Icelandic avalanche Relief......  10/95.............  Supported
                                                       avalanche relief
                                                       operations in
                                                       Flateyri,
                                                       Iceland.
Atlanta Olympic and Paralympic    10/95-8/96........  ..................
 games.
Northwest Flood Relief..........  2/96..............  Supported FEMA
                                                       flood relief
                                                       efforts in Idaho,
                                                       Washington,
                                                       Oregon.
Hurricane Bertha Relief.........  7/96..............  Supported FEMA
                                                       Bertha relief
                                                       operations in
                                                       Caribbean
                                                       islands.
TWA Flight 800 Salvage..........  7/96-10/96........  Supported search
                                                       and rescue (SAR)
                                                       and salvage
                                                       operations near
                                                       Long Island, New
                                                       York.
Wildland Fire Fighting Support..  8/96-9/96.........  Supported FEMA
                                                       fire fighting
                                                       efforts in the
                                                       western U.S.
Hurricane Fran Relief...........  9/96..............  Supported FEMA
                                                       Fran relief
                                                       operations in the
                                                       southeast U.S.
Exercise UNIFIED ENDEAVOR 96-1..  11/95.............  Combined Arms
                                                       Exercise (CAX),
                                                       joint training of
                                                       a Commander Joint
                                                       Task Force
                                                       (CJTF).
Joint Task Force Exercise         11/96-12/95.......  Readiness
 (JTFEX) 96-1.                                         certification in
                                                       joint operations
                                                       for the USS
                                                       GEORGE WASHINGTON
                                                       CVBG and USS GUAM
                                                       ARG.
Exercise FAIRWINDS..............  4/96-Present......  Conducted
                                                       humanitarian
                                                       support projects
                                                       in Haiti.
Exercise PURPLE STAR 96 (NATO)..  5/96..............  U.S.-United
                                                       Kingdom combined
                                                       joint task force
                                                       military field
                                                       exercises at Camp
                                                       Lejeune, North
                                                       Carolina.
Exercise COOPERATIVE ZENITH 96    5/96..............  Partnership for
 (NATO).                                               Peace (PfP)
                                                       exercise in
                                                       Florida;
                                                       conducted search
                                                       and rescue
                                                       operations with
                                                       U.S., NATO, and
                                                       PfP countries.
Exercise ROVING SANDS 96........  6/96..............  Large scale joint
                                                       training exercise
                                                       in southwestern
                                                       U.S.
Exercise UNIFIED ENDEAVOR 96-2..  6/96-7/96.........  Combined Arms
                                                       Exercise (CAX),
                                                       joint training of
                                                       a Commander Joint
                                                       Task Force
                                                       (CJTF).
JTFEX 96-2......................  4/96..............  Readiness
                                                       certification in
                                                       joint operations
                                                       for the USS
                                                       ENTERPRISE CVBG
                                                       and USS SAIPAN
                                                       ARG.
Exercise COOPERATIVE OSPREY 96    8/96..............  Partnership for
 (NATO).                                               Peace (PfP)
                                                       exercise in
                                                       Florida;
                                                       conducted field
                                                       exercises with
                                                       U.S., NATO, and
                                                       PfP countries.
Exercise TRADEWINDS.............  3/96-4/96.........  Special Operations
                                                       Forces (SOF)
                                                       exercise with
                                                       various Caribbean
                                                       countries.
Special Operations Forces (SOF)   2/96-7/96.........  SOF training
 Joint Exercise Training (JCETS)                       deployments to
 Deployments.                                          various Caribbean
                                                       island nations.
JTFEX 97-1......................  10/96.............  Readiness
                                                       certification in
                                                       joint operations
                                                       for the USS
                                                       THEODORE
                                                       ROOSEVELT CVBG
                                                       and USS NASSAU
                                                       ARG.
------------------------------------------------------------------------

    Question. Is the operating tempo (OPTEMPO) of any units under your 
command significantly higher than any others? If so, which units?
    Answer. Yes, Thresholds have been exceeded in some areas due to 
ongoing contingency commitments. The impact is particularly severe on 
low density, high demand (LD/HD) specialized forces, which are critical 
to our ability to respond to both Operations Other Than War (OOTW) 
missions and Major Regional Conflicts ------.
    Question. Do you feel that Military Operations Other than War by US 
forces has affected the readiness or combat skills of US forces?
    Answer. Yes, the number and duration of Military Operations Other 
than War degrades the readiness and combat skills of all deployed 
military units. The degradation depends on factors such as the duration 
of deployment, operation requirements, type of unit, etc. Other 
factors, such as the wear and tear on aging equipment and the use of 
Operations and Maintenance funds, also affect readiness. It is 
difficult to quantify the readiness impact and loss of combat skills 
across the board, however, a few examples may help clarify this point.
    Even though some training can be accomplished in the field and some 
training value is inherent in the operations, training to maintain many 
perishable combat skills is not available. Marksmanship, gunnery, 
maneuver, low-level navigation, air-to-ground ordnance delivery, air-
to-air combat, and airdrops require maneuver space, artillery and 
firing ranges, drop zones, bombing ranges, and low-level routes. These 
ranges, zones, and routes are the basic requirements for maintaining 
the perishable skills of combat units. Even those units who initially 
get good training encounter diminished training opportunities after 
they complete their initial tasks and settle into a routine. This is 
especially true for engineering units. Once the bridges are in place 
and the tent-cities are complete, the mission becomes one of 
maintaining, and eventually, the duration of the operation negates the 
initial training benefits.
    Maintenance can suffer in the field; it is a continuous challenge 
and exacerbates the impact of long deployments. There is an increase in 
wear and tear and decrease in the available facilities and time to 
perform routine and preventive maintenance. Some equipment experiences 
extreme wear and may not be serviceable after a long deployment with 
constant exposure to the elements. Much of the equipment in bare-base 
kits such as Harvest Falcon may have to be replaced after a deployment.
    Funding for these operations can have a severe impact on readiness. 
Although the $3.3 billion spent on contingency operations in 1996 was 
only 1.3 percent of the FY 1966 defense budget, the cost is taken from 
Operations and Maintenance funds--the training and readiness funds. 
This year, if a supplemental bill is not passed, Forces Command will 
have to start shutting down functional operations in the May timeframe.
    Question. Are the funds budgeted for the service's fiscal year 1998 
request sufficient for your projected training needs?
    Answer. Yes, the funding for fiscal year 1998 joint training is 
sufficient. However, I believe that funding for service specific 
training--training that prepares units for joint training--may be 
underfunded in order to pay for contingency operations, especially if 
the Bosnia supplemental is not passed.
    Question. Has U.S. participation in Operations Other Than War 
altered the type of exercises you conduct?
    Answer. Yes. Until recently, combatant command staffs concentrated 
almost exclusively on deliberate and contingency planning for potential 
high end warfighting. Today, a gamut of ``on-the-shelf'' plans exist 
that span the Operations Other Than War spectrum ranging from low-end 
humanitarian assistance operations through sophisticated peace-
enforcement and noncombatant evacuation operations.
    Joint Warfighting and Operations Other Than War missions depend 
heavily on multinational coalition integration. As such, it is 
important to train and exercise U.S. forces with regional multinational 
forces. Command and Control interoperability, logistics integration, 
common force protection procedures and rules of engagement compatible 
with provisions of international and national law are among the most 
crucial elements of these training exercises.
    Question. For fiscal year 1997, Congress appropriated $267 million 
for JCS exercises. It is the committee's understanding that the 
Atlantic Command has the primary responsibility for the execution of 
those funds. How has the money been spent to date and what do you see 
as the primary benefit of those exercises?
    Answer. The $267 million funds only the FY96 airlift portion of the 
transportation to and from the exercises (the FY97 airlift funding is 
$244 million and the total FY97 JCS Exercise transportation program, 
including sealift, port handling, and in-land transportation is $362 
million.) The $267 million also doesn't address the Service funded 
costs incurred at the exercise location.
    The Joint Staff is the agency with primary responsibility for these 
funds. Joint Staff allotted approximately $32.4 million (12%) of the 
$267 million cited to Atlantic Command. The remainder is distributed to 
other CINCs by Joint Staff for their requirements. The USACOM funds 
have been budgeted for sealift and airlift requirements identified in 
the time-phased force and deployment data (TPFDD) for Atlantic Command 
sponsored exercises. These exercises fall into the general categories 
of Tier 3 (staff training), Tier 2 (field training), Partnership for 
Peace, NATO and Area of Responsibility exercises. The $32.4 million is 
committed to currently scheduled exercises. However, we requested $35 
million for FY 1997, leaving a $2.6 million shortfall. The primary 
benefits of the exercises are:
    Ensure U.S. military members/units are acquainted with joint and 
combined warfighting tasks prior to in-theater arrival.
    Train U.S. military members the way they are expected to fight.
    Sustain and build joint readiness.
    Provide a vehicle to learn and practice joint doctrine.
    Improve warfighting effectiveness of U.S. forces.
    Provide for joint and combined multinational interoperability 
training for U.S. components.
    Establish a cooperative relationship and improved effectiveness 
between combined forces of Atlantic Command and NATO/Partner Nations.
    Meet treaty obligations and provide assistance to developing 
countries in concert with Atlantic Command's theater strategy.
    Question. Do you believe that $267 million for JCS exercises is 
adequate given the growing importance of joint operations?
    Answer. No. Again, the $267 million funds only the FY96 airlift 
portion of the transportation to and from the exercises (the FY97 
airlift funding is $244 million and the total FY97 JCS Exercise 
transportation program, including sealift, port handling, and in-land 
transportation is $362 million.) The $267 million also doesn't address 
the Service funded costs incurred at the exercise location.
    The Joint Staff has primary responsibility for the transportation 
funds and the FY98 President's Budget funds Defense Planning Guidance 
directed OPTEMPO. In fiscal year 1997 we need $35 million dollars and 
have been allocated $32 million dollars, leaving a shortfall of $2.6 
million dollars. In fiscal year 1998, our allocated joint 
transportation funds are $24.8 million. We require $27.3 million 
resulting in a shortfall of $2.5 million. For fiscal year 1999 our 
requirements are $22.4 million with $21.4 million dollars allocated 
again resulting in a shortfall of $1 million.
    The question that needs to be addressed is how to qualitatively 
differentiate between joint transportation dollars that are expended 
for joint training exercises and those spent for presence and access 
exercises. According to the July 1995 General Accounting Office report 
on Military Capabilities, Stronger Joint Staff Role Needed to Enhance 
Joint Military Training, 73% of surveyed exercises were presence or 
access exercises.
    Question. The Atlantic Command maintains the Joint Training, 
Analysis and Simulation Center (JTASC) in Suffolk, Virginia. It is 
reportedly one of the premiere centers of computer modeling and 
simulation. Describe to the Committee the purpose of the Unified 
Endeavor exercises that are run in the JTASC.
    Answer. The Unified Endeavor (UE) exercise series is designed to 
train Joint Task Force (JTF) staffs and commanders to meet JTF joint 
mission essential task list (JMETL) and joint force integrator (JFI) 
standards under established conditions. UE exercises stress combat 
decisions and applied doctrine through the use of operational command, 
control, computers, and intelligence (C4I) in a high-stress, 
operational-like environment. They stress process rather than training 
on specific equipment in a home-based environment. UE simulations 
employ actual terrain and threat databases and real-time intelligence 
assets in areas of potential crises. They are not, however, intended to 
validate or exercise specific real-world plans even if they are used as 
a basis for exercise design. Troops and other field units are not used 
as training aids for a UE exercise.
    USACOM has trained the following JTF staffs in UE exercises: XVIII 
Airborne Corps, II Marine Expeditionary Force (MEF), 8th Air Force, and 
III Corps. Training is scheduled during the next year for: 2nd Fleet, 
II MEF, and III Corps. Training to be conducted by 2nd Fleet and II MEF 
will be in conjunction with NATO nations and will involve our first use 
of coalition doctrine for a JTF. When other nations are involved with a 
UE, they absorb the costs for national participation.
    In addition, USACOM has provided UE-type academic training support 
to JTFs and other headquarters assigned to other Commanders in Chief 
(CINCs) and Military Departments, as well as, NATO. Specifically 
training has been provided to 6th Fleet, 8th, 16th, and 17th Air 
Forces, I Corps, 3rd Army, Bosian Implementation Force (IFOR), JTF 
Panama, US Forces Azores. Training will be provided this year for 3rd 
Army, Iceland Defense Force (IDF), US Forces Azores, Southern European 
Task Force (SETAF), Marine Corps Command and Control School, Allied 
Forces Central Europe (AFCENT), and UK Permanent Joint Headquarters 
(PJHQ).
    Question. What command field exercises can now be performed at the 
JTASC and what annual savings can be realized as a result?
    Answer. As a result of the development of the UNIFIED ENDEAVOR 
exercise series, training of Joint Task Force Commanders and staffs 
without troops in the field, USACOM was able to cancel five field 
training events:
        Exercise                                      Cost (in millions)
(1) Agile Provider................................................  $9.3
(2) Market Square.................................................   3.9
(3) Mighty Thunder................................................   0.4
(4) Resolute Response.............................................   4.2
(5) Rendezvous....................................................   0.5

    The cost savings associated with these events was $18.3 million 
joint transportation dollars. In addition, the Services now save $40 to 
$60 million in operations and maintenance costs associated with putting 
troops in the field and ships at sea for large exercises. They also 
save in the use of tens of thousands of forces in the field which were 
previously required to train general/flag officers and their staffs.
    Currently, a single UNIFIED ENDEAVOR exercise which trains a 3 star 
Joint Task Force Commander and his staff and the 1 and 2 star component 
commanders and their staffs is approximately $600 thousand in joint 
transportation costs and $2.3 million in operations and maintenance 
costs using 2500 support personnel.
    In addition, the initiative to tie all geographic CINCs Joint Task 
Force training events to the JTASC is being developed by the Joint 
Staff in conjunction with the Joint Warfighting Center and USACOM. Use 
of the JTASC would be expanded for use to standardize Joint Task Force 
training on a worldwide scale. Although, no dollar figure can be 
currently assigned, this alternative could have huge potential cost 
savings to all CINCs, and possibly NATO if coalition forces are 
considered in the training audience.
    Question. Could an over-reliance on simulated exercises as opposed 
to actual ones lead to the decreased readiness of those units 
participating?
    Answer. Yes. From a total force capability perspective, simulations 
alone cannot completely replace field training exercises. Our UE 
exercises have proven to be an effective vehicle for the training of 
three star Joint Task Force Commanders and staffs, and two star 
component commanders and staffs.
    However, they are not designed to train forces in joint 
interoperability tasks. This is conducted within our Tier 2 exercise 
program where joint interoperability is achieved through field training 
exercises based on critical interoperability tasks from supported 
CINCs. The goal is to provide a common level of joint training prior to 
deployment and ensure that no US military member or unit is confronted 
with a joint warfighting task for the first time after arrival in-
theater. The frequency of events is based upon unit deployment 
schedules or as required to support unit readiness. The objective of 
the Tier 2 Exercise Program will be joint forces trained to standards, 
ready for complex joint operations anywhere throughout the world.

                      Priorities and Deficiencies

    Question. Do you feel the interests and needs of the Atlantic 
Command have been adequately addressed in the fiscal year 1998 defense 
budget request before the Committee?
    Answer. Yes, but there are several areas that cross Service 
boundaries that demand close attention from the Congress and DoD 
leadership. We must develop and field a joint Combat Identification 
system for detection of ``friend-or-foe'' in order to provide for the 
safety of our fighting men and women. A command, control, 
communications, computer and intelligence (C4I) architecture which 
incorporates processing and analysis commonality is vitally needed for 
joint task force (JTF) commanders. Finally, a cohesive, integrated 
resourcing strategy for reconnaissance/surveillance platforms to 
support collection and dissemination requirements, an area now being 
addressed by the Joint Requirements Oversight Council (JROC) for fusion 
into a common system, is key to future joint warfighting.
    The JROC has evolved as a superb forcing function, ensuring 
recognized threats are balanced against existing hardware and future 
system developments are considered for joint applicability. The JROC 
forces the Services to ask the question--how does this planned weapon 
system play in the joint fight and therefore necessitate resource 
programming with the resulting answer in mind. This is not to say that 
there isn't more work to be done by us all in integrating existing 
systems into the joint fight.
    Question. What is your assessment of the major shortfalls in: 
Personnel, Training, Equipment, and Maintenance for those units under 
your day-to-day command as well as those that would be assigned to you 
in a war time situation?
    Answer. As I stated in my testimony, I firmly believe the men and 
women of USACOM are the best equipped, trained and led military in the 
world. They are ready to accomplish any of their assigned missions. 
However, signs of potential problems in personnel, equipment, and 
training are beginning to surface.
    Army first-term attrition is up to 37%, versus 31% ten years ago. 
This coupled with possible recruiting shortfalls could lead to critical 
personnel shortages down the road. Ninety-nine percent of Air Force 
accessions in Fiscal Year 97 to date are high school graduates, but 
only 79% scored in the top half of the Air Force Qualification Test, 
down from 83% in Fiscal Year 96. Critical specialties, such as pilots, 
are beginning to show a decline in retention. The Fiscal Year 96 pilot 
retention in the 6-11 years range dropped from 86% to 77%. Furthermore, 
those pilots taking the Aviator Continuation Pay dropped from 77% to 
59%. Whether these retention numbers are directly related to operating 
tempo remains to be determined, but they are indications that the 
current personnel trends are moving in the wrong direction.
    Modernization is a key pillar in the foundation for implementation 
of Joint Vision 2010. And although near-term readiness is funded 
adequately, modernization for the future remains underfunded. During 
the Army downsizing, it reshaped the force while maintaining current 
readiness, in some cases, by deferring modernization and redistributing 
modernized equipment across the smaller force. With this smaller force, 
Forces Command units must be able to execute a full range of 
operations. Further deferral of modernization will incur significant 
risk to future readiness in Forces Command and Force 21, inhibiting the 
ability to execute these full range of operations. The Air Force 
backlog of maintenance and repairs continues to grow from $4.4 billion 
in fiscal year 1998 to $5 billion in fiscal year 1999. In addition, the 
Navy's aircraft fleet continues to age. The average age of the fleet 
was 14.5 years in 1991. Even with the introduction of the F/A-18 C&D 
model aircraft and the retirement of the A-6, the current age is 14.3 
years.
    Question. What are the top ten priority items on your most recent 
integrated priority list?
    Answer. The top ten priorities from integrated priority list fiscal 
year 1999-2003 are:
    1. Force Readiness:
    (A) Establish up-front supplemental appropriations or timely 
reimbursement for contingency and operations other than war. These 
appropriations should not be sourced or reimbursed from DOD service 
accounts.
    (B) In view of increasing mission requirements and smaller force 
structure, establish a periodic review to validate recurring 
deployments and joint/allied/bilateral exercises worldwide.
    (C) Active force PERSTEMPO issues can be improved by continued 
insistence on increasing Reserve Component (RC) integration.
    1--Fully fund RC program accounts to allow execution of added 
travel, training and operations without decrementing normal training 
funds.
    2--Require modernization of relevant RC equipment. Give special 
consideration to C41 systems to facilitate seamless RC integration with 
active component forces.
    (D) Require full funding of steaming days/flying hours/operating 
miles.
    (E) Strong support for quality of life initiatives to include 
adequate compensation, decent housing, rewarding career opportunities 
and family support. Prevent pay scales from falling short of 
inflationary increases.
    (F) Continuous intensive language refresher training is essential 
for enhancement and sustainment of perishable foreign language skills. 
Review critical language skills worldwide and build a database 
accessible by CINCs, services and agencies to support crisis, 
contingencies and exercises.
    (G) Program adequate funding to prevent maintenance backlogs from 
increasing.
    2. Combating Terrorism/Force Protection. Funding required to:
    (A) Develop standards for pre-deployment anti-terrorism training 
for all CONUS-based, DOD forces.
    (B) Conduct enhanced anti-terrorism training for combatant command 
(COCOM) forces deploying into the USACOM Area of Responsibility (AOR) 
and, as necessary, for COCOM forces deploying into other AOR's.
    (C) Conduct assessment of force protection status for all DOD 
activities within the geographic AOR. This includes contractor support 
to and site visits by ACOM force protection assessment team.
    (D) Support expanded manpower requirements for counter-
intelligence/anti-terrorism (CI/AT) collection.
    (E) Provide security enhancement measures to facilities/units to 
include application of both current and emergent technologies. 
Technology applications are envisioned in lieu of committing additional 
personnel assets to security requirements, and as the most effective 
and feasible means of providing force protection to non-hardened sites.
    (F) Provide for timely commitment of resources in response to 
emergent terrorist threats.
    (G) Field a common DOD migration system in support of counter-
intelligence (CI), counter-terrorism (CT), counter-proliferation (CP) 
and indications and Warning (I&W) that is interoperable with Global 
Command and Control System (GCCS).
    3. Joint Logistics:
    (A) Correct quantity shortages in both precision and conventional 
munitions.
    (B) Joint Total Asset Visibility (JTAV) (including in-transit 
visibility) must be fully supported and contributing programs must be 
compatible.
    (C) Upgrade essential log infrastructure. Require improved rail/
port/air facilities, warehouses, containers and container handling 
facilities/equipment to support rapid force deployment.
    (D) Our ability to execute Joint Logistics Over The Shore (JLOTS) 
requires interoperable lighterage/causeways, and sea state two Roll On-
Roll Off Discharge Facility (RRDF) now. Sufficient research and 
development funding (only) required for sea state three development. 
JLOTS training for AC and RC is vital.
    (E) Afloat and ashore prepositioned asset capabilities:
    1--Army Prepositioning Afloat (APA) and Marine Corps Enhanced 
Maritime Preposition Force (MPF-E) required for rapid strategic 
positioning of equipment and materials for MRC-size force buildup and 
military operations other than war (MOOTW).
    2--Fund additional rapid deployable beddown systems as force 
provider and harvest falcon/eagle for prepositioning.
    4. Interoperability of C4I systems:
    (A) Require commonality in processing and analysis.
    1--Accelerate fielding of interoperable J-series family of data 
links (link 16 and VMF).
    2--Resource development of common management information systems 
(MIS), including interoperable hardware and databases to include multi-
level security (MLS) tagging of data elements.
    3--Migrate to common imagery ground/surface system.
    4--Develop common collection management tool kit and computer 
mapping software.
    5--Develop integrated broadcast service and migrate to global 
broadcast system (GBS).
    6--Continue to upgrade warfighter utility of GCCS. Meld fire 
support, intelligence, and personnel into a single, full spectrum, C2 
support system. Continue development and fielding of deployable GCCS at 
tactical level.
    5. Fund Joint Training. Require full out-year funding for Joint 
Training Analysis and Simulation Center (JTASC) facility/programs to 
continue joint training initiatives. This includes a joint intelligence 
model as part of the Joint Simulation System (JSIMS) modules for use by 
service and joint participants.
    6. Countermine Warfare. Require immediate capability to detect and 
neutralize mines. Joint countermine Advanced Concept Technology 
Demonstration (ACTD) and other mine countermeasure programs need 
development/rapid fielding, especially for very shallow water (VSW)/
shallow water (SW) environments.
    7. Non-lethal Technologies. Fund development of additional non-
lethal technologies to support military, counter-drug and force 
protection operations. Recapitalization.
    8. Strategic Lift (air and sea). Must achieve the mobility 
requirements study bottom up review update (MRS BURU) mandated 
strategic airlift and sealift capability. C-17, large medium speed roll 
on-roll off (LMSR), and funding of ready reserve force fleet capacity 
are critical to meeting this requirement.
    9. Tactical Mobility.
    (A) Must provide suitable replacement capability for aging 
inventory of medium life helos.
    (B) Timely recapitalization of aging tactical wheeled vehicle 
inventory required.
    (C) Require additional small watercraft in support of riverine 
operations.
    10. Replace airborne Command and Control C2 platforms. Require 
airborne C2 platform capable of: initial/sustained command and control 
of forces; receipt of all source, real-time indication/warning of 
potential battlespace threats; electronically countering hostile C2 
assets.
    Question. In your view, are present levels of investment funding 
contained in the department's future year defense plan sufficient to 
address the long term recapitalization requirements of today's forces?
    Answer. No. We need approximately $50 billion to modernize and 
recapitalize our Bottom-Up-Review forces. If shortfalls continue, DOD 
will be on the road to obsolescence. For example, if Navy only buys 
four to five ships a year, the fleet will in time dwindle to 200 ships. 
The bottom line is programmatics do not fit the concept or vice versa.

               Troop Quality, Morale, and Medical Issues

    Question. General Sheehan, have you noticed any deterioration in 
the quality of the new troops entering your theater? How would you 
describe their physical condition? Are the troops as mentally 
disciplined as those in prior years?
    Answer. No. Even though we are often forced to deploy cross-leveled 
units, stretch the limits of our combat service and support force 
structure, and respond more frequently with fewer and fewer units, the 
men and women of USACOM and the entire U.S. armed forces are the best 
equipped, trained and led military in the world. Quality force and 
wellness initiatives have taken on new strategic importance in today's 
requirement for a ready Continental U.S.-based force to sustain and 
support forward commanders in chief (CINCs) and provide domestic 
response capability. Generally, the physical condition of our troops in 
the field is as good as it has been in past years and is getting even 
better. Their leadership training, physical conditioning, and improved 
wellness management make them a better and more sustainable warfighting 
force than we have fielded before. Increased emphasis on wellness 
programs by the Services, improved medical surveillance and health 
maintenance programs, and leveraged military medicine techniques and 
technology like telemedicine, care-in-the-air aeromedical evacuation, 
patient tracking with in-transit visibility, and forward medical 
surgical capability ensure constant vigilance over threats to troop 
wellness and their ability to mentally and physically sustain high 
levels of performance. The troops that we are sending into operational 
areas such as Haiti and into harsh overseas environments such as 
Iceland are very mission focused. They understand the task at hand and 
have the discipline in most cases to get it done. The troops of today 
are accustomed to and familiar with the technically advanced tools and 
technologies employed on the modern battlefield, and cope better in 
many cases than those in prior years. This has allowed us to challenge 
them earlier and transition more technically sophisticated 
responsibilities to more junior troops than was possible or practical 
in earlier years.
    However, there are threats to these advances. Today's troops face 
not only the stresses associated with deployments away from their 
support network, but they also face longer hours on the job at home 
maintaining the aging equipment inventory and training for the next 
mission. Particular attention should be paid to the continued care and 
attention to family support, quality of life during deployment and 
periods of non-deployment, and job security issues upon return from 
stressful deployments. Finally, recent uncoordinated attempts by the 
Navy's Surgeon General to cut the training program at Portsmouth Naval 
Hospital, if executed, will have the serious impact on the morale and 
readiness of the forces.
    Question. Have you found that the new troops enter the field with 
more personal problems than those in the past?
    Answer. No. While there are the standard personal problems that 
will appear with any deployment, my commanders in the field report that 
these problems are no different than any other deployments they have 
been involved with. The troops we are seeing today are more aware of 
the relationship of quality of life to lifestyle management, and more 
educated and willing to take personal responsibility for good choices 
and good health. Make no mistake, the military lifestyle makes demands 
on individuals and families that are not a part of civilian life, 
however, I am confident that the support systems which the Services and 
the chain of command have put into place in recent years are, at least 
in part, responsible for the lack of an increase in personal problems 
in our service members.
    Question. How is the morale of your troops on deployment in the 
theater?
    Answer. We currently have troops deployed throughout the USACOM 
Area of Responsibility conducting diverse and challenging missions. 
These men and women are the best trained and equipped professionals in 
the world. The moral of our deployed men and women in the theater 
remains high. Morale in the theater is high because the troops remain 
focused on the mission at hand which is what they were trained to do. 
Most military men and women joined the service to see the world. 
Deployments in support of real world missions are a source of pride and 
satisfaction for the troops in the theater.
    The problem we're having today is when the troops come back to home 
station. In many cases they are working just as many hours when they 
return. Following a deployment, the actual time spent with families is 
usually not the same as the anticipated and deserved time. Morale then, 
is not a problem with our forward deployed men and women, but is more 
of an issue with troops that are either in support roles or between 
deployments back in CONUS. We are often demanding more of our troops at 
home who are supporting our deployed troops, intensely training for the 
next deployment cycle, or working progressively long hours on aging 
equipment. Most units go through a period of degradation after a 
deployment in order to beef up other units preparing for the next 
deployment. When our troops return from deployment they expect a well 
deserved rest, but we find they often put more time on the job and 
family time suffers.
    Question. In visiting various statewide bases, members of the 
Committee have been hearing complaints about medical care and dental 
plans. How satisfied are troops and dependents in ACOM with the medical 
care, and dental care for themselves and their dependents? What are the 
major shortcomings of medical care in your command? How many U.S. 
military operated hospitals are there in the Atlantic Command?
    Answer. The troops and their dependents are generally satisfied 
with the medical and dental care they're provided. This said, I am 
still concerned about the diluted Service focus towards continued 
professional medical education. Recent uncoordinated attempts by the 
Navy's Surgeon General to cut the training program at Portsmouth Naval 
Hospital, if executed, will have a serious impact on the morale and 
readiness of the forces. Bringing our medical professionals to a level 
of expertise, and keeping them there, is critical to ensuring this 
country's military men and women are well taken care of and that joint 
task force commanders can remain confident that today's force will be 
available for tomorrow's fight. Funding decisions made during the 
Fiscal Year 1999 Budget Review, shifting focus from medical treatment 
facilities towards smaller ``clinics'' with less specialized medical 
care, reduce troop and dependent access to more acute medical 
treatment. Additionally, pulling trained medical professionals from 
these facilities increases the likelihood that physicians will not have 
the training and skills necessary when called upon during conflict. In 
my Area of Responsibility (AOR) there are three hospitals.

       Quadrennial Defense Review and the Future Force Structure

    Question. The Quadrennial Defense Review (QDR) will reexamine the 
current national security strategy and present force structure of the 
armed services. The QDR will purportedly make recommendations as to 
what the appropriate mix of forces will look like to meet the strategic 
and regional threats of the future. The results are due to be presented 
to the Congress in May of this Year.
    You have been outspoken in the past on the need to ``be open to the 
case for a radical restructuring of our armed forces.'' You have also 
noted that the so-called ``tooth-to-tail ratio'', that is the number of 
combat forces versus the number of support forces necessary to maintain 
them, is severely out of balance. To illustrate your point you have 
made the following observations in interviews or addresses:
    --That ``There are 150,000 DoD military within a 50 mile radius of 
Washington D.C., while there are only 129,000 sailors in the entire 
Atlantic Fleet.''
    --``In the DoD there are 199 separate staffs at the civilian and 
the two-star and above flag officer level.'' And;
    --Statistically, that the Army has only about 125,000 ``warfighters 
supported by 375,000 uniformed personnel and another 300,000 civilians 
. . . that works out to only 16 percent of the total force.''
    You have also concluded that ``if we're not careful, we could 
become the best trained staff to ever get run off a hill.''
    Do you believe that staff cuts alone will free up the necessary 
funds to achieve the Department's modernization goals?
    Answer. No. Even the most generous estimates of the savings that 
could be generated by overhead reductions fall dramatically short of 
the amounts needed to achieve DoD modernization goals. But, that should 
not deter our efforts to restore the proper balance between combat 
forces and support personnel. From the Cold War peak (FY87) to the 
present, we have dramatically cut the overall force while making only 
token reductions in headquarters staffs. Likewise, the ratios of 
enlisted personnel to officers, and junior civilian personnel to senior 
personnel, have grown disproportionate. We are compromising 
modernization by retaining a disproportionately top-heavy force 
structure which is expensive and unnecessary.
    Question. Given present resources should we give up the notion of a 
force capability to conduct two near simultaneous Major Regional 
Conflicts (MRCs)?
    Answer. No, we should not give up the force capability to conduct 
two near simultaneous MRCs. This capability is a key element supporting 
our ``National Security Strategy of Engagement and Enlargement.'' 
Moreover, it is essential to our role as the remaining superpower with 
the responsibility to respond globally with a broad range of 
capabilities until ``coalitions of the willing'' are able to react to 
the ``hot sports'' of today's world.

                    Tactical Aircraft Modernization

    Question. A recent Congressional Budget Office (CBO) study 
estimates that the total cost to develop and acquire all the aircraft 
presently envisioned for the F-22, F-18E/F, and Joint Strike Fighter 
programs will amount to $350 billion, even without factoring in 
inflation. Depending on what funding assumptions you make, these three 
programs could consume anywhere from 25 to 50 percent of all defense 
department procurement spending in the future.
    General Sheehan, you have been quoted as asking the question: ``Why 
spend $213 billion (over the next decade) for marginal improvements in 
airplanes when we still haven't figured out how to kill tanks?'' Could 
you please expand your views to the Committee as to the relative 
priority of tactical aircraft modernization versus other Defense 
Department weapon requirements?
    Answer. Tactical aircraft modernization must be considered as only 
one part of a large total force modernization program. As such it must 
be conducted with a clear understanding of current and future joint 
warfighting requirements. It must recognize that some elements of our 
current tactical aircraft force structure are redundant. Moreover, 
because the airframes were so expensive, we suboptimized some fixed and 
rotary wing aircraft in terms of combat identification and night 
capabilities. Friend or foe identification capability must be 
incorporated on all attack aircraft. Aggressive, joint sponsorship for 
this initiative is required. We must ensure that any modernization that 
is conducted is based on joint warfighting requirements and the need 
for all elements of a joint force to be interoperable. All too often we 
suboptimize weapons programs within a large concept of operations and 
then suboptimize the weapons systems themselves such that they are not 
fully capable of operating in a complex, joint battlespace.
    Question. Given the most likely threats in the most likely 
geographic settings of the future, do you believe that 25 to 50 percent 
of all DoD procurement funding is warranted just for tactical aircraft 
modernization?
    Answer. The issue is not whether the threat/geographic combination 
warrants expending a significant portion of the DoD procurement budget 
for tactical aircraft modernization, but whether the threat/geographic 
combination warrants the types of aircraft we are planning to procure 
during this modernization. Fighter recapitalization programs are 
necessary to ensure essential warfighting capabilities remain available 
to support the National Security Strategy. For our continued success as 
the world's only military superpower, we need a modern, survivable, and 
increasingly lethal fleet of tactical aircraft with their associated 
capabilities. Combined with the advanced precision weapon purchases, 
these programs may represent a substantial portion of the DoD budget, 
but the capability they engender is vital to our 21st century 
warfighting needs. Nevertheless, we still must give serious 
consideration to the proper mix of tactical aviation assets which are 
purchased. In light of predictions that we will face no peer 
competitors in the next 10-15 years, we must not purchase airframes 
unless they clearly support our national strategy and provide 
capabilities vital to executing our military strategy.
    Question. General, you have argued recently that ``naval aviation 
still does not have a clear concept of where fixed-wing aviation fits 
in strike warfare.'' What in your view are the major conceptual issues 
that need to be resolved in this mission area as the Navy embarks upon 
the acquisition of 1000 F/A-18E/Fs at a total program cost of $67 
billion?
    Answer. In referring to the Navy's lack of a clear concept of 
fixed-wing aviation's place in strike warfare, I see two key issues. 
First, the Naval Services (United States Navy and Marine Corps) need to 
find an optimum, but affordable balance between fixed wing tactical 
aircraft, combat support aircraft (e.g., proper medium lift mix) and 
cruise missiles. Prior decisions, given current budgetary constraints, 
must be viewed with an eye toward trade-offs that will allow naval 
aviation to sufficiently fund airframes to fill deck requirements and 
adequately fund Standard Depot Level Maintenance (SDLM) Schedules. Can 
Marine Corps fixed-wing aircraft be more aggressively utilized to fill 
carrier decks? Can a larger percentage of the tactical aircraft strike 
mission (e.g., deep interdiction) be assumed by improved, surface 
launched cruise missiles, freeing manned aircraft for close support 
missions? Second, naval aviation, along with other joint warfighting 
capabilities, have yet to recognize the potential geo-strategic impacts 
that world population growth and a shift toward coastal, urbanized 
areas will have on our force structure and military missions. Because 
of the large investment, fixed-wing tactical aircraft must be relevant 
to the entire conflict spectrum, e.g., capable of supporting lower-end 
operations in addition to the high-end warfighting tasks.

            Atlantic Command Role in Theater Missile Defense

    Question. As of last autumn the Defense Science Board and the 
Defense Policy Board were urging that the U.S. Atlantic Command be put 
in charge of the Department's joint theater missile defense (TMD) 
architecture. It has also been reported that USACOM has been given the 
sole responsibility for the most basic TMD requirements document.
    Why is it appropriate that your command should take the lead in 
defining a TMD architecture?
    Answer. As the Joint Force Integrator, USACOM is the best command 
to deal with the ``quintessential joint program,'' Joint Theater 
Missile Defense (JTMD). Because JTMD involves capabilities from all the 
Services, a joint headquarters is needed to provide a joint warfighting 
focus and to integrate ``stovepiped'' Service programs.
    Since USACOM assumed control of the JTMD Initiative in July 1996 we 
have embarked on a three-pronged approach. These three areas are:
    --Coherent Defense 97. Established to examine and produce potential 
resolution to procedural issues between the Army and Air Force, and to 
develop a command and control architecture for JTMD.
    --Theater Missile Defense Capstone Requirements Document. By 
direction of the Vice Chairman of the Joint Chiefs of Staff, USACOM has 
taken the lead for updating JTMD requirements in concert with other 
warfighting CINC's. USACOM is carrying out this tasking by developing a 
Theater Missile Defense Capstone Requirements Document (TMD CRD), which 
will be approved by all warfighting CINC's and subsequently the Joint 
Requirements Oversight Council (JROC).
    --JTMD-Related Universal Joint Task List Tasks, Conditions and 
Standards Development. The identification and further definition of 
JTMD-related tasks conditions and standards will improve upon efforts 
to train and integrate forces based upon supported command 
requirements, further the development of the CJCS Universal Joint Task 
List, and advocate the continued adaptation of warfighter requirements 
to existing and future joint doctrine.
    Subsequent to the commencement of the JTMD Initiative, the Office 
of the Secretary of Defense and the Chairman of the Joint Chiefs of 
Staff have established the Joint Theater Air and Missile Defense 
Organization (JTAMDO) to define required system interoperabilities and 
operational architectures, and to validate the developing joint theater 
air and missile defense capabilities through both simulation and 
technology demonstrations.
    With JTAMDO focusing on the TMD architecture, USACOM is taking an 
active role within the Integrated Product Team structure of JTAMDO to 
develop supporting architectures operational concepts.
    Question. Will your architecture specify common sensors, supporting 
communications systems and data dissemination networks and force the 
services to adhere to one set of standards where multiple technology 
solutions may already exist?
    Answer. Yes. As part of USACOM's TMD Initiative, the Coherent 
Defense series of exercises are designed to address operational 
architecture issues among the Services for Joint Theater Missile 
Defense (JTMD).
    The first of the series Coherent Defense 97 is currently ongoing. 
It was established to examine and produce potential resolution to 
procedural issues between the Army and Air Force, develop a command and 
control architecture for JTMD, and to subsequently provide draft 
tactics, techniques and procedures documentation to the Joint Staff 
that codifies agreed-to procedures for JTMD.
    Additionally, by direction of the Vice Chairman of the Joint Chiefs 
of Staff, USACOM has assumed responsibility for leading the development 
of overarching JTMD requirements in concert with other warfighting 
CINC's. USACOM is carrying out this tasking by developing a Theater 
Missile Defense Capstone Requirements Document (TMD CRD) specifically 
addressing a Family of Systems approach to the TMD mission. The TMD CRD 
will identify and validate overarching warfighting required 
capabilities inclusive of Command, Control, Communications, Computers 
and Intelligence (C4I), Passive Defense, Active Defense and Attack 
Operations to support JTMD into the next century.

           Advanced Concept Technology Demonstrations (ACTDs)

    Question. Advanced Concept Technology Demonstrations (ACTDs) were 
developed to accelerate and facilitate the application of mature 
advanced technologies to solve military problems and provide new 
operational capabilities to the field sooner than the normal 
acquisition process presently allows. ACOM is the most active ACTD user 
and sponsor, currently sponsoring 10 ACTDs or seventy percent of total 
active ACTDs that ACOM is currently sponsoring. General Sheehan, please 
provide a brief overview of the ACTDs that ACOM is currently 
sponsoring. Which ones do you believe hold the greatest promise to 
deliver near-term operational capability?
    Answer. As a point of clarification, USACOM is currently sponsoring 
eight ACTDs vice ten as stated in the QFR.
    The goal of Synthetic Theater of War (STOW) is to demonstrate the 
utility of advanced simulation technologies to directly support joint 
training and mission rehearsal. It is a prototype simulation system 
which uses entity or platform level simulation to conduct a segment of 
operational JTF training with tactical representation. Its objective: 
allow the user to preview technology under actual exercise training 
conditions to determine which technologies are useful and should 
transition to the Joint Simulation System (JSIMS). The initial demo and 
two year follow on period is 29 Oct 97 through December 99. The 
transition from STOW to JSIMS is being coordinated during this period 
and will serve to reduce the risk of JSIMS at its Initial Operations 
Capability (IOC) in FY 00/1. STOW is not intended as a stand alone 
system and will not become an operational capability. The success of 
JSIMS however, is very dependent on the results of the STOW program and 
its two year follow on period.
    The objective of the Joint CounterMine (JCM) ACTD is to demonstrate 
the capability to conduct seamless transition of countermine operations 
from sea to land. The ACTD represents twelve Novel systems that will 
provide capabilities ranging from clandestine reconnaissance and 
surveillance to overt reconnaissance, neutralization, clearing, 
breaching and marking. The ACTD also includes a C4I architecture that 
will provide a common countermine operational picture. The Modeling and 
Simulation capability (Joint CounterMine Operational Simulation (JCOS)) 
of JCM provides the ability to conduct course of action analysis and 
operational concepts, tactics, and doctrine development as well as 
training and evaluation. The JCM ACTD has significant potential to 
provide the warfighter an enhanced Counter Mine capability particularly 
in areas where no capability currently exists. Residuals from most of 
the Novel systems will be available next fiscal year.
    The Navigation Warfare (NAVWAR) ACTD was initiated as a catalyst 
for determining methods of preventing an adversary's use of satellite 
navigation information while protecting friendly access to signals from 
the precise Global Positioning System (GPS). While the threat from 
adversaries is still in a stage of early development, this ACTD is 
geared to long-term development of capabilities because growth and 
reliance upon precision navigation systems is growing worldwide. Early 
prototypes of prevention assets for offensive use against an adversary 
have been demonstrated in ongoing field assessments. Enhanced 
navigation receivers are still in the developmental stages with the 
first being delivered in the summer of 1997.
    The High Altitude Endurance Unmanned Aerial Vehicle (HAE UAV) ACTD 
will provide near real time imagery to the warfighter from two 
performance enhanced unmanned aerial vehicles, the Global Hawk (GH) and 
the Dark Star (DS). The Global Hawk will provide a long dwell 
capability and the Dark Star will provide the assured receipt 
capability. Eight GH and six DS vehicles will be produced for the ACTD 
with the military assessment demonstrations planned to end in the fall 
of 2000. The capability provided by both Global Hawk and Dark Star will 
be of enormous benefit to the warfighter.
    The Combat Identification (CID) ACTD was developed in response to 
the fratricide issues as a result of the Gulf War. The overall 
objective of the CID ACTD is to demonstrate and assess technologies 
that can enhance the capability of our combat forces to positively 
identify friendly, hostile, and neutral platforms during Air-to-Ground 
and Ground-to-Ground operations, in order to maximize combat 
effectiveness and reduce fratricide due to mis-identification. The ACTD 
is a system of systems assessing the military utility of eleven 
different technologies. Of the eleven technologies, three have 
demonstrated potential for near term operational capability thus far. 
The Battlefield Combat ID System (BCIS) is a ground-to-ground point-of-
engagement system that utilizes a millimeter wave interrogator and 
transponder to query the suspect target. Situational Awareness Beacon 
w/Reply (SABER) is a situational awareness technology solution, 
providing identification code, position information and other host 
platform data. This information is transmitted via UHF line-of-sight 
radios or indirectly via UHF satellite link. In the most deficient CID 
mission area (Air-to-Ground), the Situational Awareness Data Link 
(SADL), an Air Force Air National Guard/Reserve initiative to install 
an Army Enhanced Position Location Reporting System (EPLRS) radio in F-
16 and A-10 aircraft receives situational awareness (SA) and target ID 
information (friendly ground maneuver vehicle locations) from the 
ground tactical network.
    The objective of the Advanced Joint Planning (AJP) ACTD is to 
identify and enhance operational planning capabilities. AJP leverages 
software technology to build planning tools or applications that assist 
staff planners in deployment and execution planning of joint forces. 
The ACTD is divided into three main areas or capabilities. The Joint 
Readiness Automated Management System (JRAMS) allows planners to 
quickly assess availability and preparedness of forces. Joint Planning 
and Execution Toolkit (JPET) is a collaborative planning toolkit for 
Crisis Action Planning (CAP). The Map Based Planner (MBP) allows the 
planner to visualize Courses of Action as it appears on a map of the 
area. Both JRAMS and JPET have demonstrated near term capacity and are 
undergoing hardening and evaluation in preparation for migration to the 
Global Command and Control System (GCCS).
    The Battlefield Awareness and Data Dissemination (BADD) ACTD 
integrates information management and broadcast technologies to provide 
the Joint Task Force commander the ability to dynamically configure his 
communications and information control. It is aimed at providing an 
efficient and seamless information management infrastructure for the 
warfighter, targeted to achieve total battlefield awareness. It 
provides information needed when needed, in the format needed, in a 
timely and cost effective manner. The BADD program, working with the 
Global Broadcast System (GBS), other advanced communications, and 
legacy systems has a reach back capability to Intel data that will get 
warfighting information to the tactical level and allow warfighters to 
access new and different data sources to create more concise and robust 
operational views of the battlespace than ever before. The ability of 
the reach back capability to request and provide imagery via the Global 
Broadcast system to the BADD work station was demonstrated last fall.
    The objective of the Semi-Automated IMINT Processing ACTD is to 
significantly improve the Image Analyst's (IA) ability to process the 
ever increasing surveillance imagery generated by U-2 aircraft and the 
new High Altitude Endurance Unmanned Aerial Vehicles. With the 
decreasing number of the IAs in the services, this is of particular 
interest to USACOM. The ACTD exploits Automatic Target Recognition 
(ATR) technology and integrates this with other imagery exploitation 
tools to rapidly process large amounts of imagery typically generated 
by sensors such as Synthetic Aperture Array Radars (SAR) employed in 
wide area search modes of operation. The system is currently operating 
with the U-2 aircraft in Operation Desert Capture which is part of the 
army Task Force XXI exercises at Fort Irwin, Ca. This particular 
exercise is part of the system development and will be used to baseline 
the initial system design. The technological risk and military utility 
of the system is part of the overall assessment of the ACTD which is 
scheduled to complete in FY99.
    Question. ACTDs are a relatively new concept which are still 
experiencing growing pains as warfighters and service acquisition 
organizations try to figure out the most appropriate way to test and 
swiftly field systems developed under ACTDs in a manner which ensures 
that the systems can be adequately supported once they are delivered to 
operating units.
    What are your views as to how the present ACTD program is 
structured and how it might be improved?
    Answer. ACTDs are making significant progress in involving the 
warfighter in the development and assessment of these advanced 
technologies. As an evolving process there are, however, some areas for 
potential improvement. The transition of the ACTD is the least 
developed portion and the shortcoming was graphically illustrated when 
USACOM tried to transition the Predator ACTD to a receiving service. An 
ACTD is initiated with the signing of the Implementation directive. One 
of the signatores is a service acquisition executive (SAE). At this 
point the ACTD needs to clearly designate a lead service and the 
involvement of that service's acquisition agency. The service 
acquisition agency should get involved early on to both POM and plan 
for the transition of the ACTD so that, if successful, the ACTD can 
transition in a timely manner. This would allow the prospective program 
manager and his OT&E organization to assist with the transition 
planning. Their suggestions of what data or other steps should be taken 
within the ACTD to minimize the time and effort needed after the ACTD 
ends to achieve a production decision (where that is appropriate) would 
be mutually beneficial.
    Earlier involvement of the user sponsor in the selection process 
for new ACTDs could help the prospective lead service in it's overall 
planning process. The joint staff takes into consideration the needs 
and prospective roles of the services/CINCs as part of their 
determination within the ACTD process. Likewise, an earlier involvement 
of the Unified Commands in the selection process for new ACTDs would 
lessen the impact on the ACTD caused by the user sponsor as the 
Operational Manager becomes more familiar with the program details and 
begins to introduce the warfighter view.
    Question. Even an ACTD success story such as the Predator unmanned 
aerial vehicle has had its difficulties. Initial Predator vehicles 
delivered to Bosnia lacked de-icing mechanisms on their wings, causing 
extended delays to winter flight operations. Problems such as these may 
have been detected by more extended operational testing than that 
conducted under the ACTD.
    How do you believe a balance can be struck between the need to 
swiftly develop and field a capability for the warfighter and the need 
to ensure that it is adequately tested before it gets to the field and 
an adequate support infrastructure is in place once it gets there?
    Answer. In short, earlier designation and aggressive integration of 
a Service sponsor is required to ensure an ACTD has optimum military 
utility and that the product is sustainable. Additionally, a parallel 
reform effort within the traditional Operational Test and Evaluation 
(OT&E) and Logistic communities is necessary. These reforms must be 
keyed to the ongoing reforms in the acquisition process that are 
inherent in the ACTD process, to ensure an expeditious and seamless 
transition to the warfighter of the ACTD product or capability.
    Specifically, to facilitate adequate testing and evaluation, early 
involvement and commitment from sponsoring Services must occur. The 
Service should integrate their OT&E organization within the ACTD test 
and evaluation program that is managed variably by the Defense 
Evaluation Support Agency (DESA) or a confederation of other DOD 
organizations. However, while ACTDs are designed to reform and 
accelerate the acquisition process, the Service OT&E organizations 
still function at the pace of the traditional DOD acquisition timeline. 
A parallel reform effort in Service OT&E processes must be adopted.
    Predator did involve Service OT&E organizations in the program; 
however, their inflexible and highly structured processes were slow and 
cumbersome within the ACTD boundaries. Service OT&E is keyed to the DOD 
5000 series timelines of 7 or more years. To effectively integrate 
Service OT&E into an ACTD, the Services must adopt a separate program 
to facilitate rapid demonstration/exercise planning; cheaper, smaller 
and more flexible data collection efforts; and expeditious analytical 
and reporting capabilities. It would have been impossible to achieve 
the milestones within the Predator ACTD if the program was linked to a 
Service OT&E organization. USACOM used the Defense Evaluation Support 
Agency (DESA) to assist in a rapid planning, testing and evaluation 
cycle that was designed specifically for the ACTD process.
    In a similar fashion, supportability issues are a valid concern but 
may have to remain a tradeoff for the rapid integration of new 
technologies into the military. By its very nature, an ACTD does not 
provide enough time and resources to collect adequate data on system 
vulnerabilities, the Service-life of the system and its components, 
identification of critical components, system production and inventory 
levels, etc. This problem is harder to solve, but involvement of 
Services early in an ACTD can mitigate some of these problems. At a 
minimum, with Service involvement, deficiencies can be identified early 
in an ACTD. This could stimulate concurrent analyses by the Services to 
determine the gaps in information, the vulnerable parts of the program, 
and issues for follow-on review once an ACTD enters the transition 
phase. Additionally, Service logisticians could alert ACTD managers to 
unique requirements for data that may be integrated into other 
collection efforts.
    The bottomline is the ACTD process is not the panacea for DOD 
acquisition, however, it is a very valuable tool for Joint Force 
Integration that is necessary to speed the integration of new 
capabilities to the warfighter. Clearly, the process is not suited for 
all acquisition and development efforts, but makes good sense in the 
way it has been employed to date. I wouldn't want to build a major 
weapon system, such as a new class aircraft carrier this way, but this 
process can effectively, if not perfectly, give the warfighter a ``good 
enough'' capability rapidly.

                  Joint Interoperability/C4I Programs

    Question. The principle objective of the Goldwater-Nichols 
Department of Defense Reorganization Act was to address the persistent 
problems of interservice interoperability, unclear command 
relationships and competing doctrine that had hampered joint service 
contingency operations in the past. The intent was to make all services 
work together as a joint team. Are major procurement decisions made by 
the services today on the basis of what a program contributes to the 
nation's total defense capability as opposed to the individual 
services?
    Answer. Most decisions are made based on overarching joint 
warfighting requirements. The Joint Requirements Oversight Council 
(JROC) has evolved as a superb forcing function, ensuring recognized 
threats are balanced against existing hardware and future system 
developments are considered for joint applicability. The JROC forces 
the Services to ask the question, ``how does this planned weapon system 
play in the joint fight and therefore necessitate resource programming 
with the resulting answer in mind.'' This is not to say that there 
isn't more work to be done by us all in integrating existing systems 
into the joint fight. Greater focus on developing one common Combat 
Identification system for detection of ``friend-or-foe'' is critical to 
the safety of the men and women fighting in all future conflicts. A 
Command, Control, Communications, Computer and Intelligence (C4I) 
architecture which incorporates processing and analysis commonality is 
vitally needed for joint task force (JTF) commanders; and a cohesive, 
integrated resourcing strategy of reconnaissance/surveillance platforms 
to support increasing collection and dissemination requirements is an 
area which although somewhat fractionalized, is now being addressed by 
the JROC for fusion into a common system.
    Question. By some estimates the Department of Defense spends almost 
40 percent of its annual budget on command, control, communication, 
computer, and intelligence (C4I) programs. Do you believe that this 
level on investment in sensors, communications systems, and data 
distribution networks has resulted in increased interoperability among 
the services or have unique service information architectures persisted 
which inhibit joint operations?
    Answer. Architectures remain fragmented between Services, Agencies, 
and Unified CINCs, and are further fragmented between the C4 and I 
communities. A coherent strategy employing the new Joint Technical 
Architecture, including a forcing-function, is needed to consolidate an 
architecture that can drive the PPBS process. We must agree on a 
definition of a Joint C4I Architecture which will, of course, include 
necessary service unique systems, but which will also highlight the 
need for a modification of Title 10 provisions. The current provisions 
encourage the service needs vice joint interoperability requirements by 
denying a mechanism to enforce the use of the joint interoperability 
solutions and result in fielding technology latent systems.
    C4I is, and must continue to be, a large portion of the DoD budget. 
However, our best information indicates the figure to be somewhere 
closer to 20 percent based on the President's Fiscal Year 98 budget. 
Many of the programs involve very expensive space platforms, and 
virtually all the programs/systems require software/hardware 
development and cryptologic support. C4I is a critical enabler and 
requires a clear linkage to the comprehensive investment strategy. 
Without investing in C4I (larger pipes, expanding the C4I grid 
structure) now, we reduce our capability to assure the level of 
information dominance the warfighter will need to execute missions in 
the future.
    Question. How should the department and the services seek to 
improve this situation in the future?
    Answer. A C4I CINC could provide direction, leadership, oversight, 
and control in validating mission need statements, development, 
acquisition, funding, and fielding of interoperable C4I systems for use 
in joint/combined operations.
    A process supporting CINC and Service Staff functional involvement 
from the beginning of system/program development would lead to 
tailoring plans and strategies into an integrated vice functional 
perspective. We have made a beginning through the development of the 
Advanced Concept and Technology Demonstration (ACTD) program. This 
technology insertion program is also a first step in the reform of the 
acquisition process. USACOM, as the force trainer and provider, has 
fostered development and mandated the use of the Global Command & 
Control System (GCCS), and other joint systems in Joint Task Force 
(JTF) Exercises to insure that forces are prepared to operate in a 
joint environment. Early continuous insight by the CINCs and Services 
instead of after-the-fact oversight will lead to issue identification/
resolution and build a team committed to program success. Teamwork 
begins at the start--not a critique 4-6 years into the program. The 
CINCs would not be faced with integrating the Service systems when a 
potential conflict arises somewhere in the world as is the present 
situation.
    We are making progress with the establishment of the Decision 
Support Center, the C4I Integration Support Activity, and the stand-up 
of the Joint C4ISR Battle Lab. However, we expect limited success 
without Title 10 reform giving the CINCs more input into the 
acquisition and fielding process along with a C4I CINC empowered to 
enforce Joint Task Force Integration. A C4I CINC could ensure a ``plug-
and-play'' approach with cradle-to-grave management of the right 
information to the right warfighter at the right time.

                                  Cuba

    Question. How do you rate the present military capabilities of the 
Cuban armed forces? What are the Cuban military's near and long-term 
force modernization goals? Do you believe Cuba poses any threat to its 
neighbors in the region?
    Answer. ------ .
    Question. What is Cuba's current level of involvement in 
international drug trafficking?
    Answer. Cuba occupies a key geographic location astride primary air 
and maritime trafficking routes. Absence of formal diplomatic relations 
with the US makes it difficult to quantify the volume of drugs 
transiting through Cuban territory, or qualify the extent of official 
involvement.
    Intelligence reporting does not indicate official Cuban involvement 
in drug trafficking. Cuba has not publicized any drug-related 
corruption since the 1989 trial and execution of several top Military/
Ministry of Interior officials.
    However, the Cuban government appears to be reaching out in an 
effort to work with neighboring countries in counterdrug matters. 
Recently, the Cuban government established a relationship with the 
Royal Bahamian Police Drug Enforcement Unit in an effort to foster the 
flow of information between Cuba and the Bahamas. ------. The freighter 
Limerick was sailing from Barranquilla, Colombia, to Freeport in the 
Bahamas when it began to founder in international waters approximately 
12 miles from the US military base in Guantanamo Bay. A US Coast Guard 
vessel patrolling the area received permission to search the vessel, 
but decided to abandoned the ship when it began to take on water. After 
discovering the cocaine, the Cubans gave the drugs to US authorities, 
agreed to testify against the Captain and crew, and continued to search 
the vessel finding a hidden compartment filled with contraband.
    To date, bilateral US and Cuban drug enforcement remains sporadic 
and ad hoc, but professional.
    Question. What is the long-term likelihood of renewed mass 
migration from Cuba to the United States?
    Answer. Currently there are no Indications & Warnings (I&W) of 
potential mass migration from Cuba. This information is cooroborated by 
the U.S. Interest Section in Havana and the USCG Intelligence 
Coordination Center in Washington, D.C. The migration accords signed 
between the United States and the Government of Cuba has been very 
successful in thwarting migration patterns. Different from previous 
migration crises, the lottery system managed by the U.S. Interest 
Section in Havana, provides a mechanism for legal migration which was 
non-existent prior to the 1995 accords. It also serves as a migration 
valve for potential dissidents and the population at large. Indicators 
tells us also the Cuban government is complying with the terms of the 
accords and has vested political and economic interest in continuing to 
do so.
    Notwithstanding, we must keep in mind the Castro regime has 
historically maintained firm control of emigration through the Interior 
Ministry (Border Guard). Mass migration to the United States has always 
occurred with the regime's approval when it served the regime's 
purpose. In the long term, continued economic hardships could certainly 
cause the level of expressed popular discontent to compel the regime to 
re-evaluate the accord utility.

                                 Haiti

    Question. General Sheehan, what is your current assessment 
regarding the outlook for Haiti in terms of Political Stability; 
Economic Growth and; the Potential for renewed violence?
    Answer. Despite initial concerns over President Preval's ability to 
become a proactive and effective president, he has made surprising 
strides toward resolving the nagging issues that plague Haiti's 
political and social landscape. Challenged by lapses in the security 
environment and a beleaguered economy, President Preval has managed to 
keep Haiti's head above water. The democratic process continues to 
grow, as demonstrated by free and fair elections, and by the 
legislature's demonstrated resolve to serve as an independent set of 
checks and balances rather than as a rubber stamp for the President. 
While the political apparatus in Haiti is viewed as successful, its 
ability to maintain an equilibrium between the desires of the 
international community and political constituents will be the 
governments's greatest challenge as it leads Haiti into the next 
millennium.
    The government of Haiti must, however, address the growing concerns 
of the populace over the lack of economic progress, high cost of 
living, and security issues if the country is to continue to mature 
favorably. Future economic growth is dependent upon the Government's 
ability to ensure security, move towards privatization of state-held 
enterprises, and to attract foreign investment. Despite the controversy 
surrounding privatization the Government of Haiti is making slow 
progress. Crucial legislation addressing this issue has already met 
with Parliamentary approval, and more recently government officials 
have put forth a comprehensive plan outlining the timetable to 
privatize nine parastatals. ------ .
    Haiti has a history of both political and criminal violence. 
However, the majority of political violence has been dramatically 
curtailed since the restoration of democracy in 1994. While there have 
been some isolated incidents of politically motivated violence, the 
Government of Haiti is committed to the democratic process. ------ .

                           Drug Interdiction

    Question. General Sheehan, your command's area of responsibility 
includes the Caribbean basin of the Atlantic Ocean which is both home 
to indigenous drug traffickers and a major trade route used by the 
illicit drug producing nations of the southern hemisphere. Describe the 
present counter-narcotic operations of the Atlantic Command to the 
Committee.
    Answer. The US Atlantic Command supports two of the five goals in 
President's National Drug Control Strategy. These goals are to shield 
US frontiers from the threat, and break the drug supply sources.
    The US Atlantic Command supports those goals by: conducting 
intelligence-cued counterdrug detection and monitoring operations in 
support of domestic and international Law Enforcement Agencies, and 
providing support to the Interagencies and Host Nations to disrupt and 
reduce the flow of drugs throughout the area of responsibility and 
Mexico.
    We complete this tasking by focusing detection and monitoring 
resources on drug trafficker's centers of gravity and optimizing 
support to the Drug Law Enforcement Agencies and Host Nations. 
Prioritized Support to Mexico and the Southwest border, Puerto Rico and 
the US Virgin Islands, and other High Intensity Drug Trafficking Areas 
is how we have tasked subordinate commands to focus their detection and 
monitoring operations. These operations take into account intelligence 
cueing, actual high volume trafficking routes, and available resources 
to coherently assimilate counterdrug forces.
    Specifically, US Atlantic Command forces are conducting a variety 
of detection and monitoring tasks including air and maritime detection 
and monitoring, training, engineering projects, communications support, 
reconnaissance, transportation, information collection and riverine 
support. All of these DOD functions are in a support role with no 
military forces actually performing interdictions. The interdiction 
assets and personnel are coordinated by military forces but the actual 
arrests and seizures are conducted by law enforcement agencies such as 
the US Coast Guard, Customs, DEA, and FBI.
    Question. What are your most useful assets in performing this 
mission?
    Answer. The most important assets I have in the detection and 
monitoring mission are the two counterdrug organizations, Joint 
Interagency Task Force East, and Joint Task Force (JTF)-6.
    Joint Interagency Task Force, East in Key West, FL, which has on 
staff all interagency drug law enforcement as well as British and Dutch 
liaison officers, conducts detection and monitoring operations in the 
drug transit zone between the source zone in South America, and the US 
arrival zone. JTF-6, which is based in El Paso, TX, conducts detection 
and monitoring operations in support of domestic law enforcement in the 
US, Puerto Rico and the US Virgin Islands.
    These organizations are flexible enough to conduct timely 
operations to effectively neutralize the threat. Both organizations use 
the available technology (ships and aircraft, relocatable over the 
horizon radar, ground based radars, etc.) to effectively monitor the 
transit and arrival zones and focus interdiction assets to consummate 
the intercept. Also, the two organizations are heavily engaged in 
pushing future technologies to better conduct the mission.
    The most important part of the drug interdiction mission is Joint 
DOD, International and Interagency cooperative engagement and support. 
Through this cooperation, we have been able to focus limited resources 
from each agency or country into a cohesive detection and monitoring, 
and interdiction force. Couple this cooperation with advanced 
technology and planning and you have a significant force multiplier. To 
single out one specific asset which is the most useful would be very 
shortsighted. All of the detection and monitoring assets have relative 
strengths and limitations which require teamwork and proper utilization 
for mission accomplishment.
    Question. Does the performance of this mission detract from the 
military readiness of your operating units who engage in it?
    Answer. All of the counterdrug missions which DOD forces are 
conducting have some applicability to their primary warfighting mission 
area. For instance Early Warning aircraft are conducting air 
surveillance, Naval Combatant ships are conducting air surface target 
tracking, and intercept aircraft are standing alert ready to launch and 
identify a potential target of interest. JTF-6 in El Paso, TX, can show 
an 85% correlation of the Joint Mission Essential Task List to every 
one of its counterdrug missions. My Naval component, US Atlantic Fleet, 
has created a Western Hemisphere Group composed of several surface 
ships capable of conducting counterdrug operations. This organization 
provides the Naval ships for counterdrug operations so the units can 
focus their efforts, and the rest of the fleet can focus on Battle 
Group training.
    However, maintaining the required level of support for counterdrug 
operations and still providing the minimum level of stand down time is 
becoming increasingly more difficult. For example, the E-2 HAWKEYE 
community, by necessity, must support Carrier Battle Group deployments 
as well as support counterdrug operations, which require a squadron of 
E-2's deployed constantly. Since there are five Carrier Air Wings, and 
six Carriers in the Atlantic Fleet, these squadrons are constantly 
either on deployment or preparing for deployment. Now add the 
additional requirement for a 55 day counterdrug deployment and the 
resulting impact on personnel, equipment, and training, is significant. 
Any type of surge operation results in shuffling of already heavily 
tasked components and units. Recently, we have been asked to support an 
18 month surge operation in the Eastern Pacific. This requirement, 
although valid for counterdrug operations, may require reducing the 
escort ships from Carrier Battle Groups.
    Question. What are your views on the use of submarines in the 
detecting and tracking of suspected maritime drug traffickers?
    Answer. The submarine brings the traditional warfighting dimensions 
of identification and early warning, secure surveillance, and covert 
detection and monitoring to counterdrug operations. A stealthy and self 
sustaining platform, the submarine can loiter in wait for a suspect 
vessel for days and then shadow the unsuspecting contact gathering 
critical intelligence on trafficker patterns. Then the submarine can 
communicate this information to other units and assist them in 
interception and boarding. However, submarines are expensive, and with 
the downsizing of the force the capabilities that the submarine brings 
to the mission must be weighed against the cost of its operation and 
non-availability to meet other commitments where the vessel is just as 
badly needed.
    Submarine employment in counterdrug operations is an evolving 
process, both the ship and the tactical commander are refining 
operating procedures and doctrine to enhance effectiveness. This 
expensive asset has a permanent and important role in completing the 
counterdrug mission, and is a significant part of the synergistic asset 
management of detection and monitoring.

                               Dragonfly

    Question. In fiscal year 1995, the Committee added funds to 
evaluate the Canard Rotor/Wing (CRW) technology concept. CRW is a 
stopped rotor, high-speed VTOL air vehicle which performs as a 
helicopter for takeoff and landing and as a fixed wing aircraft for 
high-speed cruise. The Navy and USMC continue to endorse this 
technology for future manned and unmanned aircraft and to pursue its 
maturation through a Dragonfly Advanced Technology Demonstration (ATD).
    The Committee understands that the Dragonfly ATD was strongly 
recommended by three CINCs. General Sheehan, how important is Dragonfly 
to your warfighting mission and is it still one of your top ATDs?
    Answer. DRAGONFLY is an Advanced Technology Demonstration (ATD) in 
the earliest stages of assessment. Although it is an interesting 
technology that appears to have potential, it is far too early to gauge 
military utility. USACOM is only involved in Advanced Concept 
Technology Demonstrations (ACTD); the evaluation stage encompasses more 
mature technologies than ATDs. If the DRAGONFLY technology shows enough 
merit to advance to the ACTD level, USACOM could be involved in the 
evaluation process, at that point in time, as an operational sponsor.

    [Clerk's note.--End of questions submitted by Mr. Young.]
                                          Wednesday, March 5, 1997.

           COMMANDER IN CHIEF, UNITED STATES CENTRAL COMMAND

                                WITNESS

GENERAL J.H. BINFORD PEAY, III, COMMANDER IN CHIEF, UNITED STATES 
    CENTRAL COMMAND, U.S. ARMY

                              Introduction

    Mr. Young. The Committee will come to order.
    This afternoon the Committee concludes our series of 
Commanders in Chief hearings, and we are very happy to welcome 
General Peay, III, Commander in Chief, U.S. Central Command.
    Incidently, this is probably the last hearing John Plashal 
will staff for us, because he is going on to bigger and better 
things. We are going to miss him. He has done a really good job 
for the Committee over the 27 years, I think it has been, John. 
We will miss him. John does a good job.
    I thought I would mention that John will be leaving. Norm 
Dicks is going to organize a big going-away party for him.
    Mr. Dicks. If Mr. Murtha were here, he would want to 
certainly say a word. John has been terrific, and, as someone 
said, one of the best organizers of CODELs in the history of 
Congress. I think we should give John a round of applause.
    Mr. Young. I think that takes the place of the going-away 
party.
    General Peay, in your prepared statement you describe 
CENTCOM's area of responsibility with this quote. ``By any 
measure, this is a dangerous neighborhood.'' I think anyone 
that has paid any attention to what has happened there in 
recent time would certainly underscore that statement. You are 
absolutely correct.
    You have had the War in Afghanistan, the Iran-Iraq War, the 
Persian Gulf War, the Kuwaiti flagging exercise, the Iranian 
revolution and a number other lesser crises. The high tempo of 
ongoing U.S. operations in the region and the recent terrorist 
attack at Khobar Towers are vivid reminders that America does 
have vital national security interests in the CENTCOM region, 
and that the price of defending those interests is high.
    Pursuant to a vote that this Committee took last week, this 
hearing is closed, so we will be free to discuss, at whatever 
length you would like, matters that might be classified.
    We are looking forward to your testimony. Your entire 
statement will be placed in the record, feel free to summarize 
it in any way you wish. And then following that we will have 
some penetrating questions from the Members for you on the 
issues involving the CENTCOM area.
    We are glad to have you here, sir.

                   Summary Statement of General Peay

    General Peay. Good afternoon, Mr. Chairman. It is an honor 
to appear before this Committee to represent the men and women 
of U.S. Central Command and discuss Central Command's approach 
to protecting our Nation's interests in the Central Region.
    This morning, around 12,500 American Soldiers, Sailors, 
Airmen, and Marines are answering the call to duty in the 
Central Region. Members of Joint Task Force Southwest Asia are 
flying over Southern Iraq to enforce UN Security Council 
resolutions and U.S. warnings designed to prevent Saddam from 
attacking Shiites along the Euphrates River and his neighbors 
to the south.
    Since 1992, our airmen have logged a remarkable 131,000 
accident-free sorties, with over 86,000 of these over Iraq; a 
great tribute to the professionalism and technical skill of our 
pilots and air crews.
    Pressure on Iraq is magnified through enforcement of 
economic sanctions in the Arabian Gulf. Under the leadership of 
U.S. Naval Forces, Central Command, and FIFTH Fleet, this 
multinational flotilla has steadfastly enforced UN sanctions 
against Iraq since 1990. During this period, it has challenged 
23,000 vessels, intercepted more than 13,000, boarded nearly 
10,400 and diverted over 600.
    These operations are complex and dangerous. Our sailors 
have performed brilliantly in preventing incidents from 
spiraling out of control and in handling sensitive matters with 
great care.
    And, even as we undertake these activities, along with 
scores of exercises and security assistance programs, we are 
engaged in an aggressive program to reconfigure our forces in 
the region to contend with the increased terrorist threat.

                SAFEGUARDING U.S. INTERESTS AND SECURITY

    United States Central Command undertakes these operations 
to safeguard our Nation's vital and enduring interests in the 
Central Region.
    Principal among these are maintaining the flow of oil at 
reasonable prices; ensuring freedom of navigation and access to 
commercial markets; protecting American citizens and property 
abroad; and assuring the security of regional friends in the 
context of a comprehensive Middle East peace.
    Protecting our interests is a formidable task. The 20 
nations comprising our area of responsibility suffer from 
historic internal and external conflicts flowing from religious 
and tribal strife among the region's 430 million people, and 
from border disputes, competition for resources, economic 
disparities, and exploding populations.
    It is, by every measure, a dangerous neighborhood. I find 
it useful to organize these regional threats into five major 
groupings:
    First, the near-term threat of Iraq. With the largest 
regional army, Iraq has proven on several occasions over the 
past 3 years that it can mobilize and deploy quickly to 
threaten Kuwait and Saudi Arabia.
    Second, the mid- and long-term threat of Iran. Determined 
to dominate the region and lead the Islamic world, Iran has 
acquired significant naval resources that endanger the waters 
of the Gulf. Even more worrisome is its support for terrorism 
and pursuit of weapons of mass destruction, WMD both of which 
pose risks to regional states and U.S. interests.
    Third, the continuing proliferation of ballistic missiles, 
chemical and biological weapons, and nuclear technology 
exacerbating existing tensions.
    The situation has deteriorated during the past 12 months, 
with Iraq, Iran and others in the region aggressively seeking 
missile and nuclear technology and advancing their chemical and 
biological research and development programs.
    Fourth, terrorism. Religious, ethnic and tribal divisions, 
along with economic and political disenfranchisement, give rise 
to factions embracing violence as their best hope for achieving 
political and social change. Older organizations such as Hamas 
and Hizballah are now joined by ``transnational'' groups made 
up of Islamic extremists who gained military experience and 
religious indoctrination fighting in Afghanistan's civil war.
    Fifth, and lastly, general regional instability. Enduring 
social, economic, and political problems in the region produce 
general regional instability. Included are political upheaval, 
famine, economic adversity, border disputes, and challenges 
arising as aging leaders turn over power to the next 
generation, a development that has far-reaching implications 
for our country and the world.
    Iraq, Iran, proliferation of WMD, terrorism and regional 
instability; these are the five major threats with which our 
Nation must contend in the Central Region for at least the next 
quarter of a century.

                USCENTCOM'S FIVE-PILLAR THEATER STRATEGY

    United States Central Command's Five-Pillar Theater 
Strategy of power projection, forward presence, combined 
exercises, security assistance, and readiness to fight 
addresses these threats. It organizes forces, emplaces 
equipment and supplies, and establishes the relationships that 
promote stability, deter conflict, limit the intensity of 
conflict should deterrence fail, and facilitate the transition 
to war, if required.
    A major component of this strategy is forging regional 
partnerships and conducting coalition operations. We deem such 
relationships essential to achieve long-term U.S. goals in the 
region. Establishing them requires the U.S. to assist regional 
friends in realizing their legitimate self-defense needs.
    This is no easy task. They are in the process of 
modernizing their forces and fielding major weapon systems 
while simultaneously trying to restructure military 
organizations and overcome severe interoperability problems. 
Success requires that we be patient and embrace a long-term 
perspective. This is a 25-year process.
    We accomplish many of our requirements through a relatively 
small but lethal mix of Naval, Air, Ground, and Special 
Operations Forces operating in the region on a temporary but 
recurring basis, augmented by military advisers and trainers 
and by prepositioned stocks of equipment and supplies ashore 
and afloat.
    As defined in the forward presence, combined exercises, and 
security assistance pillars, these forces provide a near-
continuous presence in the region. This collage of military 
resources capitalizes on the complimentary capabilities of each 
service to manage risk and gain maximum flexibility to contend 
with the threats. It is an approach that is central to 
deterring conflict, enhancing military-to-military relations, 
assuring access to facilities, cementing coalitions, and 
supporting contingency operations.
    Bolstering these forward-positioned assets is America's 
military potential as defined in our power projection pillar. 
Included are additional aircraft, ships, Marines and Army 
Forces deploying from the Continental U.S. and elsewhere around 
the world.
    Combined, power projection and ``near-continuous presence'' 
offer a credible deterrent to would-be aggressors while also 
providing the ingredients for fighting and winning decisively, 
if required.
    Our final pillar, readiness to fight, binds the activities 
encapsulated in the previous pillars and enhances our ability 
to wage high-tempo, joint and multinational operations. We do 
this through robust battle staff training and exercises and by 
institutionalizing tactics, techniques and procedures.
    Readiness to fight also includes the myriad of activities 
relating to force protection. Terrorists threatening our forces 
are well-trained, well-armed, and well-supported by various 
nations and nongovernment agencies. While withdrawing the bulk 
of our forces from the region would reduce our vulnerability 
significantly, it would pose grave and unacceptable dangers to 
American interests. Remaining engaged in the region means 
taking appropriate action, in cooperation with regional 
friends, to protect our service men and women. We have done 
this over the past year by undertaking an extensive Force 
Protection Enhancement Program that has included the following:
    First, we have relocated personnel to more secure and 
defensible sites throughout the Area of Responsibility AOR and, 
in particular, in Saudi Arabia.
    Second, we have hardened facilities and extended perimeter 
standoff.
    Third, we have withdrawn most dependents.
    Fourth, we have reduced our transportation vulnerability.
    Fifth, we have augmented our security forces.
    Sixth, we have enhanced counterintelligence activities.
    Seventh, and lastly, we have improved antiterrorist 
training programs and policies.
    These defensive measures mitigate the vulnerability of our 
forces to terrorist attack. They do not eliminate the threat. A 
determined terrorist retains the advantage of being able to 
attack by target, with any means, at any time.
    Defensive measures make it more difficult for terrorists to 
strike and, hopefully, foil their attempts. Combating these 
criminals however, requires more than these passive defensive 
measures. We must continue to exercise our inherent right of 
self-defense, employing a full array of legal, diplomatic, 
psychological, law enforcement and military operations to 
defend against terrorists before they can strike, neutralize 
them in their sanctuaries, and deter them from conducting 
future acts.
    Success in these efforts is linked, in turn, to 
significantly improving U.S. human intelligence collection, 
analysis, and dissemination.
    While protecting our service people overseas is a critical 
task, we must remain focused on accomplishing our primary 
military requirements. This means we must continue to field and 
exercise forces skilled in conducting joint and combined 
operations during a major regional fight. Such as conflict will 
require the capabilities of all of our military forces. To this 
end, we must have healthy services with sufficient size and 
robustness to perform operational missions, take care of 
service members and families, and build and educate for the 
future.
    Future victory will hinge on the readiness of our tactical 
organizations and the skill, courage, and sacrifice of our 
fighting men and women. They, in turn, must be led by leaders 
who are creative, reason critically, act innovatively, and 
operate decisively in the face of ambiguity and uncertainty. We 
need leaders who are prepared to take operational risk, leaders 
who possess uncompromising character, and leaders who practice 
out-front leadership always.

                       KEY ENABLING REQUIREMENTS

    Pivotal to USCENTCOM's ability to fulfill its mission and 
confront regional challenges is your continued support for 
several programs. Chief among these are: prepositioning of 
equipment ashore; theater missile defense; strategic lift; WMD 
defense; and theater force protection.
    I welcome the opportunity to discuss these and related 
issues further during these proceedings.
    We should take pride in the enormous progress we have made 
over the past decade. In a part of the world of vital 
importance to our Nation, we have met serious challenges, 
contained enemies, and promoted engagement and enlargement. 
Such achievements stem, in large measure, from the first-rate 
performances of our service men and women; men and women 
equipped with the finest military systems in the world.
    We live in decisive times, Promoting our interests requires 
patience, consistency, courage, and vision. There are no 
shortcuts or cookie-cutter solutions.
    We must remain resolute in following the course we have set 
for ourselves.
    USCENTCOM's Five-Pillar Strategy is a road map for 
fulfilling our mission. It accounts for regional conditions, 
cultural sensitivities of regional partners, U.S. military 
operational tempo, and U.S. budgetary constraints.
    To meet competing requirements involved in operating in the 
Central Region, we are exploiting the complementary 
competencies of each of the services and balancing a near-
continuous presence in the region. We in USCENTCOM look forward 
to working with each of the military services, the Department 
of Defense, and Members of Congress in the coming months to 
promote and protect our Nation's interests in the Central 
Region.
    [The statement of General Peay follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Young. Thank you very much for an outstanding job in 
performing the mission given to Central Command. This Committee 
is very much aware of the work that you do and the work your 
predecessors have done in a very, very difficult situation, a 
difficult part of the world.
    I want to apologize. Our attendance is not as good this 
afternoon because we are competing with the Intelligence 
Committee, which has several voting issues at the same time. 
This being the prime subcommittee of the Appropriations 
Committee, many of our Members are chairing their own 
subcommittees, so we are having a little bit of a problem 
there.
    Mr. Lewis has to go to the Intelligence Committee shortly, 
so I am going to yield to him for the first round of 
questioning.

                          INTELLIGENCE BUDGET

    Mr. Lewis. Thank you very much for your courtesy.
    General Peay, it is good to be with you. I, too, apologize 
for the circumstances. You know this crazy place as well as 
most.
    I would just ask a couple of general questions in the very 
subject area that the Chairman was just touching on.
    There is kind of a presumption around this place that as 
the world is changing, that clearly one of the areas where we 
can reduce spending most easily is in national defense, and you 
have seen an awful lot of that over these last several years, 
and hand in hand with that is the presumption that as the world 
theoretically is safer, there is certainly not much need for 
intelligence operations.
    With that in mind, I am very much interested in your view 
as to the adequacy of funding of intelligence budgets, the 
impact that constrained spending is having upon your terrorist 
and counterterrorist activities. Begin with that.
    General Peay. I think the budgeting is there, sir. I think 
the challenge is how quickly we can move a little bit more ----
--. Certainly as we look over Iraq and Iran with regularity 
from my headquarters, with all the overhead systems, ------. I 
am very impressed with that capability and it has served us 
well.
    ------ is going to take a long time, and it is key to 
understanding the terrorist business that is moving with great 
speed in a transnational mode today. Organizations that 
habitually have not worked together, we now see them merged at 
times and then returning to individual operations.
    To get inside these transnational actors that are supported 
in one country, operate in a third country, their stores are in 
a fourth country, they rehearse in a fifth country, they attack 
in a sixth country, banking networks that are now economically 
spread all around the world, that is going to take ------ if we 
are to try to be more precise in understanding where these 
attacks are going to occur.
    Our challenge this morning, because of these wide diverse 
threats, ends up putting our forces, both civilian and 
military, on a high level of continuing alert. You simply can't 
keep these forces on that kind of alert and retain their 
vigilance, day after day, month after month ------. But I want 
to be complimentary on the very impressive work that is done 
through the other capabilities.
    Mr. Lewis. I appreciate that, General.
    I must say you are really addressing the need for 
consistency in long-term planning, especially when you consider 
------ and the assets that need to be developed there. The 
Committee knows that the 1998 budget request does not continue 
accelerated funding for many of these activities; have adequate 
funds been provided in the year 1998, in your judgment, as we 
look towards consistency in 1998?
    General Peay. I don't have all the details of the Intel 
piece, but assuming there has not been a major drop-off on 
current operating systems, and if there are replacement systems 
in mind in terms of sustainability of the current systems, then 
I think we are okay. ------.
    Mr. Lewis. There is a very sizeable presence on this 
Committee, on our Intelligence Committee, of cross-membership, 
and at some appropriate time, we might very well close the door 
and discuss this question in other ways. The region you are 
dealing with has got to be the highest priority, with regard to 
terrorism here, abroad and at home. Maybe talking about that 
and doing some serious homework in a nonpartisan way would be 
helpful. I don't know if we can do it in this relatively open 
environment.
    Mr. Young. Thank you, Mr. Lewis.
    Mr. Murtha?

                    INTERNAL UNREST IN SAUDI ARABIA

    Mr. Murtha. General Peay, we took a trip, as you know, not 
long ago into Bosnia, Saudi Arabia, and then we went to Israel. 
We went only on terrorism. We wanted to see if there was a 
thread between what was happening maybe in the Middle East and 
what was happening in Bosnia. In Israel we felt Netanyahu had 
been so involved in fighting terrorism, he would be able to 
give us some advice.
    One thread we found in Saudi Arabia was that the middle 
class was getting smaller, that the rich were getting richer, 
the poor were getting poorer. And the more I listened to it, 
the more I heard a situation very similar to Iran 20 years ago.
    Then I got the book out that Carter wrote, Keeping Faith, 
and in that book the year before the country fell, the CIA said 
no problem, the Shah is strong, he has control of the country. 
And then later in reading about Iran, much of the problem came 
because the United States handled it so poorly.
    One thing the embassy did admit, as much as they liked the 
troops there, that they were the focus of opposition, and they 
caused a lot of problems.
    Now, I really don't see any threat from the outside. I 
don't see a threat from Iraq, and I don't see Iran hitting us 
head-on after the bombing. I see a terrorist threat, where they 
can destabilize this country. The smaller our presence is, it 
seems to me, the better off we would be.
    Is there concern in Saudi Arabia about the size of the 
force and the fact that at one time we were kind of flaunting 
the fact we were Americans and our traditions are so different 
and their fundamentalism is so conservative that it was really 
hurting the regime?
    General Peay. That is a wide-ranging question, sir. Let me 
try to hit about five or six pieces of it.
    When you made your visit, I would agree that there was a 
tenor at that time that the terrorist focus was on U.S. 
military. But I think you have seen in the last 10 days, 
radicals such as bin Ladin among other terrorists, very openly, 
on purpose, expanded their rhetoric to include civilians. So 
today--over there--you will find the embassy, our contractors 
and many more Americans, as you know, there are 40,000 
Americans alone in Saudi Arabia, you will find they are at a 
high level of vigilance. They understand the threat.
    I have talked to a lot of senior contractor presidents, 
major corporations in the last week; this rhetoric and concern 
has spread to a large degree. So it is not now just focused on 
the military.
    I think one of the reasons for that is we have done a 
better job in the last, oh, 120 days of deterring a threat by 
hardening of our positions, relocation and so forth. We made 
this harder for him. Not that we are not still vulnerable in 
certain places. So the terrorist now spread his rhetoric to 
include other people.
    Let me jump back to the first part of your question. 
Certainly you are right that about 50 percent of that 
population today is under 17 years of age and it is exploding. 
I still, though, don't see it as an Iranian model. It is far 
more tribal. ------.
    Finally, I have spent a lot of time looking at this 
changing Iranian-Iraqi threat in great detail, especially over 
the past months, and you may want to get into that in 
additional questions. It is very clear to me we have no choice. 
------.

                              IRAQI THREAT

    Mr. Murtha. Are you saying there is a legitimate threat, 
that this wasn't just posturing, these moves by Iraq?
    General Peay. ------. He has total, dominant control over 
his population. He is 60 years old today. While he has suffered 
some chinks in his armor, he has enormous control because of 
his threats to the families of his potential opponents. He has 
purged the military. So his new military men come up and simply 
respond to this ironclad, brutal, irrational actor on the 
world's scene.
    He is unopposed. He sits there with 3-to-5 divisions just a 
few hours to the north of Kuwaits border, and today Kuwait is 
still a fledgling military trying to prove itself. So you have 
no choice. ------. Let me tie that into one of these 
perceptions. Ironically, I think it worked against us ------.

                            FORWARD PRESENCE

    Mr. Murtha. In that part of the world, perception is as 
much as reality. What I worry about is the fact if they 
perceive the Saudi kingdom being a tool of America, and if they 
find a focus like Iran did of Khomeini, a charismatic leader, 
you still say that it is more important, even though their 
focus of discontent--it is still important for deterrence 
reasons, even though we have learned more from terrorism since 
Beirut than we have in the war, you still believe it is 
important we have those 12,000 people stationed there?
    General Peay. Absolutely. Let me tell you where they are. 
On most days, most of them are at sea, in what a lot of people 
would describe as Over the Horizon. ------. We have been 
talking at CENTCOM the last couple of weeks if we can also try 
to use an information operations program to tell the story 
differently to offset that threat that you have so 
appropriately described, and we will try to do that better. But 
this is sophisticated information as you try to tell it. ----
--.
    Mr. Murtha. I am glad that we made the move we did. I think 
it was exactly right and I know it is going to be an expensive 
move. But I think we were too visible where we were, with the 
flights taking off and landing right there at the airport, and 
too many people in town, probably. So those are all in the 
right direction.
    I am glad you are watching it so closely, because in that 
area of the world, it is so volatile and so difficult to 
predict what is going to happen, that it is essential we be 
concerned about that.
    General Peay. It is very fragile.
    Mr. Young. Mr. Nethercutt.

                         PERSIAN GULF SECURITY

    Mr. Nethercutt. Thank you, Mr. Chairman.
    General, welcome. I want to follow up a little bit on Mr. 
Murtha's comments about the potential volatility of the region 
over which you have responsibility. During your testimony, I 
was looking at this map focusing on the Strait of Hormuz and 
the modernization of the Iranian force. They apparently seem to 
be focusing on the Straits and their capability of disrupting 
traffic through there.
    Do you feel confident that our capability is such that we 
can meet any challenge they might present to disrupt the 
Straits, and to what extent do you see that issue as a serious 
threat? I would be interested in your comments.
    General Peay. I think any time you deal with these 
cultures, one of the things that you learn is to deal through 
strength. They respect strength. ------. This is part of our 
effort to satisfy OPTEMPO, budget, other kinds of requirements, 
but still be able to very smartly keep the pressure on. ------. 
These Straits are very narrow. Across that strait on the map 
you are talking about 20 nautical miles. The channel itself is 
1 to 2 miles that part where you can put the deep-draft ships 
through. ------. On these particular islands today, of course, 
they have been in dispute for years with the Emirates, you have 
a real mixture of forces. ------. But what you don't want to do 
is get in a fight. You want to provide stability, deter 
conflict, and stay out of that kind of thing.
    One of the challenges we have is smuggling, I was up most 
of the night last night working this issue. As we do maritime 
intercept operations, our young people are out there enforcing 
those UN resolutions, face-to-face with these smugglers. There 
is an increasing tempo of violations, with the Iranians 
becoming more provocative and more bold as they assert 
themselves. You may want to get into the smuggling question 
later, but that is a very sophisticated operation we've just 
uncovered in the last few weeks in the way it is working.
    It is all working in very narrow sealanes. So a chance for 
having a problem is there every day, as it was last night.
    Is that what you wanted?
    Mr. Nethercutt. That is very interesting. It sounds to me 
that, number 1, you are vigilant; number 2, we would be able to 
react appropriately, depending on what the circumstances are, 
and I realize there are a whole range of circumstances. But it 
sounds to me like there is a high level of vigilance, as I say, 
to all of the circumstances that could occur; is that correct?
    General Peay. Yes, sir. Sir, we are just really proud of 
what they are doing out there. They are on the edge. What we 
have to do is try not to over control. You have to decentralize 
your operations. There are going to be mistakes made. These are 
professionals, but in the larger sense you have to give them 
their head. You don't want to ever get this thing so tightly 
controlled that they don't act appropriately with confidence.
    Now, there is a danger to that. That is the sophistication 
and superiority of our young people. That is why you have to 
have high-quality people. Because if they were to overreach --
----. I think the commander made the right decision. You have 
to know in the longer run it probably makes that kind of a 
culture feel more bold. So he takes you on. ------.
    So far, I think we have done it appropriately.

                               TERRORISM

    Mr. Nethercutt. Thank you. In the short time I have left, 
as I do have to go to another hearing, let me ask a little more 
parochial question, if you don't mind? If you can't answer at 
this time, maybe I can discuss it with you or your staff later.
    One of my own constituents, a gentleman by the name of 
Donald Hutchings, was kidnapped in Kashmir in 1995. You may be 
familiar with this. Al Faran was the group that is rumored to 
have captured him, perhaps with the support of some larger 
terrorist group in Pakistan. I am just wondering to what 
extent, you may be privy to any intelligence about this 
gentleman's condition?
    I know his wife has been very active in that part of the 
world, going to Pakistan and India and seek her husband's 
release, or at least information on whether he is dead or 
alive. I knew Don Hutchings, and I hope he is still alive. I 
don't know if you know much, but if you do would you comment?
    General Peay. I am not current. I will be glad to get with 
my staff and provide you what we have.
    Mr. Nethercutt. Thank you so much.
    [The information follows:]

    In July 1995 four western, civilian hikers were kidnapped by Al 
Faran, a Kashmiri Separatist/Terrorist Group that is part of the 
Harrikat Ul-Ansar (HUA) movement. The group's goal was the release of 
21 Kashmiri separatists who were being held by India. ------. The 
hostages were one U.S., one British, one German, and one Norwegian. At 
this time, Indian security forces started to search for the hostages 
and their kidnappers.
    In August 1995, the American hostage escaped. In retaliation, and 
to show the government of India that they were serious, the kidnappers 
killed the Norwegian hostage. Shortly thereafter, they kidnapped 
another American and one more British citizen. They now held one U.S., 
two British, and one German hostage.
    In December 1995, Indian security forces closed in on the Al Faran 
Headquarters in the disputed zone. Several members were killed, and 
others fled to Pakistan. Several Al Faran members who were captured by 
both Pakistan and India in the wake of the fight stated that the 
hostages were killed by their kidnappers prior to the Indian attack. --
----. During 1996, unconfirmed hostage sightings occurred off and on. 
No photographs or substantial proof was provided of these alleged 
sightings. Ms. Jane Schelly, who is married to the American hostage 
Donald Hutchings, and the wife of one of the British hostages, made 
several appeals for information in the Pakistani, Indian, and Kashmiri 
media with no success.
    In January and February of 1997 the U.S. government offered rewards 
for information on the hostages with no results. ------. The status of 
the hostages is still unknown. They are still missing, with no 
conclusive proof as to whether they are alive or dead.

    Mr. Nethercutt. Thank you, Mr. Chairman.
    Mr. Young. Mr. Visclosky?

                U.S. POLICY REGARDING KURDISH SITUATION

    Mr. Visclosky. Thank you.
    General, thank you very much for coming today. What is the 
status of the Kurds? What is happening with the Kurds, if I 
could ask you?
    General Peay. I think we hit a period of the winter season 
setting in and you had kind of a breaking of contact since the 
last push by Saddam's regular forces from the south to the 
north. Today I would say it is a stagnant situation. We watch 
it nightly.
    I think what you are going to have is a continuing civil 
war, back and forth, as good weather come in. ------.
    Mr. Visclosky. What is our Nation's policy as far as any 
offense that the Iraquis can mount against the Kurds?
    General Peay. Well, it was the DESERT STRIKE operation that 
just took place, the last one, when we fired a very few number 
of weapons. We have demarched them and told them not to attack 
the Kurds in the north, and that was our response to that. 
Certainly the PROVIDE COMFORT Force in Turkey and some of the 
other intelligence agencies that were at those bases provided 
some additional leverage on Iraq from the northern perspective. 
------.
    Mr. Visclosky. What happens with the Kurds? Are they just 
stuck there?
    General Peay. ------.

                     AFGHANISTAN/PAKISTAN CONCERNS

    Mr. Visclosky. I did want to ask, what concerns do you have 
relative to Afghanistan and Pakistan, from your position?
    General Peay. Well, I just got back from Pakistan as well, 
with talks with all of the senior people there. ------.
    Mr. Visclosky. Breakout militarily, or as far as their 
influence?
    General Peay. Their influence. And as long as you have the 
Afghanistan situation and the civil war it is in, back and 
forth and back and forth, all of that is fertile ground for 
that kind of instability and growth.
    Furthermore, those are very, very good trade routes that 
economically have implications for Pakistan and other nations 
in that region. So the longer that goes on, the economic piece 
of all that remains somewhat frozen.
    Mr. Visclosky. Are the Kilo subs that Iran has today having 
difficulty as far as their operations, and, if so, what are 
those?
    General Peay. There are three of them. ------.
    Mr. Visclosky. General, thank you very much.
    Thank you, Mr. Chairman.

                         KHOBAR TOWERS INCIDENT

    Mr. Young. General, toward the end of last year you and I 
had an opportunity to visit and talk about a number of 
different things. One of the things that I found very 
interesting was your perspective on the Khobar Towers, not only 
the incident itself, but some of the investigation that was 
ongong at the time. I assume it is still ongoing.
    Give us your thoughts on that?
    General Peay. I will tell you first, we have done an awful 
lot since that time to try to combat terrorism. I mentioned 
some of that in my statement, from relocations to hardening, to 
training, our policies, watching our vehicle traffic, 
relocating our dependents, substantial engineer construction, 
from permanent billets in one location to temporary in another, 
and going to permanent billets in the states. An enormous 
amount of work with our coalition friends. You would be very 
proud of them. ------. It is difficult for me, sir, in a short 
period of time to sum up the real answer to your question, 
though, and that is my full view on Khobor Towers.
    If you will kind of let me go on this a little bit, I will 
try to do it as concisely as I can.
    First, you know, I would tell you that I am responsible, 
that I am accountable. Despite all the business you have heard 
here, if I had been at the Saudi Arabia testimony with 
Secretary Perry 5 or 6 months ago, when Secretary Perry said he 
is responsible, I would say no, I am the senior military 
commander in the region, and I am responsible.
    Inherent to that requirement of being the Commander in 
Chief is that kind of responsibility.
    I would say that from a military perspective, through, the 
way that we grow up culturally and the way our young people 
grow up culturally in our business, that is a far cry from 
being culpable or being negligent or being derelict in our 
duties. So as I have tried to look down, I have got 20 
countries, hundreds and hundreds of installations, as I have 
tried to look at that and the chain of command we have 
involved, 3 Stars, 2 Stars, 1 Star, on down the chain, and I 
spend hours pouring over this in my own personnel critique of 
what happened in Central Command, I can't find that dereliction 
of duty, that culpability. The terrorists did the attacking. 
Our people didn't do the attacking.
    Now, that is a snapshot in time. I tell you, you have to go 
to the intelligence. ------ all across the region; 20 
countries. So we raised our vigilance and we really started 
moving in that time. That is what you have heard, and it didn't 
adequately cover it, incidently, the 139 initiatives that this 
fellow Brigadier General Schwalier and his team down at Khobar 
Towers had undertaken. There were hundreds of initiatives he 
had undertaken.
    I find it very difficult in a snapshot kind of approach, 
looking at the intelligence, ------ or something else first?
    Again, it gets back to how you command across a complex 
region. I think you have to give the young people their heads. 
When they ask for help, you get involved ------. We had 
commanders conferences at MacDill Air Force Base. Our 
commanders up and down the line knew their responsibilities, 
there is no question in my mind about that. And I have talked 
to them in critiques after all of this, I didn't find any of 
this particular indecision.
    At the end of the day, the terrorists did the attacking. We 
could have fixed all of these kinds of deficient situations, 
but against that particular bomb size, ------. I think you 
would have had similar kinds of responses.
    Now, there has been a lot of comparison to Beirut. This was 
not Beirut. Saudi Arbia is not Beirut. In Beirut you had 
Marines ashore, you had Naval gunfire from the waters. At the 
time of this particular operation, this was the Gulf. The Gulf 
was not the Middle East. We had one bombing in the last 35 to 
40 years called OPM-SANG. After OPM-SANG, we started all of 
this kind of looking at the world differently in terms of our 
force protection activities. There is a real psychological 
piece of all this.
    I mean, Riyadh and Dhahran are safer than Chicago, 
Illinois. So there is a mind-set here. At the same time, our 
troops are fighting in a number of other operations, and that 
is the thing. You don't want to have our people tied down, 
hunkered down. If that is what we are going to do, we might as 
well not be there.
    We have missions we have to do. That is what their focus 
has to stay on while they still protect this close battle kind 
of operation.
    So as I reviewed what the subordinates were doing, were 
there some tactical mistakes made? Certainly a few.
    Would it have made that much difference? No.
    Was the Downing report lacking in terms of the operational 
and strategic, the cultural underpinning and setting of this 
thing? I think it was. ------. So you can take up our marbles, 
disengage and go home, or stay involved at an operational risk. 
When you have operational risk you do the very best you can. 
Our commanders, I think, were not culpable, not derelict, in 
terms of all of that.
    So I am a little bit like the Chief of Staff of the Air 
Force, that has tried to bring a number of investigations 
together. I somewhat fall on his side as I look at these 
subordinate commanders and the work they have done. And I look 
at Central Command, because I feel I am responsible, and I 
don't find this culpability or dereliction. We are responsible 
and we don't move from that.

                          INTELLIGENCE REPORTS

    Mr. Young. One of the things that I asked you about, and as 
a Member of the Intelligence Committee, I had an opportunity to 
inquire into this as well, you do receive numerous hints that 
there may be a terrorist attack. You get intelligence. And from 
my understanding, if you had investigated every one of those 
suggested intelligence sources about something that might 
happen in the region, it would take you forever to do that, 
because they are enormous. Do you agree with that?
    General Peay. ------. How do we keep the people at the 
highest level of vigilance and operate? We read those reports 
we all do the very best we can, we take operational risk, we 
review the intelligence and take prudent steps to protect our 
troops. We don't become careless. We run every one of the 
intelligence reports down, as best we can. It is sophisticated 
work.
    Mr. Young. The fact is, you are overloaded with these 
intelligence hits.
    General Peay. ------. There is another piece that is 
interesting that develops and we as a Nation are going to have 
to decide how we respond to terrorism. You can't, in open 
session, do what we did several months ago--get out there in 
open session and talk about this subject, where the terrorists 
and where everyone in that region watch the news. For many of 
you who visited there, you know that every leader in the region 
watches Cable Network News (CNN), 24 hours a day. So there we 
are on national television, trying to talk about sensitive 
culture issues, criticizing our partners doing exactly what the 
extremists want us to do. ------.
    So more precise intelligence is central to solving such 
problems. When we put these kinds of pressures or second-guess 
our commanders, then what you have is increased intelligence 
with, everything being reported up. ------.
    Now, that is the danger when we discuss issues too publicly 
and we focus so strongly on culpability standards. This could 
convince our people not to take any risks and in the long run, 
we are going to have almost a Russian-centralized approach to 
our business, a centralized approach to duty, which harms, in 
the long run, our military's approach to the way we do our duty 
so efficiently and correctly than decentralization.
    That is the way, sir, I see it as a commander. I have dealt 
in this for 35 years now, lots of command time. I have got a 
lot of time in that region, and that is my perspective on it.

                    COOPERATION OF SAUDI GOVERNMENT

    Mr. Young. I think you have given us a good handle on how 
difficult this job is. And I might say that knowing that the 
job is so difficult, that is why you were selected to have this 
job, because of the confidence that the leadership had in you.
    Let me go on this same subject just for a couple of more 
minutes. During the investigation, we were told that the Saudi 
Government has not been very helpful and not cooperated. I 
don't know if that is true or not. From your perspective, have 
they cooperated or have they not cooperated?
    This hearing is closed.
    General Peay. It is--let me give you my view, and I would 
ask that you get Director Freeh's and Mr. Tenet, the Acting CIA 
Director's views, and I have talked to them at some length here 
these past several weeks. I think the general feeling in this 
investigation now has gone along three kind of avenues. ------.
    Mr. Young. General, thank you very much. We have an awful 
lot to think about, about the responsibilities that you have in 
that region.
    Mr. Murtha.

                          ACTION AGAINST IRAN

    Mr. Murtha It is interesting what you say because after we 
left Saudi Arabia we went to Israel. So I talked to Prime 
Minister Netanyahu. Now, here is somebody publicly that is 
always for retaliation, armed actions. So I asked him, let's 
say we find out there is an Iranian connection, what do you do?
    Well, he didn't say take armed retaliation. He said do 
three things, or you can do any one of three things. You can 
have an embargo. You can take economic or diplomatic measures 
and, third, you can take military action. He says, but believe 
me, if you take military action, there is going to be a strong 
response inside the country and outside the country.
    I didn't forget that.
    What I remember most is how responsible his response was 
and how he took--through his vast experience, and if you read 
his book on terrorism, of course, this is pretty well what he 
said. So I think that the Saudis--the way we leak over here, 
and the Pentagon is about as much of a leaker as you possibly 
can be, but I am sure you had that problem in your office like 
everybody else, I can see that they don't trust us. I mean, I 
can understand.
    And then the Senate who was criticizing you voted 98 to 
nothing to open up Pennsylvania Avenue, where if you had had a 
bomb the same size in Pennsylvania Avenue, it would have blown 
the whole side of the White House. They voted 98 to nothing.
    Two weeks later they had a hearing over there criticizing 
the Saudis for not closing down the street quickly. I know you 
couldn't say that to those august diplomats over there, but it 
is just kind of irritating when they are so sanctimonious and 
hypocritical about what action should be taken after it is 
over.
    But I realize that if we do find out who does it, it is 
going to be very difficult. For instance, the embargo obviously 
is not working. I mean, why isn't working? Why do the European 
Nations ignore something that--I suggested to the President, 
Mr. President, before you extend Bosnia, before you extend our 
forces and our money in Bosnia, you ought to say to the 
Europeans, look, if you want us to extend in Bosnia, then you 
have got to support us in Iran, this embargo against Iran. And, 
of course, they ignored us completely.
    What is it that--is it just pure money, trade? Is it 
unrealistic for us to put an embargo on?
    General Peay. Well, I think, sir, it goes all the way back 
to basic ethics and values. It is economic. I think some of it 
is a personal view, and I think some of it is concern for their 
own livelihood, because this terrorism piece is going to reach 
right into the underbelly of Europe. ------.
    This is a strategic hegemony approach by an activist 
country today that has ambitious long-range goals. So I think 
the Europeans know that have got to live with that and, as you 
know, they have an enormous Iranian and other population in 
their countries today.
    And terrorism President Isaisas in Eritrea, who spent 18 
years in the bush, a very articulate man, a young man, 45, 46 
years of age, told me, he said, ``you Americans have it all 
wrong.'' He said, ``you can withdraw, you can do all this 
hardening, but you are going to go bankrupt. There is not 
enough money in the world to prepare against this terrorism. 
And so your only alternative, then, is to take--is to take an 
active kind of an approach in terms of some kind of 
counteraction.''
    The trouble is, as you suggest, and you are exactly right, 
when you take that counteraction, you better be prepared. And 
so that is why you better be sure that the story is right, and 
you have got to then, in my view, sir, take time out--you don't 
have to hurry--go build a coalition, share all the information, 
build a coalition, bring the international family together and 
then you better be prepared for the long tough fight against a 
country that I don't think many people in America even begin to 
understand.

                     CIVILIANS AS TERRORIST TARGETS

    Mr. Murtha. Well, the diplomats in Saudi Arabia were scared 
to death. The Ambassador was not there at the time. But they 
were afraid that the civilians in Saudi Arabia would be the 
targets, the American civilians would be the targets.
    General Peay. But you are seeing that, as I mentioned, 
now--you are exactly right. That was the feeling, and now you 
have seen what has happened in the last 10 days. So I guess my 
view is that was going to happen anyway. ------.
    Mr. Murtha. One thing you have to keep in mind, there is 
only one thing worse than keeping our troops there, and that is 
being forced out by terrorism, because that sends a signal. It 
took us 20 years to get over Vietnam.
    Now, I think Vietnam--our effort in Vietnam was a 
courageous effort where we were trying to help people who were 
being invaded. I have a different view than most people. But 
having said that, we lost tremendous prestige when we were 
forced out of Vietnam, and people didn't forget that for 20 
years, whatever examples you want to use. But the Saudi war put 
that to rest.
    I remember President Bush really working. People forget how 
hard it was for him to put a coalition together. I mean, he was 
on the phone personally. He did an absolutely magnificent job 
of putting a coalition together to fight a war when people 
weren't sure we were going to stay there. And you remember how 
difficult it was to get into Saudi and they wanted us out the 
minute it was over.
    So I just worry that--well, you are on top of it and I know 
how important the area is, and I just hope that you are right, 
that our presence will not trigger the very thing that we are 
worried about and that is increased terrorism and then forcing 
us to withdraw the troops.
    General Peay. ------.
    Mr. Young. Mr. Visclosky.
    Mr. Visclosky. I am fine, Mr. Chairman. Thank you very 
much.
    Mr. Young. General, thanks very much for being with us this 
afternoon. We really appreciate your thought-provoking 
presentation.
    Mr. Murtha. Mr. Chairman.
    Mr. Young. Mr. Murtha. Certainly.

                           READINESS CONCERNS

    Mr. Murtha. Are you losing any readiness because of the 
money being spent in Bosnia? For instance, is your command 
losing any readiness because of money that is not available to 
you because it is available someplace else? Or are you the same 
priority as Bosnia?
    General Peay. Ours is such small numbers and I don't see 
that--the CONUS base provides me those forces. These forces 
that have come over now in exercises or have come over in this 
near continuous presence mode, I think, are basically well-
trained.
    What I do see, sir, is units that have had to take 
soldiers, sailors, airmen, marines from other organizations to 
fill up their holes before they deployed so there is a 
turbulence piece to all of that.
    Mr. Murtha. Tempo of operations?
    General Peay. I see less noncommissioned officers at senior 
grades than what you normally would have in these forces. But 
the equipment is there. They are well-trained. They are well-
motivated. I don't hear any complaining. There is an increased 
OPTEMPO, no question about that, but for these service members 
that are in the Gulf, I find them motivated. They know why they 
are there and I think they are doing a good job.
    Mr. Murtha. Thank you.
    Mr. Young. General, again, thank you very much for being 
with us this afternoon. We have quite a few other questions 
that are more budget-related than some of the ones you were 
asked today. But you did give us some very, very important 
insights into the region and some of the problems there.
    The Committee will be adjourned until 10:00 a.m. tomorrow. 
Tomorrow's hearing will be in Room 2212 of the Rayburn 
Building. It will be an open hearing on the fiscal year 1998 
budget for the Navy and Marine Corps. Witnesses will be the 
Secretary of the Navy, the CNO and the Commandant of the Marine 
Corps.
    Also tomorrow afternoon, there will be an open hearing here 
in H-140 at 1:30 p.m. on Navy and Marine Corps acquisition 
programs.
    If there is nothing further, the Committee is adjourned 
until 10:00 a.m. tomorrow.
    [Clerk's note.--Questions submitted by Mr. Young and the 
answers thereto follow:]

                      Priorities and Deficiencies

    Question. Do you feel the interests and needs of the Central 
command have been adequately addressed in the fiscal year 1998 budget 
request?
    Answer. In general, the Fiscal Year 1998 budget, as well as the 
Future Year Defense Program (FYDP) supports Central Command's 
Integrated Priority List (IPL). The Department of Defense and the 
Services continue to support our top priorities. However, as 
modernization and sustainment acquisitions are delayed, risk to our 
forces and mission accomplishment clearly increases.
    Question. What is your assessment of the major shortfalls in: 
Personnel, training, equipment, and maintenance for those units under 
your day-to-day command as well as those that would be assigned to you 
in a wartime situation?
    Answer. We have few personnel permanently assigned to CENTCOM on a 
day to day basis. The services provide forces required to conduct our 
operations in an operational or tactical control status in the Central 
Region. The quality of personnel that all the services provide remains 
high. We have challenges nonetheless; examples of which follow. Due to 
some ------ there are limited opportunities for forces supporting ----
-- to conduct all required proficiency training. For example ------. 
Units deployed ------ lose their world wide deployment qualifications 
due to these training limitations and must redeploy to maintain those 
qualifications. As the services reduce end strength, we are seeing more 
and more junior officers and noncommissioned officers in more senior 
leadership positions, all indicative of the fallout form post-cold war 
military restricting. These leaders are doing an excellent job, but 
they are not as experienced as before. There are also clear cases where 
units, short personnel, have borrowed manpower from sister units to 
sustain their deployment.
    Question. What are the top ten priority items on your most recent 
integrated priority list?
    Answer. Central Command's major needs and top priorities, as 
identified on our Integrated Priority List, are: ------. The placing of 
an Army heavy division ashore in the region increases deterrence, 
reduces risk from the near-term threat of Iraq as well as the long-term 
threat from Iran, ensures regional access, and brings more Gulf 
Cooperative Council (GCC) states into the collective defense. The 
deployment of an effective theater missile defensive system will 
require a multi-layer approach. Such a system will ensure an effective 
flow of information among intelligence assets, decision making 
facilities, warning systems, and attack means. In addition, fielding of 
a theater missile defense will greatly increase regional stability and 
reduce risk in the theater.
    Question. In your view, are present levels of investment funding 
contained in the department's five year plan sufficient to address the 
long term recapitalization requirement of today's forces?
    Answer. As the Commander in Chief I do not have full visibility on 
the full list of challenges facing the Service Chiefs. Almost all of my 
theater requirements are being addresses. It is crucial, however, that 
funding of new systems and programs remain on schedule. Any reduction 
in procurement, investment, or delays in carrying out programs 
increases risk to our service men and women, as well as mission 
accomplishment in the long term.

                              Saudi Arabia

    Question. According to the media, the Attorney General and the 
Director of the FBI have complained that the Saudi's are not being 
cooperative with U.S. authorities in the investigation. Are these 
reports accurate? If so, what is the nature and reason for the lack of 
cooperation?
    Answer. Since we at Central Command (CENTCOM) have not been 
directly involved in conducting or overseeing this investigation, I am 
unable to provide a complete and accurate assessment of Saudi 
cooperation with the U.S. authorities. Consequently, I want to defer to 
those officials at the FBI who are running the investigation and are in 
a much better position to comment on Saudi cooperation.
    Question. Specifically, what adjustments have you made to enhance 
the physical security of U.S. forces in Saudi Arabia in the wake of the 
Khobar bombing? What has the cost been for these security enhancements?
    Answer. Since the bombing at Khobar Towers in June 1996 hundreds of 
force protection enhancements have been taken throughout the region. 
They fall under five major areas: one, ------. We have also formed a 
Joint Rear Area Coordinator (JRAC) Directorate in Headquarters, U.S. 
Central Command, conducted numerous inspections, and Commanders Calls.
    The dollar cost of these enhancements is significant for both the 
United States and regional states and will continue to be high.
    Question. What is your assessment of the stability of the Saudi 
regime?
    Answer. The ruling Al-Saud family is presently united in following 
established lines of succession. Crown Prince Abdallah, who was named 
Regent in January 1996, has the full support of family members. ------. 
The near term stability of the regime will be unchanged under current 
economic and political trends. ------. The petroleum sector contributes 
roughly 75 percent of their annual budget revenues, 35 percent of their 
GDP, and nearly 100 percent of export earnings. ------. Reduced oil 
revenues from previously weak oil prices and deficit government 
spending have resulted in deferred payments from the Saudi Arabian 
Government to its suppliers and contractors creating inflationary 
pressures within the country. What's more, reduced oil revenues impacts 
strongly on the Saudi Arabian government's ability to fund its very 
attractive social services and low interest loans to its citizens. This 
in turn generates internal tensions and encourages some to be 
frustrated with high Saudi Arabian military expenditures and support 
for United States policy in the Gulf. ------.

                Potential Retaliation for Khobar Bombing

    Question. If a link is made connecting Iran with the Khobar towers 
bombing and the U.S. conducted a military response against Iran, the 
consensus is that Iran's most likely reaction would be a terrorist 
attack. Do you agree with that assessment?
    Answer. Yes, because terrorism is one of Iran's means to 
asymmetrically project influence beyond the region. Terrorism is 
difficult to deter and prevent, and direct ties to Tehran are difficult 
to establish. Iran provides ------. Implicit terrorist threats against 
the United States, Gulf Cooperation Council states, and other targets, 
largely in the Gulf region, are aimed at fracturing our ties and 
driving the United States from the region. We believe Tehran has ------ 
as a means of communicating terrorist threats to the United States.
    Although terrorism is the most likely response, Tehran has the 
capability to respond conventionally with air, naval, or ballistic 
missile attacks. Iran has ------. In addition, Iran retains a sizeable 
maritime mine delivery capability. Iran's intent would be to use this 
capability to undermine United States security guarantees to the Arab 
Gulf states.
    Question. How vulnerable are U.S. military and commercial interest 
in the Middle East to a terrorist attack?
    Answer. While U.S. Central Command (CENTCOM) supports the effort, 
the regional Chiefs of Mission retain primary responsibility for 
assessing the vulnerabilities of U.S. commercial interests and securing 
the necessary assistance to respond to threats. U.S. military personnel 
and the installations they operate from are clearly less vulnerable to 
terrorist attack today based upon the extensive security measures and 
sound force protection strategy currently in place. Since the bombing 
of the Khobar Towers compound on 25 June 1996, Department of Defense 
forces with CENTCOM's Area or Responsibility (AOR) have initiated a 
complex, thorough, and extensive security program designed to protect 
military personnel, civilian employees, family members, facilities and 
equipment, in all locations and situations.
    This program will be accomplished through planned and integrated 
application of combating terrorism, physical security, operations 
security, counterintelligence, and other security programs.
    At the same time, U.S. military personnel and facilities are not 
invulnerable to attack. Our actions have not eliminated terrorist 
groups. We also lack the Human Intelligence (HUMINT) required to 
respond more precisely to terrorist threats. The terrorist retains the 
advantage of choosing the appropriate action to defend ourselves in the 
context of political, diplomatic, fiscal, and military constraints.
    Question. Is there a high probability that an Iranian terrorist 
response could be anywhere in the world as opposed to in the Middle 
East?
    Answer. There is a high probability an Iranian terrorist response 
could occur anywhere in the world. ------ as well as various trans-
national groups. Some of these entities have conducted terrorist 
attacks against U.S. interests both in the Middle East and in Western 
Europe. Additionally, there is evidence various ------ which would 
provide Iran additional avenues from which to conduct attacks against 
United States citizens or interests.

                           Counter-Terrorism

    Question. In the fiscal year 1997 Consolidated Omnibus 
Appropriations Act, the Congress provided over $231 million for anti-
terrorism, counter-terrorism and security enhancement programs in the 
Department of Defense. In addition, the Congress provided Supplemental 
fiscal year 1996 funding for force protection totaling $122.6 million. 
General Peay, in your view, are DoD force protection, counter-terrorism 
and anti-terrorism activities adequately funded in fiscal year 1997?
    Answer. Funding for force protection initiatives in the Central 
Command (CENTCOM) Area of Responsibility (AOR) is adequate for fiscal 
year 1997. We have a number of initiatives underway and they are 
funded. In some cases, there are projects that we would like to do 
sooner or items we would like to purchase now, but they are not ready 
yet, either because they are still under development or they cannot be 
started before other projects have been completed. In some cases, the 
technologies are still being refined or production schedules are fixed. 
Examples of these types of ------.
    Our force protection, anti-terrorism and counter-terrorism 
initiatives are based on a terrorist threat dynamic that is changing 
daily; and it is the threat that will drive our force protection 
program. With this in mind, changes in the threat will effect future 
costs. Finally, the defense is never finished. This will add to ``out 
year'' costs.
    Question. Describe for the Committee the activities and programs 
that have been funded in fiscal year 1997?
    Answer. We have been a number of force protection related 
activities and programs that have been funded in fiscal year 1997. Our 
major program has been and continues to be the relocation of personnel 
to more secure locations within our Area of Responsibility (AOR) as a 
part of Operation DESERT FOCUS. As of March of this year we have spent 
$24 million on transportation of personnel and equipment; $4.8 million 
on erecting temporary facilities; and $33 million on force protection 
items such as fences, barriers, sensors, and lighting.
    In addition to this, the government of Saudi Arabia has paid for 
force protection initiatives at the two Security Assistance Offices in 
Saudi Arabia, the U.S. Military Training Mission in the amount of $10.2 
million and Office of the Program Manager--Saudi Arabian National Guard 
in the amount of $11.2 million.
    Question. General, the committee notes that the fiscal year 1998 
budget request does not continue with accelerated funding of these 
activities. Have adequate funds been provided in fiscal year 1998 for 
force protection, counter-terrorism, and anti-terrorism?
    Answer. The funding for U.S. Central Command's Force Protection 
initiatives have been included in the fiscal year 1998 budget 
submission. What is important to understand is that these initiatives 
are based on a snap shot of the threat at this time, or at the time the 
budget was formulated. As the terrorist threat evolves and his 
capabilities change, we will be forced to change to the new threat. 
This could cause new force protection initiatives with new resource 
requirements.
    Question. Does the apparent reduction in funding in fiscal year 
1998 indicate that DoD has done all that it can in these programs?
    Answer. U.S. Central Command's force protection efforts target 
short and mid-term solutions for protecting and securing Department of 
Defense personnel and their families in our Area of Responsibility. Our 
requirements provide an equal level of protection for both combatant 
and non-combatant units. The programs that we've asked the Department 
of Defense to fund in fiscal year 1998 have been requested in the 
department's budget submission.

                                  Iraq

    Question. What is the outlook for Saddam Hussein remaining in 
power? How seriously have purges affected the morale and 
professionalism of the Iraqi Officer corps?
    Answer. Saddam Hussein's overall hold on power has ------ despite 
continuing and unpredictable threats to the security of his regime. He 
will likely remain in power through 1997. Hussein inflicted a serious 
of crushing blows to the Iraqi opposition during the summer of 1996: 
The Iraqi Sunni Muslim opposition groups, already weak and divisive, 
were decimated by security sweeps in June and July 1996; mass arrests 
eliminated a significant base of in-country opposition. Until the Irbil 
crisis in August and September 1996, Kurdish groups had been the 
strongest and most visible challenge to the regime. Saddam's actions in 
northern Iraq divided the Kurds, weakened the faction that posed the 
strongest opposition to Saddam, and denied the use of northern Iraq to 
Sunni groups.
    Although security threats from ------. Saddam relies on his 
internal security forces to maintain his hold on power and they will 
continue to play a critical role in the future. Saddam's ruthlessness 
and brutality has effectively crippled his opponents and represses the 
general population.
    The effect of purges on the morale and professionalism of Iraq's 
officer corps remains difficult to ascertain. Purges in Iraq do not 
appear to be the wholesale bloodlettings seen in the Stalinst purges. 
Rather, Saddam acts in accordance with specific events, such as the 
Kamel defection or the Dulaymi uprising, and targets the appropriate 
group; for example the tribe, family, or branch of military service. 
However, there are ------. Besides the obvious loss of key senior 
operational leaders, the most significant aspect of such ------. This 
climate of fear detracts from effective military planning and 
operations.
    Question. What is the impact of the oil for food and medicine 
agreement (UN Resolution 986) on the economic situation in Iraq? What 
percentage of the proceeds from the allowed Iraqi oil sale are being 
paid as war retribution? To what extent is smuggling taking place to 
circumvent the UN blockade?
    Answer. Food and medicine distribution allowed under UN Security 
Council Resolution (UNSCR) 986 has been significantly delayed. These 
supplies are only now arriving in Iraq, and they have had little impact 
on the internal situation there. Iraq's international market is 
rallying in anticipation of a strong recovery. ------. This activity 
will test the limits of the UNSCR 661 sanctions committee.
    UNSCR 986 may not provide the relief expected by most Iraqis. The 
populace faces a lack of money, not food. The vagueness of the language 
in 986 may allow Iraq to stop its own contributions of food and replace 
it with 986 food, allowing the government to save money or hoard food 
for distribution to Saddam's loyalists.
    Proceeds from the sale of oil under UNSCR 986 are being allocated 
as follows: 30 percent for the Kuwaiti war compensation fund, 45 
percent for humanitarian aid to non-Kurds, 15 percent to Kurds, 10 
percent to pay for UN operations related to Iraq.
    In regards to smuggling operations, with the exception of UNSCR 986 
authorized deliveries, the vast majority of maritime shipping to and 
from Iraq probably smuggles embargoed goods. ------. To a lesser 
extent, goods are also smuggled overland via Jordan and Turkey. Jordan 
remains the overland conduit of choice for sanctions violators. Jordan 
is Iraq's main source of financial, banking, and transportation 
services, and many of its officials involved in monitoring trade with 
Iraq remain susceptible to bribery. Jordan has taken steps to improve 
enforcement, but industrial goods, computers, electronics, and probably 
military spare parts and other military related items continue to be 
financed and shipped through Jordan on a routine basis.
    Question. What is Iraq's current policy toward UN weapons 
inspectors?
    Answer. Request for compliance from the United Nations Special 
Commission and International Atomic Energy Agency are frequently met 
with reluctance, denial, or outright obstruction. Iraqi compliance 
usually comes only when Baghdad is faced with undeniable proof it is 
misleading inspectors or is threatened with an overwhelming response 
from Security Council members. The value Baghdad places on weapons of 
mass destruction is best reflected in its willingness to sacrifice 
billions in annual oil revenues while it ``waits out'' the inspections 
process.
    Question. What evidence do you have of any ongoing Iraqi efforts to 
develop chemical, biological or nuclear weapons?
    Answer. We believe Iraq retains a ------ the United Nations 
economic embargo is lifted. Despite ``outward'' cooperation with United 
Nations inspectors, Iraq is still ------.
    Many scientists and engineers, such as a group formerly associated 
with the nuclear weaponization project, continue working together as 
cohesive teams. This is apparently to enable ------. We believe Baghdad 
has no nuclear weapons, but could indigenously develop such a 
capability within five to seven years if they receive significant 
foreign assistance and they are not restricted by UN controls. However, 
Iraq could develop a nuclear weapon within months if key fissile 
materials are purchased outright. Baghdad admitted to producing, 
weaponizing, and deploying biological and advanced chemical munitions; 
but has not validated its claims that these weapons were unilaterally 
destroyed. ------.

                    Enforcing No Fly Zone Over Iraq

    Question. What is the scope and frequency of U.S. flights for 
enforcing the no-fly zone over southern Iraq (Enhanced Southern Watch)?
    Answer. Operation SOUTHERN WATCH began flight operations on 27 
August 1992 to enforce the Iraqi No Fly Zone south of 32 degrees North 
Latitude. This was amended to 33 degrees North by United Nations 
demarche in September 1996.
    A typical Air Order of Battle, including both fixed and rotary wing 
aircraft, is ------ aircraft. This number ------.
    Question. What countries other than the U.S. are participating in 
enforcing the no-fly zone?
    Answer. Two countries other than the United States provide aircraft 
and crews to Operation Southern Watch. The British provide ------.
    Question. Is it necessary to continue to conduct these no-fly zone 
operations at the current pace? Do you believe that scaling back on the 
frequency of the flights would tempt Saddam Hussein to exploit the 
situation?
    Answer. Yes. Without a doubt, if we cut back the frequency of our 
flights, Saddam would respond by increasing his activities. Scaling 
back on the frequency of flights would eventually be perceived as a 
softening of the no-fly and no-drive zone patrols. While some no-fly 
zone violations may be ------ eventually, they would become more 
frequent and the violations would become deeper. This could invite an 
incident. Deterrence is maintained by the current frequency of flight 
operations. In the past year we have utilized surge periods to change-
up the frequency, reduced flying at times, and increase security. 
What's more, maintaining Operation Southern Watch enhances regional 
stability by denying Saddam the ability to mount a no-notice massive 
assault on Kuwait and Saudi Arabia. Our nation's support for the 
mission reassures all our Gulf partners. This in turn offers numerous 
direct and indirect benefits to America diplomatically and 
economically.
    Question. After the Khobar bombing, the U.S. Air Force flight 
operations for enforcing the no-fly zone in southern Iraq were moved to 
other bases in Saudi Arabia. What is the impact of this change on the 
no-flight operations? What is the flight distance from these bases to 
the no-fly zone compared to when the operation was based in Dhahran? 
What are the living conditions at the bases being used now? What is the 
impact of this location change on the morale of the U.S. forces?
    Answer. Following the June 1996 bombing, both U.S. and coalition 
aircraft operating from Dhahran Air Base and Riyadh Military airfield 
relocated to Prince Sultan Air Base (PSAB). This move has had no impact 
on the No Fly Zone operation. The number of sorties flown during the 
move was never decreased. Flying from Riyadh to the No Fly Zone is 270 
nautical miles, from Dhahran is 260 nautical miles, and from PSAB is 
320 nautical miles.
    At Riyadh and Dhahran, personnel were living in apartment/villa 
style accommodations. At Prince Sultan Air Base all facilities, to 
include showers, toilets, and living quarters are contained in Harvest 
Falcon sets, which are air conditioned tents. In the future, they will 
be housed in more permanent facilities currently under construction by 
the Saudi Arabians. The morale of the personnel is good.
    Question. Costs have grown for Enhanced Southern Watch by over $200 
million in FY 1997 compared to FY 1996. In part, this increase is 
justified because of an increase in the zone to be patrolled. The zone 
has been extended from the 32nd to the 33rd parallel. General Peay, 
what measures are you taking that have increased the cost of this 
mission? Has the threat posed by Iraq changed in a way that requires an 
increased allocations of resources?
    Answer. The threat from Iraq remains. The blatant refusal of Iraq 
to comply with United Nations Security Council Resolutions (UNSCR) and 
their determination to maintain and build military forces requires that 
Coalition forces remain vigilant and prepared to execute operations on 
short notice. Saddam continues to threaten his neighbors in the region; 
be it ground force movements towards Kuwait, oppression of Kurds in the 
north as in Desert Strike, or his continued pursuit of Weapons of Mass 
Destruction.
    While the threat from Iraq remains unchanged, the threat to our 
land-based, deployed forces posed by terrorist organizations has 
resulted in new resource requirements. In addition to ------.
    The U.S. paid $144 million for Phase I relocations; the Saudi 
Arabian government will spend $300 million towards Phase II relocation 
costs which are more permanent in nature (includes our security 
assistance organizations in Saudi Arabia.)
    Question. The Committee understands that the Department will change 
the way it characterizes Operation Enhanced Southern Watch. This 
Operation will no longer be considered a contingency, and will stead be 
considered a recurring part of DoD operations. Does this change in 
policy signal a change in the DoD commitment to this area? Do you 
expect that the level of DoD resources will change as a result of the 
change in Policy?
    Answer. Your information on Operation Southern Watch being declared 
as something other than a contingency operation is incorrect. Any 
change to funding of operations by DoD in Central Command's (CENTCOM) 
Area of Responsibility (AOR) will not change our regional strategy 
towards Saddam Hussein and his regime in Iraq. We remain committed to 
deterring aggressive moves by the current Iraqi regime against our 
coalition partners in the region. We also remain committed to ensuring 
that Saddam Hussein complies with all applicable UN Security Council 
Resolutions (UNSCR) directed towards his government.
    We do not anticipate any change in the level of resources available 
to us to carry out Southern Watch unless there is a change in policy or 
change in mission. The current combination of airpower capabilities 
present in Joint Task Force--Southwest Asia (JTF-SWA), a deployed 
carrier battle group, an Army battalion task force in Kuwait that is 
paid for by the Kuwaiti government, and the ability to augment this 
power on short notice with an Air Expeditionary Force serve as a 
visible deterrent to any Iraqi aggression. We continue to evaluate our 
strategy and threat. In the near term it is important to evaluate our 
strategy and threat. In the near term it is important that the visible 
deterrent value of Operation Southern Watch remain at its current 
level.
    Question. Is the cost for this operation fully funded in the fiscal 
year 1998 budget submission?
    Answer. The cost of enforcing the No Fly Zone, known as Operation 
Southern Watch, is fully budgeted in the Fiscal Year 1998 budget given 
the best planning figures available at the time the budget was 
formulated. Any increased response to provocation's by Iraq, such as we 
saw in August and September 1996 during Operation Desert Strike, could 
cause a funding shortfall. In addition, any reduction in Host Nation 
Support would cause a funding deficit as well.

                        Air Expeditionary Forces

    Question. The fiscal year 1997 Supplemental request includes $59.6 
million to deploy Air Force Air Expeditionary Forces (AEFs). The AEFs 
are complete strike packages (``mini'' wings) maintained in the U.S. 
for the purpose of rapid deployment. The Air Expeditionary Forces are 
being deployed to enhance U.S. capabilities in the region, and to ----
-- of the AOR. General Peay, what events in the region warrant 
deployment of the Air Expeditionary Forces (AEFs)?
    Answer. The deployment of Air Expeditionary Forces (AEF) is our 
primary tool to quickly respond to increased tensions and to ------. It 
is a key part of U.S. Central Command's ``near continuous presence'' in 
the region, as defined in the command's Five Pillar Theater Strategy. 
With the Global Naval Force Presence Policy in effect for Fiscal Year 
1997, there will be severe ------ at a time. The presence of an 
aircraft carrier is a necessary and visible deterrent. The presence of 
an AEF is needed ------ in theater. In addition, restrictions by Saudi 
Arabia and other countries in the region on ------.
    In addition, Saudi Arabia will not allow land-based aircraft to 
cross its borders to support Maritime Interception Operations (MIO) and 
required Propositioned ship protection. Without a carrier air wing on 
station, the Air Expeditionary Force becomes the primary support for 
these ongoing operations.
    Question. Do you anticipate gaps in carrier coverage that will 
require additional Air Force capabilities?
    Answer. The ------. Historically, this particular time of year has 
been active for Iraqi operations in Southwest Asia (Desert Shield/
Storm--August 1990; Operation Southern Watch--August/September 1992; 
Vigilant Warrior--September/October 1994; Vigilant Sentinel--August/
September 1995; Desert Strike--September 1996). Additionally, there are 
demands on the carrier battle groups outside of Central Command's 
(CENTCOM) Area of Responsibility (AOR) that could result in unforeseen 
carrier gaps. In the last fiscal year, CENTCOM has experienced 
unscheduled gaps for carriers that have had to depart early to support 
contingency operations in the ------.
    Question. Will deployment of the AEFs result in an increase in the 
number of sorties generated to patrol the no-fly zone?
    Answer. The deployment of an Air Expeditionary Force (AEF) does not 
necessarily result in an increase in the number of sorties flown. 
Operation Southern Watch's mission is to ------. The actual number of 
sorties flown ------. With the deployment of an AEF we have the 
capability to provide a high number of sustained sorties, or surge, if 
the operational situation requires. It is this potential to increase 
sorties in defense of our national interests that contributes to 
regional stability and provides deterrence.
    Question. Why does the U.S. require the capability to increase the 
number of sorties that it can generate?
    Answer. Deterrence and security. We know from experience that our 
adversaries in the region, Iran and Iraq, are deterred by visible 
demonstrations of U.S. strength and resolve. Credible deterrence hinges 
on retaining viable military capabilities to respond to aggression. 
With this in mind, U.S. Central Command employs a theater strategy that 
emphasizes the ``near continuous'' presence of relatively small 
packages of lethal, joint forces, reinforced by our nation's power 
projection capabilities. If these forces do not deter aggression, they 
are postured to ------. During contingencies such as Vigilant Warrior, 
Vigilant Sentinel, and Desert Strike; the ability to provide a 
formidable air force capability deterred further aggression. Should 
deterrence fail, the ability to provide surge sorties is part of the 
Operation Southern Watch mission to provide ------. Maintaining the 
current package of air forces, complemented by Army, Navy, Marine, and 
Special Operations Forces is an economical method for securing our 
vital interests in the region.

                                  Iran

    Question. Describe to the Committee the level of Iran's effort to 
develop weapons of mass destruction--chemical, biological and nuclear?
    Answer. Iran is aggressively pursuing a nuclear weapons capability, 
has one of the largest chemical weapons programs in the Third World, 
and is developing biological weapons. ------.
    Question. What is Iran's level of state support for terrorism?
    Answer. Iran continues to be the leading state sponsor of 
international terrorist organizations and continues to use terrorism, 
including assassinations of dissidents, as a foreign policy tool. Iran 
and Iranian-backed groups have established a significant trans-national 
terrorist capability. Iran provides ------. Some of these entities have 
conducted terrorist attacks against U.S. interests, both in the Middle 
East and Western Europe. Successful operations by these groups have 
included bombings, aircraft hijackings, and kidnappings.
    Question. What action is Iran taking to foster instability in the 
region?
    Answer. Iran has been attempting to project its influence through a 
number of unconventional or asymmetrical methods, several of which have 
fostered instability in neighboring countries and the region as a 
whole. These methods have included ------. Iran has also amassed the 
largest regional navy, capable of laying maritime mines and threatening 
the sea lanes in the Gulf. Taken together, terrorism, ballistic 
missiles, weapons of mass destruction, and naval forces, provide Iran 
an effective mechanism for intimidating neighbors and challenging U.S. 
vital interests.
    Question. What is the position of our Allies regarding the U.S. 
attempt to impose trade sanctions against Iran?
    Answer. Neither the European Union nor, as far as we know, any 
memberstate has any sanctions in place against Iran. This is also true 
for our allies around the globe. The European Union has elected to 
continue a ``critical dialogue'' with Iran. Senior officials in allied 
governments have described the Iran and Libya Sanctions Act as 
``counter-productive''. Many allies do not prohibit trade with Iran 
but, instead, enact regulations or restrict trade based on applicable 
United National Security Council Resolutions or because of membership 
in trade control regimes such as the Australia Group, Missile 
Technology Control Regime, Wassenaar Agreement, and the Nuclear 
Suppliers Group. The lack of international support for U.S. policy 
clearly weakens our efforts and encourages Iranian hard-liners.

                                 Kuwait

    Question. To what extent have the Kuwaiti forces upgraded since the 
end of the Gulf War?
    Answer. The government of Kuwait has upgraded its military hardware 
significantly since the end of the Gulf War. Kuwait has invested 
heavily in the procurement and modernization of its Army, Air Force and 
Navy.
    Specifically, they have spent $7.8 billion on U.S. military 
systems. These major acquisitions include: 318 M1A2 Abrams Main Battle 
Tanks, 40 F/A-18 Hornets, and 5 batteries of Patriot Air Defense 
missile systems. The Kuwaiti military uses these systems in their 
exercises with us. During the Intrinsic Action and Eager Mace rotations 
the Kuwaitis exercise alongside U.S. Army and Marine units. The 
Kuwaitis have also purchased foreign systems. These include: the 
Warrior Infantry Fighting Vehicle from Britain, the Smerch Multiple 
Rocket Launcher and BMP-3 Infantry Fighting Vehicle from Russia, and 
Fast Patrol Boats from France.
    Question. What is the size, readiness and quality of the Kuwaiti 
forces?
    Answer. Kuwaiti Armed Forces are currently number approximately 
23,000 personnel. Their land forces are organized around 4 brigades, 3 
armored and 1 mechanized, for a total of 9,500 personnel. While 
currently ------ they are improving. The Kuwaiti Air Force, their most 
capable service, has 40 F/A-18 Hornets as their primary combat 
aircraft, ------. They have the best pilots in the Gulf Cooperative 
Counsel (GCC), but are not as food as U.S. aviators. Kuwaiti Naval 
Forces are limited to small coastal operation, using patrol craft 
purchased from France. They are ------. Their primary mission is, along 
with the Kuwaiti Coast Guard, fighting smuggling and illegal 
immigration. In summary, Kuwait has spent significant amounts of money 
in modern military equipment, but their ------.
    Question. How extensive is the U.S. involved in training and 
conducting exercises with the Kuwaiti Forces?
    Answer. The U.S. Central Command's (CENTCOM) exercise program with 
Kuwait is the bulwark of our Joint/Combined Exercise Program; 
accounting for approximately 11 percent of the exercises conducted in 
our Area of Responsibility (AOR). This program has undergone frequent 
and significant changes as it provided the basis for operational 
responses during OPERATIONS VIGILANT WARRIOR, VIGILANT SENTINEL, and 
DESERT STRIKE.
    The objectives of the CENTCOM exercise program are: to deter 
potential adversaries by maintaining forward presence and demonstrating 
U.S. strategic mobility; to demonstrate mutual commitment to regional 
security; to maintain access to Kuwait and the central region; to 
assist the Kuwaiti Armed Forces to achieve a self-defense capability; 
to enhance military-to-military relationships, refine complementary 
warfighting capabilities, and exercise combined command, control, and 
communications interoperability. Accomplishing these objectives will 
provide U.S. and Kuwaiti forces the opportunity to refine national 
defense and contingency plans as well as sustaining the capability for 
coalition warfare.
    The specific elements of our present exercise program with Kuwait 
include: ground, special operations, naval, and air pieces. An armored 
task force rotates three times each year into Kuwait for a 120 day 
exercise. These exercises are the cornerstone of our efforts to provide 
near continuous ground force presence in Kuwait and are paid for by the 
Kuwaiti government. Three 90-day Special Operations Force exercises are 
conducted each year in Kuwait. In these exercises, Coalition Support 
Teams exercise with the Kuwait Armed Forces to improve their defense 
capabilities and provide a close air support capability. A Joint/
Combined Naval Amphibious Force field training exercise designed to 
integrate the Kuwait Armed Forces with U.S. Naval Amphibious Unit 
capabilities in combined arms operations is conducted annually. U.S. 
Naval forces in the region conduct a Combined Naval Surface exercise in 
the waters of Kuwait annually. This exercise develops the proficiency 
of the Kuwaiti Naval Force while also improving interoperability 
between our two countries. Additionally a Combined Air exercise between 
shore-based U.S. Naval aircraft and the Kuwaiti Air Force is conducted 
annually which develops pilots of both air forces while improving our 
interoperability with Coalition Air Forces.
    Kuwait remains committed to a diverse joint and combined exercise 
program. Continuation of this relationship with Kuwait is central to 
strengthening U.S.-Kuwait military connectivity and to improving our 
regional command and control capabilities.

                                Bahrain

    Question. The U.S. Navy has been based at Bahrain since the late 
1940's, and that country provides a key location for U.S. military 
presence in the Persian Gulf. What has been the level of political 
discord and strife in Bahrain in the past year?
    Answer. ------.
    Question. What is the nature of any threat to the incumbent 
government? What is the position of the government's opponents 
regarding the presence of U.S. naval assets in Bahrain?
    Answer. The primary threat to the government of Bahrain is the ----
--.
    Iran is the main external threat. Iran asserts a claim to Bahrain 
based on the Persian origins of Bahrain's majority Shia community. The 
Bahraini government has implicated Iran in fomenting the unrest in 
Bahrain. Bahrain's security forces have been successful in containing 
the violence and maintaining the security of the government. The 
Bahraini government is working through the newly appointed consultative 
council, and other cooperative elements of society, to overcome 
economic and social issues at the root of the unrest. To date, the U.S. 
naval presence has not been an issue with the Shia opposition. Civil 
unrest has been present on the island since the charity marathon race 
demonstration on 25 November 1994. No violence has been purposely 
directed towards U.S. interests or personnel. Opposition groups target 
third country nationals (Pakistani, Bangladeshi, Sri Lankan), who they 
believe are taking jobs from Shia Bahrainis. Violence against U.S. 
citizens has been rare and unintentional. Although some graffiti 
referring to America has been seen, opposition speeches have not 
carried an anti-American theme.
    Continued efforts by naval commanders to foster good relations in 
local communities has been successful thus far.
    Question. How reliant are we on Bahrain for meeting our national 
security objectives in the Persian Gulf region?
    Answer. We have a long-standing cooperative military-to-military 
relationship with Bahrain. Bahrain provides a home for U.S. Navy 
Central Command (NAVCENT), our only component command permanently 
located in this critical region, and has supported our regional 
initiatives. In addition, Bahrain has been supportive in allowing us to 
position an Air Expeditionary Force (AEF) in Bahrain and ------. This 
continued support is very important to meeting our national security 
objectives in the region.

                        Theater Missile Defense

    Question. How high of a priority is the Theater Missile Defense 
program from your perspective?
    Answer. The development, production, and fielding of a Theater 
Missile Defense (TMD) is one of our highest priorities in Central 
Command (CENTCOM). In fact, it is my ------.
    Any TMD program should consist of a multi-layered defensive system 
tied together with an effective Command, Control, Communications, 
Computer, and Intelligence (C4I) architecture. In this way, it should 
have the capability to handle lower and upper tier requirements on land 
and at sea; as well as have the mobility necessary to cover fast moving 
Army and Marine ground forces.
    Question. Your prepared statement reads in part, ``We need to field 
a highly mobile missile defense to be positioned well forward to 
protect dispersed, rapidly moving Army and Marine ground forces. This 
system must also be able to defend against cruise and short range 
tactical ballistic missiles. To tie these various systems together, we 
need to improve our theater missile defense (TMD) fused awareness.'' 
How much of a technological challenge is it to tie together these 
various systems? Provide for the record the time frame required to 
provide ``fused awareness'' for Theater Missile Defense assuming an 
optimal funding profile.
    Answer. Linking these various systems together presents significant 
challenges. The Joint Theater Air and Missile Defense Organization 
(JTAMDO) and the Ballistic Missile Defense Organization (BMDO) are 
currently conducting the Joint Composite Tracking Network Study to 
develop executable timelines for this task. Until this study is 
completed, I am unable to provide a firm date for when ``fused 
awareness'' will be available to commanders; however, we believe it 
will be prior to the year 2010.
    Question. Do you think that the FY 1998 budget for the Theater 
Missile Defense program is adequate?
    Answer. The Department of Defense's Fiscal Year 1998 budget request 
would allocate $1.285 billion to specifically develop Theater Missile 
Defense (TMD) weapon systems, and roughly another $500 million under 
the Joint Theater Missile Defense program element to ensure that this 
``family of systems'' approach is fully interoperable. The Department 
is also requesting roughly $390 million in procurement funds for TMD 
systems in Fiscal Year 1998.
    I believe the Department of Defense understands our requirements 
and has factored them into the equation as they allocate resources, 
given other pressing military needs, to ensure that required TMD 
systems can be fielded at the earliest possible time. I understand that 
both the Patriot Advanced Capability-3 (PAC-3) and Navy Area Defense 
systems are proceeding as quickly as possible. We must recognize that 
extending the time to deliver and field a multi-layered TMD system 
increases risk to our forces.

                  Prepositioned Assets in Middle East

    Question. How extensive are the prepositioned assets of the US in 
the Middle East region?
    Answer. Prepositioning is a vital facet of overseas presence and 
demonstrates U.S. commitment to our allies in the Central Command 
(CENTCOM) Area of Responsibility (AOR). Prepositioning figures 
prominently in the strategic mobility equation allowing the U.S. to 
respond more quickly to a developing crisis and enhancing our ability 
to deter war.
    U.S. CENTCOM goal is for a prepositioned Heavy Division, consisting 
of three heavy brigade sets and a division base in the AOR. The first 
set is located at Camp Doha, Kuwait. We are working with the Kuwaiti 
Government for them to construct new prepositioning facilities in 
Southern Kuwait. The Army is prepositioning a second brigade set with a 
division base in Qatar. In January 1996, the first battalion task force 
of this brigade set was fielded. The next set of ------. The facilities 
for these sets are being constructed with U.S. Military Construction 
funds. The first two phases of this three phase program were approved 
by Congress and construction is underway. The final phase is in this 
year's Presidential budget submission. Positioning of the third brigade 
set is currently being worked through the Joint Requirements Oversight 
Committee process with a decision on the mode/location expected this 
cycle. CENTCOM has recommended the set be placed afloat in the near 
term, and ashore once final locations are negotiated with host 
governments.
    The Air Force has prepositioned bare base support, vehicles, 
medical, fuels support equipment, and munitions ashore in Southwest 
Asia. The Harvest Falcon bare base assets in war reserve support 50,600 
personnel and 750 aircraft at 14 locations. There are over ------. In 
addition to ashore assets, the Air Force has ------.
    Critical elements of our prepositioning strategy in the region are 
the Marine Corps' Maritime Prepositioning Squadrons 1 and 2 and the 
Army Prepositioning Afloat program. Both afloat prepositioned forces 
are usually stationed in the Pacific ------.
    Question. Have you attained your goals for prepositioning military 
equipment in the Middle East? If not, what deficiencies remain?
    Answer. Prepositioning remains one of our highest priorities in 
Central Command (CENTCOM). Through our prepositioning program, we not 
only remain engaged in this critical region, but we show any potential 
adversaries that we are committed to regional stability. We continue to 
make progress on our prepositioning goals; but we have not yet attained 
them.
    Two key issues we are currently working to attain our goal of a 
Army Heavy Armored Division equipment set ashore are: one, Military 
Construction (MILCON) funding to support the third year and final phase 
of Army prepositioning facilities in Qatar; and two, a Joint 
Requirements Oversight Committee (JROC) decision on the mode and or 
location for the Army's eighth prepositioning brigade set. Funding for 
the facilities in Qatar are included in this year's Presidential Budget 
submission. Support for this project is essential to the stability of 
the region and to show the countries in the gulf region that we are 
there for the long term. The eighth brigade equipment set decision is 
currently being worked through the JROC process with a decision on the 
mode/location expected during the current Chairman's Program Assessment 
(CPA) cycle.
    We continue to add facilities to enhance Air Force propositioning 
in our Area of Responsibility (AOR). Medical storage, maintenance 
facilities, warehouses, and munitions storage bunkers are currently 
under construction in Qatar that will provide adequate facilities for 
repositioned assets. Support is required to complete an additional 
warehouse and a communications maintenance facility at a cost of $2.9 
million dollars in the current Presidential budget. Out year 
requirements, in the years FY 199-2000, include minimal funding to 
complete these facilities.
    The Navy continues to work requirements for five Forward Logistics 
Site sets to enhance naval operations at selected ports in the AOR. A 
War Reserve Project has been identified and funding priorities continue 
to be adjusted to support these requirements.

                              Oil Exports

    Question. What is the current level of oil exported from countries 
within USCENTCOM's Area of Responsibility (AOR)?
    Answer. Within Central Command's 20-country Are of Responsibility, 
only 10 export domestically produced crude oil. The following is a by-
country breakdown:
    Iran exports 2.5 million barrels per day.
    Iraq exports 0.7 million barrels per day.
    Saudi Arabia exports 7.8 million barrels per day.
    United Arab Emirates exports 2.2 million barrels per day.
    Bahrain exports 0.1 million barrels per day.
    Qatar exports 0.5 million barrels per day.
    Kuwait exports 2.1 million barrels per day.
    Egypt exports 525,000 barrels per day.
    Yemen exports 250,000 barrels per day.
    Oman exports 815,000 barrels per day.
    Emerging as a significant trend in the world oil market is the 
growing centralization of world oil production in the Arabian Gulf. The 
area's share of the world supply is projected to increase from one-
fourth today to about one-third by the turn of the century. Adding 
significance to the level of Arabian Gulf oil production is the 
expected decline in oil production elsewhere.
    Oil will remain the world's primary source of energy for the 
foreseeable future. Reinforced by projections of increased demand from 
industrialized countries as well as emerging third world nations, the 
importance of oil and its availability will be a principal concern for 
global economies well into the coming century.
    The outlook for increasing oil demand, combined with the fact that 
over 60 percent of the world's oil reserves reside in the Arabian Gulf, 
further highlights the importance of Middle Eastern oil supplies. 
Additionally, the low cost of Arabian Gulf oil will add to the growing 
dependence by countries around the world.
    Question. How reliant is the U.S. on this oil?
    Answer. U.S. net oil imports from the Arabian Gulf are forecast to 
increase from the current 19 percent to approximately 22 percent of 
total oil imports by the year 2000. By the year 2010, the U.S. is 
expected to import roughly 25.5 percent of its total oil imports from 
the Arabian Gulf. This increase is largely due to a combination of two 
factors:
    First, U.S. oil demand is expected to increase from the current 
18.1 million barrels per day to 19.4 million barrels per day by the 
year 2000; and 21.6 million barrels per day by the year 2010. Total 
U.S. oil imports for 1996 were estimated at approximately 8.4 million 
barrels per day and that is expected to climb to approximately 19.4 and 
21.6 million barrels per day for the years 2000 and 2010, respectively. 
The majority of this will come from the Arabian Gulf given the 
stagnant, and in some cases declining, production outside of the Gulf.
    Secondly, falling U.S. oil production will exacerbate dependency on 
foreign oil. In 1996, U.S. oil production was estimated to be 6.5 
million barrels per day. By the years 2000 and 2010, respectively, U.S. 
oil production is forecast to drop to 5.9 and 5.4 million barrels per 
day.
    Question. How reliant is Europe on this oil?
    Answer. In 1996, Europe imported roughly 45.1 percent of its total 
oil imports from the Arabian Gulf. In the years 2000 and 2010, Europe's 
share of total foreign oil imports coming from the Gulf are expected to 
reach 45.7 and 47.9 percent respectively. Given the fungible nature of 
oil on the world market; all countries, including those in Europe, rely 
on uninterrupted oil supplies from the Arabian Gulf. Any disruption in 
the flow of oil would drive up oil prices and negatively impact the 
global economy.
    Question. What percentage of the oil exported from the Middle East 
is shipped through the Straits of Hormuz?
    Answer. Approximately 87.5 percent of Middle East (Arabian Gulf) 
oil (14 million barrels per day) is shipped through the Strait of 
Hormuz.
    Question. How wide is the shipping channel at the Strait of Hormuz?
    Answer. The shipping Channel of the Strait of Hormuz is 
approximately 80 kilometers wide and nearly 180 kilometers long. Most 
oceangoing shipping through the Strait of Hormuz passes through two 
established traffic lanes within Oman's 12 nautical mile territorial 
Sea. One lane is inward and one is for outward traffic. Traffic lanes 
are two miles wide and are separated by a two mile buffer lane. Depths 
in the lanes range from 45 to 80 meters.
    Question. What percentage of Iran's oil exports flow through the 
Strait of Hormuz?
    Answer. Iran exports all its oil (2.5 million barrels per day) 
through the Strait of Hormuz.
    Question. How easy would it be for Iran to shut down the Strait of 
Hormuz?
    Answer. Iran possesses the military capability to close the Strait 
of Hormuz through the use of mines, ship and land based anti-ship 
cruise missiles, air attacks by helicopters and fighter aircraft, the 
use of naval forces and small boats with guns and rocket launchers, and 
possibly the use of weapons of mass destruction including ballistic 
missiles.------.

                  Role of Guard and Reserve Personnel

    Question. Are there any ongoing operations in CENTCOM's Area of 
Responsibility that are totally reliant on Guard and Reserve personnel?
    Answer. At this time, there are no operations in the Central 
Command's Area of Responsibility totally dependent on Reserve Component 
forces. Our Service Components however, sometimes opt to relieve Active 
Component Operations Tempo (OPSTEMPO)/Personnel Tempo (PERSTEMPO) 
requirements by deploying into the theater Reserve Component forces. 
These rotations occur at both the individual and the unit level. Some 
examples of these rotations are the Navy's use of Reserve Component 
personnel in port operations and cargo handling facilities, as well as 
primary fill options for Joint Task Force Southwest Asia. The Air Force 
has sent Air National Guard Wings and A-10 rotations to support 
Operation Southern Watch as well as Combat Search and Rescue airlift 90 
days each year. The Army Reserve provides augmentees assisting in 
material management control in Kuwait and personnel supporting 
communications operations in Saudi Arabia.
    Question. How long is the typical tour of duty of Guard and Reserve 
personnel deployed to the Middle East?
    Answer. There is no typical tour of duty for Guard and Reserve 
personnel deployed to the Central Region. We depend on the Reserve 
Components to provide Personnel Tempo (PERSTEMPO) flexibility and a 
surge capability to react to emergent requirements. A tour can be 
anywhere from 19 days to 179 days per fiscal year, dependent on funding 
and volunteer availability. Units generally deploy for a 30, 90, or 120 
day commitment. Individual tours are dictated by mission needs. 
Normally Guard and Reserve personnel are not utilized for more than 179 
days due to Service interpretations of Title 10.

                           Quality and Morale

    Question. General, when you visit troops deployed in the Middle 
East area, have you noticed any deterioration in the quality of our 
troops? What about their physical condition? Are the new troops as 
mentally disciplined as those in prior years? Have you found that the 
new troops have more ``emotional baggage'' i.e., personal problems, 
than those in the past?
    Answer. Although many of the Services are facing recruiting and 
retention challenges today, we have not noticed any degradation in the 
quality or performance of our troops. I am concerned that we are 
beginning to see more junior officers and non-commissioned officers 
serving in positions that formerly were manned by more senior leaders. 
As a result, where we used to have four field grade officers on the 
staff of an Army brigade, you may have two today. Where previously we 
had four captains on a battalion staff, we now have two. Where we used 
to have an E-7, Sergeant First Class, platoon sergeant, we now have an 
E-6. And this is true, to some extent, in all the services. Similarly, 
I am concerned that our units are having to borrow individuals from 
different units to fill out their organizations. In this context, an 
Army brigade commander must get personnel from his other subordinate 
battalions to fill a single battalion. All of these realities stem from 
the post Cold War military restructuring. At the same time, we do not 
want to exaggerate the negative effects of this dynamic. Services 
continue to provide Central Command (CENTCOM) with dedicated and 
trained service professionals. Our service men and women remain 
physically fit and mentally tough and are flexible enough to deal with 
the rapidly changing situations commonplace in our Area of 
Responsibility (AOR). Continued funding and support for Morale, 
Welfare, and Recreation (MWR) and Quality of Life (QOL) programs are 
essential toward the retention of our highly qualified service 
professionals.
    Question. How is the morale of the troops deployed in CENTCOM's 
Area of Responsibility (AOR)?
    Answer. During my discussions with the Component Commanders and 
personal visits in the AOR, I find the morale and retention throughout 
the force is high. Recognizing the challenges all of the Sevices are 
encountering handling global missions and training requirements, U.S. 
Central Command (CENTCOM) has taken action to address Operational Tempo 
(OPTEMPO) concerns. We have eliminated or reorganized exercises and we 
have maintained forward positions in the region at minimal levels. In 
cooperation with the Services, we have worked on the optimizing tour 
lengths for the various forces, but have taken action to have longer 
tours where possible, to minimize personnel turbulence.

    [Clerk's note.--End of questions submitted by Mr. Young.]
                                          Wednesday, March 5, 1997.

COMMANDER IN CHIEF, UNITED STATES PACIFIC COMMAND AND COMMANDER, UNITED 
                          STATES FORCES, KOREA

                               WITNESSES

ADMIRAL JOSEPH W. PRUEHER, COMMANDER IN CHIEF, UNITED STATES PACIFIC 
    COMMAND, U.S. NAVY
GENERAL JOHN H. TILELLI, JR., COMMANDER, UNITED STATES FORCES KOREA, 
    U.S. ARMY

                              Introduction

    Mr. Young. The hearing will come to order.
    Pursuant to a vote taken last week, this hearing is closed 
so we might be free to discuss classified information.
    This morning the Committee is very happy to welcome Admiral 
Joseph Prueher, Commander in Chief, United States Pacific 
Command, and General John Tilelli, Commander in Chief, United 
Nations Command/Combined Forces and Commander, United States 
Forces Korea. That is a long title, General.
    The United States Pacific Command's area of responsibility 
is immense, covering 50 percent of the earth's surface and 60 
percent of the world's population found in over 40 countries 
and 20 territories and possessions. Admiral, that is a big job.
    We are proud of the achievements of the troops under your 
command who support the forward-deployed presence of this 
country in the vital Pacific Rim and guarantee the security of 
the Korean Peninsula.
    We look forward to your testimony on the state of your 
respective commands, and hope to address such key issues as the 
present readiness of your assigned military forces; the 
challenges of the deployments and OPTEMPO you now face; the 
present security situation in Korea; and your priorities and 
deficiencies in terms of personnel, maintenance and equipment.
    Admiral and General, again, welcome. We are very happy to 
have you here. We look forward to your presentation. Your 
statements in full will be placed in the record, and you feel 
free to summarize in any way you would like.

                  Summary Statement of Admiral Prueher

    Admiral Prueher. All right, sir. Thank you very much, Mr. 
Chairman.
    We both are very pleased to be here and present the posture 
of our commands. It has been a busy year with a lot of 
opportunities and a lot of challenges, and an opportunity for 
me to meet both U.S. and foreign military and civilians as well 
as servicemen and their families in our Area of Responsibility, 
AOR.
    The last time and my first time to appear before your 
Committee was last year, and I had been about 3 weeks on the 
job. I know more than I did then and know more of what I don't 
know, too. So it is interesting in that regard.
    One aspect in our theater, what is going on with working 
issues together with the State Department and the ambassadors 
in the area and the military security policy. Something I think 
would please you is the concerted effort that goes on together. 
I think the Congress and the public should be proud.
    I do have a written statement that is in the record, and I 
will summarize my thoughts now, sir.
    Mr. Young. Yes, sir.

                        PACIFIC COMMAND STRATEGY

    Admiral Prueher. Our region, as you pointed out, is very 
large. It is an economic center of gravity, probably the 
economic center of gravity for our country and the world. The 
forecast is in 2020, that 80 percent of the world's largest 
economies will be in the Asia-Pacific Region.
    It is a region we are pleased to report, unlike some other 
CINCs, which is largely at peace. It is not conflict free, but 
it is at peace. This is due in a large measure to the U.S. 
presence and engagement that has ensued since the Second World 
War, and certainly since the Korean War in conjunction with our 
allies and our friends there.
    Almost all of the Asia-Pacific leaders, the political, the 
diplomatic and the military leaders, not only concede, but 
advertise the fact that the U.S. presence there brings the 
security to the Asia-Pacific Region. This security brokers the 
stable conditions which yield the economic prosperity, which is 
good not only for the Asia-Pacific Region, but for the entire 
global community, and certainly for the U.S. as well, and 
creates a lot of jobs in the United States.
    I mentioned a little bit earlier, the security issues, the 
diplomatic issues, and the economic issues in the Asia-Pacific 
Region are so intertwined and depend so much on each other that 
none of them can be advanced separately. We don't work any one 
of those without impacting the other. This gives our framework 
for promoting peace and stability in the area and protecting 
the U.S. interest.
    It yields what is the Pacific Command Strategy, which is 
what we call sort of benignly Cooperative Engagement. But 
Cooperative Engagement has 3 parts to it: One is peacetime 
engagement. Dr. Perry wrote a piece in the Foreign Affairs 
Journal called Preventive Defense. This is what peacetime 
engagement is. It is exercising, it is working with the senior 
people in the area, it is our coordination as we work in the 
peacetime to try to maintain stability, build contacts, and 
avoid conflicts that get out of hand.
    The second part is crisis response, the ability to respond 
quickly to crisis and to resolve them before they get big. An 
example of this is the China-Taiwan crisis that occurred about 
this time last year, a couple of weeks away from this time last 
year.
    And the third part of this strategy is the ability to fight 
and win, to go into a major conflict and hopefully 
multilaterally, but perhaps unilaterally, to fight and win a 
major conflict.
    So in a circular way, our ability to do this third piece of 
fight and win in a major conflict with the forces we have, 
enables us to work in the peacetime environment, which has been 
a successful strategy, and it is one which we use.

                          COUNTRY ASSESSMENTS

    I would like to now go briefly country by country, just for 
a quick talk about our view of the security issues in the major 
countries in the AOR. I will not go through all 44 of them. The 
first is Japan.

                                 JAPAN

    As we talk a lot about China, and we talk a lot about 
Korea, General Tilelli's focus of interest, we must not forget 
that Japan is our pivotal security relationship in the Asia-
Pacific Region. We have just last April reexamined and resigned 
our security relationship with Japan which talked about four 
things: One is our 100,000 troops being our commitment to the 
Asia-Pacific Region; it talked about maintaining our current 
force levels in the Asia-Pacific Region; it talked about the 
host nation support to which Japan gives greater than $5 
billion to our troops annually, and it talked about a renewal 
of the 1978 defense guidelines.
    Japan will continue to be the cornerstone of our security 
relationships in the Asia-Pacific, not just for Japan but for 
stability in the region over all of the Korean Peninsula, which 
I will address very briefly, because General Tilelli is the 
expert on that.

                              NORTH KOREA

    The trend in North Korea, of course, is downward. The 
situation there is dire. there will be--forecasting is a risky 
business--probably some change, if my information yields 
correct, within the next 1 to 10 years, but there are a variety 
of guesses on that, and I try to open the spectrum.
    Our big issue in supporting General Tilelli is to stay the 
course to make sure that North Korea does not get in a 
situation where they would use their residual military 
capability, which is impressive, to lash out.
    This is a work in progress. There are a lot of initiatives 
going on. In fact, this week in New York, the North Koreans 
have come to the table. I think I could talk more about that, 
but, again, General Tilelli is the expert, and I know he will 
address that in detail.

                                 CHINA

    China: We read a lot about China. They expect in the year 
2015 to have 1.6 billion people. Right now they have about 1.2 
billion people. They grow at the rate of the population of the 
United States every decade.
    The regional leaders in Asia and in the Asia-Pacific 
Region, including India, are very concerned about China. They 
are concerned about their military modernization. They had a 
12.7 percent increase in their stated defense budget, but it is 
very hard to figure out exactly what they do spend on defense. 
But they are modernizing and they have the intent to modernize.
    It is my estimate that it will be about a decade and a half 
before China has a force projection capability which could make 
them a major projector of power.
    Our military to military relationships with China are 
increasing, but they are increasing from a low level. About a 
year ago at this time we didn't have any, other than force to 
force, but they are important in the view of transparency so we 
can know what each other are up to, and it is also our ability 
to influence China to bring them as a responsible actor in the 
world.
    Hong Kong: On 30 June, Hong Kong will revert, of course, to 
China. That is a harbinger of how China will be able to handle 
entry, economically and somewhat democratically, into the 
modern world.
    The Taiwan issue is better off now than it was a year ago, 
but we expect perturbations with Taiwan and China. We are 
committed to our one-China policy. A peaceful resolution, to 
which the U.S. is committed by the Taiwan Relations Act, is in 
the interest of all. It is in the interest of China and the 
interest of Taiwan, and of all thinking people, and in the 
interest of the United States. It is all our interests not to 
bring the China-Taiwan crisis to a head. That is part of our 
strategy while maintaining our principles and being firm.
    I am optimistic that China can be, and will, emerge in the 
world as a prosperous and a responsible player, but we have a 
lot of long, steady work ahead now; 50 years worth of work is 
ahead. I hope the trend line will be up, but there will be a 
lot of ups and downs on that trend line in our dealings with 
China. Our policy, our PACOM policy and national policy must be 
one of strength, to deal from a position of strength with 
resolve and firmness, but also with an eye and a respect for 
what China's interests are.

                                 INDIA

    A couple of others, India. India, we think in population 
will surpass China by the middle of the next century. Their 
economy also is growing in the 5 to 7 percent rate, like a lot 
of the other Asian nations. In the United States we usually 
talk about India and Pakistan in the same breath. It is a near-
term worry of India. The long-term issue with India is as they 
look to the East, they look to China as their main security 
problem, but they also look to the East to Southeast-Asia for 
their economic expansion. India will be a major player in the 
next century and a half.

                                 RUSSIA

    Russia: Mostly we talk about Russia, again, in the Western 
part of Russia, the European part of Russia, but they also have 
an Asia-Pacific presence to which they are looking with an 
increasing amount. Right now, owing to their economic 
conditions, Russia is neither a beneficiary nor a participant 
in either the economic or the security issues in the Asia-
Pacific.
    Our hope is we continue to deal with Russia. We think they 
will be back some time: and Russia has all the ingredients of a 
great power. They are going through a rough time, but will 
bring themselves back on line as a player and a responsible 
player in the Asia-Pacific.

                               SOUTH ASIA

    The South-Asian nations, which we tend to lump together: 
They range from Singapore, with 3 million people, with whom we 
do the same amount of trade that we do with France, up to 
Indonesia, with 200 million people, the fourth largest nation 
in the world. We lump them together, but there is a lot of 
diversity there. They have burgeoning economies, growing at a 
rate of 7 to 9 percent.
    The Southeast-Asian nations are working with a lot of 
vision and sophistication and long-range planning on their 
future, and they are doing very well.
    Indonesia, for example, they are trying to work very 
responsibly with a very tough security situation in Indonesia. 
It is hard to govern.
    Australia: We talked a little bit about that, Congressman 
Dicks is recently back from there. They are a staunch and 
friendly ally. They are easy for us to get along with, and we 
work well together.
    We nurture this relationship. Right now we have TANDEM 
THRUST 97, a major exercise going on with Australia with our 
Navy, Air Force, Marines and some Army units. We have 22,000 
people involved in this exercise from the U.S., which exceeds 
one-third of the total Australian defense forces.
    The essence of all of this is that engagement and our 
presence in the area are working for stability and working in 
the interests of the United States. They are the right 
solutions to cope with this uncertain world, I think, and our 
combat capable forces, plus our national will, enable our 
policy there to work.

                  BALANCING RESOURCES FOR OUR STRATEGY

    Sun-Tzu, about 2,500 years ago, said, the great General is 
the one who achieves objectives without fighting. I think that 
that is true for our Nation as well. But it requires capable 
forces in the right place to do that.
    For our resources in support of these national goals, one, 
we thank this Committee very much for the resources that you 
have helped provide to us. We are trying to use them 
responsibly. They are ready, capable, and well-positioned 
forces. 100,000 is a number, but it is a metric, and what it 
really represents is the capability of the SEVENTH Fleet, of 
the 5th and 7th Air Force, of the 2nd Infantry Division, and of 
the 3rd Marine Expeditionary Force. What it really represents 
is the capabilities. The 100,000 is just the metric for that. 
But it is the regional metric to which the nations look, and 
that is the expression of our commitment to the Asia-Pacific.
    IMET, the International Military Exchange and Training: Our 
total PACOM budget is about $6 million, just a decimal point or 
two over $6 million. It is the best money we spend almost. It 
is highly leveraged. It provides education for the leaders of 
other nations.
    Right now there are four major leaders in Asia who had IMET 
training in years ranging from 1965 up through 1984. They are 
the heads and ministers of the defense of their services. This 
money is very well spent. I support not restricting this money. 
It should be unrestricted in its use. It is a high payoff.
    The Asia-Pacific Center, I hope that you all get a chance 
to visit it when you come to Honolulu. It is a center that has 
started in the last 2 or 3 years. It promotes classes, about 
12-week classes, as well as conferences for military leaders, 
political leaders and economic leaders and academics from the 
area.
    There is a tremendous interplay for working in Asia, and 
they work together. One of the comments from one of the Indian 
participants in the first class said: ``Only the U.S. could do 
this. The time is right. It is critically important.''
    I think this is, again, money that is well-spent and highly 
leveraged.
    Stewardship of the assets that the CINCs are given. As I 
mentioned before, we very much appreciate both the dollar 
resources and the lives of the young men and women that are 
entrusted to us. It is important for all of the CINCs to take 
the long view, not just take the short view of readiness.
    We have to take the long view, particularly when 
modernization equals total future readiness. So we must take 
the long view and not ask for more than we need. We need to 
consider prudent risk in what we do as we take on projects. 
This long view and the stewardship issue are something that I 
think the CINCs are getting increasingly responsible for, and 
we have to do that.

                                SUMMARY

    In conclusion, the CINCs, the regional CINCs and certainly 
ours, have been full participants in all the processes going 
on. Our forces, your forces, are working very hard, they are 
doing a great deal. We are working to scrub the activities, to 
make sure that we have a high payoff on the things we do--and 
we are not always perfect in that--but that we are using our 
forces effectively and efficiently. Our assets and our 
readiness are adequate, but they are stretched.
    We thank you very much for what you have provided us. It is 
adequate to the need and we are working hard to do well with 
it, to keep the U.S. as a player and a partner and a 
beneficiary in the Asia-Pacific Region.
    Thank you, sir.
    [The statement of Admiral Prueher and the ``U.S. Pacific 
Command at a Glance'' booklet follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Young. Admiral, thank you very much. We will have a lot 
of questions for you shortly.
    First, I would like to recognize General Tilelli for his 
statement, and then we will be back to both of you with our 
questions.

                  Summary Statement of General Tilelli

    General Tilelli. Thank you, Mr. Chairman.
    Mr. Chairman, distinguished Committee Members, thanks for 
the opportunity to be here.
    I consider myself lucky to be serving with the men and 
women in the Republic of Korea. It is an honor for me to 
discuss with you the current security situation within the 
Republic of Korea and the theater of operations.
    Before I do so, I want to thank you all and the Committee 
Members for your continued support of our forces in Korea, both 
past and present. It is very important to them and it is 
important to me.
    I am going to center my opening comments around three 
issues: One, the readiness of my command; two, the uncertainty 
of the threat that these men and women face every day; and last 
but not least, the quality of life afforded to all the U.S. men 
and women stationed and living in Korea, a faraway place from 
home.

                          READINESS OF FORCES

    The ROK-U.S. security alliance is strong, very strong. It 
has been in the past, is presently and must remain so in the 
future. It is the key mechanism for maintaining peninsula and 
regional peace and stability in a current environment where we 
are still in a truce environment rather than at peace.
    As the defenders of the ROK-United States Alliance, the 
Combined Forces Command, the United Nations Command, and U.S. 
Forces Korea are highly capable and well-trained. This force 
has secured peace for the last 43 years. The peace and 
stability have not only survived on the Korean Peninsula, but 
the fact is it will help secure peace in the region, an area 
described by Admiral Prueher as vital to the interests of the 
United States of America.
    These 43 years of peace did not happen by mistake or 
accident, but by design. At the center of that design is a 
constantly maintained strength and vigilance which equal 
readiness that has protected and will continue to protect the 
combined national interests of the United States of America and 
the Republic of Korea.
    Our combined forces readiness and capability are critical 
not for generic reasons, but because there is still a very 
powerful threat posed by an unstable North Korea to the 
Republic of Korea is specifically, and to stability within the 
Northeast-Asia Region.
    Events such as the North Korean submarine incursion, the 
defection of 9 North Korean senior ideologue and the tensions 
that accompanied these events demonstrate how precarious 
stability really is. It also highlights the uncertainty we 
face. Compounding these tensions is the reality that North 
Korea can initiate an attack from a standing start. Yet the 
most compelling element of the threat is its uncertainty, and 
it is this uncertainty, in my mind's-eye, that increases 
danger.
    So no matter what the scenario, our readiness must focus on 
security of this peninsula and the regional interests that 
Admiral Prueher has enunciated.

                      QUALITY OF LIFE OF PERSONNEL

    Finally, the quality of life of our soldiers, sailors, 
airmen and Marines within the United States Forces Korea and 
their families is important to me and it is important to my 
component commanders. Quality of life and morale are readiness 
multipliers. Although when we talk about readiness, we 
generally don't consider that very much.
    The men and women on the ground do influence the situation. 
They are a visible deterrent, and shape the environment for the 
future. Fighting men and women win wars, not equipment or 
machines.
    Our troops are forward-deployed and carrying out the 
command's mission every day--deterrence, and clearly if 
deterrence fails, to fight and win. And that is the charter I 
am given and that is the charter I think about every day.
    Serving away from home, the personnel tempo of these men 
and women is high. They serve selflessly away from home 365 
days with high morale and pride, and just as you and I would 
want them to do. In this tense and austere environment, our 
service members deserve an adequate quality of life.
    However, we are in a catch-up position in the area of 
quality of life as it applies to the condition of our barracks, 
dormitories, and family housing. Therefore, the MILCON 
appropriations for fiscal year 1995 through 1997, are greatly 
appreciated. Yet much remains to be done before the problem is 
fixed.

                                SUMMARY

    These issues, Mr. Chairman, are important to me as 
commander. Again, we in Korea must work hard every day at being 
ready in the face of very dangerous uncertainty in North Korea. 
If we are not prepared properly the price is obvious.
    Lastly, we are hopeful that the joint briefings in New York 
will lead to a substantive discussion in the Four-party talks. 
I have provided a more detailed statement for the record.
    I thank you very much. I am prepared to answer your 
questions.
    [The statement of General Tilelli follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                      QUALITY OF LIFE OF PERSONNEL

    Mr. Young. General, thank you very much.
    I wanted to ask you about quality of life with your forces. 
That is a big issue for the Members of this Committee, and I 
got the feeling from the way you presented the quality-of-life 
issue that maybe there are some things lacking, recognizing 
that you are in an austere condition.
    What is lacking in quality-of-life issues for your forces 
in Korea?
    General Tilelli. Mr. Chairman, as you know, there was a 5-
year MILCON hiatis in Korea. That was restarted in fiscal year 
1995, where we gratefully received MILCON appropriations. So we 
are in a catch-up mode. And in the real sense, if I had to 
describe to you from the perspective of the soldiers, sailors, 
airmen and Marines, what is the greatest quality-of-life issue 
within, it is the barracks and dormitories and housing.
    So consequently, that is where we are in the catch-up mode.
    At the same time, I would be remiss if I didn't say, and we 
give very little thought to it, the infrastructure on most of 
our installations in Korea is old and in need of repair, when 
we think about electrical, water, sewage, et cetera. But the 
primary issue with the men and women who serve there are the 
barracks and dormitories from the quality-of-life standpoint.
    Admiral Prueher. Mr. Chairman, if I might add, those in 
Korea have the least good barracks and dormitories in the whole 
AOR.
    Mr. Young. You mentioned military construction. Of course, 
we don't have that jurisdiction. But is it new construction 
that you are requiring, or do you need some real property 
maintenance as well as the new construction?
    General Tilelli. Mr. Chairman, as we think about this 
quality-of-life issue as it applies to a backlog of maintenance 
repair, new construction and repair of infrastructure, it 
really is a patchwork quilt, where all of those issues must be, 
if you will, focused upon in order to provide the quality of 
life that I think we think is adequate for our men and women 
who serve there.
    From my perspective, it is not only the MILCON that is a 
piece of it. It is the piece that gets us out of some Korean 
War vintage living conditions. But it is also the RPMA where 
you can do some of our own work to upgrade, and also the 
infrastructure dollars that do the below groundwork that no one 
likes to focus much on.
    Mr. Young. Well, believe me, we are concerned about the 
issue of the lifestyle that your forces have. We will spend 
considerable time on dealing with that as we prepare our 
legislation.
    General Tilelli. Thank you, Mr. Chairman.

                           COUNTRY RELATIONS

    Mr. Young. You mentioned our relationship with the various 
other countries in the region. You didn't mention New Zealand. 
Where do we stand with New Zealand today?
    Admiral Prueher. We stand in a very friendly way. The 
Defense Minister from New Zealand was visiting us in Honolulu 
just a little bit ago. He is the Defense Minister and Attorney 
General there. The New Zealand Armed Forces total 8,000 people.
    As you remember, the Lange government in 1986 terminated 
our ships coming into New Zealand, and that position has not 
changed. As a result of that, we do not do exercises with New 
Zealand, but we do have interplay with them. They are good 
global citizens. New Zealand has a ship in the Arabian Gulf 
doing Middle East force work. They participate in UN things.
    We participate with them in the ASEAN Regional Forum, but 
we do not have military exercises with them, only dialogue.
    This issue is complicated slightly, it is difficult for me 
anyway to talk about New Zealand without including Australia. 
Australia would like to see us do a little more with New 
Zealand because New Zealand is spending only 1.2 percent of 
their budget on defense. So they are not doing a lot.
    Australia is concerned that New Zealand will cease to be 
able to be a player, so they encourage us to do more with New 
Zealand as well.
    Right now, it is at a flat spot. We don't do anything. We 
would like to. We will continue to work with them where we can, 
but right now we do not exercise with New Zealand.

                      CHINESE FORCE MODERNIZATION

    Mr. Young. As we talk about defense budgets, it was 
revealed in the news this morning that China has announced that 
it will increase its defense budget by 12 to 15 percent. Is 
that significant to you? Do you have any concern about that? Do 
you have any indication as to whether that might be an increase 
in the size of their force or modernization of their force?
    Admiral Prueher. Yes, sir, we do. The modernization of 12 
to 15 percent, one, it is very difficult, that is their 
announced budget, which gets their total defense budget into 
the low billions, 9.7 according to China's official budget. 
There is a lot more that goes into the defense owing to the way 
the PLA is organized.
    But that increase is in support of a stated objective of 
China to modernize, and that does concern me. As I mentioned, I 
think if they did everything right, it would be about 15 years 
before they could modernize where they had a good force 
projection capability.
    I worry about over answering your questions here, but I 
think most of us look at defense and measure other people's 
defense justifies by looking at things, ships, airplane, tanks, 
number of people. But the training of people, the conscription 
and the training system and the tactics that people use, are 
also very important in looking at the effectiveness of a 
military.
    China can buy from Russia SU-27's and they are buying 250 
or so of those, and they will do that with that defense budget. 
But to grow someone that is the equivalent of one of our Non-
Commissioned Officers or Chief Petty Officers with 15 or 20 
years, that takes 15 to 20 years to get the people that can 
work that advanced equipment. So that is something, they are 
going to have to change their conscription system, their 
retention system and their training system, all of which will 
take time before they can really be a modern, effective power.
    So I am concerned about it, but I don't lose sleep over the 
fact they have increased their defense budget 12-7 percent.
    Mr. Young. Since we have a pretty good attendance today, we 
are going to have to go by the 5-minute rule. I am going to 
keep my other questions for both of you until I get a second 
chance.
    Mr. Murtha?
    Admiral Prueher. I will give shorter answers.
    Mr. Young. That is okay, we like your answers to be as 
thorough as possible.

                       ASSISTANCE TO NORTH KOREA

    Mr. Murtha. On the food negotiation going on right now in 
New York, does this help their military? If we give them food, 
is that food diverted to their military?
    For instance, are these negotiations talking to you folks 
at all about the impact of what would happen if we were to give 
them humanitarian assistance?
    General Tilelli. Mr. Murtha, let me answer that question in 
two ways. One, the briefing in New York, today is the joint 
briefing to the North Koreans, that will discuss the Four-party 
talks. In my view, I think that this is a very positive move 
and unprecedented and may lead to future Four-party talks, and 
secondarily, potentially lasting peace on the peninsula.
    To get to the nub of your question on, one, do we discuss 
with those who are involved in the humanitarian assistance to 
the North the implications as they apply to the military; and 
secondarily, do we in fact see that food being diverted? I 
think the answer to your first question is yes, we are 
consulted and we do discuss with those involved the 
implications of humanitarian support.
    Secondarily, I think our safeguards are adequate, and when 
I say adequate, that does not mean leakproof, there are 
adequate checks and balances to ensure that the humanitarian 
support which is provided by a host of countries, not only in 
the region but external to the region, that it is going to the 
right people, and that meaning the population.
    Mr. Murtha. The reason I asked the question is I understand 
even their troops are having trouble getting food now. I am 
just wondering if it is not counterproductive if we start going 
in there, so we give food to the civilians, that just means 
they divert food to the military. I don't know whether that is 
counterproductive or not. You seem to feel this is the right 
direction, that it is actually better even it they don't get 
the food.
    General Tilelli. Mr. Murtha, I would say two things. One is 
the military in North Korea still retains a higher priority of 
distribution of constrained resources as they have in the past. 
So, therefore, while the rest of the population may be 
suffering, they are suffering least as far as malnutrition.
    Secondary, I think food engenders, when we think about the 
population, a certain amount of stability, and stability and 
trying to remove the clouds of uncertainty I think are 
important as we think about a country that is in every metric 
that we can think about, in downward slide, maybe a death 
spiral.

                 CHINA'S POWER PROJECTION CAPABILITIES

    Mr. Murtha. Going back to Formosa and a year ago the 
activity there, could they have invaded Taiwan?
    Admiral Prueher. No, sir. The People's Republic of China, 
PRC does not have the amphibious lift capability to do an 
invasion of Taiwan.
    Mr. Murtha. When you said a decade to decade-and-a-half, 
you are talking about before they would have that capability?
    Admiral Prueher. Yes, sir. They would have to make right 
decisions along the way to get there. If they focused all their 
effort just on that, they could probably do that faster, but it 
is unlikely they will focus on their effort there.

                      U.S. PARTNERSHIP WITH JAPAN

    Mr. Murtha. Okinawa, I keep reading things that worry me. 
When I was Cochairman of the Election Delegation to the 
Philippines, all the top officials except the Speaker of the 
House of the Philippines told me we were going to be there 
forever. But there seemed like an awful lot of things going on 
in Okinawa which are similar to what happened in the 
Philippines. Is there any chance we will lose access to 
Okinawa?
    Admiral Prueher. Well, sir, phrased that way, any chance, I 
am sure there is. With the Hashimoto government and with the 
people of Okinawa, the businessmen that I talk to coming back 
say that there is about 80 to 90 percent support amongst people 
of Okinawa for U.S. presence there, our total military 
presence, Air Force and Marine.
    Mr. Murtha. This is in the business community?
    Admiral Prueher. No, this is a gross sampling of the 
people, and probably not very accurate, but roughly right.
    But Governor Ota and the perfectures down there are 
committed to all of the U.S. forces being gone. I believe we 
will be working this for a long time. I think it is Japan, the 
Government of Japan sees it very much in their interest that we 
be there, and the trends are in the right direction, but we are 
going to have a lot of publicity and a lot of discussion over 
the downsizing of Okinawa.

                          QUALITY OF RECRUITS

    Mr. Murtha. I have been to a number of recruit depots 
talking to recruits drills sergeants, and instructors, 
depending whether it was a Marine or Army base, telling me the 
people coming in, the quality is slowing down. I haven't seen 
this in the field. Have either of you seen a decrease in the 
quality of people coming from the recruit depots to the field?
    Admiral Prueher. I will say from the commanders reporting 
to me, their basic answer to that is there is not a degradation 
in the quality of the people coming in. I know statistically 
the number of high school graduates is a couple of percentage 
points lower.
    I think what we do see, and I know John will want to 
address this as well, but what we do see is the recruits coming 
in. We need to spend time at the access points for our recruits 
on training in different types of things than we have 
traditionally done, because they come in with certainly a 
different mind-set than what we grew up with. So we are 
spending more time, and, as a result, it tags a bigger chunk of 
time in the training to work that.
    These issues are manifest in a lot of things we deal with. 
But I think the services are coming to grips with that amount 
of training, for our recruits. We are still getting a good 
quality of recruits.
    John, do you want to add?
    General Tilelli. Sir, let me address the baseline question 
in the field. We are seeing no degradation in the quality of 
the men and women who come to us from the training bases. They 
are highly motivated, they are well-trained, they selflessly 
serve, and they act just the way you and I would want them to 
do. We are very pleased with the product in all of the United 
States Forces, of the men and women who come to us to serve on 
the peninsula.
    Mr. Young. Mr. Hobson.

                         REMARKS OF MR. HOBSON

    Mr. Hobson. Thank you, Mr. Chairman.
    I have 5 minutes, I am going to ask a bunch of questions 
and you answer them however you want.
    You know, one of the things I just learned in another 
Committee I just attended is there are 90,000 people that are 
going to be recruited by the Army this year. That is a lot of 
people, when we are doing about 65,000, I think, a year ago or 
so. I don't know if that number is right, but that is what I 
was told.
    There are five projects in Korea. Korea is apparently a 
place you don't want to go to live with a family, and I think 
one of the problems of all this is retention. There are five 
projects for $76 million. I would like some explanation of 
that.
    I would also like to talk about F-16's, sales of F-16's to 
Indonesia. I assume that is in your area. I would like some 
comment about that. I have had some people come up to me that 
are concerned about that. I am concerned about China, like 
everybody else is. I see the number of aircraft and things they 
are doing. I am sorry I didn't hear all of your presentation on 
that.
    But how many troops are permanently stationed in Hong Kong, 
or do they move in and out? Did we make a deal? What is going 
to happen from your perspective in Hong Kong?
    It used to be a nice place to visit. I don't know what is 
going to happen in the future. So those are the things I 
particularly would be concerned about right now.
    I am particularly concerned about Korea, because I sit on 
another Committee that has that. The overall thing of so many 
new troops, when you have new troops, you are putting them in 
with people maybe who aren't as experienced, and you have to go 
to war, or you get in an intense situation and you have a lot 
of new people, that is tough. I suspect that is tough.
    General Tilelli. Sir, let me address that, and I will 
briefly address it, because truly it is not within my purview, 
but I understand it, I think. On the recruitment of 90,000, I 
think what you are seeing is that the drawdown essentially has 
reached the point where we are now at a stable force of 495,000 
in the Army. That drawdown--and I think it is not only this 
year, but if you project it out in the future, will require as 
a function of soldiers who are terminating their service, it 
will require somewhere in the vicinity of 85,000 to 90,000 each 
year. So I think that number, although it seems high, is a 
function of stabilization rather than increased turnover.
    Secondary, as you know, sir, the force in Korea is a 
turbulent force, turbulent in that the preponderance of the 
forces are not command-sponsored. So about 90-plus percent each 
year rotate back to the United States of America to camps 
around the world.
    That dictates to me that we must have a very vibrant 
training program, which we do, that, one, integrates those men 
and women into their units, and then trains them in their 
readiness for their armistice and wartime mission. I think we 
do that very well. So consequently I do not get the feeling 
that this turbulence causes me unreadiness to perform my 
mission of deterrence in fighting and winning if all else 
fails.
    Lastly, I would say to you, and I did mention it when asked 
the question on quality. The quality of the men and women that 
are coming in, these are dedicated young men and women who 
serve very well and are very satisfied with not only the 
mission, but also job satisfaction when they are integrated.
    Admiral Prueher. A brief one on the numbers of new people 
is that all of the services are completing their drawdown, so 
we have harvested----
    Mr. Hobson. I think I get the Navy tomorrow. I have the 
Army today.
    Admiral Prueher. We have harvested the capital that existed 
in that drawdown, and as it flattens out, I think we are going 
to have to increase our numbers, all the services will have to 
increase their numbers to stay steady.
    One other point on new people is that traditionally the 
services and units have about a one-third turnover every year, 
so there is a constant flow of people. We are reasonably 
accustomed to dealing with it.

                        F-16 SALES TO INDONESIA

    F-16's to Indonesia is a complex topic. From a security 
point of view, the Indonesia military is, I think, working in a 
very responsible way. They need some aircraft. I was just in 
Indonesia a couple of weeks ago, maybe 3 weeks ago now. No one 
from the Vice President on down talked to me about the F-16's. 
They are not pressing hard for it.
    I think from a security point of view, I would support the 
F-16's going to Indonesia. They are a force for stability in 
the Asia-Pacific Region, and again a very large and influential 
force in Southeast-Asia. All the other leaders ask ``What does 
Feisal Tanjung think,'' he is the head of their defense forces. 
And also I might add, an IMET beneficiary in 1981. He is a 
force for stability in the area.
    So from a security point of view, I would support it. There 
are some other issues which are not in my kit that impinge on 
that decision.
    Mr. Hobson. Thank you.

                          HONG KONG REVERSION

    Admiral Prueher. Hong Kong. We don't have troops in Hong 
Kong, and we haven't had. We have a couple of handfuls of 
people that are attached to the consulate there that deal with 
ship visits and deal with coordination of supplies and things 
like that, but we don't have a troop placement that are not 
attached to the embassy there. The British have a garrison 
there that will move out.
    So that part is not a big issue, though it is a subset, if 
do we maintain a consulate in Hong Kong after reversion, and 
then do we have a couple of handfuls of military people 
attached to it? It is in that context.
    The Hong Kong reversion is one in which I think the Chinese 
are eager to do it well. Their stated objective to us is have 
it the same as before, only a change in sovereignty.
    Well, the type, as I mentioned before, of security and 
diplomatic and economic issues is so intertwined, I am not 
confident that the Chinese know how to absorb that great 
laissez-faire community and let it go on as before.
    So I am hopeful that it will work, but I think we are going 
to see some turbulence.
    Our consul, Richard Boucher, was just through Honolulu and 
we were in Hong Kong a little bit ago. It still is a pretty 
good place to visit, and I recommend it. But the businessmen 
there----
    Mr. Hobson. Been there, done that.

                      CHINA AND THE PACIFIC REGION

    Admiral Prueher. The businessmen are optimistic that things 
will work well, but they are also prepared to batten down the 
hatches for a while for some turbulence as they go through a 
stage working with china.
    I don't know the real answer. I think it is going to be 
turbulent, but again I stay optimistic, as do the people in 
Hong Kong.
    China, a huge topic that we talked at some length about 
before. But basically China is a major backdrop against which 
all the security and some of the economic decisions in the 
Asia-Pacific Region are made. China, a large country, is 
growing economically, but it is not homogeneous throughout, but 
they are growing at 7 to 9 percent a year.
    They are modernizing their military, but they have a long 
way to go to get to a modern military. Their missiles fit into 
a little bit of a different category because with their missile 
modernization, they can put other places at risk, like Taiwan. 
So that is a separate concern.
    But overall, we need to deal with China, not be too ardent 
about China. But I don't see, my opinion is that we will never 
be just close friends where the United States and China just 
completely embrace each other. There will be individuals that 
will do so, of course. But I think we can work with China out 
of a position of mutual respect and strength for the long haul.
    Again, I mentioned earlier, long haul is real long haul by 
our standards. We aren't going to sign a contract and have it 
done. It is going to be working in perpetuity.

                     MILITARY CONSTRUCTION IN KOREA

    General Tilelli. Let me address very briefly the projects 
in Korea that you alluded to. One, the components of projects 
provide what I call an adequate quality of life, places where 
soldiers, primarily soldiers, live and work. Those projects are 
deemed necessary and are a function of the quality of life 
that, in my view, is a function of a long hiatus of MILCON and 
RPMA, and working on the infrastructure is necessary to bring a 
leavening effect, if you will, for our men and women to serve.
    Mr. Young. I want to compliment the gentleman on a very 
effective way to use his 5 minutes.
    Mr. Hobson. Thank you, Mr. Chairman.
    Mr. Young. Mr. Dicks.

                            QUALITY OF LIFE

    Mr. Dicks. I want to welcome the Admiral and General and 
appreciate their statements. I am sorry I had to leave in the 
middle, but we have complicated schedules here.
    I would just point out again that we visited Korea with 
Congressman Murtha several times, and the need for that MILCON 
is essential. There were many years in which nothing was done, 
and especially for the most forward-deployed areas. The housing 
was simply unacceptable for U.S. standards.
    I am glad we finally got his money in the budget. We needed 
to do that.
    Now, can you tell us a little bit more, General? Are we 
making any progress on those problems?
    General Tilelli. Sir, let me address two things. One, I 
think we are making progress in improving the quality of life, 
and that is seen not only as a function of the construction 
dollars that are provided by the Congress, but also what I 
would call the burden-sharing dollars on the Korean projects 
that assist us in upgrading dormitories and barracks.
    The second part of that is we are in a continual upgrade 
program where we are upgrading places where we have some of our 
key systems employed, where primarily soldiers, because that is 
the largest quantity of personnel we have there, and Air Force, 
work. For example, a Patriot facility. We deployed a Patriot 
battalion there several years ago, and we have upgraded the 
facilities so they were in more or less temporary facilities. 
Part of the money we are talking about is going to do to that.
    We applied Apache helicopters, our highest level of 
helicopters to Korea. They have gone into temporary facilities. 
We are trying to upgrade the facilities so they not only have a 
quality of life where their aviators are living, but also have 
good places to maintain the helicopter.
    But we are making progress, and the progress, in my view, 
can be attributed to the great support that the Congress of the 
United States and the American people have given to the U.S. 
forces in Korea. My plea to you is that we continue that.

                   NORTH KOREAN MILITARY CAPABILITIES

    Mr. Dicks. Thank you. One of the things I have been worried 
about, when I was there we met, General Estes and his air 
component commander, and we talked about the potential for the 
North Koreans, if they were to attack us, to use chemical and 
biological weapons against our airfields and, in essence, be 
able to lock out the United States, or anyone, from bringing in 
TACAIR and bringing in airlifts in order to reinforce South 
Korea.
    How big a threat is that? How big a problem is that? Is 
that something you worry about and can we even talk about it at 
this level of classification?
    General Tilelli. Sir, I will talk about it. First, let me 
say that when we think of chemical and biological weapons, I 
think we all lose sleep over thinking about it and talk about 
it a lot. Secondarily, key to our execution of the operation 
plan is the maintenance of the airfields and ports.
    We, along with--remember that we are along USA links, we 
and the ROK are spending a serious amount of time and effort in 
determining: one, how do we keep those places open?
    Secondarily, what is the truth? And I think we have to take 
the concept of reality; what is the true effect of a weapon 
that is not very accurate with chemicals on pieces of those 
ports and airfields?
    Thirdly, and I think most importantly, we are upgrading our 
ability to decontaminate areas and equipment in the next 
several years, one, through the infusion of equipment, and 
secondly, through activation of the chemical battalion in the 
Republic of Korea.
    Mr. Dicks. Are they getting any more accurate with their 
SCUDS? Are there going to be advanced generations of SCUDS or 
Cruise Missiles that will be more accurate and more dangerous?
    General Tielli. Sir, I will answer that I think the 
accuracy of the SCUD is problematic. I think it is an area 
rather than a point weapon system. I think it will continue to 
remain that way.
    The concern, of course is when you volley SCUDS, they cover 
a large area.
    The second area is the Missile Development Program. We are 
concerned about their Missile Development Program. We are also 
concerned about whether or not that Missile Development Program 
will accelerate their capability to send chemical weapons our 
way.
    I will just say finally, as it applies to the use of 
chemical weapons, I would never discount that the North Koreans 
who would attack us would use the systems that they have. 
Consequently, it is one of those things that, as you said, I 
have to be aware; and two, I have to take those measures to 
protect our forces.

                        THEATER MISSILE DEFENSE

    Mr. Dicks. I would assume that Theater Missile Defense, the 
ability of the United States to have a high-quality Theater 
Missile Defense, has to be one of your highest priorities for 
protecting your forces in South Korea.
    General Tielli. That is absolutely correct. Theater Missile 
Defense is my number one priority, and I think it is a function 
of Lower Tier and Upper Tier, multilayer, where you can general 
protect the force. Your will never have a leakproof system, but 
when you have a two-tiered system, you better protect the 
force.
    Therefore, in my integrated priority list that I send to my 
friend Joe Prueher, Theater Missile Defense is one of those 
very high items on my integrated priority list. And, 
secondarily, without getting into force flows, in my force 
flow, the Theater Missile Defense assets are early in the flow.
    Mr. Dicks. Shouldn't they be prepositioned?
    General Tielli. I think with the battalion we have now and 
the batteries that we have now, that, coupled with the flow, I 
think we are all right.
    Mr. Young. Mr. Nethercutt?

                       MORALE AND QUALITY OF LIFE

    Mr. Nethercutt. Thank you, Mr. Chairman, Admiral and 
General, welcome to the Committee. Thank you for your 
testimony.
    General, I just want to follow up on your comment about our 
forces in Korea now. Did I hear you correctly to say that their 
tour is 365 days?
    General Tielli. Sir, let me elaborate on that, if you will.
    I think there are three issues. The preponderance of the 
force is on a one-year tour, a short tour, so that is a 365-day 
tour. Many times when we discuss quality of life and we talk 
about personnel turnover, we put it in the context of how many 
days you are away from your bed.
    In my context, I say the soldiers, sailors, airmen and 
Marines stationed in Korea are away from home for 365 days. 
Therefore, their personnel tempo is very, very high. 
Consequently, it is a short tour, whereby they are gainfully 
employed, focused on the war fight every day.
    Mr. Nethercutt. Is their morale good? Do people not want to 
go there, and if they get there, can they tough it out for the 
year? Is their moral, good, or bad, and do you see improvements 
needed?
    With regard to the housing construction needs we talk 
about, will it improve the moral? What else can we do as a 
Committee? That is a compound question.
    General Tilelli. Sir, it is not. It is an excellent 
question. One, their morale is good; two, they are satisfied 
for their job; three, when you look at these men and women 
while there and then talk to them after they leave, they are 
happy to have been there.
    The real issue is the responsible of leadership to provide 
an adequate quality of life. I feel more bad about it than most 
of the men and women who were serving there, because they do 
endure and they do well.
    So, that is the best answer I can give you.
    Mr. Nethercutt. But we will help, I take it, if we can get 
the better facilities and so on?
    General Tilelli. The thing about these men and women who 
serve there, when they see progress, improvement in their 
quality of life, it is a beacon for them.
    Mr. Nethercutt. They hope.
    General Tilelli. That will help and I think will help 
immensely.

                         MOBILE OFFSHORE BASES

    Mr. Nethercutt. Thank you. Admiral, I have heard some talk 
about the concept of a mobile offshore base, MOB, in terms of 
future planning, in your command area. What do you see as the 
likelihood of that developing over time? Is it a good thing? Is 
it something that is receiving adequate study? What can you 
tell the subcommittee about it?
    Admiral Prueher. The discussion of a mobile offshore base 
is associated with the troop movements in Okinawa, and the 
parlance has changed from a mobile offshore base to a sea-based 
facility, and it is not an MOB, it is an Sea Bound Faction, FBS 
now is under discussion.
    It would be something that would be funded by the Japanese 
to do, and they will not fund a mobile offshore base. And so 
what we are talking about in the formative stages is either 
something that is tethered to the shore or landfill that would 
be another base off of Okinawa. That is under development in 
the Futenima TANDEM Implementation Group. So we will not have a 
mobile offshore base in the theater and we are not seeking one.
    Mr. Nethercutt. Okay. Do you anticipate any costs to 
America in connection with the development or discussion?
    Admiral Prueher. In our arrangements with Japan, the 
planning costs accrue to the United States and the development 
costs and construction costs accrue to Japan. There is 
obviously a little merge in the middle and this group that is 
just forming up now is discussing this. In fact, Mr. Tanaka 
from Japan was just in talking to Dr. Kurt Campbell from OSD 
earlier this week and that is one of the discussion topics.
    Mr. Nethercutt. I understand. Well, thank you very much.
    Thanks, Mr. Chairman.
    Mr. Young. Thank you, Mr. Nethercutt.
    Mr. Cunningham.

                           TRAINING EXERCISES

    Mr. Cunningham. Thank you, Mr. Chairman. I always said why 
let rank lead when ability can do it better, but that is not 
the reason I got to move up here because I sat way down there 
with my colleagues.
    General, George Norwood was a Navy exchange pilot. I 
understand he is still in Korea with the Air Force general, I 
think, down there on the F-16. If you would, tell him hi for 
me. He blew--the very first landing on the carrier he blew both 
tires twice, but he is a good guy and a good friend.
    Second, I know that the political ramifications, when I 
worked for Seventh Fleet staff for Vice Admiral Brown, the CTS 
77, we were conducting a TEAM SPIRIT exercise and we used a 
combination of Reserves for support. I know politics has played 
in that. About 80 percent of my time was spent in country, even 
though I worked ULCHI FOCUS LENS and TANGENT FLASH and Yama 
Sakura and the other exercises. But we are still doing TEAM 
SPIRIT?
    And I know the problems of getting the bottoms there from 
the amphibs in those exercises. Using the Reserves was very, 
very important. And when you are looking at the threat, I can't 
think of a better place for Theater High Altitude Air Defense, 
THAAD, and upper tier than both Korea and Taiwan because of the 
restriction of our troops. And I am glad to see both of you 
support that. But are we still working TEAM SPIRIT?
    General Tilello. Sir, TEAM SPIRIT has been canceled for the 
last several years. However, I will say this, without going 
into a large amount of detail, that many of the training 
objectives and many of the forces that have been associated 
with TEAM SPIRIT have been applied to the three major exercises 
that we do year in and year out, and that is ULCHI Focus Lens 
which you mentioned, which is a very large exercise, our FOAL 
EAGLE exercise, which took many of the elements of TEAM SPIRIT 
to include deployment of forces; and thirdly, the Reception and 
Staging Onward Movement and Integration of Forces, which is 
also a deployment exercise. So the training objectives 
associated with TEAM SPIRIT are being accomplished, in my 
belief, to the level of training that I need.
    As you know, and you so adequately put it, as we think 
about the war fight on the peninsula, I am absolutely lashed, 
if you will, to the power projection strategy and the flow of 
forces, Navy, Marine and Army forces, and Air Force as we look 
at the culmination of flight.
    So all of those objectives are exercised in the three major 
exercises I have.
    Mr. Cunningham. Would you want to reestablish TEAM SPIRIT? 
Would that be a better way of response?
    General Tilelli. At this point, very candidly, I do not see 
the necessity at this point to reestablish TEAM SPIRIT in 
fiscal year 1997. But let me say, along with that, is I make an 
annual assessment, based on a multitude of variables and 
determine as to whether or not we should conduct a TEAM SPIRIT 
exercise or not. So I need that option. I want that option left 
open, where I can make an assessment based on those variables I 
see on the peninsula and external to the peninsula to say we 
need a TEAM SPIRIT this year.

                  RESERVIST CONTRIBUTION TO EXERCISES

    Mr. Cunningham. Joe?
    Admiral Prueher. I take a little bit of the Reserve part of 
that. The Reserves continue to be extremely active in the--from 
all the Services and especially--well, not especially, but 
equally in the Navy with the Seventh Fleet. In fact, that has 
been copied in the Sixth Fleet because it was such a good idea, 
and the exercise going on right now, the augmentation with 
Reserves to those staffs is immense and extremely productive 
and it is ingrained in what we do.
    Mr. Cunningham. Well, I would agree, because I know the 
importance, even when the fleet was there, of the deconfliction 
with ROK-AF, Republic of Korea Air Force the real world threat, 
plus the exercise threat that they went through. As on aside, 
my father-in-law was supply corps officer in Korea and he 
almost froze to death, General, and we spent a lot of time 
there.
    I empathize with the troops and I think the living 
conditions which your enlisted troops must endure are the 
worst. I mean, they live and work in little boxes--if members 
haven't been there, I recommend you go. These troops are in a 
cubicle sometimes no bigger than from here to there, to that 
wall. I mean, it is pretty remote living, and I would support 
that.
    General Tilelli. If I can make one comment on the Reserves?
    Mr. Cunningham. Sure.
    General Tilelli. I want to echo what Admiral Prueher said. 
When I think about the war fighting, I don't think about it 
from Active over Reserve because to me it is an integrated 
process. As I look at the flow of forces, I am looking at the 
flow of forces and not looking at the context of whether or not 
they are Active or Reserve, and they all are key critical. As 
we think about this power projection strategy of ours, they are 
key critical in the progression session of our operations plan.

                       INTELLIGENCE REQUIREMENTS

    Mr. Cunningham. Last question. Are you getting enough 
intelligence? I know with the SR-71 gone and the ------, are 
you using Predator or any other supplement or mostly just 
satellite reconnaissance?
    General Tilelli. Sir, and I will ask Admiral Prueher to 
help me on this, in a real sense, though, we do not have any 
Unmanned Aerial Vehicles, UAVs, on the peninsula. However, as 
we look at the requirement for UAVs to the war fight, they are 
a requirement.
    I am getting the intelligence indicators and warning and 
day-to-day intelligence I need from a combination of systems. 
Some are national and some are local. The U-2 is on the 
peninsula. I have got the Airborne Reconnaissance Vehicle low. 
I have Signals Intelligence, SIGINT, and imagery capability, 
both local and national. Plus at a time of crisis or potential 
crisis, Admiral Prueher and the Chairman and Joint Chiefs of 
Staff focus other Intel means to help me in establishing the 
requirements of our mission.
    Admiral Prueher. For theater Intel, our most recent real-
time need is General Tilelli's and most of our assets that are 
focused there are on a time-sharing basis.
    You have had--you have talked to General Joulwan about 
Bosnia, I believe, and right now we have a lot of our Nation's 
Intel treasure focused there. And so as a result of it being 
there, it is not somewhere else. And so there are--we don't 
have UAVs in theater right now. UAVs are high on our Integrated 
Priority List for the theater and there are many places, Korea 
among them--probably foremost among them, to support General 
Tilelli--but there are many places where that would be a good 
augmentation to our overhead capability.
    Mr. Cunningham. Thank you, Mr. Chairman.
    Mr. Young. Mr. Hefner.

                         MILITARY CONSTRUCTION

    Mr. Hefner. Thank you, Mr. Chairman. I will be very brief. 
I served as Chairman of the MILCON Subcommittee for several 
years and I don't remember if it was 1995, Gary Luck, who was a 
very good friend, served at Fort Bragg, and he had an immediate 
need. He said we have got to have $40 million. That was shortly 
after he took command. Of course, we were afraid not to give it 
to Gary, as you know. But I am glad to see that we are making 
some strides as far as the quality of life in Korea.
    There is no way we are doing enough on quality of life, we 
know that, but do you feel like we are maybe doing better in 
Korea than we have been in the past year?
    General Tilelli. Sir, I will say, the answer is, yes. We 
have been, since 1995, receiving $30 million in military 
construction so that is having an improved--that is having a 
beneficial effect on the quality of life in Korea.
    At the same time, because of the hiatus that Gary talked to 
you about, and he was my boss in Desert Storm, the hiatus that 
Gary talked about on military construction we are also in a 
catch-up mode. So I keep the pressure going on trying to force 
not only the MILCON dollars, but the RPMA dollars and the 
infrastructure dollars that will allow me to tie this quilt 
together and improve the overall quality of life for our men 
and women who serve there.

                  CHINESE FORCE PROJECTION CAPABILITY

     Mr. Hefner. Someone mentioned earlier about the Chinese 
capability to support an invasion of the force. Do you see in 
your intelligence that they are--we talk about planes, but 
being able to move--are they building in that direction of 
having an invasion force or occupational force? Does that show 
any focus toward that?
    Admiral Prueher. I think it is currently in their mind's 
eye. They have not procured yet. They have expressed at lot of 
interest in landing craft. Right now, the capability that we 
assess that China has is the ability to move one division, 
which would not be an adequate invasion force. They want to do 
it.
    Amphibious operations of that nature are certainly among 
the most complex operations that anyone could do. They are a 
long way from it. I think they aspire to have some sort of 
amphibious invasion force, but they don't have it and they are 
not very close to it right now, sir.
    Mr. Hefner. We can kind of relate to that because we have 
had a shortfall on amphibious and I know we were criticized 
very soundly a few years ago when we bought some capability for 
RO-Ros that we were buying that--the early eighties, I guess it 
was.
    I just have one other question. We understand that U.S. 
forces has an urgent requirement for 62 SEP units and we 
appropriated $5 million in 1997 to initiate the production of 
this. What is the Army's progress? Could you just give me, what 
are we doing and when are we going to do it?
    General Tilelli. Sir, I cannot give you a progress 
statement on that, but I will provide it for the record. I am 
not familiar with where we are as an Army on the SEP program.
    Mr. Hefner. Okay.
    Admiral Prueher. I can't help with that either, sir.
    [Clerk's note.--Classified insert was removed.]
    Mr. Hefner. I have no further questions, and if you happen 
to see General Luck, he is one of my favorite people, give him 
my best.
    General Tilelli. I will do that, sir. Thank you.
    Mr. Hefner. Thank you, Mr. Chairman.
    Mr. Young. Mr. Skeen.

                     FOOD SHORTAGES IN NORTH KOREA

    Mr. Skeen. Thank you, Mr. Chairman. Admiral and General, I 
apologize for not being here earlier, but we have got all of 
these Appropriations Committees going at one time. We are 
trying to seal the vault.
    I was privileged to have a tour in Korea some years ago 
with some other Members under Chairman Murtha, and I was struck 
by the fact that one of the primary considerations about the 
tenacity of North Korea is their lack of food supply. Has that 
changed dramatically here in the last couple of years or is it 
still about the same or is it still a factor? How does it play 
also with their cooperation with--their cooperation and help 
out of China?
    I know that is a strange--it is nonmilitary, but it has a 
direct bearing.
    General Tilelli. Let me answer the first part of the 
question and defer the second part to Admiral Prueher.
    First, the North Korean armed forces are given higher 
priority than the rest of the population. That applies to food 
and other training resources.
    Secondarily, and I always caution myself when I think about 
the effects of malnutrition on--even an American soldier and 
try to correlate that to the pugnacity, as you put it, and the 
will of the North Korean soldier as was displayed during the 
Korean War.
    So I think to put that in context, I would say that the 
lack of food resources and the lack of resources in general has 
had a denigrating effect on their capability. But I would still 
say that it is onerous and capable of vast destruction if given 
the order.
    Mr. Skeen. That is the point, the threat level stays at a 
relatively high level because of one of the things is the lack 
of food in the nation in its entirety.
    Admiral.
    Admiral Prueher. On the tie with China, I think China is 
interested in not having North Korea fail, and accordingly, 
they are also willing and have provided some foodstuffs. So the 
Chinese are in the--in that equation, as well, with respect to 
food. I don't think--General Tilelli can perhaps address this 
more. We know of no plans that China has to militarily support 
North Korea.
    Mr. Skeen. Well, that was a very interesting part of it. Of 
course, I am involved in agriculture and chair that 
subcommittee on the appropriations panel and we are seeing more 
corn going through the Panama Canal in American bottoms going 
to China than at any time in our history and I just wondered if 
through a round about way if we weren't supplying some of the 
foodstuffs for the North Koreans.
    Admiral Prueher. Well you know----
    Mr. Skeen. Without benefit of a pact or something.
    Admiral Prueher. I think just from our research of the 
grain embargo a few years ago, things went in circuitous paths. 
So I could not say that we are not. But China's three main 
issues that they are trying to face is jobs for 1.25 billion 
people; food and rising expectations for them. So I expect it 
is actually going to China because they do not have the food 
production capability alone now to provide for China; and the 
other issue is their energy demands, which are rising 
exponentially.
    General Tilelli. Also, I believe we also have seen in a 
humanitarian way, rather than in a military-to-military way, 
foodstuffs being provided from China to the North Koreans.
    Mr. Skeen. Thank you. I appreciate that response. Thank 
you, Mr. Chairman.

             INTERNATIONAL MILITARY EDUCATION AND TRAINING

    Mr. Young. Thank you, Mr. Skeen.
    Admiral, you and I talked about International Military 
Education and Training, IMET, several times before, and IMET 
tends to get a little controversial on occasion, not in this 
Committee, but in the Congress.
    General Tilelli. Yes, sir.
    Mr. Young. Could you provide us for the record maybe 8 or 
10 or a dozen good examples of foreign military officers who 
have been through the IMET Program, positions that they might 
hold today and how that benefits the United States and benefits 
you in performing your duties?
    Admiral Prueher. Yes, sir, I will be glad to provide that 
for the record. I can also give you--I could provide a little 
bit of it now, if you would like.
    Mr. Young. Yes, surely.
    Admiral Prueher. Well, the IMET Program, we talked before 
in my oral statement stands for International Military 
Education and Training. It is a highly leveraged amount of 
money. Our total U.S. program worldwide is about $43 million, 
and the Pacific portion of that is about $6.8 million, about 16 
percent.
    We have examples. The Minister of Defense in Korea went 
through IMET in 1973. Arturo Enrile, the recent head of the 
Philippine defense forces, went through in 1965. General Bey, 
who is the head of the Singapore defense forces, went through, 
in 1982. And Feisal Tanjung, who, as I mentioned is the head of 
the Indonesian defense forces, went through in 1981. These are 
long-term investments, small dollars which have a big payoff 
for us.
    What it does is give the opportunity to educate foreign 
military people, not only in the U.S. military, but in the U.S. 
way of thinking about things, and IMET students have taken 
these ideas and influenced their armed forces, so it is a good 
deal for us. And when we restrict those funds for whatever 
reason, it works to our disadvantage, not necessarily that of 
the other nation.
    Mr. Young. Thanks very much. If you want to expand on that 
for the record, please feel free to do so because it would help 
us in our preparation.
    Mr. Visclosky.

                  MILITARY CONSTRUCTION APPROPRIATIONS

    Mr. Visclosky. Thank you, Mr. Chairman.
    General, last year the Committee provided an additional 
$600 million to help improve conditions in various related 
facilities. Do you know if any of those monies that were added 
on by the Committee are currently being used in Korea?
    General Tilelli. Yes, sir. We were given dollars for 
barracks and dormitory construction and upgrades. I will 
provide for the record the exact amount.
    Mr. Visclosky. If you could. For the record, also, on your 
budget request for fiscal year 1998, was there an increase in 
the dollar amount in your budget for barracks and related 
facilities for Korea?
    General Tilelli. I will provide that for the record.
    Mr. Visclosky. If you could. And when you do that for the 
record, if it could be in relationship to your business line 
from fiscal year 1997 and relative to what the Committee added 
on.
    [The information follows:]

    United States Forces Korea Fiscal Year 97 Military 
Construction had not been increased from initial requests of 
$30 million for the Army and $9.8 million for the Air Force.
    Eighth United States Army did benefit from increases in the 
Fiscal Year 98 Military Construction Authority program. These 
totaled $46.1 million above the initial request of $30 million. 
The Air Force Program remained at the original $22.34 million 
request.
    It is clear that Congressionally added projects for United 
States Forces Korea in fiscal year 1995 and Fiscal Year 1996 
restored United States Military Construction support for Korea. 
The Fiscal Years 1995-98 Military Construction projects will 
have a significant positive impact on the quality of life for 
soldiers and airmen in Korea.

                      QUALITY OF LIFE OF PERSONNEL

    Mr. Visclosky. My concern, and a number of our colleagues 
have mentioned this, is about the quality of life for our 
troops. My experience here on the Committee is every year 
without fail, we add on $600 million for 1997, we added on $700 
million for various related facilities in 1996. I tried to get 
on this Committee for 7 years because we could pass all the 
policy in the world, but unless we spend the money or ask for 
the money, nothing is going to change as far as the quality of 
life for our troops.
    My concern is that the Department comes up to the Hill 
every year and expects us to do the lifting as far as real 
property maintenance and housing and that somehow we will come 
up with the dollars. I think the real commitment, as far as 
that quality of life, should be in the Department's budget.
    So if you could, for the record, I would appreciate seeing 
those figures.
    [The information follows:]

    The only fiscal years 1996 and 1997 Army Family Housing or 
Real Property Maintenance plus-ups that I can determine are:
    Fiscal year 1996 Real Property Maintenance: $19.7 million 
for Bridging the Gap reflected in the funding memorandum, 
however, there were corresponding real Property Maintenance 
decreases.
    Fiscal year 1996 family Housing: $8.5 million from Office 
of the Secretary of Defense Quality of Life plus-up.
    Fiscal year 1997 Real Property Maintenance: $10 million in 
Quality of Life Environment, Defense ($8 million for Army and 
$2 million for Air Force).

    General Tilelli. I will do that.

                         STATUS OF RUSSIAN NAVY

    Mr. Visclosky. That would be great.
    Admiral, could you talk for a minute or two about the state 
of the Russian navy in the Pacific and their activities?
    Admiral Prueher. Yes, I can. The Russian navy in the 
Pacific is not robust, but it is small and of good quality. 
They are led by their Pacific fleet commander, who is Admiral 
Kurogedov who is very aggressive and good, and interestingly, 
the Russian navy in the Pacific, as of about a month and a half 
ago, was fully paid in contrast to some other units around, so 
that that is not a homogeneous pay problem. But the Russian 
navy pays selectively to the units. ------. The surface navy is 
less well-maintained that the submarines, both their ballistic 
missile submarines and their attack boats. ------. Their 
surface ships have a few show ships that get underway; but the 
conditions are bad. They are sailing more and more.

                         VIETNAM/CAMBODIA/LAOS

    Mr. Visclosky. In the time remaining, could you comment on 
the situation in Vietnam, Cambodia and Laos?
    Admiral Prueher. Yes. The--in fact, I am going to make a 
trip to Vietnam later on this month, and our work with Vietnam 
is progressing at the proper rate. It is slow, but it is moving 
about as fast as we can--as we need to or they are able to 
work. And the economic piece of Vietnam is--there is alot of 
potential, but nothing much has come to fruition yet. And 
militarily, we do not have any planned exercises with Vietnam. 
They are not too eager to have a lot of our uniformed troops on 
the ground there just yet.
    Mr. Visclosky. Are they active in Cambodia at all or in 
Laos?
    Admiral Prueher. Are they active in Cambodia?
    Mr. Visclosky. Yes, the Vietnamese?
    Admiral Prueher. I am sure around the borders they are but 
a ------.
    Our big efforts there are toward some form of stability. 
The Khmer Rouge seem to be on the wane in Cambodia. ------. 
That is one of our major activities.
    Mr. Visclosky. Thank you very much.
    Thank you. Thank you, Mr. Chairman.
    Mr. Young. Admiral, you mentioned earlier China, Korea, 
Russia, and India. Give us a chart for the record or a graph of 
some kind that shows the relative size of their various 
military services ranking in the order of their size and then 
compare it to the U.S. forces.
    Admiral Prueher. All right, sir. We have that and we will 
provide that for the record.
    [Clerk's note.--The classified insert was removed.]

                EQUIPMENT PREPOSITIONING IN THE PACIFIC

    Mr. Young. Thank you very much, sir. I would like to go to 
a budget-related issue, that deals with the question of 
prepositioning in the Pacific theater. I am wondering if the 
current levels of prepositioned equipment are adequate?
    Admiral Prueher. Do you want to take the Army War Reserve, 
AWR-4 issue?
    General Tilelli. Let me, Mr. Chairman, address the 
prepositioning of the equipment in Korea. ------. At the same 
time, I am convinced that as we think about power projection 
and the movement of the forces from Fort Lewis, Washington, 
which is the 3rd brigade of the 2nd Infantry Division, that 
this set is critical and I place a lot of importance on meeting 
our requirements with that set.
    Mr. Young. What about prepositional ships?
    Admiral Prueher. The pre-po ships, overall, with the 
exception of what John just talked about, the shore-based, our 
AWR supplies are adequate. The pre-po ships are adequate for 
what we need. ------.
    And even without the MRC requirements, which are quite 
well-honed, in our theater, because of the time and the 
distance, having the number of assets as well as the 
distribution, which these ships enable, will be a big help to 
us and the LMSRs are vital for that reason, sir.
    Mr. Young. They are not in the budget, though, are they? 
They are not in the 1998 budget request?
    Admiral Prueher. I had thought they were, but let me check, 
sir, and I will get back to you.
    [The information follows:]

    The fiscal year 1998 budget request includes $812.9 million 
requested for Large Medium Speed Roll-on/Roll-off (LMSR) 
acquisition. This dollar figure was allocated for the purchase 
of three new acquisition LMSR's at an estimated cost of $200 
million per ship and to cover pre-acquisition costs associated 
with follow-on ships. Four new acquisition LMSR's are scheduled 
for acquisition in fiscal year 1999, with subsequent yearly 
acquisitions eventually leading to a total of 19 LMSR's by 
fiscal year 2001.

    General Tilelli. Certainly, sir, I would again agree with 
Admiral Prueher as we think about sea and airlift in our power 
projection strategy, the continued procurement of the C-17 
aircraft and the large medium speed roll off-roll on ship are 
critical. I would agree with the admiral on that.
    Mr. Dicks. The prepositioned ships, are they in Guam? Is 
that just the Marine Corps?
    Admiral Prueher. There is some--Army War Reserve, AWR-3 is 
in Guam, that set. There are some in Guam and there is some in 
Diego Garcia and then some stay in air and transit, but they 
are based in Guam, that one group.
    General Tilelli. I think what you are thinking about, Mr. 
Dicks, is the Marine Maritime Prepositioned Ships, MPS ships.
    Mr. Dicks. Right.
    General Tilelli. They are partially in Guam and partially 
in Diego Garcia.
    Mr. Dicks. Well, the Army now has some ships in Diego 
Garcia of its own.
    General Tilelli. That is the AWR-3.
    Mr. Dicks. We don't have any Army prepositioned ships in 
Guam?
    Admiral Prueher. There are both U.S. Marine Corps Maritime 
Pre-position Ship Squadrons and Army AWR-3 Ships stationed at 
Guam and Diego Garcia.
    General Tilelli. That is correct.
    Mr. Dicks. Should we?
    Admiral Prueher. Because of berth and anchorage limitations 
we must station these vessels in Guam and Diego Garcia. Both 
locations give us the ability to quickly respond to our needs 
in Korea as well as Southwest Asia.
    Mr. Dicks. Okay.
    General Tilelli. As I look at the flow for Korea, the MPS 
ships are located in the right place. They are the first ones 
that come in and are timed exactly right with the Marines that 
come with them. And secondarily, the AWR-3, if it does come to 
me, I think it comes in a timely way so I am not as concerned 
at this moment about moving the pre-po from where it is.
    Mr. Young. The Committee provided funding in the fiscal 
year 1997 budget for two additional MPF ships for the Marine 
Corps. Where will they be prepositioned?
    Admiral Prueher. Sir, I will have to provide that for the 
record in the worldwide flow.
    [The information follows:]

    Of the two additional Maritime Preposition Ships funded in 
Fiscal Year 1997 budget for the Marine Corps, one will be 
positioned with Maritime Preposition Squadron Two in Diego 
Garcia and one will be positioned with Maritime Preposition 
Squadron Three in Guam.

    Mr. Young. Are you considering other anchorages than the 
ones you are presently using for pre-po ships?
    Admiral Prueher. Yes, we are. ------. We are looking and 
have had a program ongoing to look at the other anchorages.
    Mr. Young. What about cargo handling in the various ports 
for our equipment? Do we have adequate equipment to handle the 
cargo? What is that called, lighterage? Is that what that is?
    Admiral Prueher. I don't know who coined the phrase 
``lighterage.'' Last year, we had quite a discussion about a 
lack of lighterage.
    I have--I had not gotten any comments--except pertaining to 
Korea, which is a real contingency. We haven't had a awful lot 
of problem off-loading. I will provide that for the record on 
the quantity of lighterage.
    [The information follows:]

    Lighterage assigned to each Maritime Prepositioning ships (MPS) 
squadron meets the notional equipment load as required by Department of 
the Navy and U.S. Marine Corps publication NWP 22-10/FMFM 1-5. The off 
loading of required prepositioned equipment into a seaport of 
debarkation to support Pacific Command operation plans has been 
successfully demonstrated during exercises.
    Currently, the lighterage inventory in each Pacific Command MPS 
squadron is:
          (1) Maritime Preposition Squadron Two based in Diego Garcia: 
        five side-loadable warping tugs (SLWT), 15 causeway sections--
        powered (CSP), 25 causeway sections--non-powered (CSNP), ten 
        landing craft mechanized (LCM-8);
          (2) Maritime Preposition Squadron Three based in Guam: four 
        SLWT's, 16 CSP's, 30 CSNP's, eight LCM-8's.
    There are shortages in Army lighterage requirements. The Army 
requires seven Roll-On/Roll-Off (RO/RO) Discharge Facility (RRDF) 
systems to offload strategic sealift ships anchored at sea during 
logistics-over-the-shore operations. The RRDF provides the essential 
interface between Army lighterage and RO/RO ships. Tracked and wheeled 
vehicles are driven across the RRDF from the RO/RO ships onto an Army 
lighterage moored alongside. The Army program corrects the shortage 
with the purchase of three RRDFs in Fiscal Year 1999, three in Fiscal 
Year 2001 and one in the outyears for the Reserve Component.
    The Army and Navy are undergoing a joint research and development 
(R&D) effort to acquire a Sea State Three capable lighter, designated 
the Joint Modular Lighterage System. This would enable logistics-over-
the-shore operations in sea states greater than current Sea State Two 
or below systems. Continued Congressional support is required to 
sustain this important R&D effort.
    Materiel Handling Equipment (MHE) is required to transfer cargo to/
from all modes of transportation: air, sea, and land. The types of MHE 
vary by type of cargo and mode of transport. We do not have enough MHE 
at our airbases for throughput. The availability of wide-body loaders 
(WBL) at our ports of debarkation remains one of our logistical 
concerns. We require 30 WBLs in our theater and have only 21. New 
60,000 pound aircraft loaders are in the budget but are several years 
away from worldwide distribution. A modification of some 25,000 pound 
loaders is in progress, but is a temporary solution.

    Mr. Young. Thank you very much. Mr. Murtha.

                             BOSNIA FUNDING

    Mr. Murtha. Just a couple of things. Are you being 
penalized at all because of the money we are spending in 
Bosina? Are you lacking funds right now? Have they said to you, 
anybody up there said to you, okay, you are going to have to 
slow down because we need the money for Bosnia?
    General Tilelli. Sir, let me speak from my perspective, 
they have not told us to slow down. However, there is always 
the--and I will use the term ``possibility'' out there, that if 
the supplemental appropriation is not approved for Bosnia, the 
pot of money is only one pot of money and it is going to have 
to come from somewhere, so there is a possibility that we may 
be required to contribute, which will cause a necessary slow 
down to pay for that contingency.
    Mr. Murtha. But at this point you haven't lost any money--
you have been able to spend your allowance. You haven't lost 
any money. Either of you lost any money?
    General Tilelli. I have not, sir.
    Admiral Prueher. No, sir, we haven't lost any money yet to 
Bosnia. We quarrel over distribution of--not quarrel.
    Mr. Murtha. True.
    Admiral Prueher. Well, distribution of assets.

                             OKINAWA, JAPAN

    Mr. Murtha. Let's go back to Okinawa. Let's say we are 
forced--I am sure you are looking at contingencies if we get 
forced out of there. Where would we go? I mean, we are talking 
about a pretty good distance if we lose that access, aren't we?
    Admiral Prueher. Yes, sir. We are always looking at the 
efficiencies and effectiveness and looking at contingencies. My 
opinion is, the way things are in the world right now, it is 
not wise of us to discuss those too much at this time.
    Mr. Murtha. All right.
    Admiral Prueher. But your point is correct. The number of 
choices of places to go are not--there are not a lot of them.
    Mr. Murtha. From a strategic standpoint we would be much 
worse off if we lose access?
    Admiral Prueher. Yes, sir, we would. Yes, sir.

                         WATER QUALITY IN KOREA

    Mr. Murtha. I heard that we don't even have good water in 
some of our bases. We are talking about giving the North 
Koreans money, yet at some of our bases there is not good water 
there for the 2nd Division. Is that accurate? I mean, the water 
is not--they can't drink it. Is that right?
    General Tilelli. That is correct. There are eight bases 
primarily that we have had some water monitoring issues with 
and when we see that it is beyond a certain tolerance level, we 
go to bottled water. Namely, Kunsan, Chong Ju, Kimhae, Kwang Ju 
and Taegu, Rokaos, Niolo Barracks and Camps Gray and Kim, where 
the quality of water is not what we want. We are in a 
monitoring and repair and replace process right now.
    Mr. Murtha. Is it cheaper to go to bottled water than it is 
to fix the situation?
    General Tilelli. For the long-term, it is cheaper.
    Mr. Murtha. What kind of dollars are you talking about to 
fix those eight places?
    General Tilelli. I can't give you that off the top of my 
head. I will provide that for the record, Mr. Murtha.
    [The information follows:]

    We would have an approximate initial investment of over $4 
million with recurring costs of over $400,000 per year.

    Mr. Dicks. Should we fix it?
    General Tilelli. I believe we should fix it. Our service 
members deserve it.
    Mr. Murtha. Thank you, Mr. Chairman.
    Mr. Dicks. Would you yield on that?
    Mr. Murtha. Yes.
    Mr. Dicks. Is there a problem with the South Korean 
Government?
    General Tilelli. There is not a problem with the South 
Korean Government. It is a problem--the water quality problem 
is one that has arisen after funds were programmed and we are 
working with them and also with our own dollars to attempt to 
fix that infrastructure issue.
    Mr. Murtha. Are you saying that is irresponsibility, the 
water?
    General Tilelli. No, it is not irresponsibility. It is an 
issue that just perked up through our monitoring process and we 
monitor all of the water standards throughout the peninsula 
because of different requirements and U.S. standards are 
somewhat higher. So consequently, this was picked up.
    Mr. Murtha. Is it going to be fixed in the next 6 months?
    General Tilelli. I can't say it will be fixed in the next 6 
months. We will certainly----
    Mr. Murtha. Is it lack of money?
    General Tilelli. At this point, we are trying to get an 
assessment of the costs and then apply the correct resources. 
We will not have--we will not have our service members drinking 
bad water.
    Mr. Murtha. Okay.
    Mr. Dicks. Are we using bottled water?
    General Tilelli. We are using bottled water for drinking 
water at this point.
    Mr. Young. Mr. Skeen.
    Mr. Skeen. I have no questions.
    Mr. Young. Mr. Dicks.

                 HUMANITARIAN ASSISTANCE TO NORTH KOREA

    Mr. Dicks. I am sorry I missed part of your presentation. I 
know this question was asked, but I want to ask it again 
because I want to hear your answer.
    As I understand it, the U.N. World Food Program, we are 
providing a total of $41.6 million in humanitarian assistance 
to help with the food shortage in North Korea. How do you feel 
about that? I mean, do you think that is the right thing to do?
    General Tilelli. Sir, I cannot address the amount of 
dollars that we are providing. However, it is my view that the 
contributions by many nations in the region contribute to the 
stability in the North. So I think it is appropriate that for 
humanitarian purposes, we provide food aid. As a matter of 
fact, the Republic of Korea, Japan and other countries are also 
providing food aid through humanitarian means for the North 
Koreans.
    Mr. Dicks. So you see it as a stabilizing event?
    Genneral Tilelli. I see it as stabilizing.
    Mr. Dicks. Anything we can do to prevent them from 
imploding or whatever?
    General Tilelli. I see it as truly a stabilizing event.

                      NORTH KOREAN NUCLEAR PROGRAM

    Mr. Dicks. Okay. How would you rate the nuclear program? We 
have had this long complicated arrangement with them to try to 
get them not to develop nuclear weapons and weapon-grade 
plutonium, for example. How is this program going?
    General Tilelli. The nuclear Agreed Framework is proceeding 
very well. The canning of the rods is ongoing and the latest I 
heard we were about 60 percent complete in canning. The piece 
of the nuclear Agreed Framework that didn't work exactly as 
everyone through it might work was an acceleration in the 
dialogue between the North and the South. I think in the 
prevention of a continuation of the nuclear program the North 
and in moving towards a light water reactor, I think that that 
program, from my view, is on track and I would ask Admiral 
Prueher if he would like to comment on that.
    Admiral Prueher. The KEDO agreement for the light water 
reactor is proceeding slowly. One thing, I support very much 
what General Tilelli said about the food to North Korea. I 
think trying to not make them feel so cornered that they have 
to lash out is important, and also maybe they will have a 
little less distance to recover at some point then they 
otherwise would.
    The nations in Southeast Asia and in Asia in general are 
all--not all, but many of them--are participating in the agreed 
framework to help support the funding for the light water 
reactor. And so it is a coalescing effect. North Korea is a 
festering spot, right in the middle of other people who are 
prospering. And what we need to do is get them to open up so 
that they can join the rest of the world.

                       POLICY TOWARDS NORTH KOREA

    Mr. Dicks. Do you think we need, as a nation, to be doing 
more? Should the United States be providing more leadership in 
terms of trying to bring help and assistance to the North 
Koreans to try to diffuse this situation? I mean, basically I 
think our efforts have been pretty meager up to this point.
    Admiral Prueher. I will offer my opinion and then defer to 
General Tilelli. It is very important for us to stay in concert 
with the Republic of Korea.
    Mr. Dicks. Not to get divided?
    Admiral Prueher. That is right. So I think that affects our 
pace, but I think it is important that we stay together, and 
that is almost more important than a rapid pace and so I think 
that affects what is going on.
    Mr. Dicks. Well, how does South Korea feel about this? Are 
they in favor of trying to engage the North Koreans on--besides 
on the nuclear program, but in the food program and trying to 
help, do they concur with this strategy?
    Admiral Prueher. I think they would not say they would want 
to go slowly, but they are--there are various factions. Some 
are more eager than others to move with it. So it is an issue.
    Mr. Dicks. How about the government, the current 
government?
    Admiral Prueher. They talk about--really I am getting into 
John's lane, but Kim Young-Sam, the government talks about 
North Korea largely as a threat, I think.
    General Tilelli. Let me address the three issues you 
raised, Mr. Dicks. One, should we be doing more on the 
humanitarian side? I think the program is about right, first of 
all.
    Secondly, I would say that I think Admiral Prueher's 
comment is very important in that one of the North Korean 
strategies is to drive a wedge between the United States and 
the South and we can't let that happen.
    Thirdly, in my view, and this is my personal opinion, when 
we think about North Korea and we think about providing them 
many things, there ought to be a quid in action.
    Mr. Dicks. In terms of diffusing?
    General Tilelli. In terms of diffusing the tensions. So 
consequently, I have not seen that--the quid. The first, and I 
think it is somewhat unprecedented, if you will, is the fact 
that they are attending the joint briefings today as we sit 
here. So this may be--the joint briefings in New York. This may 
be the first opening, and I think it is one that we must 
leverage for the future.
    The second part of your question applies to the South. I 
think that the Republic of Korea would certainly like increased 
dialogue with the North, to ease tensions and move forward. 
However, in a real sense, the North Koreans have been unwilling 
to do that and have been unwilling to open the door at all to 
the South and are more willing to do bilateral discussions with 
the United States.
    Mr. Dicks. All right. So I guess there might be an 
opportunity here to, as you suggest, to maybe tie future 
assistance to their diffusing the military situation of being 
right there on the border, et cetera, try to negotiate 
something with them?
    General Tilelli. I think the opportunity is the joint 
briefing and then a follow on four party talks. In my view, 
that is the opportunity that is laid before us right now, and I 
think the outcome of today's briefing will tell us more as to 
whether or not they are going to be amenable to any of that.
    Mr. Dicks. My time is up. But one thing I would say, too, 
is we ought to follow whether this assistance gets to the 
people or does it get to the military, too? That seems to me to 
be an important thing.
    General Tilelli. The other thing, and I would be remiss if 
I didn't say it, and that is while all this discussion is going 
on, I, as the commander over there, can't lose sight and focus, 
and that is deterrence and preparedness, and I can tell you 
that that is continuing to be my focus until something else 
occurs.

                 WATER QUALITY FOR U.S. FORCES IN KOREA

    Mr. Dicks. Thank you.
    Mr. Young. As we talk about helping the North Koreans with 
their food problems and things of that nature, we hear stories 
that some of your forces don't even have potable water. More 
specifically, the 2nd Division, the Kunsan Airfield. Are those 
stories true? Do we have a problem with adequate safe water 
there?
    General Tilelli. Mr. Chairman, these are eight places that 
this year we have found that the content of the water does not 
meet U.S. standards. So we have those eight places, Kunsan, 
Chong Ju, Kimhae, Kwang Ju, and Taegu, Niblo Barracks and Camps 
Gray and Kim, bases that we are working on diligently to fix 
the problem. And, secondarily, until we can fix the problem, 
through either an upgrade in the infrastructure or a filtration 
system, we are providing the soldiers and airmen who live on 
those places potable bottled water.
    Mr. Young. Okay.
    Mr. Murtha. How many people are there? How many people are 
at those eight bases?
    General Tilelli. I will have to give you the exact number 
for the record.
    [The information follows:]

    It is not a substantial number of the force--far less than one 
percent. Out of a total of 67,200 military and civilian employees on 
United States Forces Korea installations, less than 50 people live on 
Chang Ju and Kwang Ju Air Bases (two of the six installations with non-
potable water systems). We purchase bottled water for these Soldiers, 
Sailors, Airmen, Marines and 400 non-residential employees who work at 
all six locations. We continue to provide potable tap water at the 
remaining United States Forces Korea installations, where 99 percent of 
our people work and live.

    Mr. Murtha. Is it a substantial number of the force?
    General Tilelli. It is not a substantial number of the 
force. It is a small portion, very small. I will provide the 
number, the exact number for the record.
    Mr. Young. We provided all the forces in Desert Storm with 
bottled water, so I assume that is something that can be done 
without too much trouble.
    General Tilelli. Mr. Chairman, that is done--it is not much 
trouble to do it, although I find that it is not the preferred 
way for our people to live.
    Admiral Prueher. For just a bit of perspective, I will 
state that in most of our AOR, the State Department and some 
30,000 other DoD people that are not directly under our 
command, mostly drink bottled water every day, wherever they 
live. Most of the cities they live in don't have it, either.

                         NORTH KOREAN DEFECTORS

    Mr. Young. Admiral, in a previous visit I asked about the 
North Korean defector who was presently in the embassy in 
Beijing. Tell us anything that you can tell us this morning 
about whether he will be released and allowed to go to South 
Korea or just what the status is.
    Admiral Prueher. The latest update I had was yesterday 
afternoon, after we talked, and maybe General Tilelli has more, 
but that the Chinese had talked to him and that it looked like 
he would be released, which is essentially what we said 
yesterday, but the timing was something that was uncertain. 
Maybe General Tilelli has more later information.
    General Tilelli. Well, Mr. Chairman, that is the same 
update that I received. Also at issue is whether or not he will 
go directly to the Republic or Korea or through a third country 
and I think that is all being resolved over a period of time.
    Mr. Young. Thank you very much. Mr. Visclosky, do you have 
further questions?

                         WEAPONS MODERNIZATION

    Mr. Visclosky. Mr. Chairman, just one, if I could.
    Is there an arms race taking place in Southeast Asia and 
the Pacific Basin?
    Admiral Prueher. That is a frequently asked question, sir, 
and some of that is in the eye of the beholder. My answer is 
there is not an arms race taking place. Their economies are 
booming and they are upgrading and modernizing quite old things 
they have in many cases, but there is not an arms race.
    The countries are behaving responsibly in that they don't 
want to be the first one to introduce a new breakthrough 
weapons system, for example, beyond visual range missiles, and 
so I think they are behaving responsibly. It is coming in 
balance. There is not a race. I would say the nations, none of 
them want to be first, which imply race. They also don't want 
to be last. So they want to keep the water about level.
    I really think it would be wrong to characterize it as an 
arms race, sir.
    Mr. Visclosky. Thank you.
    Mr. Young. Admiral, General, thank you very much for an 
excellent presentation.
    Mr. Dicks. One last one?
    Mr. Young. Okay. Go ahead.

                      CHINA AMPHIBIOUS CAPABILITY

    Mr. Dicks. One minute. On the China issue, is it correct 
that China didn't have landing craft? If they wanted to do 
something against Taiwan, they literally could not have moved 
forces from the mainland of China?
    Admiral Prueher. They have some LST-type Landing Ship, tank 
ships. They have the capability to move about one division's 
worth. They do not have a capability--amphibious capability--to 
invade Taiwan. It would be a long way off.
    Mr. Dicks. So they have a lot of manpower, a lot of army, 
but their deployability is a major problem, isn't it? I mean, 
they are a threat in their area but----
    Admiral Prueher. They are not yet a force projector and 
they have a long way to go before they will be a projection 
force. But they are starting some ship visits around the area, 
which is all right. But they don't have a force projection 
capability.
    Mr. Young. Their ship visits include visits to the United 
States.
    Admiral Prueher. That is right.
    Mr. Young. And to our Western Coast for the first time 
ever, right?
    Admiral Prueher. That is right, sir. They have two 
combatants and an oiler coming to Honolulu early this next week 
and then going to San Diego and then to Peru.
    Mr. Young. We have some additional questions that we didn't 
get to because we are running out of time, but we would like to 
submit them in writing and ask that you respond to them, if you 
would.
    General Tilelli. Yes, sir.
    Mr. Young. The Committee will convene at 1:30 this 
afternoon and our witness will be General Peay, Commander in 
Chief, U.S. Central Command. And at this point thank you, 
again, very much, both of you. The Committee is adjourned.
    [Clerk's note.--Questions submitted by Mr. Murtha and the 
answers thereto follow:]

                        Combat Engineer Vehicle

    Question. General, one of the assets which has been available to 
you is the Combat Engineering Vehicle (CEV which mounts a 165mm 
demolition gun. The committee understands that the CEV is being 
withdrawn from service, and that some of the CEV missions may be filled 
by the M1 tank. What mission assigned to the CEV could be done by the 
M1 tank?
    Answer. The M1A1 and M1A2 tank equipped with the 120mm main gun and 
firing the M830A1 Multi Purpose Anti-Tank (MPAT) round can conduct the 
stand-off point obstacle reduction (i.e. shattering to smaller easily 
cleared pieces) portion of the mission performed by the M728 CEV. (M1 
tank models previous to the M1A1 cannot fire the M830A1 round because 
they have a 105mm main gun, hence they cannot perform that part of the 
CEV point obstacle breaching mission.) The M1A1 and M1A2 firing the 
M830A1 MPAT round can also demolish bridge piers and penetrate concrete 
bunkers up to at least two meters in thickness, as can the CEV. At 
present, the M1 tanks, including the M1A1 and M1A2, are not equipped 
with bulldozer blade systems so they cannot perform the point obstacle 
clearing portion of the CEV mission after the point obstacle has been 
reduced. The M1A1 and M1A2 tank gun has a long barrel (unlike the short 
165mm demolition gun on the CEV) which hinders the M1A1 or M1A2 tank 
from traversing to engage obstacle targets in close quarters as would 
be found in military operations in urban terrain (MOUT). The M1 family 
of tanks do not have crane booms, so they cannot perform the lifting 
mission of the CEV.
    Question. Do those missions still exist?
    Answer. Yes, the point obstacle breaching mission exists anywhere 
the enemy can take advantage of restrictive terrain and place point 
obstacles. Point obstacles range from simple wire and timber roadblocks 
to concrete filled buses, to the massive rock drop obstacles in the 
Korean theater consisting of up to one hundred concrete blocks, each 
block approximately two meters in diameter and up to four meters in 
depth. When executed, we presume that the enemy has mined the obstacle 
to prevent manual demolition. A stand-off reduction capability is 
therefore critical in terms of protecting our forces at the breach and 
getting the breach opened quickly so we can maintain our momentum. 
Point obstacles exist on both sides of the border in Korea. The CEV 
right now is the only integrated system that is capable of reducing and 
clearing point obstacles. The M1A1 and M1A2 tanks would either require 
a bulldozer blade capability or we would have to move slow moving, un-
armored bulldozers (along with their transports and crews) forward to 
have a pushing capability sufficient to clear the rubble out of the way 
after the M1A1 or M1A2 tank reduced the obstacle with the main gun. In 
restrictive terrain like Korea, where it is frequently not possible to 
bypass built-up areas, the ability to quickly engage enemy defended 
obstacles in urban terrain may mean more than just the life of the 
breaching tank crew; rather saving the lives of the friendly forces 
behind the breacher.
    Question. What testing of 120mm tank ammunition has been done for 
those missions, and what were the results?
    Answer. Tests were conducted at Aberdeen Proving Grounds from mid-
November 1996 through mid-December 1996 to determine if the M830A1 MPAT 
round could reduce scale concrete targets similar in diameter and half 
the length of a single individual block of the many blocks that make up 
the type 2 and larger type 3 rock drop obstacles in Korea. Published 
test results showed that the M830A1 MPAT round, the modified M830A1 
MPAT round with a solid nose, and the M123A1 High Explosive Penetrating 
round fired at a 100 meter distance to the target were able to reduce 
the unreinforced concrete target and the reinforced concrete targets. 
An excursion of the test showed that the M865 Kinetic Energy round 
fired at a 100 meter distance to the target was able to reduce the 
reinforced concrete target. Debris resulting from the MPAT, modified 
MPAT, and Kinetic Energy rounds was considerably larger, even after the 
second round hit, than the debris resulting from most second round hits 
(third in the case of a dud M123A fired against the bridge pier target) 
of the M123A1 HEP round for the CEV.
    Question. Which 120mm tank round will provide the best capability 
for those missions?
    Answer. From the test results, the modified M830A1 MPAT round will 
provide the best capability for a 120mm round to perform the point 
obstacle reduction mission. The concern is the clearing capability of 
the M1A1 or M1A2 tank (no bulldozer blade) or the currently fielded M9 
Armored Combat Earthmover (ACE) to push the large debris resulting from 
the MPAT round out of the way in the breach. The M123A1 HEP (165mm) 
round has a massive blast effect that tends to create small sized 
rubble and sweeps much of the rubble through the breach.

    [Clerk's note.--End of questions submitted by Mr. Murtha. 
Questions submitted by Mr. Hefner and the answers thereto 
follow:]

             Shortstop Electronic Protection System (SEPS)

    Question. The Committee understands that US Forces Korea has an 
urgent requirement for 62 SEPS units. What action is the Army taking to 
expeditiously satisfy this requirement?
    Answer. The Army is working to provide to US Forces Korea 26 
Engineering and Manufacturing Development (EMD) SEPS models that were 
in use in Bosnia. Those systems are being returned, and upon their 
return, they will undergo a period of maintenance for cleaning and any 
needed repairs. That process is estimated to take 45-60 days. Upon 
completion of the required maintenance, the systems will be sent to 
Korea.
    An additional 20 systems for a total of 46 will be bought with the 
congressional appropriation of $5 million for fiscal year 1997. 
Purchase of the remaining 16 systems will be addressed in an unfinanced 
requirement in fiscal year 1998, and if necessary, in the fiscal year 
1999-03 mini-POM.
    Question. Congress appropriated $5 million in fiscal year 1997 to 
initiate the production of SEPS for the urgent requirement in Korea. 
What is the Army's progress toward obligating these funds to initiate a 
production contract?
    Answer. The $5 million congressional appropriation is currently on 
OSD withhold. The Army is in the process of requesting that the funds 
be released from withhold. The processing time for that request is 
estimated to be 5-7 days. When the request is granted and the money is 
released, the Army will notify the contractor, Whittaker Electronics 
System, and the funds will be executed.

    [Clerk's note.--End of questions submitted by Mr. Hefner. 
Questions submitted by Mr. Young and the answers thereto 
follow:]

                      Priorities and Deficiencies

    Question. Do you feel the interests and needs of the Pacific 
Command have been adequately addressed in the fiscal year 1998 budget 
request?
    Answer. Overall, yes. We have many opportunities for input into the 
military budget decision process through the Joint Requirements 
Oversight Council, Chairman's Program Recommendations, Chairman's 
Program Assessment, Office of the Secretary of Defense Program and 
Budget Reviews, and the Defense Resources Board. In view of the need to 
balance the federal budget, Pacific Command's interests and needs are 
adequately addressed in the President's Budget.
    Question. What is your assessment of the major shortfalls in: 
personnel, training, equipment, and maintenance for those units under 
your day-to-day command as well as those that would be assigned to you 
in a war time situation?
    Answer. My assessment is that we are ready to execute our mission. 
However, we need to be attentive to indicators which may signal 
problems for future readiness.
    My biggest concern is our ability to keep quality people in 
uniform. Retention rates among many specialties are down in each 
Service. We need to provide adequate career progression opportunities, 
compensation, and quality of life, especially for our skilled career 
personnel. In the Pacific Command, the quality of barracks in Korea is 
of special concern.
    I am also concerned by problems identified by the Services in 
recruitment. The Department of the Army forecasts a recruiting 
shortfall of 6,000 through May 1997.
    Joint and Service funding to support our Joint and Combined 
Training Program are currently adequate. However, as costs continue to 
increase, funding must keep pace. Paying for contingency operations 
with training funds will reduce readiness.
    Equipment modernization programs present potential long-term 
readiness problems. For example, the Marine CH-46 helicopter fleet is 
29-years old. The V-22 will not replace the CH-46 as a medium-lift 
aircraft until 2014.
    The condition of Petroleum Enroute Infrastructure in the Pacific 
Command is another important concern. While the Fiscal Year 1998 budget 
provides for the most critical infrastructure needs, future program 
requirements await the conclusion of the Quadrennial Defense Review.
    Some Services are reporting aircraft readiness as a concern, as a 
result of age and deferred maintenance. Both the Air Force and Marines 
report increasing backlogs in intermediate aircraft maintenance which 
as affecting mission capability rates. The Navy estimates the average 
age of its aircraft fleet will increase from 14.3 years to 18.4 years 
by fiscal year 2003. Deferring depot maintenance for surface combatant 
ships is also a potential readiness problem.
    Quality people, training, equipment, and maintenance are all 
essential elements of readiness. The QDR process is evaluating the 
long-term readiness issues, based upon threats, strategy, and fiscal 
expectations.
    Question. What are the top ten priority items on your most recent 
integrated priority list?
    Answer. The Integrated Priority List (IPL) provides theater 
priorities for program funding to the Secretary of Defense and the 
Chairman, Joint Chiefs. The IPL leaves out many essential things, as it 
focuses only on identifying the shortfalls and required capabilities 
which are most important for accomplishment of Pacific Command's 
mission.
    In developing the IPL, my top priority is readiness. Ready forces 
composed of well trained people equipped with modern, sustainable 
technology are the foundation for the Pacific Command's ability to be 
an active player in the region.
    I consider quality of life and force protection overarching 
requirements to the IPL. These issues span all we do. The magnitude of 
their impact transcends a rank ordered list of system or program 
requirements.
    My top ten IPL items are as follows. ------.
    Question. In your view, are present levels of investment funding 
contained in the department's Future Years Defense Plan sufficient to 
address the long term recapitalization requirements of today's forces?
    Answer. We share the concerns of the Secretary of Defense and the 
Chairman, Joint Chiefs of Staff, about the annual funding shortfall of 
approximately $20 billion in Service modernization accounts for the 
Future Years Defense Plan.

         Quadrennial Defense Review and Future Force Structure

    Question. The Quadrennial Defense Review (QDR) will reexamine the 
current national security strategy and present the force structure of 
the armed services. The QDR will purportedly make recommendations as to 
what the appropriate mix of forces will look like to meet the strategic 
and regional threats of the future. The results are due to be presented 
to the Congress in May of this year.
    What formal role have you played in the QDR process?
    Admiral Prueher Answer. Both the Secretary of Defense and the 
Chairman of the Joint Chiefs of Staff permitted us to participate 
actively in the QDR process. My staff has worked closely with both the 
Joint Staff and the Office of the Secretary of Defense (OSD) staff. For 
example, we commented to the Joint Strategy Review and helped shape the 
evolving OSD Defense Strategy. We are participating in the Dynamic 
Commitment Wargame series, and reviewing numerous QDR products. We will 
also participate in a mid-April executive (CINC-level) review. I am 
satisfied that our voice has been heard in the QDR process.
    General Tilelli Answer. JCS and OSD are doing a good job of pulling 
in the respective CINC's representatives (senior officers and General 
officers) into this effort. This is resulting in a good cross 
fertilization of the services and CINC's requirements. Also, I and my 
staff are full participants in the QDR series of war gaming sessions 
(Dynamic Commitment series) and are working the hard questions (with 
JCS and OSD staffs) in terms of what our military services need to 
carry out the National Security Strategy.
    Question. What in your view, are the most important issues that the 
QDR should be examining?
    Admiral Prueher Answer. The most important issue the QDR should 
examine is how to best balance protection of U.S. interests through 
commitment of our military forces with modernizing for the future. 
Continued engagement of U.S. forces abroad is important, not only to 
respond to crises and prepare for war. Military forces also help shape 
the strategic environment. The presence of U.S. Pacific Command forces 
has underwritten the security and stability in the Asia-Pacific region 
since World War II.
    A review of our strategy and force structure is the right thing to 
do, but the QDR should bear in mind that the pace of change is also 
important. We should innovate, but do so carefully, and should accept 
some prudent risk. We should not make changes for sake of change, nor 
should we fall into the trap of seeing technology as a panacea. 
Finally, we have to remain aware of asymmetric challenges that could 
confront us now and in the future.
    General Tilelli Answer. As you know, OSD and JCS are taking a broad 
range review of the current national security strategy and the 
strategic context within which we must design our military forces. 
Since the QDR process is ongoing, I think that any detailed answer to 
this question would be premature. However, three points need to be 
stressed from a Korea/NEA perspective. (1) We clearly need to 
acknowledge that we are posturing for how we will ``shape'' and engage 
NEA in the future. In this regard we need to determine if we want to be 
reactive or proactive in this shaping; clearly determining what we want 
to shape in the future. (2) The QDR process must fully acknowledge the 
``flashpoint'' potential of Korean in the near-mid term. It is very 
likely that the Korean peninsula will still be a potential threat to 
national security even in 2005 (in terms of a nK regime or ongoing 
turbulence caused by massive reconstruction/reunification actions that 
could be going on as a result of nK collapse or possible war 
scenarios). (3) The QDR process must also acknowledge the ``Dominant 
Strategic Contexts'' that will drive stability in NEA and be a priority 
for our Nation to address. The ``Dominant Strategic Context'' for NEA 
in the mid-long term is clearly China's growth and expected motivation 
to exert influence over NEA from a leadership position. The near-mid 
term ``Dominant Strategic Context'' is the North/South Korea 
contingency. How we handle this near term ``potential flashpoint'' will 
set the stage for how we are perceived worldwide and be the framework 
for either maintaining US influence in the NEA area to balance the 
regional animosities or by which China steps in to establish regional 
hegemony.
    Question. Do you believe these issues are actually being addressed 
by the QDR?
    Admiral Prueher Answer. Yes. The QDR process has been open to the 
regional combatant commanders. As a result, I believe the QDR is 
addressing these issues. The QDR is reviewing the threats with a goal 
of recommending an appropriate mix of forward deployed, U.S. based, and 
reserve forces.
    General Tilelli Answer. Yes, UNC/CFC and PACOM are fully stressing 
the importance of these factors My only concern is that we do not 
forget the threat of war or severe instability in the near-mid term.
    Question. Some have spoken of the need to ``be open to a radical 
restructuring of our armed forces.'' Do you agree?
    Admiral Prueher Answer. I think that we should be willing to 
consider concepts involving a radical restructuring of our armed 
forces, but our best analysis shows that this is likely not the right 
thing to do. We have an appropriate balance of land, amphibious, naval, 
and air forces, with increased effectiveness and efficiencies residing 
in improved joint operations and support.
    In my judgment, the nature of warfare and of our tasks have not 
sufficiently changed to justify the considerable risks and expense 
radical restructuring would entail. We should take advantage of new 
technologies through pursuing the revolution in military affairs in a 
balanced manner. New technologies can enhance our efficiency and 
effectiveness in applying force. Excessive dependence on high 
technology solutions, though beguiling, will leave us vulnerable to a 
foe who applies asymmetric attack such as terrorism, counter-
insurgency, weapons of mass destruction, or information operations. 
Balance in leap ahead technology investment should be the watchword, so 
we do not abandon needed core competency.
    General Tilelli Answer. No. Rather, we need deliberate process by 
which we can refine the clearly capable military forces we have now. 
Radical approaches are for ``failure'' situations. Our nations military 
situation is one of ``success.'' I think the QDR process is approaching 
this challenge from this perspective.
    Radical restructuring is clearly not the way to go . . . rather, we 
need to focus on the expected strategic contexts that will face us in 
the near-mid term and long term, then determine the strategy by which 
we can clearly shape the international environment to protect and 
promote US interests. Once this is done, we then need to address the 
military capabilities across the board spectrum which will provide our 
Nation the strategic and operational flexibility to deal with the 
turbulent 21st century. This then provides a basis for sound force 
structure refining and reengineering that allows you to make 
``informed'' decisions as to how to refine and develop well balanced 
force structures that make sense.
    Question. Do you believe that the number of combat forces versus 
support forces, the so-called ``tooth to tail ratio'', is out of 
balance in the Defense Department today?
    Admiral Prueher Answer. Overall, I think that the ``tooth to tail'' 
ratio is in balance, with the exception of base infrastructure. We 
should continue to review our structure and take advantage of economies 
which exist.
    Sustaining quality forces which employ highly complex equipment 
requires extensive support. Further, we expect our military to operate 
at great distances over long periods of time with robust logistics and 
minimal risk. These goals necessitate a higher percentage of support 
forces than other nations. The larger consideration is for the 
capability of the force as a whole.
    Mission and location also affect the desired ``tooth to tail 
ratio'' of combat to support personnel. The ratio is concern for the 
Services as they manage their force structures. The Services review the 
issue carefully, and acknowledge the need to shed some base 
infrastructure.
    General Tilelli Answer. There is no simple answer to a question 
such as this. As much as we would like to have one, history affords us 
to single prescribed ratio of support and combat forces. The ``tooth to 
tail ratio'' varies for each of this country's available military 
options. In the Korean theater, for example, the available military 
options can include one or a combination of the following: civic 
action, humanitarian assistance, civil affairs, and other military 
activities to develop positive relationships with our Host Nation; 
confidence-building and other measures to reduce military tensions; 
military presence; armed conflict involving air, land, maritime, and 
strategic warfare campaigns and operations in Korea. In each instance, 
combat and support forces have a unique combat/support force 
apportionment. Are these forces ``out of balance.'' in today's 
Department of Defense? Probably not. The bottom-line is that a 
Commander-in-Chief of a United States Unified, Multi-national Command 
needs the flexibility that only a healthy tooth and a robust tail can 
provide. USFK must be able to successfully accomplish its assigned 
taks--whatever the mission, whatever the required tooth is tail ratio.

                              North Korea

    Question. Even by North Korean standards, the past month has been 
quite eventful. A Senor member of the North Korean government defected 
in Beijing, another North Korean defector was shot in Seoul and North 
Korean and U.S. officials have agreed to resume talks on achieving a 
permanent settlement on the peninsula. As our senior military commander 
in the theater and Korea itself, the Committee is very interested in 
your assessment of the present military and political situation in 
North Korea.
    Answer. The situation in North Korea is highlighted by its 
worsening economy, especially food shortages. Due to the poor 1996 
harvest and limited foreign aid, the food situation will become 
critical this spring and early summer. Additionally, coal and 
electricity shortages are severely impacting economy and living 
conditions. ------.
    Stark conditions have kindled a rise in economic crime and in 
malnutrition and related diseases, and a worsening of the apathetic 
attitude of the population. ------.
    Since spring the military has demonstrated its powerful potential. 
We have detected the following: a major naval exercise in May; an 
impressive road march exercise in 2d and 5th Corps in October; and a 
robust winter training cycle from December to March that was 
highlighted by high levels of mechanized and artillery training and 
featured a major exercise by the 108th Mechanized Corps with air and 
naval support in mid-January and an extensive nationwide exercise in 
later March.
    In international affairs, the North's apology for the submarine 
incursion was driven by the North's need for food and a relaxation of 
economic sanctions and other restrictions. The North's attendance at 
the explanatory briefing for the Four-Party Talks is consistent with 
these objectives, but this does not necessarily mean the actual talks 
will be realized. Pyongyang is prone to make limited concessions for 
short-time tactical gains, but is likely to resist any meaningful 
opening or improvement of relations with the ROK because this would 
threaten the survival of the Kim regime.
    North Korea's economic and other problems stem from their decades-
long efforts to create a military for achieving reunification. They 
have, from their perspective, largely achieved this capability and show 
no willingness to relinquish it. We must remain alert to the 
possibility that the North's leadership may conclude that the military 
option is the only way to preserve their privileged status.
    Question. What do you rate as the probability of armed conflict on 
the Korean peninsula over the next year? Five years?
    Answer. ------. We don't want to put a number on such a weighty 
judgment. We simply want to say conditions are such that we believe 
there's a higher probability than last year or the year before to use 
the army before its demise becomes total and final.
    Question. Update the Committee as to the current status of the 
North Korean military forces. In your answer please address unit 
readiness, force modernization, and development of weapons of mass 
destruction.
    Answer. North Korea maintains the capability to inflict enormous 
destruction on the south through large-scale combat operations despite 
readiness deficiencies caused by resource shortages. Deficits of food 
and other essential commodities have adversely affected the health, 
stamina, morale, and discipline and training levels of the soldiers. 
Despite these problems, the force worked hard during the recent Winter 
Training Cycle to improve readiness. Although overwhelming economic 
problems may limit the pace of that improvement, the military is 
capable of conducting corps and below movements and operations while 
coordinating the integration of air and naval support.
    The most significant force modernization trend has been the gradual 
shift over the past decade of military combat power towards the forward 
area. Of specific concern is the continuing forward deployment of long-
range artillery and MRL systems to underground facilities and hardened 
sites within 15 kms of the DMZ. Operational exploitation forces and 
front line corps with supporting artillery are positioned so far 
forward now that they could launch a no-notice surprise attack. Other 
notable activities include development of surface-to-surface missiles 
(SSM), construction of underground facilities and wartime relocation 
sites for industrial facilities, improvements in operations and 
communications security, the build up of the air-cushion landing craft 
fleet, submarine fleet enhancements, the forward deployment of fighter 
aircraft to airfields within 55 nautical miles of the DMZ, air defense 
improvements. ------.
    In the event of renewed fighting on the Korean Peninsula, we expect 
North Korea to employ chemical and possibly biological weapons. The 
North has an active chemical weapons program, which has produced 
several different types of chemical agents. ------. We assess that 
North Korea could have one, possibly two, nuclear devices with a yield 
in the 5-10 kiloton range. We don't believe these devices have been 
weaponized.
    Question. What are the present capabilities of the North Koreans to 
attack and destroy U.S. and South Korean military port facilities in 
the opening days of a conflict?
    Answer. Long-term support to a ground campaign on the Korean 
Peninsula requires port facilities to stay open. We need the ports to 
manage both the incoming equipment required for strategic reinforcement 
and the thousands of tons of consumable supplies, such as food, 
ammunition, and petroleum products, required for military operations. 
An airbridge from the United States could not move the required 
personnel and materiel to sustain high intensity combat. U.S. and ROK 
port facilities on peninsula are highly susceptible to disruption by a 
chemical or biological attack because of our need to protect the 
civilian stevedore force and to prevent incoming materiel from being 
contaminated during transshipment. ------.
    Question. Have there been any recent incidents along the DMZ?
    Answer. The number of incidents within the DMZ has decreased over 
the past several years. The rate of major incidents--intrusions or 
weapons firing across the Military Demarcation Line (MDL)--peaked 
during the late 1960's when there were numerous clashes in and near the 
DMZ. There have been relatively few major incidents in the 1990's. The 
most significant incident within the DMZ in 1996 occurred in April when 
North Korea conducted reinforcement drills in the Joint Security Area 
at Panmunjom. These drills involved the introduction of approximately 
200 excess soldiers into the area for several hours on two consecutive 
evenings. Another major incident on the peninsula occurred in September 
1996 approximately 100 kilometers south of the DMZ when 26 North Korean 
soldiers infiltrated ROK territory after their submarine ran aground in 
the coastal waters near Kangnung, South Korea. The ensuing manhunt 
conducted by South Korean forces resulted in the death of 24 North 
Korean infiltrators, eight South Korean soldiers and five South Korean 
civilians. Other major violations of the Armistice Agreement within the 
DMZ in 1996 involved soldiers intentionally crossing the MDL, 
introducing illegal weapons into the DMZ and firing weapons across the 
MDL. There were no casualties associated with these violations. The 
North Korean military in Panmunjom rejected all United Nations Command 
protests regarding these violations of the Armistice Agreement.
    Question. It is reported that the United States has a comprehensive 
plan to airlift its citizens out of Korea in the event of a conflict. 
Japan, however, with the second largest expatriate community in South 
Korea, has no such plan. It is also reported that the US has lobbied 
the Japanese government in vain to provide airborne assistance in the 
event an evacuation becomes necessary. Are these reports accurate? If 
so, does this situation concern you?
    Answer. The Office of the Secretary of Defense, in conjunction with 
HQ Pacific Command and HQ US Forces Korea, has initiated a Trilateral 
dialogue with the ROK and Japanese governments to cover a range of 
security issues in Northeast Asia. Noncombatant evacuations operations 
(NEO) is one of the topics being addressed, and it is a sensitive 
domestic political issues in Japan. We are entirely confident that in 
the event of a military crisis on the Korean Peninsula, the Japanese 
government would cooperate fully in evacuating both its substantial 
number of Japanese citizens as well as US citizens. Additionally, the 
US has refurbished aggressive programs using its lift assets to support 
a NEO contingency. For example, we will use all available airlift and 
sealift capabilities to evacuate South Korea.
    ------. And, likewise, the availability of cleared Sea-Lanes-of-
Communications and ferries will supplement our ability to conduct NEO. 
If the American Embassy through the Department of State ------ in the 
early stages of a crisis situation, these aircraft will greatly assist 
in maximizing the departure of noncombatants. I fully support the 
efforts of the American Embassy, in this endeavor. In all of our 
exercises, we involve the American Embassy, USTRANSCOM, US Forces 
Japan, and the Government of Korea in the coordination and planning to 
execute Noncombatant Evacuation Operations.

                              South Korea

    Question. What is your assessment of the present capabilities of 
the Republic of Korea's (ROK) armed forces? What is the overall 
readiness of the ROK forces?
    Answer. The ROK military is best characterized as a capable, well-
equipped, and well-trained force, but one that is out-gunned by a 
numerically superior foe. While readiness levels are high, in order to 
improve their condition, the ROK JCS has taken positive steps to 
resolve 22 specific military requirements identified at the most recent 
Military Committee Meeting. Seventeen of the twenty-two have solutions 
currently being implemented or programmed for implementation in the ROK 
1998-2002 Joint Strategic Objective Plan. These initiatives will 
enhance ROK capabilities and readiness into the foreseeable future. As 
we think of our alliance, the ROK and US bring different capabilities 
to the table; both are needed.
    Question. In what mission do you believe the ROK military requires 
the greatest modernization?
    Answer. Counter Artillery and Rocket fire and Theater Missile 
Defense and requirements that the ROK can improve considering the 
massive indirect Rocket and Artillery threat from North Korea. However, 
this is not to imply that the Republic of Korea is not addressing this 
shortfall. South Korea spent $15.9 billion on its armed services, 
approximately 3.1 percent of its GDP in 1996. Of this amount, the ROK 
purchased five Q-36 and two Q-37 Counter Fire Radars from the United 
States to supplement those systems employed by United States Forces 
Korea. To improve the combined Theater Missile Defense, South Korea is 
now considering purchasing Patriot.
    Question. Do you believe the South Korean government is providing 
adequate resources to maintain the present effectiveness and ensure the 
future modernization of their military?
    Answer. The Republic of Korea is improving those areas that we 
think should be improved. They are providing adequate resources towards 
its defense requirements. In 1996, the ROK defense was approximately 
3.1 percent of its GDP, which compares very favorably with the United 
States, In addition, the Republic of Korea is increasing the amount 
spent toward the common defense of Korea by raising its defense budget 
in 1997 by 12.8 percent.
    Question. Are you experiencing and difficulties with communications 
interoperability between ROK and US forces? Do US and ROK forces 
acquire the same types of tactical communications equipment? If not, 
why not?
    Answer. Communications interoperability between US and ROK forces 
is an issue with difficult problems to overcome. We have a command and 
control system called TACCIMS which is used by both the ROK and US; 
however, it is designed mainly for corps and above. The fielding of new 
US communications equipment has improved the capability of US forces 
but resulted in an ``interoperability gap'' with ROK forces. While the 
ROK is developing their own systems, lack of coordination with US over 
common standards in the design phase continues to hinder 
interoperability.
    There are ROK/US forums in place to provide coordination and we are 
addressing to the ROK the importance of interoperability with their 
main ally. These forums have improved some areas. For example, the US 
is preparing to release the standard for TADIL-J to the ROK.
    ROK/US communications interoperability remains the subject to 
continued attention yet progress has been slow. For each system 
affected we must emphasize to the ROK on the need to invest funds to 
assure interoperability. In the endeavor to field new systems on 
limited budgets this is difficult.
    In regards to the US and ROK acquiring the same types of tactical 
communications equipment, the ROK Government has made a conscious 
effort to reduce dependence of US or other foreign communications 
equipment. Communications is an area is which the ROK is able to 
produce indigenous products with state-of-the-art technology. The ROK 
wishes to utilize this capability as much as possible. This has 
resulted in the fielding of ROK equipment which is not fully 
interoperable with US equipment. On the other hand, the US must 
consider interoperability on a broader scale then the ROK. 
Interoperability with NATO and other allies dictate that we not acquire 
equipment that is only compatible with ROK equipment.
    We will continue to emphasize to the ROK the importance of 
interoperability with the US in its development and acquisition of new 
systems.
    Question. How confident are you in the ability of US and ROK 
intelligence and warning systems to detect a surprise attack from the 
north?
    Answer. ------. CFC and the national intelligence community monitor 
around the clock the hundreds of bases, railheads, and assembly areas 
associated with preparations for war. While fully realizing the North 
would go to extreme measures to deny us warning, our extensive 
collection effort against the North is likely to provide unambiguous 
warning of attack at least 12 to 24 hours in advance of the execution 
of even the most short-fuzed North Korean attack scenario.

                                 China

    Question. Admiral Prueher, can you please discuss the present 
capabilities of China's armed forced today? In your answer please 
address the present arms modernization program both conventional and 
nuclear, and the extent of Russian arms sales to the Chinese.
    Answer. The People's Republic or China (PRC) is capable of 
defending the mainland against conventional attack and maintaining 
internal stability. It possesses a limited ability to attack beyond its 
borders, due in large part to obsolescent weapons system and an 
inadequate logistics infrastructure.
    We share regional leaders' concern about China's military 
modernization and lack of transparency on security objectives. China's 
modernization program for the last decade has stressed the acquisition 
and development of modern weapons systems. It has also focused on 
command and control of forces. China has purchased the Russian Su-27/
FLANKER, but the Chinese version lacks aerial refueling capability. 
This limits its range. China also acquired the Russian KILO-class 
diesel submarine, with two already delivered and an additional two 
probably arriving this year or next. China purchased the SA-10/GRUMBLE 
air defense missile and deployed it around Beijing. ------.
    The Chinese are shifting from a large standing army to one 
attempting to incorporate advanced technology in a smaller force. While 
their intent to modernize is manifest, they will not have a significant 
force projection capability for at least a decade. ------.
    Question. What is the current status of the Chinese arms export 
program? Who are they exporting weapons to? What types of weapons are 
they exporting? Specifically, are they exporting ballistic missiles or 
weapons of mass destruction?
    Answer. From 1991 to 1995, China was the world's sixth leading arms 
supplier, providing low technology systems valued at $2.7 billion to 
Third World counties in Asia, the Middle East, and Africa. Chinese arms 
sales have been dropping since the late 1980s; this trend is expected 
to continue. China's largest regional market is in neighboring Asian 
states, primarily Pakistan, Burma, Thailand, Bangladesh, and Sri Lanka. 
Although Middle East sales are declining, Iran is China's largest 
customer. The African market is small. China continues to seek inroads 
into the Latin American arms market with very limited success.
    China's most significant arms exports include: ------. China 
provided Pakistan with nuclear and missile technologies. Beijing 
remains Iran's most important supplier of nuclear technologies, 
although so far it has refrained from selling technologies for uranium 
enrichment, spent fuel reprocessing, or plutonium production. China 
also is the most important supplier of equipment, materials, and 
technology for Iran's chemical warfare and missile programs.
    Question. Do you foresee any changes in China's top military 
leadership in the post-Deng era?
    Answer. We watch the structure of the People's Liberation Army 
carefully. The only top military leadership changes we anticipate soon 
are changes with in China's Central Military Commission. We expect 
those changes to occur during the 15th Party Congress scheduled for 
October 1997. We expect new appointments will come from among those 
military leaders who are familiar to us.
    Question. Have you observed anything out of the ordinary in recent 
training exercises conducted by the Chinese armed forces?
    Answer. With the exception of a naval exercise in October 1996, The 
People's Republic of China (PRC) has not conducted any extraordinary 
military exercises since March 1996, when the People's Liberation Army 
(PLA), Navy, and Air Force conducted a major exercise in the Taiwan 
Strait. ------. Training for the rest of 1996 and the beginning of 1997 
focused on antisurface and antisubmarine warfare, air defense, 
communications, limited combat maneuvers, mobilization, and amphibious 
operations. We believe this training constituted building blocks for 
force integration and joint operations.
    Recent Chinese military exercises have not compared in scope or 
size to the March and October 1996 exercises. We expect the norm of 
small, relatively uncomplicated exercises will continue through 1997, 
as Beijing focuses on the smooth reversion of Hong Kong to Chinese 
control and senior leadership visits to other Asian countries and to 
the United States.

                 Fiscal Year 1997 Supplemental Funding

    Question. As in the past two fiscal years, the Committee is being 
advised that if the Emergency Supplemental Appropriations Bill is not 
enacted before the end of this month, third and fourth quarter OPTEMPO 
funding and training opportunities will be lost.
    Do you anticipate any other readiness problems during the course of 
Fiscal Year 1997?
    Answer. Yes. Without prompt approval of supplemental funding, many 
commanders will be forced to make tough decisions reducing training and 
maintenance. Timely approval of supplemental funds for unscheduled 
contingencies will help prevent these shortfalls.

                            Joint Operations

    Question. The principal objective of the Goldwater-Nichols 
Department of Defense Reorganization Act was to address the persistent 
problems of interservice interoperability, unclear command 
relationships and competing doctrine that had hampered joint service 
contingency operations in the past. The intent being to make all 
services work together as a joint team.
    What progress do you believe has been made in your command and DoD 
as a whole in implementing the changes mandated by the Goldwater-
Nichols Act?
    Answer. The 1986 Goldwater-Nichols Act focused attention on joint 
manning, education, and operations. It took several years to develop 
joint doctrine and officers with joint warfighting skills. We have 
achieved this first level of ``jointness.'' We now have the doctrine 
and the necessary personnel to effectively conduct joint operations. 
Within the last two years in this theater we have made great strides in 
extending joint operations to service components. Our exercise program 
has helped apply joint doctrine to operational issues. For example, 
during the recent TANDEM THRUST exercise in Australia the commander of 
7th Fleet was the Joint Task Force commander. He was responsible for 
integrating amphibious landings by Marine forces, parachute landings by 
Army forces, Air Force bomber operations, as well as function in a 
mult-national environment. Because of training exercises such as TANDEM 
THRUST and the rest of the U.S. Pacific Command exercise program, our 
forces are much better able to operate in a joint environment.
    Question. What still needs to be accomplished and how do the 
individual Services become more efficient at fighting as a competent 
joint force in future contingency operations?
    Answer. We need to continue to exercise and strengthen joint 
integration among forces. However, most operations we conduct in this 
theater also involve other government agencies. The next level of focus 
for joint operations is inter-agency. We need to develop programs and 
policies which allow us to operate more effectively within the inter-
agency process. Recent training experiences in Humanitarian Assistance 
(TEMPO BRAVE) and Consequence Management Operations (ELLIPSE CHARLIE) 
highlight this need. We have begun to incorporate the inter-agency 
process into our training programs and expect to see near-term 
improvements.
    Beyond inter-agency cooperation, the next level of joint operations 
is multi-national. Cooperative engagement in peacetime promotes multi-
national cooperation in crisis. Continued funding of cooperative 
engagement programs is required to sustain multi-national ties.
    Component forces bring Service competencies to the joint fight. The 
Joint Force Commander is best served when provided trained and ready 
forces able to accomplish tasks which support the joint operation. 
Services need to focus on core competencies while incorporating 
interoperable doctrine, logistics, and communications.
    Question. Do you see any of the command relationships in USPACOM as 
redundant or unwieldy?
    Answer. Command Relationships in the U.S. Pacific Command are 
appropriate for the security structure within the theater. The mix of 
components and subunified commands is effective and supports efficient 
execution of our regional strategy. Subunified commands in Japan, 
Korea, and Alaska fulfill essential roles and help to overcome the 
tyranny of distance in the Pacific. The unique arrangements in Korea, 
while complex, are both proven and well understood.
    For contingencies outside Korea, Pacific Command implements command 
and control with Joint Task Force commanders reporting directly to the 
Commander-in-Chief of Pacific Command.
    Question. Do you believe major procurement decisions are made by 
the services today on the basis of what a program contributes to the 
nation's total defense capability as opposed to the individual 
service's?
    Answer. Yes. The Joint Requirement Oversight Council, in 
consultation with the Commanders-in-Chief, ensures military 
procurements are evaluated on the basis of the nation's defense and 
fulfill valid military necessities.

                  Force Levels in the Pacific Theater

    Question. About 100,000 United States military members are 
currently stationed in the Asia-Pacific region. Admiral Prueher, you 
have recently been quoted in reference to the Quadrennial Defense 
Review (QDR) as saying that ``the fact that we are reviewing our force 
structure and posture does not mean that troops will be trimmed in 
Asia.'' In addition, several of your component commanders have 
expressed the opinion that they expect no significant changes in force 
structure or troop numbers (as a result of the QDR).
    Do you believe that these thoughts are consistent with Secretary 
Cohen's statement that ``everything is on the table'' for the QDR?
    Answer. Yes. My thoughts are consistent with Secretary Cohen's 
statement. While our entire force structure and posture are ``on the 
table'' in the QDR, the national interests which call for forward 
deployed forces in Asia are compelling. The administration has recently 
reiterated and committed to the need for 100,000 in Asia, and I fully 
support this position. For the foreseeable future, the capabilities 
represented by 100,000 forward deployed personnel are about right to 
shape the security environment in the Asia-Pacific region, respond to 
crisis, and prepare for the future.
    Question. Does USPACOM intend to make any proposals in terms of 
force restructuring for the QDR?
    Answer. We do not intend to make any proposal for force 
restructuring of USPACOM forces for the QDR. We believe the current 
balance of forward deployed, forward based, and continental U.S. based 
forces is about right in quality and kind.
    For the foreseeable future, military requirements justify the 
continued forward deployment of the capabilities of about 100,000 
personnel represent in the III Marine Expeditionary Force, Fifth and 
Seventh Air Forces, 7th Fleet, and Eighth U.S. Army. We are working 
closely with the Joint Staff and the Office of the Secretary of Defense 
on the QDR.
    Question. Do you believe that the present force level of 100,000 
forward-deployed troops in USPACOM's area of responsibility is driven 
more by operational requirements or by the need for a politically 
significant level of troops in the theater?
    Answer. The two are clearly linked--the political significance of 
the force stems largely from its operational effectiveness. The United 
States military forward-deployed force level of approximately 100,000 
in the Asia-Pacific region is driven by operational requirements for 
capabilities. It is an essential element of regional security and 
America's global military posture. Forward-deployed forces in the 
Pacific ensure a rapid and flexible worldwide crisis response and 
warfighting capability; discourage the emergence of a regional hegemon; 
enhance our ability to influence a wide spectrum of important issues; 
overcome the tyranny of distance and demonstrate to our friends, 
allies, and potential enemies alike the United States' interest in the 
security of the entire region.
    While the number 100,000 represents a significant regional metric 
of U.S. commitment, we adjust the force based upon changes in 
requirements and capabilities. After the Cold War, American military 
forces forward deployed in Asia were adjusted. We reduced our forces in 
the region from approximately 135,000 in 1990 to approximately 100,000 
in 1994.
    For the foreseeable future, military requirements justify the 
continued forward deployment of the capabilities approximately 100,000 
personnel represent.

                            OPTEMPO/Training

    Question. Please list for the Committee the major deployments 
undertaken by USPACOM in the past fiscal year.
    Answer. We have executed a significant number of major deployments 
the past year, encompassing exercises, operational deployments, and 
operational missions. Last year we conducted 18 Pacific Command 
sponsored exercises throughout the region, involving over 86,000 
personnel. We conducted 22 operational deployments, including: 3 
Carrier Battle Groups and 3 Amphibious Ready Groups deployed to the 
Arabian Gulf; 2 Carrier Battle Groups deployed to the South China Sea 
in response to China/Taiwan tensions; over 8,000 U.S. Army soldiers in 
10 separate operational deployments; and 650 U.S. Air Force personnel 
to Southwest Asia in support of Central Command operations. We also 
deployed forces to support 9 operational missions, including over 2000 
personnel from all services to support Operation Pacific Haven, the 
large scale evacuation of Kurdish refugees to Guam, and over 200 U.S. 
Army personnel to execute Operation Marathon Pacific, returning Chinese 
migrants to China via Wake Island.
    Question. Is the operating tempo of any units under your command 
significantly higher than any other? If so, which units?
    Answer. (a) Yes. We extensively employ many of the units identified 
by the Joint Staff as ``Low Density High Demand'' (LD/HD). Many other 
units approach, and in rare cases exceed, their service OPTEMPO 
guidelines.
    (b) The LD/HD units most in demand in the Pacific Command are the 
EA-6B Prowler, U-2, P-3 Reef Point, and Civil Affairs detachments.
    Besides LD/HD units, the following units experienced the highest 
OPTEMPO within their components:
    Pacific Fleet: 5 units exceeded the Chief of Naval Operations' 
PERSTEMPO guidelines last year:
    --USS Bunker Hill, USS Thach, & USS Rodney M Davis, all homeported 
at Yokosuka, Japan.
    --SH-60F Squadrons 4 & 8, which deploy with Carrier Battle Groups.
    Pacific Air Forces (PACAF): PACAF strives to limit time away to 120 
days per year. Support to CENTCOM has driven PACAF to exceed 120 days 
for some units:
    --The 13th Fighter Squadron spent an average of 116.7 days away 
from Misawa, Japan last year. Half the squadron spent 180 days 
deployed.
    --67th FS personnel were gone 142 days away from Kadena, Japan.
    --Co-Pilots in the 909th Air Refuel Squadron averaged 131 days away 
from Kadena.
    US Army Pacific: Engineer and Military Intelligence specialists 
(such as translators) are the busiest soldiers, spending an average of 
6 months annually away from home, either deployed or in the field. 
Combat arms soldiers are gone only slightly less--usually 5 months 
annually.
    Marine Forces Pacific: Certain aviation units are the most 
deployed, annually spending an average of 8 to 9 months away from home. 
F-18 Hornet Squadrons and CH-46 helicopters are in especially high 
demand. Marine ground combat units spend at least six months annually 
deployed or in the field.
    Question. Do you believe that the troops under your command today 
are receiving adequate training? If not, why not?
    Answer. Yes. The forces within Pacific Command receive adequate 
training. We have made joint operations the norm through a series of 
exercises (TEMPEST EXPRESS, TEMPI BRAVE, TANDEM THRUST, and COBRA 
GOLD). We have used a ``crawl--walk--run'' training model to develop a 
joint team.
    We begin by using academic instructions and unit level training to 
establish the foundation for joint operations. My staff sends out 
mobile training teams to component headquarters to provide joint 
training and expertise during this initial phase to assist the 
components.
    We then move to the next stage, the TEMPEST EXPRESS exercise, which 
uses table-top simulations to train Joint Task Forces. We stop and 
regroup as often as necessary during the training to ensure we reach 
our training objectives. This Fiscal Year we will conduct TEMPEST 
EXPRESS exercises with five joint Task Forces (7th Fleet, I MEF, I 
Corps, ALCOM, and III MEF). We will train 3rd Fleet during the first 
quarter of Fiscal Year 1998.
    Finally, we exercise Joint Task Forces and the Pacific Command 
Headquarters staff during demanding exercises such as TEMPO BRAVE (7th 
Fleet last summer; III MEF this fall), TANDEM THRUST (7th Fleet), and 
COBRA GOLD (I Corps). In these exercises we include the entire joint 
team and carefully analyze our performance in after action reviews to 
ensure we capture all lessons learned. We use this feedback to design 
future training and to correct doctrinal or organizational 
deficiencies.
    The keys to successful joint training are well trained and equipped 
forces. All Pacific Command components have aggressive training 
programs which focus on developing and sustaining the unique skills of 
their force. Our success in integrating these forces into successful 
joint task forces is indicative of the high level of training of our 
component forces.
    Question. Do you feel that Military Operations Other than War 
(MOOTW) by U.S. forces has affected the readiness or combat skills of 
U.S. forces?
    Answer. Yes. However, the effects are uneven. Many of the command 
and control processes and systems used by U.S. Forces in MOOTW are the 
same they would use in combat. Military Operations Other than War 
usually involve a combination of air, land, sea, space, and special 
operations forces as well as the efforts of governmental agencies and 
non-governmental organization in a complementary fashion. Plans for 
MOOTW are prepared and executed in a similar manner as plans for war. 
The mission analysis and command estimate processes are as critical in 
planning for MOOTW as they are in planning for war. The basic planning 
process is unchanged, but the planning considerations are different. 
Likewise, the logistical systems and command and control systems are 
similar. Force projection, sustainment, and the command and control of 
these forces is accomplished using the same systems for both MOOTW and 
war. Therefore, at the joint force and service component planning 
levels, executing MOOTW operations does not significantly degrade 
readiness or combat skills.
    Individual and collective skills are degraded to some extent among 
some tactical units. Training time and money are limiting factors for 
all units. If units are diverted from training on combat skills to 
support MOOTW operations there is a degradation of combat skills. We 
rely on subordinate commanders to assess the readiness of those combat 
skills and ensure that the level of training for combat tasks remains 
adequate to support combat operations. Units within the Pacific Command 
are ready to execute their mission.
    Question. What are the major joint training exercises that will be 
undertaken by the Pacific Command in fiscal year 1997 and which ones 
are budgeted for 1998? Are the funds budgeted for the service's Fiscal 
Year 1998 request sufficient for your projected training needs? Has the 
U.S. participation in Operations Other than War altered the types of 
exercises you conduct?
    Answer. There are 24 joint training exercises scheduled for Fiscal 
Year 1997. The major exercises are: RECEPTION STAGING ONWARD MOVEMENT 
AND INTEGRATION, ULCHI FOCUS LENS, FOAL EAGLE, FREEDOM BANNER, ELLIPSE 
CHARLIE, TEMPEST EXPRESS, TANDEM THRUST, COBRA GOLD, KEEN SWORD, and 
BALIKATAN. Fiscal Year 1998 has a total of 28 joint training exercises 
scheduled. All are provided for within the budget.
    Yes. Service budgets are sufficient for Pacific Command to execute 
the Fiscal Year 1998 training and exercise programs.
    Yes. U.S. participation in Military Operations Other Than War has 
increased the training emphasis upon these types of operations during 
our Joint Task Force training exercises.
    Question. What new systems and methods (i.e. simulation etc.) are 
employed by USPACOM to make joint training more effective? Are the 
component services under your command adopting these new approaches?
    Answer. My guidance is, where sensible, to use simulations instead 
of moving people and equipment. We use a robust simulation program at 
all levels to develop training programs which are more efficient. We 
also leverage information technology so we are able to reach back into 
continental U.S. based resources. We strive to be efficient custodians 
of our training resources.
    Simulations of operations on the Korean peninsula are good examples 
of this effort. We blend service component simulations to support joint 
exercises using an Aggregate Level Simulation Protocol to employ 
component simulations in concert. We tie together the Army's Corps 
Battle Simulation, the Navy's Research Evaluation and System Analysis, 
the Air Force's Air Warfare Simulation, and the Marine Corps' Marine-
Air Ground Task Force Tactical Warfare Simulation.
    We are also incorporating emerging Joint Simulations (JSIMS) 
systems into our training and operations. Initial Operational 
Capability for JSIMS is scheduled for Fiscal Year 1999, with the focus 
on supporting Joint Task Force and unified combatant commands. JSIMS 
will integrate existing simulations into a common framework that 
includes live, virtual, and constructive modeling and simulation. JSIMS 
will also provide a training environment at the operational level of 
war that will accommodate requirements at the strategic and tactical 
levels including space, transportation, and intelligence. This effort 
will reduce overhead and operating costs for training and increase the 
overall utility of simulations.
    We use our information systems to ``reach back'' to assets in the 
continental U.S. We have leveraged facilitates such as Atlantic 
Command's Joint Training and Simulations Facility into exercises being 
conducted in South East Asia. We have also electronically connected 
Joint Exercise Control Groups from places such as the Army War College 
in Carlisle, Pennsylvania into exercises being conducted off Indonesia 
(TEMPO BRAVE 96). This capability is also used by our components. As 
Global Command and Control Systems mature our components' ability to 
interact with other headquarters will also continue to improve.

                   Troop Quality, Morale, and Medical

    Question. In visiting various statewide bases, members of the 
Committee have been hearing complaints about medical care and dental 
plans.
    How satisfied are troops in USPACOM with the medical care, and 
dental care for themselves and their dependents? What are the major 
shortcomings of medical care in your command? How many U.S. military 
operated hospitals are there in the Pacific Command?
    Answer. According to a Department of Defense survey, most personnel 
are satisfied with military health care in the Pacific. The Pacific 
region is in transition to a managed care program under TRICARE. 
TRICARE Pacific is being implemented in Alaska, Hawaii, and throughout 
the Western Pacific, including all remote sites. Once implementation is 
completed, TRICARE should maximize the operational readiness of our 
active duty military while continuing to provide a high quality of care 
for all beneficiaries.
    The influx of additional dental officers and support staff has 
improved accessibility in general dentistry and increased specialty 
care. Overall satisfaction with dental care is good. However, full 
service can not be provided to family members in remote locations.
    Some individuals perceive TRICARE will reduce benefits and 
flexibility. As implementation proceeds, we will monitor patient 
satisfaction with quality of care, access, and cost to the individual, 
and ask for your continued support to ensure that medical benefits 
remain intact.
    Geography, culture, and politics are obstacles to accessible, 
affordable, quality health care for many active duty personnel and 
their family members assigned to remote locations. This compels some 
service-members to pay significant out-of-pocket, up-front expenses 
when obtaining care on local economies. We could better serve these 
beneficiaries with local authority to contract for, and pay directly 
some costs, instead of reimbursement to the member. Family members 
stationed in locations where there are no U.S. dental facilities also 
need additional assistance in obtaining and paying for quality dental 
care.
    There are ten hospitals and fourteen branch clinics. The hospitals 
are in the following areas: Alaska, Hawaii, Okinawa, Guam, Japan, and 
Korea.

                Strategic Lift/Pre-Positioned Equipment

    Question. In the event of hostilities on the Korean peninsula, do 
you believe that adequate air and sealift capacity exists to ensure the 
rapid reinforcement of troops in theater? Do you have any deficiencies 
in terms of cargo handling equipment in the military port facilities on 
the peninsula or else where in theater?
    Answer. To be completely candid, I consider the available air and 
sealift capacity only adequate. To ensure rapid reinforcement of forces 
in Korea--or anywhere else, DoD must procure enough Large Medium-Speed 
Roll-On/Roll-Off Ships (LMSRs) to overcome the shortfall in sealift for 
vehicles. The most recent, fully integrated Time-Phased Force 
Deployment Data (TPFDD) for ------.
    As for cargo handling equipment, in Korea we are experiencing a 
Rough Terrain Container Handler (RTCH) shortfall. This limits our 
capability to download or transfer containers in the theater. The 
magnitude of the deficiency is not yet quantified; however, the 
container handling problem at the sea ports in Korea is currently being 
studied by FKJ4. The aerial port material handling equipment in Korea 
is being analyzed by Pacific Air Forces (PACAF).

                        Quality of Life--Housing

    Question. The Committee has added substantial amounts over the 
budget in the past two years to improve the quality of life for troops. 
In part, this funding has been added to improve the condition of 
barracks and related facilities. The Congress added $700 million in 
fiscal year 1996 and $600 million in FY 1997 for this purpose. The 
barracks housing unaccompanied troops in Korea have had perennial 
maintenance problems which have been addressed by the Congress on 
several occasions. Describe for the Committee the condition of the 
barracks and related housing and dining facilities in your command.
    Answer. Our largest housing requirement is for unaccompanied 
soldiers. Problems throughout Korea include shortages and over 
crowding; substandard buildings, such as Quonset huts and H-relocatable 
buildings; deteriorated older barracks with gang latrines; and 
substandard/non-existent officer and senior enlisted UPH (unaccompanied 
personnel housing. Survey results from a recent sexual harassment team 
visit pointed out that crowded housing conditions are the top problem 
and create an environment conducive to misconduct. We are addressing 
the barracks problems with an integrated program consisting of U.S. 
funded military construction (MILCON) and host nation funded 
construction (HNFC) to alleviate shortage and substandard conditions. 
Operations and maintenance funds are used to renovate existing 
buildings to current standards. Some service members must reside off 
the installations because of shortages. The Army alone spends 
approximately $18 million (M) per year to house over 800 unaccompanied 
officer and senior enlisted personnel off-post in Korea. Also, many 
must live on-post in substandard conditions due to military necessity. 
We are investigating alternate construction methods, such as pre-
fabricated housing, to develop an affordable solution. However, it is 
unlikely we will be able to correct this problem with operations and 
maintenance funding. Major construction funding is needed. Almost 70 
percent of our 50 dining facilities are over 20 years old. Only ten of 
these facilities have been renovated in the past nine years. We are 
using an approach similar to what we are using to solve the housing 
problem. The worst facilities are being replaced through U.S. funded 
MILCON and HNFC as funding permits.
    Question. Have any of the additional funds provided in the fiscal 
year 1997 Appropriations Act been directed to improve the facilities 
housing your troops?
    Answer. $10 million of the new Quality of Life Enhancements, 
Defense appropriation has been earmarked to improve our barracks in 
Korea, $8 million for the Army and $2 million for the Air Force.
    Question. What is the backlog of real property maintenance and 
repair work in your AOR? Is this increasing or decreasing?
    Answer. Our infrastructure, that is utility systems, are most 
effected by limited real property maintenance (RPM) funding. These 
systems have deteriorated to where they form the largest component of 
our backlog of maintenance and repair work. A recent Architect-Engineer 
study identified $659 million of requirements to repair or upgrade 
infrastructure on Eighth U.S. Army installations. We estimate our total 
infrastructure needs in U.S. Forces Korea to be $750 million. Our most 
serious problems resulted from past reductions in MILCON and operations 
and maintenance funding. Our unaccompanied housing and base 
infrastructure systems have suffered the worst from this lack of 
investment. Currently, we must rely exclusively on host nation funded 
construction to complete the majority of the infrastructure work. To 
support programmed major facility construction, such as new barracks, 
Eighth Army needs an additional $10 million in MILCON annually to 
rejuvenate deteriorated utility systems. Seventh Air Force requires an 
additional $5 million annually to solve similar problems. Otherwise, 
backlogs will continue to increase and catastrophic failures of utility 
systems will occur.

                             POW/MIA Status

    Question. Admiral Prueher, please describe the current status of 
efforts to resolve POW/MIA cases in Vietnam.
    Answer. There are 2127 Americans still unaccounted-for in Southeast 
Asia. Of this total 1588 were lost in Vietnam. Joint Task Force-Full 
Accounting (JTF-FA) is scheduled to conduct five Joint Field Activities 
(JFA) in Vietnam during Fiscal Year 1997. Our JTF-FA troops are doing a 
superb job. Each JFA lasts approximately 30 days during which JTF-FA 
deploys six recovery teams, two investigation teams, and one research 
and investigation team (over 100 U.S. personnel). JTF-FA completed five 
JFAs in Fiscal Year 1996. The Vietnamese Office for Seeking Missing 
Persons continues to provide good support to our operations.
    Question. How do you rate the Vietnamese at the present time in 
terms of their willingness to cooperate on this issue?
    Answer. The Socialist Republic of Vietnam (SRV) Government 
continues to cooperate on the POW/MIA effort and understands, I 
believe, that further cooperation is required to satisfactorily resolve 
the issue. Vietnamese support to Joint Field Activities remains good. 
Trilateral operations between the Vietnamese, Cambodians, and U.S. 
began in February 1997. Initial results are promising.
    Significant progress has been made on confirming the fates of 
individuals on the last known alive list. Of the original 196 
individuals, the fate of only 48 individuals is yet to be confirmed.
    The SRV Government is also continuing efforts to locate individuals 
with valuable first-hand information relating to cases of unaccounted-
for Americans. Vietnamese witnesses provided information which resulted 
in recovery of remains in Laos. The SRVE Government also recently 
turned over more than 150 documents, and permitted U.S. teams to review 
thousands of archival items in museums and other government offices. 
These documents and items provided a significant number of 
correlations. In response to unilateral case leads we provided to 
Vietnam between January and May 1996, the Vietnamese Office for Seeking 
Missing Persons has provided written reports on 73 case investigations.
    Question. How many cases have been resolved over the past year?
    Answer. In 1996, JTF-FA teams in Vietnam recovered and repatriated 
21 sets of remains to the Central Identification Laboratory Hawaii 
(CILHI) to process for identification. The Armed Forces Identification 
Review Board (AFIRB) in 1996 approved the identification of 15 sets of 
remains previously repatriated from Vietnam. Thus far in 1997, two sets 
of remains have been repatriated from Vietnam.

    [Clerk's note.--End of questions submitted by Mr. Young.]
                                          Thursday, April 17, 1997.

 TESTIMONY OF MEMBERS OF CONGRESS AND OTHER INTERESTED INDIVIDUALS AND 
                             ORGANIZATIONS

                              ----------                              


                   HMMWV AND OTHER TACTICAL VEHICLES

                                WITNESS

HON. TIM ROEMER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF INDIANA

                              Introduction

    Mr. Young. The Committee will come to order.
    This morning we are to hear testimony from Members of 
Congress and from witnesses outside the Congress. This is the 
last scheduled hearing for fiscal year 1998, although there 
will be a number of other special hearings on some subjects 
that we have to revisit. But we have completed the rest of the 
scheduled hearings.
    We have had testimony from the new Secretary of Defense, 
the chairman of each branch of the Joint Chiefs of Staff, the 
war-fighting CINCs, and many other DOD officials, and now we 
want to hear from you today. Your input is always very, very 
helpful to the members of this Committee.
    Many of you here today have testified before. For those 
here for the first time, let me explain something about our 
process. Each of your prepared statements will appear in the 
published hearing volume, and we ask you to summarize your 
actual testimony in 5 minutes. This is consistent with how the 
Committee operates under the 5-minute rule. The members of the 
Subcommittee only have 5 minutes during the hearing process for 
their questions of witnesses.
    Unfortunately, many of our members are not here this 
morning and will not be here because the other subcommittees 
are marking up their titles of the supplemental appropriations, 
and they are trying to finalize that today. We finished our 
part of it yesterday. All of our members serve on other 
Subcommittees as well.
    Our first witness this morning is Congressman Tim Roemer of 
South Bend, Indiana. Congressman Roemer serves on the Committee 
on Education and the Workforce and the Committee on Science. He 
is the expert in the Congress on the HMMWV, the principal means 
of land transportation for our troops.
    Last year, the HMMWV was not adequately funded and we were 
able to add $66 million to the budget to provide for unfunded 
requirements. It is one of the nonsexy but essential tools for 
our troops that we put on our scroll that identifies items like 
this that stretches across the room that identify shortages of 
equipment and supplies that are necessary to make the military 
work. We appreciate your input as it comes to the essential 
subject of HMMWVs, trucks, and the ability to move from one 
place to another.
    We are happy to hear from you at this time, Congressman. 
You have the floor.

                    Statement of Congressman Roemer

    Mr. Roemer. Thank you, Mr. Chairman.
    Let me start by just asking unanimous consent that my 
entire statement be entered into the record.
    Mr. Young. Without objection, that will be done.
    Mr. Roemer. Thank you. Thank you. Thank you for your help 
in the past.
    You mentioned your help to the HMMWV program last year. I 
really appreciate that. I appreciate Mr. Bonilla's attendance 
here initially and appreciate the help the entire Subcommittee 
and Full Committee and their attention to four different 
requests that I am going to make this morning.
    One is going to be I am requesting a total appropriation of 
$156.2 million in the Army procurement funding for the HMMWV. I 
am also requesting $65 million in Marine Corps funding 
procurement funds for the HMMWV Extended Service program--ESP 
program; $40 million in Army procurement for the 2.5 ton truck 
ESP; and finally, Mr. Chairman, a fiscal year 1999 issue, it 
does not include a funding request on the Vandal program, which 
I will explain a little bit about.
    Mr. Chairman, you said it eloquently and you said it 
articulately in your opening statement. I am here for the 
heart, the soul, and the guts of the Army programs. That is the 
best built Jeep in the entire world, the 2.5 ton truck, the 
kinds of equipment that keeps our young men and women safe when 
we put them in harm's way, whether it be in the Persian Gulf or 
whether it has to be in two different instances fighting, 
whether that be in the Middle East or in the Korean Peninsula 
some day in the future.
    Let me tell you a quick story about the HMMWV. When we had 
to invade, looking for General Noriega in Panama, they dropped 
HMMWV out of the sky. One of them came out of the sky and the 
parachute half opened and landed off target, which is unusual, 
upside down in a swamp. It was a HMMWV. They turned it over, 
they started it up, and it went and helped capture Noriega.
    In Bosnia, in the peacekeeping mission just recently, an 
armored HMMWV struck an antitank mine. It is not supposed to 
protect in all instances the personnel in that kind of 
situation. The three men in that HMMWV walked away unharmed.
    This vehicle works, it is the best in the world, and we 
need them to protect our troops. It also has all kinds of 
capabilities, fire truck capabilities, Avenger capabilities, 
all kinds of things that this can do for a very versatile 
mission.
    I really implore this Committee to continue to invest in 
this Jeep.
    Secondly, on the $40 million Army procurement for 2.5 ton 
trucks, we take a 25-year-old truck and we make it brand new, 
and we make it work better than it did the first time. Often 
times these trucks, which are older than the people driving 
them, come off the assembly line, they work better with central 
inflation on the air tire system, they have a 30 percent better 
engine for fuel efficiency, they have better equipment in them. 
These things run in a great manner to protect our troops and to 
feed and clothe and do everything for our troops on the line to 
get armor to them.
    This is not, again, a section I investment, it is a much-
needed investment, quite frankly, one that sometimes the Army 
does not do a very good job in lobbying for. It doesn't make 
for the same kind of section I thing as a roll out of the F-22, 
but these 25-year-old trucks are much needed for our personnel.
    Finally, Mr. Chairman, on the Vandal program, let me just 
say that there are a couple different issues on this program 
which I hope that you and your staff will look into. The Vandal 
program tests ship defense shipments against high-speed, low 
altitude ship missiles and is made by allied signal target 
systems.
    The Navy has always expressed satisfaction with the 
performance of the U.S. contractor on the target missile and 
not made clear why they are turning their backs on a U.S.-made 
system in favor of a Russian-made MA-31.
    I would hope that the Committee, first, is willing to ask 
the Navy if they are willing to lose its only U.S. supplier of 
supersonic sea skimming missiles, and, second, is all of the 
risk associated with purchasing a Russian target fully 
understood from both the technical and commercial standpoint?
    I have four or five other questions that I hope the 
Committee looks into.
    Let me just sum up by saying, Mr. Chairman, and joined by 
Mr. Hefner, the distinguished gentleman from North Carolina, 
thank you again for your support for these much-needed, heart, 
soul and guts types of items for our Army and our young people. 
Thank you for sending your staff out to the G.M. General plant 
last year. We very much look forward to cooperating with your 
Committee and answering your questions as you look into these 
requests.
    Mr. Young. Congressman, thank you very much. We appreciate 
the sincerity of your testimony.
    I wanted to tell you that I have ridden in a lot of 
different versions of the HMMWV, and it is impressive. The 
seats are not all that comfortable. We might get a little 
softer seat.
    Mr. Roemer. For you, Mr. Chairman, we probably have got 
one. They have got the private model now that Arnold 
Schwarzenegger has a copy of, he calls it the ``Terminator.'' 
They are selling those with CD players and air conditioners. I 
am sure that has a comfortable seat in it.
    Mr. Young. I saw Arnold's. It is pretty fancy.
    One of the rides I took was on the obstacle course where 
they train the soldiers, and I think a good portion of the 
time, we were on one wheel. This thing operates in the most 
unusual types of terrain. It is unbelievable. You are exactly 
right.
    Mr. Hefner, do you have any questions?
    Mr. Hefner. Thank you, Mr. Chairman.
    I think where you use to test them is on the roads in 
Indiana. Isn't that the obstacle course?
    Mr. Roemer. Our potholes aren't that bad, Mr. Hefner.
    Mr. Hefner. Just a little aside here, when our good friend 
Silvio Conte, who has long since passed, was here, we were 
having a debate about HMMWVs a long, long time ago, and Silvio 
was one of the big supporters of the HMMWV. He said, you know, 
it is one of the greatest pieces of equipment we have ever 
produced, and he said, besides that, it is one of the greatest 
hunting vehicles in the whole world. So I guess you have to 
have your priorities.
    We appreciate your testimony and coming before the 
Committee.
    Mr. Roemer. Thank you, Mr. Hefner. It is a very versatile 
program. As I said in my statement, we are now using it not 
only to protect troops, we have an up-armored version, we have 
an Avenger version, we have a version we hope to be able to 
sell to the Immigration and Naturalization Service to help 
patrol our borders, to the U.N. to help peacekeeping missions. 
This is a great investment for the American people.
    Mr. Young. Tim, thank you very much for coming. We 
appreciate your testimony.
    [The statement of Mr. Roemer follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                          Thursday, April 17, 1997.

                        TELEMEDICINE TECHNOLOGY


                                WITNESS

HON. CHARLIE NORWOOD, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    GEORGIA

                              Introduction

    Mr. Young. Next, we are going to hear from another of our 
colleagues, Congressman Charles Norwood, from Evans, Georgia. 
He serves on the Committee on Education and the Workforce and 
also the Commerce Committee. He knows something about the 
military, having served as a captain in the Army, including a 
tour in Vietnam.
    Congressman, please proceed.

                    Statement of Congressman Norwood

    Mr. Norwood. Thank you, Mr. Chairman. Thanks for having 
this hearing and thanks for giving us this opportunity to 
testify before your Subcommittee this morning on appropriations 
for telemedicine and teledentistry in the defense appropriation 
bill for fiscal year 1998.
    Telemedicine has existed in some form for nearly 40 years. 
Initially, the expansion of telemedicine was constrained by 
cost and technology limitations. However, recent advances in 
fiber-optics, satellite communications, and other technologies 
have enabled a renewed interest in telemedicine by the private 
and public sectors.
    Telemedicine is a communication system that connects 
primary care physicians, specialists, health care providers, 
and patients. It is the use of cutting edge communication 
technology to provide increased diagnostic and consultation 
services for patients.
    Telemedicine allows health care providers to take advantage 
of the best specialists to ensure appropriateness of care for 
their patient. It enables patients without transportation to 
access to consultation services that they need to ensure that 
we give them quality care. In rural sections of the United 
States, the application of this technology provides patients 
specialty consultations at metropolitan medical centers, 
university-based clinics, and community hospitals.
    The Department of Defense continues to develop applications 
for telemedicine. Your Subcommittee has heard the Surgeons 
General of the military services testify regarding the 
effectiveness of telemedicine at battalion aid stations in 
Bosnia and on board ships.
    I might mention here that this past Christmas I was in 
Bosnia and had the great pleasure of reading x-rays back from 
Fort Gordon, Georgia, that is now an Army hospital.
    A February 1997 United States General Accounting Office 
report stated that the Department of Defense has been 
instrumental in developing telemedicine technologies to deliver 
medical care to the battlefield or in operations other than 
war. Rapid prototyping demonstrations of telemedicine have also 
supported military operations in Somalia, Macedonia, and Haiti.
    In December 1996, as I mentioned, I traveled to Bosnia and 
Hungary where I witnessed deployed telemedicine among our 
forces. It is apparent to me that telecommunication links 
between field medical sites and specialists at military 
hospitals and aboard naval vessels ensure quality medical 
support for our service members. The rigorous testing of 
telemedicine under these extreme conditions validates this 
technology for civilian application.
    In 1994, the Secretary of Army established the Center for 
Total Access at Fort Gordon, Georgia, as a major initiative of 
the Department of Defense telemedicine test-bed. Its location 
at Fort Gordon facilitates efforts between U.S. Army Signal 
Center and School and Eisenhower Army Medical Center, the 
Medical College of Georgia, and Veteran's Affairs Medical 
Center in Augusta. The Center for Total Access spent the last 2 
years developing a strategic plan for the implementation of 
telemedicine in the Army's Southeast Regional Medical Command 
and the Department of Defense TRICARE Region 3, which you are 
very familiar with.
    There are 23 military treatment facilities and 1.1 million 
beneficiaries in the region served by the Center for Total 
Access. Specific clinical needs at each site have been 
identified in which telemedicine will provide a real benefit in 
the delivery of health care in our region.
    The Center for Total Access seeks to establish a regional 
communication network interconnecting with these treatment 
facilities, VA hospitals, university-based hospitals and 
clinics, and community medical treatment facilities in rural 
areas. The appropriate equipment provided to each clinical 
service will enable the direct consultation between health care 
providers, irrespective of their distance.
    Additionally, in May of 1996, the Department of Defense 
designated Fort Gordon as a theater medical informatics program 
test-bed. The primary purpose of this tri-service test-bed is 
to improve patient visibility, minimize evacuations, respond to 
trauma, leverage specialty care, and improve command and 
control situational awareness.
    Funds appropriated for DOD telemedicine projects directly 
enhance the capabilities of battlefield medicine and civilian 
health care. It is anticipated that operating costs for the 
Center for Total Access in fiscal year 1998 will be $5.4 
million in Army operations and maintenance funding. This is 
essential to allow the center to sustain existing systems and 
continue telemedicine initiatives to its fullest extent 
possible. Out year funding requirements is approximately $1 
million per year.
    I believe this investment in military telemedicine 
infrastructure and different initiatives will enhance the 
battlefield medicine capabilities of our armed forces. 
Telemedicine technologies validated in austere military 
environment will improve health care in rural America by 
ensuring patient access to diagnosis and different medical 
services.
    Mr. Chairman, I thank you and the members of your 
Subcommittee for this opportunity, and I will be very up front 
with you. I have a very large bias concerning this subject. I 
served in a MASH unit in Vietnam where we had four physicians 
and where we had two dentists, and frequently our numbers of 
casualties were a great deal more than we could handle. We were 
young, we were enthusiastic, which meant we may have not had 
all the experience in the world. And I can envision in my mind 
so clearly how valuable this would be to our troops in time of 
war. I can envision telemedicine packs on the backs of spec 5 
medics out in the field that bring to the patient on the ground 
in a firefight the needed information to save a life.
    Besides the great value I see of it in our armed forces, we 
know firsthand in Georgia how valuable it is because our State 
I think leads the way in this area in rural areas where we are 
connected up--the Medical College of Georgia is connected up 
with health clinics in almost all of our rural areas, and I go 
by constantly these clinics and see the value of this system. 
We hope you will look favorably upon our request.
    Mr. Young. Congressman, thank you very much for your very 
specific testimony. I think the members of this Subcommittee 
have established a very good record in recognizing the needs 
that you have identified, and we have, much to the chagrin of 
some of those across the river, added considerable funds on 
occasion to upgrade our medical capabilities for those in 
uniform.
    Mr. Norwood. Yes, sir, I know that, and thank you.
    Mr. Hefner. No questions.
    Mr. Young. Thank you very much again. We appreciate your 
being here.
    [The statement of Mr. Norwood follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                          Thursday, April 17, 1997.

                   ROCHESTER INSTITUTE OF TECHNOLOGY


                               WITNESSES

HON. LOUISE SLAUGHTER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW YORK
JUDITH GUSTINIS, DIRECTOR, CENTER FOR INTEGRATED MANUFACTURING STUDIES, 
    ROCHESTER INSTITUTE OF TECHNOLOGY

                              Introduction

    Mr. Young. Now I would like to introduce Representative 
Louise Slaughter from Fairport, New York, and I understand she 
is here to introduce another of our witnesses.
    Congresswoman Slaughter is a member of the Rules Committee, 
which is an extremely important Committee here in the Congress 
which is probably an understatement of the importance of that 
committee. We are happy to have you here this morning to 
introduce your guests.

                  Statement of Congresswoman Slaughter

    Ms. Slaughter. Thank you, sir. We are a little bit inclined 
to overstate it on the Rules Committee as well.
    Mr. Chairman, thank you very much for your time. 
Congressman Hefner, it is wonderful to see you this morning. I 
thank you both for giving me the opportunity to introduce to 
the Subcommittee Judith Gustinis, who is the Director of the 
Center of Integrated Manufacturing Studies at the Rochester 
Institute of Technology.
    Mr. Chairman, I am proud to say that the Rochester 
Institute of Technology is one of the Nation's greatest 
institutions of higher learning. It is the home of the national 
and internationally recognized programs in imaging, 
photography, software engineering, microelectronics 
engineering, packaging science, printing technology, and 
environmental management, and is also the home of the National 
Technical Institute for the Defense.
    Mr. Chairman, one of its great contributions to Rochester 
and the Nation is its effort to keep U.S. manufacturing 
industries with their viability and their competitiveness. 
Rochester and the Upstate New York area have the greatest 
concentration of manufacturers in the country. Assisting the 
companies is the main mission of our Center for Integrated 
Manufacturing Studies, or CIMS, as it is called.
    The CIMS center is designed to be a much-needed bridge 
between industry and academia. It allows small, medium, and 
even large manufacturing companies to work with the RIT 
researchers and students in finding the solutions to pressing 
manufacturing problems using the latest technological 
innovations.
    Judith Gustinis is the Director of the CIMS program and has 
an impressive program in industry, government, and academia. 
She has an MBA from Fairleigh Dickinson University and worked 
as a manufacturing executive for the Westinghouse and Pitney 
Bowes Companies. Prior to taking over the leadership of the 
CIMS program, Ms. Gustinis was head of the very successful New 
York State Manufacturing Extension Partnership. Supported by a 
multidisciplinary group from the RIT's Colleges of Engineering 
and Applied Science, Technology, Business and Imaging, along 
with its major industry partners such as Kodak, Xerox and IBM, 
and many small and medium-sized manufacturers, Ms. Gustinis' 
program in support of U.S. manufacturing is unique in the 
Nation and a major innovation.
    Mr. Chairman, Ms. Gustinis is here today to ask the 
Subcommittee to support a proposal to ask the Department of 
Defense to join CIMS as a supporting partner in a new and 
exciting research program that directly supports the 
department's own manufacturing technology research mission, the 
creation of a National Center for Remanufacturing at RIT CIMS 
center.
    The Nation's manufacturers, learning the process of 
remanufacturing, is an important way for us to regain 
competitiveness by increasing profitability and reducing waste. 
RIT's remanufacturing research program is currently training 
engineers to design products and systems so that they can be 
returned to the manufacturer, easily disassembled and 
remanufactured in a like-new condition, thereby dramatically 
reducing manufacturing and product unit costs.
    Mr. Chairman, DOD's MANTECH program exists to help defense 
contractors, large and small, improve their manufacturing 
processes in order to make their products more affordable. The 
program has established a number of Centers of Excellence in 
important manufacturing technology areas. RIT believes that its 
manufacturing research program can and should become a MANTECH 
Center of Excellence. Financial support provided by MANTECH 
will allow RIT's program to expand and become a model for the 
Nation.
    I hope that after you hear from Ms. Gustinis and review the 
proposal for a National Center for Remanufacturing that the 
Subcommittee will include funding for the initiative in the 
fiscal year 1998 national security appropriations bill.
    I would like to introduce Ms. Gustinis and give you my 
thanks, Mr. Chairman.
    Mr. Young. Thank you very much. We are happy to have Ms. 
Gustinis here this morning. Your entire statement will be 
placed in the record. We would ask that you summarize it now.

                       Statement of Ms. Gustinis

    Ms. Gustinis. Thank you very much, Mr. Chairman.
    Let me begin by thanking Congresswoman Slaughter for her 
very kind introduction, and also her tireless efforts on behalf 
of the Rochester Institute of Technology and the Center for 
Integrated Manufacturing Studies. Seated with me today is Dr. 
Nabeel Nasser, an expert on remanufacturing and a professor 
from the RIT College of Engineering. He works with us in the 
CIMS center.
    Mr. Chairman, I am the director of the very unique 
integrated manufacturing center which does work with companies 
on issues of affordability and manufacturing competitiveness 
for the U.S. The Department of Defense does have a very 
comprehensive program known as MANTECH which focuses on many of 
the issues that we as well focus on within the Center for 
Integrated Manufacturing Studies.
    We work with hundreds of manufacturers to help them improve 
their processes so that they can get their time to market down 
and improve their costs. This is where the concept of 
remanufacturing really arose and why we have been so involved 
in it over the past years.
    Remanufacturing is indeed a process, which Congressman Tim 
Roemer was talking about earlier, whereby material comes back 
from the field, it is disassembled, it is cleaned, it is 
inspected, it is reworked, replaced, reassembled and tested and 
out again into service.
    The result of this process is twofold: Much is learned 
about real wear and design, the effective design, that can go 
back into the design process. Second of all, the remanufactured 
product, as Congressman Roemer mentioned, is often better than 
when new, yet the total cost can be 30 to 50 percent lower. The 
reason it is lower is that as much as 85 percent of the 
original cost is recaptured in the process, rather than with 
recycling, where often it is returned to a raw material state 
and the energy and labor are lost. In remanufacturing they are 
captured.
    Remanufacture has been around for many years and some of 
the major companies in the United States, Detroit Diesel, 
Xerox, and Kodak being others, have learned if you apply more 
scientific process to the process of remover, you cut cost, 
time, and become highly competitive.
    The Eastman Kodak Company recently announced the 
remanufacture of the 100 millionth Fun-Saver Camera, for 
example. This, in fact, was designed to be remanufactured, and 
as a result, over 1,400 pounds of material is back in the 
product as opposed to being in waste, which is what allows it 
to be so competitive.
    Affordability is the key issue and it spans military 
systems and sustainability issues as well. As a result, there 
is a current dramatic increase of remanufacturing in the 
military. The defense contractors are the largest group of 
remanufacturers in the world. A few examples, the Bradley 
fighting vehicle, approximately 1,600 existing A-2s will be 
remanded to A-3s. In the Army, the medium tactical vehicle, 
this 5-ton truck, 8,000 of those are going to be 
remanufactured. In the Marine Corps, the AV-8B Harrier is in 
the process of remanufacture. In the Navy, the HH-60H and the 
SH-60CV helicopters are in a continuous process of 
remanufacturing.
    Our research indicates that there is no major mandate by 
the Congress or within the MANTECH program to take a scientific 
research look at this process of remanufacturing. Yet more 
scientific and technical approaches to this area will produce 
improvements in quality, in availability, and, most of all, 
affordability of weapons and other military systems.
    Mr. Chairman, we at the Rochester Institute of Technology 
at the Center for Integrated Manufacturing Studies would like 
to propose consideration of our center as a MANTECH Center of 
Excellence to focus on research in the area of remanufacture. 
At this center, we will execute a 5-year partnership with the 
Department of Defense and with defense contractors and industry 
that we work with today to provide scientific and technical 
leadership in this area. We will deliver research, training, 
tools, technical project work, that will advance design and 
remanufacture and affordability for defense-related 
requirements.
    For this program, we are requesting $4 million for fiscal 
year 1998, and this would cover start-up and first year program 
costs. Thank you for considering our request, Mr. Chairman. Dr. 
Nasser and I would be happy to answer any questions.
    Mr. Young. I thank you very much for your excellent 
testimony.
    As you know, this Committee has been very supportive of the 
remanufacturing and MANTECH, and we appreciate your being here 
today.
    Louise, thank you for bringing her.
    Any questions?
    Mr. Hefner. Just one question. Is there anyone else that is 
in this process? Are you standing alone? I know not in 
remanufacturing, but in what you are asking for here?
    Ms. Gustinis. To the best of our knowledge, there are some 
institutes of higher education looking at policy issues in 
remanufacturing, and to some extent at one piece of the 
remanufacturing process, known as disassembly. But no program 
of the comprehensive nature that we are aware of that we have 
at RIT.
    Mr. Hefner. You are kind of pioneering this?
    Ms. Gustinis. Yes, we are, sir.
    Mr. Young. Thank you again. We appreciate your being here 
and appreciate your testimony.
    Ms. Slaughter. Thank you very much.
    [The statement of Ms. Slaughter follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                          Thursday, April 17, 1997.

                       FORT MONMOUTH, NEW JERSEY


                                WITNESS

HON. MICHAEL PAPPAS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    JERSEY

                              Introduction

    Mr. Young. Next we will hear from Congressman Michael 
Pappas, from Rocky Hill, New Jersey. Congressman Pappas serves 
on the Government Reform and Oversight Committee, the Small 
Business Committee, and the National Security Committee.
    Congressman Pappas, welcome. We will be happy to hear from 
you. Your entire statement will be placed in the record, and 
please feel free to summarize it.

                    Statement of Congressman Pappas

    Mr. Pappas. Thank you very much, Mr. Chairman, members of 
the Committee. Congressman Pallone and I had planned to be here 
together and to jointly make several requests, and I expect 
that he should be here shortly. But my schedule precludes me 
from waiting any longer from this, so I appreciate you taking 
me out of order.
    I am a freshman and fortunate to serve as a member of the 
National Security Committee. Several weeks ago we had jointly 
attended a meeting of the Military Construction Subcommittee, 
and Mr. Hefner was there, so he probably is going to hear from 
me a second time. But two facilities that are mostly in my 
district, but the employees and the businesses associated with 
these two facilities, they being Fort Monmouth and Earle Naval 
Weapons Station, straddle our districts, and many of the people 
concerned with the future of those facilities are constituents 
of mine and Mr. Pallone's.
    Three of the four things I am going to speak about deal 
with Fort Monmouth, and one deals with Earle.
    Fort Monmouth is the main base of CECOM, and I am sure you 
are somewhat familiar with that. There is a request in the 
order of $27 million for infrastructure improvements for that. 
We believe that it is important that that get very serious 
consideration, because more and more--as communications become 
more and more important to not just our society, but in 
particular our national defense systems, having facilities such 
as that that have the tools that they need, I think is 
critically important.
    There is also a $300,000 request for walkway improvements, 
physical improvements, to connect some of the buildings that 
are very, very close. Several of these buildings have already 
been connected, and this would, we believe, assist the staff 
there in being much more efficient.
    Lastly, there is a request for $12 million for Fort 
Monmouth. There is a relationship which has been developed with 
Monmouth University which, from their perspective, they would 
be bringing to the table approximately $8 million in private 
funds for software engineering projects, and we believe that 
deserves consideration.
    Lastly, with regard to Earle, there are piers that are 
World War II vintage. Later this year there are to be two new 
ships that will be berthed there, and we believe to the tune of 
about $500,000 that there would be necessary improvements to 
electrical systems that are needed to adequately service that 
facility.
    I would appreciate it if I could include my entire written 
statement for the record.
    Mr. Young. Congressman, your entire statement will be 
included for the record.
    We appreciate your calling these items to our attention. 
Some of them we are familiar with from last year and the year 
before; some of them we tried to work out and were not able to. 
We will do the best we can to support your efforts. We 
appreciate your being here.
    [The statement of Mr. Pappas follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                          Thursday, April 17, 1997.

                       FORT MONMOUTH, NEW JERSEY


                                WITNESS

HON. FRANK PALLONE, JR., A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW JERSEY

                              Introduction

    Mr. Young. Our next witness is Congressman Frank Pallone of 
Long Branch, New Jersey. Congressman Pallone has testified 
before the Committee before. We are glad to have you back again 
this year.
    Last year, you presented a very persuasive argument to 
cover some of the walkways that Congressman Pappas just 
mentioned between the buildings at Fort Monmouth. This is the 
type of project that would normally be funded in the military 
construction bill. We tried to figure out a way to fund it in 
our bill since it was relatively small, but we were just not 
able to do that.
    So we are happy to hear from you again this year and hope 
we can do a better job for you. We understand there are many, 
many requirements out there we are not able to fund. We do the 
very best we can.
    Welcome again. Your entire statement will be placed in the 
record, and we would ask you to summarize in about 5 minutes.

                    Statement of Congressman Pallone

    Mr. Pallone. Thank you, Mr. Chairman. Good to see you and 
my Democratic colleagues.
    Since you have already said you are going to try to do 
this, maybe I just should leave.
    Mr. Young. I think we told you that last year, too.
    Mr. Pallone. I am assuming that my colleague from New 
Jersey Mr. Pappas probably went through some of the same 
things. I am just submitting my statement for the record.
    If I could just briefly summarize, basically our requests 
are with regard to Fort Monmouth and also Naval Weapons Station 
Earle. Both of these happen to basically bridge our 
congressional districts. Part of Fort Monmouth and Earle Naval 
Station are in my district and Mr. Pappas's district.
    With regard to Fort Monmouth, there are three projects. One 
is a $27 million telecommunications modernization plan. Fort 
Monmouth is the CECOM headquarters, Communications and 
Electronics Command for the Army. Much of their 
telecommunications and computer infrastructure were installed 
between the 1950s and 1970s and, therefore, is out of date. 
Basically this upgrading program is to bring them up to the 
present day.
    It is important because Fort Monmouth, pursuant to the Base 
Realignment and Closure--BRAC, was made to consolidate to the 
main post. In other words, we didn't lose anything, we actually 
gained jobs during the BRAC, but we took on additional 
functions with regard to communications and electronics. So we 
need to upgrade that basic infrastructure at Fort Monmouth, and 
that is our first request.
    The second one, of course, are the walkways that were 
already mentioned. I actually have been there during the winter 
and seen the situation. It may seem like what do they need 
walkways for, but it is very disruptive. Essentially what 
happened is all the people that work in the command in CECOM 
used to be about 2 miles away at a central building. Now they 
are in buildings that were refurbished that used to be 
barracks. So basically they are walking between these 
modernized barracks, and it is very difficult if the weather is 
severe. It has an impact on their job.
    The third thing is a request for $12 million for the 
development of an information resource center to be managed 
jointly by Fort Monmouth and nearby Monmouth University. A few 
years ago when Congressman Dwyer, one of my predecessors, was 
on the Appropriations Committee, he actually received funding 
through DOD to build a center for technological development and 
transfer at Monmouth University that also dovetailed with Fort 
Monmouth. This IRC concept is basically a continuation of that.
    Monmouth University is basically the university that trains 
people that work in the R&D functions at Fort Monmouth. So in 
the same way that the fort has a need to upgrade its 
infrastructure, the university has a need to develop and 
provide new computers and new centers for electronics and 
information and the new Information Age in order to train 
people to work at the fort.
    So that is basically what this IRC concept is. It is in the 
testimony, but it would basically provide video 
teleconferencing, library archives, educational video, 
recording capabilities, learning facilities, an essential link 
between the university's research and that of Fort Monmouth.
    I also wanted to mention Naval Weapons Station Earle again 
very briefly. We are also fortunate there in, again, we are 
taking on more responsibilities. There are two new AOE class 
ships now stationed in Norfolk, Virginia--I don't see the 
Virginia people here, so I guess I am okay in talking about 
this--that are going to be reassigned to Naval Weapons Station 
Earle. One is actually going to be moving there this year, and 
the other next year. As a result of these ships coming, as well 
as others that are anticipated beyond that, there need to be 
structural upgrades to Earle's pier complex.
    There are really three projects there. Two of them fall 
under military construction. The third, for $500,000, is to 
refurbish the pier's power distribution center. That falls 
within the DOD's Operation and Maintenance--O&M account.
    So, again, I don't know that I need to go into the details 
of that, but that is another thing we need in order to 
accommodate these new ships coming into Earle.
    I just wanted to make a couple of other comments. Later 
today I understand you are going to be getting proposals from 
the University of Medicine and Dentistry of New Jersey. One is 
with regard to construction of an international center for 
public health, and secondly is a proposal to do a series of 
studies. I think that Senator Torricelli is a sponsor of this 
in the Senate, and Senator Lautenberg has been helpful as well.
    They are trying--New Jersey has one of the highest rates, I 
think the highest rate, for breast cancer in the country. At 
the same time, we have the most Superfund toxic waste sites. 
Over the years and over the last 10 or 20 years, there has been 
a lot of evidence there is a link between the two. Essentially 
what we are trying to do is to get a research grant together 
with the University of Medicine And Dentistry and our Cancer 
Institute of New Jersey and the National Institute of 
Environmental Health Sciences to do a study on the link between 
those two.
    Again, I am not sure why that is here before your 
Subcommittee, but it is my understanding that they are going to 
be testifying later today on that proposal. I endorse both of 
those proposals. I think they are very important for our State 
and ultimately for the country as well.
    Thank you.
    Mr. Young. Thank you for being here. We will do the very 
best we can to work with you on these important issues that are 
important to you and the national security agencies.
    Thank you again for being here.
                              ----------                              

                                          Thursday, April 17, 1997.

              AMERICAN FEDERATION OF GOVERNMENT EMPLOYEES


                               WITNESSES

ELOY SIFUENTES, RECORDING SECRETARY, AMERICAN FEDERATION OF GOVERNMENT 
    EMPLOYEES
MARIO VILLARREAL, AMERICAN FEDERATION OF GOVERNMENT EMPLOYEES

                              Introduction

    Mr. Young. Now I would like to recognize Congressman Henry 
Bonilla, who is a very important Member of this Committee. 
Congressman Bonilla will be introducing two representatives of 
the AFGE from Laughlin Air Force Base. We will be more than 
happy to hear from them.
    Congressman, you have the Floor.

                    Statement of Congressman Bonilla

    Mr. Bonilla. Thank you, Mr. Chairman. I am delighted to 
have my constituents here today from Del Rio, Texas. They who 
have had a fine record of performance, an outstanding record of 
performance for their work over the years at Laughlin Air Force 
base on engine repair work.
    Many of us are troubled about the contract that has been 
awarded, the A-76 award for jet engine repair that went to a 
private contractor, not because it is a private contractor, but 
because it involves a surcharge that created an unfair 
opportunity for the contractor to win this bid. We have been 
fighting on this issue, and, for the record, I have been 
supportive of a more reasonable surcharge of 4 percent. I know 
that the members of the Local 1749, American Federation of 
Government Employees, feel very strongly about that as well. 
This affects their lives directly and their families and 
future. And I am delighted that you have an opportunity today 
to tell us your story, Mr. Eloy Sifuentes and Mario Villarreal. 
They are accompanied in the audience by Mr. Alfredo Garcia and 
Hector Guadalarama.
    At this time, gentleman, we would be pleased to hear your 
testimony.

                       Statement of Mr. Sifuentes

    Mr. Sifuentes. Thank you, Congressman. Like you heard from 
the Congressman, we are from AFGE Local 1749 at Laughlin Air 
Force Base, Del Rio, Texas. We represent over 900 government 
employees.
    I appear before this Committee to ask your assistance in 
reforming one aspect of the OMB A-76 competitive process. 
Specifically I want to address the application of a 12 percent 
factor against in-house personnel costs and how the in-house 
bid is put at a disadvantage by this 12 percent factor.
    I would like to make it clear that our local wholeheartedly 
supports the purpose and intent of the A-76 process. We believe 
that the A-76 process, its imperfections notwithstanding, 
provides a needed procedural framework which ensures through 
public-private competition that taxpayers and the Armed Forces 
get the most effectiveness, efficiency and reliability for the 
tax dollar invested.
    We support the stated goals of the circular and its 
supplements, which are to balance; provide a level playing 
field between the private and public sectors in the bid 
process; encourage competition and choice in the management and 
performance of commercial activities. However, you will see in 
my testimony the 12 percent direct cost difference applied to 
the in-house bid does not contribute in any way to these goals.
    Let me illustrate this point through our experience with 
the process at Laughlin Air Force Base. In December of 1994, 
the command announced its intent to examine jet engine 
maintenance at Laughlin Air Force Base. Both in-house and 
contractor costs were submitted. The most competitive 
contractor bid was $31.4 million. $32.3 million is the 
management in-house bid. It is our contention the in-house bid 
was made uncompetitive because the government is required by 
the Supplement to apply an arbitrary 12 percent surtax, a cost 
factor applied against the personnel's cost.
    It is our contention, based on our discussion with 
Laughlin's management and the facts they provided us, that the 
12 percent factor is too high. The facts gathered and confirmed 
by our management would indicate there is no cost associated 
with general and administrative support from internal or 
external activities in the case of Laughlin jet engine 
maintenance function which was competed for under A-76. The 
bottom line, Mr. Chairman, is that our general and 
administrative costs should have been zero, not 12 percent of 
the total personnel costs as is required by the new Supplement, 
a difference of $1.7 million.
    Mr. Chairman, if all costs had been correctly calculated, 
the most competitive bidder, the Federal employees at Laughlin, 
would have won, and the national defense and taxpayer would 
have gotten the savings we would have provided. Because of the 
12 percent factor rather than the factual data being applied, 
the best and cheapest competitor did not win. Consequently, 50 
Civil Service jobs were lost, and an additional 150 will be 
impacted over the life of the contract.
    We are not opposed to competition, but we oppose the 
application of a standard 12 percent penalty in this case, 
which denies us the opportunity to be competitive and provide 
the A-76 competitive analysis accurate data. It is our 
contention that the application of a static, across-the-board 
percentage fails to achieve cost estimate accuracy or lessen 
the controversy surrounding the definition, calculation and 
inclusion of overhead costs. The straight-line percentage 
concept is too rigid, would be too inaccurate and lead to 
overcharges to the government.
    This approach fails to take into account the different 
commercial activities that may be justified in costing 
different overhead considerations. Certainly it is not 
appropriate when performance of the function requires extensive 
equipment and space.
    Agencies, with the participation of labor, should define 
what is acceptable overhead cost and how it should be 
calculated. The agency as well as the in-house and private-
sector bidders should be held accountable for proper 
calculation of the fully allocated costs, and they should be 
forced to live with the consequences of the calculation. This 
would be in contrast with the current policy which requires the 
taxpayer to pay for a bailout every time there is a cost 
overrun.
    Mr. Chairman, we request you sponsor a General Accounting 
Office--GAO study, using the Laughlin jet engine competition as 
an example, which examines the justification for using a 
straight-line cost factor as opposed to itemized accounting as 
was required by past editions of A-76's Supplement. If the 
resulting reports support the facts as presented in my 
testimony, then I would ask your Committee to assist us in 
revising the Supplement to A-76 so that it would more 
accurately reflect general and administrative costs.
    Mr. Chairman, this concludes my testimony. Thank you for 
allowing me to present this important issue before the 
Committee. I stand ready to answer any questions on this 
matter.
    Mr. Young. I thank you very much.
    Did you have a statement also?
    Mr. Villarreal. I am here to support him. No, sir.
    Mr. Young. I wanted to tell you you are represented here by 
a very capable and very effective Member. He has kept the 
Members of the Committee fairly well advised on this issue. We 
will consider that as we proceed.
    Mr. Bonilla. Mr. Chairman, would you yield for one 
question?
    Gentlemen, one of the most important agencies that could 
hear your testimony is the Office of Management and Budget--
OMB. I am wondering if there is anyone from OMB here in the 
room today?
    It is unfortunate. We will make sure they receive your 
testimony, because when decisions like this are made, it is 
important to hear how people are actually affected; rather than 
just looking at numbers on a page of percentages, the way it 
affects you directly is very important.
    If I could ask just briefly, tell me how this has affected 
families and the morale of the workers at Laughlin Air Force 
Base. Maybe Mario would like to address that.
    Mr. Villarreal. Mr. Bonilla, we are just a small base in 
Texas, you represent our district there, and this is just a 
small contract. We were one of the first to go under the study, 
this 12 percent overhead, and it drastically affected us. We 
submitted a lower bid, a competitive bid, and consequently that 
12 percent overhead just threw us out of the playing field.
    It is kind of late for the jet engine shop there, but we 
need to look at this for the future, because we are a total 
Civil Service maintenance there. We are all manned Civil 
Service, and we put out quality engines, and the quality is 
what we do. We are not against privatization or private 
contractors. All we ask is to compete fairly on the bid.
    Mr. Bonilla. I appreciate that very much. I can assure you, 
as we discussed privately, we are continuing to try to knock 
that surcharge down to make it more fair.
    I want to thank you all for being here today. I appreciate 
your testimony very much.
    Mr. Young. Thank you very much.
    Mr. Hefner. You have to put it in laymen's terms what this 
12 percent is--why it is there and how does it work?
    Mr. Sifuentes. It represents general and administrative 
costs that are applied to line 1 of the bid, which is personnel 
costs. It is a surtax. OMB at this point, other than by the 
title being ``administrative overhead costs,'' has not 
identified it. Specifically under the current policy of 12 
percent, overhead cost is based on personnel cost plus fringe 
benefits. The 12 percent overhead cost is based on personnel 
costs plus fringe benefits. This is what they applied it 
against. Under the previous policy, it was based on 
reapplication of managed standards and actual growth 
requirements, but that is no longer the case. It is just a 
straight across 12 percent applied against that personnel cost.
    Mr. Bonilla. Mr. Hefner, I would be happy to sit down with 
you and explain this a little more at a later time. In essence, 
when a private contractor puts out a bid, the base workers 
enter their bid, and have 12 percent charge added because OMB 
feels that the full cost of labor is not included in the 
original bid and some of the other costs. They say just add 
that on, and it makes it more fair, but it is not, because the 
workers are already there at the facility and would not have to 
be hired in order to do this job.
    Mr. Hefner. So what you are saying is that you have got to 
add 12 percent in there to offset the people that you are going 
to hire to do it for the benefits that they already have?
    Mr. Bonilla. The real cost would not be 12 percent more. It 
is just an extra percentage----
    Mr. Hefner. I understand that, but that is the reason for 
it.
    Mr. Bonilla. I am not exactly sure what you are saying.
    Mr. Hefner. I am saying these guys are already there. They 
are doing the job.
    Mr. Bonilla. They have been doing years of good work.
    Mr. Hefner. If you had it contracted out, the contractor 
that makes the bid has to add 12 percent?
    Mr. Bonilla. Not the contractor. Only the base.
    Mr. Villarreal. Our contention is these are hidden costs, 
not attributable to the government side of the bid. Nobody can 
account for this 12 percent.
    Mr. Bonilla. It is just a figure that is in essence pulled 
out of thin air.
    Mr. Hefner. I may be dense, but where does the 12 percent 
go? It is paid by the taxpayers, isn't it?
    Mr. Bonilla. Well, the 12 percent in essence is already 
there. They are working there. They are at the base.
    Mr. Hefner. I understand that.
    Mr. Bonilla. So there is no additional cost--it is almost a 
phantom number that is added to what they have to bid.
    Mr. Hefner. Okay.
    Mr. Visclosky. It is an attributable overhead, I assume. 
The theory would be to make sure the bids are fair. They are 
attributing overhead to your labor.
    Mr. Bonilla. That is the theory.
    Mr. Visclosky. The argument is that the attributable 
overhead is too high.
    Mr. Bonilla. One very important point, the Air Force 
believes it is too high.
    Mr. Visclosky. Okay.
    Mr. Villarreal. We worked closely with management to come 
up with this testimony. Their contention is it is not 12 
percent. It is not there. We cannot find it, you know. But it 
is a fixed rate. It is added onto your personnel costs plus 
fringe benefits and actually comes out to--in reality it comes 
out closer to 16 percent, because you are adding on 30 percent 
of fringe benefits included in the calculation. So we are not 
actually looking at 12 percent, but more like 16 percent on the 
government's bid, not on the contractor's bid. We cannot 
compete competitively.
    Mr. Young. Well, thank you very much. Obviously this is a 
rather sticky issue and a very important issue. Mr. Bonilla 
will lead us through this and find a solution, if there is one.
    Thank you all for being here. You stimulated this hearing 
this morning.
    [The statement of Mr. Sifuentes follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                          Thursday, April 17, 1997.

                         INTELLIGENCE PROGRAMS


                                WITNESS

HON. MAXINE WATERS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA

                              Introduction

    Mr. Young. Next our witness is Congresswoman Maxine Waters 
from Los Angeles, California. Ms. Waters serves on the Banking 
and Financial Services Committee and the Judiciary Committee. 
She is also chair of the Black Caucus.
    We are very happy to have you here this morning. Your 
entire statement will be placed in the record, and you can 
summarize it any way you like.

                   Statement of Congresswoman Waters

    Ms. Waters. Thank you very much, Mr. Chairman, and Members.
    I would like to give you a little bit of background about 
why I am here. The Congressional Black Caucus developed its 
agenda for the 105th Congress. Our top priority is the 
eradication of drugs in our society. We are tired of the 
devastation of drugs in our communities and in this country. So 
we are trying to pay attention in any number of ways to how we 
create some real discussion and some real action on drug 
eradication in our work.
    I came here today because you fund a number of crucial 
programs, or funded in this Subcommittee's jurisdiction, and I 
want to focus today on the Central Intelligence Agency--CIA.
    I am going to introduce legislation to eliminate the CIA, 
and I know that is not going to happen. However, I think it is 
extremely important to create some attention and some focus in 
an area where I think there is a problem.
    I recently got involved as a result of the San Jose Mercury 
News series called The Dark Alliance, where after a year of 
investigation they discovered that there had been a large drug 
ring that operated in the 1980s in south-central Los Angeles, 
and they alleged and made a good case for CIA connection.
    So I have been working on this, and I have learned more 
than I would like to know about our Intelligence Community, and 
I am worried. I am worried about it because I do not think that 
our Intelligence Community should ever allow, participate in or 
turn their backs while there is drug trafficking, no matter 
what their goals are. There should be no connection with drugs 
by any of our Intelligence Community in an effort to carry out 
their work.
    I think that this message is very important because I have 
been able to identify not only some very, very serious concerns 
about the drug ring that was identified by the San Jose 
Mercury. For example, if I can just divert here for a minute, 
the person who laundered the money for this drug ring, Mr. 
Morio, was absolutely identified in the DEA reports, and we 
have gotten the information about all the companies that he 
organized as he laundered the money, is now back down in 
Nicaragua, head of an arm of government that receives foreign 
aid, in charge of the privatization efforts creating more 
companies supposedly to buy up the government-owned assets for 
privatization. And what I am trying to find out is whether or 
not our own U.S. foreign aid is in the hands of someone who is 
identified as a money launderer for drug traffickers.
    I think that is very serious. I will not go into detail. I 
will submit this for the record. But let me just point this 
out. Earlier this year, General Ramon Guyan Devilla, 
Venezuela's former drug czar, was indicted by Federal 
prosecutors in Miami for smuggling cocaine into the United 
States. According to a New York Times November 20th, 1993, 
article, the CIA anti-drug program in Venezuela shipped a ton 
of nearly pure cocaine into the United States in 1990. The CIA 
has acknowledged that the drugs--that they were involved in the 
shipment, and that the drugs were sold on the streets of the 
United States. The joint CIA-Venezuelan force was headed by 
General Devilla, and the ranking CIA officer was Mark 
McFarland, who worked with anti-guerilla forces in El Salvador 
in the 1980s. Not one CIA official has ever been indicted or 
prosecuted for this abuse of authority.
    I could go on and tell you about the involvement in Haiti, 
the Los Angeles--L.A. Times reported that Lieutenant Colonel 
Francois, one of the CIA's Haitian agents, a former army 
officer and key leader in the military regime that ran Haiti 
between 1991 and 1994, was indicted in Miami on a charge of 
smuggling 33 tons of cocaine into the United States. It goes on 
and on and on. But I am submitting this for the record.
    I guess what I am saying to you is this: As we look at the 
work that we are trying to do with drugs and working with the 
President and the drug czar and everybody else, we are looking 
at our own Intelligence Community, we are looking at the big 
boys, and I am going after Citicorp, who is identified and is 
under investigation now for the money laundering with Salinas' 
brother out of Mexico, some $200 million that was deposited in 
Citicorp, where they wire-transferred this money offshore into 
Antigua and the Cayman Islands.
    This is serious business, and we as policymakers can do 
more than we are doing about it. I know the Intelligence 
Community is secret, and we are not supposed to know or ask 
questions, but you guys ought to send them a message. You ought 
to do at least across-the-board cuts. Cut 10 percent of the 
intelligence budget and talk about the development of policy 
that will not allow the Intelligence Community to ever be 
involved in drug trafficking or know about it, turn their backs 
on it, or use it in any way.
    We cannot afford to continue to allow the amount of drugs 
that come into this country to be dumped on our streets, 
poisoning our children and devastating our communities. And it 
is time each of us takes some responsibility in this.
    I want to tell you that you guys have some power here to do 
something about it, and I wish you would help send this message 
in some profound way, because I think our greatest threat, the 
greatest threat to security, is certainly not the Soviet Union. 
The Cold War is over. And I don't think, no matter how much we 
dislike or we talk about a threat, nobody really wants to go to 
war with us. Our greatest threat is this, drugs being dumped on 
our streets, undermining our communities, poisoning our 
children, and devastating us in so many ways.
    So I have had an opportunity to preach to you, and I 
appreciate it. If you have any questions, I will be happy to 
answer them.
    Mr. Young. Thank you very much. I would just have to say 
for the Committee that we share your strong commitment on this 
issue. Last year during a major battle over having enough 
dollars, we added $165 million over the President's budget for 
counter-drug activities. When the Cali warlords were put in 
jail, it was the Department of Defense that helped identify and 
locate those warlords. So we are all working on that.
    I can tell you we are committed and appreciate your 
thought-provoking comments this morning. They are not wasted 
here. We paid close attention, and I assure you that we are 
strongly committed to this same objective.
    Are there other Members with questions?
    Thank you very much. We really appreciate your being here. 
We will stay in touch with you throughout this process.
    [The statement of Ms. Waters follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                       NAVAL RESERVE ASSOCIATION


                                WITNESS

REAR ADMIRAL JAMES J. CAREY, USNR (RET.), NATIONAL PRESIDENT, NAVAL 
    RESERVE ASSOCIATION

                              Introduction

    Mr. Young. Now I would like to welcome Rear Admiral James 
J. Carey, president of the Naval Reserve Association. Admiral 
Carey presented a list of unfunded Naval Reserve equipment 
items last year when he testified, and we were able to provide 
$247 million above the President's budget for that equipment 
including 36 C-9 replacement aircraft, funds for 10 mobile in-
shore undersea warfare vans, and $72 million dollars for P-3 
modifications.
    I want to say to you, Admiral, that I took a lengthy flight 
in a P-3 not too long ago. The crew was outstanding. The 
aircraft could use a little bit of cleaning up, but it is an 
old workhorse and does a good job.
    We are very pleased to have you here today, sir.

                       Statement of Admiral Carey

    Admiral Carey. Thank you very much, Mr. Chairman and the 
other Members here, for allowing us indeed to present our 
testimony again. I would salute this Committee for what you did 
for us last year, because it was correcting an incredible 
shortfall from the previous year.
    Mr. Chairman, when I testified last year, you, in fact, 
pointed out that the things I was talking about were not 
included. So I and the Naval Reserve Association fully 
appreciate what you all did for us.
    You also tasked me last year, you said your Committee would 
support, but I would have to go out and work with the Senate 
and the administration, and we did that, and it worked. So 
thank you, thank you, thank you.
    By the way, the lady from RIT, my last active-duty job was 
over in the Pentagon on the Chief of Naval Operatives--CNO 
staff. That program, the similar program came under me. It is a 
good program. I would just add that to her testimony.
    My main theme today will be that you get 20 percent of the 
entire Navy, the entire United States Navy, for 3 percent of 
the budget with the Naval Reserve. So your money is really 
spent well and stretched. If you forget everything else I say, 
that is my key theme: 20 percent of the whole Navy for 3 
percent of the budget.
    As you indicated, you have my written statement, so I will 
try to hit key focus areas as outlined in that paper. One of 
the first would be manpower. Several years ago when the cut was 
going from 150,000 Naval Reservists down to 100,000 and then 
ultimately 96,000, we went along with that because we thought 
it was in the best interests of the country and the Navy, and 
we felt it could be done. But we stride to draw a line in the 
sand and say we cannot go any lower and carry out the missions 
that have been assigned to us.
    The President's budget this year has a cut below that, to 
around 94,000; in fact, possibly even 93,500. I would tell you 
gentleman and the other Members of your Committee, that is not 
a good idea, and we should stay at the 96,000. We outline that 
in our written statement, and I would ask you all to take a 
look at that, if you would.
    On National Guard and Reserve Equipment--NG&RE equipment, 
as I asked you last year and you did, all I am asking for is 
our fair share of whatever the ultimate NG&RE budget is, that 
we get the Naval Reserve fair share. You did that last year.
    Mr. Chairman, as you indicated, you have an unfunded 
requirement from the Navy for about $1 billion of Naval Reserve 
equipment. I realize that is more than your whole NG&RE budget. 
That is why I stress simply our fair share. I would prioritize 
that from our side as the C-9 replacements, which we have 100 
percent of the whole Navy's logistics arm; the MIUW and costal 
warfare stuff, because we have 100 percent of that mission; 
and, although you funded some of the vans last year, I don't 
know that all of that money has been spent, and I think we have 
another 30 that need to be looked at.
    Finally, the other priority is SH-60B helicopters, which 
are needed on the FFGs that are coming into the Reserve fleet. 
The key for us to be able to operate with that fleet is 
compatibility with the regular Navy. If we can't talk to them 
or have the same equipment, it doesn't work, so we need those 
SH-60Bs.
    Finally, I would tell you that we also support Senator 
McCain's initiative to ultimately--if it can be done--to get 
away from NG&RE as a congressional add-on. We support it, 
however, only if we can be an equal player at the table, so 
when the President's budget, the Navy's budget comes up to you 
all, that the Naval Reserve requirements are in that budget. 
Until that happens, we desperately need you, however.
    I would say that in the bill last year, Senator McCain put 
a provision saying the services were supposed to come forth. In 
fact I know the Navy CNO ultimately did. We are very supportive 
of him for that effort.
    Military Construction, MILCON, last year you gave us $38 
million. The President's budget has that cut to $14 million 
this year. I would simply urge to bring it back to the 38 to 40 
million level, because we have buildings falling down around 
our people, and it is becoming a safety hazard.
    Operations and maintenance last year was $85 million. The 
President came in with $50 million less. I would tell you we 
need to keep it at the old level. If we are expected to do all 
the Operations--OPS, both drug OPS and the humanitarian and 
Bosnia's and other things, we have to have the money to do it.
    The Reserve Mobilization Insurance Program, I am sure all 
of you have heard from your constituents on that. We would 
simply urge this Committee to pay the troops that are paid to 
be in that program what was promised them if they paid the 
fees. I had heard a possible plan of trying to take the money 
to fund that thing out of NG&RE. That is absolutely lunacy as 
far as we are concerned and not a good idea. It should not come 
out of the other Reserve programs.
    I did see the DOD came out with an instruction on how they 
planned to handle the insurance thing. It is dated 8 April. I 
have not read it, but it tells me they have taken a hard look 
at it and have a proposal. I would urge each of you to have 
your staffs look at that.
    On health care, Congressman Moran had put a bill in. We 
were initially supportive of that, but yesterday Congressman 
J.C. Watts came out with a bill that my staff thinks is better, 
because it says if you cannot work out the TRICARE/CHAMPUS 
problems, that at least then our military members be allowed as 
an option to get into the Federal employees' health benefit 
plan so they are treated equally along with the rest of the 
Federal employees. So we now support the J.C. Watts bill on 
that.
    In closing, we have two point papers on a couple of these 
issues that I would like to ask if we could give them to the 
staffs. You can all see them. I was hoping Congressman Bonilla 
would be here, because we have been very supportive of his 
efforts in Val Verde County on his efforts for the military's 
right to vote where we, the United States Government, send them 
and where they live.
    With that, I think that is my 5 minutes. You helped us a 
lot last year. I am asking you for your help once again this 
year. I would ask to be added to your scroll up there on these 
things. That completes my statement. I again thank you for all 
you have done. I would answer any questions.
    Mr. Young. Thank you very much. We appreciate that.
    Some of the items on this scroll are items you provided for 
us. We are doing the best we can to put a blue line on them, 
which means they are done. We are doing the best we can with 
very, very limited resources.
    Okay, sir, thank you very much. We appreciate your being 
here.
    [The statement of Admiral Carey follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



           RESERVE OFFICERS ASSOCIATION OF THE UNITED STATES


                                WITNESS

MAJOR GENERAL ROGER W. SANDLER, AUS (RET.), EXECUTIVE DIRECTOR, RESERVE 
    OFFICERS ASSOCIATION OF THE UNITED STATES

                              Introduction

    Mr. Young. Our next witness is Major General Roger Sandler, 
Executive Director of the Reserve Officers Association.
    General Sandler's organization represents all of the 
Reserve forces, and, as usual, his prepared statement contains 
a detailed list of unfunded equipment requirements, which are 
also on our scroll for each of the Reserve components. We are 
pleased to have you back before the Committee, and please 
proceed with your testimony.

                      Statement of General Sandler

    General Sandler. Thank you very much, Mr. Chairman. It is a 
pleasure to be back. Again, I thank you, as did Admiral Carey, 
regarding what you have done for the Reserve forces in the 
past.
    We have a significant involvement these days with the 
Reserve components in all areas of national defense, and I 
think it has become a reality that whenever there is an 
emergency, any kind of a contingency, we are calling upon the 
Reserve components. They were certainly well-founded in Desert 
Storm and they have gone on to perform extremely well in both 
Haiti and now in Bosnia. There are continuing rotations in 
Bosnia and so forth.
    What I wanted to do was really talk to you about three key 
issues: personnel, training, and equipment. Some of it will be 
overlapped with Jim Carey.
    I will not get into a lot of detail on this because you do 
have it in my submission for the record. But we are a great 
bargain, both for DOD and the country, with our Reserve 
components. Inasmuch as Admiral Carey indicated, the very small 
portion of the defense budget goes to maintain the Reserve 
components in all of the services. Therefore, it is important 
that they be maintained to the degree that is necessary to keep 
their readiness at a level that is important.
    The important thing that I wanted to bring up regarding 
personnel is that each of the services are being faced with 
personnel cuts. The indication of the Army Reserve, they have 
an off-site agreement which is carrying them through fiscal 
year 1998 and perhaps into 1999. We fully support that 
agreement in the indication of the Army.
    We support the Navy's position on maintaining the end 
strength at the levels they suggested, the 96,000-plus mark, 
the Marine Corps being held steady at the 42,000 end state, and 
we would also urge you to consider maintaining the Coast Guard 
at a level of 8,000. There has been a suggestion that they 
ought to be reduced to 7,600. Coast Guard missions go on 
regardless of war or peace, and the Coast Guard is integral, 
and we would urge this Committee to fund the 8,000.
    In the area of training, we find ourselves in the situation 
where many of our Reserve components are finding monies being 
diverted from readiness training to other purposes because of 
contingencies and so forth that are coming. We need to maintain 
a level of readiness training in our Reserve components to 
maintain their viability.
    In addition to that, schooling has suffered as a result of 
the shifting of money and so forth. Schooling is absolutely 
vital in the case of the Reserve components for their promotion 
and upward mobility. So, again, I would urge this Committee to 
continue to fund adequate training for readiness and for 
military education.
    Finally, let me talk about this Reserve equipment: I think 
the NG&RE account has certainly proved itself over the years. 
The administration this year has put zero monies against 
National Guard and Reserve equipment accounts. We have in our 
detailed submission to you a submission of the variety of 
equipment that is necessary in each of the services. But I 
would like at this point to insert the absolute necessity 
predicated on the CINCs request to the commandant of the Coast 
Guard to establish and equip three Newport security units. I 
would urge this Committee and, Mr. Chairman, I know you have 
had some discussions with the commandant, to go ahead and 
support those Port Security Units--PSUs, because they are 
vitally necessary for the CINCs to carry out their mission.
    With that, Mr. Chairman, I know I am ahead of schedule, but 
I do want to thank you again for having the Reserve Officers 
Association represented here today, and hope that we can 
continue to count on this committee to support the vital 
involvement of the Reserves.
    Mr. Young. General, thank you very much for your testimony. 
We appreciate that.
    You can count on our continued recognition of the 
importance that the Reserve forces play in our overall strategy 
and overall force concept. Again, thank you for being here.
    [The statement of General Sandler follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                          Thursday, April 17, 1997.

              NATIONAL ASSOCIATION FOR UNIFORMED SERVICES


                                WITNESS

MAJOR JAMES W. BAPPLE, U.S. ARMY (RETIRED), NATIONAL ASSOCIATION FOR 
    UNIFORMED SERVICES

                              Introduction

    Mr. Young. We would like to welcome Major James Bapple of 
the National Association for Uniformed Services.
    The Major has submitted a very detailed statement on the 
medical situation within the Department of Defense. I think 
everyone in this room knows we are definitely concerned about 
that and we do things about it. We are concerned about the 
health care available to our Nation's military personnel and 
their families.
    Major, I understand you also represent the 14 military and 
veterans organizations which make up the National Military and 
Veterans Alliance. We appreciate them.
    Your statement will be placed in our permanent record. I 
understand you have three exhibits that you would like to have 
made part of that record, which is fine and will be done.
    At this point, please proceed with your testimony.

                       Statement of Major Bapple

    Major Bapple. Thank you, Mr. Chairman. We appreciate this 
opportunity to speak with you this morning. It is good to see 
you again.
    Before I begin, let me say we appreciate your hard work and 
the hard work of this Committee. We appreciate your continuing 
support for the entire military family.
    As you correctly said, in addition to the National 
Association for Uniformed Services--NAUS--I am speaking on 
behalf of the National Military and Veterans Alliance, a group 
of 14 associations with a combined membership of 3.5 million 
members.
    For my 5 minutes, I want to talk about health care, which 
is only about 6 percent of the DOD budget, but it is a very 
important issue to most of our retirees and to the active duty 
population.
    Sir, we are very concerned with the medical system that 
even when it is fully operational it is only going to care for 
4 million of the 8.5 million beneficiaries. The medical system, 
of course, is TRICARE, and it is worthwhile to note there is no 
other plan at present that is going to take care of the 
remaining 4.5 million beneficiaries.
    A seasoned and well-respected soldier recently had this to 
say. He said ``TRICARE is a reduced version of the medical 
benefit that military members, their families and retirees have 
treasured for so long. And its primary reason for being is to 
save money, not improve service. If that were not the case, 
military aid societies would not be seeing increases in the 
number of families asking for help paying medical bills and 
retirees would not be flocking by the hundreds to join a class 
action lawsuit that claims the government is reneging on its 
promise of lifelong health care benefits.'' The soldier's name 
was General John Shalikashvili, Chairman of our Joint Chiefs of 
Staff.
    To maintain readiness and preserve the fighting strength of 
our men and women in uniform, the military health services 
system through our military treatment facilities does a good 
job; some would even say, I believe correctly, a world-class 
job.
    NAUS and the National Military and Veterans Alliance are 
enthusiastic supporters of TRICARE, particularly TRICARE-Prime. 
We continually see that health care, when it is accessible, is 
truly excellent. The key, of course, is accessibility.
    My son recently had knee surgery at a military hospital, 
and his military orthopedic surgeon remarked to me he and his 
wife both had a supplemental insurance policy for themselves 
and their families because even doctors within the hospitals 
and families could not be guaranteed care.
    As many of the members of this Committee know from 
firsthand experience, the number of installations and the 
number of military treatment facilities continue to decrease. 
Even today at least 17 hospitals are being targeted for 
downgrading to clinics. Additional closures seem inevitable. 
TRICARE-Extra and TRICARE-Standard, which of course, is the 
CHAMPUS replacement, are supposed to accommodate those eligible 
beneficiaries who cannot receive care through a military 
treatment facility. Unfortunately, our members in many regions 
throughout the United States are reporting extraordinary 
difficulties with industry care, particularly TRICARE.
    A retiree in Corpus Christi reported that five of six local 
doctors participating in the TRICARE network were breaking 
their contracts to leave the network. According to the retiree, 
it was because of the very low reimbursement rates and the 
extremely slow reimbursement rate.
    A young active duty sailor in Philadelphia told us of using 
CHAMPUS following the closure of the Naval hospital when he 
took his daughter with a broken arm to a civilian doctor and 
was subsequently saddled with bills totaling over several 
hundred dollars, which CHAMPUS refused to pay.
    A retiree in Indiana had his hip replaced. The doctor's 
bill was $5,000. The reimburse was $1,700, of which the retiree 
had to reimburse 25 percent.
    In spite of TRICARE's apparent efforts to reduce costs, and 
despite the low reimbursement rates, Richard Davis, the 
Director of the National Security Analysis for the GAO, said in 
a February 21 report to you, that future defense health program 
costs are likely to be greater than DOD has estimated. We are 
very concerned.
    Administrative costs are rising and more money is required 
to finish work on a system that will only take care of 4 
million of 8.5 million beneficiaries and a system that will 
disenfranchise our medicare-eligible beneficiaries, the only 
Federal employees who lose their employer-sponsored medical 
benefit when they become eligible for medicare.
    Mr. Chairman, yesterday your colleague from Oklahoma, the 
Honorable J.C. Watts, introduced a Military Health Care Justice 
Act that would offer all military health care beneficiaries a 
chance for DOD-sponsored health care. We believe that this bill 
will go a long way to fulfilling that promise of lifetime 
health care, and we ask for your support and support of this 
Committee. It would cost far less than many other options and 
would support the continuation of MTS and TRICARE with 
improvements as a primary source of care and it would make 
FEHBP available as an option. This act has the full support of 
the Veterans Alliance.
    Sir, that concludes my statement. Do you have any 
questions?
    Mr. Young. Thank you very much. We appreciate your 
statement. We appreciate your interest, and I think you know 
the commitment of this Committee is good, not adequate, not 
proper, but good medical care for the military and their 
families.
    We are wrestling with the issue of TRICARE. I am not 
exactly sure how that is going it play out, but we are doing 
our best to help the authorizers find a solution there.
    Again, thank you very much for being here. We appreciate 
your testimony.
    [The statement of Major Bapple follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                          Thursday, April 17, 1997.

                     BRAIN INJURY ASSOCIATION, INC.


                                WITNESS

MARTIN B. FOIL, JR., CHAIRMAN OF THE BOARD, BRAIN INJURY ASSOCIATION, 
    INC.

                              Introduction

    Mr. Young. I would like to now yield to Mr. Hefner, a very 
distinguished member of this Committee, as well as the 
Subcommittee on Military Construction, and he will introduce 
Mr. Martin Foil, the volunteer Chairman of the Brain Injury 
Association.
    Mr. Hefner. Thank you, Mr. Chairman. First of all, the 
members that are here, I would urge you to read the 
biographical data on Mr. Foil. It is so lengthy and his 
accomplishments are extraordinary, and I will not bother to 
read them all.
    But I do want to point out that Martin Foil has been a 
friend longer than both of us would care to remember, I guess. 
But he has been so involved in this particular endeavor. I 
would say this before I make my introduction. We have a 
sympathetic ear in our Chairman here who long before he was 
Chairman, championed the cause for bone marrow transplants and 
this sort of thing, and he certainly has been a big asset to us 
in this endeavor we are engaged in.
    Martin, I don't know, I guess one of your great assets is 
your lovely wife, who is not with you today.
    Mr. Foil. That is my best asset.
    Mr. Hefner. He had a 26-year-old son that unfortunately was 
struck with an accident. We were real happy you were able to 
come here, and went to the White House, and we had a session 
with the President and Senator Hatch and some of the folks that 
had supported us in this endeavor. And it is through the 
efforts of people like Mr. Foil that we have made tremendous 
advances in brain injury trauma.
    A lot of folks have said, why are you doing cancer research 
and doing bone marrow and head injuries in the defense bill? 
But I think it is very appropriate, because all these things we 
have to deal with in the military, just like we have to do in 
the private sector.
    So I want to welcome you to the Committee today. I think 
the Chairman would say your entire statement will be a part of 
the record, and any statement you would like to make other than 
that we would be happy to hear. You have some support folk with 
you here.
    Mr. Foil. Yes, I do.
    Mr. Hefner. I am not the Chairman, but I feel you can go 
ahead and introduce them.
    Mr. Foil. I will be happy to introduce them. This is Alice 
D'Nicholas. Alice is a mother, a prime volunteer, and mover and 
shaker in our organization, a mother of a brain injured son, 
who also volunteers in our office in Washington, a wonderful 
human being. This is Jean Brubay. She is our congressional 
liaison on our staff in Washington. She is new with us, but 
certainly not new to the Hill. We are just certainly tickled to 
death.
    Mr. Hefner. Also for the Members, Martin, you sponsor two 
fund-raisers in our area, the golf tournament.
    Mr. Foil. Coming up August 4th.
    Mr. Hefner. And also the big ball out at the Charlotte 
Motor Speedway.
    Martin, it is a real pleasure to have you.
    Mr. Chairman, in your absence, I took the liberty of 
putting you on record as being supportive of these issues like 
bone marrow and cancer research and head injuries, that we have 
a receptive ear, because you have been a leader.
    I remember years ago when you were not the Chairman and we 
worked together on the bone marrow issue, and we want to thank 
you for that, and thank you for letting me introduce my 
constituent.
    Mr. Young. Mr. Hefner, thank you very much. You and I have 
had a good working relationship on these medical issues, and I 
am proud of the role you played.

                         Statement of Mr. Foil

    Mr. Foil. Thank you, Chairman Young. It is a pleasure to be 
here.
    I want to thank my Congressman, Representative Hefner, from 
the 8th District of North Carolina, for that kind introduction.
    I want to make one more introduction. This is Robert 
D'Nicholas. He is a brain injury survivor and a worker in our 
office, and we are very pleased to have him here today.
    I was thinking as I stood in the hall what a wonderful 
country we have, and watching these young people, which is our 
future, running up and down the hall, that is what it is all 
about. So I am happy to be here, and if we all work to try to 
make a difference, we are really trying to make a difference 
for those young folks.
    My name is Martin Foil, and I come before you today as the 
father of a young man named Phillip with severe brain injury. 
In my real work, I am the Chairman and Chief Executive Office 
of Tuscarora Yarns in Mount Pleasant, and I must state I 
receive no compensation from the association for the programs I 
am testifying about here today, but I do contribute 
considerable sums of my own money to this organization, to the 
work which it does, to improve the life of people with brain 
injuries. I am here because I really care about the 9 million 
Americans who are living with brain injury and their families.
    I am going to talk about the Defense and Veterans Head 
Injury Project--DVHIP--and the program in the Violence and 
Brain Injury Project--VBIP--under the DOD. It is really 
critical for improving the lives of people with brain injury 
and to the prevention of brain injury in the first place 
because you understand, prevention is the only cure.
    As you know, this project not only serves all the active 
duty military personnel who sustain brain injuries, and, Mr. 
Chairman, that is approximately 8,000 a year in peacetime, but 
it also serves the veterans and the civilian population as 
well. It is truly an exemplary use and case of dual funding.
    I am proud to tell you that today this collaborative effort 
between the DOD, Veterans Affairs, and the BIA, or the Brain 
Injury Association, is continuing to pay off.
    What are some of the things we have done with these 
programs? We have established a patient registry treatment and 
referral network that includes over 20 medical centers, toll-
free help lines for people with brain injury and their care 
givers, and a multicenter randomized control clinical outcome 
study. This is something, that is a mouthful in the first 
place, but it is something that the civilian sector, Mr. 
Chairman, has not been able to accomplish and perform.
    We have established prevention and educational programs for 
people with brain injury, their families, their care givers, 
including our BIA, BIA programs and our multimedia interactive 
resource center, which is now in place at over 40 civilian and 
DVHIP centers. Fifteen of those centers are hospitals for the 
veterans.
    In addition, the programs further the international brain 
injury research effort in collaboration with the World Health 
Organization, and we sort of have been adopted by NATO, so-to-
speak.
    Brain injury truly is a silent epidemic. It is the single 
largest killer and cause of disability among our young people. 
We need your support for this $8.5 million in funding so that 
at the DVHIP, the VBIP, and the Brain Injury Association, we 
can carry on this unique partnership.
    Let me just make a couple other statements. It is truly a 
unique partnership that has done a lot of good. As you have 
seen and read, and I hope you will read in the larger 
testimony, some of the stories we have to tell about why it 
does work. But more importantly, as we go forward, the World 
Health Organization estimates that by the year 2010, 20 percent 
of the total cost of all health care problems will be due to 
violence. That is very scary. And this is a very important part 
of the program that we bring, not only to the military, but to 
civilians through this project.
    Thank you very much, Mr. Chairman, for allowing me to be 
here and all of us. Stand up, Mike.
    Mike is a young man from West Point who sustained a brain 
injury and is going to go to West Point who will be here before 
not too long and testify. Have you already been? You have 
already been. We are proud to have him here. I salute you, sir.
    Mr. Young. Thank you very much. We appreciate your 
testimony.
    You know this Committee feels very strongly about the 
issue. In fact, we added substantial funds last year for brain 
injury research through our university research programs, and 
we very strongly support this.
    I want to tell you that your concerns are very well 
represented here by your Congressman, Mr. Hefner, who will make 
sure we don't forget about any of this.
    Mr. Foil. I appreciate that.
    Mr. Young. Thank you for bringing your guests with you 
today.
    Mr. Foil. Thank you, Congressman. Thank you, Bill. I 
appreciate that.
    [The statement of Mr. Foil follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                          Thursday, April 17, 1997.

                         NAVAL ORDNANCE STATION


                                WITNESS

HON. ANNE M. NORTHUP, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    KENTUCKY

                              Introduction

    Mr. Young. The Committee is pleased now to welcome 
Congresswoman Northup from Louisville, Kentucky. Congresswoman 
Northup is a member of the Appropriations Committee and 
actually serves on one of our other subcommittees that several 
of us serve on but seldom get to attend because we spend most 
of our life in this room. She is on the Subcommittee on Labor-
Health, Human Services and the Education Subcommittee.
    We are pleased to have you here this morning and look 
forward to your testimony. Your entire statement will be placed 
in our record, and you may proceed any way that you wish.

                   Statement of Congresswoman Northup

    Mrs. Northup. Thank you very much, Mr. Chairman. I am 
delighted to be here and appear for the first time before this 
Subcommittee. I will submit my testimony for the record, but 
briefly summarize it now.
    Mr. Chairman, I am here on behalf of primarily the Naval 
Ordnance Station in Louisville, Kentucky. You may remember that 
was privatized last year. It has been really a tremendous 
opportunity for our armed forces and particularly the Navy to 
judge whether privatization is a good deal for the taxpayers 
and a good deal for defense.
    The truth is, it is a good deal for taxpayers. They are 
doing the same work with a 40 percent reduction in space and a 
40 percent reduction in personnel. What this means is that the 
American's tax dollars that go to defense can accomplish a 
great deal more.
    First of all, I am here to ask you to make sure that we 
keep intact the funding stream that is so essential in these 
early years so that naval ordnance can get up and on its feet 
and provide the real efficiencies and opportunities. It also 
serves as such a great test case for us for future 
privatization. So it is very important if we are going to gain 
the full benefit of this that we make sure the funding stream 
stays in place.
    I am sure you know, Mr. Chairman, that there is a great 
deal of political interest in bringing projects back to 
people's districts, and naval ordnance is no exception. There 
are certainly political interests in seeing the business at 
naval ordnance gravitate to other Members' districts. It would 
be a terrible mistake. It would lose all of the benefits we 
stand to gain from this experiment, and it also would be a 
terrible time at this time to allow anybody to use the up-
front, start-up costs, and use that as a reason to--as an 
operational cost and try to convince the Committee that this 
isn't so good for the taxpayers.
    Like I said, it is undisputable, for 40 percent less 
people, less room, they are accomplishing the same mission. In 
addition, Mr. Chairman, it has come to my attention that the 
Navy has reassessed the readiness of the guns that are repaired 
and updated at the naval ordnance, and has found that they are 
below the capacity that they think is so important to defense. 
I am going to be submitting an additional plus up for these 
guns.
    The Navy has asked that they speed up their renovation so 
that they can meet their obligations. Naval ordnance is the 
only place that this work is being done, and this would help 
them reach the capacity that they believe is so important.
    Finally, I want to warn you that there are several other 
requests that the Navy has made, and we are working with them 
to finalize figures in order to reach the capacity that Hughes 
needs for the work they also do in Louisville.
    Finally, I see in the President's budget that he has 
reduced the Kentucky Air National Guard by four airplanes, from 
12 to 8. That is a very unfair cut. We rank 23rd in population. 
Our Air National Guard is 42nd in population, and we are ranked 
as one of the top units in the country. We are at 97 percent 
full capacity. We fly 60 percent of our missions in actual 
missions in support of defense, and they have asked that that 
be retained at 12 planes.
    I know we are on a tight schedule. I appreciate your 
interest, giving me the opportunity to talk to you about these 
very important projects.
    Mr. Young. Thank you very much. We certainly share your 
concern, and, and your interest in these matters.
    As you are well aware, we have budgetary problems with the 
President's budget request being much lower than many of us 
think that it should be. We do the best we can to find the 
adequate resources to guarantee the programs like you have 
talked about continue on. We will continue to do that to the 
very best of our ability. We thank you for calling attention to 
some of these issues.
    Mrs. Northup. I look forward to working with this 
subcommittee. Thank you very much.
    Mr. Young. We invite you to stay in touch as we proceed 
through the year.
    Mrs. Northup. Thank you.
    [The statement of Mrs. Northrup follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 17, 1997.

              AMERICAN FEDERATION OF GOVERNMENT EMPLOYEES


                                WITNESS

RITA MASON, NATIONAL VICE PRESIDENT, AMERICAN FEDERATION OF GOVERNMENT 
    EMPLOYEES

                              Introduction

    Mr. Young. Our next witness is Rita Mason, the National 
Vice President of the American Federation of Government 
Employees--AFGE. Ms. Mason represents more than 700,000 
government workers, including 300,000 employed by the 
Department of Defense.
    Ms. Mason, your entire statement, including the seven 
issues that you feel so strongly about, will be made a part of 
the permanent record, and at this time we would ask you to 
summarize your statement.

                         Statement of Ms. Mason

    Ms. Mason. Thank you, Mr. Chairman.
    I would like to begin my testimony by thanking the 
Committee for this opportunity to testify on the fiscal year 
1998 appropriations bill for DOD. We know that you, Mr. 
Chairman, and other members of this Committee, share our belief 
that the United States must continue to remain ready to meet 
any threat to the security of our Nation. While there are many 
important issues affecting our Federal work force which this 
Committee will consider, I will limit my statement today to the 
three issues which are the most important to the American men 
and women who do so much to ensure our Nation's defense by 
protecting the depots, ensuring a strong public-private 
competition, through preservation of A-76, and preventing 
arbitrary personnel ceilings from causing wasteful contracting 
out.
    I fully understand that not all matters I will discuss fall 
routinely under this panel's jurisdiction. However, because 
they are so important to readiness and our members, I believe 
that they are relative to this hearing.
    The 60-40 safeguard and the $3 million competition 
safeguard plus the core work load safeguards protect our depots 
by retaining a federally controlled core work load which is 
capable of meeting maintenance needs of our armed forces in 
times of war and peace. AFGE strongly recommends that the 
Committee continue in the absence of any viable alternative to 
strongly support the statutory safeguards which ensure that our 
depots are ready when called upon to support our men and women 
in uniform.
    AFGE also asks this Committee to work to ensure that the 
Nation's depots are given maintenance assignments for new 
weapons systems.
    As Mr. Robert T. Mason, by the way, not a relative, the 
Deputy Under Secretary of Defense for Maintenance, Policy 
Programs and Resources told the congressional delegation in 
early 1996, ``If the depots don't get any new work from new 
weapons systems or from closing depots,'' a scenario that at 
least some senior officials in the Pentagon would actually like 
to bring about, ``they will all be closed in 9 years.''
    I would now like to address the issue of contracting out 
generally.
    For AFGE and its members, the central issue which should 
drive the discussion surrounding the outsourcing debate is 
readiness, how we can get the most effectiveness, efficiency, 
and reliability for the taxpayer dollars invested.
    AFGE is not antiprivatization. We are, however, 
unreservedly and nonnegotiably pro competition. On this 
principle we will not cave or compromise.
    It is imperative to remember that the way to generate 
efficiencies and savings is not contracting out or outsourcing 
or privatizing. Rather, what is key is ensuring real and 
genuine competition between the public and private sectors.
    AFGE was extensively involved in the 1995-1996 reform of 
Office of Managment and Budget--OMB Circular A-76. This effort 
resulted in a revised supplement that while permitting more 
flexibility to contract out, also enables Federal employees 
greater involvement in the competitive process and makes 
contracting out a two-way street by permitting work to be 
returned back in-house when it is more cost effective to do so.
    We have two recommendations to offer, Mr. Chairman, 
regarding A-76: One, AFGE urges the Committee to resist any 
attempts to exempt the Pentagon from the competitive 
requirements of A-76; two, AFGE urges the Committee to deny 
appropriations for conversions to contractor performance for 
all activities involving 10 or more employees until a 
commercial activities performance analysis has been completed 
in accordance with A-76.
    I would now like to address the serious consequences of 
full-time equivalent, FTE, personnel ceilings.
    Personnel ceilings are forcing some military bases to lay 
off their civilian employees and then to contract out the work 
at higher costs.
    The problem is especially noticeable at service depots 
where Federal employees are getting reduction in force notices 
while planes, tanks, and ships await repairs. But don't take 
our word for it. The personnel directors of four branches of 
the armed forces in testimony before the Congress in 1995 
bemoaned the fact that civilian ceilings, not work load costs 
or readiness concerns, are forcing them to send work to the 
contractors that could have been performed cheaper in-house.
    The representatives asserted that their services' depots 
must turn away valid, funded work load requirements because of 
the FTE ceilings, limiting the flexibility of our depots to 
adjust and meet quickly and critical unprogrammed surge 
requirements of our operating forces.
    In the fiscal year 1996 Defense Appropriations bill, the 
Congress instructed DOD to stop managing by FTE ceilings. 
However, that mandate has been defied. An example of this 
defiance is attached as an exhibit in my testimony.
    In a letter a senior Army official explicitly instructed an 
installation commander to abide by in-house staffing quotas, 
and then contracted out work that may have been performed more 
cheaply in-house.
    Clearly, the outcome of any competition at Fort Hood or 
elsewhere within forces command, for that matter, has already 
been decided in advance of the requirements of the A-76 and the 
interest of the taxpayers in fair public-private competition 
notwithstanding.
    I wish that I could say that this is an isolated case. 
Unfortunately, while it may be one of the more blatant cases, 
it is by no means unique. DOD's own Inspector General--IG 
reported 2 years ago that the goal of downsizing the Federal 
work force is widely perceived as placing DOD in a position of 
having to contract out services regardless of what is more 
desirable and cost effective.
    AFGE urges the Committee to require DOD to manage by budget 
rather than FTE ceilings. AFGE also urges the Committee to ask 
the service chiefs to appear before you and acknowledge or deny 
that they are managing by FTE ceilings. We also urge you to ask 
the General Acconting Office--GAO to determine whether the 
Pentagon has complied with the congressional prohibition 
against management by FTE ceilings.
    That concludes my overview of AFGE's views and concerns, 
with respect to the fiscal year 1998 defense appropriations.
    Mr. Young. Thank you very much for your testimony.
    [The statement of Mr. Harnage follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 17, 1997.

                    AMERICAN PSYCHIATRIC ASSOCIATION


                                WITNESS

JERRY M. WIENER, M.D., AMERICAN PSYCHIATRIC ASSOCIATION

                              Introduction

    Mr. Young. Our next witness will be Dr. Jerry Wiener of the 
American Psychiatric Association, which represents some 42,000 
psychiatric physicians.
    The association has not been bashful in its opposition to 
psychopharmacology demonstration projects, and the 
association's objections, contained in your full statement, 
will be noted. Your entire statement will be placed in the 
record. You may proceed as you wish.

                        Statement of Dr. Wiener

    Dr. Wiener. Thank you very much, Congressman Young. I 
appreciate your allowing me to go out of turn, so I have to 
leave earlier than I thought I would come on the regular 
schedule. So I very much appreciate that.
    I am the Past President of the American Psychiatric 
Association and Chairman of the Department of Psychiatry at 
George Washington University.
    I am going to address three issues. The demonstration 
project which you just mentioned in the Defense Department, 
which is proposed to train psychologists to prescribe 
medications for the treatment of mental illness, the American 
Psychiatric Association, together with the Defense Department, 
are in full agreement with the conclusion of the April 1997 
report, ``Given the Defense Department's readiness 
requirements, the Psychopharmacology Demonstration Project, 
PDP, substantial costs and questionable benefits and the 
project's persistent implementation difficulties, we see no 
reason to reinstate this demonstration project.''
    I will next talk about the coverage and delivery of mental 
health service in the military medical system, and third, the 
confidentiality of patient records.
    First, the PDP and the General Accounting Office report.
    When this program was terminated by the Congress, it 
required the GAO to evaluate the program and make 
recommendations regarding its continuation. This report 
entitled, ``Defense Health Care: Need for More Prescribing 
Psychologists Is Not Adequately Justified''; this report, it is 
attached at the end of my written testimony.
    The report documents what the American Psychiatric 
Association has consistently maintained, that the program is, 
and was from its beginning, a major boondoggle which was never 
needed and never requested by the military, but only by one 
Senate aide, who happens to be a psychologist and who used his 
Senator's control over the military's budget to fund a program 
which was of no benefit except to the profession of psychology 
and which began without any House or Senate hearings or any 
consideration by this Committee or Full Committee.
    This program has wasted now $6.1 million taxpayer dollars 
and used military personnel and their families as its subjects. 
Its original justification was to train psychologists to treat 
something called ``battle fatigue.'' When it was pointed out 
there was, per se, no such condition, then the rationale was 
changed to a shortage of psychiatrists and the cost-benefit of 
training psychologists to write prescriptions.
    So the GAO report concludes: ``Training psychologists to 
prescribe medication is not adequately justified because the 
military health services system has no demonstrated need for 
them, the cost is substantial, and their benefits uncertain. 
The MHSS has more psychiatrists than it needs to meet its 
current and upcoming readiness requirements.''
    The report goes on to make the following important points, 
that even with the training provided psychologists because they 
have no medical education, they cannot substitute for 
psychiatrists in diagnosis and treatment, and furthermore that 
the cost of the program is extremely high for the value of the 
product.
    $6.1 million has been spent, $610,000 per each graduate 
from the program, that has produced 10 prescription-writing 
psychologists, the last two of which had to be recruited out of 
the Senator's office and appointed to the rank of major in 
order to get sufficient students in the class, because there 
were no volunteers or insufficient volunteers from the Army.
    That cost of $610,000 compares to a cost of about $300,000 
in tuition and stipends and costs to produce a fully educated 
and trained psychiatrist over an 8-year period of medical 
school and residency, compared to the $610,000 for a 2-year 
quick course and one year of training, which the DOD's own 
oversight committee thought brought these psychologists about 
to the level of second year residents.
    Under the heading is that no government program is easily 
terminated, and despite the GAO report and the statement from 
the DOD that it has no plans to extend the program after the 
termination date of June 30th, 1997, as each of you may be 
aware, a major lobbying campaign has been undertaken to 
discredit the GAO report, to influence the Congress to 
reinstate this program, which from its inception was only a sad 
monument to a psychologist's wish to be a physician.
    The GAO report is solid, it is well balanced, and it is 
your own. Reinstatement would only tend to support the public's 
perception that the Congress sometimes spends millions of 
dollars on wasteful and needless programs.
    Now, in the delivery and coverage of mental health services 
in the military medical system, studies repeatedly document 
that mental disorders are as diagnosable, as serious, and as 
treatable, certainly as prevalent, and as costly as heart 
disease, diabetes, and cancer. There is a move at the present 
time to shift the CHAMPUS delivery system for mental health 
services into a managed care system, much as many other 
services are being shifted.
    For many reasons military life is more stressful than 
civilian life, especially for children and adolescents. CHAMPUS 
has now implemented the TRICARE program which moves CHAMPUS 
into the managed care arena. These systems generate savings for 
the insurer by limiting access to mental health care. We are 
concerned that TRICARE will follow this plan, including special 
limits on psychotherapy. These policies may save money in the 
short run, money which is converted into managed care profits, 
but these measures are more costly in terms of dysfunction, 
morale, and long-term costs, and that has been demonstrated 
several times over.
    Patients should receive the medical care they require, no 
more and no less. Our hope is that Congress will expect that 
TRICARE will strive to achieve this goal.
    Third and last, and very briefly, is the issue of great 
importance of confidentiality of patient records. Recently at 
Elmendorf Air Force Base in Anchorage, Alaska, the 20-year-old 
daughter of a military counterintelligence agent was allegedly 
raped by an airman. Her records, when she sought therapy at the 
base to deal with this, detailing her sessions with the 
psychiatrist, were requested by military lawyers to defend the 
airman charged with the rape because the records are considered 
government property.
    The Supreme Court majority in Jaffee v. Redmond stated that 
the balance of interest regarding psychotherapy was clearly on 
the side of confidentiality. I will not quote that statement, 
but it makes a very strong statement of the importance to the 
public and in this case to the military by extension on my part 
to the military, that the importance of confidentiality very 
much outweighs the evidentiary benefit that would result from 
the denial of the privilege.
    The Department of Defense's Assistant Secretary for Health 
Affairs has recommended that nonactive duty patient/Department 
of Defense psychotherapist communication should be privileged, 
as it is in the civilian sector.
    It is time overdue to take action on this generally agreed 
upon position. It is prima facie that confidentiality is 
necessary for accurate diagnosis and effective treatment. It is 
in the self-interest of the military to afford family members 
of active duty personnel the same right and access, and 
therefore to effective health care to which they would be 
entitled if they were not members of the military family. We 
urge you to request the DOD to amend the military rules of 
evidence to create this privilege.
    Thank you very much.
    Mr. Young. Doctor, thank you very much.
    [The statement of Dr. Wiener follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 17, 1997.

                   AMERICAN PSYCHOLOGICAL ASSOCIATION


                                WITNESS

MORTON ANN GERNSBACHER, Ph.D., AMERICAN PSYCHOLOGICAL ASSOCIATION

                              Introduction

    Mr. Young. I would like to invite Dr. Morton Ann 
Gernsbacher of the American Psychological Association to come 
to the table. They have a little different opinion of the PDP.
    Dr. Gernsbacher, you are recognized for 5 minutes. Your 
entire statement will be placed in the record. Please summarize 
as you wish.

                      Statement of Dr. Gernsbacher

    Ms. Gernsbacher. Thank you, Mr. Chairman.
    I am Dr. Morton Gernsbacher, the Sir Frederick C. Bartlett 
Professor of Psychology at the University of Wisconsin in 
Madison. So I am here on behalf of American psychologists who 
don't necessarily aspire to be physicians.
    I am here on behalf of the American Psychological 
Association, and I want to make three brief points: The 
continuing need to invest in research, including psychological 
research at the Department of Defense; the need to sustain 
support for the Army Research Institute for the behavioral and 
social sciences; and APA's continuing support of the 
department's demonstration program that is training 
psychologists to prescribe psychotropic medications.
    DOD has supported psychological research since World War 
II. Today, as our military forces streamline, downsize, and 
become more diverse, DOD-funded behavioral research is 
revealing ways in which to enhance human performance, train for 
complex tasks, and identify and build leadership.
    We believe that maintaining DOD's technology base must be 
6.1, 6.2, and 6.3A research in these areas. It is important to 
recognize that increasingly sophisticated weapons systems place 
more, not fewer, demands on human operators and maintainers. We 
must ensure that our military personnel are as well prepared as 
their machines to meet the challenge. This is not possible 
without a sustained investment in human-oriented research.
    Our written statement includes specific requests for 
research programs in the Navy, Air Force, and Army. But I want 
to highlight the need for the Committee to support an increased 
budget for the Army Research Institute--ARI.
    APA recommends a 1998 funding level of $21.4 million for 
ARI, and the allocation of 165 full-time equivalent positions. 
This is $3.65 million and 468 positions more than requested, 
yet it is lower than the current funding level of $23.7 
million.
    Funding for ARI has been eroding, despite the strong record 
of ARI in sponsoring research that is essential to the training 
and performance of Army personnel. It is critical that this 
Subcommittee stop the erosion this year.
    About half the Army's budget, some $45 billion, is spent on 
personnel, but less than $24 million is now spent to make these 
personnel more effective. In comparison, $16.2 billion is spent 
on material procurement and around $4.3 billion is spent on 
research to make the equipment more effective.
    ARI works to build the ultimate smart weapon, the American 
soldier, and its efforts deserve your support.
    The ARI was established to conduct personnel and behavioral 
research on such topics as minority and general recruitment, 
personnel testing and evaluation, training and retraining, and 
leadership. And this is the type of research that I conduct.
    Reliable data about these issues is critical, as you know 
from today's headlines. While the Army seeks to solve the 
problem of sexual harassment within its ranks and establish 
workplace ethics and procedures that bring out the best from a 
diverse work force, good data collected for the Army from 
scientists who understand how the Army works will help the Army 
plan and execute reasonable policies.
    ARI is the focal point and principal source of expertise 
for all the military services for leadership research, an 
important area for all the armed services. Research that helps 
identify, nurture, and train leaders is critical to their 
success. In addition, ARI conducts research on the training and 
other demands of the peacekeeping role, a difficult job that 
requires different training than the combat role.
    APA urges you to support a modest increase for ARI. Its 
budget has been reduced well over 50 percent from a high of 
around $50 million in 1995. The Army cannot buy this research 
more cheaply elsewhere. DOD's investment in ARI's scientific 
skills and its honest brokering of essential research will 
continue to serve our Nation well.
    Finally, I want to remind the Committee that APA remains 
very supportive of pharmacology training for psychologists in 
the military health services system.
    A respected research organization, Vector Research, Inc., 
in a May 1996 report commissioned by the DOD, extensively 
analyzed the Psychopharmacology Demonstration Project, PDP. 
This is the project within DOD that has trained a small number 
of military psychologists to prescribe psychotropic medication 
when appropriate. Vector showed the benefits of having 
pharmacopsychologists in the military, 10 of whom will have 
graduated from the 2-year Fellowship by mid-1997.
    I can only briefly summarize the report in my remaining 
time, but I refer you to the APA's written statement for a more 
complete discussion. The report states that, ``if 
pharmacopsychologists are utilized in lieu of some physicians 
on deployment, their contribution would be the safe and 
effective treatment of service members with psychotropic 
medications at a lower cost than could be achieved by utilizing 
physicians in that role.''
    A recent GAO report unfortunately misses the point, 
ignoring the beneficial effect of psychologists prescribing on 
the military health system overall. APA has serious concerns 
with the methodology used in this study, and with the fact that 
GAO ignored its own evidence that contradicted its conclusions. 
GAO itself admits that clinical psychologists can be trained to 
prescribe, and even admits that by using pharmacopsychologists 
DOD can save money.
    DOD is running a health care business, and the bottom line 
is what skills are needed and which providers can most 
efficiently provide those skills. The PDP shows that this type 
of training has proved to be a good way to increase access for 
military personnel to appropriate, high-quality mental and 
behavioral health care.
    APA urges Committee members to recognize the value to the 
MHSS of psychopharmacological training and to support making 
such training a permanent option for psychologists in the 
military.
    In summary, both psychological research and practice have 
and will continue to provide savings from increased efficiency 
and enhanced productivity in the armed forces, and we ask again 
for your support.
    Thank you.
    Mr. Young. Thank you very much.
    Mr. Young. Mr. Visclosky has some questions on this issue, 
and I would like to recognize him at this time.
    Mr. Visclosky. Mr. Chairman, if I could direct them to Dr. 
Wiener?
    Doctor, what would your reaction be to the Vector study?
    Dr. Wiener. Well, the Vector study has a number of serious 
problems in it. One, of course, is it was an internal study 
rather than an external study.
    Mr. Visclosky. Internal to the Department of Defense?
    Dr. Wiener. Yes. And there are many actual--they made a 
number--all of these studies make assumptions, and they start 
out if you start with this set of assumptions, you come out 
with this set of figures, and if you start with other sets, you 
come out with very different figures.
    The GAO study, for example, took all of the costs of the 
program, including the start-up costs, because there had been 
so few people in the program that they justified that, I 
thought very rationally so, that you couldn't ignore what the 
start-up costs were.
    Then they asked Vector to use the same cost basis and see 
what would happen. If I remember correctly, in the Vector 
study, even on the re-analysis, and this is contained in the 
GAO report, you would require that the psychologist prescribe 
anywhere from 85 to 110 percent of their time, and nobody is 
going to spend 85 percent of their time basically writing 
prescriptions or dealing with writing prescriptions. That is 
not realistic.
    Mr. Visclosky. They are at about 38 percent now, right?
    Dr. Wiener. The psychologists, you mean? I think that was 
the figure. I don't remember exactly. It is also important to 
remember that 38 percent is also still, for each one of them, 
under supervision, so there is an additional component of 
supervisory time involved in the cost. They have not been able 
to yet attain nonsupervised prescription writing privileges or 
psychopharmacology privileges. Also, they don't take into 
account the fact that particularly severely ill patients, sick 
patients, have a number of other illnesses as well, and that 
writing only prescriptions for psychoactive drugs without any 
realization or training or preparation to understand the other 
illnesses and their medications and their interactions is not 
really very appropriate.
    Mr. Visclosky. You would have us believe that a trained 
psychologist would not understand their limitations and would 
not therefore, prescribe in that circumstance?
    Dr. Wiener. I won't make that assumption.
    Mr. Visclosky. Would you presume, then, that psychologists 
shouldn't prescribe at all?
    Dr. Wiener. Yes. There is no purpose and no value and no 
adequate training available for psychologists to write 
prescriptions.
    Mr. Visclosky. In other fields of medicine you have MDs 
anesthetizing patients, and nurses anesthetizing patients as 
well.
    Dr. Wiener. Wait a minute, did you say MD?
    Mr. Visclosky. They are not MDs, nurses who are not MDs 
delivering anesthesia. In the field of eye care, you have 
ophthalmologists. And I would understand you have both nurse 
anesthetists in the military; you have ophthalmologists in the 
military; you have nurse practitioners. As you indicated, we 
are in health care. We have $15 billion here at stake and we 
are looking for cheaper solutions.
    I don't have a firm position one way or the other on the 
difference between the two of you, but I would suggest we ought 
to be looking at competition in the military, to reduce costs.
    Dr. Wiener. Well, I think you have looked at it, and I 
think the GAO report looked at it.
    Mr. Visclosky. I would respond as far as Vector, if it is 
going to be a permanent program, that the start-up costs that 
were factored into the GAO study are a one-time occurrence and 
would not be permanent to the program.
    Thank you very much, Doctor.
    Mr. Young. Doctor, do you have any response to any of those 
questions?
    Ms. Gernsbacher. No, thank you.
    Mr. Young. Thank you very much, both of you, for being 
here.
    [The statement of Dr. Gernsbacher follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 17, 1997.

NON COMMISSIONED OFFICERS ASSOCIATION OF THE UNITED STATES OF AMERICA

                                WITNESS

SERGEANT MAJOR MICHAEL F. OUELLETTE, U.S. ARMY (RET.), DIRECTOR OF 
    LEGISLATIVE AFFAIRS, NON COMMISSIONED OFFICERS ASSOCIATION OF THE 
    UNITED STATES OF AMERICA

                              Introduction

    Mr. Young. I would like to welcome back before the 
Committee Sergeant Major Michael Ouellette, the Director of 
Legislative Affairs for the Non Commissioned Officers 
Association of the United States. The sergeant major and I 
spend a lot of time together working on the quality-of-life 
issues for our troops and make sure we do the best we can to 
provide a good quality of life for them.
    I was interested in reading your testimony, Sergeant, 
that--I want to quote you--you say, ``Enlisted people indicate 
they no longer can afford to shop in the exchange for many 
items. In fact, many enlisted members have referred to the K-
Mart, WalMarts and Target Stores in the local communities as 
`enlisted exchanges.' ''
    You indicate that the solution to the problem would be 
lifting exchange restrictions. Tell us more about that as you 
proceed with your time.

                 Statement of Sergeant Major Ouellette

    Sergeant Major Ouellette. Fine, Mr. Chairman. Thank you 
very much again this year for the invitation to appear before 
you to discuss many issues that are very important to enlisted 
people currently serving in the Armed Forces and to virtually 
everybody serving.
    I would like to personally extend to you the thanks of the 
Non Commissioned Officers Association and the other members of 
the Military Alliance for the outstanding work that you have 
done in the past years to provide pay increases that went 
beyond those recommended by the administration, to do separate 
Basic Allowance for Quarters--BAQ increases, to provide 
military construction money for increases. I would really hate 
to see what the Armed Forces today would look like from a 
quality-of-life standpoint if it had not have been for the 
outstanding efforts of this Committee over the past number of 
years.
    The point that you mentioned in your opening remarks 
concerning the exchanges, I have found when I have traveled to 
many of the installations, military enlisted people will come 
up to me, and I will talk about exchanges. I feel the 
importance of exchanges are this: That by encouraging people to 
use them, to spend their dollars there, that money then rolls 
over into Morale, Welfare and Recreation--MWR programs and goes 
back into the installation. That consequently could reduce 
taxpayer liability for those programs. It is sort of a self-
supporting issue.
    When I talk to enlisted people, many of them say they no 
longer use the exchange on post, they are going down downtown 
to the WalMarts, the Target Stores, and even go so far as to 
refer to them as ``enlisted exchanges.'' And when I question 
them on that, it is simply this: They will say the exchanges 
tell you they will save you 30 to 40 percent on name brand 
merchandise, but if you can save 40 percent on a Tommy Hilfiger 
shirt that is sold in the exchange for $65, it really doesn't 
do me any good because I can't get there from here anyway.
    What we need to do is lift the restrictions. I think a lot 
of the lifting of the restrictions are really concerns that 
product lines, large top-of-the-line products, big-dollar 
products, will be brought in, and I don't think so.
    I think the other thing will be that the exchanges are 
recognizing the fact that they have pretty much priced enlisted 
people out of the market and retirees out of the market, and 
hopefully by allowing those stores to remain competitive with 
the outside, that we will be able to roll over money, maintain 
the money to help ourselves within their military communities, 
thereby reducing the appropriations needed to support those 
programs.
    When I was coming here to testify, I wanted to make a 
special note. Most of the statements submitted by military 
associations pretty much sang the same songs. We understand the 
issues and support the same kind of programs for the most part.
    I wanted to not take a whole lot of time, but I called a 
constituent of yours, an old retired command sergeant major 
named Jim Hare, who lives down in your area, was a great 
soldier, served for 35 years, has never worked after 
retirement. He does volunteer work, driving senior citizens to 
doctors' appointments in the area. He has been sort of slowed a 
little bit lately because he has glaucoma.
    But I called him, and I said, Jim, I am going to appear 
before your Representative, Bill Young. He said, a good man. I 
said, what would you want me to tell him? And he said, Mike, he 
said, if anything, he said, tell Mr. Young that I need his 
Committee to make decisions that support and protect the 
institution of the Armed Forces, that take care of the people 
that are in the Armed Forces that are currently doing the 
things I used to do and the people that worked for me did. But 
it is the institution that you really look at, and saving that 
in terms of recruiting, retention, you draw money into taking 
care of people, thereby maintaining that institution.
    He said, the other thing I would say is talk to Mr. Young 
about protecting my earned retirement benefits, whether it be 
military health care, which I am having a tough time with right 
now. I need some options out here. I have got to take care of 
my wife. She has got some medical problems. I need some help 
here because I don't know where to turn.
    We need to protect the commissary as an earned, non-pay 
benefit that I served for, that helps me make ends meet. We 
need to protect the exchanges and those kind of things.
    He was very sincere. He was most appreciative for the work 
you have done, particularly in cost-of-living-adjustments--
COLAs. He said that work has allowed him to continue doing what 
he has been able to do, because the cost-of-living adjustments, 
allowances, that you have provided every year, above and beyond 
removing the inequities, have allowed him to continue to pay 
the bills and be able to be an important part of the community, 
and he was most appreciative to you.
    Mr. Chairman, that is about all I have to say right now. If 
you have any other questions, I have got a statement that 
outlined our issues, and I know you understand them, and the 
Committee will work very hard to make life better for the 
people who serve this country.
    Mr. Young. We appreciate all the time you spend in this 
work and the way that you stay in touch with us, and we also 
appreciate the aid and assistance you give us on occasion when 
there are issues that need to be resolved.
    Mr. Young. Peter?
    Mr. Visclosky. No, thank you.
    Mr. Young. We appreciate your being here. I invite all of 
you to stay in touch. The quality of life of the people that 
serve our Nation is utmost in our priorities.
    Sergeant Major Ouellette. Thank you for the invitation and 
allowing the other military associations to bring their issues 
to the table. I appreciate it.
    [The statement of Sergeant Major Ouellette follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 17, 1997.

                    AIR FORCE SERGEANTS ASSOCIATION


                                WITNESS

CHIEF MASTER SERGEANT JOSHUA W. KREBS, USAF (RET.); MANAGER, 
    LEGISLATIVE AFFAIRS, AIR FORCE SERGEANTS ASSOCIATION

                              Introduction

    Mr. Young. Next on our agenda is Joshua Krebs of the Air 
Force Sergeants Association. When I reviewed the written 
statement, I was particularly interested in the discussion of 
increasing responsibilities given to enlisted members. You said 
the Air Force has converted many jobs from commissioned to 
enlisted, greatly raising the level of responsibility of 
enlisted members without a commensurate raise in pay.
    My son tells me about that, because he is a one-striper at 
Sheppard Air Force Base, and he wonders about that same thing. 
We would like to hear from you also. Your entire statement will 
be placed in the record.

                Statement of Chief Master Sergeant Krebs

    Sergeant Krebs. Thank you, sir. Understanding that you are 
running late, I will, in fact, just go to the issue you just 
brought up.
    The Air Force in particular has been converting many 
positions from officer to enlisted, noncommissioned, and at the 
same time the ratio of enlisted pay to officer pay has remained 
steady over many years. I did not go into any particular 
details of the positions that were converted, but I can tell 
you that over 1,000 weapons director positions have been 
converted from officer to enlisted. A number of forward air 
control positions that used to be fighter pilot have been 
converted. Scores of support positions throughout have been 
converted.
    Just as the military has taken away some of the layers of 
responsibility, they have also brought down the levels of 
responsibilities, so that the senior commissioned people have 
more responsibility than they had.
    We believe it is time that somebody takes a hard look at 
what was there 10 years ago as far as what enlisted people did 
and what is there today, and look at the same time at the 
proportionate pays that were given to enlisted people then 
versus today, and the officers. I think if we did that and took 
an honest look at it, we would find that the enlisted member is 
giving more to the military today than what they did 10 years 
ago for disproportionately less pay.
    That concludes my statement. Thank you, sir.
    Mr. Young. My understanding is that the enlisted Air Force 
personnel are now operating and flying the Satellite 
Constellations. Am I correct in that?
    Sergeant Krebs. To the best of my knowledge, yes, sir.
    Mr. Young. Well, that is a very interesting point that you 
raise. We will take a close look at that. Getting pay increases 
is not really easy. We will provide a pay increase this year. 
It won't be very much, unfortunately, but there have been times 
when we provided pay raises over the objection of the 
administration which didn't ask for them. But we understand we 
are way behind in pay for the members of the military, and we 
are way behind in a lot of the quality-of-life issues. We are 
doing the best we can to catch up.
    Again this year we will do the very best we can to make 
housing better, to make the medical care better, to make their 
responsibilities more recognized properly. So we are in this 
with you, and we are going to do the best we can. We appreciate 
your calling this to our attention.
    [The statement of Chief Master Sergeant Krebs follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 17, 1997.

                       FLEET RESERVE ASSOCIATION


                                WITNESS

CHARLES L. CALKINS, NATIONAL EXECUTIVE SECRETARY, FLEET RESERVE 
    ASSOCIATION

                              Introduction

    Mr. Young. I would like to welcome back Charles Calkins, 
the National Executive Secretary of Fleet Reserve Association. 
I think you now have about 162,000 members, and you are 
representing active-duty, Reserve and retired U.S. Navy, Marine 
Corps and Coast Guard enlisted personnel.
    Your prepared statement points out reducing end strength 
and increasing deployments place considerable strains on the 
service personnel and their families, and you will hear a very 
strong amen from the Members of this Committee. We recognize 
that, we see what it is doing to our overall readiness, to the 
morale of the troops, to the condition of our equipment. We 
understand that, believe me. We are happy to hear from you on 
the subject. You are recognized.

                        Statement of Mr. Calkins

    Mr. Calkins. Thank you, Mr. Chairman. You just stole half 
of my presentation.
    What we want to do is on behalf of the 162,000 members of 
the Fleet Reserve Association is to thank you for the watchdog 
that you have been, trying to protect those rights and benefits 
of the members at sea, to show our appreciation to you and our 
Committee.
    At the outset, the Fleet Reserve Association, as you said, 
directs your attention to the impact of continued high 
operational tempo within the uniformed services. End strengths 
have been reduced by roughly 25 percent during the drawdown, 
yet deployments have increased significantly, resulting in 
considerable strain on service personnel.
    A little personal note that I might add into that. About 3 
weeks ago I was headed up to Groton to do a legislative 
briefing to an active-duty group at the sub school, and I 
personally know a sailor up there, and I called and said, I am 
flying up on Sunday, why don't we get together Sunday afternoon 
or evening for lunch or for dinner. My presentation is on 
Monday morning, and I have got to fly back Monday evening. And 
he said, Dad, I would love to, but I got to work. I said, you 
don't have duty. He says, Dad, I haven't had a weekend off for 
about 3 or 4 weeks. I said, that is fine. I said, what time do 
you get out of work? He said, 5 o'clock. I said, 5 o'clock on a 
Sunday? He says, yeah.
    So we did eventually get together for dinner. I said, you 
know, you need some time off. You look like you are kind of run 
down. This young fellow is about 12 years in the Navy, and he 
is at a point where he has to make a decision to continue or to 
walk, and, of course, being retired Navy myself, I am kind of 
hoping he is going to follow my footsteps all the way to 30 
years and not stop at 20.
    And he said, Dad, I have to really take a hard look at what 
is going on. And he said, I look around at the civilians that 
come aboard to fix our ship. He says, they have Mondays through 
Fridays, they are off for the weekends, they get more pay than 
what I get, they get to spend more time with their families 
than I do.
    That is the real hard issue, and I think that is pretty 
well servicewide. I don't want to pick out the Navy 
specifically, but it really hits home with me and brings back 
some memories. I think we can go from every home port to every 
home port, discussion, it is the same issue. I think it is a 
very real thing.
    Specifically, and we are looking at more downsizing in the 
Navy further, 3 or 4 weeks ago there were discussions or rumors 
of cutting the Navy about another 11,000 people, and since then 
it is going to be cut another 6,000 people by 1999. I am 
looking at that and saying that is an awful lot of carriers or 
ships to go to sea, and what happens to our defense in the 
meantime.
    Several issues are out there as it has been indicated in 
our statement. The one thing that I think that really should 
hit home with the Committee, if I might ask, is the addendum 
that we added to my statement referring to the pay raises, a 
time lag in the pay raise. The pay raise becomes effective or 
is discussed in October. It doesn't become effective for 15 
months later. And the pay gap, as the chart shows, prior to the 
all-volunteer force, the pay comparability between senior 
enlisted personnel and junior enlisted personnel was 4.5 to 1, 
and yet senior officers and junior officers was 5.0 to 1. Since 
then, 1997, senior enlisted to junior enlisted is 2.6 to 1, and 
officers is 4.6 to 1.
    We need to take a hard look at that. The people that are 
making the Navy, the Marine Corps and the Coast Guard work are 
in our senior enlisted category, a group of people, and we 
should consider those pay raises.
    Mr. Chairman, again, welcome back. I hope you are in good 
health. You look good. Your color is back. Keep up the good 
work for us. We really appreciate it.
    Mr. Young. Thank you very much, sir. We appreciate you 
being here, and we appreciate the work you do for those who 
serve in our military. I also thank you for your comment. My 
health is very good now. I had a few bumps along the way, but I 
am back at full force again, and things are well. Again, thank 
you very much for being here.
    [The statement of Mr. Calkins follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 17, 1997.

                  NATIONAL MILITARY FAMILY ASSOCIATION


                               WITNESSES

SYDNEY T. HICKEY, ASSOCIATE DIRECTOR, GOVERNMENT RELATIONS, NATIONAL 
    MILITARY FAMILY ASSOCIATION

                              Introduction

    Mr. Young. Our next witness is Sydney Hickey, the Associate 
Director of Government Relations of the National Military 
Family Association. Mrs. Hickey has been a military family 
member for most of her life, is a spouse of a retired Naval 
officer and has an Air Force daughter. She also puts out one of 
the best newsletters in town, and last year I remember telling 
you that and asking that we be kept on your mailing list, and I 
make that request again. Please keep us on your mailing list, 
because we find it very, very informative.
    We would like to recognize you now. Your entire statement 
will be placed in the record. Please summarize.

                        Statement of Mrs. Hickey

    Ms. Hickey. Thank you very much, Mr. Chairman. I can assure 
you you will be the top of our mailing list. The families we 
serve remain indebted to you and the Members of the 
Subcommittee for your strong support of their quality of life.
    This morning I would like to touch briefly on three issues 
from our written testimony: compensation, health care and 
military communities. I think it is important to note that to 
military families, compensation is not only what goes into the 
bank account, but what doesn't have to come out of it for the 
basics such as food, shelter, clothing and the care of their 
children. So if you propose a cut in savings at the 
commissaries, or a 20 percent increase in child care costs as 
envisioned in the Navy's pilot program to subsidize bases in 
the civilian child care centers, if you propose housing 
privatization initiatives that may end up costing the members 
out of pocket, families view these as compensation cuts.
    Obviously depressing active-duty pay raises will continue 
to put military families further and further behind their 
peers, as will the Department of Defense's proposal to rob 
Peter in order to pay Paul a small amount of the basic 
allowance for subsistence.
    In health care, I think some of the problems of the TRICARE 
program have been adequately discussed before, so I would just 
like to jump to the fact that NMFA believes the underlying 
problem with the health care system is that the benefits 
provided, the cost to the beneficiary of those benefits, and 
the population covered by those benefits are subject to yearly 
budget battles within the Pentagon. We do not believe the 
military beneficiaries should be subject to the budget of a 
single agency. If, as with the Federal Employees Health 
Benefits Program, an economic change becomes necessary for the 
fiscal safety or health of the country, then, fine, let's 
debate that in the halls of Congress, not the halls of the 
Pentagon.
    Debate in the halls of the Pentagon has led to our leaving 
the age 64 and older population out of the current health care 
problem. Debate in the halls of the Pentagon is including 
discussions right now of charging even CHAMPUS-eligible 
military retirees over $900 just to put their big toe in the 
military health care facility. Is it any wonder that military 
families, including active-duty, are asking the question who is 
next?
    In the military community, the military community includes 
the installations, the organizations, the institutions and the 
people, and it is viewed as home by military families whether 
or not they actually live on the installation. Our family 
support centers teach skills enabling service members and their 
families to cope with the demands of military life, and then 
they provide that safety net to assist the families when their 
coping skills are not enough.
    With the current high personnel and operational tempo and 
the long workdays and workweeks even when the service member is 
home, the need for the services provided by these family 
centers has increased. Privatization and out-sourcing 
initiatives, whether for family housing, family support 
functions, or child care, have the potential to increase 
quality of life and reduce costs. NMFA believes that care 
should be taken that such initiatives reinforce the community 
and do not, no matter how inadvertent, lead to the destruction 
of the community and its support infrastructure.
    To conclude, as important as NMFA believes the strong 
family support structure is for military families, in the end 
nothing can totally stop the negative effects on family life of 
frequent separations, including what we call the ``they only 
sleep here'' syndrome. Thank you very much, Mr. Chairman.
    Mr. Young. Thank you very much for being here. We certainly 
share your concerns. It will be part of our consideration as we 
proceed to provide the funding for fiscal year 1998. We will do 
the best we can.
    Ms. Hickey. I know you will. Thank you, sir.
    [The statement of Ms. Hickey follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 17, 1997.

                          THE AMERICAN LEGION


                                WITNESS

DENNIS M. DUGGAN, ASSISTANT DIRECTOR, NATIONAL SECURITY-FOREIGN 
    RELATIONS COMMISSION, THE AMERICAN LEGION

                              Introduction

    Mr. Young. I would now like to now invite Colonel Dennis M. 
Duggan of the American Legion to come to the table. In addition 
to his post at the American Legion, Colonel Duggan served 25 
years in the military, including two tours of duty in Vietnam.
    We are always interested in hearing the views of the 
American Legion. You have expressed something in your written 
statement that is bothering all of us seriously, and that is 
the question of the possibility that we are returning to the 
days of the hollow forces. There is a lot of reason to believe 
that is happening. We would like for you to expand on that 
issue.
    Your entire statement will be placed in the record. Please 
feel free to summarize as you wish.

                        Statement of Mr. Duggan

    Mr. Duggan. Mr. Chairman, it is a pleasure to appear before 
you and your distinguished Committee. We have always looked 
forward to that. On behalf of the 3 million members of the 
American Legion, we are extremely grateful for this 
opportunity. We, as in our entire membership, as well as the 
members of the Armed Forces, I am sure, owe you a tremendous 
debt of gratitude for your continuing efforts to not only 
maintain a strong national defense, but to enhance the quality-
of-life features for our men and women who serve in uniform. We 
know, we are convinced, that you and your Committee will do 
your very, very best for our men and women.
    We receive daily letters not only from veterans and 
military retirees, but from a number of active-duty people and 
their families, and they actually cite, and we know you are 
aware of them, the actual and proposed string of broken 
promises and the growing list of benefits which apparently seem 
to be under attack. Letters daily from medicare-eligible 
military beneficiaries who are prohibited from enrolling in the 
TRICARE program. We are aware that some 58 military medical 
facilities are closed or are closing, and another 17, we 
understand, are identified for closure. The Department of 
Defense, once again, is proposing the closure of a cost-
effective Uniformed Services University of Health Sciences, 
which we strongly support, and the Defense Commissary Agency 
may have to close some 37 commissary stores to make up 
budgetary shortfalls. And the list goes on.
    If we had to prioritize, the Legion's greatest concerns 
include, first of all, military quality of life, closely 
followed by the readiness--and we realize quality of life is a 
form of readiness--and, lastly, modernization. A marked decline 
in quality-of-life features for the active force and military 
retirees, coupled with heightened operational TEMPOS, we 
believe, can only adversely impact on both retention and 
recruiting.
    As Chairman Floyd Spence noted in his extremely revealing 
and great report, there is a widespread perception that not 
only is the military having to do more with less, they are also 
getting less. Good soldiers, sailors, Marines and airmen are 
questioning the desirability of a career in uniform, and 
undoubtedly our youth will question the sincerity of a military 
service that provides diminishing health care, closing 
commissaries, paying less-than-inflation pay raises, living in 
substandard housing, and enduring frequent family separations. 
Most civilians would not endure a fraction of the sacrifices 
that our military and their families undergo.
    We also believe that many of our military retirees can no 
longer recommend a military career, or, for that matter, even 
military service. They themselves are seeing the promise of 
lifetime health care being broken.
    So we in the Legion support a broad array of options to 
help the medicare-eligible military retirees to include 
medicare subvention, the option of enrolling in the Federal 
Employees Health Benefits Plan regardless of age or health care 
status, and, of course, the GI Bill of Health.
    We also support the correction of such longtime inequities, 
for example of the concurrent receipt, however small, of both 
military retired pay and VA disability compensation, and 
removing the unfair automatic age 62 social security offset to 
the Survivors' Benefit Plan, or SBP.
    We have always believed that military service represents 
honorable and noble service to the Nation as it represents 
fulfillment of American patriotic obligation, but it is also a 
privilege and responsibility that has always embodied the 
highest form of service to the Nation. It is the only form of 
service which may call for paying the ultimate price for the 
common defense of the United States. We believe, therefore, 
that the beneficiary, the United States Government, continue to 
honor its obligations to all service members, all veterans, 
military retirees, and their dependents, or else we stand to 
lose the finest military in the world.
    Thank you, sir. If you have any questions?
    Mr. Young. Colonel, thank you very much.
    Mr. Young. Peter, do you have any questions?
    Mr. Visclosky. No. No, thank you.
    Mr. Young. I just want you to know we are committed to 
doing the very best we can. You know our resources get more 
limited all the time. The OPTEMPO that you mentioned, the 
Bosnia operation, which was supposedly going to cost us $1.5 
billion, is now over $6 billion. We are wearing out the 
equipment, we are wearing out the troops, and we are having to 
work with the real world. We are doing the best we can. You can 
count on us.
    Mr. Duggan. Yes, sir, we will.
    [The statement of Mr. Duggan follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 17, 1997.

                         THE MILITARY COALITION


                               WITNESSES

VIRGINIA TORSCH, CDR, MSC, USNR, THE RETIRED OFFICERS ASSOCIATION
MIKE LORD, CDR, USN (RET.), COMMISSIONED OFFICERS ASSOCIATION OF THE 
    U.S. PUBLIC HEALTH SERVICE, INC.

                              Introduction

    Mr. Young. Next is The Military Coalition, which is 
comprised of 23 military and veterans' organizations. The 
Coalition stays in touch with us on a regular basis, and we 
always appreciate those communications and the views that we 
receive.
    Representing The Coalition are the cochairs of the Health 
Care Committee, Commander Virginia Torsch and Commander Mike 
Lord. Your statements will be made a part of the record. It is 
my understanding that Commander Torsch will be making the 
testimony for both of you.
    Mr. Lord. That is correct, sir.

                        Statement of Ms. Torsch

    Ms. Torsch. Thank you very much, sir. In the interest of 
time, I only wanted to concentrate on one of our major issues, 
although we cover the other two components, the fix in TRICARE 
and medicare subvention. The most important one for this 
committee is our legislative initiative opening up the Federal 
Health Employments Benefits Program to the medicare-eligibles.
    I would like to express our very deep appreciation for your 
leadership and strong support last year for this initiative. 
Although your efforts to work out provisions for a 
demonstration fell short of its goal, we did make considerable 
progress. Significantly, the fiscal year 1997 defense 
appropriations conference agreement directed DOD to submit a 
report on the viability of such a demonstration program. 
Unfortunately, we understand this report is still in progress 
and probably will not arrive in time for the fiscal year 1998 
hearing cycle. Given this disappointment, these hearings take 
on added significance.
    First, it seems DOD will not cooperate in designing and 
setting up an FEHBP-65 demonstration program unless directed to 
by statute. Second, the TRICARE program is not measuring up to 
expectations, and, of course, as I said, our written testimony 
detailed many problems with TRICARE that must be worked out to 
make this program a more effective health care benefit.
    Further, although the Coalition strongly supports medicare 
subvention, we recognize there is little likelihood it will 
benefit more than 40 percent of the eligible beneficiaries. The 
Coalition estimates that even after accounting for those who 
may already be enrolled in medicare at-risk HMOs or already 
participate in comparable private sector plans, there are still 
about 480,000 medicare-eligible beneficiaries who will not have 
any access through the government-sponsored health care program 
DOD promised them as a part of their lifetime health care 
commitment.
    Mr. Chairman, military retirees do not understand, and 
neither does The Military Coalition, why they should not be 
given the opportunity to participate in the health care program 
that provides Federal civilians retiree health care that is 
second to none. Therefore, The Coalition is seeking your 
support to authorize all medicare-eligible uniformed service 
beneficiaries to enroll in the Federal Health Employment 
Benefits Plan.
    Mr. Chairman, although The Military Coalition strongly 
endorses implementation of FEHBP-65 nationwide, we recognize 
there are still many unanswered questions that need to be 
addressed about the initiative. Therefore, The Coalition 
strongly urges this committee to spearhead the enactment of an 
FEHBP demonstration program. A test would provide concrete 
information on the number of uniformed services beneficiaries 
who would avail themselves of this option if offered. If the 
number of enrollees is less than the 95 participation rate 
predicted by the Congressional Budget Office, an estimate we 
believe is extremely high, the actual cost of the FEHBP-65 
option would be considerably less than current estimates.
    Secondly, since a separate risk pool would be established, 
there is every likelihood the cost to DOD would be further 
reduced. One reason is that the vast majority of military 
retirees are covered by medicare, and when you combine medicare 
with FEHBP, the health care outlays for FEHBP insurers are only 
70 cents for every dollar of premium paid.
    The Coalition therefore supports a test of this as a 
critical bridge to health care equity and requests the 
subcommittee appropriate an amount not to exceed $50 million to 
test this program at two sites in fiscal year 1998. Given the 
reality that Congress will approve more than $4 billion to 
provide FEHBP to Federal civilian retirees, some with as few as 
5 years of service, it doesn't seem unreasonable to ask for 
this insignificant sum be allocated to those who sacrificed to 
keep this Nation free. They did not equivocate then, and this 
Nation should not equivocate now.
    That concludes my testimony. I would be happy to answer any 
questions you have.
    Mr. Young. Thank you very much. As you heard throughout the 
day, this is an important issue. Last year, unfortunately, we 
ran into some jurisdictional issues, and medicare subvention, 
for example, died on the vine when the Congress adjourned. 
Fortunately, our colleagues recognize the importance of 
resolving this problem, and all I can tell you is you have our 
assurance we are going to continue to find a way to do this, 
and hopefully our authorizers will be able to get together and 
at least decide which of the three potential committees will 
actually assume jurisdiction.
    We appreciate your statement. Thank you for being here.
    Thank you.
    [The statement of Ms. Torsch follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 17, 1997.

    ENLISTED ASSOCIATION OF THE NATIONAL GUARD OF THE UNITED STATES


                                WITNESS

MICHAEL P. CLINE, MASTER SERGEANT (RET.), EXECUTIVE DIRECTOR, ENLISTED 
    ASSOCIATION OF THE NATIONAL GUARD OF THE UNITED STATES

                              Introduction

    Mr. Young. Now I would like to welcome back Master Sergeant 
Michael Cline of the Enlisted Association of the National 
Guard.
    We have again, as in the past, examined your statement as 
well as the other statements, and as you point out very, very 
accurately, the Guard is being called upon more and more to 
provide not only peacetime, but combat-ready support for 
contingencies around the world. As the drawdown of the active 
force continues, your role becomes that much more important.
    Your prepared statement will be included in the record, and 
we would like for you to summarize them.

                   Statement of Master Sergeant Cline

    Master Sergeant Cline. Thank you, Mr. Chairman. I would 
like to bring greetings from Command Sergeant Major Bill Reed 
from the Florida National Guard, and also from your group, 
Major General Bob Inslen. They have both inquired about your 
health. I will report back to them you look better than ever.
    One thing I would like to comment on, Mr. Chairman, your 
status on the list of Sydney Hickey. I don't know if I would 
want to be on that list, so you may want to take that into deep 
concern, because being on Sydney's list is not good.
    Mr. Chairman, Members of the subcommittee, we thank you for 
giving us the opportunity to present the views of the enlisted 
men and women of the National Guard of the United States. 
Pursuant to House rules, the Enlisted Association of the 
National Guard receives no Federal grants or other public 
funds.
    What I would like to expand upon is what House National 
Security Chairman Floyd Spence wrote about in his April 9th 
report on the rhetoric and reality of military readiness. 
Although Congressman Spence's report did not address issues of 
the National Guard and Reserve components, I did find many 
interesting similarities to what the National Guard is faced 
with in the administration's fiscal year 1998 budget request.
    In his report, the Chairman wrote that more than one 
division of the Army's 10 active-duty divisions is hollow and 
has no manning. The active Army is confronted with increased 
deployments, which is stretching not only the manpower 
resources, but also the funds necessary to properly train and 
maintain units, and therefore have turned and are relying on 
increased participation by the National Guard and its sister 
Reserve components to fill the void.
    However, the Guard is also faced with similar problems. The 
units that are being called upon to either backfill active 
component units or for deployment to Bosnia and other 
peacekeeping operations around the world will receive only 8 
percent of OPTEMPO funds necessary to train with.
    It does not take a master's or doctor's degree to figure 
out if the Guard units, under tiered readiness, who only train 
at a portion of the active components requirements and only are 
funded at the 8 percent level of the reduced requirement, 
which, by the way, are more than 60 percent of your Army and 
National Guard units, will not have sufficient training and 
will not be available for the active component to deploy, 
because no longer can they maintain many minimal readiness 
levels.
    Can you imagine, Mr. Chairman, having a professional truck 
driver who has a minimum of 23 miles behind the wheel of an 
80,000-pound truck to be qualified to run our Nation's 
highways, or, better yet, the Beltway or Interstate I-95 at 
rush hour? Yet the budget submission will only allow tank crews 
to drive and train with a 69-ton tank 23 miles per year. How 
will someone tell the families of Guard members that they were 
injured or gave their life because there were not sufficient 
funds to properly train them?
    Chairman Spence wrote about the shortcomings in training 
and lack of unit cohesion. The Guard is also faced with the 
same problems. More than 60 percent of the Army National Guard 
forces have no funds earmarked for schools. This includes 12 of 
the 15 enhanced readiness brigades. Individuals will have to 
attend what schools they can, using their 15 annual training 
days. Units going to annual training will report without 
sufficient personnel to do unit-level training, and have the 
same unit cohesiveness problems that the Chairman wrote about. 
Again, these are the same units that are being called upon to 
relieve the active component.
    The Chairman wrote about the 30 percent overall failure 
rate of new recruits in the Army. The Guard is faced with a 
similar problem, and it is because of the budget shortfalls. 
Twenty-four out of every 100 new recruits into the National 
Guard will not enter into initial entry training.
    The Congress has mandated the requirement of prior service 
personnel to be recruited into the National Guard. However, 
with the budget shortfalls, the strong possibility that the 
Guard would have to go below the required end strength levels 
agreed to in the off-site agreement, there will be no spaces 
for these prior service personnel.
    It is ironic, Mr. Chairman, that we, the taxpayer, spend 
$70,000 to $80,000 to initially train a new soldier regardless 
of whether they are active duty, National Guard, or Reserve. 
Then we spend millions of dollars to transition them out of the 
service because another study changes something.
    Congressman Spence also wrote that there is concern over 
the readiness assumptions, and those in charge of conducting 
the administration's Quadrennial Defense Review, QDR, that they 
will use. Recently Secretary of Defense Cohen stated we need to 
modernize and technologically advance the military for the 
future. However, the active Army has had to resort to 
recruiting CAP-3 recruits to meet recruiting goals.
    You would think that we would want the highest and smartest 
to be part of America's Army. It takes dedication, education, 
and skills to manage and use the new, updated equipment we 
already have, yet alone that of the future. Meanwhile, we have 
transitioned out of the service those who currently have the 
necessary skills and education to meet the needs of today's 
modern Army. The money invested into their training and 
education is totally lost, and we are not able to maintain them 
in the Guard and Reserve because of budget reductions or loss 
of positions.
    As a father and a husband, I want to know, Mr. Chairman, is 
the Congress and the administration going to provide the 
required resources so that National Guard can perform the 
missions that are requested of them and do it in a manner which 
is not only professional, and properly resourced and trained? 
Because if that is not going to happen, I don't want my wife 
and my two sons who serve in the National Guard to be in harm's 
way.
    I believe in the saying that the more you sweat in the 
classroom, there is less blood that will be spilled on the 
battlefield. However, to sweat in a training field or a 
classroom, the Guard must be properly resourced and funded.
    Mr. Chairman, I want to make it quite clear that our 
association actively supports our active-duty brothers and 
sisters. We believe they must be funded at 100 percent to be 
the first line of defense for our country. But to provide the 
necessary relief that they need in peacekeeping operations, and 
to relieve the stress on active-duty members and their 
families, the National Guard, a parent of America's Army, must 
also be properly resourced and trained. Although our Air Force 
and Navy can deploy anywhere in the world and literally bomb 
the heck out of a potential enemy, it takes trained, well-
disciplined soldier and Marines who occupy the real estate to 
say we now have undeniable control.
    Mr. Chairman, the Enlisted Association of the National 
Guard is proud to be a member of The Military Coalition, and we 
fully support and endorse the legislative proposals. Again, 
thank you for giving the Enlisted Association of the National 
Guard an opportunity to express its views on the fiscal year 
1998 defense budget.
    Mr. Young. Thank you very much for your views. You know we 
place a lot of credibility in the position that you represent. 
We appreciate your being here to talk with us about this. As I 
have told so many folks earlier today, we are going to do the 
best we can, and we do understand the importance of the 
National Guard.
    [The statement of Master Sergeant Cline follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 17, 1997.

               AMERICAN ASSOCIATION OF NURSE ANESTHETISTS


                                WITNESS

RONALD L. VAN NEST, AMERICAN ASSOCIATION OF NURSE ANESTHETISTS

                              Introduction

    Mr. Young. I would like to invite now Ronald Van Nest of 
the American Association of Nurse Anesthetists. The association 
represents over 26,000 certified registered nurse anesthetists, 
including more than 600 in the military.
    Mr. Van Nest, your prepared statement will be made a part 
of our official record. We ask you to summarize your statement 
for us at this time.

                       Statement of Mr. Van Nest

    Mr. Van Nest. Mr. Chairman, I am a certified registered 
nurse anesthetist, a CRNA, and I am here to speak to you on 
behalf of the American Association of Nurse Anesthetists, the 
AANA. I have been a member of the AANA Federal Services Ad Hoc 
Committee for 3 years, and I am a recent retiree of the U.S. 
Navy Nurse Corps, and the immediate former nurse anesthesia 
consultant to the Navy Surgeon General.
    The AANA is the professional association that represents 
over 26,000 CRNAs, including over 600 CRNAs in the military.
    I am here to speak with you about the cost savings of your 
continued support of CRNAs in the military. It is important to 
note that CRNAs provide the same high-quality care as our 
physician counterparts as measured by outcome studies.
    Now, how do CRNAs save Americans money? Nurse anesthetists 
are less costly to educate and far less expensive to retain on 
active duty. The cost of a 30-month nurse anesthesia education 
is approximately $29,000, while the cost of a 4-year residency 
for physicians is approximately $339,000. On those numbers 
alone, more than 10 CRNAs can be created for the cost of one 
physician anesthesia provider.
    Bonus money is another great savings when using CRNAs. If a 
nurse and a physician start anesthesia training at the same 
time, in 8 years the nurse anesthetist will have received 
$69,000 in special pays, while the anesthesiologist will have 
received $253,500, a quarter of a million dollars. In the case 
of the physician, all of it was received under payback 
obligation for their education.
    Now to staffing ratios. DOD can save more money by 
utilizing the two anesthesia provider groups in more 
appropriate numbers. The CRNA-to-anesthesiologist levels right 
now in the services are Army, 2 to 1; Air Force, 1.6 to 1; and 
the Navy, 1 to 1.
    It is ironic that during World War II when, nurse 
anesthesia training was very brief and mostly on-the-job 
training, that the ratio was 17 to 1. Yet now, when the 
anesthesia is far safer, with sophisticated technology, 
computerized monitors and alarms, and nurse anesthesia at the 
master's degree level, CRNAs are being supervised at much lower 
ratios.
    In the invasion of Panama, only CRNAs were assigned to the 
deployed combat units. When aircraft carriers deploy now for 
extended periods of time, the usual anesthesia provider on 
board is a highly qualified CRNA as the sole anesthesia 
provider. If such practice models are acceptable for deployed 
situations, then they should be acceptable in urban medical 
treatment facilities.
    I would like to briefly discuss the issue of board 
certification pay, BCP. The AANA is highly supportive of the 
board certification pay for all advanced practice nurses, yet 
many CRNAs do not receive it. This is the result of the 
interpretation that a CRNA must hold a master's degree in 
clinical anesthesia. Many experienced officers who are CRNAs 
have over their military career chosen to broaden their 
education by pursuing an advanced degree in fields such as 
education and management, but these do not qualify for the BCP. 
In the future, this bonus will act as a financial disincentive 
for nurse anesthetists to broaden their education.
    The AANA encourages DOD and the respective services to 
reexamine the issue of awarding board certification pay only to 
CRNAs who have clinical master's degrees.
    In conclusion, the AANA thanks this committee for its 
support of military nurse anesthetists through the incentive 
special pay increases and the board certification pay. The AANA 
believes that the appropriate utilization of CRNAs in the 
military is of critical concern and is an area that DOD could 
examine for increased cost savings.
    I thank the Committee members for their consideration of 
these issues, and I will be happy to answer any questions they 
may have.
    Mr. Young. Mr. Visclosky?
    Mr. Visclosky. Thank you very much, Mr. Chairman.
    Thank you very much for your testimony. I have three 
questions, if I could. On the issue of certification, my 
understanding is that the current national certification 
program does not require a master's degree.
    Mr. Van Nest. In 1998, that will be a requirement.
    Mr. Visclosky. You will have to have graduated from an 
accredited program.
    Mr. Van Nest. The Task Force on Accreditation requires by 
1998 all nursing anesthetist programs will be at the master's 
degree.
    Mr. Visclosky. Will it specify what type of master's degree 
you will have to have?
    Mr. Van Nest. No, sir.
    Mr. Visclosky. So you would want essentially DOD's policy 
to mirror what the national accreditation standards would be?
    Mr. Van Nest. That is correct.
    Mr. Visclosky. On the bonus program, you allude to that in 
your testimony, you don't have a recommendation. Do you have 
one you would be willing to submit to the subcommittee? You 
talk about the disparity, the discrepancy between nurse 
anesthetists and anesthesiologists.
    Mr. Van Nest. I am glad you asked that question. I don't 
want to give the committee the impression I came here to 
``doc'' bash. It is just that money has been put in this to 
these folks at a time that they are already under service 
obligation. When the bonuses were awarded to the nurse 
anesthetists, that argument that they were already under 
contract was used to use it more as an incentive to basically 
reenlist, to retain on active duty. My recommendation perhaps 
would be, personal recommendation would be, to utilize it more 
as a retention tool after service obligation has been paid 
back.
    Mr. Visclosky. Okay. As far as the ratios, have the ratios 
developed near 1-to-1 simply because of hiring practices; that 
is, not because of the regulations that have been proposed? 
Your testimony relates to the proposals that there be 1-to-1 
supervision on many of the bases. Is it just the way hiring has 
transpired?
    Mr. Van Nest. There are no regulations to that effect.
    Mr. Visclosky. You would be concerned about those 
occurring?
    Mr. Van Nest. Yes, sir, I certainly would. There are no 
such regulations. What seems to be going on is there is a glut, 
if you will, of anesthesiologists in particular in the civilian 
world, and that has created somewhat of a backfill in the 
military of people who used to get out and do not now. I think 
this has helped raise the issue of supervision as basically a 
personal opinion, a means of justifying the continuation of 
these billets.
    Mr. Visclosky. Getting back to bonuses, I understand you 
are not trying to pull anybody down. You are looking at trying 
to narrow a discrepancy. You are suggesting instead of using 
bonuses to attract enlistment, you are asking that it be used 
more as a retention tool?
    Mr. Van Nest. That is correct.
    Mr. Visclosky. Thank you very much.
    Mr. Young. Thank you. Thank you very much, sir, for your 
testimony. We appreciate your being here today.
    [The statement of Mr. Van Nest follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 17, 1997.

            NATIONAL GUARD ASSOCIATION OF THE UNITED STATES


                                WITNESS

WILLIAM H. SKIPPER, JR., DIRECTOR, LEGISLATIVE ACTIVITIES, THE NATIONAL 
    GUARD ASSOCIATION OF THE UNITED STATES

                              Introduction

    Mr. Young. Next is Mr. Bill Skipper, Director of 
Legislative Activities for the National Guard Association.
    In reading your testimony, we see that you raised some of 
the same points that Sergeant Cline did, but you even spell out 
more shortfalls in the President's budget for the National 
Guard and the Air Guard. We appreciate the cost-effectiveness 
of the investment that the taxpayer makes in the Army Guard and 
the Air Guard, and we would like to hear your testimony. We 
will place your entire statement in the record and ask you to 
summarize.

                        Statement of Mr. Skipper

    Mr. Skipper. Thank you, Mr. Chairman. On behalf of the 
National Guard Association of the United States and the tens of 
thousands of commissioned and warrant officers who constitute 
our membership, I thank you for the opportunity to express our 
views regarding the National Guard today and its prospects for 
the future. I have a prepared statement and ask it be submitted 
for the record. I will revise and extend some of those remarks 
as we go through. Mr. Chairman, first, I would like to start 
off thanking you personally for the hard work and what your 
Subcommittee has done for the National Guard. And also I would 
like to extend thanks to your staff. You have got a fine staff 
that we can always count on to assist us with frank discussion 
on the issues.
    The continuing support of this Committee for National Guard 
and Reserve programs has earned it the gratitude of every 
member of this association. Your continued support in the 
future will become increasingly important as the Department of 
Defense attempts to define the requirements of our national 
defense strategy through the ongoing Quadrennial Defense 
Review--QDR.
    Our association is, though, extremely concerned, however, 
about the funding levels requested for the National Guard in 
fiscal year 1998, which is not adequate to maintain the 
existing force levels, readiness, OPTEMPO or modernization 
programs. In other words, Mr. Chairman, we cannot sustain the 
Guard as you know it today based on that budget. It is just not 
there for us to do that.
    We have established three legislative priorities for fiscal 
year 1998 that addresses the problem. These priorities are: The 
stabilization of the National Guard force structure and end 
strength, full resourcing of readiness requirements and a 
reduction of the National Guard military construction backlog. 
And for brevity sake, I would like to address the major issues 
and that will be the funding.
    Mr. Chairman, the continuing reductions in the overall 
Defense budget have resulted in funding shortfalls in important 
National Guard readiness accounts; namely, pay and allowances 
and operations and maintenance. Readiness funding shortages are 
particularly acute in this year's budget request for the Army 
National Guard. For fiscal year 1995, the resources provided to 
the National Guard were commensurate with the assigned 
missions. The 1998 budget shortfall is $743 million short of 
meeting that readiness requirement.
    As a result, Mr. Chairman, none of the soldiers in 12 of 
the 15 enhanced brigades or eight guard divisions will be able 
to attend a military school. Twenty-five percent of the new 
recruits will not be able to go to basic training or advanced 
individual training. And over 27,000 Army Guard soldiers will 
be unable to attend annual training in 1998 based on the 
budget.
    This 1998 budget request provides operations and readiness 
funding for some of our tiered readiness early-deployed units. 
Funding is not provided to maintain the minimum levels of 
readiness for later deploying units. Base operations and depot 
maintenance are also severely underfunded.
    Given the increase in OPTEMPO for many of these Guard 
units, as I alluded to earlier, any reduction in readiness 
could have a long-term impact on the National Guard's 
capability and accessibility, and, Mr. Chairman, as you know, 
the thousands of guardsmen and women on duty today in support 
of State-related missions up and down the Ohio River in North 
and South Dakota and deployed throughout the world in support 
of the CINCs' missions.
    The 1998 budget request proposes a reduction in the number 
of aircraft and several airlift units of the Air National 
Guard. Last year, thanks to you and to the Congress, you were 
able to reverse the proposed reduction of 12 to 10 primary 
aircraft units--PAA. The funding provides for only 8 PAA in 
those same units that you worked so hard on last year.
    These reductions will place an increased burden on the Air 
National Guard and its support of the Air Force missions and 
commander in chief's requirements.
    Mr. Chairman, as you know, modern compatible equipment is 
critical to National Guard readiness and the relevance of the 
National Guard units. Army National Guard requirements include 
a field artillery system such as Paladin and Multiple Launch 
Rocket System--MLRS; tracked combat vehicles such as M1A2 
Abrams main battle tank, and Bradley fighting vehicle, air 
defense systems such as Patriot and Avenger systems; Black Hawk 
utility helicopters, training devices and simulators, 
communications equipment and the list goes on and on.
    The Air National Guard is also in need of equipment 
modernization, airlift, refueling fighter and bomb 
requirements. The National Guard Association asks you and the 
committee, sir, to direct the DOD to fully resource National 
Guard readiness requirements and increase funding for National 
Guard operations and maintenance, military personnel and 
equipment modernization. Fully resourced readiness accounts 
will assure a trained and ready National Guard for the conduct 
of combat operations peace support and support of our 
Governors.
    Mr. Chairman, in addition, the National Guard Association 
urges the committee to review the total military construction 
backlog and direct the Department of Defense to develop 
innovative and reasonable solutions to rectify this problem.
    In conclusion, the National Guard Association remains 
convinced that the Army and Air National Guard represent the 
most cost-effective and capable component of the U.S. military, 
as you spoke to earlier.
    The Army National Guard provides over 50 percent of the 
combat forces, 15 percent of the combat support forces and 24 
percent of the combat service support forces for the total 
Army, while accounting for only 9 percent of the Army's budget. 
Also this force is paid for within only 2 percent of the DOD 
budget.
    The Air Guard provides 30 percent of the general purpose 
fighter Air Force, 20 percent of the air support forces and 42 
percent of the theater airlift forces with only a 6 percent 
share of the Air Force's budget. At a time when reductions in 
defense spending appear to be imminent and maintaining a robust 
national security posture seems increasingly difficult, the 
National Guard should not be viewed as a bill payer, but 
represent a solution.
    Mr. Chairman, I think we could both agree that the economic 
benefit that the Guard provides the national defense is 
quantifiable and indisputable.
    Mr. Chairman, the National Guard Association appreciates 
the past support of this committee and the opportunity to 
express our views regarding our national security and the 
National Guard, and we appreciate your time, sir.
    Mr. Young. Thank you very much and we appreciate your 
statement and your statement of support, and we will do the 
very best that we can with the limited resources we have. If 
you have any influence at the White House, tell them to get 
that number a little bit higher when they send the budget over 
here.
    [The statement of Mr. Skipper follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 17, 1997.

           AMERICAN SOCIETY OF TROPICAL MEDICINE AND HYGIENE


                                WITNESS

ROBERT EDELMAN, MD, ASSOCIATE DIRECTOR FOR CHEMICAL RESEARCH CENTER FOR 
    VACCINE DEVELOPMENT, UNIVERSITY OF MARYLAND SCHOOL OF MEDICINE

                              Introduction

    Mr. Young. Our next witness is Dr. Robert Edelman of the 
University of Maryland School of Medicine, representating the 
American Society of Tropical Medicine and Hygiene. The society 
has been supportive of infectious disease and HIV research 
programs, as has been this Subcommittee, and, doctor, we 
appreciate you being here and we will place your entire 
statement in the record and ask that you summarize at this 
time.

                        Statement of Dr. Edelman

    Dr. Edelman. Thank you, Mr. Chairman. It is a pleasure to 
be here. You have been exposed to the statement for a week now 
and I would like to give over to you some personal thoughts.
    I have been involved in this field for 30 years. I got--I 
cut my teeth in tropical medicine and infectious disease as 
part of the Walter Reed Research Team assigned to Bangkok, 
Thailand and Vietnam. And I can tell you firsthand, I have been 
able to see for 30 years the evolution in the emergence of 
these infections which are now beginning to lap at our shores.
    There have been focal outbreaks along the Caribbean, 
thousands of thousands of cases creeping up through Mexico. I 
run--I helped direct a tropical disease traveler's clinic at 
the university medical system. We see some of our patients who 
go overseas coming back with malaria, dengue fever at a rate 
that we have never seen before in the past. I can tell you from 
very personal feeling that I am very much concerned about these 
developments throughout the world, and I am sure that your 
subcommittee and yourself also share that.
    Really, the Department of Defense maintains a unique 
capability in medical research. It is one of the few government 
groups or private groups who are committed for maintaining the 
health of our forces overseas, but it also has very important 
impacts upon many other segments of our society. An example 
would be we send over about 8 million travelers overseas every 
year of which 4 million go into the tropics, and many of these 
individuals are exposed to the same things that our troops are.
    Again, I will repeat that many--we are all seeing an 
increased number of these infections breaking out and we are 
particularly concerned that there is increasing numbers of 
drug-resistant forms of diseases such as malaria and infectious 
diseases that affect the bowel causing traveler's diarrhea that 
is becoming a tremendous concern not only for the military, but 
all segments of our society.
    I am also involved as part of one of the largest vaccine 
development units in the United States, academic units on the 
development of vaccines against dengue and malaria and I have 
been involved in working with dengue vaccines with the Walter 
Reed Institute of Research and with the malaria vaccines with 
the Navy Medical Research Institute.
    We are concerned that recently there has been some funds 
that have been diverted from the support of these tropical 
medicine programs to support the peacekeeping efforts in 
Bosnia. For example, some of the research going on at the Navy 
in the Navy Research Institute here and overseas has been 
curtailed as of last March because of funding decrements as a 
result of peacekeeping efforts and to support those efforts in 
Bosnia.
    The other aspect I would like to touch on is the unique 
opportunity that these programs play for training future 
physicians and health care providers to protect our troops 
overseas and as a result, to help with other segments such as 
our enormous numbers of travelers overseas. An example of that, 
I am a child of two of those laboratories and I can tell you 
that they are really jewels in the crown of the American health 
care establishment.
    The Society would like very much to encourage your 
continued bipartisan support for these laboratories and for the 
Walter Reed group and for the Navy Medical Research Program and 
for the program of Infectious Disease Institute in Frederick, 
Maryland.
    We would also like to focus a moment on the importance of 
about a $5 million budget to help establish a program for 
surveillance of infectious diseases throughout the tropical 
areas of the world. We are increasingly seeing, as I mentioned 
before, sexually transmitted diseases, malaria, and diarrhea 
diseases being increasingly resistant to available antibiotics.
    We don't have vaccines as of yet. We have a vigorous 
program, and we are trying to explore that avenue, but we need 
to have constant surveillance for these infections, and these 
overseas laboratories in South America, in Kenya, and in Asia 
will provide eyes and ears for the military and for our entire 
society for the incursion of these highly resistant pathogens.
    As a conclusion, I would like to summarize we are all very 
grateful for your support of the military medical infectious 
disease efforts. We encourage you to continue that support and 
we would like for you to consider the addition of roughly $5 
million to help support a plan for putting surveillance in 
place for these emerging infections and to become cognizant of 
the problem we have with the divertment of funds more recently 
away from their intended use by the medical research 
establishment toward peacekeeping efforts. Thank you very much.
    Mr. Young. Thank you very much, Doctor. We will do the best 
we can to continue. You know that we have a sincere interest in 
medical care and the prevention of diseases if possible. And as 
our troops are deployed around the world, they become more and 
more exposed. So thank you very much for calling this to our 
attention and we look forward to working with you.
    Dr. Edelman. Thank you, Mr. Chairman.
    [The statement of Dr. Edelman follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 17, 1997.

     NATIONAL COALITION FOR OSTEOPOROSIS AND RELATED BONE DISEASES


                                WITNESS

SANDRA C. RAYMOND, EXECUTIVE DIRECTOR, NATIONAL OSTEO- POROSIS 
    FOUNDATION

                              Introduction

    Mr. Young. Congressman McDade is one of the very 
distinguished members of this Committee and a senior Majority 
Member on the overall Appropriations Committee, and I would 
like to yield at this time to Congressman McDade to introduce 
the next witnesses.
    Mr. McDade. Mr. Chairman, I am very, very grateful to you 
for letting me sort of break into the program for a minute. I 
want to explain to the audience that I am chairing another 
Committee which requires my attendance in two places at once.
    But I was able to break away and I wanted to come over to 
introduce Sandra Raymond, who is the next witness, who is going 
to testify. I have known Sandy for a long, long time and she 
takes a very deep and active interest in health issues in the 
country. I am thrilled to come over and welcome her because, 
like so many of you, she has only one ax to grind: The public 
health of the people of the United States.
    Sandy, won't you please come up and offer your testimony.
    Mr. Young. Ms. Raymond, you are recognized.

                        Statement of Ms. Raymond

    Ms. Raymond. Thank you, and I thank Congressman McDade for 
being here. He is certainly an advocate for the American people 
and I have great admiration and respect for him. I am here 
representing the National Coalition for Osteoporosis and 
Related Bone Diseases and, I want to thank you and your 
Committee for your very generous $10 million appropriation for 
bone disease research in the fiscal year 1997 DOD budget.
    I want to emphasize just a few points. You have my written 
testimony. This is not--the DOD program is not an extension of 
the NIH bone disease research program. This is funding that 
will carry on a bone disease research program that has specific 
relevance to the military age population. The goal of the Bone 
Disease Research Program is to enhance military readiness by 
reducing the incidence of fracture which spells loss of time 
and a lot of money, especially during physically intensive 
training, and we think it may have long-lasting effects.
    You may know or you may have heard of the word, ``stress 
fractures.'' Perhaps somebody in your family has had a stress 
fracture. Stress fractures affect 10 to 15 percent of women 
recruits during the 8 weeks of basic training, and I am only 
speaking about women here, not the male recruits. Most of us 
think of stress fractures as ones that sort of heal over time, 
and the integrity of the bone is maintained.
    But, in fact, untreated and repeated stress fractures which 
occur in the same long bone in the leg, for example, or in the 
arm, can lead to a complete fracture and this results not only 
in pain and disability, and costly surgery at some times, but 
also follow-up rehabilitation.
    There is a very famous woman marathon runner who ran in the 
Boston marathon. I am not going to mention her name. She 
suffered stress fractures and she is now foreclosed from ever 
running again, ever training again because she is at such risk 
for fracture. We have an increasing number of women in the 
military, and the bone health of female recruits is a growing 
concern for all Americans, and for these Americans, if they are 
going to serve at a maximum capacity and strength.
    According to the Army itself, the minimum time away from 
significant duty for a male or a female soldier who develops a 
stress fracture is 6 to 8 weeks. Stress fractures are very slow 
to heal. Full recovery takes as long as 12 weeks, and they are 
one of the more frequent injuries that affect men and women in 
the Army.
    In a recent survey, 1,338 stress fractures were diagnosed 
in 100,000 undergoing basic training. We need advances. We need 
to understand the overall bone health of military men and 
women.
    Military recruits are at an age where dietary and 
environmental factors can still influence the amount of peak 
bone mass that they develop. The greater bone mass that we 
achieve during the first three decades of life, the stronger 
the bones are likely to be throughout life. So to achieve that 
peak bone mass and retain that inner structural strength, what 
do we need to know in the DOD research program? We need to know 
what the relationship is between muscle strength and 
development and bone mass. We don't know those answers. We need 
to know the impact of physical fitness and diet on peak bone 
mass. We have to know what environmental factors are related.
    Are carbonated beverages in the diet of our military 
recruits doing damage? Is their alcohol intake a factor? Is 
their smoking a factor? What are the predictors of risk? Are 
there genetic factors that we need to have more information on? 
And what are the best preventive, diagnostic and treatment 
strategies for the young population? For those we recruit for 
military service?
    I think that the DOD research program is going to 
contribute greatly to bringing bone disease under control not 
only in the military, but in the U.S. population as a whole.
    Osteoporosis and related bone diseases, the diseases that 
we are talking about here, are serious threats to the American 
public. To almost 30 million Americans. You know that these 
diseases cause loss of independence, death, disability. The 
annual cost is about $14 billion, and is rising. Bone diseases 
affect women, men and children of all ages. From infancy to the 
oldest, these diseases profoundly alter the quality of life for 
millions of Americans.
    By discovering how we can build bone mass to peak capacity 
in young recruits, we are not only building a strong military, 
we are building a strong Nation ready to withstand the stresses 
of an extended life span. You know, NASA has long recognized 
the importance of bone loss in space and how that relates to 
their astronauts. It is a key priority for NASA. And equally, I 
think, if they do not find the answers about those astronauts, 
their missions are subverted. Equally, the mission of DOD 
cannot be achieved without this important bone disease 
research.
    Today, Mr. Chairman, Mr. McDade, Mr. Murtha and others, we 
are urging you to consider a very reasonable $20 million in 
appropriations for bone disease research in fiscal year 1998.
    I want to thank you for this opportunity and thank you 
again, Mr. McDade.
    Mr. Young. Thank you very much for being here. And I want 
you to know that you and your cause are represented by one of 
the great Members of Congress.
    Ms. Raymond. I know that well. Thank you. Any questions?
    Mr. McDade. No questions.
    Mr. Young. Thank you again for being here.
    [The statement of Ms. Raymond follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 17, 1997.

    AMERICAN ACADEMY OF OTOLARYNGOLOGY--HEAD AND NECK SURGERY, INC.


                                WITNESS

MICHAEL D. MAVES, M.D., MBA, EXECUTIVE VICE PRESIDENT, AMERICAN ACADEMY 
    OF OTOLARYNGOLOGY--HEAD AND NECK SURGERY, INC.

                              Introduction

    Mr. Young. Next on our agenda is Dr. Michael Maves, 
Executive Director of the American Academy of Otolaryngology-
Head and Neck Surgery, Incorporated. The academy and the 
physicians who belong to it are dedicated to the treatment of 
patients' diseases of the head and neck.
    Thank you for coming today and your entire statement will 
be placed in our record, and summarize it as you wish.

                         Statement of Dr. Maves

    Dr. Maves. Thank you. I appreciate the opportunity to be 
able to present this testimony on behalf of the roughly 11,000 
otolaryngologists in this country. I am Dr. Michael Maves, 
Executive Vice President of the American Academy of 
Otolaryngology and a practicing otolaryngologist at the 
Georgetown University Medical Center.
    We have three issues that we would like to bring before you 
and, of course, we have testified on this in past years. The 
first is the issue of tobacco cessation in the military. The 
American Academy of Otolaryngology head and neck surgery has 
been opposed to the use of tobacco for many decades. We are the 
surgeons who, for the most part, take care of patients who are 
afflicted with head and neck cancers and we see firsthand the 
effects of tobacco use on our patients every day.
    There are increasing news reports of tobacco companies 
admitting to the adverse impacts of tobacco on their users. We 
also know that there can be significant impacts on individuals 
and especially children who are exposed to secondhand smoke and 
have to live in households with this.
    We were pleased several years ago to see that the 
Department of Defense announced a policy banning smoking in all 
DOD workplaces. This far-reaching initiative really makes DOD 
workplaces free of harmful secondhand smoke and as well will 
improve, I believe, the health of our overall military 
personnel.
    We do know, however, that many in the military have 
substituted the use of smokeless tobacco for smoking tobacco to 
avoid disciplinary action where smoking itself is prohibited. 
As we indicated in our written testimony, we realize that 
smokeless tobacco, again, is harmful, is a substance which can 
cause cancer of the oral cavity and would like to seek 
limitations of its use as well.
    Even with all the information that we have about the 
harmful effects of tobacco use, we find that it is still 
indirectly subsidized by the military through subsidized sale 
of tobacco products at military commissaries and PXs where 
cigarettes and tobacco products can be bought at a much lower 
price than otherwise would be charged.
    We, today, as we have in the past have expressed our 
concern of the action that the DOD would very likely not ban 
tobacco product sales in the commissary system. For that 
reason, we support the concept of bringing tobacco prices in 
the PX and commissary to at least parity with civilian prices 
to help cut down on use.
    You know, there have been a number of recent studies which 
have shown that cigarette smokers, particularly young people, 
are very, very sensitive to the price of cigarettes and so we 
feel that this would be an important action. We especially urge 
the Department of Defense to promote tobacco cessation programs 
with both personnel and their families, but especially in 
relationship to mothers and children about the harmful effects 
of secondhand smoke as far as tobacco.
    The second issue I would like to discuss with you is that 
of skin cancer and UV radiation. Last year, the Academy 
indicated its strong support of the Environmental Protection 
Agency and the National Weather Service and the Centers for 
Disease Control and prevention in developing a nationwide UV or 
ultraviolet index to alert members of the public to the dangers 
of excessive radiation from the sun which can potentially cause 
skin cancer.
    We understand that one of your Senate colleagues, Senator 
Connie Mack of Florida, has begun an effort with the National 
Association of Physicians for the Environment to survey 
selected Federal agencies to determine the extent of 
educational programs regarding skin cancer as affected by 
excessive ultraviolet radiation exposure from sunlight. Those 
Federal agencies would obviously include those which have 
employees, but also ones which have clients such as the 
Department of Agriculture where farmers themselves are 
routinely exposed to very high sunlight.
    Of course, the major agency with such personnel is the 
Department of Defense. Millions of our young men and women are 
routinely exposed to excessive sunlight for long periods of 
time in carrying out their routine duties. Senator Mack has 
requested from the DOD a report on its educational activities 
and we will follow up as we are sure with recommendations for 
necessary actions to be taken.
    We would be remiss if we did not report that in this same 
vein we are pleased to see that a large number of military 
units have been receiving awards from the EPA Stratospheric 
Protection Division for their work in reducing the use of CFCs 
and other atmospheric ozone depletion chemicals leading to 
depletion of the stratospheric ozone protection. This layer 
protects us from excessive UV radiation. In this activity, like 
many others, the Department of Defense has become a leader, and 
as we have seen also in ``greening'' of environmental areas of 
departmental facilities.
    The last area I would like to speak to you about, Mr. 
Chairman, is that of noise reduction. Our Academy, from its 
beginning, has been concerned about the effects of excessive 
noise on the structures of the ear, particularly those noises 
which are extremely excessive. The American Academy of 
Otolaryngology, representing the 11,000 otolaryngologists in 
this country, also known as ear, nose and throat doctors, are 
the primary physicians who take care of patients with hearing 
loss. We know that noise is necessarily a part of daily 
military life, particularly so in wartime. Nonetheless, we 
believe that many of these noise effects on military personnel 
can be reduced by the use of appropriate noise-reducing and 
prevention activities.
    Mr. Chairman, in summary, it is a pleasure to once again 
bring these issues up to you this year. We have raised these 
before. We have been pleased to see the activities of your 
committee and the Department of Defense on these areas and hope 
to be able to come back to you again in the future and once 
again report on the good progress which the Department of 
Defense has made in these areas. Thank you, very much.
    Mr. Young. Doctor, thank you very much and we do look 
forward to your continued communication with us. As one of the 
principal members involved in outlawing smoking on buses, 
trains, planes and things of that nature, I am happy to have 
your report and your support. Hopefully, we have a better 
environment on those public transportation units because of 
that.
    Dr. Maves. Thank you very much, Mr. Chairman.
    Mr. Young. Thank you, sir.
    [The statement of Dr. Maves follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 17, 1997.

                         JOSLIN DIABETES CENTER


                                WITNESS

KENNETH E. QUICKEL, JR., M.D., PRESIDENT, JOSLIN DIABETES CENTER

                              Introduction

    Mr. Young. Next we will hear from Dr. Kenneth Quickel, the 
President of the Joslin Diabetes Center. The annual cost 
associated with diabetes is $138 million; more than 15 percent 
of health care costs annually in the United States. We would 
like to hear more about that and hear from you at this time. 
Your entire statement will be placed in the record, and you may 
summarize it as you wish.

                        Statement of Dr. Quickel

    Dr. Quickel. Thank you for providing the opportunity to 
summarize a program which I think can be of immense value in 
helping to control some of that cost which falls on the 
Department of Defense.
    I am Dr. Ken Quickel and I am the President of the Joslin 
Diabetes Center in Boston, which is one of the Harvard 
institutions.
    Our research and patient care teams who have led the world 
in diabetes research for perhaps 100 years now, have now 
developed some methods of diabetes care which can produce 
improvements in health status and reduce the cost of providing 
health care to people with diabetes. And we would like to talk 
about those in the context of the department.
    Diabetes among civilian and military Department of Defense 
personnel will mirror the effects and the costs of diabetes in 
the population in general. Among the Department's civilian and 
military personnel, there will be about 188,000 people with 
diabetes known to have diabetes. There will be an approximately 
equal number of individuals who have diabetes, but do not yet 
know it.
    Four thousand of them will die every year from the 
diabetes. Three hundred will develop end-stage kidney failure 
from the diabetes. One thousand two hundred will have 
nontraumatic amputations due to diabetes, and between 3 and 900 
of them will develop blindness from their diabetes every year.
    Joslin Diabetes Center in Boston is a comprehensive 
resource for diabetes care and research and we would like to 
make a proposal to join with the Department of Defense in 
endeavoring to address some of these issues. And what we are 
proposing is a pilot program that would have three primary 
components. The first component would be to endeavor to use up-
to-date technology to detect undetected diabetes in department 
personnel.
    Recently, our researchers have discovered a method of 
shining a little light through the pupil of the eye and then 
measuring the scattering of that light from the proteins in the 
eye fluids. We know that when the blood sugar is elevated, the 
proteins combine with the glucose and that changes the 
scattering of the light in a very characteristic and specific 
way.
    And it allows us, with this very simple technique, which 
doesn't involve taking a urine specimen or blood specimen, to 
very quickly and rapidly diagnose diabetes.
    And we would like to use that technology among Department 
of Defense personnel to try to gain early detection and 
preventive aspects of that result.
    The second piece is a telemedicine strategy, and we are 
quite aware of the tremendous advances that the military has 
made in telemedicine, and we think that there is an additional 
use in application which could be of great benefit. In 1967, 
our researchers at Joslin discovered that a laser could be used 
to reduce the progress of diabetic eye disease. Subsequently, 
the technology has developed to the point where we can now 
prevent 98 percent of the blindness due to diabetes by proper 
detection and aggressive therapy.
    But diabetes remains the leading cause of blindness in 
working age Americans despite that and the reason for that is 
that many individuals, perhaps most individuals with diabetes, 
do not get screened annually for eye disease as they should. 
Others are screened by people who do not know what the 
therapeutic possibilities are so they don't get into the health 
care system effectively.
    We have developed--our researchers have developed a thing 
they call the Joslin Vision Network, which is a highly 
effective method of taking a three-dimensional image of the 
back of the eye using a small low-light camera. This form of 
digitized image can be transmitted over phone lines, bounced 
off satellites, stored on chips, and, in fact, read by experts 
some place other than where the image is acquired.
    The system has been linked to a medical records system 
which automatically grades the eye disease, develops a 
treatment plan and communicates with the referring physician or 
the health care team on the site about what needs to be done. 
And it can be done quite efficiently in terms of cost.
    The third piece to address the problem of diabetes has to 
do with some new strategies to train individuals with diabetes 
in the skills of self-management. We know from a recent large 
NIH-funded study that if we can normalize the blood sugar, we 
can reduce the costly complications of diabetes by as much as 
50 percent. Fifty percent, that is a huge reduction.
    We also know that most people with diabetes do not have the 
self-management skills that are necessary to implement that 
degree of control. And since over 90 percent of the people with 
diabetes are cared for by primary care physicians, many of 
these physicians simply don't have the tools, the time, the 
resources to train their patients in self-management.
    We have developed a diabetes outpatient intensive treatment 
program. We call it DOIT, which is a 3-day program to 
intensively involve all of the physician and nonphysician 
personnel, dieticians, exercise physiologists, psychologists, 
who are part of the diabetes treatment team and over the past 4 
years we have utilized this system for probably 700 patients 
now. And we have been able to measure the effectiveness of the 
system. We know which patients it works best on and we think 
that we could very significantly, in a fixed population of 
individuals such as the Department of Defense, significantly 
improve health care and reduce costs.
    What we are specifically proposing is a pilot program 
consisting of the three strategies that I have outlined to 
attack the problem of diabetes. And to apply it initially in 
two regions; in New England where we have a number of 
facilities and in Hawaii, where we have a partner facility at 
the Stroub Clinic.
    We would propose that this program be funded over a 2-year 
trial period at a level of $2.5 million each year and the hope 
would be that if we can document the effectiveness of the 
program, we could then expand it to other areas in the 
department, but also use the now validated methodology to apply 
to the population in general through the United States.
    We believe that since diabetes is such a major cause of 
death and disability and cost, that the program that we are 
proposing will pay for itself. And we hope that you will 
consider our proposal as we bring it forward and we thank you 
for your attention and your offering us an opportunity to 
describe our proposal.
    Mr. Young. Doctor, thank you very much, and I have one 
quick question. Have you spoken to anyone in the Pentagon about 
the pilot program that you are suggesting?
    Dr. Quickel. We are scheduled to do that. We need to talk 
locally also with people both in Hawaii and in the New England 
region about this, and we have scheduled the meetings to do 
that.
    Mr. Young. Well, what I would ask you is that you let us 
know after those meetings and let us know how things went and 
see where we might be able to play a role in helping you.
    Dr. Quickel. We certainly will. Thank you very much.
    Mr. Young. Thank you very much, sir.
    [The statement of Dr. Quickel follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 17, 1997.

                    NATIONAL BREAST CANCER COALITION


                                WITNESS

FRANCES M. VISCO, PRESIDENT, NATIONAL BREAST CANCER COALITION

                              Introduction

    Mr. Young. Our next witness is Fran Visco, President of the 
National Breast Cancer Coalition. The Coalition represents 400 
member organizations and more than 40,000 individual women, 
their families and friends.
    Fran, your prepared statement urges Congress and the 
President to continue support for the DOD peer review research 
program. You know where this committee stands on that issue. We 
have stood up to the administration on numerous occasions when 
they thought we shouldn't use DOD money for that purpose and we 
used it anyway. Hopefully, it has been used in an effective 
way.
    I actually asked the Department of Defense for an audit 
trail to make sure where the money went, and if it actually was 
used for what we intended it to be used for, so we are happy to 
hear from you today. Please understand that your statement will 
be printed in the record, and you may summarize it.

                         Statement of Ms. Visco

    Ms. Visco. Thank you very much and thank you, Mr. Chairman, 
for your continued support for this program.
    You know that it has been an incredible success on all 
fronts. One of the reasons I think it has been so successful is 
because it really is a collaboration that works.
    We hear a lot nowadays about public-private partnerships; 
they are the ``in thing,'' but most of them don't work. This 
one does. And it has captured the enthusiasm, the enthusiastic 
support of the scientific community, of women like me who have 
had breast cancer, of our organization, of policymakers 
everywhere.
    It is being covered more and more by the press. As a matter 
of fact, it is the subject of a book that was published over 
the past couple of weeks that was very well reviewed in The New 
York Times Sunday Book Review last week. It is getting more and 
more support, more credibility and more attention.
    I think it is important to recognize that this program 
continues to foster innovation and, at the same time, keeps the 
quality assurance mechanisms that we put in place. And equally 
important is the fact that there is no bureaucracy involved 
here. The overhead for this program is 10 percent. That is it.
    When the Coalition was successful initially, several years 
ago, in getting more money for breast cancer research, I 
remember meeting with Sam Broder, then the Director of the 
National Cancer Institute, and I was complaining to him about 
the fact that they weren't looking at the innovation and they 
were not changing their strategies, and what he said to me was 
the National Cancer Institute is like a huge battleship that 
you cannot turn on a dime. And what I said to him was, what we 
need is a program that can design a battleship that will turn 
on a dime. And that is what we did with this program, and we 
did it under the leadership of this subcommittee. It has been 
incredible.
    We are able every year to respond quickly to what we see in 
the scientific community. We can shift our strategies, shift 
the funding within the program. It has just been wonderful. 
This November we are going to have a conference that is going 
to showcase everyone who has been funded through the program. 
It is going to be here in Washington, D.C. We expect a thousand 
scientists and many consumer activities and we hope, Mr. 
Chairman, that you will come and participate in the conference, 
and we are going to showcase to the public all of the work that 
this program has funded.
    In addition, I am very excited to tell you that Canada, the 
Government of Canada is coming to be briefed on this program 
because they want to replicate it in their country. And I think 
a briefing on that is already scheduled. And we have also been 
contacted by Great Britain. The United Kingdom wants to come 
and do the same thing, so the support and the recognition of 
the success of this program is now worldwide.
    I wanted to tell you very briefly about the strategy we 
adopted last year, and that is to fund those idea grants, the 
scientists who have a great idea, but they don't have a lot of 
preliminary data. And they are distinguished scientists with 
wonderful ideas, but they don't have years of research behind 
them and tons of data to bring to the National Institutes of 
Health to get funding. They don't have any place to turn for 
their funding. They didn't in the past, but now they do; they 
have this program.
    And we were very excited to see the number of idea grants 
and the ideas that this program generated. Unfortunately, we 
are only able to fund 9 percent of those idea grants, and we 
hope that this year we are going to keep that strategy in 
place, and we hope that this year we can see an appropriation 
of $175 million for this program so that we continue to fund 
those ideas.
    You know the statistics about breast cancer. I don't have 
to remind you. But I really believe that this program is going 
to be one of the key elements in changing those statistics and 
eradicating breast cancer. So thank you for your continued 
support, and I look forward to ongoing work with you on this 
program.
    Mr. Young. Well, we look forward to it as well. This is a 
terrible, terrible disease, and as you pointed out, we have 
worked together very closely to try to make adequate funds 
available.
    I appreciate you very much for being here and all the work 
that you do.
    [The statement of Mr. Visco follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 17, 1997.

         THE UNIVERSITY OF MEDICINE AND DENTISTRY OF NEW JERSEY


                                WITNESS

RUSS MOLLOY, DIRECTOR OF GOVERNMENT RELATIONS, THE UNIVERSITY OF 
    MEDICINE AND DENTISTRY OF NEW JERSEY

                              Introduction

    Mr. Young. I would like to invite Mr. Russ Molloy, the 
Director of Government Relations on behalf of the University of 
Medicine and Dentistry of New Jersey. Your statement will be 
made a part of the record, and we would ask you to summarize at 
this time.

                        Statement of Mr. Molloy

    Mr. Molloy. Thank you very much, Mr. Chairman. It is 
interesting that two previous speakers today have already 
talked about elements of what it is that we are seeking before 
this subcommittee today. Let me give just a brief background 
about the university and touch lightly on those two major 
issues.
    The University of Medicine and Dentistry is the largest 
public health sciences university in the Nation. Its statewide 
system is located on four academic campuses statewide, 
consisting of three medical schools--schools of dentistry, 
nursing, a graduate school of biomedical sciences, health-
related professions. It also has its own acute care hospital, 
one of the largest in the State. It has in addition three core 
teaching hospitals, a behavioral health establishment statewide 
and affiliations with more than 100 health care institutions. I 
appreciate this opportunity to make note of our two top 
priorities with the university.
    Let me begin also echoing the previous speaker to thank 
you, Mr. Chairman, as well as Mr. Murtha for your achievements 
and your work in the area of breast cancer research and 
biomedical needs and funding, because this has been a critical 
issue for the country. And one of the issues that we want to 
bring before you is the need for us to continue to move forward 
together to try to address this terrible issue of breast 
cancer.
    New Jersey itself has the fourth highest incidence of 
breast cancer in the country and ranks second in mortality from 
the disease. There is an estimation of some 6,500 new breast 
cancer cases in the State of New Jersey alone in the next year 
of which 2,000 women will die.
    What makes this more ironic and of great concern to the 
State of New Jersey and the State university is that the 
numbers and statistics demonstrate that the individuals who are 
being diagnosed with breast cancer, in fact, far surpass any 
national or regional statistics. We are one of the most 
affluent States in the Nation, but we are also highly urbanized 
and densely populated and we have a unique title as well 
because we are the home to, by far, the largest number of 
Superfund sites and contaminated waste sites in the entire 
country.
    As a result, there has been a discussion of a linkage 
between the environmental factors that are taking effect and 
its linkage directly to breast cancer in the State of New 
Jersey. What we need is the Committee and your personal 
support, Mr. Chairman, to undertake a multifaceted approach to 
actually detect, diagnose and treat breast cancer. We have an 
ideal laboratory in the State of New Jersey that allows us this 
opportunity to really look at the actual questions about the 
causes of breast cancer because we are going to link not only 
the lifestyle and the standard information, but we are also 
going to focus on the environmental causes of this as well as 
genetics.
    New Jersey is the site of the National Cancer Institute's 
newest designated clinical cancer center. The Cancer Institute 
of New Jersey is the first and only such site in the state. It 
has established the program focusing on the causes and 
prevention of breast cancer that brings together the 
oncologists, associate workers, specialty nurses, geneticists, 
nutritionists, toxicologists, et cetera, all of whom are staff 
members of the University of Medicine and Dentistry.
    The Cancer Institute of New Jersey received its key funding 
from this Subcommittee in order to allow it to be built, and it 
is now serving--it was approximately 2 months ago it was 
designated by the NCI as a clinical cancer facility. This was 
also one--through the sponsorship and support of both Dean 
Gallo and Mr. Bernie Dwyer. They have been the primary movers 
behind moving this cancer institute forward. And now we are 
taking it to the next level.
    New Jersey has an additional linkage with the issue of the 
environment because the University of Medicine and Dentistry 
also houses one of the 18 National Institutes of Environmental 
Health Science Centers, which is a joint venture between us and 
Rutgers University. Its researchers are closely affiliated with 
the Cancer Institute in a unique relationship that is not found 
elsewhere which allows the clinicians, the people that are 
actually treating people with cancer, to have direct access to 
those researchers that are actually studying the causes, due to 
the environment, of cancer.
    The center itself also houses one of the leading and 
largest academically based exposure assessment research teams 
in the country, which is looking at a variety of different 
toxic waste sites in developing molecular markers for exposure 
and risk, which is now a level of technology which allows us to 
really look into breast cancer and its causes due to the 
environment.
    To accomplish the goal of diminishing this incidence of 
this terrible disease, we have proposed to you a project to 
focus on the epidemiology, surveillance and prevention, and for 
this project, we respectfully request an appropriation of $10.5 
million. It will allow us and the Cancer Institute and the 
NIEHS Center at the university to serve as the national 
demonstration project for this issue into the linkage between 
the environment and breast cancer.
    The last item is something I don't want to give short 
shrift to, but it has already been discussed by Dr. Edelman, 
concerning the problem we have with infectious disease. We have 
proposed before the Committee a project known as the 
International Center for Public Health, to be located in the 
City of Newark, to focus on and to bring together two key 
current institutes: the Public Health Research Institute, which 
is a world-class, well-known nonprofit agency, which focuses on 
the basic biology and study of infectious diseases--we are 
going to bring them over and put them into University Heights 
Science Park in Newark and team them up with our national TB 
centers, one of the three model TB centers in the Nation, and 
have the two of them focus on dealing with the issues of 
infectious disease, which is now becoming, as Dr. Edelman 
described, of huge concern to the Department of Defense and 
security.
    This is now becoming--because of the immense amount of 
travel that is taking place among the citizens, it is now 
bringing to the United States this whole issue about how 
infectious disease is being spread. Our proposal is designed to 
address this issue directly at the Gateway for some of the 
largest population changes and movements, because of the 
location of our eight central seaports and airports in the 
State of New Jersey.
    I want to thank the Committee and you, particularly, Mr. 
Chairman, for all of your efforts and thank you for the 
opportunity to address you today.
    Mr. Young. Mr. Molloy, thank you very much for an excellent 
statement. I would like our record to show that you are 
accompanied today by Marilyn Thompson as your backup. We 
appreciate her being here, and look forward to working with you 
as we proceed through the fiscal year 1998 season.
    Mr. Molloy. Thank you very much, sir.
    [The statement of Mr. Molloy follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 17, 1997.

                   JOINT POLICY BOARD FOR MATHEMATICS


                                WITNESS

JOHN GUCKENHEIMER, PROFESSOR OF MATHEMATICS AND MECHANICS, CORNELL 
    UNIVERSITY

                              Introduction

    Mr. Young. I would like to invite Dr. John Guckenheimer, 
professor of math and mechanics at Cornell University, to come 
to the table. The doctor is president of the Society for 
Industrial and Applied Mathematics, and he is representing the 
Joint Policy Board for Mathematics.
    Doctor, your statement will be made a part of our record, 
and you may summarize in any way that you like.

                     Statement of Dr. Guckenheimer

    Dr. Guckenheimer. Good afternoon, Mr. Chairman. Thank you 
very much for giving me this opportunity to comment on fiscal 
year 1998 appropriations for the Department of Defense. I will 
be speaking on behalf of the Joint Policy Board for Mathematics 
(JPBM), which represents three associations of mathematical 
scientists.
    Mr. Chairman, JPBM once again calls on Congress to provide 
full support for DOD's investment in bank research, especially 
research conducted at universities. The buying power of DOD's 
support for research is down 30 percent compared to 30 years 
ago and nearly 10 percent since fiscal year 1994. We urge this 
subcommittee to stem the erosion in these critical investments 
and provide DOD's full fiscal year 1998 funding request for 
basic research, 6.1 activities.
    We ask this because basic research is essential to 
maintaining the technological superiority of our forces. The 
origins of many key defense technologies can be traced to DOD's 
support for basic research conducted at U.S. academic 
institutions. Rigorous decision-making processes within DOD 
guide these investments to ensure both scientific excellence 
and consistency with DOD's strategic priorities. These 
thoughtfully planned investments need stable year-to-year 
funding.
    Let me describe my own experience with DOD's investment in 
basic research. I work on dynamical systems. My goal is to 
reveal universal patterns in dynamical processes on phenomena 
ranges from neural behavior to fluid flows. Today, I shall 
describe research that is leading to new mathematical 
technologies for use in the design of jet engines. Designers 
attempt to optimize engine performance and fuel efficiency, 
thrust, emissions and longevity. High cycle fatigue that leads 
to catastrophic failure of engines is the cause of many tragic 
accidents.
    My research addresses limits on engine performance due to 
harmful mechanical oscillations or combustion instabilities. 
Computer models are used in engine design. My research produces 
tools that automate the analysis of these models. In 
particular, I seek faster, more efficient ways to determine 
parameter values that lead to stable operation of engines. 
Resulting tools greatly reduce the need for time-consuming 
simulation and provide a framework for understanding engine 
instabilities.
    Fifteen years ago, the Air Force Office of Scientific 
Research helped stimulate my interest in computation. The 
research I described today began after foresighted mathematical 
scientists at AFOSR introduced me to a group at United 
Technologies' research center. This project and others 
sponsored by AFOSR are outstanding examples of how the Federal 
Government, universities and industry can work together on 
matters of importance to the national defense and economy. 
Basic research supported by DOD is making an impact within our 
defense industries.
    I strongly urge you to contribute your support for DOD's 
investment in basic research and the contributions of 
university-based researchers. Thank you for this opportunity to 
express our views for the record regarding fiscal year 1998 
appropriations.
    I would be pleased to answer any questions you might have.
    Mr. Young. Doctor, I had an opportunity to visit a number 
of universities that were doing research on programs through 
the Department of Defense, and I have to say that I have been 
really impressed with the types of research they have done as 
well as the results they are getting. We do have a little 
difficulty on occasion. There are those who don't want to 
provide any DOD money for university projects, but this 
Chairman thinks that they are very productive, at least most of 
them. The ones that I have seen are very productive and we 
appreciate the work that you are doing. Hopefully, we will be 
able to have a good bill for you that will carry on some of 
this research.
    My question would be, have you looked at the President's 
budget and how do you see the university research doing in his 
budget?
    Dr. Guckenheimer. Well, there is a large coalition of 
scientific organizations that have been recommending increases 
of approximately 7 percent for basic scientific research across 
many agencies, and the targets for DOD research happily are 
approaching that level in the President's budget. But we would 
certainly propose that increases of that order of magnitude are 
needed to restore some of the losses that we have seen in 
recent years.
    Mr. Young. Well, I think it is a great investment, I have 
to tell you. And I think an awful lot of things that the 
Department of Defense gets credit for actually came from the 
university research programs. So I thank you very much for 
being here and being part of our program today, and I invite 
you to stay in touch with us.
    If you have an opportunity, give us some good examples of 
what university research has produced that we can go to our 
colleagues with and say, look, here is the money, but here is 
what we have gotten for it. Those kinds of things are very 
helpful when we get into the debates about whether or not to 
fund or increase or reduce the research budget.
    Dr. Guckenheimer. Thank you. We will do that. Thank you.
    Mr. Young. Thank you very much.
    [The statement of Dr. Guckenheimer follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 17, 1997.

     FEDERATION OF BEHAVIORAL, PSYCHOLOGICAL AND COGNITIVE SCIENCES


                                WITNESS

DAVID JOHNSON, Ph.D., EXECUTIVE DIRECTOR, FEDERATION OF BEHAVIORAL, 
    PSYCHOLOGICAL AND COGNITIVE SCIENCES

                              Introduction

    Mr. Young. We now welcome Dr. David Johnson who is the 
Executive Director of the Federation of Behavioral, 
Psychological and Cognitive Sciences. Your prepared statement 
expresses concern about a number of reductions in the 
President's budget to research funding. That statement will be 
made a part of the record, and we invite you to present your 
testimony in any way that you would like.

                        Statement of Dr. Johnson

    Dr. Johnson. Thank you, Mr. Chairman. I would like to say 
that I appreciate every year that you sit here until the end. 
Not every Chairman does that, so I am glad that you do.
    I am testifying today primarily on the 6.1 or basic 
research budget and particularly on the basic behavioral 
research support in that budget.
    But basic research begins a process toward application. 
Thus, the 6.2 and 6.3a budgets go hand-in-hand with basic 
research. Support of the whole research pipeline--research 
development, testing and evaluation--is necessary to assure 
that basic research contributes optimally to national defense. 
So we support the administration's request for a 7.8 percent 
increase for 6.1 research. The increase recovers some losses 
suffered in the last 2 years, and provides an inflationary 
adjustment.
    While most of the research budget is consumed by hardware 
and electronics development, a small part of the 6.1 budget, 
only about $30 million across all the service branches, out of 
the $1.164 billion requested for 6.1 research, is devoted to 
research aimed at improving human performance. Much mission-
oriented research is supported by that meager allocation.
    At the Air Force, behavioral research is determining how 
much and what kind of information is needed to assure top 
performance of pilots in combat. At the Navy, it is perfecting 
systems and techniques for embedded training that will reduce 
costs and improve training quality, especially for rare, 
demanding tasks like threat recognition and response.
    And among other things, the Army is supporting research to 
understand the factors leading to sexual harassment in the 
military.
    We regret that the requests for 6.1 behavioral research at 
the Navy and Air Force are zero percent and 3.5 percent, a far 
cry from the 7.8 percent increase sought for 6.1 research 
overall. Nevertheless, we are relieved that these requests 
represent only an inflationary loss for the Navy and a steady-
state budget for the Air Force, rather than actual cuts. Thus, 
we ask the subcommittee to support at least the funding levels 
requested for behavioral research at the Navy and Air Force. 
Those levels are $16 million for the Navy and $9.057 million 
for the Air Force.
    We are deeply troubled, however, by the requested 25 
percent cut in overall research funding and a planned single-
year staff reduction of 53 percent for the Army Research 
Institute.
    The concept known as reliance is important in downsizing of 
military research. The approach designates a lead service as 
the provider to all the services for research in a given area. 
All research on social and organizational issues is assigned to 
the Army Research Institute. The Army is the only service doing 
research on leadership, on the integration of recruits from 
diverse backgrounds into well-functioning teams, on sexual 
harassment, and on the training of troops for peacekeeping 
missions.
    The cuts proposed for 1998 will cripple ARI; both the 
contemplated staffing level and the requested funding level are 
well below what ARI needs to fulfill its responsibilities at an 
acceptable level of quality. We must plead with this 
subcommittee to give ARI the minimum tools it needs to do its 
job.
    Without your intervention, fiscal 1998 will see a 
precipitous and, we believe, ultimately fatal plunge for ARI. 
The research request is $17.75 million, with 6.1 receiving 2 
million of that total. The current funding level is $23.7 
million, with 6.1 receiving 2.9 million.
    Its current authorized staffing level is 254 positions. The 
planned level for 1998 is 119 positions. We urge the 
subcommittee to support a fiscal 1998 funding level of $21.4 
million and a staffing level of 165 full-time equivalent 
positions. Both represent painful but survivable cuts from 
their 1997 levels.
    If ARI is crippled or eliminated, not just the Army, but 
the Navy and the Air Force as well, will have lost a critically 
important tool to address problems that are as current as 
tomorrow's headlines.
    I thank you for this opportunity to present our views, and 
I thank the subcommittee for its continuing leadership in 
support of the Nation's defense.
    Mr. Young. Doctor, thank you very much and thank you for 
being here. I hope you have the feeling that we are pretty much 
committed to basic research; I think that it is essential to 
keep America's forces equipped with the best technology that is 
possible, and the best quality of life.
    We will review your written statement. I tried to make some 
quick notes as you were talking, but we will review those as we 
get ready to do our markup later on in the early summer.
    Thank you for coming. We appreciate your interest and your 
involvement.
    Dr. Johnson. Thank you.
    Mr. Young. The Committee is adjourned.
    [The statement of Dr. Johnson follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




             DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 1998

                              ----------                              

                                       Thursday, February 27, 1997.

           COMMANDER IN CHIEF, UNITED STATES EUROPEAN COMMAND

                                WITNESS

GENERAL GEORGE A. JOULWAN, COMMANDER IN CHIEF, UNITED STATES EUROPEAN 
    COMMAND, U.S. ARMY

                              Introduction

    Mr. Young. Good morning, general. The Committee will come 
to order. This morning the Committee is happy to welcome back 
General George Joulwan, Commander in Chief, United States 
European Command and the Supreme Allied Commander, Europe.
    General, speaking for the Committee, I want to compliment 
you on your tremendous record of leadership. We have been told 
that you might be considering retiring later this year.
    General Joulwan. Yes.
    Mr. Young. That would be the Department of Defense's loss. 
You have a tremendous record and we are very, very proud of you 
and proud of the record that you have established.
    I am also pleased with the way that you have led our 
activities in Bosnia. We would like to talk to you about Bosnia 
this morning. We have been very, very supportive of all of our 
efforts there, although there were some who questioned whether 
we should even be there. But once that decision was made, we 
have been totally supportive, as I am sure you are well aware.
    We are curious about how you see Bosnia today and in the 
next few months and the next few years we are concerned also 
that, as the Congress has been given proposed dates of exiting 
Bosnia, those dates seem to come and go without a lot of 
fanfare and U.S. troops are still there.
    I would like to hear from you as to what you think might be 
the future, what might be an exit strategy, if there is one; 
what the effect might be once we are gone. Those are the kinds 
of things we are interested in hearing from you today.
    You are the first of the four Commanders-in-Chief--CINCS--
who will testify during this appropriation season. And as I 
told you earlier, I had been invited to make a visitation with 
Secretary Cohen today and tomorrow and I had planned to do that 
until I recognized that you were the witness today. I certainly 
wanted to be here for your presentation.
    Mr. Murtha, do you have any opening comments?
    Mr. Murtha. Well, I tell you, we kind of feel you are one 
of this Committee, because you have been before the Committee 
so many times. But the one thing I have noticed, you get a 
bigger staff the longer you are around. It used to be you only 
brought one or two people. Now I notice you have got a whole 
room full now. Is that because you are doing less work?
    General Joulwan. That's right. But they are all in the 
back.
    Mr. Young. But the room is small. His entourage looks big 
because the room is small.
    Okay. General, we are very happy to hear from you, sir. 
Proceed any way that you like. Your entire statement will be 
placed in the record.

                  Summary Statement of General Joulwan

    General Joulwan. Thank you very much, Mr. Chairman, 
Representative Murtha, distinguished Members of the National 
Security Subcommittee. As always, it is a privilege to appear 
before you today to report on the forward deployed and let me 
say forward stationed United States European Command--EUCOM--
Forces. And I welcome this opportunity to provide my assessment 
of the EUCOM theater of operation, a theater that spans Europe, 
the Near East, the northern littoral of Africa and Sub-Saharan 
Africa, 83 countries, 13 million square miles and over 1 
billion people of different ethnic, religious and economic 
conditions.
    At the outset, Mr. Chairman, I would like to thank this 
Committee on behalf of the men and women of EUCOM and their 
families for your support of our efforts in Europe and NATO, as 
well as in our Areas Of Responsibility--AOR--in Africa and the 
Near East.
    I have been appearing before this Committee since 1990, and 
I am particularly grateful this year for the opportunity to 
provide you my assessment of my command, and as you know, Mr. 
Chairman, I have a lengthy posture statement which I would like 
to enter into the record and then briefly make a few points.
    Mr. Young. Yes, sir.

                            OPERATIONS TEMPO

    General Joulwan. The first point, Mr. Chairman, is that 
EUCOM continues to experience the highest operations tempo--
OPTEMPO--in its history. U.S. troops are committed to prevent 
conflict in the former Yugoslavian Republic of Macedonia, 
enforce a ``No Fly Zone'' against Saddam Hussein in Northern 
Iraq and ensure compliance with the Dayton Peace Agreement in 
Bosnia.
    In the past year, EUCOM has extracted hundreds of civilians 
under fire from Liberia, protected Americans in the Central 
African Republic and facilitated the return of hundreds of 
thousands of refugees in Zaire and Tanzania. Clearly, forward-
deployed and forward-stationed forces give the United States 
great flexibility and reach, and EUCOM is demonstrating its 
value every day.
    Our troops are mission-focused and combat-ready. They are 
disciplined forces which have demonstrated the ability to 
respond across the entire conflict spectrum. I need your 
support in ensuring the contingency supplemental is provided in 
time, hopefully by this spring, to maintain EUCOM's high 
readiness and standards.
    Equally important, Mr. Chairman, is that the forward-
deployed forces engaged in peacetime to shape the environment 
and prevent conflict as well as being ready to fight and win. 
This proactive conflict prevention strategy includes working 
with our allies in NATO, exercising with new partners in the 
Partnership for Peace Program and conducting air, land and sea 
operations in conjunction with allies and partners as we are 
doing in Bosnia. By so doing, we promote trust and confidence, 
create stability and prevent crises from developing in the 
conflict.

                    BOSNIA--OPERATION JOINT ENDEAVOR

    The second point, Mr. Chairman, is that Operation JOINT 
ENDEAVOR in Bosnia in 1996 exceeded all expectations and laid 
the groundwork for lasting peace in Bosnia. Today, Operation 
JOINT GUARD, or the Stabilization Force, SFOR, continues to 
provide a secure environment for civilian agencies and the 
former warring parties to begin the process of reconstruction 
and reconciliation. But let me be clear, if I may, to the 
members of the National Security Subcommittee.
    The NATO-led forces of IFOR and now SFOR can create an 
absence of war but cannot establish the peace. Peace depends on 
the will of the people of Bosnia-Herzegovina and on the rapid 
progress of civilian and nongovernmental organizations. While 
some progress has been made, much more needs to be done by the 
civilian agencies and the parties themselves in the remaining 
16 months of the mandated 18-month SFOR mission.
    Again, for clarity, the North Atlantic Council's 
instructions to me are for an 18-month mission ending in June 
of 1998. But to me it is imperative that we concentrate on what 
can be done by many of these civilian agencies in 
reconstruction, resettlement, elections, et cetera, in the time 
remaining and not just concentrate on what is going to happen 
after 18 months.
    Let me also point out that the Stabilization Force is truly 
a unique force in the annals of military history. SFOR is 
multinational with 34 countries making up its force structure 
and 25 nations comprising the headquarters. It is the most 
multinational headquarters in recent history.
    Let me also make clear that U.S. forces in Bosnia are less 
than 25 percent of the Stabilization Force. Our NATO allies and 
non-NATO nations contribute more than 75 percent of the force, 
and I have given you a chart that shows how we are leveraging 
our allies and our non-NATO partners in providing forces not 
just for Bosnia, but for other contingencies.
    Also in Bosnia, we have had great success with intelligence 
fusion and intelligence sharing. Information and intelligence 
superiority have directly influenced events on the ground and 
compliance by the former warring factions. Timely intelligence 
is also responsible for force protection of out troops and 
rapid response to possible threats.
    The third point, Mr. Chairman, is that success in Bosnia is 
directly linked to the strategy I discussed with this Committee 
in testimony in 1994, the Partnership for Peace Program. I said 
then that the intent was to train with former adversaries, and 
now new partners to common standards and common procedures in 
order to one day conduct missions together. In Bosnia, we have 
taken the theory of multinational training and put it into 
practice, and it has been successful. And I want to thank you 
for your support of this military cooperation program. It truly 
works.
    Fourth, in Bosnia, the Russian-NATO relationship is still a 
good one. Joint U.S. and Russian patrols operate today in the 
Brcko area. Recently U.S. Apache gunships were prepared to fire 
in defense of Russians who were endangered by one of the former 
warring factions.
    And in the Brcko arbitration of just two weeks ago, if you 
can imagine this, American forces that were maneuvering in 
blocking positions were joined by Russian, Turkish, Nordic and 
Polish units to prevent conflict and to carry out their 
mandate. And as a result, it was a peaceable implementation of 
that decision.
    And let me just say that from this modest beginning with 
Russians in Bosnia, we are creating the trust and confidence so 
necessary to build the foundation upon which a future NATO-
Russian and U.S.-Russian security relationship can be built.
    As I mentioned last year, I have a three-star Russian 
general as a deputy to the Supreme Allied Command to Europe for 
Russian forces in Bosnia. He is at my headquarters in Mons, 
Belgium, and he has an office in the building that prepared 
plans for the contingencies in Berlin during the Cold War.
    And you might be interested in that he just returned from 
Moscow, where he appeared before the Duma, the Russian 
Parliament, for funding and for the extension of the Russian 
contingent in Bosnia until June of 1998.
    He got both. As you know, this is, indeed, a delicate time 
for Russian-NATO relations. Clearly, there are great internal 
strains that will take time to work out, but we should not 
isolate Russia, but neither should we allow Russia to veto NATO 
decisions. But NATO and the United States need to stay engaged 
with Russia through this very delicate transition period.

                     PARTNERSHIP FOR PEACE PROGRAMS

    The fifth point, Mr. Chairman, is that EUCOM is a total 
force command. The Reserve component plays an increasingly 
important role in accomplishing EUCOM's diverse missions. It 
assists in offsetting the active force in both the operations 
tempo, OPTEMPO, and personnel tempo, PERSTEMPO, that we have in 
theater. It also provides a tangible example to emerging 
democracies in former communist countries of Eastern and 
Central Europe with the role of the military in a democratic 
political system.
    EUCOM is now involved with 21 States of our United States 
with 21 emerging democracies in Europe. For example, 
Pennsylvania is aligned with Lithuania; California with 
Ukraine; Ohio with Hungary; Texas with the Czech Republic; 
North Carolina with Moldova, Minnesota with Croatia and Indiana 
with Slovakia.
    The State Partnership Program is truly low cost and high 
payoff and I thank you for your continued support, and I also 
thank you for your National Guard and Reserve components who 
are doing so well in maintaining this excellent contact.
    Likewise, we have a Marshall Center in Germany, which is 
another low cost-high payoff initiative. It is now in its third 
year and has graduated over 390 mid-level civilian and military 
leaders from mainly Eastern and Central European countries. We 
already are getting very good returns from the Marshall Center 
graduates who are now being appointed to key military and 
civilian leadership positions. What the Marshall Center does is 
balance what we are doing in exercising on the military side 
with education of the role of the military in a democratic 
political system.
    Also, the IMET Program, the International Military 
Education and Training Program, sent 1,200 international 
students from the EUCOM theater of operations to the United 
States. You should know that the current Chief of Defense, in 
other words, General Shalikashvili's equivalent, of the 
Hungarian armed forces, is an Army War College graduate from 
Carlisle, Pennsylvania. Also the brigade commander of the Czech 
rapid reaction brigade, who is now deployed in Bosnia is an 
Army War College graduate; and the head of the Hungarian Air 
Force is a graduate of the Air Force's Air War College at 
Maxwell Air Force Base in Alabama. This is a superb program and 
I urge and I encourage your continued support.

                            QUALITY OF LIFE

    My last point, Mr. Chairman, is that the quality of life 
for our troops and families is an essential part of our 
readiness. I am grateful for this Committee's continued support 
for a decent quality of life for the forward station force. It 
is extremely important, particularly now with our high OPTEMPO, 
and the results of this adequate quality of life are evident 
not only in mission performance but also in higher reenlistment 
rates that we are now experiencing in Europe.
    Mr. Chairman, if I sound proud of my troops, I am. We in 
Europe have developed a new strategy for a new mission. We have 
adapted and adjusted the command and force structure to meet 
the challenges of today and tomorrow. NATO, too, has adapted to 
the realities of a new Europe and to new risk. Not only is NATO 
bringing peace to Bosnia, but NATO is also engaged in this new 
relationship with Russia and with 27 different partner nations.
    In my opinion, Mr. Chairman, the United States must 
continue to stay engaged in Europe politically, economically 
and also militarily. We have reduced our force structure in 
Europe by over 200,000 personnel and by billions of dollars. 
However, the current command and force structure of about 
100,000 needs to be maintained in order for continued U.S. 
leadership and influence in NATO; to leverage the assets of our 
allies and new partners; to promote professionalism within the 
militaries of the new democracies emerging in Eastern and 
Central Europe; to prevent crises from developing into conflict 
and to shape the external environment to promote U.S. 
interests, values and ideals.
    To do so reduces the danger of war and preserves peace, 
freedom and democracy. To do so ensures a better life for our 
children and for our grandchildren.
    Mr. Chairman, I am excited and optimistic about the future. 
We have an historic opportunity and we cannot, and we must not, 
and with your support we will not, fail.
    Thank you very much, Mr. Chairman, and I am prepared now to 
respond to your questions.
    [The statement of General Joulwan follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Young. General, thank you very much for an excellent 
statement. The members of this Committee are also extremely 
proud of our troops, the way they have carried out their 
mission, the way it has been done with very few casualties of 
any type. That makes us very proud of them as usual, but we are 
also very proud of you and your leadership that organized the 
effort and made sure that the mission was carried out properly.
    We have a new member of this Committee, Congressman 
Cunningham, at the end of the table on that side and 
Congressman Visclosky has just returned to the Committee. Duke 
Cunningham has been very patient in all of our meetings being 
at the end of the table. He is always the last one to be 
recognized so at this point I am going to yield the Chairman's 
first 5 minutes to Congressman Cunningham for the first round 
of questioning.
    Mr. Cunningham. I have never had this happen before in my 
life. Once in jail, always in jail.
    I thank you, Mr. Chairman, but that is not necessary if you 
had questions for General Joulwan. I will be happy to wait, 
sir.
    Mr. Young. Take it while you can. This may not happen again 
for a long time.

                FISCAL YEAR 1997 EMERGENCY SUPPLEMENTAL

    Mr. Cunningham. Usually, you are allowed time to get your 
thoughts together. So I will try.
    General Joulwan, the supplemental is very important and I 
don't think there are many Members that won't support it. But 
as you are well aware, the Services have really had to bite the 
bullet on coughing up dollars out of their own funds, out of 
their budgets. That has really hurt.
    The supplemental that you are asking for, I think it is 
accurate to see exactly what the total costs are that the 
services are having to put forward. Not only that, but the 
total cost to this country of what these ``exercises'', I will 
use a light term, exercises are doing.
    For example, what does it cost to steam the carriers, the 
airlifts out of Italy, the total cost, not just what we are 
taking out of the Services, because in a budget, when we are 
trying to tie in--all of this is tied together in the balanced 
budget and you need to know what the real costs are. And it is 
my contention, my opinion, that the President is asking for a 
$4.8 billion cut in defense, but yet we need a supplement. That 
just is not logical.
    Secondly, General Shalikashvili, in his memo, stated that 
Service Chiefs specified that we needed to go to a $60 billion 
modernization budget. In the President's budget, 70 percent of 
the cuts come in the outyears and we keep pushing the purchase 
of all of our equipment to the right, as well as combat 
support. It's that support which you need to do your job, and 
its all pushed out into the outyears.
    Now, any logical and rational person knows that there is no 
way that those that do not support national security over 
social programs are going to reduce social programs in the 
outyears when 70 percent of the cuts come, and at the same time 
increase defense spending.
    So I think it is--the reason I am asking the question, I am 
trying to get a real handle on what our real costs are, sir. 
That is why I would like a complete estimate, not just what it 
is costing us on this.

                       IRANIAN PRESENCE IN BOSNIA

    I have read a lot of documents and have had a briefing from 
our Intelligence Community. There is a dispute on the number of 
Mujahadin and Hamas within Bosnia, but isn't it--even if there 
is a lower number than I believe that is actually the case, 
isn't there an increased presence from Islamic groups from 
Iran, and that their long-term strategy is to wait this out and 
build up the Islamic forces around Izetbegovic believing that 
the U.S. is going to pull out? Because when I have talked to 
some of the Islamic people from that area, they all said that 
they expect the U.S. to pull out. And Iran will always be 
there. So Iran is attempting to establish a tie and that tie is 
going to be a very dangerous tie long-term for us?
    General Joulwan. ------. What we want to do, I think, by 
our policies and it is really in the political side, is to try 
to wean the Bosnia-Herzegovina Government away from Iran and 
the dominance of Iran. I think that is much more than just 
military. I think it is economic, it is social, it is political 
relationships that we need to try to develop.
    I would urge continued contact with the Government of 
Bosnia-Herzegovina so that it does not go back to Iran. And I 
think that takes a comprehensive strategy in order to do that. 
That is much more than just military.
    Mr. Cunningham. I agree. And I think it is one of our long-
term problems, not only with terrorism in Europe, but in the 
United States as well. And I would love to give you a book 
written by Bodanski, which is from a Serb perspective. It lists 
by names the personnel and position, and also which 
humanitarian offices over there they are using.
    General Joulwan. Yes.
    Mr. Cunningham. These offices are used to cover and hide a 
lot of these people. Another tactic is getting them married to 
Bosnian women. And I look at our world-wide threat of 
terrorism, and I think it is a real problem if we don't do 
exactly what you said.
    General Joulwan. Yes, sir.
    Mr. Cunningham. Thank you, Mr. Chairman.
    Mr. Young. Thank you, Mr. Cunningham.
    Let me yield to an old friend of yours that you worked with 
for a long time, Mr. Murtha.

                                 TURKEY

    Mr. Murtha. General, I am looking at the map in the area of 
responsibility that you have, and Turkey seems to be moving in 
the wrong direction. Is that just a perception I am getting or 
are they moving in the wrong direction?
    General Joulwan. We are concerned about Turkey and the 
whole Aegean area. And on the positive side, they are very 
active, as is Greece, in Bosnia. ------.

                                 ISRAEL

    Mr. Murtha. I have always been concerned that this line is 
drawn right here right next to Israel. I am talking about the 
line that you have responsibility for and don't. Is that the 
right place to draw the line? Is that the right delineation of 
responsibility there?
    General Joulwan. We have discussed this often and, in fact, 
I have now established in my EUCOM hat staff talks and next 
week, Central Command will be coming to Stuttgart and we are 
talking back and forth across that boundary.
    When I was in Israel, let me just give you my personal 
experience, I asked that question to, at that time, Prime 
Minister Peres, and though the threat is from the East, the 
values, ideals and their linkage is to the West. And so NATO is 
very much looking at a Mediterranean initiative that will 
include all of the countries of the Mediterranean. ------. So I 
think it is a good one. We are always looking for different 
ways, but I think in this case I would leave it as it is.

                           BOSNIA DEPLOYMENT

    Mr. Murtha. I noticed, we extended the time of 13 months--
or 18 months more for Bosnia. Of course, I opposed vigorously 
the original deployment until the President made up his mind 
and once he made up his mind then I went along with it.
    I knew from talking to you over there that there was a good 
chance that it was going to be extended. But I got the 
impression the fighting may not start--restart in Bosnia, that 
they really wanted peace. And what you said, I think, is 
absolutely true, that these folks were worn out. The land had 
been exchanged and they wanted peace.
    Is it absolutely essential that we stay over there for 
another 18 months?
    General Joulwan. Congressman, what we are about ready to do 
now is the most difficult part. We have separated the forces, 
as you know, by 4 kilometers. We transferred land. We put the 
heavy weapons in the storage areas and there was an election 
conducted and they demobilized many of their forces. The 
difficult part is now.
    Now, what is happening is the return of refugees for 
resettlement and this will determine whether Bosnia Herzegovina 
becomes a multiethnic, multicultural state again, and this is 
the challenge that we are going to face. The secure environment 
for that to take place is provided by the Stabilization Force, 
SFOR. And it is a stabilization, not an implementation. So I 
think there is going to be some need in the next--for the next 
16 months now of the 18-month mandated mission for forces to be 
there.
    Conflict is right beneath the surface, and I--and it is a 
very delicate stage of having people return to their homes, 
particularly when they go into what we would call minority 
areas, where they are the minority, is going to be a great 
challenge. And I just visited recently and saw this in 
operation, and there is a great deal of tension. And what SFOR 
does is provide time for this wound to heal and that is why I 
think, in 18 months, we should know where we are--a much better 
sense of where we are in that respect.
    Mr. Murtha. Well, why is it that the Europeans can't do 
this? I know we originally went over there. They said we don't 
need your advice; we don't need your help. Then they came to 
the conclusion they couldn't do it without the United States. 
What is that we bring to the table that--we only have 25 
percent of the forces. Why do we have to have 25 percent of the 
forces over there?
    General Joulwan. I would like to say leadership in what we 
are trying to do. There is some of that. But also the 
credibility and the weight of the United States of America. 
Don't underestimate what that means in terms of trying to 
ensure compliance with a treaty or continued progress in the 
process in resettlement, reconstruction, elections.
    Mr. Murtha. You are being nice, though. Is it that the 
Europeans can't deal with each other? Is that what the problem 
is? They need leadership? I can't figure this out.
    General Joulwan. Well, first of all, the Europeans wanted 
NATO to come in, and the United States is a key member of NATO. 
For NATO to have a NATO-led force, where they have an American 
as the Supreme Allied Commander it would be difficult not to 
have forces involved. So for a NATO-led operation, it makes 
sense.
    In this case, though, I think the key point is, it is only 
25 percent. In the past, it might have been 85 percent.

                        TRAINING BOSNIA MUSLIMS

    Mr. Murtha. One last question now. We are training the 
Muslims. Europeans don't like us training the Muslims. They 
think that there is balance before you start training the 
Muslims. A lot of people in this country think we ought to be 
training the Muslims. I am not one of them.
    Now, what does this do? We have a couple brigades that are 
well trained. Is this going to change the balance of power over 
there in that area?
    General Joulwan. I think it will balance the balance of 
power. When we first started all of that--by the way, that is 
part of Dayton. It is not something just the U.S. is in.
    Mr. Murtha. I understand.
    General Joulwan. This is part of Dayton. When we started 
it, the preponderance of heavy weapons belonged to the Serbs, I 
mean by a factor of--there were 500 tanks on the Serb side to 
less than 100 on the other side.
    Mr. Murtha. But that is not tank country.
    General Joulwan. They did more damage with tanks over there 
firing point blank into buildings that had civilians in it than 
anything else. Artillery didn't do that much damage. They were 
firing from 40 positions around Sarajevo point blank using the 
tanks just like you use a rifle.
    Mr. Murtha. They used it as artillery, in other words?
    General Joulwan. Well, they used it in direct fire in the 
buildings. I mean, they would aim right into a building, and it 
was very accurate fire.
    They pulled out--when we put in the bombing campaign in 
September with precision bombing, 250 heavy weapons came out 
just from around Sarajevo. So there has to be some balance.
    Now, I think the idea is not to overdo it and to make sure 
that what you are doing is for defensive purposes. And I must 
say, the arm--the training and equip is a program, but I am not 
involved in it.
    Mr. Murtha. I understand that.
    General Joulwan. But I think if you keep it in balance with 
the arms control part of annex 1B of the Dayton Treaty, I think 
it can work, but it needs to be watched.
    And by the way, there are 10 to 15 other countries involved 
now, not just the United States, in arm and equip.
    Mr. Young. Thank you, Mr. Murtha.
    Mr. McDade, the Vice Chairman of the full Appropriations 
Committee.

                   IDENTIFICATION OF MINES IN BOSNIA

    Mr. McDade. Mr. Chairman, thank you very much.
    General, let me extend my personal welcome to you. It is a 
privilege to see you here today and to work with you again.
    I feel badly that you will be leaving the service, I guess 
in the summertime, and I want you to know you carry with you 
the best wishes of the Committee. You have done a superb job. 
We knew you would with Congressman Murtha as a partner, may I 
say to you, but you have really--I remember reading about the 
number of mines in Bosnia, there was some fantastic figure, X 
number of millions.
    General Joulwan. Millions.
    Mr. McDade. I forget how many and predictions about the 
number of youngsters who were going to be maimed and injured, 
killed, because of this proliferation of mines. And I don't 
know how you have handled it, but I am sure you have handled 
it. How have you handled it?
    General Joulwan. Well, first of all, we started a very 
intense identification campaign. Where are the mines? And the 
best people to get were the parties themselves that laid the 
mines. Then we started a very deliberate program of getting 
those who laid the mines to remove them.
    Now, it started to go fairly well at the beginning. It has 
not gone as well in the past I would say, 6 months. Now, what 
we have done is restricted the training. In other words, if--
they have to get permission, these former warring factions to 
go train. If they don't have a plan to remove mines, we don't 
let them out to train. So we put some emphasis in that area.
    There are many nongovernmental organizations that are now 
involved and there is a mine awareness center in Bosnia that is 
trying to catalog all of these mines.
    Mr. McDade. Who runs that, General?
    General Joulwan. I think it is a U.N. agency, but I will--
it is a private organization.
    Mr. McDade. Are they doing a good job?
    General Joulwan. They are doing a good job, but we still 
have a lot of mines, if I can be very candid, and we must get 
rid of them. In terms of the technology we put into space and 
elsewhere we haven't put it into mines, but that is coming. It 
is going to take a little bit longer, but we are now seeing 
some technology come on board.
    Mr. McDade. I forget where I picked up a piece of 
information that related to percentage of youngsters in Vietnam 
who were injured because of mines and body traps and it was 
something like 60 percent of the casualties, isn't it?
    General Joulwan. A great number. I don't know the 
percentage, but a lot.
    Mr. McDade. I don't know the exact number either, but it 
was astonishing to me so many of our people got injured and 
dreadfully injured by those things.
    General Joulwan. The other piece that we do, Congressman, 
is that in my U.S. hat I make everyone going there to Bosnia go 
through a 3-month training program before they go into theater. 
And one of the key elements of that is mine awareness. And so 
there is a great deal of emphasis. And the discipline--this is 
not a peacekeeping operation. This is a peace enforcement. This 
is tough business.
    You go down there and it is not--particularly out along the 
zone of separation, this is tough business. And the troops got 
their head in the game. I just came back from Brcko which is 
surrounded by mines, by the way.
    The other thing which has really helped us, and I must 
credit Secretary Perry, when he first visited me a year ago, he 
said, ``what do you need?'' And I said, armored humvees. And we 
now have humvees that are armored, just about all of our 
vehicles that go out on patrols. And just last week, a U.S. 
patrol hit a mine, blew the heck out of the armored humvee and 
the only damage to the American: he had a little hearing loss 
for a few hours.
    So our technology and what we are trying to do, training, 
discipline of the force and I hope we can keep that going. We 
cannot have soldier complacency, and every time we have a 
rotation of forces we try to reinforce the importance of mines.
    I might say that civilians, however, are getting--are 
becoming casualties as more and more return and we are trying 
to get smarter in working with the nongovernmental 
organizations to--particularly the United Nations High 
Commissioner for Refugees, or UNHCR, and warning people coming 
back.
    Mr. McDade. Do you have any idea what percentages of the 
mines remain in place given say the 9 million? Do you have any 
idea?
    General Joulwan. I would say the vast majority of them.
    Mr. McDade. You still have a long way to go?
    General Joulwan. A long way to go.

                     UNMANNED AERIAL VEHICLE (UAV)

    Mr. McDade. Let me ask you another question. Your command 
was the first to use a new reconnaissance asset in a low-level 
intensity conflict and I remember a demonstration that we saw 
on one occasion. Evaluate the importance of that for the 
Committee, will you?
    General Joulwan. If we are talking the UAV and the Airborne 
Reconnaissance Low, superb. The UAV, the Predator has really 
come into its own. There is still some work we have to do in 
getting it into all-weather sort of things, but it really has 
helped us.
    It is a very good asset.
    Mr. McDade. Have you sufficient assets to do the job you 
need in that department?
    General Joulwan. I believe so, Congressman. What is most 
important is we can downlink from the UAV into the battalion 
Terminal Access Controller, TAC, into a battalion TAC operation 
center. So the battalion commander, lieutenant colonel, can 
dynamically task the UAV flying up ahead.
    We also have at the Combined Air Operation Center that I 
run out of Vicenza, and therefore it is allied supported as 
well, we use. When we had Joint Surveillance Target Attack 
Radar, Joint STARS there, we had Airborne Warning and Control 
System AWACS, the UAV, Airborne RECCE LOW, we put a system of 
systems together and so they could cue back and forth. And so 
if we saw a violation occurring or we saw a movement occurring, 
we could quickly respond and that information dominance in this 
sort of operation really helps. And so we are learning every 
day.
    I am very pleased not only with the platforms themselves, 
but how we can get them down to the lowest level, in this case, 
a battalion.
    Mr. McDade. Thanks for the explanation. My time has 
expired. Thank you, General. Nice to see you.
    General Joulwan. Yes, sir.
    Mr. Murtha. I was just asking the Chairman, Commanders--
aren't they saying that there is a problem with this system, 
they are not getting the satellite feed the way they are 
supposed to?
    General Joulwan. It has been working. We have had a problem 
with icing during the winter, the cold weather, and we are 
trying to work that out.
    Mr. Murtha. That is a connection between the satellite and 
what--but it is working?
    General Joulwan. It is working and we have had good results 
with it in being able to cue it.
    Mr. Hobson. If the gentleman would yield, when I was there, 
they had a couple of them out there but they weren't flying 
them because the weather was a problem. They also had some 
mechanical problems. They were waiting for the next system that 
they thought would really be good, whatever the name of that 
one is. I don't know what it is.
    General Joulwan. Well, there were two different systems. 
One is called Pioneer. The other is called Predator. The 
Predator, at least every indication I have, is working 
extremely well. We have had some problems with it in weather.
    Mr. Murtha. Let us get something on that for the record.
    General Joulwan. All right.
    [Clerk's note.--The Department did not provide a response 
for the record.]
    Mr. McDade. Let me just ask one follow-up question since I 
raised the issue. You say weather. What we hear, what we know 
about Bosnia, is that the weather is always bad. So if the 
weather constrains the use of that asset, how good is it?
    General Joulwan. Well, we are working on a de-icer. When it 
flies and there is no de-icer on-board-capability; it has 
difficulties. So when it is icing conditions, it has got 
problems.
    Mr. McDade. Low visibility isn't bothering it? It can get 
down?
    General Joulwan. It can get down fairly low.
    Mr. Cunningham. Would the gentleman yield?
    Mr. McDade. Yes.
    Mr. Cunningham. I went through the plant this last weekend 
and what they are doing is putting it in the leading edge and 
then they are leaching out a fluid that de-ices the thing. 
Also, with the radar, they can actually see through the clouds 
now and find targets and so on. So it is a pretty good system.
    Mr. Young. General, our next Member is fresh from the 
operating table so go easy on him. We are glad to have Mr. 
Obey, the Ranking Member of the full Appropriations Committee.

                   RUSSIAN REACTION TO NATO EXPANSION

    Mr. Obey. Well, thank you, Mr. Chairman.
    General, I would simply like to ask you roughly the same 
thing that I asked General Shalikashvili yesterday and the 
Secretary of Defense. I have grave misgivings about the 
administration's intentions to expand NATO. I am confident they 
are going to get a deal with the Russians. I think in the end 
Yeltsin will wind up signing on.
    But my concern is that while Yeltsin may buy on because we 
may give him a little cover, I am afraid that that has the 
potential of being greatly exploited by future hard-line 
nationalist politicians who in different circumstances, 
political or economic, could play a pretty mean card by saying 
that they were, quote ``duped by the West.''
    I am also concerned about the fact that it may, in fact, 
make it more difficult to actually achieve Russian ratification 
of arms control treaties that we have signed with them, both 
existing treaties and even new treaties, even though we may 
offer them some sweetener in terms of further reductions on 
conventional arms.
    Do you have any concerns at all about the additional 
opportunities that might present those who within Russia might 
want to resist signing those arms control agreements?
    General Joulwan. Congressman, let me answer it this way if 
I may: Basically, it is a political question of whether NATO 
enlarges from its present 16 members or not. In retrospect, if 
you go back in 1951, the North Atlantic Council originally was 
12 nations. It enlarged to 16 over the next 30 years. Article X 
of the 1949 Washington Treaty that established NATO, Article X 
allows for sovereign nations to apply for membership. That, 
then, must go through the 16 Parliaments, Congresses, et 
cetera.
    I think that applying for membership should be--is a 
sovereign right of any sovereign nation, so I think applying 
for membership is one thing. The impact it would have on 
Russia, I think, needs to be closely looked at. From a geo-
strategic point of view I would say that if many of these 
nations that we talked about are members, it provides stability 
on Russia's western flank, not instability, which is part of 
their concern. So I am not so much concerned about Russia's 
thinking that somehow they are at a military disadvantage 
because of this. It doesn't hold water when you do the 
analysis.
    Whether the countries that we are talking about for 
membership come in or not, again, it is a political decision, 
but they are sharing the risk with NATO right now in Bosnia. 
They have forces on the ground. They are demonstrating shared 
values. Some of these countries have reached out to their 
neighbors and now have treaties with their neighbors, are 
demonstrating that they really want to create the values and 
ideals of the alliance as well. So I would say they ought to at 
least be heard.
    Whether the political side will accept them, that is 
another dimension. But we do have, NATO has, a very active 
program now of consultation with Russia. The Secretary General 
has just met on Sunday with Primakov in Brussels. The month 
before he was in Moscow. There is talk of a Russian NATO 
charter that is being looked at.
    So I think every attempt is made to reach out to Russia; at 
the same time not allowing some sort of Russian veto of what 
NATO is trying to do.
    I don't see it as a threat. I think in many cases, it can 
bring stability to the region.

                       JOINT NATO-RUSSIAN BRIGADE

    Mr. Obey. I guess I would simply say that I think letting 
Spain into an organization is somewhat less troubling to Russia 
than having countries near their border being new found members 
of a Western alliance.
    I am also concerned about the fact that if you are 
Ukrainian or if you are living in Estonia, Latvia or Lithuania 
or any of those areas that, in fact, if we add Poland and some 
other first slice countries, that it creates at least the 
potential for added Russian pressure on those folks who are not 
allowed into NATO at first blush and might, in fact, create 
problems for them down the line, but I recognize that is a 
political judgment.
    Let me ask you this, Secretary Albright just floated this 
idea of a joint NATO-Russian brigade as part of the sweeteners 
package that I was talking bout. Is that a workable idea? How 
much would it cost the U.S.? What kind of capability, in your 
best professional judgment, do the Russians have to finance 
that given their military problems at the time?
    Is NATO liable to wind up being stuck with all of the 
costs, except for payment of the troops, the Russian troops, 
and were you consulted prior to that announcement?
    General Joulwan. The answer is, no, but we are working now 
trying to determine what are the limits of this initiative that 
we have discussed. We have discussed, as part of this, how to 
evolve from what we are doing in Bosnia, which may have led to 
this discussion.
    What we need to do is build on this, this relationship, 
that we have. We have a Russian brigade in Bosnia now, working 
within a multinational division, headed by an American major 
general division commander. We need to build on that.
    I have personally attended lessons-learned seminars in St. 
Petersburg and we are going to have one in April at the 
Marshall Center in Germany.
    So I think we are building on this, and the intent is, can 
we work together in a way to be able to respond to similar 
crises by developing a unit that can help? But we haven't taken 
it to the level of a NATO-Russian brigade, We are just doing 
the fundamental work here. The costing has to be done. What 
equipment, the interoperability of that equipment, all of that 
is yet to be done.
    Mr. Obey. I would simply say that in Defense News, there is 
an article on this subject which contains the following 
paragraphs: Quote, ``What the hell is going on? a military 
planner chief told Defense News February 21st. We have already 
got a very good model of cooperation with Russia and SFOR, but 
the Russians must still learn to walk before they can run, said 
the planner. A joint brigade is way beyond what we can offer 
right now.'' And it says, ``one U.S. official admitted that 
even the issue of financing the joint brigade could be 
problematic for the alliance in view of the Russians' military 
chronic cash shortage.''
    Do you have any----
    [The article follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    
    General Joulwan. I have seen that article. I am trying to 
find who said that at Supreme Headquarters Allied Powers 
Europe, SHAPE.
    Mr. Obey. But is he really wrong?
    General Joulwan. Well, I think it is an overreaction. I 
don't want to belabor the Committee, Mr. Chairman, but I have 
spent a lot of time with the Russians trying to get through 
this suspicion and fear they have of NATO. And it truly is 
something that has been developed over 45 or 50 years or maybe 
even longer, and we have got to figure out a way to have this 
dialogue And the best thing going for us is what we are doing 
with the military--the military cooperation.
    We have got to build on that. And if it takes some 
initiatives that we are seeing in Bosnia. If we could work this 
three-star general I have in Mons, Belgium, trying to work 
together, seminars, and at the point, if we ever get to that 
point, if we could work out all the details, some way to train 
together, I think that, to me, is the way we need to go. But we 
are having a heck of a time getting through this suspicion and 
fear. And so we need to find ways to do that.
    The reaction by this officer at SHAPE, I think, was an 
overreaction. I think if you talk to most of the people there, 
they are very pleased with the contingent of Russian officers. 
I would like to see, for example, NATO send a similar 
delegation to Moscow to work in their general staff to start to 
build this relationship.
    We know how to fight. If you want to come back, I know how 
to do that. But what we have to be able to do--how can we 
prevent conflict? And that is not a weak way, that is not a 
weak response. We have a hundred thousand white crosses that I 
am responsible for in 21 cemeteries in Europe that we have 
allowed in this century, two World Wars to develop, and I am 
trying to figure out how to prevent another one. And the way 
you do that is to outreach and try to have some dialogue from a 
position of strength. And from our relationship and the United 
States' relationship, we have spent 45 years developing this 
great thing called NATO. Now is the time--the mission 
continues. It doesn't end with the collapse of a Berlin Wall, 
and Russia is the key.
    If we could somehow reach out to Russia and include them in 
what we are doing, not giving them a veto, not running scared 
if they say this country or that country can't come in, but 
work with them in a way to bring about what I think is going to 
be required, that is just trust and confidence, and that may 
mean a NATO-Russian brigade at some point, but we are not there 
now.
    Mr. Young. General, I want to ask you to clarify something. 
Mr. Obey asked you two questions and you answered, no, and I 
wanted to make sure which question you were answering, no, to. 
I think it was the question about whether Secretary Albright 
had consulted with you or had anyone consulted with you before 
she made the proposal. And you answered, no. Was it, no to that 
question?
    General Joulwan. On the specific of the NATO-Russian 
brigade. we had been talking about how to work together with 
their military, but in terms of a NATO-Russian brigade, no.
    Mr. Young. Okay. Mr. Lewis.

             INTERNATIONAL MILITARY EDUCATION AND TRAINING

    Mr. Lewis. Thank you, Mr. Chairman.
    Welcome, General. Blessed are the peacemakers. You know, 
often we forget that that is very much what you are about and 
you articulated that, I think, very well.
    In your statement, you make reference to the International 
Military Education and Training, IMET. Often times we hear, get 
distorted in the way we review programs like that, I remember 
early in my own career here, much of our debate flowed around 
Central America and Latin America and IMET kind of got a 
negative cast here in the mind's eye of many, and yet the point 
that you are making about confidence among Russian military 
people and that longstanding lack of confidence in one another, 
suspicion of one another, it would seem to me that programs 
like IMET affecting those other countries in Eastern Europe, 
those that were part of the Soviet Union, allows us, perhaps, 
avenues for impact that could be very important. Those 
exchanges, it seems to me, should be raised in priority. Could 
you just elaborate a bit on that?
    General Joulwan. Absolutely, Congressman. In fact, I will 
give you a very good example General Vegh, is the Hungarian 
Chief of Defense. In one year he has totally transformed the 
Hungarian military under his leadership. He is a graduate, as I 
said, of the Army War College in Carlisle. He has come to see 
me on several occasions. He has appointed an Air Force fellow 
from Maxwell, a graduate of Maxwell. He has completely 
revolutionized that country's military at a critical time in 
their development, and that is all through IMET.
    We see this throughout most of these countries of Eastern 
and Central Europe. It is a way to instill not just technical 
training, but ideals and values that are going to be very 
important, I think, for the future. This is a different culture 
that they have been under for so many years, and the way you 
change it is by using things, initiatives, like IMET. High 
payoff, low cost.

                         EMERGENCY SUPPLEMENTAL

    Mr. Lewis. Technically IMET doesn't fall under the 
jurisdiction of this subcommittee, but the overlap is obvious.
    You mentioned that 25 percent, we have 25 percent of the 
forces in Bosnia, yet we have a supplemental up here that 
involves $2.5 billion. It is very clear that money is fungible 
and that puts pressure on all of the rest of the services. As 
we go about responding to the President's request, we are 
shrinking the overall budget. Any comment? Ninety percent of 
the cost is ours over there anyway, isn't it? Maybe not.
    General Joulwan. Well, I would say that what I see of the 
multinational force, that we have leveraged it. Many of these 
countries are participating at great cost to them, both in 
manpower and in dollars or whatever their currency is. This is 
a great step forward, and I feel very privileged to be the 
overall operational commander, not just for U.S. forces, but 
for this multinational force who have put their trust in us 
here that we are going to do it right. And they are as 
concerned about their young men and women as we are, and they 
have put their people and their treasure into this in 
comparative numbers given some of these small nations.
    It is a very clear statement, I think, that they really 
want this to be solved. So I think it could add up to dollar 
amounts. I don't think it is 90 percent of the cost. I think it 
is much less than that, but the comparative cost by some of 
these nations--in fact, I figured it out for Norway. For their 
initial contribution, we would have to have over 150,000, in 
the comparative sense, given their population.
    So these nations have contributed, and that includes, 
Russia, the Ukraine, Poland, Hungary, Czech Republic, and 
Austria also Finland, Sweden, Estonia, Latvia, Lithuania, all 
have joined us in this endeavor.

                        UNMANNED AERIAL VEHICLE

    Mr. Lewis. In the meantime, we do have real money pressures 
here, the request to reduce the budget, et cetera. So we just 
need to put all of that in perspective and that is part of what 
this exchange is about.
    Operationally, I just have a minor problem. Some on the 
Committee would suggest that I have heard of UAVs before. But 
in Bosnia, there really has been a demonstration project of the 
potential of the future there.
    For example, we were able through Predator to assess the 
bomb damage that took place there. We knew, for example, that 
the Serb tanks weren't being withdrawn, et cetera, so in many 
occasions it has been very, very valuable. But it was mentioned 
that weather is a problem and the wet wings need, in terms of 
technological development, is very real.
    Currently, you may or may not be sensitive to this, but 
currently, the Air Force, who is managing the program, is not 
volunteering Predator as often as we used to get its services 
and specifically they are resisting testing wet wings in the 
Bosnia theater. That frankly, I think, would decelerate how 
quickly we can put that technology into place and I would urge 
you to focus on that if you haven't had a chance to.
    General Joulwan. I will.
    Mr. Lewis. Mr. Chairman, thank you.
    Mr. Young. Mr. Skeen.

                            TERRORISM THREAT

    Mr. Skeen. Thank you, Mr. Chairman.
    General, I want to congratulate you and express my 
appreciation for the service that you have given this country 
and the intelligence that you have used in trying to come up 
with something in a meaningful solution to some of the 
worldwide problems. That is a heavy load and I am sure that 
your shoulders are going to snap back up in place after you get 
that load off of it after a while. I hope that you enjoy your 
retirement and whoever your area commander is, they will be 
glad to have you there.
    I wanted to ask you, one of the major concerns that we have 
is the protection of our troops against foreign terrorist 
attacks in that theater of operations. What is going on to 
assure that we don't have any losses like we did in Saudi?
    General Joulwan. We are working that very hard, 
Congressman. We are very much involved in on-site inspections. 
I have an oversight group that meets at my headquarters in 
EUCOM. They watch us very closely, every deployment that we 
make.
    We are using technology, as was mentioned, to the best of 
our ability as well. We have something called a--for want of a 
better term--a ``blue dart message.'' I have a Joint Analysis 
Center in Molesworth and we have a cell in there that is 
concentrated on intelligence and terrorist intelligence that 
relates to the troops. And what I found in the past in other 
areas that we have been involved in over the past 30 years, 
that somehow an analyst gets this good report, but the troops 
that need it don't get it in time. So I time them now. They 
have minutes to get it down there to the troops and not analyze 
it to death. And we run drills on this.
    Now, I hate to be that positive because you never know, if 
terrorists are determined they really have the advantage. But 
we are doing everything we can to try to take that advantage 
away from them.
    Mr. Skeen. Very typical situation, and I understand that. 
That is why I am particularly interested in the response 
because it is a huge problem to try to close up all the holes 
in the sieve.
    General Joulwan. But to me, it is a discipline problem, 
mental awareness. That is why we go through this training 
program when we go into Bosnia. We have a deployment today 
taking forces into Liberia. We put a joint task force together. 
They are taking Africans in to control the situation, rather 
than Americans. And we went through a force protection drill. 
Before they deployed, that risk assessment was done. They 
deployed with proper protection and intelligence and so we go 
through this for every deployment.
    Now, you can't reduce the risk to zero, but you can reduce 
the risk and it is the leadership, it is the discipline of the 
soldier, it is using technology, and it is getting the mission 
right, all of that before you deploy.

                        UNMANNED AERIAL VEHICLE

    Mr. Skeen. I would like to put in a word for the UAVs as 
well. Mr. Lewis here on the left, and I have a co-
responsibility. They are producing them in his district, but 
they are testing them in ours in a Desert Sands exercise. It 
has been phenomenal. I watched the utilization and the 
operation, and it is just amazing.
    General Joulwan. The key is we are using them now. I used 
to command the first of the 26th Infantry many, many, years 
ago. I went into their tactical operations center with 
Secretary Perry in November. They are set up in the Posavina 
corridor in the zone of separation, smack dab in the middle of 
it, one operations center better than anything I could ever do.
    And one thing that they have the ability to do is to 
request and get information at the battalion level. So when he 
has a patrol going out, he has a way to either cover it or give 
it intelligence. They have a little intelligence fusion center 
there. And the UAV gives it a capability that we never had 
before.
    Now, we have some product improvement as we go along and we 
have got to do that. The Airborne RECCE LOW is another platform 
that I helped develop when I was in Panama. This you could put 
non-U.S. on board. I have tried to take NOFORN away; and 
encourage foreign release of certain intelligence.
    If we are going to work with these people that contribute 
to troops, we have got to figure out a way to share 
intelligence. And so I am trying to get a system that we could 
put on board. Now, you could put foreigners on board these 
planes or allies and they could actually see a digital readout 
when they are flying over the zone of separation. Where you 
have a problem, you could put three of the warring factions on 
there.
    So we need systems that give me that capability to dominate 
the intelligence and the information that is every bit as 
important as having tanks and Bradleys and ships and all of 
that on the field. And we are getting much better now. We have 
learned a heck of a lot in Bosnia, and I really appreciate the 
contribution the UAV is making.
    Mr. Young. Mr. Skeen, thank you very much.
    Mr. Dicks.

                            MISSILE DEFENSE

    Mr. Dicks. General, I want to compliment you on the great 
job you have done. I was interested in your statement today. 
One of the things I remember is Congressman Murtha and members 
of this Committee who went out to the Gulf War and the 
vulnerability that we felt to theater missiles, to the SCUDS, 
and you started to think that if the Iraqis possessed accurate 
SCUDS with either chemical or biological weapons, nuclear 
weapons, they could have done incredible destruction to us.
    One, we couldn't target the launch. We couldn't find them. 
They used very sophisticated denial and deception techniques, 
and number two, we didn't have an adequate system to defend our 
troops in the field.
    Now, as I read your statement, you say the active defense 
portion of this theater missile defense framework must be 
capable of providing precision engagement and full dimensional 
protection against weapons of mass destruction in support of 
out-of-area operations, as well as wide area defense to protect 
U.S. and allied interests. Our current capabilities are not 
adequate to meet the challenges of the future, particularly in 
our southern region along the Mediterranean and in the Middle 
East.
    Tell me what you think we need to do that we are not doing 
and give me your assessment here.
    General Joulwan. We need a system of systems, Congressman. 
We need to be able to not just look at what I call the boost 
phase, the mid-course and terminal phase of an incoming 
missile. All of that is important. We have got to also look at 
the shooter.
    I would like to have systems that give us intelligence of 
when we have a missile system coming in, some event or some 
other intelligence means and then a means to go after the 
shooter and refires before they can come back to us. That's the 
first one.
    The other thing, the Medium Extended Air Defense System 
MEADS, that we have, are not allied. Italy and Germany have 
joined us in this endeavor. That is very positive. They are 
helping us in the developmental costs and the research and the 
procurement of this system. Excellent. We need to do the same 
thing in theater missile defense.
    Mr. Dicks. This would deploy with our moving forces, right?
    General Joulwan. Yes.
    Mr. Dicks. And give air defense to the brigade or the 
division?
    General Joulwan. Yes, exactly.
    Mr. Dicks. General Peay tells me over and over again that 
this is one thing that he worries about that we are moving to 
the right and we are not as aggressive about this as we ought 
to be.
    General Joulwan. I fought for MEADS. I think it is okay 
now. From what I understand, it is on track. Theater high 
Altitude Air defense, THAAD, is another piece of that, but you 
have to look at the whole system of systems for not only the 
terminal and not only the mid-course and the boost, but also 
for getting the missile before they shoot. Therefore, the 
command and control of this system is very important; that you 
have a command and control system that can move quickly, 
because, as you know, this can happen within minutes and you 
need a command and control system that is responsive. I am 
working on something in Ramstein called an Air Operations 
Center. I have been working theater missile defense now since 
1985.
    Mr. Dicks. Right.
    General Joulwan. So what we are trying to answer is, how do 
you command and control it? And what we are trying to do in the 
southern region of NATO that you mentioned--and let me be very 
clear, Libya is part of the problem, because with their reach, 
they could reach much of NATO in time.
    Iraq, when we put the time lines in it, if technology 
continues to develop, can reach much of NATO.
    Therefore, NATO is looking at theater missile defense as an 
alliance system, and I would encourage that.
    So there are things that are being developed that are 
beyond just the missile, that include command and control that 
are every bit as essential to the conduct of an operation as 
the missile itself.
    Mr. Dicks. All right. Let me just--not to bore my 
colleagues, but let me just give you another idea that I have 
had on this thing.
    When you look back at the Gulf War, one of the true assets 
we had was the F-117, stealth aircraft, and if you could have 
stealth aircraft with Link 16, the ------?
    General Joulwan. That is right.
    Mr. Dicks. My view of this is that you can do this with F-
117s and eventually, when we get the weapons on in the block 30 
upgrade on the B-2, you have another capability to use this 
bomber to come in and attack these targets, to go after the 
surface-to-air missiles, say, with Joint Standoff Weapon JSOW, 
go after SCUDs with sensor-fused weapon or these 2,000 pound 
bombs, to go after relocatables, but it seems to me that that 
gives you the offensive side of it. But you still need to 
develop this umbrella system, this theater missile defense 
system so you can actually defend the fields and defend the 
forces. And if you could put those two systems together you 
would then be able to have a very dynamic ability to, one, 
protect the force, but also attack these targets.
    General Joulwan. Exactly right. That is what we are trying 
to develop. That is why I called it a system of systems. The 
problem is we have talked about an offensive and then another 
group has talked about a defense. You have to get them 
together.
    Mr. Dicks. You have to do both.
    General Joulwan. That is what we have done. I have been 
trying this since 1985 and we are close. But the 
communications, the command-and-control piece, is equally 
difficult, because you are talking about offensive and defense, 
and you are trying to put them both together. And we now are 
experimenting with that at Ramstein AB today.

                            JSTARS AIRCRAFT

    Mr. Dicks. How about JSTARS, how has JSTARS been 
performing?
    General Joulwan. JSTARS, we just had a deployment in 
November and December. JSTARS demonstrated its worth, in my 
opinion, in Bosnia. It has put the zone of separation on its 
maps and gave us great information back. And it has been used 
as a cueing platform that I talked about, and it goes to your 
question of theater missile defense.
    The other thing I would put into the equation is the UAV. 
If you have a region or an area, and you could task a UAV to go 
to that area, it could find the target for you and you can cue 
shooters in to be able to take it out.
    We are on the verge of doing that now out of this Combined 
Air Operations Center and we have learned a great deal about 
how to put these systems together.
    Mr. Dicks. If you would give me one second.
    Mr. Young. One more second.

                       JOINT INTELLIGENCE CENTER

    Mr. Dicks. One more comment.
    I went to Vicenza to the Joint Intelligence Center, and I 
must tell you I thought that was an incredibly successful 
operation. And the ability to use all of our national systems, 
to use our theater systems, aircraft, UAVs, the whole thing and 
fuse it right into one area and then be able to directly 
communicate with the battlefield commanding officers in Bosnia, 
to me, is another incredible step forward.
    What I am asking you, is are we able to do these joint 
centers more than just on an ad hoc basis, but to make this 
kind of part of each of our CINCs and be able to move it out 
there and replicate this in the future?
    General Joulwan. I think so, Congressman. We have worked 
very hard on it, and I think it has applicability elsewhere in 
other theaters as well.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Young. Mr. Hobson.

                        RUSSIAN TROOPS IN BOSNIA

    Mr. Hobson. Thank you, Mr. Chairman.
    General, I think you have done an absolutely amazing job, 
much better than most of us expected the success would be in 
the theater, especially in Bosnia. I have a couple of questions 
about that.
    I differ somewhat with Mr. Obey about approaching the 
Russians and those countries. I think it is very positive. I 
happened to try to go to Latvia to visit one of my constituents 
who is there, very active in defense matters--a former U.S. Air 
Force Colonel.
    A couple of things about Bosnia I would like to ask, and I 
will ask them and then you can answer what you want.
    I am a little concerned about the morale of the troops in 
Taszar and I don't know how many are still there. There were 
like 4,500 when I was there. They were all worried about coming 
home, because they don't have anything to do until everybody 
comes home. Somebody told us they were worried about the water 
in the bottle, but it didn't taste that bad to me. That is one 
question.
    I don't know who the Russian general is now, but General 
Nash and the Russian general that I saw there had a great 
relationship, and I thought it was wonderful. I think it should 
be promoted any way you can, because the understanding of those 
people transcends back into the government later on. This guy 
was an air trooper. He told me he jumped 30 times a year. I 
don't know how he did, but they had a great camaraderie there. 
I don't know how it is going with the new guy, but I think that 
should be encouraged.
    The other thing that concerned me somewhat, when I was 
there--I have been there twice--is the nongovernment aid in 
Srpska by the outside groups. There was hesitancy by the 
other--they were all eager in the Muslim area and Croatian 
area, they would go in there and work, but when you got over in 
the Srpska area, there was a hesitancy by some of the outside 
groups to go in there, maybe for security reasons or a lot of 
other reasons. And they weren't received as well, but there was 
some tension about that. Has that changed any?
    General Joulwan. Let me answer that last question first. It 
is difficult because Srpska will not recognize the national 
governments, the national institutions that have been voted in 
last September, in many respects.
    For example, there is some good news on telephone lines. I 
forget the number. I think it is like 60 to 70 percent now have 
some telephone system. But we can't get it across the Inter-
Entity Boundary Line, IEBL, because Srpska will not agree. We 
are trying to open up four airports, to get funds in there to 
try to open up airports.
    Srpska will not agree to something--similar to our Federal 
Aviation Commission? They will not agree to have one that 
represents the nation. So it has been very difficult.
    I would agree with you that we should try to do more with 
Srpska. They need to cooperate with us, and I have said that to 
Krajisnik and Madam Plavsic that we need to get some 
cooperation from you to get the needed aid that you should 
have, and we are working that very hard.
    On the Russian relationship between Nash and General 
Lenzhov, you are right, that is an excellent relationship, and 
we are building on it. The new team in there now of General 
Meigs and his Russian counterpart. That is also working well.
    The new Russian Commander came in and in 24 hours was in a 
situation where he had to call for fire, or just about call for 
fire, because his troops were in danger and American troops 
were going in to help him, and he passed the test very well. I 
visited the Russian forces, walked their perimeter, crawled 
into some of their holes that they dug and I must tell you that 
I asked the sort of questions that I ask of troops. And they 
are very well-trained.
    Now, I know what we are hearing about Russian forces and 
demoralization of them, and they are not well-trained. But this 
group that they are sending there is extremely well-trained, so 
I think we need to build on that.
    On the morale of our own troops, I must say I also ask a 
lot of questions and am sure we have got some shortages 
somewhere. But in the main, I have found the morale to be very 
high. They are doing a tough mission.
    Mr. Hobson. I think that is true inside the perimeter of 
Bosnia. They are very motivated, but you have got supply-type 
troops sitting around there. They were confined to the base. 
They could only take so many off.
    General Joulwan. You can blame that on me. I am the guy. I 
am the guy that confined them to the base, and they are going 
to be very deliberate in what we do. And I am the guy.
    But I can tell you that I have called them the best support 
troops in the world, and they are. They have done magic in 
Bosnia and in Hungary and they have established a base there 
that is, again, a model for future involvement of how do we 
protect the force and how can I respond quickly if something 
goes sour on us?
    And I assure you I will respond quickly if something goes 
sour, but I need to have the assets to do it, and we have got 
them there in Hungary. So I will look into some of their 
problems. But in my view the medical unit there is superb.
    Mr. Hobson. Everything is fine. It is just that, you know, 
they are sitting around. They are the guys who were the first 
ones there. They are the last ones out. Like any troops 
overseas they want to know when they are coming home because 
they don't have the same heightened tension factor that the 
troops inside the theater do. It is a tough job. I am not 
criticizing.
    General Joulwan. It is.
    Mr. Hobson. I am just saying it is a tough job. There was a 
new general there. I think he was going to try to get after 
that situation. But that is just a potential problem. You have 
got a lot of potential problems.
    General Joulwan. But if you could just visit them, when you 
all go there, and I have seen all of you, particularly 
Congressman Murtha, they talk to those troops, and just a word 
of appreciation from you, I mean, it is worth volumes of what I 
could do.
    So your interest in those sort of troops, not just in 
Bosnia but the support troops, is very much appreciated by me 
and I know by the troops.
    Mr. Hobson. Thank you, sir.
    Mr. Young. Mr. Hefner.

               EFFECT OF U.S. MILITARY PRESENCE IN BOSNIA

    Mr. Hefner. Thank you, Mr. Chairman.
    General, I don't know if this is an appropriate question or 
not. On a scale of 1 to 10, how successful would you rate the 
Bosnian operation and mission at this point?
    General Joulwan. On the military side, I will probably give 
us an 8 or 9. On the civilian side, we have work to do. And I 
have tried to get a sense of urgency in what needs to be done. 
And it is coming, but it is coming very slow.
    I would say on the civilian side we are probably down in 
the 4 and 5 category, but we need to get a sense of urgency and 
organization on that side. We are well organized, and they are 
not.
    Mr. Hefner. On the other side, you are talking about 
investment and rebuilding the infrastructure and things of this 
nature?
    General Joulwan. It is in reconstruction. It is in the 
organization of Security Corporation in Europe, OSCE, which is 
responsible for the elections and arms control. It is the 
United Nations High Committee for Refugees, UNHCR, for the High 
Commission of Refugees. It is the World Bank and what they need 
to do in reconstruction. It is the Red Cross and what they have 
to do. All of these agencies.
    And what I am trying to do behind the scenes is organize to 
meet the mission. Because as I said in my statement, we can do 
everything right. We can be a 10 on the military side and the 
mission in Bosnia will not be successful.
    Mr. Hefner. Well, we had a hearing yesterday and it pretty 
much hinged on as long as you have got a military presence 
there, but if you don't make jobs and repair the country, then 
it won't be a lasting peace. Is that a fair statement?
    General Joulwan. That is very fair. I might give you some 
progress, though. I mean, I couldn't say this last year, but 90 
percent of the people now in Bosnia-Herzegovina have potable 
water. That is very important. Sixty percent have some degree 
of electricity. Two years ago it was 10 percent. And I 
mentioned the number now that can make a telephone call. Those 
are things we take for granted but in that country, this is a 
great improvement. So it is coming, but it is coming awfully 
slow.
    The key issue in 1997 would be the return of refugees to 
their homes, and this will be the important step to say if it 
is going to be a multiethnic society, we have to get on with 
resettlement and return of refugees to their homes, and there 
are a lot of refugees out there.

                            QUALITY OF LIFE

    Mr. Hefner. Over the years on Military Construction, which 
I chaired for quite a few years, we had a desire to do more on 
the quality of life. We had some young men here at a hearing 
that had been in Haiti, some had been in Bosnia, and it was 
remarkable to hear them talk about some of the things that had 
to do with individuals, they were so proud of the mission that 
they were doing, which is a little bit unusual. And they had 
mentioned some programs that they were involved in. And it goes 
to what Mr. Hobson was talking about, about the morale.
    How many Americans have we lost in the Bosnian operation?
    General Joulwan. We have lost, I believe it is 1 to a mine, 
that was early on. It was a mistake, to be very clear. He was 
doing what he shouldn't have been doing. And I believe we lost 
one in a traffic accident.
    Mr. Hefner. That is remarkable. That is astounding.
    General Joulwan. I get nervous every time I mention the low 
number of casualties, because it is something we work very 
hard, but it is sort of ``good news, bad news,'' Congressman. 
Because we have now created a condition that even taking 10 
casualties, would be a disaster that would require great 
explanation by me, and I am trying to avoid it as much as I 
can. But we have taken very few. But that is because we have 
clarity of mission, robust rules of engagement, unity of 
command and we have trained to mission, and all of those 
ingredients are important to get the results that we have had.
    Mr. Murtha. Will the gentleman yield?
    Mr. Hefner. Yes.
    Mr. Murtha A couple of things that you get blamed for but 
it is so imporant, is not drinking, you don't allow them to 
drink and you don't allow them to fraternize with the 
civilians. Both of them would be volatile situation, and I know 
you get blamed and criticized for it, but that has been a key, 
an important part of your success.
    General Joulwan. We have to learn all of that. I didn't let 
them do it when they went to Rwanda or anywhere else. You have 
to have discipline of the force. And this is difficult, and it 
may have impact on morale. It may be due to some other things, 
but I am there to bring them home.
    Mr. Dicks. Will the gentleman yield?

                  ROLE OF GUARD AND RESERVE IN BOSNIA

    Mr. Hefner. Let me have one more question here. You said 
that the Guard and Reserve were very important in this Bosnian 
situation.
    General Joulwan. Yes.
    Mr. Hefner. That they are essential to the total force. 
Could you just give us some examples of what they do and are 
there any functions that they do totally, that the Guard and 
Reserves do totally there? Be specific, if you would, sir.
    General Joulwan. Let me just give you the most important 
function that they do totally is in the civil affairs area. 
This group is so essential that I am going to put them in for a 
special award because they have been the ones that have been 
the glue--the link between the military and the civilian 
agencies. They have left their businesses. They are lawyers, 
economists, teachers, police chiefs, and they come to Bosnia 
for 179 days.
    For example, I have a criminologist and a chief of police 
working with the International Police Task Force. They are the 
glue that holds it together.
    But, gentlemen, I am very concerned about their jobs, to be 
very honest with you. These people have made deployments, many 
of them to Saudi Arabia, Haiti and now into Bosnia, so they are 
doing wonderful work. That is exclusively a Reserve function 
right now, and we couldn't do it without them.
    Mr. Hefner. Well, I think that is good to hear you say that 
because we are going to be having hearings, some meetings about 
their budgets which up to this point haven't been satisfactory 
with some of us, but hopefully we can get it on the right 
track.
    I will yield to the gentleman.
    Mr. Young. The gentleman's time has expired.
    I would like to recognize Mr. Bonilla.

                         BOSNIA RECONSTRUCTION

    Mr. Bonilla. Thank you, Mr. Chairman.
    General, just to follow up briefly on something Mr. Hefner 
asked. Theoretically, if we ever got the civilian effort in 
Bosnia up to 8 or 9 points on the 10-point scale, and it worked 
ideally for a short period of time, do you think that would 
last?
    General Joulwan. I think so. I think because what has to 
happen here is that Bosnia-Herzegovina is going to be a long-
term solution. We need a long-term program here, not a military 
program, not military troops in there forever, but you need 
civilian agencies that are going to be involved in this 
reconstruction and reconciliation for years to come.
    So the foundation you lay now will determine the future in 
Bosnia-Herzegovina. So what you want to do, while you have the 
military there, is get the foundation laid, get the roots 
implanted that you can build on. That is what we are trying to 
do now.
    If we can do that--I'll just tell you a quick story. I was 
in Brcko in February, a couple of weeks ago, and if you 
understand the zone of separation, it is about 4 kilometers 
wide and then there is an Inter-Entity Boundary Line--IEBL in 
the middle of it. I mean, it was like being back in a war zone 
because there are damaged buildings all around in this zone of 
separation.
    But on the Serb side of this IEBL, there is a mosque being 
repaired by about a dozen Muslims and they were going to have a 
service in there and they were getting electricity from Brcko, 
from the Serb side. So there are some steps that are being 
taken.
    If we can just encourage that reconciliation to take place, 
if we can allow electricity and water and telephones, the basic 
necessities, if we can have a return of refugees, a modest 
beginning, I think that will set the stage for long-term 
development. You don't need 30,000 troops in order to do that.
    We have 16 more months. I think we should be trying to 
figure out what we can do in the next 16 months to get the 
civilian agencies established. Once jobs start working, once 
you have factories opening, I think there will be a momentum 
for peace, not to go back to war.

                              NATO FORCES

    Mr. Bonilla. That is encouraging because, frankly, I have 
always had doubts whether there can be long-term peace there, 
but what you are saying means a lot.
    Let me turn now to NATO, General.
    In looking at what lies ahead for NATO, and turning from a 
pure defensive alliance to a collective security organization. 
Do you think that is a good evolution, in your view? Isn't it a 
switch from having our folks there as warriors versus police?
    General Joulwan. I don't see them as police. We are, I 
think, adapting and adjusting in a way to say how do we engage 
in peacetime?
    I will tell you the work I am doing with the Russians is 
not as a police force. We are interacting with them to build 
this common procedure and common doctrine, and trust and 
confidence, as we are with 27 other nations. We have conducted 
130 exercises last year, not police exercises.
    How do we get common standards? The problem that United 
Nations Protection Forces, UNPROFOR made, they put 30 some 
nations on the ground, but they couldn't talk to one another. 
They couldn't communicate. They had no common interoperability.
    What we are doing, engaging now--it is an engagement 
strategy to develop common standards and procedures so 75 
percent of the force in Bosnia is other than U.S. and one-third 
of the force is other than NATO. And it isn't just saying we 
have one-third of the force other than NATO, but are they 
trained to the right standards and procedures? Can we operate 
together? Can some day we fight together?
    So this is not a police function. This is an engagement 
strategy that I think is every bit in our interest to do. And 
what it does do, it creates trust and confidence, and when a 
blip comes along the horizon in one of these countries like 
Bulgaria, the military stays out of it and they allow the 
transition to democracy to take place. That is every bit in our 
interest.
    I don't want to call it police actions and I don't want to 
call it some sort of nation-building. We are involved in a 
strategy that, I think, comes about because of our 48 years of 
involvement in NATO. Now we have to go the next step, which is 
how do we prevent conflict from occurring again?
    Mr. Bonilla. That is encouraging as well, because I would 
be very concerned if our mission were evolving into police or 
nation-building. I don't think that is the way we ought to go. 
If you don't see it that way then----

                          FULL SPECTRUM FORCE

    General Joulwan. If you want my honest opinion for the 
future, we need to have what I call a full-spectrum force. And 
I will be very candid with this Committee, that I don't think 
you can just wait for the big one to occur. You can't sit back 
and wait for the war to start. You have to say how can we 
influence events to prevent the big one? How can we engage in 
peacetime to prevent the train wreck? And that is what I think 
we should be about.
    Now, that takes a certain form of military involvement, but 
also political and economic and diplomacy. It also requires a 
military that can engage in a way to bring about the end that 
we want. And that is the situation we are in now.
    Whether we can carry that off or not, I am not sure. But it 
takes a force structure and a command structure and an 
educational system in this country. That's what we are finding. 
That is the world as it is, not as we hope it is going to be, 
and we have to find a way to engage. It was theory when I first 
spoke to this Committee 3 years ago, but it is now reality, and 
it is working and we have to recognize that.
    Mr. Bonilla. Time for another question, Mr. Chairman?
    Mr. Young. One more question.

               MEDIUM EXTENDED AIR DEFENSE SYSTEM (MEADS)

    Mr. Bonilla. Just a question on the MEADS program in 
closing here. You know I represent Fort Bliss and have a deep 
interest in all air defense systems, and my question is if you 
could briefly comment on the importance of the systems for 
protecting our troops and on the impact U.S. withdrawal from 
this program would have on our German and Italian allies?
    General Joulwan. Let me answer it very quickly. That is 
very important for the protection of our force, and it would be 
very disappointing to our Italian and German allies if we would 
withdraw from this program. They have signed up with us. They 
are developing it with us, and I think this is the way to go. I 
am trying to also do the same for Joint STARS, by the way, to 
get NATO involved in these systems, get allies involved, as we 
are doing with AWACS and so we are not trying to do it alone.
    Mr. Bonilla. General, you are a very impressive person, and 
I wish you also the very best in your retirement.
    General Joulwan. Thank you very much.
    Mr. Young. Mr. Nethercutt.

                           COMPUTER SECURITY

    Mr. Nethercutt. Thank you, Mr. Chairman.
    I join the rest of the Committee, General, in wishing you 
well and thanking you for your service to the country. It is 
indeed, admirable and remarkable and we thank you very much.
    We have had testimony before this subcommittee this year 
and we have seen GAO reports with respect to the security of 
DoD computer systems, and the number of attempted unauthorized 
intrusions into those computer systems. Have you experienced 
this in Europe? To what extent do you think it is a serious 
concern for our country, and are we doing enough to prevent it?
    My worst fear, I am sure yours is also, is that somebody 
gets in, fools with our system, shuts down one aspect or 
another, and then we are in trouble.
    General Joulwan. It is a concern to us. We have looked at 
it in Europe. It has not, at least to my knowledge, yet become 
a serious problem in Europe. But as we go more and more to 
computers in what we are doing, it will continue to be of great 
concern to commanders. And we are very concerned about the 
security of not only computer systems, but all of our 
intelligence systems as well that deal with satellite feeds, et 
cetera. So we are looking at that very closely. But right now, 
I don't see it as a problem, not in my theater of operation.

                          FULL SPECTRUM FORCE

    Mr. Nethercutt. As I look at the map and listen to you talk 
about a full-spectrum force, you know, Africa looms largely.
    General Joulwan. Yes.
    Mr. Nethercutt. My memory is it was Secretary Christopher 
who talked about a U.S.-funded African peace force that would 
be undertaken by African forces.
    Do you see that as a possibility as we look to this full-
spectrum force that you speak of in your testimony?
    General Joulwan. Africa will be an economy of force, 
theater for the U.S. It will not be an area that we are going 
to be involved with a lot of resources or forces, but Africa 
will pose continuing problems that should be solved by Africa.
    How we can help, I think, is in what is called the African 
Crisis Response Force, which we have been talking about for 
some time. We have worked up a strategy in EUCOM to implement 
that, so we would be involved not in the actual deployment of 
the U.S. forces, but we would do so along with our allies. That 
is the great worth of NATO. We can leverage our allies here to 
help us, and we are trying to do that now, and that process is 
under way.
    I really don't have all the results back yet, but it is 
looking promising. And the fact that what we are doing now, 
airlifting some African forces into Liberia to try to stabilize 
that region, is a case in point that I think--of what are some 
of the possibilities of how we can assist, what those 
possibilities could be.
    Mr. Nethercutt. Well, as you look at our force in Europe 
and under your command, it has dwindled, it has been reduced. 
It seems to me it only makes sense to try to think about 
engaging these forces of other countries to take care of 
themselves----
    General Joulwan. Yes.
    Mr. Nethercutt. Rather than have us have to police it.
    But I thank you for your service, and I wish you the very 
best.
    General Joulwan. Thank you very much.
    Mr. Nethercutt. Mr. Chairman.
    Mr. Young. Mr. Visclosky.

                             MINE CLEARING

    Mr. Visclosky. Thank you, Mr. Chairman.
    General, in response to an earlier question by Mr. McDade, 
you had mentioned that you didn't think as much progress was 
being made in the last 6 months on mines and mine removal. Any 
particular reason?
    General Joulwan. First of all, the warring factions stopped 
doing what we wanted them to do, which was remove them. They 
know where they have; they are the maps, et cetera. So we had a 
drop-off in there. That is why we put a very heavy hand to say 
no training unless you go out and start clearing mines. And 
although we had some problems, as the weather gets better, that 
they will start doing that.
    The other is just the enormity of these minefields, and 
some of them are not marked and it is going to take a concerted 
effort.
    This Mine Awareness Center that we talk about is a step in 
the right direction. They are at least in the business now of 
not only cataloging where everything is but trying to get 
nongovernmental organizations, contract people, to come in, to 
try to clear some of these areas that are mined. But it is 
going to be years before we solve that problem.

                        RUSSIAN MILITARY FORCES

    Mr. Visclosky. You mentioned that the Russian troops that 
you have come into contact with in Bosnia were very well-
trained, highly motivated.
    General Joulwan. Yes.
    Mr. Visclosky. What about the Russian military in general? 
And where are they spending their money? What are their 
priority programs?
    General Joulwan. Well, it is a sadder story than that one. 
I am concerned about the deterioration of the Russian military 
because it creates instability and instability creates problems 
of its own. And we--you know, though it may, from a threat-
based standpoint, instability creates uncertainty.
    My concern is also with their conventional forces on the 
ground. They are not paying the troops. Some of their equipment 
is not being maintained. Their trucks and their tanks.
    Mr. Visclosky. They are not getting paid in some cases?
    General Joulwan. They are not getting paid, many, many of 
the forces are not getting paid. I have checked on the ones in 
Bosnia and they are getting paid a little bit better or more 
often, but they also have some problems.
    So we have to get through this period.
    When I deal with militaries of other nations, you have to 
treat them with respect. When they lose their respect, they 
become dangerous, and I am concerned about the respect now of 
the Russian forces. That is why I am trying to reach out with 
this liaison officer I have, with the brigade that we have from 
Russia, to build on that and give them their respect back. And 
the other area that is of concern to me is in the strategic 
nuclear area.
    There are still 20,000-plus nuclear warheads now in Russia. 
They have taken them out of the Ukraine and put them all in 
Russia. So the nuclear warheads are now being maintained by one 
nation: Russia.
    That is the good news. The other challenge is if there is 
instability within Russia: that causes me concern.
    So it is a very dangerous situation that we are facing.
    Mr. Visclosky. What programs are they placing a priority 
on?
    General Joulwan. I think primarily they are still 
maintaining their strategic nuclear forces and that is of great 
concern to us.
    Mr. Visclosky. General, thank you very much.
    Good luck.
    Thank you, Mr. Chairman.

                          BOSNIA EXIT STRATEGY

    Mr. Young. General, you have done just an outstanding job 
in responding to these penetrating questions that the Members 
have asked. Your answers have been very thought-provoking, but 
we haven't really explored another issue, and that is the exit 
strategy for departing in June of 1998. Is there a plan?
    Are we just going to pack everybody up on a given day and 
move them out? Or are we going to phase them out gradually?
    What is the plan for exiting?
    General Joulwan. I addressed that in the operations plan 
that I wrote, and there are some general conditions that we 
would like to see. They included, for example--at the top of 
the list no Spring offensive. And I am working this very hard. 
The cycle over the years is this when they come out of the 
Winter and you have a Spring offensive; so our objective is no 
Spring offensive and no hostilities. We have done that now. 
Last year, and so far this year, that is on track.
    As we go around to 18 months and in the Spring of 1998, I 
would hope that would also be a condition that would exist.
    The second has to deal with these civilian organizations 
that I talk about. I would hope that they would be much more 
established and up and operating as we get closer to June of 
1998.
    The third condition is that we would have elections, 
municipal elections, that would be held hopefully this year, 
and that those institutions, the national level, which were 
held in September, the state level or entity level, which were 
held in September and now this year, the municipal elections, 
that these political institutions would be in place and 
starting to work.
    Howver, having said that, even if they are not there, my 
instructions are to withdraw the force. And so I have to give 
6-month reviews to the North Atlantic Council. The first one is 
in June of this year, and I must report on the progress of 
where we stand, both in my estimation on the military side, as 
well as where we are in working with the civilian agencies.
    Much of that will determine the speed of--or the rate of 
withdrawal.
    But in the end, my instructions are now that the NATO-led 
force will be withdrawn by June of 1998, regardless of those 
conditions that I talked about for an end date.
    Mr. Young. I think one reason that we have this question 
about that date is we were given several different dates when 
U.S. forces would be out. And I remember Mr. Murtha was told 
emphatically that we would be out on December 20th of 1996, and 
he questioned that, and we questioned that. And he kept telling 
us, well, they told me December 20th, 1996, but here it is 1997 
and we are talking about a 1998 withdrawal.
    We understand that these things are not specific and you 
can't be too certain when you are dealing with a situation as 
volatile as this Bosnian operation has been, but how do you 
feel in your own mind that June of 1998 is a date we can 
accomplish?
    General Joulwan. I think if we really put the pressure and 
the organizational skill into the civilian organization, that 
much can be accomplished. I am not sure you need 30,000 NATO-
led forces. Now, perhaps some other organization or some other 
group is going to be needed there.
    I mean, it is not as if everything is going to go away. I 
think some other organization. But a NATO-led force I am not 
sure you need that after June of 1998, and those are my 
instructions.
    I am more interested in what I can do in the next 16 months 
to create the condition so we won't have a force there. That is 
why I have been so hard of the other agencies to get their act 
together, to get arms control moving, to get the 
reconstruction, the rehabilitation, the resettlement, the 
elections, all of those things moving.
    If we can do all of those--I don't think you need 30,000 
NATO-led forces there.
    Mr. Young. General, some of our allies have made the point 
that when the U.S. leaves, they are leaving. When we leave in 
June of 1998, if our allies leave, what kind of a force or--
outside of your civilian lay force, what is there to try to 
keep it all together?
    General Joulwan. Well, there are 30-some nations there. I 
think all of that has to be worked out with the international 
community. The U.N. perhaps needs to get involved. There are 
other organizations. OSCE is another organization. But do you 
need the sort of NATO-led force is what I am talking about, 
which is where the U.S. is involved, in there, forever?
    I have said that I don't think we should have an open-ended 
commitment in Bosnia, and I think that what we need to do is 
say how do we create the conditions now so that in June of 
1998, that another organization can take over from us? And that 
is what I am advocating.
    If you can't get the act together in 2.5 years, which is 
what we are talking about, then I am not sure that the act can 
be gotten together in 10 years.
    Mr. Young. General, you are very persuasive, and I am 
wondering if you have made this same point up the chain of 
command?
    General Joulwan. Absolutely.
    Mr. Young. Good. I am glad to hear that.
    General Joulwan. Absolutely, Mr. Chairman.
    Mr. Young. I have some other questions that I would like to 
submit becasue we are running out of time, and I would like to 
submit them in writing and ask that you respond.
    Mr. Cunningham wanted to claim about 20 seconds of his time 
back.
    Go ahead, Mr. Cunningham.

                       REMARKS OF MR. CUNNINGHAM

    Mr. Cunningham. General, I am not as optimistic and I am 
sure that you have a guarded position. I saw a presentation the 
other night on TV about Aldrich Ames and Russia under Gorbachev 
when they executed 20 of our CIA agents.
    They are selling arms and chemical and biological and 
nuclear rockets to many of our enemies. They are doing things, 
and I do not believe, in my heart, that Russia would be our 
ally if they were not in the economic straits that they are 
right now.
    I look at under the Ural mountains at what they are doing 
with their nuclear first strike, and they already have one. 
That is the size of inside the beltway.
    I look at, you know, Echo Class subs and I look at their 
general direction, and when you have got SU-27s better than our 
F-14s and F-15s you have A-10 missiles better than our AAMRAM 
or Advanced Medium Range Air-to-Air Missile and then you have 
typhoon subs with the new missiles that are coming out with a 
6,000-mile range, I just feel that they are not going back to 
where they were, but they are going to go full circle. And it 
just scares me when we get too deeply involved with those type 
of folks.
    When I was a lieutenant, I made a statement that we 
shouldn't give F-14s to Iran because the Shah wouldn't be there 
every day, and I was slapped about the head and shoulders by my 
boss, and told that I shouldn't say that. But I felt like Billy 
Mitchell when the Shah fell and we looked at those things.
    But, you know, you can take and put a man between a bulldog 
and a cat. You remove that man in Bosnia, I don't care how 
happy you made that cat or how happy you made that dog, they 
are going to kill each other, and there you have a bulldog, a 
cat and a mouse. And I just don't think there is any amount 
that we can get involved that is going to solve that long-term 
problem there.
    And I know that--I have got another theory that in June, 
you know, we come up for elections. The President does not want 
a disaster happening in that particular part of the world 
during elections, and I don't think there is any way that they 
are going to withdraw those troops.
    General Joulwan. Well, if I can respond to the Russian 
question first, I have another theory, and that is if you are 
unsure of someone or you have an enemy, get him very close to 
you so you can look right into his eye and what he is doing. 
And I think we have to get very close to the Russians during 
this transition period to see which way they are going to go 
and see if we can influence it. We may fail.
    Mr. Cunningham. I don't disagree with you.
    General Joulwan. But I think we need to find a way.
    If I could take 30 seconds here, Mr. Chairman?
    Mr. Cunningham. Please do, General.
    General Joulwan. I took Colonel General Shetzhov, who is my 
deputy 3-Star for Russian Forces in Bosnia. He came in October 
of 1995, and he said--he was a typical Russian. I said, ``What 
do you want to see in NATO?''
    He said, ``I want to see this combined air operation center 
in Vicenza.''
    I took him down there. I said to my troops, ``No secrets.''
    And he sat there and they put up screen after screen, that 
showed the air campaign, and he looked at me. And I said, 
``Turn the lights on.''
    And I said, ``Introduce yourself.'' This was spontaneous. 
And a Frenchman and a Brit and a Canadian and a Dutch all 
turned around and introduced themselves.
    He couldn't believe it.
    I said, ``Where do you want to go now?''
    He said, ``I want to see your ACE rapid reaction corps.'' 
This is headed by a British 3-Star in Germany.
    I said, ``Go on down there.'' And he looked at all of that. 
This was the corps that went to Bosnia and headed our effort in 
Bosnia.
    Then he came back. I said, ``Where do you want to go now?''
    He said, ``I want to go to your headquarters in Stuttgart, 
your U.S. headquarters.''
    I said, ``I won't even go with you.'' I sent him down there 
and he spent 3 or 4 days down there looking at everything we 
are doing.
    He came back and he had this long face, very quiet, and he 
said he has been lied to for 45 years. He said, what he saw was 
absolutely opposite what the Soviets thought our mission over 
here was, what we thought you were about. He said, your 
openness, I thought it was just you, but I saw it in every 
person I met in Stuttgart, they had the same openness.
    Now, this Russian Colonel General is giving speeches. He 
was the one that just went before the Duma. You saw it with 
Lenzhov, who is Nash's counterpart. He is also now giving 
positive views on his experiences.
    Now, this is a ripple that I hope will continue, but if we 
let them go into the modernization of their nuclear force, if 
we allow their military to go down the drain on the 
conventional side, and if we expect to have a confrontation 
then we will.
    I say that we can engage now and we can do it in a way that 
brings about this trust and confidence.
    I think it will pay dividends. Look, I know how to fight 
and if we have to, we have a decided advantage, and they know 
it. But now we can interact in a way that can bring about 
results. And that is what I am advocating here; not naive, not 
with rose-colored glasses. Because in the end if we are not 
successful they may go back to the old way of doing business. 
And I don't think that is--
    Mr. Cunningham. Did they offer to let you go anywhere that 
you wanted----
    General Joulwan. Pardon?
    Mr. Cunningham [continuing]. Like under the Ural mountains?
    General Joulwan. Well, we are getting there. I went out to 
see their airborne troops and I had to stand in minus 20 
degrees in low quarters, but we had a good session. We had a 
good session.
    I am sorry, Mr. Chairman.
    Mr. Young. General, I think that is an excellent statement 
to close this hearing on, but Mr. Dixon wants to ask you one 
more thing.

                      WEAPONS OF MASS DESTRUCTION

    Mr. Dixon. You know, one thing that we talked about, the 
SCUD problem and weapons of mass destruction, and one of the 
things that has worried me, both in the Middle East, and in 
Korea in particular, is this notion of whether one of our 
enemies would use chemical or biological weapons against 
airfields.
    General Joulwan. Yes.
    Mr. Dixon. Okay. And that much of our strategy depends upon 
being able to bring out massive amounts of tactical aircraft. I 
think General Peay told me that they have to bring out a 
thousand aircraft from the United States or other places, and 
move it all out there.
    Also, you have got to bring a lot of people from the United 
States. So while you talk about the benefit of being forward-
deployed, you still have to get personnel and aircraft into the 
actual place where you are going to do the fighting.
    Now, is this something that we should be concerned about? 
Do we need to rethink our strategy? In other words, are there 
other options that we need to think about?
    For example, with long-range bombers you don't necessarily 
have to be in theater. In other words, if you are going to get 
locked out, then you are going to need some other capability to 
come in and deal with the threat in the initial stages until 
you can actually deploy in theater.
    General Joulwan. I think you need a wide range of 
capability and I think not just at the action end but also at 
the deterrent end. And chemical and biological weapons are 
something that we are going to have to face here, I think, more 
and more.
    How do you not just react to it? How do you deter the use 
of chemical and biological weapons?
    Allies come into play here. Access to bases comes into 
play. Overflight of airspace comes into play. That is why 
maintaining alliances with allies, and now partners, is 
extremely important.
    But I would agree with you. I think we need the full range 
of capabilities to include at the higher end.
    Mr. Young. General, thank you very much. It has been an 
excellent hearing. Before we adjourn, I wanted to thank the 
Members for the excellent participation today. The attendance 
was outstanding.
    The Committee will meet at 1:30 this afternoon to hear from 
General John Sheehan, Commander in Chief of the U.S. Atlantic 
Command, and we will adjourn as soon as Mr. Lewis has 
completed.
    Mr. Lewis. Mr. Chairman, the General's closing commentary, 
to say the least, is impressive, but just yesterday we 
discussed the fact that General Shalikashvili is leaving us, 
General Joulwan. To say the least, people of this quality and 
depth, in this case, with joint European expertise and 
experience, raises major questions for the Committee's 
consideration. There are voids there that are very, very 
significant beyond just thanking you for your service. It is of 
concern.
    Mr. Young. One of the many signs of a good leader is to 
prepare someone to follow in your place, and I am sure that the 
General has been preparing for that eventuality, but you make a 
very good point, you are absolutely right.
    Mr. Lewis. Mr. Chairman, as you go about that, I presume 
that you have laid this foundation, but don't you think we all 
should think about the fact that John Plashal one of the 
committee staff is going to be leaving us, the person who puts 
together these hearings and spends 10 to 15 hours a day doing 
so.
    Mr. Young. He is an A-number one CODEL organizer, too.
    General, thank you very much, and God bless you. Wherever 
your future takes you, good luck.
    The Committee is adjourned.
    General Joulwan. Thank you very much, Mr. Chairman.
    [Clerk's note.--Questions submitted by Mr. Young and the 
answers thereto follow:]

                        Airborne Reconnaissance

    Question. With airborne reconnaissance assets providing important 
intelligence for the many low intensity operations in your command, 
please describe, with some specificity, your requirements for such 
systems for Bosnia or for smaller operations, such as those in Africa.
    Answer. USEUCOM has historically relied heavily on a varied mix of 
theater reconnaissance assets to support the numerous peacetime and 
contingency operations throughout Europe. Over the past two years 
reliance on intelligence surveillance and reconnaissance (ISR) has 
increased by orders of magnitude. In this theater ISR has become as 
important as ``bombs and bullets'' in carrying out the USEUCOM mission. 
------.
                                 ______
                                 

                  Cost of American Presence in Bosnia

    Question. I would like a full accounting of the cost associated 
with the American presence in the Bosnia. This accounting should 
include, but not be limited to, the following:
    (1) Operation of CV/CVNs as well as the accompanying battle groups 
(O&M costs, supply costs, etc.)
    (2) Cost (fuel, maintenance, diminution of useful life, etc.) of 
all tactical and non-tactical American aircraft operations over the 
Bosnian theater.
    (3) Food/supply drop operations and accompanying air cover.
    (4) Troops stationed in the region but outside of Bosnia to help 
maintain stability.
    (5) Any arms or other supplies given to the parties involved in the 
region.
    (6) Any personnel, training, or equipment costs.
    (7) Mine clearing, countermine operations costs.
    (8) Weapons systems/equipment lost during operations (to include, 
but not limited to Capt. O'Grady's F-16, vehicles lost to mines, and 
the Predator UAV)
    (9) Any relevant non-military costs such as housing, infrastructure 
repair, or so-called ``Nation-building'' activities.
    (10) Contractor logistics support.
    Answers listed by question above:
    (1, 2 and 4) Bosnia operations costs: The incremental costs of DoD 
participation in operations in and around the Former Yugoslavia, 
predominately Bosnia, are estimated to total $6.5 billion for fiscal 
year 1996 through fiscal year 1998 ($2.5 billion in fiscal year 1996, 
$2.5 billion in fiscal year 1997, $1.5 billion in fiscal year 1998) 
with an operational completion date of June 1998. These costs cover the 
preparation, deployment and sustainment of forces for the 
Implementation Force (IFOR), the Stabilization Force (SFOR) and the 
Deterrence Force (DFOR), as well as the costs associated with enforcing 
UN sanctions against Serbia and Montenegro, enforcement of the no-fly 
zone over Bosnia-Herzegovina, and support of other UN humanitarian/
observer related missions in the AOR.
    (3) Humanitarian operations costs: Incremental costs totaling 
$347.4 million in fiscal year 1995, $292.0 million in fiscal year 1994, 
$138.8 million in fiscal year 1993, and $5.8 million in fiscal year 
1992 were incurred by the DoD to support humanitarian related missions 
in, and aircraft operations over, the Former Yugoslavia.
    (5 and 6) Equipment, services and training costs: The President has 
authorized the drawdown of $100 million in DoD equipment and services 
to support the Bosnian Federation as part of the ``Equip and Train'' 
program. As of January 31, 1997 the total value of articles and 
services delivered was $78.65 million.
    (7) Mine clearing activities costs: Concerning mine clearing 
activities in Bosnia, the humanitarian demining program cost the 
Department approximately $1.3 million in fiscal year 1996.
    (8) Equipment replacement costs: We do not track costs of weapon 
systems/equipment lost during operations as they are inventory 
investment items whose replacement is considered during normal budget 
development.
    (9) Nation-building costs: We do not track costs associated with 
``Nation-building'' activities. This program falls under the Department 
of State.
    (10) Contractor Logistics Support: $390 million was provided for 
Bosnia in fiscal year 1996 based on nine months of support. An estimate 
of $386.9 million has been identified in the fiscal year 1997 
Supplemental for twelve months of support including the the phase down 
of the Stabilization Force (SFOR). However, OSD(C) has taken the lead 
to review the requirements with an emphasis towards minimizing 
expenses. If the review results in the identification of savings, the 
appropriate congressional committees will be notified by OSD(C).

                             NATO Expansion

    Question. The executive summary of the Secretary of Defense report 
on NATO Expansion states that the costs to the U.S. will be 
approximately $150 million to $200 million annually for a ten year 
period.
    What do these costs entail? Is it increased foreign aid to the new 
NATO member, military assistance, increased infrastructure costs?
    Answer. These costs are direct enlargement expenses, which are 
calculated on the assumption that NATO would reach ``initial 
capability'' for Article V defense of new members by 2001 and ``mature 
capability'' by 2009. ``Initial capability'' includes enhancements in 
command, control, communications, and intelligence (C3I), and 
reinforcement reception facilities, air command and control, and 
logistics (e.g., renovation of new members' headquarters to accommodate 
a NATO headquarters' elements, training in NATO languages and 
procedures, acquisition of an Air Sovereignty Operations Center (ASOC), 
and interoperable aircraft avionics). ``Mature capability'' includes 
additional direct enlargement enhancements (e.g., command and C3I 
improvements, weapons engagement capability added to each ASOC, 
exercise enhancements, and improvements to airfields, road and rail 
links, ports, etc.).
    Question. Which U.S. government agencies would bear the costs of 
NATO expansion? What share of costs would be borne by the Defense 
Department?
    Answer. U.S. funding sources will be the Department of Defense 
(Warsaw Initiative and Operations and Maintenance funding) and 
Department of State (Security Assistance funds, which include Foreign 
Military Financing, Foreign Military Sales, Excess Defense Articles, 
and International Military Educational Training). Approximately 40% of 
the costs will be borne by the Defense Department.
    Question. Secretary Albright was recently in Moscow with a proposal 
to reduce conventional weapons levels in Europe. What is the outlook of 
this plan?
    Answer. The plan has agreed to by all North Atlantic Treaty 
Organization (NATO) members. It was tabled by NATO to all signatories 
of the CFE Treaty in Vienna on 20 February 1997. Subsequently, on 7 
March 1997, the NATO proposal was rejected by Russia as a basis for 
negotiation. The negotiating group of the Joint Consultative Group in 
Vienna met on 11 March 1997 for formal responses to the Russian 
rejection. The chairman of the Joint Consultative Group will then draft 
a ``food-for-thought'' paper for the following week that will address 
areas that need to be worked out before the negotiating group begins 
actual negotiations on a draft document.
    Question. How significantly would it reduce U.S. arms based in 
Europe?
    Answer. The objective of all States Parties to the Treaty should be 
to achieve overall lower force levels in the area of application. We 
will pursue ways by which our equipment ceilings can be lowered, while 
preserving our ability to meet our defense requirements. We and the 
North Atlantic Treaty Organization are prepared to take significant 
steps in this regard. Specifically, the total of future aggregate 
national ceilings of ground Treaty Limited Equipment of the 16 members 
will be significantly less under the adapted Treaty than the current 
group ceiling.
    Question. Would it lower the size of our forces or would it involve 
withdrawing pre-positioned U.S. arms based in Europe?
    Answer. We are reviewing our current declared national maximum 
levels of holdings to assess whether they reflect current and likely 
future requirements. On the basis of that review, we will reach, 
through a transparent and cooperative process, final conclusions 
regarding the scope for reductions. The resulting national equipment 
ceilings would then be codified in the adapted treaty. This process and 
its outcome will fully respect and be compatible with relevant 
obligations under international agreements, in accordance with 
international law.
    Question. Has there been any discussion of the time frame for 
implementing such a plan if it was to proceed?
    Answer. Yes. Negotiations to adapt the Conventional Armed Forces in 
Europe Treaty began in February 1997. We estimate completion of these 
negotiations will occur in June 1999.

                         Bosnia--Policy Issues

    Question. The deployment of U.S. force to Bosnia continues, with 
the Administration plan now to keep our troops there as part of the 
international ``Stabilization Force'' (SFOR) until June 1998. The 
overall American troop presence has declined, from over 20,000 to about 
8,500. When our forces deployed to Bosnia in late 1995, we were told 
repeatedly that our troops would stay until ``the military tasks 
associated with implementation of the Dayton agreement were completed'' 
with all troops to be withdrawn after one year--by December 1996. Even 
though it seems this original military mission has been fulfilled, the 
policy has changed and we are now committed to Bosnia for an additional 
18 months.
    Are U.S. troops involved in any so-called ``nation building 
activities (repairing houses/infrastructure, etc)?
    Answer. U.S. forces have, to the extent that it supports primary 
military tasks (i.e., freedom of movement), engaged in limited 
infrastructure improvement projects, including road, bridge and rail 
repair, runway improvements, and restoration of power and potable water 
systems. These projects are required to support our troops.
    Question. Are there any plans to involve U.S. or allied forces in 
the seizure or prosecution of indicted war criminals?
    Answer. It is the responsibility of the parties in Bosnia to bring 
indicted war criminals to justice. Stabilization Force (SFOR) forces 
will not actively hunt indicted war criminals, however, if an indicted 
war criminal is encountered during the conduct of operations, they will 
be detained if safe to do so.

                          Bosnia Exit Strategy

    Question. When we sent troops to Bosnia, many in Congress asked 
whether there was an ``exit strategy.'' Your predecessor and other 
senior administration officials basically said we didn't need an exit 
strategy because the President had established a date certain for the 
withdrawal of troops December 1996. That date has now been extended to 
June of 1998. And to all appearances, there is still no ``exit 
strategy'' to ensure our Bosnia deployment will not remain open-ended.
    Most observers believe there will have to be some type of 
international force in Bosnia for several years. Yet the position of 
our European allies appears to be that when the U.S. leaves Bosnia, 
they will withdraw their forces as well. What is the likelihood of any 
major international force being in Bosnia should the U.S. remove its 
troops?
    Answer. The United States has taken the lead where others failed in 
bringing peace to Bosnia. As there has been much progress towards 
achieving a lasting peace, the withdrawal of U.S. ground forces will 
end in mid-1998. This Secretary of Defense has emphatically stated this 
and I have received no contrary guidance.
    However, there may be a requirement for continued international 
peackeeping presence. At that juncture, I believe European security 
organizations such as the WEU or OSCE should be responsible for 
continued progress.
    Question. Given all these problems, would you care to hazard a 
guess as the probability that we will, in fact, withdraw from Bosnia by 
the middle of next year?
    Answer. During the past 15 months since the signing of the Dayton 
Agreement, much has happened. If we remain proactive in addressing the 
challenges that lie ahead in achieving a lasting peace, I am confident 
that the conditions will be right for a complete withdrawal of U.S. 
forces from the country by mid-1998. Furthermore, the Secretary of 
Defense has unequivocally stated that U.S. forces will not be extended 
past the mid-1998 timeline.
    The remaining challenges include:
    <bullet> Complete the transition to a fully functioning state 
through the successful completion of municipal elections and the 
subsequent transition to effective local government. At the same time, 
national-level governing institutions must be put in place.
    <bullet> Repatriation of refugees and displaced persons to Bosnia.
    <bullet> Peaceful implementation of the Brcko arbitration decision.
    <bullet> Regional stabilization through arms control regimes are 
well-underway. In any case, it is the responsibility of the parties in 
Bosnia to cooperate in the effort to achieve lasting peace. Mid-1998 is 
about right for ensuring the civil implementation process has 
progressed to the point where the parties can assume responsibility for 
maintaining order in Bosnia.

                             Troop Strength

    Question. U.S. forces in Bosnia have scaled back from 25,000 to 
8,500. What is the level of ``firepower'' our forces have in Bosnia 
now, compared to when we were at 25,000?
    Answer. We have proportionately less firepower in Bosnia now than 
when the Implementation Force (IFOR) was at full strength. However, the 
security situation in Bosnia is now markedly different than during the 
IFOR mission. The Former Warring Factions (FWF) combat capability has 
significantly decreased, and is not nearly the threat to our forces as 
it was previously. Because of this, our combat power remains 
significantly superior under the current circumstances, and our ability 
to deter large-scale fighting remains high.
    Question. Do you have any fear that the size of the U.S. force in 
Bosnia may have been scaled back to a point that any units cannot 
adequately defend themselves?
    Answer. A commander always worries about protection of his forces, 
and force protection is my number one priority in Bosnia, however, I 
feel that the combat power now in Bosnia provides Stabilization Force 
(SFOR) forces with more than adequate capability to defend themselves 
against the threat from hostile military forces. To counter the threat 
from rogue elements and terrorists, I have taken precautions to 
maximize troop protection (patrols traveling with minimum of 4 
vehicles, focused intelligence gathering mechanisms, etc.). I also have 
a robust theater and strategic reserve force that can be employed 
quickly to ensure large-scale force protection.
    Question. How will the role of day-to-day tactics of our troops in 
Bosnia change in light of the significant scale back of our troops?
    Answer. The Stabilization Force (SFOR) is focused on stabilizing 
the peace, and ensuring a secure environment exists to allow the civil 
implementation process to proceed. In light of a smaller, yet robust 
force presence, SFOR is engaged more in patrolling hot-spots than 
providing country-wide presence. This is possible because the threat of 
large-scale military mobilization of the Former Warring Factions is 
diminished.
    Question. What is the level of non-U.S. troops--British, French, 
etc. currently deployed in Bosnia?
    Answer. The approximate size of the Stabilization Force (SFOR) is 
31,000 troops from NATO and non-NATO troop contributing nations. Our 
allies and non-NATO contributions total approximately 22,500 troops.
    Question. Have our allies deployed in Bosnia scaled their military 
presence back in that country at roughly the same percentage as the 
U.S.?
    Answer. In transitioning from the Implementation Force (IFOR) to 
the Stabilization Force (SFOR), our allies scaled back their 
contributions at roughly proportionate levels.

                  Bosnia Contractor Logistics Support

    Question. To date, Congress has provided over $3 billion for 
operations in Bosnia. This amount presumed a deployment of one year, 
ending in December 1996. As a result of the Bosnia mission extension, 
there is now a requirement for an additional $3.4 billion--a fiscal 
year 1997 supplemental of nearly $2 billion, and $1.5 billion in your 
fiscal year 1998 budget. Should these estimates hold, the total cost of 
the Bosnia deployment would be $6.5 billion.
    In reviewing the supplemental request, the Committee is concerned 
about several costs which appear excessive. Your supplemental request 
includes $390 million for contractor logistics support for the Army. 
This is the same amount provided in the last fiscal year (fiscal year 
1996). Yet the number of deployed troops has declined by more than 50 
percent. Why are logistics support costs so high?
    Answer. The estimate of $386.9 million identified in the fiscal 
year 1997 Supplemental covers twelve months of Logistic Civilian 
Augmentation Program (LOGCAP) support compared to the nine months of 
operation in fiscal year 1996. The fiscal year 1997 estimate is based 
on our actual experience in fiscal year 1996 when 15 base camps were 
supported. IFOR operations remained at full strength at the 15 base 
camps through the first quarter of fiscal year 1997 when the phase down 
of the Stabilization Force (SFOR) began, with attendant support at 
eleven camps. These operational considerations resulted in the LOGCAP 
estimate of $386.9 million for fiscal year 1997 for twelve months of 
support. However, Office of the Secretary of Defense-Comptroller 
(OSD(C)) has taken the lead to review the requirements with an emphasis 
towards minimizing expenses. If the review results in the 
identification of savings, the appropriate congressional committees 
will be notified.
    Question. The Air Force's projected flying hours appear excessive, 
assuming a high OPTEMPO for F-15 and F-16 fighters. Given that 
hostilities have ended, why are you asking for flying hours that appear 
to assume that sanctions and a ``no-fly zone'' are still in effect?
    Answer. Significant reductions in U.S. contributions to the air 
component forces have already been executed over the past several years 
as Operation DENY FLIGHT transitioned to Operation DECISIVE EDGE and 
now Operation DELIBERATE GUARD. Further reductions are considered 
imprudent based upon the situation in Bosnia-Herzegovina.
    Although the situation in Bosnia-Herzegovina is relatively stable, 
tensions are high in some areas and have the potential to escalate to 
violence in the months ahead:
    <bullet> Brcko remains tense during the ongoing arbitration with 
all three factions raising the specter of violence if the arbitration 
results are unsatisfactory.
    <bullet> Historically, the Spring and Summer months have seen an 
increase in military activity by the Former Warring Factions. 
Resettlement issues are contentious in a variety of locations.
    <bullet> The situation could deteriorate in association with the 
upcoming Municipal Elections which may dominate the political scene in 
the Summer and early Autumn months.
    <bullet> Increased involvement by the international community in 
apprehending accused war criminals has the potential for increased 
threat to ground forces.
    To deter potential threats, NATO has established the Air Power 
requirements to support Stabilization Force (SFOR) operations. The U.S. 
provided assets in support of the Statement of Requirements Nine (SOR 
9). The current force has the capability to conduct precision 
airstrikes against multiple targets, provide air presence around the 
clock and meet the most demanding SFOR ground scenario, simultaneous 
close air support in two locations with a four hour time on station 
capability. Any cut or change in U.S. force mix will result in loss of 
both airpower capability and flexibility.
    Though the number of troops on the ground has decreased, the 
requirements to maintain force protection from the air by U.S. aircraft 
has not decreased. The current mix of aircraft provides the required 
capabilities while maintaining a reasonable operations and personnel 
tempo. The air assets, as currently deployed, are the minimum required 
capability and force mix to provide adequate force protection.
    Question. The fiscal year 1998 budget requests $1.5 billion for 
Bosnia. What are the assumptions behind this number (number of troops, 
duration of deployment, any residual costs following a pullout, etc.)?
    Answer. The fiscal year 1998 estimate of $1.5 billion for 
operations in Bosnia is based on the extension of operations through 
June 1998.
    The request will support approximately 8,500 troops with the 
ongoing task of monitoring compliance with the Dayton Accord. NATO has 
agreed to review the mission at the 6 and 12 month marks with the 
intent of reducing force levels to a deterrence sized force at an 
unspecified date commensurate with the security situation in the 
country to facilitate NATO's departure from Bosnia in June 1998.

                       Mine Threat to U.S. Troops

    Question. How many mines have been removed or neutralized thus far?
    Answer. Reports from the Mine Action Center in Zagreb indicate that 
approximately ten thousand of the one to three million mines in Bosnia-
Herzegovina have been removed by indigenous and United Nations forces. 
Of the known minefields, the percentage of mines removed or neutralized 
varies from zero percent to ninety-nine percent. The magnitude of the 
problem is best illustrated by a contractor working for the State 
Department in Bosnia-Herzegovina who estimates that it would take a 
team of one thousand mine-clearers at least thirty-three years to 
completely demine Bosnia-Herzegovina.
    Question. Are you encountering any problems in detecting and 
removing non-metallic mines?
    Answer. Yes, both detecting, with our present detection 
capabilities, and removing, due to the anti-handling devices, can 
create quite a challenge. The plastic mines are impervious to water and 
therefore float or sink but do not deteriorate. Previous war debris and 
the metallic content of the soil make conventional detection with hand 
held mine detectors extremely difficult. However, means of detection 
are improving. Thirty-one teams of dogs will be in Bosnia-Herzegovina 
sometime in April, 1997. These animals are extremely effective at 
picking up the scent of the explosive materials used in landmines. 
Also, new mini-flails which are remotely controlled, small robotic 
systems similar to the flails employed on the front of the M1 Abrams 
Tank, are in place. Training in the employment of these new systems 
started during the first week of March, 1997.
    Question. What, if any, is the role of U.S. troops in the removal 
of land mines?
    Answer. Advisory only, U.S. troops are not authorized to remove any 
mines with the exception of those found inside their operational areas. 
The mines in our operational areas are destroyed in place with 
explosives, never deactivated by hand or moved. Mine awareness classes 
and training on equipment usage is the extent of U.S. troop 
participation with demining. Recently, U.S. Special Forces trained 188 
local nationals using ``train the trainer'' style instruction, on these 
topics. In addition, the State Department is training approximately 180 
local nationals on mine awareness, equipment usage and mine clearing, 
again using ``train the trainer'' type instruction.

                  Role of Guard and Reserve in Bosnia

    Question. Are there any Military Occupational Specialities (MOSs) 
which are exclusively in the Guard and Reserve which, from your 
perspective, should be included in the active force?
    Answer. Reserve Component forces provide essential augmentation 
that allows, U.S. EUROPEAN COMMAND to sustain its current Operational 
Tempo (OPTEMPO). While many of our High-Demand-Low-Density (HDLD) units 
reside in the Reserve Component, there are not specialties (MOSs) 
exclusively in the Guard or Reserve that are not also in the active 
force.

                Progress of Civilian Programs in Bosnia

    Question. Making progress in the various civilian assistance 
programs in Bosnia is the key to the longer term success in Bosnia.
    In the case of refugee resettlement:
    <bullet> How many refugees and displaced persons remained to be 
resettled in Bosnia?
    <bullet> How long do you project it will take to resettle them?
    <bullet> What are the major impediments to their resettlement?
    Answer. Only about 260,000 of the estimated 2 million refugees and 
displaced persons displaced by the four year war have returned to their 
homes, leaving nearly 1.75 million people in refugee or displaced 
persons status. It is difficult to predict the time it will take to 
repatriate those persons still in refugee/displaced persons status 
because of the continuing impediments to their return. Impediments to 
the repatriation process include:
    <bullet> Continued lack of political will by all the parties to 
facilitate the return of refugees and displaced persons.
    <bullet> Ethnic tension, particularly along the inter-entity 
boundary, is resulting in confrontations between ethnic groups, thus 
slowing the return process.
    <bullet> The combination of the aforementioned impediments, coupled 
with lack of progress in the country-wide demining campaign, is 
hampering freedom of movement for the civilian population, thus causing 
another significant impediment to resettlement.
    Question. In the case of reconstruction, what progress is being 
made in economic growth and rebuilding the infrastructure?
    Answer. Reconstruction progress was slowed in 1996 by the lack of a 
functioning central government, inter-entity political differences, 
insufficient coordination, a late start, and failure of donor nations 
to provide previously promised pledges. That aside, there has been 
significant progress in terms of where Bosnia stood at the end of the 
war. Specifically:
    <bullet> Over 60% of the population now has electricity, up from 
10% in 1995.
    <bullet> Over 90% of the population has potable water, however 
sewage systems remain weak.
    <bullet> About 80% of pre-war telecommunications systems have been 
restored, but there is still no general inter-entity telecommunications 
link.
    <bullet> Industrial production is up 110% from 1995 levels.
    <bullet> Employment is up 30% from last year.
    <bullet> Wages are up 408%.
    Question. In the case of War Criminals, how many have been indicted 
and arrested? What is the outlook for future indictments and arrest?
    Answer. It is the responsibility of the International Criminal 
Tribunal for Yugoslavia and the parties to the Dayton Agreement to 
monitor, indict, and arrest suspected war criminals. The Stabilization 
Force (SFOR) has no mandate to hunt down and arrest indicted persons 
suspected of war crimes, however, the SFOR will DETAIN indicted war 
crimes suspects if they come in contact with them in the course of 
their normal duties, and if the situation permits. Given the data that 
I hold, there are 73 persons presently indicted for war crimes. Of 
those 73 persons, 52 are ethnic Serbs, 18 are ethnic Croats, and 3 are 
Bosnian Muslims. To date, only 6 are in Tribunal custody, 1 is in the 
national custody, and only 1 person has been convicted of war crimes. 
The future success of the International tribunal in bringing indicted 
war crimes suspects to justice is the parties' responsibility, and the 
degree of cooperation and vigor of the international community in 
apprehending and extraditing indicted persons who have fled Bosnia.
    Question. How confident are you that significant progress will be 
made in these non-military programs in the next eighteen months?
    Answer. Bosnia is still a dangerous place and the peace process 
remains fragile and can be undone unless all remain vigilant. However, 
in looking back over the past 15 months since the signing of the peace 
agreement, we have made much progress. Nevertheless, much remains to be 
done, and I am convinced the professionals of the Stabilization Force 
(SFOR) will make a significant contribution in meeting the challenges 
that lie ahead.
    Key to the success of the civil implementation effort is the early 
development and implementation of the civil action plan. SFOR is 
working closely with the office of the High Representative to provide 
planning and other assistance within our capabilities. The same rigor 
and discipline is needed with other implementation agencies to give 
civil implementation the chance for success. Indeed, the SFOR can 
achieve all its tasks and the overall mission can fail if the civilian 
agencies do not fulfill their objectives of reconciliation, 
resettlement, reconstruction economic development, and restoration of 
political institutions and law and order. Eighteen months will go by 
quickly and immediate action is now required to move civil 
implementations projects forward.

                         Arms Control in Bosnia

    Question. What is the status of the implementation of the arms 
control agreement in Bosnia?
    Answer. Implementation of the Article II Agreement is proceeding 
satisfactorily, article IV implementation, although many armaments have 
been destroyed, still has problems to be resolved, primarily with the 
Republika Srpska.
    The Article II Agreement (Confidence and Security-Building Measures 
in Bosnia-Herzegovina) was signed 26 January 1996 in Vienna between the 
Republic of Bosnia-Herzegovina, the Federation of Bosnia-Herzegovina, 
and the Republika Srpska. It is deemed as successful. Satisfactory 
progress has been reported on inspections, military liaison missions, 
and information exchanges.
    The Article IV Agreement (Measures for Sub-Regional Arms Control) 
was signed 14 June 1996 in Florence between the Article II signatories, 
Croatia, and Yugoslavia. It is deemed a qualified success. The Parties 
have destroyed almost ------.
    Question. What is the role of the Stabilization Force (SFOR) in 
monitoring compliance with the arms control agreement?
    Answer. SFOR monitors implementation of the arms control agreements 
as only a part of the overall evaluation of the Former Warring Factions 
(FWF) compliance with the General Framework Agreement for Peace in 
Bosnia-Herzegovina.
    The Organization for Security and Cooperation in Europe (OSCE) was 
given the arms reduction mandate. This is not an SFOR responsibility. 
SFOR enforcement of the arms control agreement could degrade the 
perception of evenhandedness. ------.
    Question. Various heavy arms have been pulled back to cantonment 
areas. What, if any control does the Stabilization Force (SFOR) have 
over these cantonment areas? What will happen to these arms when SFOR 
leaves?
    Answer. The cantonment areas are under the operational control of 
the Parties within Bosnia-Herzegovina. SFOR has the right and is 
authorized to compel the removal, withdrawal, or relocation of specific 
forces and weapons from, and to order the cessation of any activities 
in, any location in Bosnia and Herzegovina whenever the SFOR determines 
such forces, weapons or activities to constitute a threat or potential 
threat to either the SFOR or its mission, or to another Party. There is 
cooperation between SFOR and the Organization for Security and 
Cooperation in Europe (OSCE), in that SFOR provides cantonment 
inspection data to the OSCE.
    After SFOR leaves, the arms will remain under the operational 
control of the appropriate Party subject to the provisions of the 
Article II Agreement, Confidence and Security-Building Measures in 
Bosnia-Herzegovina signed 26 January 1996 in Vienna and the Article IV 
Agreement, Measures for Sub-Regional Arms Control, signed 14 June 1996 
in Florence.

                   Condition of the Russian Military

    Question. What programs have the highest priority within Russia's 
defense budget?
    Answer. ------.
    Question. How prevalent are desertions?
    Answer. ------.
    Question. What is your assessment of the outlook for Russia's 
military during the next five years or so?
    Answer. ------.
    <bullet> Unless pay and living conditions are improved 
significantly and a career in the military becomes much more 
attractive, the quality of the personnel making up the force probably 
will not notably improve and Rodionov's objectives will be difficult to 
achieve.
    <bullet> A lack of leadership commitment and inadequate funding 
make the likelihood of successful military reform poor for the near 
term (3 to 5 years) and only slightly improved for the mid-term (5 to 
10 years).

                        Cooperation With Russia

    Question. Russian Troops are currently deployed in Bosnia and 
conducting operations with U.S. and Allied forces.
    How is it working out?
    Answer. One of the great accomplishments in the peacekeeping 
operation in Bosnia is the successful partnership between NATO and 
Russian forces. NATO and Russian forces have operated shoulder to 
shoulder in an extremely difficult area of responsibility executing a 
common mission with common rules of engagement under my command. An 
effective command and control arrangement was created to accommodate 
Russia in this NATO-led operation. A three star Russian general has 
been assigned to my headquarters in Belgium since Oct. 15, 1995 and 
acts as my deputy for Russian forces. This arrangement has led to 
unprecedented consultations (over 80 meetings) between NATO and Russian 
military officials, expanded communications, and broadened mutual 
understanding at the strategic military level. The Russian Brigade has 
performed in an exceptional manner, both independently and in 
coordinated action with U.S. forces since their deployment to Bosnia in 
January 1996. Moreover, we are now taking steps together in Bosnia to 
deepen tactical interoperability by conducting joint missions, joint 
all arms training, and expanding liaison staffs. This successful 
military NATO-Russia partnership is a historic breakthrough that has 
the potential to establish a new foundation for institutionalizing a 
new era in NATO-Russia military cooperation.
    Question. Give us your perspective on the overall future of U.S./
Russian military cooperation.
    Answer. The long-term prospects for U.S.-Russian military 
cooperation are good providing that Russia remains on its current 
reform course. Our ability to conduct combined operations within Bosnia 
underscores the potential successes we can achieve when we work towards 
a common objective.
    In the near-term, Russian preoccupation with NATO enlargement 
issues will cause it to be selective in the types of peacetime military 
engagement activities in which it chooses to participate with us. 
Additionally, a projected reorganization of the Russian military, to 
more adequately address the realities of post-Cold War geopolitics and 
coupled with pressing budgetary constraints, will undoubtedly impact 
its ability to engage us on matters of military cooperation on other 
than a moderate scale.

                     Quality of Military Personnel

    Question. General Joulwan, have you noticed any deterioration in 
the quality of the new troops entering your theater?
    Answer. The quality and motivation of our recruits remains high. 
Negative quality indicators, such as involuntary separations, courts 
martial, and Articles 15 have shown no negative trends.
    Question. What about their physical condition?
    Answer. USEUCOM forces are in excellent shape and our components 
continue to maintain the high state of wellness that is critical to 
supporting our readiness posture and high operations tempo. The recent 
emphasis of the Military Health Services System in focusing on 
promoting healthy life-styles is helping our forces sustain top 
physical condition.
    Question. Are the new troops as mentally disciplined as those in 
prior years?
    Answer. I know of no data to suggest that the troops of today are 
any less mentally disciplined than those of prior years. On the 
contrary, given the current high operations tempo, increased rate of 
deployments, and missions other than war, and the requirement to master 
highly sophisticated equipment, our current cadre of troops 
consistently demonstrates exceptional mental discipline. Our people are 
being asked to leave their families more often and for longer periods 
of time, not to fight a ``cold war enemy,'' but rather to assist in 
major humanitarian peacekeeping/nation building efforts. In many 
respects fulfilling this type of mission requires even more mental 
discipline because the mission role is less clearly defined. Given the 
success of our troops in meeting this daunting task, the mental 
discipline of our new troops is excellent.
    Question. Have you found that the new troops have more ``emotional 
baggage,'' i.e., personal problems, than those in the past?
    Answer. No, I have not. In many respects, the troops of today have 
less emotional baggage than those of the past. For example, the drug 
abuse rate in Europe has dropped substantially since 1986 (1986 rate/
1000 was 8.58, 1996 rate/1000 is 1.4). The other components show 
similar progress. However, warning signs have begun to appear. For 
instance, the Army recently had to adjust recruiting standards in light 
of manpower shortfalls. As a result, we anticipate that 10% rather than 
5% of new Army recruits will enter without a high school diploma. 
Although diplomas do not guarantee emotional stability, we recognize 
that cognitive abilities are positively correlated with successful 
stress management capabilities. Each of the Services must work to 
attract future members from this smaller pool and, therefore, face 
greater risks for ``emotional baggage.''
    Question. How is the morale of your troops in Bosnia and elsewhere 
within the European theater?
    Answer. Morale within Bosnia and throughout the United States 
Forces in Europe remains positive. Our soldiers, sailors, airmen and 
Marines know their presence and their mission is critically important 
to our national interests. The morale of our troops are continually 
assessed through aggressive unit climate assessment programs. The 
process entails both a qualitative and quantitative assessment of 
various factors which positively or negatively impact morale with the 
European command. The assessments are conducted on a routine basis.
    Leadership continues to make strides towards improving quality of 
life in theater, and particularly for deployed personnel. For example, 
at Tent City, located at Aviano Airbase, Italy, six additional morale 
phones were added. This made it much easier for residents to keep in 
touch with their ``home bases.'' They also added modern aerobics 
equipment, a reading room, weekly Bible study classes, and erected a 
``fest'' (recreational) tent for members. These initiatives have 
provided outlets for members to spend time relaxing, getting/staying 
fit, and fulfilling spiritual needs.

                          Military Health Care

    Question. In visiting various stateside bases, members of the 
Committee have been hearing complaints about medical care and dental 
plans. How satisfied are troops and dependents in your command with the 
medical care and dental care for themselves and their dependents?
    Answer. Active duty and family member satisfaction has increased 
significantly in the last three years with the introduction of the 
CHAMPUS Demonstration Project (which eliminated deductibles and cost-
shares for family members who needed health care from host-nation 
sources) and the TRICARE Europe Prime benefit--which preserved the 
elimination of cost-sharing for all TRICARE Prime enrollees. Further, 
access to dental care for family members has improved significantly 
with the addition of more than 60 dentists in this theater specifically 
for the purpose of seeing family members.
    In circumstances in which active duty and family members are 
required to use host-nation care, bilingual patient liaisons are 
available at virtually all of our hospitals and clinics to facilitate 
interaction between the patient and the host-nation providers and 
staff. While this program goes a long way to improving satisfaction, it 
does not always make the medical experience similar to that in a U.S. 
facility. However, feedback from those receiving care in host nation 
facilities, as from military treatment facilities, has been 
overwhelmingly positive.
    There are aspects of both programs that require further attention. 
First, greater support and outreach to geographically isolated 
communities without a nearby US military medical facility is required. 
While these communities clearly benefit from the TRICARE Europe Prime 
cost structure, they do not enjoy an increased access to dental care 
unless they travel to a U.S. facility. Second, continued support for 
the infrastructure improvements in communication systems and telephone 
lines will increase their satisfaction with access.
    Question. What are the major shortcomings of the medical care in 
your command?
    Answer. USEUCOM Component medical services have no MAJOR 
shortcomings to identify. Each Component Surgeon has identified areas 
for improvement, but in general all health services required to support 
active duty personnel and their family members is available.
    In addition, as TRICARE-Europe implementation continues, more host 
nation medical services will be available to U.S. personnel and their 
families in the communities where they reside.
    Question. How many U.S. military operated hospitals are there in 
the European Command?
    Answer. There are a total of NINE U.S. military hospitals with 
inpatient capabilities:
    Air Force: Bitburg (Germany), Lakeheath (United Kingdom) and 
Incirlik (Turkey).
    Army: Heidelberg (Germany), Wuerzberg (Germany), Wuerzbergy 
(Germany) and Landstuhl (Germany).
    Navy: Rota (Spain), Naples (Italy) and Sigonella (Italy).

                   EUCOM Priorities and Deficiencies

    Question. What weapon systems currently funded in procurement and 
R&D are the highest priority from USEUCOM's perspective?
    Answer. Generally, I wouldn't place priorities on specific weapons 
systems, I leave the specifics of procurement to the Service Chiefs. I 
concern myself with the capabilities I require to carry out my mission. 
I identify my requirements in my Theater Integrated Priority List (IPL) 
to the Secretary of Defense and The Military Services for inclusion in 
their Program Objective Memoranda (POM).
    Modernization programs promise to bring important enhancements to 
our operational capability. The C-17 was a critical element of our 
rapid Implementation Forcer (IFOR) deployment and it demonstrated its 
ability to operate in a difficult environment. Future development of 
Strategic Sealift capability such as roll-on/roll-off ships and Joint 
Logistics Over The Shores (JLOTS) are key to movement of forces into 
any area in the USEUCOM Area of Responsibility (AOR) JSTARS has also 
provided an important intelligence capability and proven itself highly 
adaptable to the IFOR requirements. The Precision Guided Munitions we 
employed in Operation DELIBERATE FORCE allowed us to accurately target 
key nodes with minimal collateral damage. This led directly to the 
Dayton Peace Talks. We must also continue to pursue Theater Missile 
Defense (TMD) collaborative development efforts through systems such as 
Theater High Altitude Air Defense (THAAD) System and Medium Extended 
Air Defense Systems (MEADS). These programs will provide the capability 
to counter what is emerging as one of the significant threats to 
American interests.
    Question. Have EUCOM's interests been adequately met in the fiscal 
year 1998 budget request?
    Answer. Yes. I have several opportunities to influence the 
development of the Department of Defense budget. I identify my 
Integrated Priority List (IPL) to the Secretary of Defense and The 
Military Services for inclusion in their Program Objective memoranda 
(POM), I provide direct input to the Defense Planning Guidance, I 
review the Service POMs, and I participate in the Program Budget 
Decision process. I also can address budget issues through the 
developing Joint Requirements Oversight Council (JROC) and its 
influence on the Chairman's Program Assessment and the Chairman's 
Program Review.
    In summary, thanks to the support of Congress through the 
Goldwater-Nichols Act, I have ample opportunity to weigh-in with my 
requirements throughout the planning, programming and budgeting cycle. 
Furthermore legislative hearings such as these provide another path to 
ensure my requirements are given due consideration.
    Question. Do you have any shortfalls in training, equipment, and 
maintenance?
    Answer. The President's budget is sufficient for USEUCOM's 
requirements. But there are some issues I would like to highlight.
    Above all, we must fully funds training readiness. I believe in 
making the scrimmage tougher then the game. The success of the military 
operation in Bosnia illustrates the success of past readiness training. 
Congress has understood this and made appropriations accordingly. But, 
as last year, the timing of Supplemental Appropriation reimbursement is 
critical. Without timely passage of the Supplemental Appropriation that 
is before Congress, USEUCOM forces may not be able to continue training 
after June 97. The bottom line is we really require the Supplemental 
Appropriation by April 97 to prevent disruptions of services and 
training.
    We can also apply additional money against readiness and Quality of 
Life projects such as Military Construction, Real Property Maintenance, 
Military Family Housing, Unaccompanied Personnel Housing, and Quarters 
Furnishings. As a case in point, the appended table quantifies the 
extent of our fiscal year 1997 funding shortfalls in repair, 
maintenance, and new construction for the Theater's facilities.

                           FISCAL YEAR 1998 THEATER INFRASTRUCTURE ACCOUNT SHORTFALLS
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                  Army         Navy      Air Force      Total
----------------------------------------------------------------------------------------------------------------
Military construction.......................................           82            0           40          122
Real property maintenance...................................          334            6           91          431
Military family housing (MFH):
    Construction............................................           16            0            8           24
    Maintenance and repairs.................................           30            0           14           44
      Total.................................................          462            6          153          621
----------------------------------------------------------------------------------------------------------------

                                 Africa

    Question. Most of the continent of Africa is in your commands' Area 
of Responsibility (AOR). How many deployments have you had to this 
region in the past year, and, for the record, what were the size of 
those deployments?
    Answer. As of 27 February 1997, USEUCOM has had ten (10) 
operational deployments into Africa since January 1996, these include: 
Operational Assured Response, Operation Quick Response, USEUCOM Survey 
and Assessment Team (ESAT) to Burundi, ESAT to the Central African 
Republic (CAR), Operation Guardian Assistance, Military Liaison Office-
Liberia, Operation Assured Lift, African Crisis Response Force (ACRF) 
Pilot Team's deployments to Ethiopia, Uganda, and Senegal, and the 
deployment of a Military Representative to CAR.
    Operation Assured Response, from 9 Apr--3 Aug 96, was conducted to 
evacuate 485 American citizens and 1,959 other noncombatants from 
Monrovia, Liberia, following an outbreak of fractional fighting in 
Monrovia. There were 4,533 U.S. military personnel, 20 U.S. military 
aircraft, and 5 U.S. Navy ships deployed over the course of the 
operation to Liberia to support this operation.
    Operation Quick Response, from 20 May--1 Aug 96, was conducted to 
evacuate 208 American citizens and 240 other noncombatants from Bangui, 
Central African Republic, as a result of internal unrest. There were 32 
U.S. military personnel and 2 U.S. military aircraft deployed to 
support this operation.
    Burundi USEUCOM Survey and Assessment Team (ESAT), ------.
    Central African Republic (CAR) USEUCOM Survey and Assessment Team 
(ESAT), ------.
    Military Liaison Office-Liberia, ------.
    Also, they are to monitor delivery, maintenance, and accountability 
of U.S. equipment, being provided to ECOMOG through Presidential 
drawdown authority. This deployment is expected to last 179 days. It 
began with four personnel and has downsized to two.
    Operation Guardian Assistance, from 13 Nov--27 Dec 96, was 
conducted to facilitate humanitarian aid/voluntary repatriation of 
refugees in Zaire. Approximately ------ were deployed to Entebbe, 
Uganda and Kigali, Rwanda in support of this operation. Over 600,000 
refugees were repatriated from Eastern Zaire to Rwanda and assess the 
need for a multinational force to militarily intervene.
    Operation Assured Lift, from 14 Feb--10 Mar 97, was conducted to 
move additional ECOMOG troops and equipment from Mali and Ghana to 
Monrovia, Liberia, as a result of Presidential drawdown authority 
action. There were ------ deployed from Central Europe to Abidjan, Cote 
D'Ivoire, to support this operation. In all, 1160 ECOMOG troops and 452 
tons of equipment were moved to Liberia.
    USEUCOM has deployed its African Crisis Response Force (ACRF) pilot 
team twice since it was formed in Nov 96. This six man team of U.S. 
military personnel was first deployed to Ethiopia and Uganda from 8--20 
Dec 96. The team deployed to Senegal from 2--6 Feb 97. In each 
instance, the purpose of the deployment was for the team to observe, 
evaluate, and report on the training and equipment requirements of the 
forces offered by Ethiopia, Uganda, and Senegal for the ACRF.
    At the request of the U.S. Ambassador to the Central African 
Republic (CAR), USEUCOM ------. This officer is assisting and advising 
the ambassador on military issues and is serving as a liaison between 
the U.S. embassy and the French and CAR militaries and the French-
funded African Peacekeeping Force in CAR. This deployment is for thirty 
days and is scheduled to terminate on 7 Apr 97.
    Question. Presently, an initiative is underway to develop an 
African Crisis Response Force (ACRF). The bulk of this force would 
consist of units from the military of the continent of Africa. What 
role is the U.S. playing in the development and ultimate implementation 
of this initiative?
    Answer. USEUCOM, in conjunction with the interagency Task Force, is 
actively involved in the military aspects of developing the African 
Crisis Response Force initiative.
    USEUCOM has participated in the deployments of political-military 
teams which have traveled through Europe and Africa soliciting 
governmental support for the initiative.
    USEUCOM has also deployed pilot (assessment) teams to Ethiopia, 
Uganda, and Senegal to assess the capabilities of forces those 
governments have offered to the initiative. When the equipment 
necessary to support initial training is provided to the Africans, 
USEUCOM will deploy personnel to each country to conduct specific 
training events. This initial training effort will focus on augmenting 
existing individual soldier skills, developing junior leaders and 
battalion staff officers, and improving combat support and combat 
service support capabilities.
    Subsequent training events will focus on multi-echeloned training 
at the company/battalion level. This training will include host nation 
government, as well as, international relief organizations in order to 
conduct a more realistic training environment.
    As long as the U.S. government supports its development, USEUCOM 
will continue to support the African Crisis Response Force initiative.
    Question. What are the probable primary functions of the U.S. 
military in this initiative?
    Answer. In conjunction with the interagency Task Force, USEUCOM 
will continue to assist in the military development of the African 
Crisis Response Force initiative.
    Assessment, provision of equipment and training, and subsequent 
provision of airlift are the current military functions associated with 
development of the initiative.
    In the developmental stages of the initiative, USEUCOM will provide 
assistance in determining the needs of each African force offered to 
participate in the initiative. Once training equipment is provided, 
USEUCOM will coordinate deployment of mobile training teams to conduct 
country-specific training events.
    Once established, USEUCOM will coordinate sustainment operations 
for the African Crisis Response Force. If committed, USEUCOM may 
coordinate additional training, assist with planning, and may provide 
strategic/tactical airlift in support of contingency operations.

    [Clerk's note.--End of questions submitted by Mr. Young.]
                                       Thursday, February 27, 1997.

           COMMANDER IN CHIEF, UNITED STATES ATLANTIC COMMAND

                                WITNESS

GENERAL JOHN J. SHEEHAN, COMMANDER IN CHIEF, UNITED STATES ATLANTIC 
    COMMAND, U.S. MARINE CORPS

                              Introduction

    Mr. Young. The Committee will come to order. This afternoon 
the Committee welcomes General John Sheehan, Commander in Chief 
of the United States Atlantic Command.
    General, we have worked with you before and I appreciate 
the fact that you say what is on your mind. This Committee is 
very supportive of you and the work that you do. We understand 
the tremendous scope of your responsibility, the geographical 
size of your theatre of operations, as well as the number of 
troops and ships under your command.
    We are very proud of the record that you have established 
and that the force has established. We look forward to your 
testimony today on the state of the Command and we hope that 
you will address such issues as the present readiness of your 
forces and the challenges and deployments and the OPTEMPO that 
you now face.
    We would also like to know about your priorities and any 
deficiencies in terms of personnel, maintenance, and equipment 
that you see as the Commander in Chief of the Atlantic Command. 
And, again, I say we are very pleased with your willingness to 
speak your mind on whatever the issue might be. We will have 
some penetrating questions for you.
    At this point, I would like to invite Mr. Murtha for any 
opening statement he would like to make. Maybe you ought to 
tell us about that ten-dollar transaction

                         Remarks of Mr. Murtha

    Mr. Murtha. I wanted to make sure that I explained that 
ten-dollar transaction. I was down to visit General Sheehan and 
he challenged me to, when I went around visiting these various 
bases, to ask about the staffing and how many people they have 
and what their actual Table of Organization (TO) was. And he 
predicted that we would find substantial numbers over what 
their TO was and that is exactly what we did. And we went to, I 
think, six bases and almost every level of command had more.
    Now, there were two reasons for it. One was that the TO had 
been decreased, which made it look like they had less people 
and actually then they had taken people of the command and they 
had not only more than they were authorized, but they had 
substantially more than I thought they needed.
    So I think what it says in this article, and I have seen 
your comments before about trying to build our force according 
to the threat, is really the key to our success. And getting 
some people out of Washington is absolutely essential.
    We sure don't need this many people in Washington when we 
have so many in the Pentagon and, as you say 150,000 in the 
area. And I am delighted that you are and agree with many of 
the comments that you have made and look forward to hearing 
what your testimony is.
    General Sheehan. Thank you, sir.
    Mr. Young. I might say to Mr. Murtha that the Speaker has 
challenged me to find a way to turn the Pentagon into a 
triangle. To me, that indicates a 40 percent cut somewhere and 
I am not sure how we are going to do that but it is a challenge 
that he has passed on to us.
    General, your entire statement will be placed in our record 
and you can present that information in the statement as you 
wish and when you have completed, we will have some questions 
for you.

                  Summary Statement of General Sheehan

    General Sheehan. Thank you very much, Mr. Chairman. Mr. 
Chairman, distinguished Members of the House Appropriations 
Subcommittee on National Security. I really do appreciate the 
opportunity to appear before you today. And as you mentioned, I 
would ask that my formal testimony be submitted for the record. 
But I would like to summarize a few brief points for the 
Members and these will be very brief statements.
    Following our extensive efforts to alleviate the Haitian 
and Cuban migrant situation in 1996, we found that it is a much 
quieter year in the U.S. Atlantic Command from those two 
perspectives.
    We still have 484 personnel in Haiti Maintaining U.S. 
presence and providing a valuable support for United Nations 
nongovernmental organizations and private volunteer 
organizations. The illegal migration situation at Guantanamo 
Bay, Cuba, has been reduced to the point that we have less than 
100 illegal migrants or asylum seekers at any one time. That is 
done from a peak of 46,950, individuals in 1995.
    The most challenging element of USACOM's current mission is 
the Joint Force Integration Piece, and we try to accomplish 
this through a melding of the technology of the future of 
battlefield systems and the doctrine to build a quality force.
    Our primary means to correct some of the interoperability 
problems is through the Advanced Concept and Technology 
Demonstration ACTDs program and that is adding value to what we 
do.
    We are also addressing the challenges in the areas of Joint 
Theater Missile Defense and taking the initiative of helping 
define that concept and develop the potential of information 
operations as a new concept of warfare fighting.
    The ultimate goal of USACOM's Joint Force Integration and 
Training efforts is to provide mission-ready joint forces to 
other combatant CINCs whenever and wherever they are needed 
around the world.
    On any given day we have over 90 ships, 300 aircraft, 
37,000 Active and Reserve component personnel deployed in 
support of the geographically unified CINCs, plus within our 
own Area of Responsibility (AOR). USACOM has deployed 192 units 
consisting of over 9,000 personnel to the U.S. European Command 
to support IFOR, an now SFOR, in Bosnia.
    Sir, I thank you very much for the opportunity. Now I am 
prepared for your questions.
    [The statement of General Sheehan follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Young. General, thank you very much. We appreciate that 
statement. The staff has gone over your entire statement and 
found it to be very thorough.
    I would like to begin the questioning by asking you about 
the QDR. We were told from time to time that the QDR is a very, 
very important review and I am curious as to what role, if any, 
the U.S. CINC of the Atlantic Command has played in the QDR 
process?
    General Sheehan. Sir, as a CINC, I play it through with my 
staff and as recently as 3 weeks ago during the CINCs 
conference here in Washington, D.C., we spent an entire 
afternoon reviewing the QDR with the OSD and the Joint Staff.
    That was also the first opportunity for Secretary Cohen, 
just having been sworn in as the new Secretary of Defense, to 
participate in this discussion. And I am very, very impressed 
with the sincerity and the intensity which he is approaching 
this QDR.
    Mr. Young. I wanted to make sure that I understand that. 
You said you spent an afternoon?
    General Sheehan. Yes, sir.
    Mr. Young. Was that ample time for you to get your thoughts 
in place or your thoughts presented to the Review Commission or 
the Review Board?
    General Sheehan. I would characterize it as basically 
briefings where the CINSs were allowed some input. But since 
that after noon, Secretary Cohen has gone back and brought all 
the committees back in to help them focus their attention on 
the QDR.
    Mr. Young. Do you think the issues that you are concerned 
about are being adequately addressed by the QDR?
    General Sheehan. I believe they are, sir, at this time, by 
Secretary Cohen.
    Mr. Young. You have been, General, very outspoken and I 
want to call your attention to some of your public quotes and 
see if you feel like these issues are being addressed.
    One quote that I think we have all seen is that there are 
150,000 DoD military within a 50-mile radius of Washington, 
D.C., while there were only 129,000 sailors in the entire 
Atlantic fleet. You say that in the DoD there are 199 separate 
staffs at the civilian and two-star and above flag officer 
level. And you say statistically that the Army has only about 
125,000 war fighters supported by 375,000 uniformed personnel 
and another 300,000 civilian. That works out only to 16 percent 
of the total force.
    You have also concluded that if we are not careful we could 
become the best trained staff to ever get run off a hill.
    General, do you think the QDR is addressing these issues?
    General Sheehan. I hope so, sir. I think that the issue is 
the correct balance. When I raised this issue to Secretary 
Cohen, he thought that the inverted pyramid of what we have is 
a correct characterization of where we are today. And I think 
he is trying to address this issue through this process.
    Mr. Young. I have had an opportunity to talk to the 
Secretary several times since he was sworn in and we have 
discussed the issues that you have raised. I would agree with 
you that he certainly understands the problem that exists or 
that could exist, and I get the feeling that he is strongly 
committed to trying to bring some rhyme or reason out of this.
    In fact, I mentioned to him the same thing that I suggested 
here that the Speaker has challenged me to find a way to reduce 
the unnecessary personnel at the Pentagon. and I mentioned that 
to him, and he said that he thinks that is a good challenge and 
that he would be very happy to cooperate and work with us in 
that effort.
    So may be one of these days we will get more war fighters 
than we have on the tail. We will see.
    Mr. Murtha.

                          INFORMATION WARFARE

    Mr. Murtha. General, one of the responsibilities you have 
is information warfare and defense against information warfare.
    General Sheehan. Yes, sir.
    Mr. Murtha. How vulnerable are we and what are we doing 
about it?
    General Sheehan. A very complex question, sir, but about 2 
years ago in the U.S. Atlantic Command we started to try to 
find out really what capability we had and so we undertook an 
analysis in a war game, a real war game, ------.
    Mr. Murtha. How many countries have the potential of 
invading our systems? Which systems would be the most 
vulnerable?
    [Clerk's note.--Classified discussion was removed.]
    Mr. Murtha. Well, one other statement I have to make. You 
have four staffers back there. Only anybody that ever came 
close to that was General Luck. He had--and I don't know, maybe 
a lot of these people over here are your staff.
    General Sheehan. Sir, actually, it is three. One guy is 
here from the thought police from the Pentagon.
    Mr. Murtha. I'll be darned. That is pretty impressive.
    Who is that?
    General Sheehan. Just kidding, sir.
    But General Luck used to say that the only reason he had 
such a large staff was to support the one marine that he had on 
his staff. That is why I have one Army officer, sir.

                          QUALITY OF RECRUITS

    Mr. Murtha. Okay. But one other thing, we have noticed a 
slip in the quality of the people at the recruit depots in the 
Army and even a little bit in the Marine Corps. Have you seen 
that out in the field yet?
    General Sheehan. It hasn't hit the operating forces yet. I 
do know that there has been a slight decrease in the recruiting 
statistics, but I have not seen it in the operating forces. My 
command sergeant major, who just spent 2 days down in Fort 
Bragg with the 82nd Airborne, 18th Airborne Corps, he told me 
this morning that he is very pleased with what he sees down 
there. So I think it is a problem that is coming through the 
pipeline, but it is not visible right now.
    Mr. Young. Okay. Mr. Murtha, thank you.
    Mr. McDade?

                             JOINT TRAINING

    Mr. McDade. Mr. Chairman, thank you.
    General, welcome. We are glad to have you here. One of your 
major responsibilities is joint training. Is that correct?
    General Sheehan. Yes, Sir.
    Mr. McDade. Can you tell us if Bosnia is having an impact 
on your efforts to do what you think you ought to do in joint 
training?
    General Sheehan. No, sir. Actually, as a matter of fact, we 
train all of the people who leave CONUS to go over to Bosnia. 
We did it for IFOR, and we are doing it again for the SFOR 
forces, especially in the Reserve and National Guard forces 
over there.
    Mr. McDade. Not draining your resources.
    General Sheehan. Bosnia will be--if the $2 billion 
supplemental that Secretary Cohen asked for is not approved, I 
will have to shut down a lot of activity by July or August.
    Mr. McDade. We understand that. But in the normal course of 
your daily events, you don't see any impact?
    General Sheehan. No, sir.
    Mr. McDade. Are you engaging in new initiatives in joint 
training?
    General Sheehan. Yes, sir.
    Mr. McDade. Tell the Committee how you think we could be 
more efficient, will you?
    General Sheehan. The issue in joint training has to do with 
the use of transportation dollars and using computer simulation 
to replicate what we do in the battlefield. We have down at 
Norfolk, Virginia, and Chesapeake an organization called Joint 
Training Analysis and Simulation Center, JTASC where we train 
joint forces to fight on the battlefield. This is with real 
world data bases, real world countries.
    We use that to substitute for training, training in the 
field. We no longer put an army in the field to train a general 
or a Navy at sea. We substitute, for example, a training 
evolution like ocean venture, whatever have you, that at one 
time used to cost us $50 million. We now do that for less than 
$5 million through the computer-aided training.
    Mr. McDade. It is hard for me to visualize how that kind of 
computer activity substitutes for the joint training when you 
actually put them out in the field. How are you comfortable 
with that?
    General Sheehan. Sir, you do it through three phases. The 
first phase what you do is you take someone like the 18th 
Airborne commander, or the 2nd Fleet or 8th Air Force. You 
bring them into a training facility where you teach them joint 
doctrine, joint tactics and techniques and procedures. That is 
a week-long seminar process.
    The second phase, they develop an Opposition Force, OPFOR 
against a real world threat, with a real world enemy. We have a 
thinking OPFOR, that is human beings that actually operate in 
the tactics and techniques and procedures, and all of the 
stimulus that comes up from a component and to the staff is a 
replication of the battlefield as the joint force commander 
understands it. He is forced to deal with very complex issues, 
for example, TPFDF, Time Phased Forced Deployment of Forces.
    Mr. McDade. What was that again? I didn't get that.
    General Sheehan. Time Phased Forced Deployment. It is the 
process of moving forces from the continental limits of the 
United States to a theater of operations. If he gets that 
wrong, he has to fight that fight with the forces that he has. 
If he puts in 15 days worth of supplies, that is all he gets. 
So he is forced to make tactical decisions about using forces.
    He stays at this for one week for 24 hours a day for the 
entire week. And the OPPFOR can win. And so by the time the 
joint force commander and his staff leaves, they have been 
through everything that the battlefield combat training system 
could produce.
    Mr. McDade. Make a few decisions?
    General Sheehan. They made a few bad decisions, too, which 
they learned from. I have three mentors who helped the joint 
force commander, one of them is Gary Luck. He works for me, is 
a senior mentor for the joint force commander. The other is Jim 
Lindsey, former Army four-star, and a three-star Air Force 
officer, a former Air Force commander. So they assist these 
three-star officers on how to become joint force commanders.

                            INTEROPERABILITY

    Mr. McDade. We used to hear inoperability in Desert Storm 
as a problem with joint exercises, et cetera.
    General Sheehan. Yes, sir.
    Mr. McDade. What is your opinion today? Has that gone away 
or is that still a problem?
    General Sheehan. It is still a complex problem because we 
have many legacy systems that are still----
    Mr. McDade. Manyt what?
    General Sheehan. Legacy systems.
    Mr. McDade. Older systems?
    General Sheehan. Older systems that were built by Services 
that still have what we call translators that allow them to 
talk to each other.
    We have to go to a concept of what I call a ``born joint''. 
We right now spend about $40 billion in C3I, C4I. Those systems 
have to start from the conception to be multi-service in 
capability. A software program, for example, if you have to 
retrofit it to become joint after it has been fielded, it is 
400 times its initial cost if you don't get it right the first 
time.
    Mr. McDade. Well, what is the scope of the problem we are 
talking about? Is there any way you can put a dollar figure, 
for example, behind what you are talking about to fix that 
problem?
    General Sheehan. It is a very hard number to calculate, but 
it is a problem that you can solve if you focus your energy and 
activity on it.
    Mr. McDade. Are we doing our best over that?
    General Sheehan. I think the Joint Requirements Oversight 
Council, JROC process is beginning to get its hand around this 
issue. Any new system they bring on-line has to be joint.
    Mr. McDade. The only thing that scares me is they are 
beginning to. Desert Storm was a long time ago.
    General Sheehan. Yes, sir.
    Mr. McDade. It sounds like we need to give them some 
encouragement.
    General Sheehan. Yes, sir.
    Mr. McDade. Thank you, Mr. Chairman.
    Mr. Young. Mr. Obey.

                         BUDGET INEFFICIENCIES

    Mr. Obey. General, as you know, we have tremendous budget 
pressures. It is crucial that we not only get the right amount 
of dollars for our military operations and everything else, but 
that we put those dollars in the right places for the right 
things to buttress the right kind of conceptual framework that 
will give us the most effective defense.
    Where do you think we are most falling short in your best 
professional judgment in doing that? Where do we have the most 
important duplication that we ought to be dealing with? What 
kind of things should we be looking at that we perhaps aren't 
right now? In terms of joint operations, aren't there 
efficiencies that we ought to be looking at more aggressively--
are there inefficiencies we ought to be looking at more 
aggressively than we are?
    General Sheehan. I think the issue has to be a strategy of 
resource match. I think much of our decision process over the 
last couple of years has been decided by programmatics as 
opposed to strategy, and I think that is what Secretary Cohen 
is focusing his attention on.
    Clearly, three weeks ago when we had our discussion with 
him he was clearly focused on the strategy piece and what comes 
out of that from a force structure. But I think that on a macro 
scale, when I look at what we have done to the U.S. forces over 
the last couple of years, we have taken 33 percent of its 
combat structure out. We have only taken down management 
headquarters by 6 percent.
    I think if you returned to the 1987 portions of where we 
were in our structure, I think there is some potential savings 
there. When you look at the enlisted-to-officer ratio, for 
example, we are becoming more officer-intensive and we are 
losing our enlisted structure. You need to keep young officers. 
You need to keep young troops because that is the seed for your 
future. So those are areas that I think from a management 
perspective you could take a very serious look at it. I hope 
the QDR does that, sir.

                     SHORTFALLS IN JOINT OPERATIONS

    Mr. Obey. In terms of the joint operations between 
different services or joint training, in your best professional 
judgment what are our most serious shortfalls?
    General Sheehan. The issue on joint training has to do with 
the number of exercises to be conducted on a worldwide basis. 
The General Accounting Office did a study a couple of years ago 
that basically said 23 percent of the transportation dollars 
are being used to pay--are actually used for joint training, 
Service training or presence training. That, again, is one of 
the issues that we raised with Secretary Cohen and he is trying 
to come to grips with; how much presence is enough?
    What constitutes presence overseas, whether it is 100,000 
in Europe or 100,000 in Japan? What level of exercising is 
necessary for confidence building within a coalition process 
and then how do you really take disparate elements from 
different Services in training what we call joint mission 
essential tasks? We have just finished standardizing the joint 
mission essential task for Services to perform from a joint war 
fighting perspective and hopefully over the next year and a 
half or 2 years, we will be able to use those as a standard to 
measure the training activity to get the most dollar for our 
value. But we are still about a year and a half away from doing 
that.
    Mr. Obey. Can you give us any examples of insufficient 
cooperation between the Services in these areas?
    General Sheehan.I think all of the Services because of 
Goldwater-Nichols have realized that no Service has the ability 
to fight alone in a battlefield, that they need the help from 
the other Services. You will always find pockets of resistance 
in each Service for whatever reason because they are sponsoring 
a certain platform. But at the end of the day, I am very 
comfortable that the joint training is coming along. It is much 
better than it was in 1983, 1986, much better than it was in 
1989. So it is getting better every year.
    Mr. Obey. Thank you.
    Mr. Young. Mr. Lewis.
    Mr. Lewis. Thank you very much, Mr. Chairman.
    General Sheehan, it is nice to be with you.
    General Sheehan. Thank you, sir.

                        UNMANNED AERIAL VEHICLES

    Mr. Lewis. I had recently brought to my attention your work 
relative to the tactical control system concept, and its 
potential is very impressive. I would like to compliment you on 
that work.
    As a result of my work on this Committee and a 
responsibility in another area that deals with the Intelligence 
Committee, I have focused a good deal lately on an item known 
as unmanned aerial vehicles, and maybe to the frustration of 
some of my colleagues I have been using one of those 
procurements as an illustration that takes me to try to probe a 
problem that relates very much to jointness, the item that you 
just mentioned.
    As I understand it, Secretary Perry made USACOM, the 
combatant command or the force provider for UAVs, is that 
right?
    General Sheehan. Yes, sir.
    Mr. Lewis. Could you tell us exactly what that entails?
    General Sheehan. Well, sir, we have one advanced concept 
technology demonstration, Predator, that has been tested and 
used in Bosnia with a great deal of satisfaction by most of the 
users. There were tactical problems that had to do with the 
learning curve on icing of the wings and all those kinds of 
things, but UAVs offer us a great opportunity to make 
commanders more situationally aware.
    UAVs, having watched the Israelis use them and visited the 
Israeli UAV people, I have great hope that we are able to 
manage the data that the UAV is capable of producing. Our 
problem is not the platform itself. Our problem is the ground 
station and our ability to process through automatic target 
recognition what the UAV can show us in the battlefield.
    Mr. Lewis. Would you explain what jointness means as it 
relates to Predator?
    General Sheehan. What it does, it allows us--the Air Force 
is a single Service, for example, but the air combat command, 
my Air Force component, they provide a squadron capability that 
is deployable that works for the ground force commander. It 
covers a large area. You can downlink the information to the 
joint force commander. You can downlink the information to a 
ground station commander, on the ground side. It allows people 
to see the battlefield from a common situation awareness. If 
you can link the picture, then very frankly it allows you then 
to use other weapons systems platforms to destroy targets 
without putting people in harm's way. It has great potential.
    Mr. Lewis. It is my understanding that you wrote the 
Concept of Operations, for the operations of the Predator.
    General Sheehan. Yes, sir.
    Mr. Lewis. Within those concepts you supported the forward 
control element?
    General Sheehan. Yes.
    Mr. Lewis. Essentially, that would say that the Air Force, 
if they were the commander, would be able to hand off to a Navy 
pilot by way of a submarine, you might very well have an Army 
person on the front line who can control this mechanism. So 
jointness has a pretty broad definition in that connection.
    General Sheehan. Yes, Sir.
    Mr. Lewis. Generally speaking, this Committee has supported 
that concept and we have had language in our bill of last year 
supporting the Forward Control Element.
    As of this moment, Air Force, who has command now of this 
asset related to UAVs, has refused that forward control 
element. I would like to have your reaction or comment.
    General Sheehan. I wouldn't say they refused it, sir. This 
is a classic debate between the Services about putting small 
airplanes in air space. They worry about the safety of flight 
for fixed-wing aviation, so as a result, they feel as though 
they have positive control. Who drives the airplane around, 
this is really an issue of the joint force commander, tells his 
air component commander what he wants done. And I don't know of 
a joint force commander who, if there is a ground unit in 
trouble, who is not going to give him that UAV.
    What I need to do is to get to the battalion commander a 
ground station that is small enough and has a low enough 
footprint that the can see what is over the next hill, and if I 
have a component commander that won't give that to an infantry 
battalion commander he is not going to be in the battlefield 
very long.
    Mr. Lewis. Let me be a little more specific. Yesterday this 
subject was raised with the Secretary of Defense. Just 
following that, the Army sent a message out suggesting that 
they ought to have this asset available for joint operations 
and training at Fort Irwin. They got a direct message back that 
was very short, succinct and threatening saying, not no, but 
you can imagine what that is.
    General Sheehan. Yes, sir. It is true General Hartzog, who 
is the radar commander who wants the UAV for Force 21 for use, 
because they understand it would add to the battlefield, and 
that is an issue I am going to have to work out with the 
Chairman, sir.
    Mr. Lewis. I must say that over time, in this subject area, 
that is very important in terms of the total battlefield 
circumstance. It seems to me there is a pretty fundamental 
question here relative to that debate that goes on between 
forces. The definition of jointness, we would hope, is broader 
than would appear to be the case in this instance. And I would 
hope that you would recognize the difficulty of a narrow 
interpretation of what jointness means.
    General Sheehan. Yes, sir, I do. I say it is a ground 
station issue of giving the ground commander the ground 
station, and the joint force commander at the end of the day is 
the one that decides where those resources are allocated.
    Mr. Lewis. You know, you take yourself to the submarine, 
for example, and you can see very quickly some limitation there 
if there wasn't a broad definition.
    General Sheehan. Yes, sir.
    Mr. Lewis. Mr. Chairman, I just wanted to make sure that at 
the highest levels through the forces that you know that 
someone is raising these questions and we don't intend to stop 
raising the questions
    General Sheehan. Yes, sir.
    Mr. Lewis. Thank you, Mr. Chairman.
    Mr. Young. Mr. Lewis, thank you very much.
    Mr. Dicks.

                          INFORMATION WARFARE

    Mr. Dicks. General, I want to welcome you to the Committee. 
I enjoyed very much being able to visit you, I guess it was 
late last year, and to talk to you about some of the major 
issues that we are facing.
    I had an opportunity to go out to Mitre, myself, with--
their staff people and former Defense Secretary Schlesinger for 
a briefing on information warfare. And as a member of the 
Intelligence Committee as well, I have been very concerned 
about this issue. And I think you are absolutely right that the 
vulnerability here isn't just to U.S. military systems, but to 
our entire infrastructure, including, our ability to generate 
and wield electric energy. Our ------ is also vulnerable.
    There are just a whole series of things that could be done 
that would, bring the country literally to a standstill if you 
had a dedicated group of hackers who could be, in essence, 
hired by a terrorist to try and damage our systems. And I also 
understand the exercises that have been done on military 
operations have not been very satisfying, either.
    So I would just like you to, again, to maybe talk in a 
little more depth regarding where our most critical 
vulnerabilities are. The President has named a national 
commission to look into this, and I had a chance to talk to 
Sandy Burger down at the White House on this subject, but 
shouldn't this be given a lot more attention than it has been 
given up to this juncture? Shouldn't there be a little more 
sense of urgency from our top governmental leaders about our 
vulnerability?
    General Sheehan. Sir, I think there has been. Before 
Senator Nunn left the Armed Services Committee, now I know it 
because I just spoke to him about 2 weeks ago on this issue. He 
is from the commercial side very, very focused on this issue. I 
know the money and banking industry is very focused on this 
issue.
    The biggest single problem we have is getting people to 
understand the complexity of the problem. There are many people 
that think that you can go out and buy a commercial cellular 
phone, for example, and buy an encryption device from the local 
AT&T system and use it to talk to somebody and you think you 
are encrypted. Those systems are not secure, as you know.
    Most people--most civilians in the United States that think 
they have commercial encrypted cellular phones, though, you can 
break those in less than 2 seconds. And so it is a very serious 
problem. But getting people to understand it, and this is 
especially a difficult problem because when you are in the 
military and you go to a commercial institution and say let me 
talk to you about your vulnerabilities, because of ------ a 
couple of years ago, people think that this is an intrusion 
into their privacy by the military or by the Federal 
Government. We have got to get over that. We have got to get 
through that process that says, this is about how we live.
    We live in an electronic society. Everything we do from 
money and banking to checking out of a supermarket is done 
electronically. And if that system collapses, there is a large 
segment of this population that is going to suffer some degree 
of inconvenience. And so I think it is an awareness issue. It 
is an issue of understanding how the infrastructure backbone of 
the United States is constructed to do that.
    You need help from AT&T and other large commercial 
organizations. They are reluctant to talk about it. They do 
some work themselves. So I am just hopeful that Mr. Marsh and 
his panel are able to bring all the people together who are 
involved in this issue to raise the awareness from a policy 
perspective, because as I said before, at the end of the day, 
it is the concept, and the organizational theory and then the 
laws that allow you to work in this arena without the 
perception that you are violating someone's rights. It is a 
very complex problem.
    Mr. Dicks. Do you think--should this be handled from the 
civilian side of the Defense Department rather than having the 
military assume responsibility? Would that help in this case?
    General Sheehan. It comes from two different parts. There 
was what I call--the information operations consists of two 
parts: Information and operations, and a tactical perspective, 
the offense piece and the defensive piece, and then there is 
compartmented information programs that you use against 
adversaries.
    Understanding what the defense information structure is 
clearly a policy issue that OSD needs to focus on.
    It also gets at this whole strategy of how the United 
States approaches potential adversaries. I came at this thing 
from a perspective that says the real reason you do information 
operations is not to go to war, but to deter war, because you 
are managing the electronic spectrum. You are managing 
perception management.
    If you ask me to look at a country and deal with that 
country, I am kinetically oriented. You tell me country X and I 
will tell you how to bomb it into oblivion. But that is not 
what the warfare of tomorrow is about. Tomorrow's warfare is 
when you are in a crisis process how do you move the crisis 
back to peace? Or if you are in conflict, how do you move it 
back to pre-crisis? You do it through the manipulation of the 
whole arena in which a country exists. This is the social, the 
economic, the political and the military dimensions.
    To do that, you have to have a national strategy and 
understand what you want as an outcome of dealing with that 
nation. There are probably 12 to 15 nations on the face of the 
earth that fit into this category of we are either economic 
competitors or the military competitors as peer competitors. We 
need to come at this thing from the strategy perspective that 
says this is country X, this is how we approach them from an 
information perspective and the social dimensions, the economic 
dimensions, the political dimensions, the military dimensions 
and manage that information medium in such a way that you can 
manipulate it to your advantage.
    That has very, very threatening connotations to some 
people. The legal people in OSD are terrified of the concept. 
Clearly, the appropriate--as you know, the appropriate 
oversight committees in the Congress want to know exactly what 
you are talking about, about what do you mean putting embedded 
technology into someone's computer system? Who has the 
authority to re-call it? What do you do with the information? 
What do you do especially if it is financial information? So 
there are--there has to be a much more serious dialogue.
    I think that the House is going to have an off site, I 
believe--sometime over the next couple of weeks we are going to 
focus on this issue and they have asked me to come down and 
talk about it in a much more closed forum. But I think the 
House is in the right direction.
    I think John White is trying to focus on this issue. And I 
think that in my discussions with Tony Lake, should he be 
confirmed, I think he is really trying to focus on this issue 
also from a CIA perspective.

                       NATIONAL MILITARY STRATEGY

    Mr. Dicks. All right. When you talk about our lack of or 
the necessity for us to develop a new national military 
strategy, I think that is absolutely essential, and then from 
the strategy to decide what we need to do in the resource area.
    What I have seen over the last few years, frankly, is a 
budget-driven strategy, a lack of strategy and just a budgetary 
approach to this, where the services each have items that are 
their priorities. Frankly, if you ask me, do I think Goldwater-
Nichols is working, I think that it is working at the CINC 
level, but I don't think the real hard trade-off decisions with 
the limited budget that we have got today are being made at the 
highest level.
    One area I, frankly, worry about is that we are out there 
buying a lot of things, for example, nonstealthy tactical air, 
that are going to have a hard time performing in the threat 
environment of the future. And yet we are ending programs like 
the B-2 where you have a chance to use advanced technology, 
with much cheaper weapons, and I think which provides us with a 
revolutionary capability to deal with long range power 
projection. Yet we can't seem to get the top people in the 
Pentagon to focus on these things and make the hard calls. And 
it is because, I think, they are all fearful of each of the 
services riling one of the others.
    Give me your perspective on this. How do you see this?
    General Sheehan. I come at it in a parallel path. Wherever 
I read Goldwater-Nichols, the thing that strikes me most often 
is that the primary purpose of Goldwater-Nichols was to 
reinforce surrendering control of the military. When you read 
the law, that is what the real issue is. Then down embedded is 
this whole issue of creating jointness.
    I think the issue of the strategy piece is that we need a 
better connection. I think the Office of the Secretary of 
Defense clearly needs to influence the process. He does it 
through three ways: Through policy, through budget and through 
operations.
    I think you are right in the sense that the expertise to 
get at the strategy piece, then go from strategy to resource 
allocation, is the part that we need more effort in. And I am 
very, very kind of encouraged by the way that Secretary Cohen 
is approaching this thing. I think he clearly understands that 
as the Secretary of Defense he comes at this thing from a 
policy perspective.
    I think much of the activity in OSD is they get confused 
between policy and management. They focus on management and not 
the policy piece. If you fix the policy piece, the management 
piece then follows by subcontracting that to people who have 
the authority to do that. And I think then you get at the issue 
that you are trying to get your hands on.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Young. Mr. Visclosky.

                         RUSSIAN NAVAL ACTIVITY

    Mr. Visclosky. Mr. Chairman, thank you very much.
    General, could you tell me about Russian Naval activity in 
your area?
    General Sheehan. Sure. Russian Naval activity is 
significantly down. Part of it has to do with the miserable 
state of the Russian military budget. Large numbers of ships 
are tied up at the pier with families living on them because 
there is no housing for them. We had two incidents over the 
last 6 months where fleet vessels actually sent armed guards to 
the power plants to demand power for their ships because the 
Navy had not paid for them. And so one--in one sense, their 
surface Navy has been significantly degraded.
    The other interesting part, though, is that they are 
investing in submarine technology. They still are--have a very 
quiet submarine, the Akula. They have three submarines out in 
the Barents Sea today. They are--if all of the indications are 
correct, by the year 2000, 50 percent of their strategic 
forces, their strategic nuclear force will be sea-based. It 
will be based on the Kola Peninsula.
    Mr. Visclosky. Fifty percent.
    General Sheehan. Fifty percent. The Chief of Defense at 
Finland was just at my headquarters the last two days. He is 
concerned about the stability of the Leningrad district, which 
is the area he is concerned about. Much of that is easy as he 
travels back and forth to the district. The towns up in that 
Kola Peninsula are off limits to even him.
    So I think that--I am hopeful that the progress towards 
democracy in Moscow works, in Russia. I am very, very concerned 
about the state of the Russian military. I think Rodionov is 
playing to the audience about the security of the nuclear 
forces. I am very comfortable that those forces are in good 
shape from being paid, but their conventional forces are in 
abysmal condition.

                           DRUG INTERDICTION

    Mr. Visclosky. On drug interdiction, my opinion is we 
haven't put a dent into the problem. That is my personal 
opinion.
    From your perspective and the responsibilities you are 
charged with, what has worked and what hasn't worked? I 
recognize that there are a lot of moving parts to this problem 
outside of your control.
    General Sheehan. What hasn't worked is a national will to 
deal with this problem. We have been at this since 1989 when 
the U.S. military first got involved, because we had the 
command and control architecture and the intelligence to do 
this. And plus we became the synapse that allowed that 
organizations who were not accustomed to working with each 
other to come to a common room and work in a cooperative basis. 
We have become much better since 1989, but there are parts to 
the problem. One is the source and transit zone piece and third 
is domestic consumption.
    For the first couple of years, we kind of focused on the 
transit zone, trying to create a barrier and it is amazing the 
consistency, that basically we interrupt or disrupt or capture 
one-third of the product and we still are talking about 300 
tons, in round numbers, coming into the United States. We went 
to a source country strategy a couple of years ago built around 
Colombia, and I don't have to speak about Samper and Mexico and 
the problems of corruption that does the Nation. So the source 
country piece, they are working on that very hard. I give Bob 
Gilbart and Barry McCaffrey a great deal of credit for the 
courage that they have undertaken to hammer guys like Samper 
and the Mexicans.
    But at the end of the day, if people demand drugs, the drug 
dealer is going to find a way to deliver it. So we have to 
focus more attention here in the United States on the consumer.
    I think the military is an example of where zero tolerance 
with drugs is a way that other public institutions, where the 
life and safety of individuals associated with it, that you 
have to institute various kinds of programs like drug testing. 
I think until the American people come to grips with this 
issue, I think you are going to continue to see drug barons 
produce a product and earn a huge profit by delivering it.
    Mr. Visclosky. General, thank you very much.
    Thank you, Mr. Chairman.

                 THEATER AND BALLISTIC MISSILE DEFENSE

    Mr. Young. General, this morning we spent the morning with 
General Joulwan and one of the issues that developed was the 
issue of theater missile defense.
    General Sheehan. Yes, sir.
    Mr. Young. And I understand that late last year, some time 
in the fall, that the Defense Science Board and the Defense 
Policy Board suggested that the U.S. Atlantic Command be put in 
charge of the department's Joint Theater Missile Defense 
architecture. Has that happened?
    General Sheehan. It has and it hasn't. We are doing--the 
Theater Missile Defense Program is called cooperative defense. 
We are taking Roving Sands, which was an air defense exercise, 
and over the last 2 years have moved it towards a Theater 
Missile Defense Program.
    EUCOM has a unique problem, as does Korea, in the theater 
missile defense because what--they are called what I call 
linear theaters. So we are working with the Services to produce 
a concept of operations that is universally applicable.
    Theater missile defense, at the end of the day, is the 
absolute joint program. No one Service has the capability to 
deal with this issue. So we have a concept of operations that 
we are going to test out this spring and summer down in Forth 
Bliss, Texas. It will be a mature theater, it will be 45-days 
so we will have all the command and control facilities in 
place. It is hopeful that out of this process will develop the 
tactics and techniques and procedures, in some cases suggest 
what we can buy more of or kill a program that doesn't fit.
    We are working very closely with the Ballistic Missile 
Defense Office to do this. We have the requirement from the 
Joint Staff and OSD to write the operational requirements 
document for this. So it is that sense we are in charge of it. 
And hopefully this summer we will move that step a further 
downstream.
    Mr. Young. Is this going to create a conflict with BMDO?
    General Sheehan. No, sir. Actually, we have an open 
dialogue with BMDO. We use their facilities. Many of the 
concepts we use, we use their software modeling and simulation. 
So it's a very cooperative relationship. We have a--we have a 
twice a year meeting with the advisory panel from BMDO and the 
BMDO office itself.
    Mr. Young. Where are we headed on our ability to 
effectively defend against theater missiles?
    General Sheehan. I think it will be an operational reality, 
probably within 3 years. I think we have got a fair capability 
now. I think the problem is once we get to a link 16 
capability, we have link 16 across the board in all systems. We 
will be able to take the Navy's cooperative engagement 
capability, with the Patriot-enhanced systems and the Hawk and 
be able to present to shooters a common picture.
    So I think that if we do it right and we stay at it and 
stay focused, we will have a deployable capability, a real 
deployable capability, with a higher probability than we had in 
the Persian Gulf to deal with this problem.
    Mr. Young. Yesterday Mr. McDade asked several questions of 
General Shalikashili about the ground-based laser. As you look 
into the future, is that a player?
    General Sheehan. Not in the near term, sir. I think right 
now we are talking about AEGIS, Patriot type weapons systems. 
Right now it is the integration of information management 
systems, what we call battlefield C3I; the ability to move data 
rapidly around the battlefield, because in a theater missile 
defense system you are talking about minutes for a response 
time from detect to attack.
    The other part that we have--after 2 years of modeling and 
simulation is that it is what we call the intelligence 
preparation in the battlefield. If you do good intelligence 
work, you can do some very good predictive work on where tails 
are going to be going. And so then you can attack the talks 
before the launch phase starts. So I think what we are focusing 
on right now is the battlefield C4I, integration of systems, 
link 16 presenting a common battle picture to the theater 
commander.
    Mr. Young. Mr. Dicks, do you have further questions?

                                LINK-16

    Mr. Dicks. Let me make sure I understand this, link 16, and 
I understand it, is the link between the satellite in space and 
the cockpit of the airplane?
    General Sheehan. It covers all sorts of airplanes from 
AWACS, any kind of search radar system that can present you a 
battle space picture, AEGIS by radar systems, for example. So 
what is--it is a common picture of the battle space.
    Mr. Dicks. It shows you where the Scud launches from?
    General Sheehan. It shows a radar returned.
    Mr. Dicks. Right. So then you have not only the ability 
with theater missile defense system to stop the incoming 
attack, but also to offensively go out and go after----
    General Sheehan. Yes, sir.
    Mr. Dicks. The Scud launchers are a big problem, as you 
well know, in the Gulf War.
    General Sheehan. Yes.
    Mr. Dicks. We were unable to do it and Saddam used very 
sophisticated denial methods regarding where the location was 
and moved those around and presented us with a lot of false 
decoys, and other things, that caused us a problem. And, again, 
my view of this is this is another area where stealth gives you 
an advantage in that you don't have to have all of the 
supporting aircraft to go in after the launcher.
    If you have got the F-117 or the joint strike fighter, when 
the Navy finally gets a stealthy airplane, or the B-2, you have 
an ability to go in and take those launchers out. Because you 
have got the link right from the satellite and you have the 
ability to go in and perform that mission. That was something 
we couldn't do in the Gulf.
    General Sheehan. Absolutely.

                              NBC WEAPONS

    Mr. Dicks. What I worry about is the use of chemical, 
biological or nuclear weapons against our airfields that lock 
out our TACAIR, lock out our ability to bring the troops into 
the theater and then we are going to sit there and say, why 
didn't we buy some more bombers, that we could use from the 
United States? Now, you have--you have got a reinforce in the 
United States, is that right?
    General Sheehan. Yes, sir, the 8th Air Force.
    Mr. Dicks. Have you seen the new tape on the first dropping 
of the GATS/GAM?
    General Sheehan. Yes, sir.
    Mr. Dicks. Forty-one thousand feet, day, night, all 
weather. This is why I am so possessed by this issue. I have a 
chart here of seven different conventional weapons that you 
could drop off the B-2; to go against advancing armor, to go 
against fixed targets, to go against relocatables, surface-to-
air missiles and deep underground bunkers.
    Now, that, to me, is a tremendous, almost revolutionary 
conventional capability that we haven't had before, and the 
reason I think it is so important is because you can deploy 
this aircraft a third of the way around the earth in 8 hours 
from Whitelman, from Guam or Diego Garcia. If we had enough 
aircraft to deploy in those three cases, you literally could 
cover the world.
    And, you know, we don't have all these systems yet. They 
are just starting to come into the inventory and you have to do 
all the things necessary to get them on the airplane. It isn't 
just the B-2s. The B-1s could use some of these on other 
platforms.
    But to me when you are thinking about this problem with 
theater missile defense not having as good a system as I think 
we need to protect our kids, you can't just attack the problem 
on the side of defending against these weapons. You have got to 
also be able to go on the offense. And am I right here? Isn't 
stealth a big advantage in attacking these systems?
    Mr. Sheehan. The intelligence preparation in the 
battlefield and the battlefield location is key to this whole 
process. Every single game that we have run in the analysis, if 
you can get the tail on the ground before it goes in a recce 
phase and launch phase, it makes the battlefield solution that 
much better.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Young. Mr. Lewis, do you have further questions?

                           READINESS TRAINING

    Mr. Lewis. Thank you, Mr. Chairman.
    General, yesterday when we spent time with the Secretary 
and General Shalikashvili, the first three items in summarizing 
their priorities pointed to quality of troops, pointed to 
training and pointed to modern procurement.
    As a backdrop to all of that, we are faced very shortly 
with having to move quickly on a supplemental for Bosnia. The 
budget request that is before us goes down and not up, and we 
all know that money is fungible.
    So in connection with that piece that involves training, 
just for your edification, both twenty-nine Palms and the 
National Training Center are in my district so I pay a little 
bit of attention to training questions. Tell me, do you believe 
that the troops under your command are receiving adequate 
training? And if they are not, why not?
    Mr. Sheehan. I deal with joint training. We have a three-
tiered training program in U.S. Atlantic Command. It is kind of 
consistent on a worldwide basis. Tier I is a Service 
responsibility. Tier 2 is we train for joint interoperability. 
We do that across the United States by scheduling tankers and 
airplanes and those things, until you get them joint certified.
    And then Tier 3 is what we already talked about, the JTASC. 
Twenty-nine Palms and Force 21, for example, at Fort Hood, 
Texas, those are Service responsibilities. I visit those 
training facilities. I am very satisfied with where we are 
right now.
    I will tell you, though, that from a distribution of 
dollars, with 70 percent being O&M and 30 percent investment, 
if we continue this trend and we keep using equipment with old 
trucks, et cetera, we are going to wear the stuff out that we 
have and you are not going to have the equipment to train in a 
couple of years from now.
    Mr. Lewis. Going specifically to joint training as it 
relates to your command, what joint training exercises will 
take place in 1997 in your command and what is the budget for 
1998?
    Mr. Sheehan. Sir, the big item that we are going to spend 
the next couple of months working on is a cooperative defense 
which is the theater missile defense roving sands at Fort 
Bliss, Texas. We are also going to do what we call a unified 
endeavor, that is, the joint JTASC Training Simulation Program. 
That will be in the fall of the year.
    We will do one Partnership for Peace exercise in the United 
States, called Cooperative Osprey, and we are going to take 
basically a battalion minors from the 82nd Airborne with the 
Central Asian Peacekeeping Battalion, called CENTRASBAT and do 
an exercise in Uzbekistan and Kazakhstan.
    In 1998, we are going to focus on combined joint training 
with the US and plus the normal activity we in the operations 
through the Unified Endeavor Exercise. We do not do large scale 
exercises per se, putting 50- or 60,000 people in the field. We 
only do that once every 5 years and that is called Purple Star 
exercise.

                            JOINT OPERATIONS

    Mr. Lewis. General, in your earlier response to Mr. Obey 
and to myself, I kind of--I heard at least you are coming down 
on both sides of the answers that might be given relative to 
the adequacy of jointness.
    I feel very strongly that we need the broadest 
interpretation of the values and the impact of joint activity.
    The illustration I gave you relative to UAVs and the Air 
Force Command would indicate just exactly the opposite to me. 
Would you be very clear to me? Do you think we have got major 
problems in this area of jointness?
    General Sheehan. I think that there are always going to be 
problems in this area, because when you are talking about 
budget programs and money and Service cultures, roles and 
missions, you are always going to have friction. But from 
someone that has watched this process evolve, I am more than 
comfortable in terms of where we are in our maturity. It takes 
time to flesh out of the system people who are single-Service 
and parochial. You will always find that. I think that we have 
come a long way.
    I worked in the Office of the Secretary of Defense when 
Goldwater-Nichols was first drafted. I happened to be fortunate 
or unfortunate to be in the room when the Service chiefs argued 
against Goldwater-Nichols. One of the Service chiefs said that 
Goldwater-Nichols was unAmerican, and they fought very hard 
against it.
    We are a better Service, we are a better military, because 
of Goldwater-Nichols. We still have warts. And that is mostly 
personality-dependent people who just haven't understood that 
the U.S. military fights for this Nation; that it isn't about 
being in the Air Force, it isn't about being in the Marine 
Corps or the Army, but it is about giving the best possible 
product for this Nation.
    So we are still a couple of years away from fleshing out 
from the system people who haven't got the message. But I am 
encouraged by what I see. I see this every single day in joint 
training. I am surprised and encouraged by the maturity of some 
of the people that you run across in this business.
    Mr. Lewis. One of the reasons I have been using the 
illustration that I have been using is that among procurement 
efforts, new programs, the Predator was one I saw move forward 
very quickly. It seemed to break the mold of having to have a 
library of information and checks against counterchecks before 
you moved forward with procurement. And now that we have gone 
through that initial phase, now we--it seems to me that we, by 
way of the way--by way of the delegation of authority we have 
taken ourselves back to an over standard and it is a reflection 
of something less than maturing, and what I am hearing from you 
at least is that you are very supportive of more rapid 
maturing.
    General Sheehan. I think that the decisions to give it to a 
single Service was the correct decision. I am very comfortable 
that in General George Joulwan's mind, there was no question in 
General George Joulwan's mind just who owned the Predator and 
who could move it around the battlefield.
    Mr. Lewis. I can say that in our session earlier, there was 
some question when he heard that wetness was not an addition or 
development that would take place in Bosnia, I mean that--it is 
just the other side of what you just said.
    General Sheehan. But at the end of the day, as the Joint 
force commander, he will decide. We face this issue on certain 
platforms. I mean, we do--I mean, to give you an example a 
couple of years ago in September of 1994, when we put Army 
rangers on an aircraft carrier, the Marine Corps had a heart 
attack. They got over it. It takes time.
    Mr. Lewis. Thank you, General.
    Thank you.
    Mr. Young. Mr. Visclosky, do you have additional questions?

                                  CUBA

    Mr. Visclosky. Mr. Chairman, just if I could, General, what 
is your assessment of the political and economic situation in 
Cuba today?
    General Sheehan. The economic situation is improving, 
partially because of tourism, partially because of some foreign 
investment. The political situation is stable. Castro clearly 
is in charge. I think that--part of that, I think, is because 
we have forced the elites of Cuba together because of our 
recent decision in Helms-Burton. I think that the Cuban 
military clearly understands that regardless of what happens in 
the transition in Cuba they are going to be forced to be dealt 
with either for the good or for the bad.
    My argument has always been that somehow or another, you 
either get a line into the Cuban military, not because Raul and 
his brother Fidel are good people. It is just that I discount 
them. The Cuban military recognizes they are on a downward 
spiral. There is no exit; that they are--they don't want to--I 
mean, my sense from talking to them is that they don't want to 
go out into the streets and kill their own people.
    I think the Revolutionary Armed Forces, FAR headquarters 
clearly is politically loyal to Castro, but I think the--we 
can't treat them as a monolithic organization. I think the 
economic peace will stabilize, but eventually deteriorate. 
Large segments of the population are on a starvation diet. What 
I mean by that is less than 1,700 calories. And I think Castro 
is a very shrewd guy.
    Mr. Visclosky. General, thank you.
    Thank you, Mr. Chairman.
    Mr. Young. General, thank you very much for a very thought-
provoking presentation this afternoon. We appreciate that and 
we invite you to keep in touch with us. If there are problems 
that we ought to be aware of, let us know.
    The Committee is adjourned until 10:00 a.m. on Wednesday, 
when we will hear testimony from Admiral Preuher, Pacific 
Command; and General Tilleli, Commander U.S. Forces, Korea. At 
1:30 in the afternoon we will hear from General Peay, Commander 
in Chief, U.S. Central Command.
    If there is nothing further, the Committee is adjourned.
    General Sheehan. Thank you, Mr. Chairman.
    [Clerk's note.--Questions submitted by Mr. Young and the 
answers thereto follow:]

                      Current Operations/Training

    Question. Please list for the Committee the major deployments 
undertaken by the Atlantic Command in the past fiscal year.
    Answer. The following operations have been supported by the U.S. 
Atlantic Command during the period October 1995--September 1996. 
Operations are listed as operation/contingency name, dates and 
description:

------------------------------------------------------------------------
           CONTINGENCY                   DATES            DESCRIPTION
------------------------------------------------------------------------
Global Naval Force Presence       Continuous........  ------.
 Policy (GNFPP).
Global Naval Force Presence       Continuous........  ------.
 Policy (GNFPP).
Global Naval Force Presence       Continuous........  ------.
 Policy (GNFPP).
Global Naval Force Presence       Continuous........  ------.
 Policy (GNFPP).
Air Expeditionary Force (AEF) in  Continuous          ------.
 support of GNFPP gaps in          (between 95-180
 CENTCOM.                          days per year).
Multinational Force and           7/78-Present......  Force provider for
 Observers (MFO).                                      United Nations
                                                       (UN) peacekeeping
                                                       operations to
                                                       enforce Camp
                                                       David Accords
                                                       ending Egyptian-
                                                       Israeli October
                                                       1973 War in Sinai
                                                       Peninsula.
Counterdrug Operations..........  7/90-Present......  Various
                                                       counterdrug
                                                       operations in the
                                                       Caribbean and
                                                       southeast U.S. by
                                                       Joint Task Force
                                                       (JTF) 4, Joint
                                                       interagency Task
                                                       Force (JIATF)
                                                       EAST, and JTF 6;
                                                       conduct detection
                                                       and monitoring,
                                                       and coordinate
                                                       with law
                                                       enforcement
                                                       agencies (LEAs).
Operation PROVIDE promise.......  7/92-12/95........  Force provider for
                                                       UN peacekeeping
                                                       operations in
                                                       Bosnia.
Operations SHARP GUARD/DECISIVE   7/92-Present......  Force Provider for
 ENHANCEMENT.                                          UN embargo in
                                                       Adriatic Sea.
Operation SOUTHERN WATCH........  8/92-Present......  Force provider for
                                                       Central Command
                                                       to enforce the UN
                                                       no-fly zone over
                                                       southern Iraq;
                                                       increased US
                                                       presence with
                                                       AEFs to Bahrain
                                                       (10/95) and
                                                       Jordan (3/96).
Opertions DENY FLIGHT/DECISIVE    4/93-Present......  Force provider
 EDGE.                                                 support of UN no-
                                                       fly zone over
                                                       Bosnia-
                                                       Herzegovina (B-
                                                       H).
Task Force ABLE SENTRY (TFAS)...  6/93-Present......  Force provider
                                                       support of UN
                                                       military
                                                       observers in
                                                       Macedonia.
Operation SEA SIGNAL............  5/94-4/96.........  Establish JTF 160
                                                       and the Joint
                                                       Logistics Support
                                                       Group (JLSG) to
                                                       support Haitian
                                                       and Cuban migrant
                                                       operations at
                                                       Guantanamo Bay,
                                                       Cuba.
Operation UPHOLD DEMOCRACY......  9/94-Present......  Establish JTF 180,
                                                       JTF 190, United
                                                       Nations Mission
                                                       in Haiti (UNMIH),
                                                       U.S. Support
                                                       Group Haiti
                                                       (USSPTGPHAITI);
                                                       conduct
                                                       multinational
                                                       operations to
                                                       restore
                                                       democracy;
                                                       continued support
                                                       under exercise
                                                       FAIRWINDS after 4/
                                                       96.
Operation VIGILANT WARRIOR II...  8/95-11/95........  Force provider to
                                                       Central Command
                                                       to augment forces
                                                       in Southwest Asia
                                                       (SWA) following
                                                       defection of
                                                       Hussein's family
                                                       members and
                                                       Iraq's unstable
                                                       government.
Operations JOINT ENDEAVOR/JOINT   12/95-Present.....  Force provider in
 GUARD.                                                support of
                                                       European Command
                                                       for the NATO
                                                       peace
                                                       implementation
                                                       force (IFOR) and
                                                       stabilization
                                                       force (SFOR) in
                                                       Bosnia;
                                                       established the
                                                       Joint Preparation
                                                       and Onward
                                                       Movement (JPOM)
                                                       Center, Fort
                                                       Benning to
                                                       provide joint
                                                       training for IFOR/
                                                       SFOR augmentees
                                                       assigned to joint
                                                       staffs.
Operations SENTINEL LIFEGUARD/    2/96-3/96.........  Designate JIATF
 STANDOFF FOUR.                                        EAST as CJTF 4 to
                                                       assist U.S. Coast
                                                       Guard search and
                                                       rescue (SAR)
                                                       efforts following
                                                       the 24 February
                                                       1996 shootdown of
                                                       two Brothers to
                                                       the Rescue (BTTR)
                                                       aircraft;
                                                       monitored post
                                                       shootdown BTTR
                                                       flotilla
                                                       activities.
Operation STANDOFF FIVE; CJTF     3/96-Present......  Designate JIATF
 110 operations.                                       EAST as CJTF 110
                                                       to monitor Cuban
                                                       exile flotilla
                                                       activity and
                                                       subsequent Cuban
                                                       military activity
                                                       in the Florida
                                                       Strait.
Operation VIGILANT SENTINEL.....  4/96..............  Force provider to
                                                       Central Command
                                                       to augment forces
                                                       in southwest Asia
                                                       (SWA).
Operation DESERT FOCUS..........  8/96-Present......  Force provider to
                                                       Central Command
                                                       to increase
                                                       security
                                                       following the
                                                       terrorist bombing
                                                       of a U.S.
                                                       compound in Saudi
                                                       Arabia (6/96);
                                                       force provider to
                                                       build a new base
                                                       in Saudi Arabia.
Operation DESERT STRIKE.........  9/96..............  Force provider for
                                                       air-launched
                                                       missile strikes
                                                       against Iraqi air
                                                       defense targets
                                                       to protect
                                                       expanded no-fly
                                                       zone over
                                                       northern Iraq;
                                                       completed in
                                                       conjunction with
                                                       the movement of
                                                       Kurdish foreign
                                                       service nationals
                                                       to Pacific
                                                       Command
                                                       (Operation
                                                       PACIFIC HAVEN).
Exercise INTRINSIC ACTION.......  9/96-Present......  Force provider for
                                                       show of force
                                                       exercises in
                                                       southwest Asia
                                                       (SWA).
Panama Canal Treaty.............  3/94-Present......  Force provider to
                                                       Southern command
                                                       to augment force
                                                       structure in
                                                       Panama until
                                                       redeployment of
                                                       U.S. forces
                                                       following
                                                       turnover of the
                                                       Canal Zone to
                                                       Panama.
Operation SUSTAIN LIBERTY.......  3/96-Present......  Force provider to
                                                       Southern Command
                                                       to augment force
                                                       structure in
                                                       Panama.
JTF BRAVO.......................  3/94-Present......  Force provider to
                                                       Southern Command
                                                       to support peace
                                                       efforts in
                                                       Honduras.
Operation SAFE BORDER...........  3/94-Present......  Force provider to
                                                       Southern Command
                                                       to support peace
                                                       efforts along the
                                                       Peru-Ecuador
                                                       border.
Sensitive Reconnaissance          10/95.............  Force provider to
 Operations (SRO).                                     European and
                                                       Pacific Commands
                                                       with RIVET JOINT
                                                       aircraft.
                                  11/95-6/96........  Force provider to
                                                       Pacific Command
                                                       with COBRA BALL
                                                       aircraft.
Air Sampling Operations.........  4/96-7/96.........  Force provider to
                                                       Pacific Command
                                                       with air sampling
                                                       aircraft.
Unit Deployment Plan (UDP)......  3/92-Present......  Force provider to
                                                       Pacific Command
                                                       for the U.S.
                                                       Marine Corps unit
                                                       rotation plan to
                                                       Japan.
Operation ASSURED RESPONSE......  4/96-8/96.........  Force provider to
                                                       European Command
                                                       in support of non-
                                                       combatant
                                                       operations (NEO)
                                                       in Liberia.
Operation QUICK RESPONSE........  5/96..............  ..................
Operation MARATHON..............  10/96.............  Designated
                                                       Commanding
                                                       Officer, Naval
                                                       Base Guantanamo
                                                       Bay as Commander
                                                       Joint Task Force
                                                       (CJTF) MARATHON
                                                       to support
                                                       transfer of 109
                                                       rescued Chinese
                                                       migrants to Wake
                                                       Island (Pacific);
                                                       continued in
                                                       Pacific Command
                                                       as Operation
                                                       MARATHON PACIFIC.
African Crisis Response Force     11/96-Present.....  Force provider to
 (Operation GUARDIAN ASSISTANCE).                      European Command
                                                       in support of
                                                       relief and
                                                       humanitarian
                                                       support to UN
                                                       forces in Zaire
                                                       and Rwanda.
Hurricane Opal Relief...........  10/95.............  Supported Federal
                                                       Emergency
                                                       Management Agency
                                                       (FEMA) relief
                                                       operations in
                                                       Gulf of Mexico
                                                       coast states.
Icelandic avalanche Relief......  10/95.............  Supported
                                                       avalanche relief
                                                       operations in
                                                       Flateyri,
                                                       Iceland.
Atlanta Olympic and Paralympic    10/95-8/96........  ..................
 games.
Northwest Flood Relief..........  2/96..............  Supported FEMA
                                                       flood relief
                                                       efforts in Idaho,
                                                       Washington,
                                                       Oregon.
Hurricane Bertha Relief.........  7/96..............  Supported FEMA
                                                       Bertha relief
                                                       operations in
                                                       Caribbean
                                                       islands.
TWA Flight 800 Salvage..........  7/96-10/96........  Supported search
                                                       and rescue (SAR)
                                                       and salvage
                                                       operations near
                                                       Long Island, New
                                                       York.
Wildland Fire Fighting Support..  8/96-9/96.........  Supported FEMA
                                                       fire fighting
                                                       efforts in the
                                                       western U.S.
Hurricane Fran Relief...........  9/96..............  Supported FEMA
                                                       Fran relief
                                                       operations in the
                                                       southeast U.S.
Exercise UNIFIED ENDEAVOR 96-1..  11/95.............  Combined Arms
                                                       Exercise (CAX),
                                                       joint training of
                                                       a Commander Joint
                                                       Task Force
                                                       (CJTF).
Joint Task Force Exercise         11/96-12/95.......  Readiness
 (JTFEX) 96-1.                                         certification in
                                                       joint operations
                                                       for the USS
                                                       GEORGE WASHINGTON
                                                       CVBG and USS GUAM
                                                       ARG.
Exercise FAIRWINDS..............  4/96-Present......  Conducted
                                                       humanitarian
                                                       support projects
                                                       in Haiti.
Exercise PURPLE STAR 96 (NATO)..  5/96..............  U.S.-United
                                                       Kingdom combined
                                                       joint task force
                                                       military field
                                                       exercises at Camp
                                                       Lejeune, North
                                                       Carolina.
Exercise COOPERATIVE ZENITH 96    5/96..............  Partnership for
 (NATO).                                               Peace (PfP)
                                                       exercise in
                                                       Florida;
                                                       conducted search
                                                       and rescue
                                                       operations with
                                                       U.S., NATO, and
                                                       PfP countries.
Exercise ROVING SANDS 96........  6/96..............  Large scale joint
                                                       training exercise
                                                       in southwestern
                                                       U.S.
Exercise UNIFIED ENDEAVOR 96-2..  6/96-7/96.........  Combined Arms
                                                       Exercise (CAX),
                                                       joint training of
                                                       a Commander Joint
                                                       Task Force
                                                       (CJTF).
JTFEX 96-2......................  4/96..............  Readiness
                                                       certification in
                                                       joint operations
                                                       for the USS
                                                       ENTERPRISE CVBG
                                                       and USS SAIPAN
                                                       ARG.
Exercise COOPERATIVE OSPREY 96    8/96..............  Partnership for
 (NATO).                                               Peace (PfP)
                                                       exercise in
                                                       Florida;
                                                       conducted field
                                                       exercises with
                                                       U.S., NATO, and
                                                       PfP countries.
Exercise TRADEWINDS.............  3/96-4/96.........  Special Operations
                                                       Forces (SOF)
                                                       exercise with
                                                       various Caribbean
                                                       countries.
Special Operations Forces (SOF)   2/96-7/96.........  SOF training
 Joint Exercise Training (JCETS)                       deployments to
 Deployments.                                          various Caribbean
                                                       island nations.
JTFEX 97-1......................  10/96.............  Readiness
                                                       certification in
                                                       joint operations
                                                       for the USS
                                                       THEODORE
                                                       ROOSEVELT CVBG
                                                       and USS NASSAU
                                                       ARG.
------------------------------------------------------------------------

    Question. Is the operating tempo (OPTEMPO) of any units under your 
command significantly higher than any others? If so, which units?
    Answer. Yes, Thresholds have been exceeded in some areas due to 
ongoing contingency commitments. The impact is particularly severe on 
low density, high demand (LD/HD) specialized forces, which are critical 
to our ability to respond to both Operations Other Than War (OOTW) 
missions and Major Regional Conflicts ------.
    Question. Do you feel that Military Operations Other than War by US 
forces has affected the readiness or combat skills of US forces?
    Answer. Yes, the number and duration of Military Operations Other 
than War degrades the readiness and combat skills of all deployed 
military units. The degradation depends on factors such as the duration 
of deployment, operation requirements, type of unit, etc. Other 
factors, such as the wear and tear on aging equipment and the use of 
Operations and Maintenance funds, also affect readiness. It is 
difficult to quantify the readiness impact and loss of combat skills 
across the board, however, a few examples may help clarify this point.
    Even though some training can be accomplished in the field and some 
training value is inherent in the operations, training to maintain many 
perishable combat skills is not available. Marksmanship, gunnery, 
maneuver, low-level navigation, air-to-ground ordnance delivery, air-
to-air combat, and airdrops require maneuver space, artillery and 
firing ranges, drop zones, bombing ranges, and low-level routes. These 
ranges, zones, and routes are the basic requirements for maintaining 
the perishable skills of combat units. Even those units who initially 
get good training encounter diminished training opportunities after 
they complete their initial tasks and settle into a routine. This is 
especially true for engineering units. Once the bridges are in place 
and the tent-cities are complete, the mission becomes one of 
maintaining, and eventually, the duration of the operation negates the 
initial training benefits.
    Maintenance can suffer in the field; it is a continuous challenge 
and exacerbates the impact of long deployments. There is an increase in 
wear and tear and decrease in the available facilities and time to 
perform routine and preventive maintenance. Some equipment experiences 
extreme wear and may not be serviceable after a long deployment with 
constant exposure to the elements. Much of the equipment in bare-base 
kits such as Harvest Falcon may have to be replaced after a deployment.
    Funding for these operations can have a severe impact on readiness. 
Although the $3.3 billion spent on contingency operations in 1996 was 
only 1.3 percent of the FY 1966 defense budget, the cost is taken from 
Operations and Maintenance funds--the training and readiness funds. 
This year, if a supplemental bill is not passed, Forces Command will 
have to start shutting down functional operations in the May timeframe.
    Question. Are the funds budgeted for the service's fiscal year 1998 
request sufficient for your projected training needs?
    Answer. Yes, the funding for fiscal year 1998 joint training is 
sufficient. However, I believe that funding for service specific 
training--training that prepares units for joint training--may be 
underfunded in order to pay for contingency operations, especially if 
the Bosnia supplemental is not passed.
    Question. Has U.S. participation in Operations Other Than War 
altered the type of exercises you conduct?
    Answer. Yes. Until recently, combatant command staffs concentrated 
almost exclusively on deliberate and contingency planning for potential 
high end warfighting. Today, a gamut of ``on-the-shelf'' plans exist 
that span the Operations Other Than War spectrum ranging from low-end 
humanitarian assistance operations through sophisticated peace-
enforcement and noncombatant evacuation operations.
    Joint Warfighting and Operations Other Than War missions depend 
heavily on multinational coalition integration. As such, it is 
important to train and exercise U.S. forces with regional multinational 
forces. Command and Control interoperability, logistics integration, 
common force protection procedures and rules of engagement compatible 
with provisions of international and national law are among the most 
crucial elements of these training exercises.
    Question. For fiscal year 1997, Congress appropriated $267 million 
for JCS exercises. It is the committee's understanding that the 
Atlantic Command has the primary responsibility for the execution of 
those funds. How has the money been spent to date and what do you see 
as the primary benefit of those exercises?
    Answer. The $267 million funds only the FY96 airlift portion of the 
transportation to and from the exercises (the FY97 airlift funding is 
$244 million and the total FY97 JCS Exercise transportation program, 
including sealift, port handling, and in-land transportation is $362 
million.) The $267 million also doesn't address the Service funded 
costs incurred at the exercise location.
    The Joint Staff is the agency with primary responsibility for these 
funds. Joint Staff allotted approximately $32.4 million (12%) of the 
$267 million cited to Atlantic Command. The remainder is distributed to 
other CINCs by Joint Staff for their requirements. The USACOM funds 
have been budgeted for sealift and airlift requirements identified in 
the time-phased force and deployment data (TPFDD) for Atlantic Command 
sponsored exercises. These exercises fall into the general categories 
of Tier 3 (staff training), Tier 2 (field training), Partnership for 
Peace, NATO and Area of Responsibility exercises. The $32.4 million is 
committed to currently scheduled exercises. However, we requested $35 
million for FY 1997, leaving a $2.6 million shortfall. The primary 
benefits of the exercises are:
    Ensure U.S. military members/units are acquainted with joint and 
combined warfighting tasks prior to in-theater arrival.
    Train U.S. military members the way they are expected to fight.
    Sustain and build joint readiness.
    Provide a vehicle to learn and practice joint doctrine.
    Improve warfighting effectiveness of U.S. forces.
    Provide for joint and combined multinational interoperability 
training for U.S. components.
    Establish a cooperative relationship and improved effectiveness 
between combined forces of Atlantic Command and NATO/Partner Nations.
    Meet treaty obligations and provide assistance to developing 
countries in concert with Atlantic Command's theater strategy.
    Question. Do you believe that $267 million for JCS exercises is 
adequate given the growing importance of joint operations?
    Answer. No. Again, the $267 million funds only the FY96 airlift 
portion of the transportation to and from the exercises (the FY97 
airlift funding is $244 million and the total FY97 JCS Exercise 
transportation program, including sealift, port handling, and in-land 
transportation is $362 million.) The $267 million also doesn't address 
the Service funded costs incurred at the exercise location.
    The Joint Staff has primary responsibility for the transportation 
funds and the FY98 President's Budget funds Defense Planning Guidance 
directed OPTEMPO. In fiscal year 1997 we need $35 million dollars and 
have been allocated $32 million dollars, leaving a shortfall of $2.6 
million dollars. In fiscal year 1998, our allocated joint 
transportation funds are $24.8 million. We require $27.3 million 
resulting in a shortfall of $2.5 million. For fiscal year 1999 our 
requirements are $22.4 million with $21.4 million dollars allocated 
again resulting in a shortfall of $1 million.
    The question that needs to be addressed is how to qualitatively 
differentiate between joint transportation dollars that are expended 
for joint training exercises and those spent for presence and access 
exercises. According to the July 1995 General Accounting Office report 
on Military Capabilities, Stronger Joint Staff Role Needed to Enhance 
Joint Military Training, 73% of surveyed exercises were presence or 
access exercises.
    Question. The Atlantic Command maintains the Joint Training, 
Analysis and Simulation Center (JTASC) in Suffolk, Virginia. It is 
reportedly one of the premiere centers of computer modeling and 
simulation. Describe to the Committee the purpose of the Unified 
Endeavor exercises that are run in the JTASC.
    Answer. The Unified Endeavor (UE) exercise series is designed to 
train Joint Task Force (JTF) staffs and commanders to meet JTF joint 
mission essential task list (JMETL) and joint force integrator (JFI) 
standards under established conditions. UE exercises stress combat 
decisions and applied doctrine through the use of operational command, 
control, computers, and intelligence (C4I) in a high-stress, 
operational-like environment. They stress process rather than training 
on specific equipment in a home-based environment. UE simulations 
employ actual terrain and threat databases and real-time intelligence 
assets in areas of potential crises. They are not, however, intended to 
validate or exercise specific real-world plans even if they are used as 
a basis for exercise design. Troops and other field units are not used 
as training aids for a UE exercise.
    USACOM has trained the following JTF staffs in UE exercises: XVIII 
Airborne Corps, II Marine Expeditionary Force (MEF), 8th Air Force, and 
III Corps. Training is scheduled during the next year for: 2nd Fleet, 
II MEF, and III Corps. Training to be conducted by 2nd Fleet and II MEF 
will be in conjunction with NATO nations and will involve our first use 
of coalition doctrine for a JTF. When other nations are involved with a 
UE, they absorb the costs for national participation.
    In addition, USACOM has provided UE-type academic training support 
to JTFs and other headquarters assigned to other Commanders in Chief 
(CINCs) and Military Departments, as well as, NATO. Specifically 
training has been provided to 6th Fleet, 8th, 16th, and 17th Air 
Forces, I Corps, 3rd Army, Bosian Implementation Force (IFOR), JTF 
Panama, US Forces Azores. Training will be provided this year for 3rd 
Army, Iceland Defense Force (IDF), US Forces Azores, Southern European 
Task Force (SETAF), Marine Corps Command and Control School, Allied 
Forces Central Europe (AFCENT), and UK Permanent Joint Headquarters 
(PJHQ).
    Question. What command field exercises can now be performed at the 
JTASC and what annual savings can be realized as a result?
    Answer. As a result of the development of the UNIFIED ENDEAVOR 
exercise series, training of Joint Task Force Commanders and staffs 
without troops in the field, USACOM was able to cancel five field 
training events:
        Exercise                                      Cost (in millions)
(1) Agile Provider................................................  $9.3
(2) Market Square.................................................   3.9
(3) Mighty Thunder................................................   0.4
(4) Resolute Response.............................................   4.2
(5) Rendezvous....................................................   0.5

    The cost savings associated with these events was $18.3 million 
joint transportation dollars. In addition, the Services now save $40 to 
$60 million in operations and maintenance costs associated with putting 
troops in the field and ships at sea for large exercises. They also 
save in the use of tens of thousands of forces in the field which were 
previously required to train general/flag officers and their staffs.
    Currently, a single UNIFIED ENDEAVOR exercise which trains a 3 star 
Joint Task Force Commander and his staff and the 1 and 2 star component 
commanders and their staffs is approximately $600 thousand in joint 
transportation costs and $2.3 million in operations and maintenance 
costs using 2500 support personnel.
    In addition, the initiative to tie all geographic CINCs Joint Task 
Force training events to the JTASC is being developed by the Joint 
Staff in conjunction with the Joint Warfighting Center and USACOM. Use 
of the JTASC would be expanded for use to standardize Joint Task Force 
training on a worldwide scale. Although, no dollar figure can be 
currently assigned, this alternative could have huge potential cost 
savings to all CINCs, and possibly NATO if coalition forces are 
considered in the training audience.
    Question. Could an over-reliance on simulated exercises as opposed 
to actual ones lead to the decreased readiness of those units 
participating?
    Answer. Yes. From a total force capability perspective, simulations 
alone cannot completely replace field training exercises. Our UE 
exercises have proven to be an effective vehicle for the training of 
three star Joint Task Force Commanders and staffs, and two star 
component commanders and staffs.
    However, they are not designed to train forces in joint 
interoperability tasks. This is conducted within our Tier 2 exercise 
program where joint interoperability is achieved through field training 
exercises based on critical interoperability tasks from supported 
CINCs. The goal is to provide a common level of joint training prior to 
deployment and ensure that no US military member or unit is confronted 
with a joint warfighting task for the first time after arrival in-
theater. The frequency of events is based upon unit deployment 
schedules or as required to support unit readiness. The objective of 
the Tier 2 Exercise Program will be joint forces trained to standards, 
ready for complex joint operations anywhere throughout the world.

                      Priorities and Deficiencies

    Question. Do you feel the interests and needs of the Atlantic 
Command have been adequately addressed in the fiscal year 1998 defense 
budget request before the Committee?
    Answer. Yes, but there are several areas that cross Service 
boundaries that demand close attention from the Congress and DoD 
leadership. We must develop and field a joint Combat Identification 
system for detection of ``friend-or-foe'' in order to provide for the 
safety of our fighting men and women. A command, control, 
communications, computer and intelligence (C4I) architecture which 
incorporates processing and analysis commonality is vitally needed for 
joint task force (JTF) commanders. Finally, a cohesive, integrated 
resourcing strategy for reconnaissance/surveillance platforms to 
support collection and dissemination requirements, an area now being 
addressed by the Joint Requirements Oversight Council (JROC) for fusion 
into a common system, is key to future joint warfighting.
    The JROC has evolved as a superb forcing function, ensuring 
recognized threats are balanced against existing hardware and future 
system developments are considered for joint applicability. The JROC 
forces the Services to ask the question--how does this planned weapon 
system play in the joint fight and therefore necessitate resource 
programming with the resulting answer in mind. This is not to say that 
there isn't more work to be done by us all in integrating existing 
systems into the joint fight.
    Question. What is your assessment of the major shortfalls in: 
Personnel, Training, Equipment, and Maintenance for those units under 
your day-to-day command as well as those that would be assigned to you 
in a war time situation?
    Answer. As I stated in my testimony, I firmly believe the men and 
women of USACOM are the best equipped, trained and led military in the 
world. They are ready to accomplish any of their assigned missions. 
However, signs of potential problems in personnel, equipment, and 
training are beginning to surface.
    Army first-term attrition is up to 37%, versus 31% ten years ago. 
This coupled with possible recruiting shortfalls could lead to critical 
personnel shortages down the road. Ninety-nine percent of Air Force 
accessions in Fiscal Year 97 to date are high school graduates, but 
only 79% scored in the top half of the Air Force Qualification Test, 
down from 83% in Fiscal Year 96. Critical specialties, such as pilots, 
are beginning to show a decline in retention. The Fiscal Year 96 pilot 
retention in the 6-11 years range dropped from 86% to 77%. Furthermore, 
those pilots taking the Aviator Continuation Pay dropped from 77% to 
59%. Whether these retention numbers are directly related to operating 
tempo remains to be determined, but they are indications that the 
current personnel trends are moving in the wrong direction.
    Modernization is a key pillar in the foundation for implementation 
of Joint Vision 2010. And although near-term readiness is funded 
adequately, modernization for the future remains underfunded. During 
the Army downsizing, it reshaped the force while maintaining current 
readiness, in some cases, by deferring modernization and redistributing 
modernized equipment across the smaller force. With this smaller force, 
Forces Command units must be able to execute a full range of 
operations. Further deferral of modernization will incur significant 
risk to future readiness in Forces Command and Force 21, inhibiting the 
ability to execute these full range of operations. The Air Force 
backlog of maintenance and repairs continues to grow from $4.4 billion 
in fiscal year 1998 to $5 billion in fiscal year 1999. In addition, the 
Navy's aircraft fleet continues to age. The average age of the fleet 
was 14.5 years in 1991. Even with the introduction of the F/A-18 C&D 
model aircraft and the retirement of the A-6, the current age is 14.3 
years.
    Question. What are the top ten priority items on your most recent 
integrated priority list?
    Answer. The top ten priorities from integrated priority list fiscal 
year 1999-2003 are:
    1. Force Readiness:
    (A) Establish up-front supplemental appropriations or timely 
reimbursement for contingency and operations other than war. These 
appropriations should not be sourced or reimbursed from DOD service 
accounts.
    (B) In view of increasing mission requirements and smaller force 
structure, establish a periodic review to validate recurring 
deployments and joint/allied/bilateral exercises worldwide.
    (C) Active force PERSTEMPO issues can be improved by continued 
insistence on increasing Reserve Component (RC) integration.
    1--Fully fund RC program accounts to allow execution of added 
travel, training and operations without decrementing normal training 
funds.
    2--Require modernization of relevant RC equipment. Give special 
consideration to C41 systems to facilitate seamless RC integration with 
active component forces.
    (D) Require full funding of steaming days/flying hours/operating 
miles.
    (E) Strong support for quality of life initiatives to include 
adequate compensation, decent housing, rewarding career opportunities 
and family support. Prevent pay scales from falling short of 
inflationary increases.
    (F) Continuous intensive language refresher training is essential 
for enhancement and sustainment of perishable foreign language skills. 
Review critical language skills worldwide and build a database 
accessible by CINCs, services and agencies to support crisis, 
contingencies and exercises.
    (G) Program adequate funding to prevent maintenance backlogs from 
increasing.
    2. Combating Terrorism/Force Protection. Funding required to:
    (A) Develop standards for pre-deployment anti-terrorism training 
for all CONUS-based, DOD forces.
    (B) Conduct enhanced anti-terrorism training for combatant command 
(COCOM) forces deploying into the USACOM Area of Responsibility (AOR) 
and, as necessary, for COCOM forces deploying into other AOR's.
    (C) Conduct assessment of force protection status for all DOD 
activities within the geographic AOR. This includes contractor support 
to and site visits by ACOM force protection assessment team.
    (D) Support expanded manpower requirements for counter-
intelligence/anti-terrorism (CI/AT) collection.
    (E) Provide security enhancement measures to facilities/units to 
include application of both current and emergent technologies. 
Technology applications are envisioned in lieu of committing additional 
personnel assets to security requirements, and as the most effective 
and feasible means of providing force protection to non-hardened sites.
    (F) Provide for timely commitment of resources in response to 
emergent terrorist threats.
    (G) Field a common DOD migration system in support of counter-
intelligence (CI), counter-terrorism (CT), counter-proliferation (CP) 
and indications and Warning (I&W) that is interoperable with Global 
Command and Control System (GCCS).
    3. Joint Logistics:
    (A) Correct quantity shortages in both precision and conventional 
munitions.
    (B) Joint Total Asset Visibility (JTAV) (including in-transit 
visibility) must be fully supported and contributing programs must be 
compatible.
    (C) Upgrade essential log infrastructure. Require improved rail/
port/air facilities, warehouses, containers and container handling 
facilities/equipment to support rapid force deployment.
    (D) Our ability to execute Joint Logistics Over The Shore (JLOTS) 
requires interoperable lighterage/causeways, and sea state two Roll On-
Roll Off Discharge Facility (RRDF) now. Sufficient research and 
development funding (only) required for sea state three development. 
JLOTS training for AC and RC is vital.
    (E) Afloat and ashore prepositioned asset capabilities:
    1--Army Prepositioning Afloat (APA) and Marine Corps Enhanced 
Maritime Preposition Force (MPF-E) required for rapid strategic 
positioning of equipment and materials for MRC-size force buildup and 
military operations other than war (MOOTW).
    2--Fund additional rapid deployable beddown systems as force 
provider and harvest falcon/eagle for prepositioning.
    4. Interoperability of C4I systems:
    (A) Require commonality in processing and analysis.
    1--Accelerate fielding of interoperable J-series family of data 
links (link 16 and VMF).
    2--Resource development of common management information systems 
(MIS), including interoperable hardware and databases to include multi-
level security (MLS) tagging of data elements.
    3--Migrate to common imagery ground/surface system.
    4--Develop common collection management tool kit and computer 
mapping software.
    5--Develop integrated broadcast service and migrate to global 
broadcast system (GBS).
    6--Continue to upgrade warfighter utility of GCCS. Meld fire 
support, intelligence, and personnel into a single, full spectrum, C2 
support system. Continue development and fielding of deployable GCCS at 
tactical level.
    5. Fund Joint Training. Require full out-year funding for Joint 
Training Analysis and Simulation Center (JTASC) facility/programs to 
continue joint training initiatives. This includes a joint intelligence 
model as part of the Joint Simulation System (JSIMS) modules for use by 
service and joint participants.
    6. Countermine Warfare. Require immediate capability to detect and 
neutralize mines. Joint countermine Advanced Concept Technology 
Demonstration (ACTD) and other mine countermeasure programs need 
development/rapid fielding, especially for very shallow water (VSW)/
shallow water (SW) environments.
    7. Non-lethal Technologies. Fund development of additional non-
lethal technologies to support military, counter-drug and force 
protection operations. Recapitalization.
    8. Strategic Lift (air and sea). Must achieve the mobility 
requirements study bottom up review update (MRS BURU) mandated 
strategic airlift and sealift capability. C-17, large medium speed roll 
on-roll off (LMSR), and funding of ready reserve force fleet capacity 
are critical to meeting this requirement.
    9. Tactical Mobility.
    (A) Must provide suitable replacement capability for aging 
inventory of medium life helos.
    (B) Timely recapitalization of aging tactical wheeled vehicle 
inventory required.
    (C) Require additional small watercraft in support of riverine 
operations.
    10. Replace airborne Command and Control C2 platforms. Require 
airborne C2 platform capable of: initial/sustained command and control 
of forces; receipt of all source, real-time indication/warning of 
potential battlespace threats; electronically countering hostile C2 
assets.
    Question. In your view, are present levels of investment funding 
contained in the department's future year defense plan sufficient to 
address the long term recapitalization requirements of today's forces?
    Answer. No. We need approximately $50 billion to modernize and 
recapitalize our Bottom-Up-Review forces. If shortfalls continue, DOD 
will be on the road to obsolescence. For example, if Navy only buys 
four to five ships a year, the fleet will in time dwindle to 200 ships. 
The bottom line is programmatics do not fit the concept or vice versa.

               Troop Quality, Morale, and Medical Issues

    Question. General Sheehan, have you noticed any deterioration in 
the quality of the new troops entering your theater? How would you 
describe their physical condition? Are the troops as mentally 
disciplined as those in prior years?
    Answer. No. Even though we are often forced to deploy cross-leveled 
units, stretch the limits of our combat service and support force 
structure, and respond more frequently with fewer and fewer units, the 
men and women of USACOM and the entire U.S. armed forces are the best 
equipped, trained and led military in the world. Quality force and 
wellness initiatives have taken on new strategic importance in today's 
requirement for a ready Continental U.S.-based force to sustain and 
support forward commanders in chief (CINCs) and provide domestic 
response capability. Generally, the physical condition of our troops in 
the field is as good as it has been in past years and is getting even 
better. Their leadership training, physical conditioning, and improved 
wellness management make them a better and more sustainable warfighting 
force than we have fielded before. Increased emphasis on wellness 
programs by the Services, improved medical surveillance and health 
maintenance programs, and leveraged military medicine techniques and 
technology like telemedicine, care-in-the-air aeromedical evacuation, 
patient tracking with in-transit visibility, and forward medical 
surgical capability ensure constant vigilance over threats to troop 
wellness and their ability to mentally and physically sustain high 
levels of performance. The troops that we are sending into operational 
areas such as Haiti and into harsh overseas environments such as 
Iceland are very mission focused. They understand the task at hand and 
have the discipline in most cases to get it done. The troops of today 
are accustomed to and familiar with the technically advanced tools and 
technologies employed on the modern battlefield, and cope better in 
many cases than those in prior years. This has allowed us to challenge 
them earlier and transition more technically sophisticated 
responsibilities to more junior troops than was possible or practical 
in earlier years.
    However, there are threats to these advances. Today's troops face 
not only the stresses associated with deployments away from their 
support network, but they also face longer hours on the job at home 
maintaining the aging equipment inventory and training for the next 
mission. Particular attention should be paid to the continued care and 
attention to family support, quality of life during deployment and 
periods of non-deployment, and job security issues upon return from 
stressful deployments. Finally, recent uncoordinated attempts by the 
Navy's Surgeon General to cut the training program at Portsmouth Naval 
Hospital, if executed, will have the serious impact on the morale and 
readiness of the forces.
    Question. Have you found that the new troops enter the field with 
more personal problems than those in the past?
    Answer. No. While there are the standard personal problems that 
will appear with any deployment, my commanders in the field report that 
these problems are no different than any other deployments they have 
been involved with. The troops we are seeing today are more aware of 
the relationship of quality of life to lifestyle management, and more 
educated and willing to take personal responsibility for good choices 
and good health. Make no mistake, the military lifestyle makes demands 
on individuals and families that are not a part of civilian life, 
however, I am confident that the support systems which the Services and 
the chain of command have put into place in recent years are, at least 
in part, responsible for the lack of an increase in personal problems 
in our service members.
    Question. How is the morale of your troops on deployment in the 
theater?
    Answer. We currently have troops deployed throughout the USACOM 
Area of Responsibility conducting diverse and challenging missions. 
These men and women are the best trained and equipped professionals in 
the world. The moral of our deployed men and women in the theater 
remains high. Morale in the theater is high because the troops remain 
focused on the mission at hand which is what they were trained to do. 
Most military men and women joined the service to see the world. 
Deployments in support of real world missions are a source of pride and 
satisfaction for the troops in the theater.
    The problem we're having today is when the troops come back to home 
station. In many cases they are working just as many hours when they 
return. Following a deployment, the actual time spent with families is 
usually not the same as the anticipated and deserved time. Morale then, 
is not a problem with our forward deployed men and women, but is more 
of an issue with troops that are either in support roles or between 
deployments back in CONUS. We are often demanding more of our troops at 
home who are supporting our deployed troops, intensely training for the 
next deployment cycle, or working progressively long hours on aging 
equipment. Most units go through a period of degradation after a 
deployment in order to beef up other units preparing for the next 
deployment. When our troops return from deployment they expect a well 
deserved rest, but we find they often put more time on the job and 
family time suffers.
    Question. In visiting various statewide bases, members of the 
Committee have been hearing complaints about medical care and dental 
plans. How satisfied are troops and dependents in ACOM with the medical 
care, and dental care for themselves and their dependents? What are the 
major shortcomings of medical care in your command? How many U.S. 
military operated hospitals are there in the Atlantic Command?
    Answer. The troops and their dependents are generally satisfied 
with the medical and dental care they're provided. This said, I am 
still concerned about the diluted Service focus towards continued 
professional medical education. Recent uncoordinated attempts by the 
Navy's Surgeon General to cut the training program at Portsmouth Naval 
Hospital, if executed, will have a serious impact on the morale and 
readiness of the forces. Bringing our medical professionals to a level 
of expertise, and keeping them there, is critical to ensuring this 
country's military men and women are well taken care of and that joint 
task force commanders can remain confident that today's force will be 
available for tomorrow's fight. Funding decisions made during the 
Fiscal Year 1999 Budget Review, shifting focus from medical treatment 
facilities towards smaller ``clinics'' with less specialized medical 
care, reduce troop and dependent access to more acute medical 
treatment. Additionally, pulling trained medical professionals from 
these facilities increases the likelihood that physicians will not have 
the training and skills necessary when called upon during conflict. In 
my Area of Responsibility (AOR) there are three hospitals.

       Quadrennial Defense Review and the Future Force Structure

    Question. The Quadrennial Defense Review (QDR) will reexamine the 
current national security strategy and present force structure of the 
armed services. The QDR will purportedly make recommendations as to 
what the appropriate mix of forces will look like to meet the strategic 
and regional threats of the future. The results are due to be presented 
to the Congress in May of this Year.
    You have been outspoken in the past on the need to ``be open to the 
case for a radical restructuring of our armed forces.'' You have also 
noted that the so-called ``tooth-to-tail ratio'', that is the number of 
combat forces versus the number of support forces necessary to maintain 
them, is severely out of balance. To illustrate your point you have 
made the following observations in interviews or addresses:
    --That ``There are 150,000 DoD military within a 50 mile radius of 
Washington D.C., while there are only 129,000 sailors in the entire 
Atlantic Fleet.''
    --``In the DoD there are 199 separate staffs at the civilian and 
the two-star and above flag officer level.'' And;
    --Statistically, that the Army has only about 125,000 ``warfighters 
supported by 375,000 uniformed personnel and another 300,000 civilians 
. . . that works out to only 16 percent of the total force.''
    You have also concluded that ``if we're not careful, we could 
become the best trained staff to ever get run off a hill.''
    Do you believe that staff cuts alone will free up the necessary 
funds to achieve the Department's modernization goals?
    Answer. No. Even the most generous estimates of the savings that 
could be generated by overhead reductions fall dramatically short of 
the amounts needed to achieve DoD modernization goals. But, that should 
not deter our efforts to restore the proper balance between combat 
forces and support personnel. From the Cold War peak (FY87) to the 
present, we have dramatically cut the overall force while making only 
token reductions in headquarters staffs. Likewise, the ratios of 
enlisted personnel to officers, and junior civilian personnel to senior 
personnel, have grown disproportionate. We are compromising 
modernization by retaining a disproportionately top-heavy force 
structure which is expensive and unnecessary.
    Question. Given present resources should we give up the notion of a 
force capability to conduct two near simultaneous Major Regional 
Conflicts (MRCs)?
    Answer. No, we should not give up the force capability to conduct 
two near simultaneous MRCs. This capability is a key element supporting 
our ``National Security Strategy of Engagement and Enlargement.'' 
Moreover, it is essential to our role as the remaining superpower with 
the responsibility to respond globally with a broad range of 
capabilities until ``coalitions of the willing'' are able to react to 
the ``hot sports'' of today's world.

                    Tactical Aircraft Modernization

    Question. A recent Congressional Budget Office (CBO) study 
estimates that the total cost to develop and acquire all the aircraft 
presently envisioned for the F-22, F-18E/F, and Joint Strike Fighter 
programs will amount to $350 billion, even without factoring in 
inflation. Depending on what funding assumptions you make, these three 
programs could consume anywhere from 25 to 50 percent of all defense 
department procurement spending in the future.
    General Sheehan, you have been quoted as asking the question: ``Why 
spend $213 billion (over the next decade) for marginal improvements in 
airplanes when we still haven't figured out how to kill tanks?'' Could 
you please expand your views to the Committee as to the relative 
priority of tactical aircraft modernization versus other Defense 
Department weapon requirements?
    Answer. Tactical aircraft modernization must be considered as only 
one part of a large total force modernization program. As such it must 
be conducted with a clear understanding of current and future joint 
warfighting requirements. It must recognize that some elements of our 
current tactical aircraft force structure are redundant. Moreover, 
because the airframes were so expensive, we suboptimized some fixed and 
rotary wing aircraft in terms of combat identification and night 
capabilities. Friend or foe identification capability must be 
incorporated on all attack aircraft. Aggressive, joint sponsorship for 
this initiative is required. We must ensure that any modernization that 
is conducted is based on joint warfighting requirements and the need 
for all elements of a joint force to be interoperable. All too often we 
suboptimize weapons programs within a large concept of operations and 
then suboptimize the weapons systems themselves such that they are not 
fully capable of operating in a complex, joint battlespace.
    Question. Given the most likely threats in the most likely 
geographic settings of the future, do you believe that 25 to 50 percent 
of all DoD procurement funding is warranted just for tactical aircraft 
modernization?
    Answer. The issue is not whether the threat/geographic combination 
warrants expending a significant portion of the DoD procurement budget 
for tactical aircraft modernization, but whether the threat/geographic 
combination warrants the types of aircraft we are planning to procure 
during this modernization. Fighter recapitalization programs are 
necessary to ensure essential warfighting capabilities remain available 
to support the National Security Strategy. For our continued success as 
the world's only military superpower, we need a modern, survivable, and 
increasingly lethal fleet of tactical aircraft with their associated 
capabilities. Combined with the advanced precision weapon purchases, 
these programs may represent a substantial portion of the DoD budget, 
but the capability they engender is vital to our 21st century 
warfighting needs. Nevertheless, we still must give serious 
consideration to the proper mix of tactical aviation assets which are 
purchased. In light of predictions that we will face no peer 
competitors in the next 10-15 years, we must not purchase airframes 
unless they clearly support our national strategy and provide 
capabilities vital to executing our military strategy.
    Question. General, you have argued recently that ``naval aviation 
still does not have a clear concept of where fixed-wing aviation fits 
in strike warfare.'' What in your view are the major conceptual issues 
that need to be resolved in this mission area as the Navy embarks upon 
the acquisition of 1000 F/A-18E/Fs at a total program cost of $67 
billion?
    Answer. In referring to the Navy's lack of a clear concept of 
fixed-wing aviation's place in strike warfare, I see two key issues. 
First, the Naval Services (United States Navy and Marine Corps) need to 
find an optimum, but affordable balance between fixed wing tactical 
aircraft, combat support aircraft (e.g., proper medium lift mix) and 
cruise missiles. Prior decisions, given current budgetary constraints, 
must be viewed with an eye toward trade-offs that will allow naval 
aviation to sufficiently fund airframes to fill deck requirements and 
adequately fund Standard Depot Level Maintenance (SDLM) Schedules. Can 
Marine Corps fixed-wing aircraft be more aggressively utilized to fill 
carrier decks? Can a larger percentage of the tactical aircraft strike 
mission (e.g., deep interdiction) be assumed by improved, surface 
launched cruise missiles, freeing manned aircraft for close support 
missions? Second, naval aviation, along with other joint warfighting 
capabilities, have yet to recognize the potential geo-strategic impacts 
that world population growth and a shift toward coastal, urbanized 
areas will have on our force structure and military missions. Because 
of the large investment, fixed-wing tactical aircraft must be relevant 
to the entire conflict spectrum, e.g., capable of supporting lower-end 
operations in addition to the high-end warfighting tasks.

            Atlantic Command Role in Theater Missile Defense

    Question. As of last autumn the Defense Science Board and the 
Defense Policy Board were urging that the U.S. Atlantic Command be put 
in charge of the Department's joint theater missile defense (TMD) 
architecture. It has also been reported that USACOM has been given the 
sole responsibility for the most basic TMD requirements document.
    Why is it appropriate that your command should take the lead in 
defining a TMD architecture?
    Answer. As the Joint Force Integrator, USACOM is the best command 
to deal with the ``quintessential joint program,'' Joint Theater 
Missile Defense (JTMD). Because JTMD involves capabilities from all the 
Services, a joint headquarters is needed to provide a joint warfighting 
focus and to integrate ``stovepiped'' Service programs.
    Since USACOM assumed control of the JTMD Initiative in July 1996 we 
have embarked on a three-pronged approach. These three areas are:
    --Coherent Defense 97. Established to examine and produce potential 
resolution to procedural issues between the Army and Air Force, and to 
develop a command and control architecture for JTMD.
    --Theater Missile Defense Capstone Requirements Document. By 
direction of the Vice Chairman of the Joint Chiefs of Staff, USACOM has 
taken the lead for updating JTMD requirements in concert with other 
warfighting CINC's. USACOM is carrying out this tasking by developing a 
Theater Missile Defense Capstone Requirements Document (TMD CRD), which 
will be approved by all warfighting CINC's and subsequently the Joint 
Requirements Oversight Council (JROC).
    --JTMD-Related Universal Joint Task List Tasks, Conditions and 
Standards Development. The identification and further definition of 
JTMD-related tasks conditions and standards will improve upon efforts 
to train and integrate forces based upon supported command 
requirements, further the development of the CJCS Universal Joint Task 
List, and advocate the continued adaptation of warfighter requirements 
to existing and future joint doctrine.
    Subsequent to the commencement of the JTMD Initiative, the Office 
of the Secretary of Defense and the Chairman of the Joint Chiefs of 
Staff have established the Joint Theater Air and Missile Defense 
Organization (JTAMDO) to define required system interoperabilities and 
operational architectures, and to validate the developing joint theater 
air and missile defense capabilities through both simulation and 
technology demonstrations.
    With JTAMDO focusing on the TMD architecture, USACOM is taking an 
active role within the Integrated Product Team structure of JTAMDO to 
develop supporting architectures operational concepts.
    Question. Will your architecture specify common sensors, supporting 
communications systems and data dissemination networks and force the 
services to adhere to one set of standards where multiple technology 
solutions may already exist?
    Answer. Yes. As part of USACOM's TMD Initiative, the Coherent 
Defense series of exercises are designed to address operational 
architecture issues among the Services for Joint Theater Missile 
Defense (JTMD).
    The first of the series Coherent Defense 97 is currently ongoing. 
It was established to examine and produce potential resolution to 
procedural issues between the Army and Air Force, develop a command and 
control architecture for JTMD, and to subsequently provide draft 
tactics, techniques and procedures documentation to the Joint Staff 
that codifies agreed-to procedures for JTMD.
    Additionally, by direction of the Vice Chairman of the Joint Chiefs 
of Staff, USACOM has assumed responsibility for leading the development 
of overarching JTMD requirements in concert with other warfighting 
CINC's. USACOM is carrying out this tasking by developing a Theater 
Missile Defense Capstone Requirements Document (TMD CRD) specifically 
addressing a Family of Systems approach to the TMD mission. The TMD CRD 
will identify and validate overarching warfighting required 
capabilities inclusive of Command, Control, Communications, Computers 
and Intelligence (C4I), Passive Defense, Active Defense and Attack 
Operations to support JTMD into the next century.

           Advanced Concept Technology Demonstrations (ACTDs)

    Question. Advanced Concept Technology Demonstrations (ACTDs) were 
developed to accelerate and facilitate the application of mature 
advanced technologies to solve military problems and provide new 
operational capabilities to the field sooner than the normal 
acquisition process presently allows. ACOM is the most active ACTD user 
and sponsor, currently sponsoring 10 ACTDs or seventy percent of total 
active ACTDs that ACOM is currently sponsoring. General Sheehan, please 
provide a brief overview of the ACTDs that ACOM is currently 
sponsoring. Which ones do you believe hold the greatest promise to 
deliver near-term operational capability?
    Answer. As a point of clarification, USACOM is currently sponsoring 
eight ACTDs vice ten as stated in the QFR.
    The goal of Synthetic Theater of War (STOW) is to demonstrate the 
utility of advanced simulation technologies to directly support joint 
training and mission rehearsal. It is a prototype simulation system 
which uses entity or platform level simulation to conduct a segment of 
operational JTF training with tactical representation. Its objective: 
allow the user to preview technology under actual exercise training 
conditions to determine which technologies are useful and should 
transition to the Joint Simulation System (JSIMS). The initial demo and 
two year follow on period is 29 Oct 97 through December 99. The 
transition from STOW to JSIMS is being coordinated during this period 
and will serve to reduce the risk of JSIMS at its Initial Operations 
Capability (IOC) in FY 00/1. STOW is not intended as a stand alone 
system and will not become an operational capability. The success of 
JSIMS however, is very dependent on the results of the STOW program and 
its two year follow on period.
    The objective of the Joint CounterMine (JCM) ACTD is to demonstrate 
the capability to conduct seamless transition of countermine operations 
from sea to land. The ACTD represents twelve Novel systems that will 
provide capabilities ranging from clandestine reconnaissance and 
surveillance to overt reconnaissance, neutralization, clearing, 
breaching and marking. The ACTD also includes a C4I architecture that 
will provide a common countermine operational picture. The Modeling and 
Simulation capability (Joint CounterMine Operational Simulation (JCOS)) 
of JCM provides the ability to conduct course of action analysis and 
operational concepts, tactics, and doctrine development as well as 
training and evaluation. The JCM ACTD has significant potential to 
provide the warfighter an enhanced Counter Mine capability particularly 
in areas where no capability currently exists. Residuals from most of 
the Novel systems will be available next fiscal year.
    The Navigation Warfare (NAVWAR) ACTD was initiated as a catalyst 
for determining methods of preventing an adversary's use of satellite 
navigation information while protecting friendly access to signals from 
the precise Global Positioning System (GPS). While the threat from 
adversaries is still in a stage of early development, this ACTD is 
geared to long-term development of capabilities because growth and 
reliance upon precision navigation systems is growing worldwide. Early 
prototypes of prevention assets for offensive use against an adversary 
have been demonstrated in ongoing field assessments. Enhanced 
navigation receivers are still in the developmental stages with the 
first being delivered in the summer of 1997.
    The High Altitude Endurance Unmanned Aerial Vehicle (HAE UAV) ACTD 
will provide near real time imagery to the warfighter from two 
performance enhanced unmanned aerial vehicles, the Global Hawk (GH) and 
the Dark Star (DS). The Global Hawk will provide a long dwell 
capability and the Dark Star will provide the assured receipt 
capability. Eight GH and six DS vehicles will be produced for the ACTD 
with the military assessment demonstrations planned to end in the fall 
of 2000. The capability provided by both Global Hawk and Dark Star will 
be of enormous benefit to the warfighter.
    The Combat Identification (CID) ACTD was developed in response to 
the fratricide issues as a result of the Gulf War. The overall 
objective of the CID ACTD is to demonstrate and assess technologies 
that can enhance the capability of our combat forces to positively 
identify friendly, hostile, and neutral platforms during Air-to-Ground 
and Ground-to-Ground operations, in order to maximize combat 
effectiveness and reduce fratricide due to mis-identification. The ACTD 
is a system of systems assessing the military utility of eleven 
different technologies. Of the eleven technologies, three have 
demonstrated potential for near term operational capability thus far. 
The Battlefield Combat ID System (BCIS) is a ground-to-ground point-of-
engagement system that utilizes a millimeter wave interrogator and 
transponder to query the suspect target. Situational Awareness Beacon 
w/Reply (SABER) is a situational awareness technology solution, 
providing identification code, position information and other host 
platform data. This information is transmitted via UHF line-of-sight 
radios or indirectly via UHF satellite link. In the most deficient CID 
mission area (Air-to-Ground), the Situational Awareness Data Link 
(SADL), an Air Force Air National Guard/Reserve initiative to install 
an Army Enhanced Position Location Reporting System (EPLRS) radio in F-
16 and A-10 aircraft receives situational awareness (SA) and target ID 
information (friendly ground maneuver vehicle locations) from the 
ground tactical network.
    The objective of the Advanced Joint Planning (AJP) ACTD is to 
identify and enhance operational planning capabilities. AJP leverages 
software technology to build planning tools or applications that assist 
staff planners in deployment and execution planning of joint forces. 
The ACTD is divided into three main areas or capabilities. The Joint 
Readiness Automated Management System (JRAMS) allows planners to 
quickly assess availability and preparedness of forces. Joint Planning 
and Execution Toolkit (JPET) is a collaborative planning toolkit for 
Crisis Action Planning (CAP). The Map Based Planner (MBP) allows the 
planner to visualize Courses of Action as it appears on a map of the 
area. Both JRAMS and JPET have demonstrated near term capacity and are 
undergoing hardening and evaluation in preparation for migration to the 
Global Command and Control System (GCCS).
    The Battlefield Awareness and Data Dissemination (BADD) ACTD 
integrates information management and broadcast technologies to provide 
the Joint Task Force commander the ability to dynamically configure his 
communications and information control. It is aimed at providing an 
efficient and seamless information management infrastructure for the 
warfighter, targeted to achieve total battlefield awareness. It 
provides information needed when needed, in the format needed, in a 
timely and cost effective manner. The BADD program, working with the 
Global Broadcast System (GBS), other advanced communications, and 
legacy systems has a reach back capability to Intel data that will get 
warfighting information to the tactical level and allow warfighters to 
access new and different data sources to create more concise and robust 
operational views of the battlespace than ever before. The ability of 
the reach back capability to request and provide imagery via the Global 
Broadcast system to the BADD work station was demonstrated last fall.
    The objective of the Semi-Automated IMINT Processing ACTD is to 
significantly improve the Image Analyst's (IA) ability to process the 
ever increasing surveillance imagery generated by U-2 aircraft and the 
new High Altitude Endurance Unmanned Aerial Vehicles. With the 
decreasing number of the IAs in the services, this is of particular 
interest to USACOM. The ACTD exploits Automatic Target Recognition 
(ATR) technology and integrates this with other imagery exploitation 
tools to rapidly process large amounts of imagery typically generated 
by sensors such as Synthetic Aperture Array Radars (SAR) employed in 
wide area search modes of operation. The system is currently operating 
with the U-2 aircraft in Operation Desert Capture which is part of the 
army Task Force XXI exercises at Fort Irwin, Ca. This particular 
exercise is part of the system development and will be used to baseline 
the initial system design. The technological risk and military utility 
of the system is part of the overall assessment of the ACTD which is 
scheduled to complete in FY99.
    Question. ACTDs are a relatively new concept which are still 
experiencing growing pains as warfighters and service acquisition 
organizations try to figure out the most appropriate way to test and 
swiftly field systems developed under ACTDs in a manner which ensures 
that the systems can be adequately supported once they are delivered to 
operating units.
    What are your views as to how the present ACTD program is 
structured and how it might be improved?
    Answer. ACTDs are making significant progress in involving the 
warfighter in the development and assessment of these advanced 
technologies. As an evolving process there are, however, some areas for 
potential improvement. The transition of the ACTD is the least 
developed portion and the shortcoming was graphically illustrated when 
USACOM tried to transition the Predator ACTD to a receiving service. An 
ACTD is initiated with the signing of the Implementation directive. One 
of the signatores is a service acquisition executive (SAE). At this 
point the ACTD needs to clearly designate a lead service and the 
involvement of that service's acquisition agency. The service 
acquisition agency should get involved early on to both POM and plan 
for the transition of the ACTD so that, if successful, the ACTD can 
transition in a timely manner. This would allow the prospective program 
manager and his OT&E organization to assist with the transition 
planning. Their suggestions of what data or other steps should be taken 
within the ACTD to minimize the time and effort needed after the ACTD 
ends to achieve a production decision (where that is appropriate) would 
be mutually beneficial.
    Earlier involvement of the user sponsor in the selection process 
for new ACTDs could help the prospective lead service in it's overall 
planning process. The joint staff takes into consideration the needs 
and prospective roles of the services/CINCs as part of their 
determination within the ACTD process. Likewise, an earlier involvement 
of the Unified Commands in the selection process for new ACTDs would 
lessen the impact on the ACTD caused by the user sponsor as the 
Operational Manager becomes more familiar with the program details and 
begins to introduce the warfighter view.
    Question. Even an ACTD success story such as the Predator unmanned 
aerial vehicle has had its difficulties. Initial Predator vehicles 
delivered to Bosnia lacked de-icing mechanisms on their wings, causing 
extended delays to winter flight operations. Problems such as these may 
have been detected by more extended operational testing than that 
conducted under the ACTD.
    How do you believe a balance can be struck between the need to 
swiftly develop and field a capability for the warfighter and the need 
to ensure that it is adequately tested before it gets to the field and 
an adequate support infrastructure is in place once it gets there?
    Answer. In short, earlier designation and aggressive integration of 
a Service sponsor is required to ensure an ACTD has optimum military 
utility and that the product is sustainable. Additionally, a parallel 
reform effort within the traditional Operational Test and Evaluation 
(OT&E) and Logistic communities is necessary. These reforms must be 
keyed to the ongoing reforms in the acquisition process that are 
inherent in the ACTD process, to ensure an expeditious and seamless 
transition to the warfighter of the ACTD product or capability.
    Specifically, to facilitate adequate testing and evaluation, early 
involvement and commitment from sponsoring Services must occur. The 
Service should integrate their OT&E organization within the ACTD test 
and evaluation program that is managed variably by the Defense 
Evaluation Support Agency (DESA) or a confederation of other DOD 
organizations. However, while ACTDs are designed to reform and 
accelerate the acquisition process, the Service OT&E organizations 
still function at the pace of the traditional DOD acquisition timeline. 
A parallel reform effort in Service OT&E processes must be adopted.
    Predator did involve Service OT&E organizations in the program; 
however, their inflexible and highly structured processes were slow and 
cumbersome within the ACTD boundaries. Service OT&E is keyed to the DOD 
5000 series timelines of 7 or more years. To effectively integrate 
Service OT&E into an ACTD, the Services must adopt a separate program 
to facilitate rapid demonstration/exercise planning; cheaper, smaller 
and more flexible data collection efforts; and expeditious analytical 
and reporting capabilities. It would have been impossible to achieve 
the milestones within the Predator ACTD if the program was linked to a 
Service OT&E organization. USACOM used the Defense Evaluation Support 
Agency (DESA) to assist in a rapid planning, testing and evaluation 
cycle that was designed specifically for the ACTD process.
    In a similar fashion, supportability issues are a valid concern but 
may have to remain a tradeoff for the rapid integration of new 
technologies into the military. By its very nature, an ACTD does not 
provide enough time and resources to collect adequate data on system 
vulnerabilities, the Service-life of the system and its components, 
identification of critical components, system production and inventory 
levels, etc. This problem is harder to solve, but involvement of 
Services early in an ACTD can mitigate some of these problems. At a 
minimum, with Service involvement, deficiencies can be identified early 
in an ACTD. This could stimulate concurrent analyses by the Services to 
determine the gaps in information, the vulnerable parts of the program, 
and issues for follow-on review once an ACTD enters the transition 
phase. Additionally, Service logisticians could alert ACTD managers to 
unique requirements for data that may be integrated into other 
collection efforts.
    The bottomline is the ACTD process is not the panacea for DOD 
acquisition, however, it is a very valuable tool for Joint Force 
Integration that is necessary to speed the integration of new 
capabilities to the warfighter. Clearly, the process is not suited for 
all acquisition and development efforts, but makes good sense in the 
way it has been employed to date. I wouldn't want to build a major 
weapon system, such as a new class aircraft carrier this way, but this 
process can effectively, if not perfectly, give the warfighter a ``good 
enough'' capability rapidly.

                  Joint Interoperability/C4I Programs

    Question. The principle objective of the Goldwater-Nichols 
Department of Defense Reorganization Act was to address the persistent 
problems of interservice interoperability, unclear command 
relationships and competing doctrine that had hampered joint service 
contingency operations in the past. The intent was to make all services 
work together as a joint team. Are major procurement decisions made by 
the services today on the basis of what a program contributes to the 
nation's total defense capability as opposed to the individual 
services?
    Answer. Most decisions are made based on overarching joint 
warfighting requirements. The Joint Requirements Oversight Council 
(JROC) has evolved as a superb forcing function, ensuring recognized 
threats are balanced against existing hardware and future system 
developments are considered for joint applicability. The JROC forces 
the Services to ask the question, ``how does this planned weapon system 
play in the joint fight and therefore necessitate resource programming 
with the resulting answer in mind.'' This is not to say that there 
isn't more work to be done by us all in integrating existing systems 
into the joint fight. Greater focus on developing one common Combat 
Identification system for detection of ``friend-or-foe'' is critical to 
the safety of the men and women fighting in all future conflicts. A 
Command, Control, Communications, Computer and Intelligence (C4I) 
architecture which incorporates processing and analysis commonality is 
vitally needed for joint task force (JTF) commanders; and a cohesive, 
integrated resourcing strategy of reconnaissance/surveillance platforms 
to support increasing collection and dissemination requirements is an 
area which although somewhat fractionalized, is now being addressed by 
the JROC for fusion into a common system.
    Question. By some estimates the Department of Defense spends almost 
40 percent of its annual budget on command, control, communication, 
computer, and intelligence (C4I) programs. Do you believe that this 
level on investment in sensors, communications systems, and data 
distribution networks has resulted in increased interoperability among 
the services or have unique service information architectures persisted 
which inhibit joint operations?
    Answer. Architectures remain fragmented between Services, Agencies, 
and Unified CINCs, and are further fragmented between the C4 and I 
communities. A coherent strategy employing the new Joint Technical 
Architecture, including a forcing-function, is needed to consolidate an 
architecture that can drive the PPBS process. We must agree on a 
definition of a Joint C4I Architecture which will, of course, include 
necessary service unique systems, but which will also highlight the 
need for a modification of Title 10 provisions. The current provisions 
encourage the service needs vice joint interoperability requirements by 
denying a mechanism to enforce the use of the joint interoperability 
solutions and result in fielding technology latent systems.
    C4I is, and must continue to be, a large portion of the DoD budget. 
However, our best information indicates the figure to be somewhere 
closer to 20 percent based on the President's Fiscal Year 98 budget. 
Many of the programs involve very expensive space platforms, and 
virtually all the programs/systems require software/hardware 
development and cryptologic support. C4I is a critical enabler and 
requires a clear linkage to the comprehensive investment strategy. 
Without investing in C4I (larger pipes, expanding the C4I grid 
structure) now, we reduce our capability to assure the level of 
information dominance the warfighter will need to execute missions in 
the future.
    Question. How should the department and the services seek to 
improve this situation in the future?
    Answer. A C4I CINC could provide direction, leadership, oversight, 
and control in validating mission need statements, development, 
acquisition, funding, and fielding of interoperable C4I systems for use 
in joint/combined operations.
    A process supporting CINC and Service Staff functional involvement 
from the beginning of system/program development would lead to 
tailoring plans and strategies into an integrated vice functional 
perspective. We have made a beginning through the development of the 
Advanced Concept and Technology Demonstration (ACTD) program. This 
technology insertion program is also a first step in the reform of the 
acquisition process. USACOM, as the force trainer and provider, has 
fostered development and mandated the use of the Global Command & 
Control System (GCCS), and other joint systems in Joint Task Force 
(JTF) Exercises to insure that forces are prepared to operate in a 
joint environment. Early continuous insight by the CINCs and Services 
instead of after-the-fact oversight will lead to issue identification/
resolution and build a team committed to program success. Teamwork 
begins at the start--not a critique 4-6 years into the program. The 
CINCs would not be faced with integrating the Service systems when a 
potential conflict arises somewhere in the world as is the present 
situation.
    We are making progress with the establishment of the Decision 
Support Center, the C4I Integration Support Activity, and the stand-up 
of the Joint C4ISR Battle Lab. However, we expect limited success 
without Title 10 reform giving the CINCs more input into the 
acquisition and fielding process along with a C4I CINC empowered to 
enforce Joint Task Force Integration. A C4I CINC could ensure a ``plug-
and-play'' approach with cradle-to-grave management of the right 
information to the right warfighter at the right time.

                                  Cuba

    Question. How do you rate the present military capabilities of the 
Cuban armed forces? What are the Cuban military's near and long-term 
force modernization goals? Do you believe Cuba poses any threat to its 
neighbors in the region?
    Answer. ------ .
    Question. What is Cuba's current level of involvement in 
international drug trafficking?
    Answer. Cuba occupies a key geographic location astride primary air 
and maritime trafficking routes. Absence of formal diplomatic relations 
with the US makes it difficult to quantify the volume of drugs 
transiting through Cuban territory, or qualify the extent of official 
involvement.
    Intelligence reporting does not indicate official Cuban involvement 
in drug trafficking. Cuba has not publicized any drug-related 
corruption since the 1989 trial and execution of several top Military/
Ministry of Interior officials.
    However, the Cuban government appears to be reaching out in an 
effort to work with neighboring countries in counterdrug matters. 
Recently, the Cuban government established a relationship with the 
Royal Bahamian Police Drug Enforcement Unit in an effort to foster the 
flow of information between Cuba and the Bahamas. ------. The freighter 
Limerick was sailing from Barranquilla, Colombia, to Freeport in the 
Bahamas when it began to founder in international waters approximately 
12 miles from the US military base in Guantanamo Bay. A US Coast Guard 
vessel patrolling the area received permission to search the vessel, 
but decided to abandoned the ship when it began to take on water. After 
discovering the cocaine, the Cubans gave the drugs to US authorities, 
agreed to testify against the Captain and crew, and continued to search 
the vessel finding a hidden compartment filled with contraband.
    To date, bilateral US and Cuban drug enforcement remains sporadic 
and ad hoc, but professional.
    Question. What is the long-term likelihood of renewed mass 
migration from Cuba to the United States?
    Answer. Currently there are no Indications & Warnings (I&W) of 
potential mass migration from Cuba. This information is cooroborated by 
the U.S. Interest Section in Havana and the USCG Intelligence 
Coordination Center in Washington, D.C. The migration accords signed 
between the United States and the Government of Cuba has been very 
successful in thwarting migration patterns. Different from previous 
migration crises, the lottery system managed by the U.S. Interest 
Section in Havana, provides a mechanism for legal migration which was 
non-existent prior to the 1995 accords. It also serves as a migration 
valve for potential dissidents and the population at large. Indicators 
tells us also the Cuban government is complying with the terms of the 
accords and has vested political and economic interest in continuing to 
do so.
    Notwithstanding, we must keep in mind the Castro regime has 
historically maintained firm control of emigration through the Interior 
Ministry (Border Guard). Mass migration to the United States has always 
occurred with the regime's approval when it served the regime's 
purpose. In the long term, continued economic hardships could certainly 
cause the level of expressed popular discontent to compel the regime to 
re-evaluate the accord utility.

                                 Haiti

    Question. General Sheehan, what is your current assessment 
regarding the outlook for Haiti in terms of Political Stability; 
Economic Growth and; the Potential for renewed violence?
    Answer. Despite initial concerns over President Preval's ability to 
become a proactive and effective president, he has made surprising 
strides toward resolving the nagging issues that plague Haiti's 
political and social landscape. Challenged by lapses in the security 
environment and a beleaguered economy, President Preval has managed to 
keep Haiti's head above water. The democratic process continues to 
grow, as demonstrated by free and fair elections, and by the 
legislature's demonstrated resolve to serve as an independent set of 
checks and balances rather than as a rubber stamp for the President. 
While the political apparatus in Haiti is viewed as successful, its 
ability to maintain an equilibrium between the desires of the 
international community and political constituents will be the 
governments's greatest challenge as it leads Haiti into the next 
millennium.
    The government of Haiti must, however, address the growing concerns 
of the populace over the lack of economic progress, high cost of 
living, and security issues if the country is to continue to mature 
favorably. Future economic growth is dependent upon the Government's 
ability to ensure security, move towards privatization of state-held 
enterprises, and to attract foreign investment. Despite the controversy 
surrounding privatization the Government of Haiti is making slow 
progress. Crucial legislation addressing this issue has already met 
with Parliamentary approval, and more recently government officials 
have put forth a comprehensive plan outlining the timetable to 
privatize nine parastatals. ------ .
    Haiti has a history of both political and criminal violence. 
However, the majority of political violence has been dramatically 
curtailed since the restoration of democracy in 1994. While there have 
been some isolated incidents of politically motivated violence, the 
Government of Haiti is committed to the democratic process. ------ .

                           Drug Interdiction

    Question. General Sheehan, your command's area of responsibility 
includes the Caribbean basin of the Atlantic Ocean which is both home 
to indigenous drug traffickers and a major trade route used by the 
illicit drug producing nations of the southern hemisphere. Describe the 
present counter-narcotic operations of the Atlantic Command to the 
Committee.
    Answer. The US Atlantic Command supports two of the five goals in 
President's National Drug Control Strategy. These goals are to shield 
US frontiers from the threat, and break the drug supply sources.
    The US Atlantic Command supports those goals by: conducting 
intelligence-cued counterdrug detection and monitoring operations in 
support of domestic and international Law Enforcement Agencies, and 
providing support to the Interagencies and Host Nations to disrupt and 
reduce the flow of drugs throughout the area of responsibility and 
Mexico.
    We complete this tasking by focusing detection and monitoring 
resources on drug trafficker's centers of gravity and optimizing 
support to the Drug Law Enforcement Agencies and Host Nations. 
Prioritized Support to Mexico and the Southwest border, Puerto Rico and 
the US Virgin Islands, and other High Intensity Drug Trafficking Areas 
is how we have tasked subordinate commands to focus their detection and 
monitoring operations. These operations take into account intelligence 
cueing, actual high volume trafficking routes, and available resources 
to coherently assimilate counterdrug forces.
    Specifically, US Atlantic Command forces are conducting a variety 
of detection and monitoring tasks including air and maritime detection 
and monitoring, training, engineering projects, communications support, 
reconnaissance, transportation, information collection and riverine 
support. All of these DOD functions are in a support role with no 
military forces actually performing interdictions. The interdiction 
assets and personnel are coordinated by military forces but the actual 
arrests and seizures are conducted by law enforcement agencies such as 
the US Coast Guard, Customs, DEA, and FBI.
    Question. What are your most useful assets in performing this 
mission?
    Answer. The most important assets I have in the detection and 
monitoring mission are the two counterdrug organizations, Joint 
Interagency Task Force East, and Joint Task Force (JTF)-6.
    Joint Interagency Task Force, East in Key West, FL, which has on 
staff all interagency drug law enforcement as well as British and Dutch 
liaison officers, conducts detection and monitoring operations in the 
drug transit zone between the source zone in South America, and the US 
arrival zone. JTF-6, which is based in El Paso, TX, conducts detection 
and monitoring operations in support of domestic law enforcement in the 
US, Puerto Rico and the US Virgin Islands.
    These organizations are flexible enough to conduct timely 
operations to effectively neutralize the threat. Both organizations use 
the available technology (ships and aircraft, relocatable over the 
horizon radar, ground based radars, etc.) to effectively monitor the 
transit and arrival zones and focus interdiction assets to consummate 
the intercept. Also, the two organizations are heavily engaged in 
pushing future technologies to better conduct the mission.
    The most important part of the drug interdiction mission is Joint 
DOD, International and Interagency cooperative engagement and support. 
Through this cooperation, we have been able to focus limited resources 
from each agency or country into a cohesive detection and monitoring, 
and interdiction force. Couple this cooperation with advanced 
technology and planning and you have a significant force multiplier. To 
single out one specific asset which is the most useful would be very 
shortsighted. All of the detection and monitoring assets have relative 
strengths and limitations which require teamwork and proper utilization 
for mission accomplishment.
    Question. Does the performance of this mission detract from the 
military readiness of your operating units who engage in it?
    Answer. All of the counterdrug missions which DOD forces are 
conducting have some applicability to their primary warfighting mission 
area. For instance Early Warning aircraft are conducting air 
surveillance, Naval Combatant ships are conducting air surface target 
tracking, and intercept aircraft are standing alert ready to launch and 
identify a potential target of interest. JTF-6 in El Paso, TX, can show 
an 85% correlation of the Joint Mission Essential Task List to every 
one of its counterdrug missions. My Naval component, US Atlantic Fleet, 
has created a Western Hemisphere Group composed of several surface 
ships capable of conducting counterdrug operations. This organization 
provides the Naval ships for counterdrug operations so the units can 
focus their efforts, and the rest of the fleet can focus on Battle 
Group training.
    However, maintaining the required level of support for counterdrug 
operations and still providing the minimum level of stand down time is 
becoming increasingly more difficult. For example, the E-2 HAWKEYE 
community, by necessity, must support Carrier Battle Group deployments 
as well as support counterdrug operations, which require a squadron of 
E-2's deployed constantly. Since there are five Carrier Air Wings, and 
six Carriers in the Atlantic Fleet, these squadrons are constantly 
either on deployment or preparing for deployment. Now add the 
additional requirement for a 55 day counterdrug deployment and the 
resulting impact on personnel, equipment, and training, is significant. 
Any type of surge operation results in shuffling of already heavily 
tasked components and units. Recently, we have been asked to support an 
18 month surge operation in the Eastern Pacific. This requirement, 
although valid for counterdrug operations, may require reducing the 
escort ships from Carrier Battle Groups.
    Question. What are your views on the use of submarines in the 
detecting and tracking of suspected maritime drug traffickers?
    Answer. The submarine brings the traditional warfighting dimensions 
of identification and early warning, secure surveillance, and covert 
detection and monitoring to counterdrug operations. A stealthy and self 
sustaining platform, the submarine can loiter in wait for a suspect 
vessel for days and then shadow the unsuspecting contact gathering 
critical intelligence on trafficker patterns. Then the submarine can 
communicate this information to other units and assist them in 
interception and boarding. However, submarines are expensive, and with 
the downsizing of the force the capabilities that the submarine brings 
to the mission must be weighed against the cost of its operation and 
non-availability to meet other commitments where the vessel is just as 
badly needed.
    Submarine employment in counterdrug operations is an evolving 
process, both the ship and the tactical commander are refining 
operating procedures and doctrine to enhance effectiveness. This 
expensive asset has a permanent and important role in completing the 
counterdrug mission, and is a significant part of the synergistic asset 
management of detection and monitoring.

                               Dragonfly

    Question. In fiscal year 1995, the Committee added funds to 
evaluate the Canard Rotor/Wing (CRW) technology concept. CRW is a 
stopped rotor, high-speed VTOL air vehicle which performs as a 
helicopter for takeoff and landing and as a fixed wing aircraft for 
high-speed cruise. The Navy and USMC continue to endorse this 
technology for future manned and unmanned aircraft and to pursue its 
maturation through a Dragonfly Advanced Technology Demonstration (ATD).
    The Committee understands that the Dragonfly ATD was strongly 
recommended by three CINCs. General Sheehan, how important is Dragonfly 
to your warfighting mission and is it still one of your top ATDs?
    Answer. DRAGONFLY is an Advanced Technology Demonstration (ATD) in 
the earliest stages of assessment. Although it is an interesting 
technology that appears to have potential, it is far too early to gauge 
military utility. USACOM is only involved in Advanced Concept 
Technology Demonstrations (ACTD); the evaluation stage encompasses more 
mature technologies than ATDs. If the DRAGONFLY technology shows enough 
merit to advance to the ACTD level, USACOM could be involved in the 
evaluation process, at that point in time, as an operational sponsor.

    [Clerk's note.--End of questions submitted by Mr. Young.]
                                          Wednesday, March 5, 1997.

           COMMANDER IN CHIEF, UNITED STATES CENTRAL COMMAND

                                WITNESS

GENERAL J.H. BINFORD PEAY, III, COMMANDER IN CHIEF, UNITED STATES 
    CENTRAL COMMAND, U.S. ARMY

                              Introduction

    Mr. Young. The Committee will come to order.
    This afternoon the Committee concludes our series of 
Commanders in Chief hearings, and we are very happy to welcome 
General Peay, III, Commander in Chief, U.S. Central Command.
    Incidently, this is probably the last hearing John Plashal 
will staff for us, because he is going on to bigger and better 
things. We are going to miss him. He has done a really good job 
for the Committee over the 27 years, I think it has been, John. 
We will miss him. John does a good job.
    I thought I would mention that John will be leaving. Norm 
Dicks is going to organize a big going-away party for him.
    Mr. Dicks. If Mr. Murtha were here, he would want to 
certainly say a word. John has been terrific, and, as someone 
said, one of the best organizers of CODELs in the history of 
Congress. I think we should give John a round of applause.
    Mr. Young. I think that takes the place of the going-away 
party.
    General Peay, in your prepared statement you describe 
CENTCOM's area of responsibility with this quote. ``By any 
measure, this is a dangerous neighborhood.'' I think anyone 
that has paid any attention to what has happened there in 
recent time would certainly underscore that statement. You are 
absolutely correct.
    You have had the War in Afghanistan, the Iran-Iraq War, the 
Persian Gulf War, the Kuwaiti flagging exercise, the Iranian 
revolution and a number other lesser crises. The high tempo of 
ongoing U.S. operations in the region and the recent terrorist 
attack at Khobar Towers are vivid reminders that America does 
have vital national security interests in the CENTCOM region, 
and that the price of defending those interests is high.
    Pursuant to a vote that this Committee took last week, this 
hearing is closed, so we will be free to discuss, at whatever 
length you would like, matters that might be classified.
    We are looking forward to your testimony. Your entire 
statement will be placed in the record, feel free to summarize 
it in any way you wish. And then following that we will have 
some penetrating questions from the Members for you on the 
issues involving the CENTCOM area.
    We are glad to have you here, sir.

                   Summary Statement of General Peay

    General Peay. Good afternoon, Mr. Chairman. It is an honor 
to appear before this Committee to represent the men and women 
of U.S. Central Command and discuss Central Command's approach 
to protecting our Nation's interests in the Central Region.
    This morning, around 12,500 American Soldiers, Sailors, 
Airmen, and Marines are answering the call to duty in the 
Central Region. Members of Joint Task Force Southwest Asia are 
flying over Southern Iraq to enforce UN Security Council 
resolutions and U.S. warnings designed to prevent Saddam from 
attacking Shiites along the Euphrates River and his neighbors 
to the south.
    Since 1992, our airmen have logged a remarkable 131,000 
accident-free sorties, with over 86,000 of these over Iraq; a 
great tribute to the professionalism and technical skill of our 
pilots and air crews.
    Pressure on Iraq is magnified through enforcement of 
economic sanctions in the Arabian Gulf. Under the leadership of 
U.S. Naval Forces, Central Command, and FIFTH Fleet, this 
multinational flotilla has steadfastly enforced UN sanctions 
against Iraq since 1990. During this period, it has challenged 
23,000 vessels, intercepted more than 13,000, boarded nearly 
10,400 and diverted over 600.
    These operations are complex and dangerous. Our sailors 
have performed brilliantly in preventing incidents from 
spiraling out of control and in handling sensitive matters with 
great care.
    And, even as we undertake these activities, along with 
scores of exercises and security assistance programs, we are 
engaged in an aggressive program to reconfigure our forces in 
the region to contend with the increased terrorist threat.

                SAFEGUARDING U.S. INTERESTS AND SECURITY

    United States Central Command undertakes these operations 
to safeguard our Nation's vital and enduring interests in the 
Central Region.
    Principal among these are maintaining the flow of oil at 
reasonable prices; ensuring freedom of navigation and access to 
commercial markets; protecting American citizens and property 
abroad; and assuring the security of regional friends in the 
context of a comprehensive Middle East peace.
    Protecting our interests is a formidable task. The 20 
nations comprising our area of responsibility suffer from 
historic internal and external conflicts flowing from religious 
and tribal strife among the region's 430 million people, and 
from border disputes, competition for resources, economic 
disparities, and exploding populations.
    It is, by every measure, a dangerous neighborhood. I find 
it useful to organize these regional threats into five major 
groupings:
    First, the near-term threat of Iraq. With the largest 
regional army, Iraq has proven on several occasions over the 
past 3 years that it can mobilize and deploy quickly to 
threaten Kuwait and Saudi Arabia.
    Second, the mid- and long-term threat of Iran. Determined 
to dominate the region and lead the Islamic world, Iran has 
acquired significant naval resources that endanger the waters 
of the Gulf. Even more worrisome is its support for terrorism 
and pursuit of weapons of mass destruction, WMD both of which 
pose risks to regional states and U.S. interests.
    Third, the continuing proliferation of ballistic missiles, 
chemical and biological weapons, and nuclear technology 
exacerbating existing tensions.
    The situation has deteriorated during the past 12 months, 
with Iraq, Iran and others in the region aggressively seeking 
missile and nuclear technology and advancing their chemical and 
biological research and development programs.
    Fourth, terrorism. Religious, ethnic and tribal divisions, 
along with economic and political disenfranchisement, give rise 
to factions embracing violence as their best hope for achieving 
political and social change. Older organizations such as Hamas 
and Hizballah are now joined by ``transnational'' groups made 
up of Islamic extremists who gained military experience and 
religious indoctrination fighting in Afghanistan's civil war.
    Fifth, and lastly, general regional instability. Enduring 
social, economic, and political problems in the region produce 
general regional instability. Included are political upheaval, 
famine, economic adversity, border disputes, and challenges 
arising as aging leaders turn over power to the next 
generation, a development that has far-reaching implications 
for our country and the world.
    Iraq, Iran, proliferation of WMD, terrorism and regional 
instability; these are the five major threats with which our 
Nation must contend in the Central Region for at least the next 
quarter of a century.

                USCENTCOM'S FIVE-PILLAR THEATER STRATEGY

    United States Central Command's Five-Pillar Theater 
Strategy of power projection, forward presence, combined 
exercises, security assistance, and readiness to fight 
addresses these threats. It organizes forces, emplaces 
equipment and supplies, and establishes the relationships that 
promote stability, deter conflict, limit the intensity of 
conflict should deterrence fail, and facilitate the transition 
to war, if required.
    A major component of this strategy is forging regional 
partnerships and conducting coalition operations. We deem such 
relationships essential to achieve long-term U.S. goals in the 
region. Establishing them requires the U.S. to assist regional 
friends in realizing their legitimate self-defense needs.
    This is no easy task. They are in the process of 
modernizing their forces and fielding major weapon systems 
while simultaneously trying to restructure military 
organizations and overcome severe interoperability problems. 
Success requires that we be patient and embrace a long-term 
perspective. This is a 25-year process.
    We accomplish many of our requirements through a relatively 
small but lethal mix of Naval, Air, Ground, and Special 
Operations Forces operating in the region on a temporary but 
recurring basis, augmented by military advisers and trainers 
and by prepositioned stocks of equipment and supplies ashore 
and afloat.
    As defined in the forward presence, combined exercises, and 
security assistance pillars, these forces provide a near-
continuous presence in the region. This collage of military 
resources capitalizes on the complimentary capabilities of each 
service to manage risk and gain maximum flexibility to contend 
with the threats. It is an approach that is central to 
deterring conflict, enhancing military-to-military relations, 
assuring access to facilities, cementing coalitions, and 
supporting contingency operations.
    Bolstering these forward-positioned assets is America's 
military potential as defined in our power projection pillar. 
Included are additional aircraft, ships, Marines and Army 
Forces deploying from the Continental U.S. and elsewhere around 
the world.
    Combined, power projection and ``near-continuous presence'' 
offer a credible deterrent to would-be aggressors while also 
providing the ingredients for fighting and winning decisively, 
if required.
    Our final pillar, readiness to fight, binds the activities 
encapsulated in the previous pillars and enhances our ability 
to wage high-tempo, joint and multinational operations. We do 
this through robust battle staff training and exercises and by 
institutionalizing tactics, techniques and procedures.
    Readiness to fight also includes the myriad of activities 
relating to force protection. Terrorists threatening our forces 
are well-trained, well-armed, and well-supported by various 
nations and nongovernment agencies. While withdrawing the bulk 
of our forces from the region would reduce our vulnerability 
significantly, it would pose grave and unacceptable dangers to 
American interests. Remaining engaged in the region means 
taking appropriate action, in cooperation with regional 
friends, to protect our service men and women. We have done 
this over the past year by undertaking an extensive Force 
Protection Enhancement Program that has included the following:
    First, we have relocated personnel to more secure and 
defensible sites throughout the Area of Responsibility AOR and, 
in particular, in Saudi Arabia.
    Second, we have hardened facilities and extended perimeter 
standoff.
    Third, we have withdrawn most dependents.
    Fourth, we have reduced our transportation vulnerability.
    Fifth, we have augmented our security forces.
    Sixth, we have enhanced counterintelligence activities.
    Seventh, and lastly, we have improved antiterrorist 
training programs and policies.
    These defensive measures mitigate the vulnerability of our 
forces to terrorist attack. They do not eliminate the threat. A 
determined terrorist retains the advantage of being able to 
attack by target, with any means, at any time.
    Defensive measures make it more difficult for terrorists to 
strike and, hopefully, foil their attempts. Combating these 
criminals however, requires more than these passive defensive 
measures. We must continue to exercise our inherent right of 
self-defense, employing a full array of legal, diplomatic, 
psychological, law enforcement and military operations to 
defend against terrorists before they can strike, neutralize 
them in their sanctuaries, and deter them from conducting 
future acts.
    Success in these efforts is linked, in turn, to 
significantly improving U.S. human intelligence collection, 
analysis, and dissemination.
    While protecting our service people overseas is a critical 
task, we must remain focused on accomplishing our primary 
military requirements. This means we must continue to field and 
exercise forces skilled in conducting joint and combined 
operations during a major regional fight. Such as conflict will 
require the capabilities of all of our military forces. To this 
end, we must have healthy services with sufficient size and 
robustness to perform operational missions, take care of 
service members and families, and build and educate for the 
future.
    Future victory will hinge on the readiness of our tactical 
organizations and the skill, courage, and sacrifice of our 
fighting men and women. They, in turn, must be led by leaders 
who are creative, reason critically, act innovatively, and 
operate decisively in the face of ambiguity and uncertainty. We 
need leaders who are prepared to take operational risk, leaders 
who possess uncompromising character, and leaders who practice 
out-front leadership always.

                       KEY ENABLING REQUIREMENTS

    Pivotal to USCENTCOM's ability to fulfill its mission and 
confront regional challenges is your continued support for 
several programs. Chief among these are: prepositioning of 
equipment ashore; theater missile defense; strategic lift; WMD 
defense; and theater force protection.
    I welcome the opportunity to discuss these and related 
issues further during these proceedings.
    We should take pride in the enormous progress we have made 
over the past decade. In a part of the world of vital 
importance to our Nation, we have met serious challenges, 
contained enemies, and promoted engagement and enlargement. 
Such achievements stem, in large measure, from the first-rate 
performances of our service men and women; men and women 
equipped with the finest military systems in the world.
    We live in decisive times, Promoting our interests requires 
patience, consistency, courage, and vision. There are no 
shortcuts or cookie-cutter solutions.
    We must remain resolute in following the course we have set 
for ourselves.
    USCENTCOM's Five-Pillar Strategy is a road map for 
fulfilling our mission. It accounts for regional conditions, 
cultural sensitivities of regional partners, U.S. military 
operational tempo, and U.S. budgetary constraints.
    To meet competing requirements involved in operating in the 
Central Region, we are exploiting the complementary 
competencies of each of the services and balancing a near-
continuous presence in the region. We in USCENTCOM look forward 
to working with each of the military services, the Department 
of Defense, and Members of Congress in the coming months to 
promote and protect our Nation's interests in the Central 
Region.
    [The statement of General Peay follows:]
 
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



   Mr. Young. Thank you very much for an outstanding job in 
performing the mission given to Central Command. This Committee 
is very much aware of the work that you do and the work your 
predecessors have done in a very, very difficult situation, a 
difficult part of the world.
    I want to apologize. Our attendance is not as good this 
afternoon because we are competing with the Intelligence 
Committee, which has several voting issues at the same time. 
This being the prime subcommittee of the Appropriations 
Committee, many of our Members are chairing their own 
subcommittees, so we are having a little bit of a problem 
there.
    Mr. Lewis has to go to the Intelligence Committee shortly, 
so I am going to yield to him for the first round of 
questioning.

                          INTELLIGENCE BUDGET

    Mr. Lewis. Thank you very much for your courtesy.
    General Peay, it is good to be with you. I, too, apologize 
for the circumstances. You know this crazy place as well as 
most.
    I would just ask a couple of general questions in the very 
subject area that the Chairman was just touching on.
    There is kind of a presumption around this place that as 
the world is changing, that clearly one of the areas where we 
can reduce spending most easily is in national defense, and you 
have seen an awful lot of that over these last several years, 
and hand in hand with that is the presumption that as the world 
theoretically is safer, there is certainly not much need for 
intelligence operations.
    With that in mind, I am very much interested in your view 
as to the adequacy of funding of intelligence budgets, the 
impact that constrained spending is having upon your terrorist 
and counterterrorist activities. Begin with that.
    General Peay. I think the budgeting is there, sir. I think 
the challenge is how quickly we can move a little bit more ----
--. Certainly as we look over Iraq and Iran with regularity 
from my headquarters, with all the overhead systems, ------. I 
am very impressed with that capability and it has served us 
well.
    ------ is going to take a long time, and it is key to 
understanding the terrorist business that is moving with great 
speed in a transnational mode today. Organizations that 
habitually have not worked together, we now see them merged at 
times and then returning to individual operations.
    To get inside these transnational actors that are supported 
in one country, operate in a third country, their stores are in 
a fourth country, they rehearse in a fifth country, they attack 
in a sixth country, banking networks that are now economically 
spread all around the world, that is going to take ------ if we 
are to try to be more precise in understanding where these 
attacks are going to occur.
    Our challenge this morning, because of these wide diverse 
threats, ends up putting our forces, both civilian and 
military, on a high level of continuing alert. You simply can't 
keep these forces on that kind of alert and retain their 
vigilance, day after day, month after month ------. But I want 
to be complimentary on the very impressive work that is done 
through the other capabilities.
    Mr. Lewis. I appreciate that, General.
    I must say you are really addressing the need for 
consistency in long-term planning, especially when you consider 
------ and the assets that need to be developed there. The 
Committee knows that the 1998 budget request does not continue 
accelerated funding for many of these activities; have adequate 
funds been provided in the year 1998, in your judgment, as we 
look towards consistency in 1998?
    General Peay. I don't have all the details of the Intel 
piece, but assuming there has not been a major drop-off on 
current operating systems, and if there are replacement systems 
in mind in terms of sustainability of the current systems, then 
I think we are okay. ------.
    Mr. Lewis. There is a very sizeable presence on this 
Committee, on our Intelligence Committee, of cross-membership, 
and at some appropriate time, we might very well close the door 
and discuss this question in other ways. The region you are 
dealing with has got to be the highest priority, with regard to 
terrorism here, abroad and at home. Maybe talking about that 
and doing some serious homework in a nonpartisan way would be 
helpful. I don't know if we can do it in this relatively open 
environment.
    Mr. Young. Thank you, Mr. Lewis.
    Mr. Murtha?

                    INTERNAL UNREST IN SAUDI ARABIA

    Mr. Murtha. General Peay, we took a trip, as you know, not 
long ago into Bosnia, Saudi Arabia, and then we went to Israel. 
We went only on terrorism. We wanted to see if there was a 
thread between what was happening maybe in the Middle East and 
what was happening in Bosnia. In Israel we felt Netanyahu had 
been so involved in fighting terrorism, he would be able to 
give us some advice.
    One thread we found in Saudi Arabia was that the middle 
class was getting smaller, that the rich were getting richer, 
the poor were getting poorer. And the more I listened to it, 
the more I heard a situation very similar to Iran 20 years ago.
    Then I got the book out that Carter wrote, Keeping Faith, 
and in that book the year before the country fell, the CIA said 
no problem, the Shah is strong, he has control of the country. 
And then later in reading about Iran, much of the problem came 
because the United States handled it so poorly.
    One thing the embassy did admit, as much as they liked the 
troops there, that they were the focus of opposition, and they 
caused a lot of problems.
    Now, I really don't see any threat from the outside. I 
don't see a threat from Iraq, and I don't see Iran hitting us 
head-on after the bombing. I see a terrorist threat, where they 
can destabilize this country. The smaller our presence is, it 
seems to me, the better off we would be.
    Is there concern in Saudi Arabia about the size of the 
force and the fact that at one time we were kind of flaunting 
the fact we were Americans and our traditions are so different 
and their fundamentalism is so conservative that it was really 
hurting the regime?
    General Peay. That is a wide-ranging question, sir. Let me 
try to hit about five or six pieces of it.
    When you made your visit, I would agree that there was a 
tenor at that time that the terrorist focus was on U.S. 
military. But I think you have seen in the last 10 days, 
radicals such as bin Ladin among other terrorists, very openly, 
on purpose, expanded their rhetoric to include civilians. So 
today--over there--you will find the embassy, our contractors 
and many more Americans, as you know, there are 40,000 
Americans alone in Saudi Arabia, you will find they are at a 
high level of vigilance. They understand the threat.
    I have talked to a lot of senior contractor presidents, 
major corporations in the last week; this rhetoric and concern 
has spread to a large degree. So it is not now just focused on 
the military.
    I think one of the reasons for that is we have done a 
better job in the last, oh, 120 days of deterring a threat by 
hardening of our positions, relocation and so forth. We made 
this harder for him. Not that we are not still vulnerable in 
certain places. So the terrorist now spread his rhetoric to 
include other people.
    Let me jump back to the first part of your question. 
Certainly you are right that about 50 percent of that 
population today is under 17 years of age and it is exploding. 
I still, though, don't see it as an Iranian model. It is far 
more tribal. ------.
    Finally, I have spent a lot of time looking at this 
changing Iranian-Iraqi threat in great detail, especially over 
the past months, and you may want to get into that in 
additional questions. It is very clear to me we have no choice. 
------.

                              IRAQI THREAT

    Mr. Murtha. Are you saying there is a legitimate threat, 
that this wasn't just posturing, these moves by Iraq?
    General Peay. ------. He has total, dominant control over 
his population. He is 60 years old today. While he has suffered 
some chinks in his armor, he has enormous control because of 
his threats to the families of his potential opponents. He has 
purged the military. So his new military men come up and simply 
respond to this ironclad, brutal, irrational actor on the 
world's scene.
    He is unopposed. He sits there with 3-to-5 divisions just a 
few hours to the north of Kuwaits border, and today Kuwait is 
still a fledgling military trying to prove itself. So you have 
no choice. ------. Let me tie that into one of these 
perceptions. Ironically, I think it worked against us ------.

                            FORWARD PRESENCE

    Mr. Murtha. In that part of the world, perception is as 
much as reality. What I worry about is the fact if they 
perceive the Saudi kingdom being a tool of America, and if they 
find a focus like Iran did of Khomeini, a charismatic leader, 
you still say that it is more important, even though their 
focus of discontent--it is still important for deterrence 
reasons, even though we have learned more from terrorism since 
Beirut than we have in the war, you still believe it is 
important we have those 12,000 people stationed there?
    General Peay. Absolutely. Let me tell you where they are. 
On most days, most of them are at sea, in what a lot of people 
would describe as Over the Horizon. ------. We have been 
talking at CENTCOM the last couple of weeks if we can also try 
to use an information operations program to tell the story 
differently to offset that threat that you have so 
appropriately described, and we will try to do that better. But 
this is sophisticated information as you try to tell it. ----
--.
    Mr. Murtha. I am glad that we made the move we did. I think 
it was exactly right and I know it is going to be an expensive 
move. But I think we were too visible where we were, with the 
flights taking off and landing right there at the airport, and 
too many people in town, probably. So those are all in the 
right direction.
    I am glad you are watching it so closely, because in that 
area of the world, it is so volatile and so difficult to 
predict what is going to happen, that it is essential we be 
concerned about that.
    General Peay. It is very fragile.
    Mr. Young. Mr. Nethercutt.

                         PERSIAN GULF SECURITY

    Mr. Nethercutt. Thank you, Mr. Chairman.
    General, welcome. I want to follow up a little bit on Mr. 
Murtha's comments about the potential volatility of the region 
over which you have responsibility. During your testimony, I 
was looking at this map focusing on the Strait of Hormuz and 
the modernization of the Iranian force. They apparently seem to 
be focusing on the Straits and their capability of disrupting 
traffic through there.
    Do you feel confident that our capability is such that we 
can meet any challenge they might present to disrupt the 
Straits, and to what extent do you see that issue as a serious 
threat? I would be interested in your comments.
    General Peay. I think any time you deal with these 
cultures, one of the things that you learn is to deal through 
strength. They respect strength. ------. This is part of our 
effort to satisfy OPTEMPO, budget, other kinds of requirements, 
but still be able to very smartly keep the pressure on. ------. 
These Straits are very narrow. Across that strait on the map 
you are talking about 20 nautical miles. The channel itself is 
1 to 2 miles that part where you can put the deep-draft ships 
through. ------. On these particular islands today, of course, 
they have been in dispute for years with the Emirates, you have 
a real mixture of forces. ------. But what you don't want to do 
is get in a fight. You want to provide stability, deter 
conflict, and stay out of that kind of thing.
    One of the challenges we have is smuggling, I was up most 
of the night last night working this issue. As we do maritime 
intercept operations, our young people are out there enforcing 
those UN resolutions, face-to-face with these smugglers. There 
is an increasing tempo of violations, with the Iranians 
becoming more provocative and more bold as they assert 
themselves. You may want to get into the smuggling question 
later, but that is a very sophisticated operation we've just 
uncovered in the last few weeks in the way it is working.
    It is all working in very narrow sealanes. So a chance for 
having a problem is there every day, as it was last night.
    Is that what you wanted?
    Mr. Nethercutt. That is very interesting. It sounds to me 
that, number 1, you are vigilant; number 2, we would be able to 
react appropriately, depending on what the circumstances are, 
and I realize there are a whole range of circumstances. But it 
sounds to me like there is a high level of vigilance, as I say, 
to all of the circumstances that could occur; is that correct?
    General Peay. Yes, sir. Sir, we are just really proud of 
what they are doing out there. They are on the edge. What we 
have to do is try not to over control. You have to decentralize 
your operations. There are going to be mistakes made. These are 
professionals, but in the larger sense you have to give them 
their head. You don't want to ever get this thing so tightly 
controlled that they don't act appropriately with confidence.
    Now, there is a danger to that. That is the sophistication 
and superiority of our young people. That is why you have to 
have high-quality people. Because if they were to overreach --
----. I think the commander made the right decision. You have 
to know in the longer run it probably makes that kind of a 
culture feel more bold. So he takes you on. ------.
    So far, I think we have done it appropriately.

                               TERRORISM

    Mr. Nethercutt. Thank you. In the short time I have left, 
as I do have to go to another hearing, let me ask a little more 
parochial question, if you don't mind? If you can't answer at 
this time, maybe I can discuss it with you or your staff later.
    One of my own constituents, a gentleman by the name of 
Donald Hutchings, was kidnapped in Kashmir in 1995. You may be 
familiar with this. Al Faran was the group that is rumored to 
have captured him, perhaps with the support of some larger 
terrorist group in Pakistan. I am just wondering to what 
extent, you may be privy to any intelligence about this 
gentleman's condition?
    I know his wife has been very active in that part of the 
world, going to Pakistan and India and seek her husband's 
release, or at least information on whether he is dead or 
alive. I knew Don Hutchings, and I hope he is still alive. I 
don't know if you know much, but if you do would you comment?
    General Peay. I am not current. I will be glad to get with 
my staff and provide you what we have.
    Mr. Nethercutt. Thank you so much.
    [The information follows:]

    In July 1995 four western, civilian hikers were kidnapped by Al 
Faran, a Kashmiri Separatist/Terrorist Group that is part of the 
Harrikat Ul-Ansar (HUA) movement. The group's goal was the release of 
21 Kashmiri separatists who were being held by India. ------. The 
hostages were one U.S., one British, one German, and one Norwegian. At 
this time, Indian security forces started to search for the hostages 
and their kidnappers.
    In August 1995, the American hostage escaped. In retaliation, and 
to show the government of India that they were serious, the kidnappers 
killed the Norwegian hostage. Shortly thereafter, they kidnapped 
another American and one more British citizen. They now held one U.S., 
two British, and one German hostage.
    In December 1995, Indian security forces closed in on the Al Faran 
Headquarters in the disputed zone. Several members were killed, and 
others fled to Pakistan. Several Al Faran members who were captured by 
both Pakistan and India in the wake of the fight stated that the 
hostages were killed by their kidnappers prior to the Indian attack. --
----. During 1996, unconfirmed hostage sightings occurred off and on. 
No photographs or substantial proof was provided of these alleged 
sightings. Ms. Jane Schelly, who is married to the American hostage 
Donald Hutchings, and the wife of one of the British hostages, made 
several appeals for information in the Pakistani, Indian, and Kashmiri 
media with no success.
    In January and February of 1997 the U.S. government offered rewards 
for information on the hostages with no results. ------. The status of 
the hostages is still unknown. They are still missing, with no 
conclusive proof as to whether they are alive or dead.

    Mr. Nethercutt. Thank you, Mr. Chairman.
    Mr. Young. Mr. Visclosky?

                U.S. POLICY REGARDING KURDISH SITUATION

    Mr. Visclosky. Thank you.
    General, thank you very much for coming today. What is the 
status of the Kurds? What is happening with the Kurds, if I 
could ask you?
    General Peay. I think we hit a period of the winter season 
setting in and you had kind of a breaking of contact since the 
last push by Saddam's regular forces from the south to the 
north. Today I would say it is a stagnant situation. We watch 
it nightly.
    I think what you are going to have is a continuing civil 
war, back and forth, as good weather come in. ------.
    Mr. Visclosky. What is our Nation's policy as far as any 
offense that the Iraquis can mount against the Kurds?
    General Peay. Well, it was the DESERT STRIKE operation that 
just took place, the last one, when we fired a very few number 
of weapons. We have demarched them and told them not to attack 
the Kurds in the north, and that was our response to that. 
Certainly the PROVIDE COMFORT Force in Turkey and some of the 
other intelligence agencies that were at those bases provided 
some additional leverage on Iraq from the northern perspective. 
------.
    Mr. Visclosky. What happens with the Kurds? Are they just 
stuck there?
    General Peay. ------.

                     AFGHANISTAN/PAKISTAN CONCERNS

    Mr. Visclosky. I did want to ask, what concerns do you have 
relative to Afghanistan and Pakistan, from your position?
    General Peay. Well, I just got back from Pakistan as well, 
with talks with all of the senior people there. ------.
    Mr. Visclosky. Breakout militarily, or as far as their 
influence?
    General Peay. Their influence. And as long as you have the 
Afghanistan situation and the civil war it is in, back and 
forth and back and forth, all of that is fertile ground for 
that kind of instability and growth.
    Furthermore, those are very, very good trade routes that 
economically have implications for Pakistan and other nations 
in that region. So the longer that goes on, the economic piece 
of all that remains somewhat frozen.
    Mr. Visclosky. Are the Kilo subs that Iran has today having 
difficulty as far as their operations, and, if so, what are 
those?
    General Peay. There are three of them. ------.
    Mr. Visclosky. General, thank you very much.
    Thank you, Mr. Chairman.

                         KHOBAR TOWERS INCIDENT

    Mr. Young. General, toward the end of last year you and I 
had an opportunity to visit and talk about a number of 
different things. One of the things that I found very 
interesting was your perspective on the Khobar Towers, not only 
the incident itself, but some of the investigation that was 
ongong at the time. I assume it is still ongoing.
    Give us your thoughts on that?
    General Peay. I will tell you first, we have done an awful 
lot since that time to try to combat terrorism. I mentioned 
some of that in my statement, from relocations to hardening, to 
training, our policies, watching our vehicle traffic, 
relocating our dependents, substantial engineer construction, 
from permanent billets in one location to temporary in another, 
and going to permanent billets in the states. An enormous 
amount of work with our coalition friends. You would be very 
proud of them. ------. It is difficult for me, sir, in a short 
period of time to sum up the real answer to your question, 
though, and that is my full view on Khobor Towers.
    If you will kind of let me go on this a little bit, I will 
try to do it as concisely as I can.
    First, you know, I would tell you that I am responsible, 
that I am accountable. Despite all the business you have heard 
here, if I had been at the Saudi Arabia testimony with 
Secretary Perry 5 or 6 months ago, when Secretary Perry said he 
is responsible, I would say no, I am the senior military 
commander in the region, and I am responsible.
    Inherent to that requirement of being the Commander in 
Chief is that kind of responsibility.
    I would say that from a military perspective, through, the 
way that we grow up culturally and the way our young people 
grow up culturally in our business, that is a far cry from 
being culpable or being negligent or being derelict in our 
duties. So as I have tried to look down, I have got 20 
countries, hundreds and hundreds of installations, as I have 
tried to look at that and the chain of command we have 
involved, 3 Stars, 2 Stars, 1 Star, on down the chain, and I 
spend hours pouring over this in my own personnel critique of 
what happened in Central Command, I can't find that dereliction 
of duty, that culpability. The terrorists did the attacking. 
Our people didn't do the attacking.
    Now, that is a snapshot in time. I tell you, you have to go 
to the intelligence. ------ all across the region; 20 
countries. So we raised our vigilance and we really started 
moving in that time. That is what you have heard, and it didn't 
adequately cover it, incidently, the 139 initiatives that this 
fellow Brigadier General Schwalier and his team down at Khobar 
Towers had undertaken. There were hundreds of initiatives he 
had undertaken.
    I find it very difficult in a snapshot kind of approach, 
looking at the intelligence, ------ or something else first?
    Again, it gets back to how you command across a complex 
region. I think you have to give the young people their heads. 
When they ask for help, you get involved ------. We had 
commanders conferences at MacDill Air Force Base. Our 
commanders up and down the line knew their responsibilities, 
there is no question in my mind about that. And I have talked 
to them in critiques after all of this, I didn't find any of 
this particular indecision.
    At the end of the day, the terrorists did the attacking. We 
could have fixed all of these kinds of deficient situations, 
but against that particular bomb size, ------. I think you 
would have had similar kinds of responses.
    Now, there has been a lot of comparison to Beirut. This was 
not Beirut. Saudi Arbia is not Beirut. In Beirut you had 
Marines ashore, you had Naval gunfire from the waters. At the 
time of this particular operation, this was the Gulf. The Gulf 
was not the Middle East. We had one bombing in the last 35 to 
40 years called OPM-SANG. After OPM-SANG, we started all of 
this kind of looking at the world differently in terms of our 
force protection activities. There is a real psychological 
piece of all this.
    I mean, Riyadh and Dhahran are safer than Chicago, 
Illinois. So there is a mind-set here. At the same time, our 
troops are fighting in a number of other operations, and that 
is the thing. You don't want to have our people tied down, 
hunkered down. If that is what we are going to do, we might as 
well not be there.
    We have missions we have to do. That is what their focus 
has to stay on while they still protect this close battle kind 
of operation.
    So as I reviewed what the subordinates were doing, were 
there some tactical mistakes made? Certainly a few.
    Would it have made that much difference? No.
    Was the Downing report lacking in terms of the operational 
and strategic, the cultural underpinning and setting of this 
thing? I think it was. ------. So you can take up our marbles, 
disengage and go home, or stay involved at an operational risk. 
When you have operational risk you do the very best you can. 
Our commanders, I think, were not culpable, not derelict, in 
terms of all of that.
    So I am a little bit like the Chief of Staff of the Air 
Force, that has tried to bring a number of investigations 
together. I somewhat fall on his side as I look at these 
subordinate commanders and the work they have done. And I look 
at Central Command, because I feel I am responsible, and I 
don't find this culpability or dereliction. We are responsible 
and we don't move from that.

                          INTELLIGENCE REPORTS

    Mr. Young. One of the things that I asked you about, and as 
a Member of the Intelligence Committee, I had an opportunity to 
inquire into this as well, you do receive numerous hints that 
there may be a terrorist attack. You get intelligence. And from 
my understanding, if you had investigated every one of those 
suggested intelligence sources about something that might 
happen in the region, it would take you forever to do that, 
because they are enormous. Do you agree with that?
    General Peay. ------. How do we keep the people at the 
highest level of vigilance and operate? We read those reports 
we all do the very best we can, we take operational risk, we 
review the intelligence and take prudent steps to protect our 
troops. We don't become careless. We run every one of the 
intelligence reports down, as best we can. It is sophisticated 
work.
    Mr. Young. The fact is, you are overloaded with these 
intelligence hits.
    General Peay. ------. There is another piece that is 
interesting that develops and we as a Nation are going to have 
to decide how we respond to terrorism. You can't, in open 
session, do what we did several months ago--get out there in 
open session and talk about this subject, where the terrorists 
and where everyone in that region watch the news. For many of 
you who visited there, you know that every leader in the region 
watches Cable Network News (CNN), 24 hours a day. So there we 
are on national television, trying to talk about sensitive 
culture issues, criticizing our partners doing exactly what the 
extremists want us to do. ------.
    So more precise intelligence is central to solving such 
problems. When we put these kinds of pressures or second-guess 
our commanders, then what you have is increased intelligence 
with, everything being reported up. ------.
    Now, that is the danger when we discuss issues too publicly 
and we focus so strongly on culpability standards. This could 
convince our people not to take any risks and in the long run, 
we are going to have almost a Russian-centralized approach to 
our business, a centralized approach to duty, which harms, in 
the long run, our military's approach to the way we do our duty 
so efficiently and correctly than decentralization.
    That is the way, sir, I see it as a commander. I have dealt 
in this for 35 years now, lots of command time. I have got a 
lot of time in that region, and that is my perspective on it.

                    COOPERATION OF SAUDI GOVERNMENT

    Mr. Young. I think you have given us a good handle on how 
difficult this job is. And I might say that knowing that the 
job is so difficult, that is why you were selected to have this 
job, because of the confidence that the leadership had in you.
    Let me go on this same subject just for a couple of more 
minutes. During the investigation, we were told that the Saudi 
Government has not been very helpful and not cooperated. I 
don't know if that is true or not. From your perspective, have 
they cooperated or have they not cooperated?
    This hearing is closed.
    General Peay. It is--let me give you my view, and I would 
ask that you get Director Freeh's and Mr. Tenet, the Acting CIA 
Director's views, and I have talked to them at some length here 
these past several weeks. I think the general feeling in this 
investigation now has gone along three kind of avenues. ------.
    Mr. Young. General, thank you very much. We have an awful 
lot to think about, about the responsibilities that you have in 
that region.
    Mr. Murtha.

                          ACTION AGAINST IRAN

    Mr. Murtha It is interesting what you say because after we 
left Saudi Arabia we went to Israel. So I talked to Prime 
Minister Netanyahu. Now, here is somebody publicly that is 
always for retaliation, armed actions. So I asked him, let's 
say we find out there is an Iranian connection, what do you do?
    Well, he didn't say take armed retaliation. He said do 
three things, or you can do any one of three things. You can 
have an embargo. You can take economic or diplomatic measures 
and, third, you can take military action. He says, but believe 
me, if you take military action, there is going to be a strong 
response inside the country and outside the country.
    I didn't forget that.
    What I remember most is how responsible his response was 
and how he took--through his vast experience, and if you read 
his book on terrorism, of course, this is pretty well what he 
said. So I think that the Saudis--the way we leak over here, 
and the Pentagon is about as much of a leaker as you possibly 
can be, but I am sure you had that problem in your office like 
everybody else, I can see that they don't trust us. I mean, I 
can understand.
    And then the Senate who was criticizing you voted 98 to 
nothing to open up Pennsylvania Avenue, where if you had had a 
bomb the same size in Pennsylvania Avenue, it would have blown 
the whole side of the White House. They voted 98 to nothing.
    Two weeks later they had a hearing over there criticizing 
the Saudis for not closing down the street quickly. I know you 
couldn't say that to those august diplomats over there, but it 
is just kind of irritating when they are so sanctimonious and 
hypocritical about what action should be taken after it is 
over.
    But I realize that if we do find out who does it, it is 
going to be very difficult. For instance, the embargo obviously 
is not working. I mean, why isn't working? Why do the European 
Nations ignore something that--I suggested to the President, 
Mr. President, before you extend Bosnia, before you extend our 
forces and our money in Bosnia, you ought to say to the 
Europeans, look, if you want us to extend in Bosnia, then you 
have got to support us in Iran, this embargo against Iran. And, 
of course, they ignored us completely.
    What is it that--is it just pure money, trade? Is it 
unrealistic for us to put an embargo on?
    General Peay. Well, I think, sir, it goes all the way back 
to basic ethics and values. It is economic. I think some of it 
is a personal view, and I think some of it is concern for their 
own livelihood, because this terrorism piece is going to reach 
right into the underbelly of Europe. ------.
    This is a strategic hegemony approach by an activist 
country today that has ambitious long-range goals. So I think 
the Europeans know that have got to live with that and, as you 
know, they have an enormous Iranian and other population in 
their countries today.
    And terrorism President Isaisas in Eritrea, who spent 18 
years in the bush, a very articulate man, a young man, 45, 46 
years of age, told me, he said, ``you Americans have it all 
wrong.'' He said, ``you can withdraw, you can do all this 
hardening, but you are going to go bankrupt. There is not 
enough money in the world to prepare against this terrorism. 
And so your only alternative, then, is to take--is to take an 
active kind of an approach in terms of some kind of 
counteraction.''
    The trouble is, as you suggest, and you are exactly right, 
when you take that counteraction, you better be prepared. And 
so that is why you better be sure that the story is right, and 
you have got to then, in my view, sir, take time out--you don't 
have to hurry--go build a coalition, share all the information, 
build a coalition, bring the international family together and 
then you better be prepared for the long tough fight against a 
country that I don't think many people in America even begin to 
understand.

                     CIVILIANS AS TERRORIST TARGETS

    Mr. Murtha. Well, the diplomats in Saudi Arabia were scared 
to death. The Ambassador was not there at the time. But they 
were afraid that the civilians in Saudi Arabia would be the 
targets, the American civilians would be the targets.
    General Peay. But you are seeing that, as I mentioned, 
now--you are exactly right. That was the feeling, and now you 
have seen what has happened in the last 10 days. So I guess my 
view is that was going to happen anyway. ------.
    Mr. Murtha. One thing you have to keep in mind, there is 
only one thing worse than keeping our troops there, and that is 
being forced out by terrorism, because that sends a signal. It 
took us 20 years to get over Vietnam.
    Now, I think Vietnam--our effort in Vietnam was a 
courageous effort where we were trying to help people who were 
being invaded. I have a different view than most people. But 
having said that, we lost tremendous prestige when we were 
forced out of Vietnam, and people didn't forget that for 20 
years, whatever examples you want to use. But the Saudi war put 
that to rest.
    I remember President Bush really working. People forget how 
hard it was for him to put a coalition together. I mean, he was 
on the phone personally. He did an absolutely magnificent job 
of putting a coalition together to fight a war when people 
weren't sure we were going to stay there. And you remember how 
difficult it was to get into Saudi and they wanted us out the 
minute it was over.
    So I just worry that--well, you are on top of it and I know 
how important the area is, and I just hope that you are right, 
that our presence will not trigger the very thing that we are 
worried about and that is increased terrorism and then forcing 
us to withdraw the troops.
    General Peay. ------.
    Mr. Young. Mr. Visclosky.
    Mr. Visclosky. I am fine, Mr. Chairman. Thank you very 
much.
    Mr. Young. General, thanks very much for being with us this 
afternoon. We really appreciate your thought-provoking 
presentation.
    Mr. Murtha. Mr. Chairman.
    Mr. Young. Mr. Murtha. Certainly.

                           READINESS CONCERNS

    Mr. Murtha. Are you losing any readiness because of the 
money being spent in Bosnia? For instance, is your command 
losing any readiness because of money that is not available to 
you because it is available someplace else? Or are you the same 
priority as Bosnia?
    General Peay. Ours is such small numbers and I don't see 
that--the CONUS base provides me those forces. These forces 
that have come over now in exercises or have come over in this 
near continuous presence mode, I think, are basically well-
trained.
    What I do see, sir, is units that have had to take 
soldiers, sailors, airmen, marines from other organizations to 
fill up their holes before they deployed so there is a 
turbulence piece to all of that.
    Mr. Murtha. Tempo of operations?
    General Peay. I see less noncommissioned officers at senior 
grades than what you normally would have in these forces. But 
the equipment is there. They are well-trained. They are well-
motivated. I don't hear any complaining. There is an increased 
OPTEMPO, no question about that, but for these service members 
that are in the Gulf, I find them motivated. They know why they 
are there and I think they are doing a good job.
    Mr. Murtha. Thank you.
    Mr. Young. General, again, thank you very much for being 
with us this afternoon. We have quite a few other questions 
that are more budget-related than some of the ones you were 
asked today. But you did give us some very, very important 
insights into the region and some of the problems there.
    The Committee will be adjourned until 10:00 a.m. tomorrow. 
Tomorrow's hearing will be in Room 2212 of the Rayburn 
Building. It will be an open hearing on the fiscal year 1998 
budget for the Navy and Marine Corps. Witnesses will be the 
Secretary of the Navy, the CNO and the Commandant of the Marine 
Corps.
    Also tomorrow afternoon, there will be an open hearing here 
in H-140 at 1:30 p.m. on Navy and Marine Corps acquisition 
programs.
    If there is nothing further, the Committee is adjourned 
until 10:00 a.m. tomorrow.
    [Clerk's note.--Questions submitted by Mr. Young and the 
answers thereto follow:]

                      Priorities and Deficiencies

    Question. Do you feel the interests and needs of the Central 
command have been adequately addressed in the fiscal year 1998 budget 
request?
    Answer. In general, the Fiscal Year 1998 budget, as well as the 
Future Year Defense Program (FYDP) supports Central Command's 
Integrated Priority List (IPL). The Department of Defense and the 
Services continue to support our top priorities. However, as 
modernization and sustainment acquisitions are delayed, risk to our 
forces and mission accomplishment clearly increases.
    Question. What is your assessment of the major shortfalls in: 
Personnel, training, equipment, and maintenance for those units under 
your day-to-day command as well as those that would be assigned to you 
in a wartime situation?
    Answer. We have few personnel permanently assigned to CENTCOM on a 
day to day basis. The services provide forces required to conduct our 
operations in an operational or tactical control status in the Central 
Region. The quality of personnel that all the services provide remains 
high. We have challenges nonetheless; examples of which follow. Due to 
some ------ there are limited opportunities for forces supporting ----
-- to conduct all required proficiency training. For example ------. 
Units deployed ------ lose their world wide deployment qualifications 
due to these training limitations and must redeploy to maintain those 
qualifications. As the services reduce end strength, we are seeing more 
and more junior officers and noncommissioned officers in more senior 
leadership positions, all indicative of the fallout form post-cold war 
military restricting. These leaders are doing an excellent job, but 
they are not as experienced as before. There are also clear cases where 
units, short personnel, have borrowed manpower from sister units to 
sustain their deployment.
    Question. What are the top ten priority items on your most recent 
integrated priority list?
    Answer. Central Command's major needs and top priorities, as 
identified on our Integrated Priority List, are: ------. The placing of 
an Army heavy division ashore in the region increases deterrence, 
reduces risk from the near-term threat of Iraq as well as the long-term 
threat from Iran, ensures regional access, and brings more Gulf 
Cooperative Council (GCC) states into the collective defense. The 
deployment of an effective theater missile defensive system will 
require a multi-layer approach. Such a system will ensure an effective 
flow of information among intelligence assets, decision making 
facilities, warning systems, and attack means. In addition, fielding of 
a theater missile defense will greatly increase regional stability and 
reduce risk in the theater.
    Question. In your view, are present levels of investment funding 
contained in the department's five year plan sufficient to address the 
long term recapitalization requirement of today's forces?
    Answer. As the Commander in Chief I do not have full visibility on 
the full list of challenges facing the Service Chiefs. Almost all of my 
theater requirements are being addresses. It is crucial, however, that 
funding of new systems and programs remain on schedule. Any reduction 
in procurement, investment, or delays in carrying out programs 
increases risk to our service men and women, as well as mission 
accomplishment in the long term.

                              Saudi Arabia

    Question. According to the media, the Attorney General and the 
Director of the FBI have complained that the Saudi's are not being 
cooperative with U.S. authorities in the investigation. Are these 
reports accurate? If so, what is the nature and reason for the lack of 
cooperation?
    Answer. Since we at Central Command (CENTCOM) have not been 
directly involved in conducting or overseeing this investigation, I am 
unable to provide a complete and accurate assessment of Saudi 
cooperation with the U.S. authorities. Consequently, I want to defer to 
those officials at the FBI who are running the investigation and are in 
a much better position to comment on Saudi cooperation.
    Question. Specifically, what adjustments have you made to enhance 
the physical security of U.S. forces in Saudi Arabia in the wake of the 
Khobar bombing? What has the cost been for these security enhancements?
    Answer. Since the bombing at Khobar Towers in June 1996 hundreds of 
force protection enhancements have been taken throughout the region. 
They fall under five major areas: one, ------. We have also formed a 
Joint Rear Area Coordinator (JRAC) Directorate in Headquarters, U.S. 
Central Command, conducted numerous inspections, and Commanders Calls.
    The dollar cost of these enhancements is significant for both the 
United States and regional states and will continue to be high.
    Question. What is your assessment of the stability of the Saudi 
regime?
    Answer. The ruling Al-Saud family is presently united in following 
established lines of succession. Crown Prince Abdallah, who was named 
Regent in January 1996, has the full support of family members. ------. 
The near term stability of the regime will be unchanged under current 
economic and political trends. ------. The petroleum sector contributes 
roughly 75 percent of their annual budget revenues, 35 percent of their 
GDP, and nearly 100 percent of export earnings. ------. Reduced oil 
revenues from previously weak oil prices and deficit government 
spending have resulted in deferred payments from the Saudi Arabian 
Government to its suppliers and contractors creating inflationary 
pressures within the country. What's more, reduced oil revenues impacts 
strongly on the Saudi Arabian government's ability to fund its very 
attractive social services and low interest loans to its citizens. This 
in turn generates internal tensions and encourages some to be 
frustrated with high Saudi Arabian military expenditures and support 
for United States policy in the Gulf. ------.

                Potential Retaliation for Khobar Bombing

    Question. If a link is made connecting Iran with the Khobar towers 
bombing and the U.S. conducted a military response against Iran, the 
consensus is that Iran's most likely reaction would be a terrorist 
attack. Do you agree with that assessment?
    Answer. Yes, because terrorism is one of Iran's means to 
asymmetrically project influence beyond the region. Terrorism is 
difficult to deter and prevent, and direct ties to Tehran are difficult 
to establish. Iran provides ------. Implicit terrorist threats against 
the United States, Gulf Cooperation Council states, and other targets, 
largely in the Gulf region, are aimed at fracturing our ties and 
driving the United States from the region. We believe Tehran has ------ 
as a means of communicating terrorist threats to the United States.
    Although terrorism is the most likely response, Tehran has the 
capability to respond conventionally with air, naval, or ballistic 
missile attacks. Iran has ------. In addition, Iran retains a sizeable 
maritime mine delivery capability. Iran's intent would be to use this 
capability to undermine United States security guarantees to the Arab 
Gulf states.
    Question. How vulnerable are U.S. military and commercial interest 
in the Middle East to a terrorist attack?
    Answer. While U.S. Central Command (CENTCOM) supports the effort, 
the regional Chiefs of Mission retain primary responsibility for 
assessing the vulnerabilities of U.S. commercial interests and securing 
the necessary assistance to respond to threats. U.S. military personnel 
and the installations they operate from are clearly less vulnerable to 
terrorist attack today based upon the extensive security measures and 
sound force protection strategy currently in place. Since the bombing 
of the Khobar Towers compound on 25 June 1996, Department of Defense 
forces with CENTCOM's Area or Responsibility (AOR) have initiated a 
complex, thorough, and extensive security program designed to protect 
military personnel, civilian employees, family members, facilities and 
equipment, in all locations and situations.
    This program will be accomplished through planned and integrated 
application of combating terrorism, physical security, operations 
security, counterintelligence, and other security programs.
    At the same time, U.S. military personnel and facilities are not 
invulnerable to attack. Our actions have not eliminated terrorist 
groups. We also lack the Human Intelligence (HUMINT) required to 
respond more precisely to terrorist threats. The terrorist retains the 
advantage of choosing the appropriate action to defend ourselves in the 
context of political, diplomatic, fiscal, and military constraints.
    Question. Is there a high probability that an Iranian terrorist 
response could be anywhere in the world as opposed to in the Middle 
East?
    Answer. There is a high probability an Iranian terrorist response 
could occur anywhere in the world. ------ as well as various trans-
national groups. Some of these entities have conducted terrorist 
attacks against U.S. interests both in the Middle East and in Western 
Europe. Additionally, there is evidence various ------ which would 
provide Iran additional avenues from which to conduct attacks against 
United States citizens or interests.

                           Counter-Terrorism

    Question. In the fiscal year 1997 Consolidated Omnibus 
Appropriations Act, the Congress provided over $231 million for anti-
terrorism, counter-terrorism and security enhancement programs in the 
Department of Defense. In addition, the Congress provided Supplemental 
fiscal year 1996 funding for force protection totaling $122.6 million. 
General Peay, in your view, are DoD force protection, counter-terrorism 
and anti-terrorism activities adequately funded in fiscal year 1997?
    Answer. Funding for force protection initiatives in the Central 
Command (CENTCOM) Area of Responsibility (AOR) is adequate for fiscal 
year 1997. We have a number of initiatives underway and they are 
funded. In some cases, there are projects that we would like to do 
sooner or items we would like to purchase now, but they are not ready 
yet, either because they are still under development or they cannot be 
started before other projects have been completed. In some cases, the 
technologies are still being refined or production schedules are fixed. 
Examples of these types of ------.
    Our force protection, anti-terrorism and counter-terrorism 
initiatives are based on a terrorist threat dynamic that is changing 
daily; and it is the threat that will drive our force protection 
program. With this in mind, changes in the threat will effect future 
costs. Finally, the defense is never finished. This will add to ``out 
year'' costs.
    Question. Describe for the Committee the activities and programs 
that have been funded in fiscal year 1997?
    Answer. We have been a number of force protection related 
activities and programs that have been funded in fiscal year 1997. Our 
major program has been and continues to be the relocation of personnel 
to more secure locations within our Area of Responsibility (AOR) as a 
part of Operation DESERT FOCUS. As of March of this year we have spent 
$24 million on transportation of personnel and equipment; $4.8 million 
on erecting temporary facilities; and $33 million on force protection 
items such as fences, barriers, sensors, and lighting.
    In addition to this, the government of Saudi Arabia has paid for 
force protection initiatives at the two Security Assistance Offices in 
Saudi Arabia, the U.S. Military Training Mission in the amount of $10.2 
million and Office of the Program Manager--Saudi Arabian National Guard 
in the amount of $11.2 million.
    Question. General, the committee notes that the fiscal year 1998 
budget request does not continue with accelerated funding of these 
activities. Have adequate funds been provided in fiscal year 1998 for 
force protection, counter-terrorism, and anti-terrorism?
    Answer. The funding for U.S. Central Command's Force Protection 
initiatives have been included in the fiscal year 1998 budget 
submission. What is important to understand is that these initiatives 
are based on a snap shot of the threat at this time, or at the time the 
budget was formulated. As the terrorist threat evolves and his 
capabilities change, we will be forced to change to the new threat. 
This could cause new force protection initiatives with new resource 
requirements.
    Question. Does the apparent reduction in funding in fiscal year 
1998 indicate that DoD has done all that it can in these programs?
    Answer. U.S. Central Command's force protection efforts target 
short and mid-term solutions for protecting and securing Department of 
Defense personnel and their families in our Area of Responsibility. Our 
requirements provide an equal level of protection for both combatant 
and non-combatant units. The programs that we've asked the Department 
of Defense to fund in fiscal year 1998 have been requested in the 
department's budget submission.

                                  Iraq

    Question. What is the outlook for Saddam Hussein remaining in 
power? How seriously have purges affected the morale and 
professionalism of the Iraqi Officer corps?
    Answer. Saddam Hussein's overall hold on power has ------ despite 
continuing and unpredictable threats to the security of his regime. He 
will likely remain in power through 1997. Hussein inflicted a serious 
of crushing blows to the Iraqi opposition during the summer of 1996: 
The Iraqi Sunni Muslim opposition groups, already weak and divisive, 
were decimated by security sweeps in June and July 1996; mass arrests 
eliminated a significant base of in-country opposition. Until the Irbil 
crisis in August and September 1996, Kurdish groups had been the 
strongest and most visible challenge to the regime. Saddam's actions in 
northern Iraq divided the Kurds, weakened the faction that posed the 
strongest opposition to Saddam, and denied the use of northern Iraq to 
Sunni groups.
    Although security threats from ------. Saddam relies on his 
internal security forces to maintain his hold on power and they will 
continue to play a critical role in the future. Saddam's ruthlessness 
and brutality has effectively crippled his opponents and represses the 
general population.
    The effect of purges on the morale and professionalism of Iraq's 
officer corps remains difficult to ascertain. Purges in Iraq do not 
appear to be the wholesale bloodlettings seen in the Stalinst purges. 
Rather, Saddam acts in accordance with specific events, such as the 
Kamel defection or the Dulaymi uprising, and targets the appropriate 
group; for example the tribe, family, or branch of military service. 
However, there are ------. Besides the obvious loss of key senior 
operational leaders, the most significant aspect of such ------. This 
climate of fear detracts from effective military planning and 
operations.
    Question. What is the impact of the oil for food and medicine 
agreement (UN Resolution 986) on the economic situation in Iraq? What 
percentage of the proceeds from the allowed Iraqi oil sale are being 
paid as war retribution? To what extent is smuggling taking place to 
circumvent the UN blockade?
    Answer. Food and medicine distribution allowed under UN Security 
Council Resolution (UNSCR) 986 has been significantly delayed. These 
supplies are only now arriving in Iraq, and they have had little impact 
on the internal situation there. Iraq's international market is 
rallying in anticipation of a strong recovery. ------. This activity 
will test the limits of the UNSCR 661 sanctions committee.
    UNSCR 986 may not provide the relief expected by most Iraqis. The 
populace faces a lack of money, not food. The vagueness of the language 
in 986 may allow Iraq to stop its own contributions of food and replace 
it with 986 food, allowing the government to save money or hoard food 
for distribution to Saddam's loyalists.
    Proceeds from the sale of oil under UNSCR 986 are being allocated 
as follows: 30 percent for the Kuwaiti war compensation fund, 45 
percent for humanitarian aid to non-Kurds, 15 percent to Kurds, 10 
percent to pay for UN operations related to Iraq.
    In regards to smuggling operations, with the exception of UNSCR 986 
authorized deliveries, the vast majority of maritime shipping to and 
from Iraq probably smuggles embargoed goods. ------. To a lesser 
extent, goods are also smuggled overland via Jordan and Turkey. Jordan 
remains the overland conduit of choice for sanctions violators. Jordan 
is Iraq's main source of financial, banking, and transportation 
services, and many of its officials involved in monitoring trade with 
Iraq remain susceptible to bribery. Jordan has taken steps to improve 
enforcement, but industrial goods, computers, electronics, and probably 
military spare parts and other military related items continue to be 
financed and shipped through Jordan on a routine basis.
    Question. What is Iraq's current policy toward UN weapons 
inspectors?
    Answer. Request for compliance from the United Nations Special 
Commission and International Atomic Energy Agency are frequently met 
with reluctance, denial, or outright obstruction. Iraqi compliance 
usually comes only when Baghdad is faced with undeniable proof it is 
misleading inspectors or is threatened with an overwhelming response 
from Security Council members. The value Baghdad places on weapons of 
mass destruction is best reflected in its willingness to sacrifice 
billions in annual oil revenues while it ``waits out'' the inspections 
process.
    Question. What evidence do you have of any ongoing Iraqi efforts to 
develop chemical, biological or nuclear weapons?
    Answer. We believe Iraq retains a ------ the United Nations 
economic embargo is lifted. Despite ``outward'' cooperation with United 
Nations inspectors, Iraq is still ------.
    Many scientists and engineers, such as a group formerly associated 
with the nuclear weaponization project, continue working together as 
cohesive teams. This is apparently to enable ------. We believe Baghdad 
has no nuclear weapons, but could indigenously develop such a 
capability within five to seven years if they receive significant 
foreign assistance and they are not restricted by UN controls. However, 
Iraq could develop a nuclear weapon within months if key fissile 
materials are purchased outright. Baghdad admitted to producing, 
weaponizing, and deploying biological and advanced chemical munitions; 
but has not validated its claims that these weapons were unilaterally 
destroyed. ------.

                    Enforcing No Fly Zone Over Iraq

    Question. What is the scope and frequency of U.S. flights for 
enforcing the no-fly zone over southern Iraq (Enhanced Southern Watch)?
    Answer. Operation SOUTHERN WATCH began flight operations on 27 
August 1992 to enforce the Iraqi No Fly Zone south of 32 degrees North 
Latitude. This was amended to 33 degrees North by United Nations 
demarche in September 1996.
    A typical Air Order of Battle, including both fixed and rotary wing 
aircraft, is ------ aircraft. This number ------.
    Question. What countries other than the U.S. are participating in 
enforcing the no-fly zone?
    Answer. Two countries other than the United States provide aircraft 
and crews to Operation Southern Watch. The British provide ------.
    Question. Is it necessary to continue to conduct these no-fly zone 
operations at the current pace? Do you believe that scaling back on the 
frequency of the flights would tempt Saddam Hussein to exploit the 
situation?
    Answer. Yes. Without a doubt, if we cut back the frequency of our 
flights, Saddam would respond by increasing his activities. Scaling 
back on the frequency of flights would eventually be perceived as a 
softening of the no-fly and no-drive zone patrols. While some no-fly 
zone violations may be ------ eventually, they would become more 
frequent and the violations would become deeper. This could invite an 
incident. Deterrence is maintained by the current frequency of flight 
operations. In the past year we have utilized surge periods to change-
up the frequency, reduced flying at times, and increase security. 
What's more, maintaining Operation Southern Watch enhances regional 
stability by denying Saddam the ability to mount a no-notice massive 
assault on Kuwait and Saudi Arabia. Our nation's support for the 
mission reassures all our Gulf partners. This in turn offers numerous 
direct and indirect benefits to America diplomatically and 
economically.
    Question. After the Khobar bombing, the U.S. Air Force flight 
operations for enforcing the no-fly zone in southern Iraq were moved to 
other bases in Saudi Arabia. What is the impact of this change on the 
no-flight operations? What is the flight distance from these bases to 
the no-fly zone compared to when the operation was based in Dhahran? 
What are the living conditions at the bases being used now? What is the 
impact of this location change on the morale of the U.S. forces?
    Answer. Following the June 1996 bombing, both U.S. and coalition 
aircraft operating from Dhahran Air Base and Riyadh Military airfield 
relocated to Prince Sultan Air Base (PSAB). This move has had no impact 
on the No Fly Zone operation. The number of sorties flown during the 
move was never decreased. Flying from Riyadh to the No Fly Zone is 270 
nautical miles, from Dhahran is 260 nautical miles, and from PSAB is 
320 nautical miles.
    At Riyadh and Dhahran, personnel were living in apartment/villa 
style accommodations. At Prince Sultan Air Base all facilities, to 
include showers, toilets, and living quarters are contained in Harvest 
Falcon sets, which are air conditioned tents. In the future, they will 
be housed in more permanent facilities currently under construction by 
the Saudi Arabians. The morale of the personnel is good.
    Question. Costs have grown for Enhanced Southern Watch by over $200 
million in FY 1997 compared to FY 1996. In part, this increase is 
justified because of an increase in the zone to be patrolled. The zone 
has been extended from the 32nd to the 33rd parallel. General Peay, 
what measures are you taking that have increased the cost of this 
mission? Has the threat posed by Iraq changed in a way that requires an 
increased allocations of resources?
    Answer. The threat from Iraq remains. The blatant refusal of Iraq 
to comply with United Nations Security Council Resolutions (UNSCR) and 
their determination to maintain and build military forces requires that 
Coalition forces remain vigilant and prepared to execute operations on 
short notice. Saddam continues to threaten his neighbors in the region; 
be it ground force movements towards Kuwait, oppression of Kurds in the 
north as in Desert Strike, or his continued pursuit of Weapons of Mass 
Destruction.
    While the threat from Iraq remains unchanged, the threat to our 
land-based, deployed forces posed by terrorist organizations has 
resulted in new resource requirements. In addition to ------.
    The U.S. paid $144 million for Phase I relocations; the Saudi 
Arabian government will spend $300 million towards Phase II relocation 
costs which are more permanent in nature (includes our security 
assistance organizations in Saudi Arabia.)
    Question. The Committee understands that the Department will change 
the way it characterizes Operation Enhanced Southern Watch. This 
Operation will no longer be considered a contingency, and will stead be 
considered a recurring part of DoD operations. Does this change in 
policy signal a change in the DoD commitment to this area? Do you 
expect that the level of DoD resources will change as a result of the 
change in Policy?
    Answer. Your information on Operation Southern Watch being declared 
as something other than a contingency operation is incorrect. Any 
change to funding of operations by DoD in Central Command's (CENTCOM) 
Area of Responsibility (AOR) will not change our regional strategy 
towards Saddam Hussein and his regime in Iraq. We remain committed to 
deterring aggressive moves by the current Iraqi regime against our 
coalition partners in the region. We also remain committed to ensuring 
that Saddam Hussein complies with all applicable UN Security Council 
Resolutions (UNSCR) directed towards his government.
    We do not anticipate any change in the level of resources available 
to us to carry out Southern Watch unless there is a change in policy or 
change in mission. The current combination of airpower capabilities 
present in Joint Task Force--Southwest Asia (JTF-SWA), a deployed 
carrier battle group, an Army battalion task force in Kuwait that is 
paid for by the Kuwaiti government, and the ability to augment this 
power on short notice with an Air Expeditionary Force serve as a 
visible deterrent to any Iraqi aggression. We continue to evaluate our 
strategy and threat. In the near term it is important to evaluate our 
strategy and threat. In the near term it is important that the visible 
deterrent value of Operation Southern Watch remain at its current 
level.
    Question. Is the cost for this operation fully funded in the fiscal 
year 1998 budget submission?
    Answer. The cost of enforcing the No Fly Zone, known as Operation 
Southern Watch, is fully budgeted in the Fiscal Year 1998 budget given 
the best planning figures available at the time the budget was 
formulated. Any increased response to provocation's by Iraq, such as we 
saw in August and September 1996 during Operation Desert Strike, could 
cause a funding shortfall. In addition, any reduction in Host Nation 
Support would cause a funding deficit as well.

                        Air Expeditionary Forces

    Question. The fiscal year 1997 Supplemental request includes $59.6 
million to deploy Air Force Air Expeditionary Forces (AEFs). The AEFs 
are complete strike packages (``mini'' wings) maintained in the U.S. 
for the purpose of rapid deployment. The Air Expeditionary Forces are 
being deployed to enhance U.S. capabilities in the region, and to ----
-- of the AOR. General Peay, what events in the region warrant 
deployment of the Air Expeditionary Forces (AEFs)?
    Answer. The deployment of Air Expeditionary Forces (AEF) is our 
primary tool to quickly respond to increased tensions and to ------. It 
is a key part of U.S. Central Command's ``near continuous presence'' in 
the region, as defined in the command's Five Pillar Theater Strategy. 
With the Global Naval Force Presence Policy in effect for Fiscal Year 
1997, there will be severe ------ at a time. The presence of an 
aircraft carrier is a necessary and visible deterrent. The presence of 
an AEF is needed ------ in theater. In addition, restrictions by Saudi 
Arabia and other countries in the region on ------.
    In addition, Saudi Arabia will not allow land-based aircraft to 
cross its borders to support Maritime Interception Operations (MIO) and 
required Propositioned ship protection. Without a carrier air wing on 
station, the Air Expeditionary Force becomes the primary support for 
these ongoing operations.
    Question. Do you anticipate gaps in carrier coverage that will 
require additional Air Force capabilities?
    Answer. The ------. Historically, this particular time of year has 
been active for Iraqi operations in Southwest Asia (Desert Shield/
Storm--August 1990; Operation Southern Watch--August/September 1992; 
Vigilant Warrior--September/October 1994; Vigilant Sentinel--August/
September 1995; Desert Strike--September 1996). Additionally, there are 
demands on the carrier battle groups outside of Central Command's 
(CENTCOM) Area of Responsibility (AOR) that could result in unforeseen 
carrier gaps. In the last fiscal year, CENTCOM has experienced 
unscheduled gaps for carriers that have had to depart early to support 
contingency operations in the ------.
    Question. Will deployment of the AEFs result in an increase in the 
number of sorties generated to patrol the no-fly zone?
    Answer. The deployment of an Air Expeditionary Force (AEF) does not 
necessarily result in an increase in the number of sorties flown. 
Operation Southern Watch's mission is to ------. The actual number of 
sorties flown ------. With the deployment of an AEF we have the 
capability to provide a high number of sustained sorties, or surge, if 
the operational situation requires. It is this potential to increase 
sorties in defense of our national interests that contributes to 
regional stability and provides deterrence.
    Question. Why does the U.S. require the capability to increase the 
number of sorties that it can generate?
    Answer. Deterrence and security. We know from experience that our 
adversaries in the region, Iran and Iraq, are deterred by visible 
demonstrations of U.S. strength and resolve. Credible deterrence hinges 
on retaining viable military capabilities to respond to aggression. 
With this in mind, U.S. Central Command employs a theater strategy that 
emphasizes the ``near continuous'' presence of relatively small 
packages of lethal, joint forces, reinforced by our nation's power 
projection capabilities. If these forces do not deter aggression, they 
are postured to ------. During contingencies such as Vigilant Warrior, 
Vigilant Sentinel, and Desert Strike; the ability to provide a 
formidable air force capability deterred further aggression. Should 
deterrence fail, the ability to provide surge sorties is part of the 
Operation Southern Watch mission to provide ------. Maintaining the 
current package of air forces, complemented by Army, Navy, Marine, and 
Special Operations Forces is an economical method for securing our 
vital interests in the region.

                                  Iran

    Question. Describe to the Committee the level of Iran's effort to 
develop weapons of mass destruction--chemical, biological and nuclear?
    Answer. Iran is aggressively pursuing a nuclear weapons capability, 
has one of the largest chemical weapons programs in the Third World, 
and is developing biological weapons. ------.
    Question. What is Iran's level of state support for terrorism?
    Answer. Iran continues to be the leading state sponsor of 
international terrorist organizations and continues to use terrorism, 
including assassinations of dissidents, as a foreign policy tool. Iran 
and Iranian-backed groups have established a significant trans-national 
terrorist capability. Iran provides ------. Some of these entities have 
conducted terrorist attacks against U.S. interests, both in the Middle 
East and Western Europe. Successful operations by these groups have 
included bombings, aircraft hijackings, and kidnappings.
    Question. What action is Iran taking to foster instability in the 
region?
    Answer. Iran has been attempting to project its influence through a 
number of unconventional or asymmetrical methods, several of which have 
fostered instability in neighboring countries and the region as a 
whole. These methods have included ------. Iran has also amassed the 
largest regional navy, capable of laying maritime mines and threatening 
the sea lanes in the Gulf. Taken together, terrorism, ballistic 
missiles, weapons of mass destruction, and naval forces, provide Iran 
an effective mechanism for intimidating neighbors and challenging U.S. 
vital interests.
    Question. What is the position of our Allies regarding the U.S. 
attempt to impose trade sanctions against Iran?
    Answer. Neither the European Union nor, as far as we know, any 
memberstate has any sanctions in place against Iran. This is also true 
for our allies around the globe. The European Union has elected to 
continue a ``critical dialogue'' with Iran. Senior officials in allied 
governments have described the Iran and Libya Sanctions Act as 
``counter-productive''. Many allies do not prohibit trade with Iran 
but, instead, enact regulations or restrict trade based on applicable 
United National Security Council Resolutions or because of membership 
in trade control regimes such as the Australia Group, Missile 
Technology Control Regime, Wassenaar Agreement, and the Nuclear 
Suppliers Group. The lack of international support for U.S. policy 
clearly weakens our efforts and encourages Iranian hard-liners.

                                 Kuwait

    Question. To what extent have the Kuwaiti forces upgraded since the 
end of the Gulf War?
    Answer. The government of Kuwait has upgraded its military hardware 
significantly since the end of the Gulf War. Kuwait has invested 
heavily in the procurement and modernization of its Army, Air Force and 
Navy.
    Specifically, they have spent $7.8 billion on U.S. military 
systems. These major acquisitions include: 318 M1A2 Abrams Main Battle 
Tanks, 40 F/A-18 Hornets, and 5 batteries of Patriot Air Defense 
missile systems. The Kuwaiti military uses these systems in their 
exercises with us. During the Intrinsic Action and Eager Mace rotations 
the Kuwaitis exercise alongside U.S. Army and Marine units. The 
Kuwaitis have also purchased foreign systems. These include: the 
Warrior Infantry Fighting Vehicle from Britain, the Smerch Multiple 
Rocket Launcher and BMP-3 Infantry Fighting Vehicle from Russia, and 
Fast Patrol Boats from France.
    Question. What is the size, readiness and quality of the Kuwaiti 
forces?
    Answer. Kuwaiti Armed Forces are currently number approximately 
23,000 personnel. Their land forces are organized around 4 brigades, 3 
armored and 1 mechanized, for a total of 9,500 personnel. While 
currently ------ they are improving. The Kuwaiti Air Force, their most 
capable service, has 40 F/A-18 Hornets as their primary combat 
aircraft, ------. They have the best pilots in the Gulf Cooperative 
Counsel (GCC), but are not as food as U.S. aviators. Kuwaiti Naval 
Forces are limited to small coastal operation, using patrol craft 
purchased from France. They are ------. Their primary mission is, along 
with the Kuwaiti Coast Guard, fighting smuggling and illegal 
immigration. In summary, Kuwait has spent significant amounts of money 
in modern military equipment, but their ------.
    Question. How extensive is the U.S. involved in training and 
conducting exercises with the Kuwaiti Forces?
    Answer. The U.S. Central Command's (CENTCOM) exercise program with 
Kuwait is the bulwark of our Joint/Combined Exercise Program; 
accounting for approximately 11 percent of the exercises conducted in 
our Area of Responsibility (AOR). This program has undergone frequent 
and significant changes as it provided the basis for operational 
responses during OPERATIONS VIGILANT WARRIOR, VIGILANT SENTINEL, and 
DESERT STRIKE.
    The objectives of the CENTCOM exercise program are: to deter 
potential adversaries by maintaining forward presence and demonstrating 
U.S. strategic mobility; to demonstrate mutual commitment to regional 
security; to maintain access to Kuwait and the central region; to 
assist the Kuwaiti Armed Forces to achieve a self-defense capability; 
to enhance military-to-military relationships, refine complementary 
warfighting capabilities, and exercise combined command, control, and 
communications interoperability. Accomplishing these objectives will 
provide U.S. and Kuwaiti forces the opportunity to refine national 
defense and contingency plans as well as sustaining the capability for 
coalition warfare.
    The specific elements of our present exercise program with Kuwait 
include: ground, special operations, naval, and air pieces. An armored 
task force rotates three times each year into Kuwait for a 120 day 
exercise. These exercises are the cornerstone of our efforts to provide 
near continuous ground force presence in Kuwait and are paid for by the 
Kuwaiti government. Three 90-day Special Operations Force exercises are 
conducted each year in Kuwait. In these exercises, Coalition Support 
Teams exercise with the Kuwait Armed Forces to improve their defense 
capabilities and provide a close air support capability. A Joint/
Combined Naval Amphibious Force field training exercise designed to 
integrate the Kuwait Armed Forces with U.S. Naval Amphibious Unit 
capabilities in combined arms operations is conducted annually. U.S. 
Naval forces in the region conduct a Combined Naval Surface exercise in 
the waters of Kuwait annually. This exercise develops the proficiency 
of the Kuwaiti Naval Force while also improving interoperability 
between our two countries. Additionally a Combined Air exercise between 
shore-based U.S. Naval aircraft and the Kuwaiti Air Force is conducted 
annually which develops pilots of both air forces while improving our 
interoperability with Coalition Air Forces.
    Kuwait remains committed to a diverse joint and combined exercise 
program. Continuation of this relationship with Kuwait is central to 
strengthening U.S.-Kuwait military connectivity and to improving our 
regional command and control capabilities.

                                Bahrain

    Question. The U.S. Navy has been based at Bahrain since the late 
1940's, and that country provides a key location for U.S. military 
presence in the Persian Gulf. What has been the level of political 
discord and strife in Bahrain in the past year?
    Answer. ------.
    Question. What is the nature of any threat to the incumbent 
government? What is the position of the government's opponents 
regarding the presence of U.S. naval assets in Bahrain?
    Answer. The primary threat to the government of Bahrain is the ----
--.
    Iran is the main external threat. Iran asserts a claim to Bahrain 
based on the Persian origins of Bahrain's majority Shia community. The 
Bahraini government has implicated Iran in fomenting the unrest in 
Bahrain. Bahrain's security forces have been successful in containing 
the violence and maintaining the security of the government. The 
Bahraini government is working through the newly appointed consultative 
council, and other cooperative elements of society, to overcome 
economic and social issues at the root of the unrest. To date, the U.S. 
naval presence has not been an issue with the Shia opposition. Civil 
unrest has been present on the island since the charity marathon race 
demonstration on 25 November 1994. No violence has been purposely 
directed towards U.S. interests or personnel. Opposition groups target 
third country nationals (Pakistani, Bangladeshi, Sri Lankan), who they 
believe are taking jobs from Shia Bahrainis. Violence against U.S. 
citizens has been rare and unintentional. Although some graffiti 
referring to America has been seen, opposition speeches have not 
carried an anti-American theme.
    Continued efforts by naval commanders to foster good relations in 
local communities has been successful thus far.
    Question. How reliant are we on Bahrain for meeting our national 
security objectives in the Persian Gulf region?
    Answer. We have a long-standing cooperative military-to-military 
relationship with Bahrain. Bahrain provides a home for U.S. Navy 
Central Command (NAVCENT), our only component command permanently 
located in this critical region, and has supported our regional 
initiatives. In addition, Bahrain has been supportive in allowing us to 
position an Air Expeditionary Force (AEF) in Bahrain and ------. This 
continued support is very important to meeting our national security 
objectives in the region.

                        Theater Missile Defense

    Question. How high of a priority is the Theater Missile Defense 
program from your perspective?
    Answer. The development, production, and fielding of a Theater 
Missile Defense (TMD) is one of our highest priorities in Central 
Command (CENTCOM). In fact, it is my ------.
    Any TMD program should consist of a multi-layered defensive system 
tied together with an effective Command, Control, Communications, 
Computer, and Intelligence (C4I) architecture. In this way, it should 
have the capability to handle lower and upper tier requirements on land 
and at sea; as well as have the mobility necessary to cover fast moving 
Army and Marine ground forces.
    Question. Your prepared statement reads in part, ``We need to field 
a highly mobile missile defense to be positioned well forward to 
protect dispersed, rapidly moving Army and Marine ground forces. This 
system must also be able to defend against cruise and short range 
tactical ballistic missiles. To tie these various systems together, we 
need to improve our theater missile defense (TMD) fused awareness.'' 
How much of a technological challenge is it to tie together these 
various systems? Provide for the record the time frame required to 
provide ``fused awareness'' for Theater Missile Defense assuming an 
optimal funding profile.
    Answer. Linking these various systems together presents significant 
challenges. The Joint Theater Air and Missile Defense Organization 
(JTAMDO) and the Ballistic Missile Defense Organization (BMDO) are 
currently conducting the Joint Composite Tracking Network Study to 
develop executable timelines for this task. Until this study is 
completed, I am unable to provide a firm date for when ``fused 
awareness'' will be available to commanders; however, we believe it 
will be prior to the year 2010.
    Question. Do you think that the FY 1998 budget for the Theater 
Missile Defense program is adequate?
    Answer. The Department of Defense's Fiscal Year 1998 budget request 
would allocate $1.285 billion to specifically develop Theater Missile 
Defense (TMD) weapon systems, and roughly another $500 million under 
the Joint Theater Missile Defense program element to ensure that this 
``family of systems'' approach is fully interoperable. The Department 
is also requesting roughly $390 million in procurement funds for TMD 
systems in Fiscal Year 1998.
    I believe the Department of Defense understands our requirements 
and has factored them into the equation as they allocate resources, 
given other pressing military needs, to ensure that required TMD 
systems can be fielded at the earliest possible time. I understand that 
both the Patriot Advanced Capability-3 (PAC-3) and Navy Area Defense 
systems are proceeding as quickly as possible. We must recognize that 
extending the time to deliver and field a multi-layered TMD system 
increases risk to our forces.

                  Prepositioned Assets in Middle East

    Question. How extensive are the prepositioned assets of the US in 
the Middle East region?
    Answer. Prepositioning is a vital facet of overseas presence and 
demonstrates U.S. commitment to our allies in the Central Command 
(CENTCOM) Area of Responsibility (AOR). Prepositioning figures 
prominently in the strategic mobility equation allowing the U.S. to 
respond more quickly to a developing crisis and enhancing our ability 
to deter war.
    U.S. CENTCOM goal is for a prepositioned Heavy Division, consisting 
of three heavy brigade sets and a division base in the AOR. The first 
set is located at Camp Doha, Kuwait. We are working with the Kuwaiti 
Government for them to construct new prepositioning facilities in 
Southern Kuwait. The Army is prepositioning a second brigade set with a 
division base in Qatar. In January 1996, the first battalion task force 
of this brigade set was fielded. The next set of ------. The facilities 
for these sets are being constructed with U.S. Military Construction 
funds. The first two phases of this three phase program were approved 
by Congress and construction is underway. The final phase is in this 
year's Presidential budget submission. Positioning of the third brigade 
set is currently being worked through the Joint Requirements Oversight 
Committee process with a decision on the mode/location expected this 
cycle. CENTCOM has recommended the set be placed afloat in the near 
term, and ashore once final locations are negotiated with host 
governments.
    The Air Force has prepositioned bare base support, vehicles, 
medical, fuels support equipment, and munitions ashore in Southwest 
Asia. The Harvest Falcon bare base assets in war reserve support 50,600 
personnel and 750 aircraft at 14 locations. There are over ------. In 
addition to ashore assets, the Air Force has ------.
    Critical elements of our prepositioning strategy in the region are 
the Marine Corps' Maritime Prepositioning Squadrons 1 and 2 and the 
Army Prepositioning Afloat program. Both afloat prepositioned forces 
are usually stationed in the Pacific ------.
    Question. Have you attained your goals for prepositioning military 
equipment in the Middle East? If not, what deficiencies remain?
    Answer. Prepositioning remains one of our highest priorities in 
Central Command (CENTCOM). Through our prepositioning program, we not 
only remain engaged in this critical region, but we show any potential 
adversaries that we are committed to regional stability. We continue to 
make progress on our prepositioning goals; but we have not yet attained 
them.
    Two key issues we are currently working to attain our goal of a 
Army Heavy Armored Division equipment set ashore are: one, Military 
Construction (MILCON) funding to support the third year and final phase 
of Army prepositioning facilities in Qatar; and two, a Joint 
Requirements Oversight Committee (JROC) decision on the mode and or 
location for the Army's eighth prepositioning brigade set. Funding for 
the facilities in Qatar are included in this year's Presidential Budget 
submission. Support for this project is essential to the stability of 
the region and to show the countries in the gulf region that we are 
there for the long term. The eighth brigade equipment set decision is 
currently being worked through the JROC process with a decision on the 
mode/location expected during the current Chairman's Program Assessment 
(CPA) cycle.
    We continue to add facilities to enhance Air Force propositioning 
in our Area of Responsibility (AOR). Medical storage, maintenance 
facilities, warehouses, and munitions storage bunkers are currently 
under construction in Qatar that will provide adequate facilities for 
repositioned assets. Support is required to complete an additional 
warehouse and a communications maintenance facility at a cost of $2.9 
million dollars in the current Presidential budget. Out year 
requirements, in the years FY 199-2000, include minimal funding to 
complete these facilities.
    The Navy continues to work requirements for five Forward Logistics 
Site sets to enhance naval operations at selected ports in the AOR. A 
War Reserve Project has been identified and funding priorities continue 
to be adjusted to support these requirements.

                              Oil Exports

    Question. What is the current level of oil exported from countries 
within USCENTCOM's Area of Responsibility (AOR)?
    Answer. Within Central Command's 20-country Are of Responsibility, 
only 10 export domestically produced crude oil. The following is a by-
country breakdown:
    Iran exports 2.5 million barrels per day.
    Iraq exports 0.7 million barrels per day.
    Saudi Arabia exports 7.8 million barrels per day.
    United Arab Emirates exports 2.2 million barrels per day.
    Bahrain exports 0.1 million barrels per day.
    Qatar exports 0.5 million barrels per day.
    Kuwait exports 2.1 million barrels per day.
    Egypt exports 525,000 barrels per day.
    Yemen exports 250,000 barrels per day.
    Oman exports 815,000 barrels per day.
    Emerging as a significant trend in the world oil market is the 
growing centralization of world oil production in the Arabian Gulf. The 
area's share of the world supply is projected to increase from one-
fourth today to about one-third by the turn of the century. Adding 
significance to the level of Arabian Gulf oil production is the 
expected decline in oil production elsewhere.
    Oil will remain the world's primary source of energy for the 
foreseeable future. Reinforced by projections of increased demand from 
industrialized countries as well as emerging third world nations, the 
importance of oil and its availability will be a principal concern for 
global economies well into the coming century.
    The outlook for increasing oil demand, combined with the fact that 
over 60 percent of the world's oil reserves reside in the Arabian Gulf, 
further highlights the importance of Middle Eastern oil supplies. 
Additionally, the low cost of Arabian Gulf oil will add to the growing 
dependence by countries around the world.
    Question. How reliant is the U.S. on this oil?
    Answer. U.S. net oil imports from the Arabian Gulf are forecast to 
increase from the current 19 percent to approximately 22 percent of 
total oil imports by the year 2000. By the year 2010, the U.S. is 
expected to import roughly 25.5 percent of its total oil imports from 
the Arabian Gulf. This increase is largely due to a combination of two 
factors:
    First, U.S. oil demand is expected to increase from the current 
18.1 million barrels per day to 19.4 million barrels per day by the 
year 2000; and 21.6 million barrels per day by the year 2010. Total 
U.S. oil imports for 1996 were estimated at approximately 8.4 million 
barrels per day and that is expected to climb to approximately 19.4 and 
21.6 million barrels per day for the years 2000 and 2010, respectively. 
The majority of this will come from the Arabian Gulf given the 
stagnant, and in some cases declining, production outside of the Gulf.
    Secondly, falling U.S. oil production will exacerbate dependency on 
foreign oil. In 1996, U.S. oil production was estimated to be 6.5 
million barrels per day. By the years 2000 and 2010, respectively, U.S. 
oil production is forecast to drop to 5.9 and 5.4 million barrels per 
day.
    Question. How reliant is Europe on this oil?
    Answer. In 1996, Europe imported roughly 45.1 percent of its total 
oil imports from the Arabian Gulf. In the years 2000 and 2010, Europe's 
share of total foreign oil imports coming from the Gulf are expected to 
reach 45.7 and 47.9 percent respectively. Given the fungible nature of 
oil on the world market; all countries, including those in Europe, rely 
on uninterrupted oil supplies from the Arabian Gulf. Any disruption in 
the flow of oil would drive up oil prices and negatively impact the 
global economy.
    Question. What percentage of the oil exported from the Middle East 
is shipped through the Straits of Hormuz?
    Answer. Approximately 87.5 percent of Middle East (Arabian Gulf) 
oil (14 million barrels per day) is shipped through the Strait of 
Hormuz.
    Question. How wide is the shipping channel at the Strait of Hormuz?
    Answer. The shipping Channel of the Strait of Hormuz is 
approximately 80 kilometers wide and nearly 180 kilometers long. Most 
oceangoing shipping through the Strait of Hormuz passes through two 
established traffic lanes within Oman's 12 nautical mile territorial 
Sea. One lane is inward and one is for outward traffic. Traffic lanes 
are two miles wide and are separated by a two mile buffer lane. Depths 
in the lanes range from 45 to 80 meters.
    Question. What percentage of Iran's oil exports flow through the 
Strait of Hormuz?
    Answer. Iran exports all its oil (2.5 million barrels per day) 
through the Strait of Hormuz.
    Question. How easy would it be for Iran to shut down the Strait of 
Hormuz?
    Answer. Iran possesses the military capability to close the Strait 
of Hormuz through the use of mines, ship and land based anti-ship 
cruise missiles, air attacks by helicopters and fighter aircraft, the 
use of naval forces and small boats with guns and rocket launchers, and 
possibly the use of weapons of mass destruction including ballistic 
missiles.------.

                  Role of Guard and Reserve Personnel

    Question. Are there any ongoing operations in CENTCOM's Area of 
Responsibility that are totally reliant on Guard and Reserve personnel?
    Answer. At this time, there are no operations in the Central 
Command's Area of Responsibility totally dependent on Reserve Component 
forces. Our Service Components however, sometimes opt to relieve Active 
Component Operations Tempo (OPSTEMPO)/Personnel Tempo (PERSTEMPO) 
requirements by deploying into the theater Reserve Component forces. 
These rotations occur at both the individual and the unit level. Some 
examples of these rotations are the Navy's use of Reserve Component 
personnel in port operations and cargo handling facilities, as well as 
primary fill options for Joint Task Force Southwest Asia. The Air Force 
has sent Air National Guard Wings and A-10 rotations to support 
Operation Southern Watch as well as Combat Search and Rescue airlift 90 
days each year. The Army Reserve provides augmentees assisting in 
material management control in Kuwait and personnel supporting 
communications operations in Saudi Arabia.
    Question. How long is the typical tour of duty of Guard and Reserve 
personnel deployed to the Middle East?
    Answer. There is no typical tour of duty for Guard and Reserve 
personnel deployed to the Central Region. We depend on the Reserve 
Components to provide Personnel Tempo (PERSTEMPO) flexibility and a 
surge capability to react to emergent requirements. A tour can be 
anywhere from 19 days to 179 days per fiscal year, dependent on funding 
and volunteer availability. Units generally deploy for a 30, 90, or 120 
day commitment. Individual tours are dictated by mission needs. 
Normally Guard and Reserve personnel are not utilized for more than 179 
days due to Service interpretations of Title 10.

                           Quality and Morale

    Question. General, when you visit troops deployed in the Middle 
East area, have you noticed any deterioration in the quality of our 
troops? What about their physical condition? Are the new troops as 
mentally disciplined as those in prior years? Have you found that the 
new troops have more ``emotional baggage'' i.e., personal problems, 
than those in the past?
    Answer. Although many of the Services are facing recruiting and 
retention challenges today, we have not noticed any degradation in the 
quality or performance of our troops. I am concerned that we are 
beginning to see more junior officers and non-commissioned officers 
serving in positions that formerly were manned by more senior leaders. 
As a result, where we used to have four field grade officers on the 
staff of an Army brigade, you may have two today. Where previously we 
had four captains on a battalion staff, we now have two. Where we used 
to have an E-7, Sergeant First Class, platoon sergeant, we now have an 
E-6. And this is true, to some extent, in all the services. Similarly, 
I am concerned that our units are having to borrow individuals from 
different units to fill out their organizations. In this context, an 
Army brigade commander must get personnel from his other subordinate 
battalions to fill a single battalion. All of these realities stem from 
the post Cold War military restructuring. At the same time, we do not 
want to exaggerate the negative effects of this dynamic. Services 
continue to provide Central Command (CENTCOM) with dedicated and 
trained service professionals. Our service men and women remain 
physically fit and mentally tough and are flexible enough to deal with 
the rapidly changing situations commonplace in our Area of 
Responsibility (AOR). Continued funding and support for Morale, 
Welfare, and Recreation (MWR) and Quality of Life (QOL) programs are 
essential toward the retention of our highly qualified service 
professionals.
    Question. How is the morale of the troops deployed in CENTCOM's 
Area of Responsibility (AOR)?
    Answer. During my discussions with the Component Commanders and 
personal visits in the AOR, I find the morale and retention throughout 
the force is high. Recognizing the challenges all of the Sevices are 
encountering handling global missions and training requirements, U.S. 
Central Command (CENTCOM) has taken action to address Operational Tempo 
(OPTEMPO) concerns. We have eliminated or reorganized exercises and we 
have maintained forward positions in the region at minimal levels. In 
cooperation with the Services, we have worked on the optimizing tour 
lengths for the various forces, but have taken action to have longer 
tours where possible, to minimize personnel turbulence.

    [Clerk's note.--End of questions submitted by Mr. Young.]
                                          Wednesday, March 5, 1997.

COMMANDER IN CHIEF, UNITED STATES PACIFIC COMMAND AND COMMANDER, UNITED 
                          STATES FORCES, KOREA

                               WITNESSES

ADMIRAL JOSEPH W. PRUEHER, COMMANDER IN CHIEF, UNITED STATES PACIFIC 
    COMMAND, U.S. NAVY
GENERAL JOHN H. TILELLI, JR., COMMANDER, UNITED STATES FORCES KOREA, 
    U.S. ARMY

                              Introduction

    Mr. Young. The hearing will come to order.
    Pursuant to a vote taken last week, this hearing is closed 
so we might be free to discuss classified information.
    This morning the Committee is very happy to welcome Admiral 
Joseph Prueher, Commander in Chief, United States Pacific 
Command, and General John Tilelli, Commander in Chief, United 
Nations Command/Combined Forces and Commander, United States 
Forces Korea. That is a long title, General.
    The United States Pacific Command's area of responsibility 
is immense, covering 50 percent of the earth's surface and 60 
percent of the world's population found in over 40 countries 
and 20 territories and possessions. Admiral, that is a big job.
    We are proud of the achievements of the troops under your 
command who support the forward-deployed presence of this 
country in the vital Pacific Rim and guarantee the security of 
the Korean Peninsula.
    We look forward to your testimony on the state of your 
respective commands, and hope to address such key issues as the 
present readiness of your assigned military forces; the 
challenges of the deployments and OPTEMPO you now face; the 
present security situation in Korea; and your priorities and 
deficiencies in terms of personnel, maintenance and equipment.
    Admiral and General, again, welcome. We are very happy to 
have you here. We look forward to your presentation. Your 
statements in full will be placed in the record, and you feel 
free to summarize in any way you would like.

                  Summary Statement of Admiral Prueher

    Admiral Prueher. All right, sir. Thank you very much, Mr. 
Chairman.
    We both are very pleased to be here and present the posture 
of our commands. It has been a busy year with a lot of 
opportunities and a lot of challenges, and an opportunity for 
me to meet both U.S. and foreign military and civilians as well 
as servicemen and their families in our Area of Responsibility, 
AOR.
    The last time and my first time to appear before your 
Committee was last year, and I had been about 3 weeks on the 
job. I know more than I did then and know more of what I don't 
know, too. So it is interesting in that regard.
    One aspect in our theater, what is going on with working 
issues together with the State Department and the ambassadors 
in the area and the military security policy. Something I think 
would please you is the concerted effort that goes on together. 
I think the Congress and the public should be proud.
    I do have a written statement that is in the record, and I 
will summarize my thoughts now, sir.
    Mr. Young. Yes, sir.

                        PACIFIC COMMAND STRATEGY

    Admiral Prueher. Our region, as you pointed out, is very 
large. It is an economic center of gravity, probably the 
economic center of gravity for our country and the world. The 
forecast is in 2020, that 80 percent of the world's largest 
economies will be in the Asia-Pacific Region.
    It is a region we are pleased to report, unlike some other 
CINCs, which is largely at peace. It is not conflict free, but 
it is at peace. This is due in a large measure to the U.S. 
presence and engagement that has ensued since the Second World 
War, and certainly since the Korean War in conjunction with our 
allies and our friends there.
    Almost all of the Asia-Pacific leaders, the political, the 
diplomatic and the military leaders, not only concede, but 
advertise the fact that the U.S. presence there brings the 
security to the Asia-Pacific Region. This security brokers the 
stable conditions which yield the economic prosperity, which is 
good not only for the Asia-Pacific Region, but for the entire 
global community, and certainly for the U.S. as well, and 
creates a lot of jobs in the United States.
    I mentioned a little bit earlier, the security issues, the 
diplomatic issues, and the economic issues in the Asia-Pacific 
Region are so intertwined and depend so much on each other that 
none of them can be advanced separately. We don't work any one 
of those without impacting the other. This gives our framework 
for promoting peace and stability in the area and protecting 
the U.S. interest.
    It yields what is the Pacific Command Strategy, which is 
what we call sort of benignly Cooperative Engagement. But 
Cooperative Engagement has 3 parts to it: One is peacetime 
engagement. Dr. Perry wrote a piece in the Foreign Affairs 
Journal called Preventive Defense. This is what peacetime 
engagement is. It is exercising, it is working with the senior 
people in the area, it is our coordination as we work in the 
peacetime to try to maintain stability, build contacts, and 
avoid conflicts that get out of hand.
    The second part is crisis response, the ability to respond 
quickly to crisis and to resolve them before they get big. An 
example of this is the China-Taiwan crisis that occurred about 
this time last year, a couple of weeks away from this time last 
year.
    And the third part of this strategy is the ability to fight 
and win, to go into a major conflict and hopefully 
multilaterally, but perhaps unilaterally, to fight and win a 
major conflict.
    So in a circular way, our ability to do this third piece of 
fight and win in a major conflict with the forces we have, 
enables us to work in the peacetime environment, which has been 
a successful strategy, and it is one which we use.

                          COUNTRY ASSESSMENTS

    I would like to now go briefly country by country, just for 
a quick talk about our view of the security issues in the major 
countries in the AOR. I will not go through all 44 of them. The 
first is Japan.

                                 JAPAN

    As we talk a lot about China, and we talk a lot about 
Korea, General Tilelli's focus of interest, we must not forget 
that Japan is our pivotal security relationship in the Asia-
Pacific Region. We have just last April reexamined and resigned 
our security relationship with Japan which talked about four 
things: One is our 100,000 troops being our commitment to the 
Asia-Pacific Region; it talked about maintaining our current 
force levels in the Asia-Pacific Region; it talked about the 
host nation support to which Japan gives greater than $5 
billion to our troops annually, and it talked about a renewal 
of the 1978 defense guidelines.
    Japan will continue to be the cornerstone of our security 
relationships in the Asia-Pacific, not just for Japan but for 
stability in the region over all of the Korean Peninsula, which 
I will address very briefly, because General Tilelli is the 
expert on that.

                              NORTH KOREA

    The trend in North Korea, of course, is downward. The 
situation there is dire. there will be--forecasting is a risky 
business--probably some change, if my information yields 
correct, within the next 1 to 10 years, but there are a variety 
of guesses on that, and I try to open the spectrum.
    Our big issue in supporting General Tilelli is to stay the 
course to make sure that North Korea does not get in a 
situation where they would use their residual military 
capability, which is impressive, to lash out.
    This is a work in progress. There are a lot of initiatives 
going on. In fact, this week in New York, the North Koreans 
have come to the table. I think I could talk more about that, 
but, again, General Tilelli is the expert, and I know he will 
address that in detail.

                                 CHINA

    China: We read a lot about China. They expect in the year 
2015 to have 1.6 billion people. Right now they have about 1.2 
billion people. They grow at the rate of the population of the 
United States every decade.
    The regional leaders in Asia and in the Asia-Pacific 
Region, including India, are very concerned about China. They 
are concerned about their military modernization. They had a 
12.7 percent increase in their stated defense budget, but it is 
very hard to figure out exactly what they do spend on defense. 
But they are modernizing and they have the intent to modernize.
    It is my estimate that it will be about a decade and a half 
before China has a force projection capability which could make 
them a major projector of power.
    Our military to military relationships with China are 
increasing, but they are increasing from a low level. About a 
year ago at this time we didn't have any, other than force to 
force, but they are important in the view of transparency so we 
can know what each other are up to, and it is also our ability 
to influence China to bring them as a responsible actor in the 
world.
    Hong Kong: On 30 June, Hong Kong will revert, of course, to 
China. That is a harbinger of how China will be able to handle 
entry, economically and somewhat democratically, into the 
modern world.
    The Taiwan issue is better off now than it was a year ago, 
but we expect perturbations with Taiwan and China. We are 
committed to our one-China policy. A peaceful resolution, to 
which the U.S. is committed by the Taiwan Relations Act, is in 
the interest of all. It is in the interest of China and the 
interest of Taiwan, and of all thinking people, and in the 
interest of the United States. It is all our interests not to 
bring the China-Taiwan crisis to a head. That is part of our 
strategy while maintaining our principles and being firm.
    I am optimistic that China can be, and will, emerge in the 
world as a prosperous and a responsible player, but we have a 
lot of long, steady work ahead now; 50 years worth of work is 
ahead. I hope the trend line will be up, but there will be a 
lot of ups and downs on that trend line in our dealings with 
China. Our policy, our PACOM policy and national policy must be 
one of strength, to deal from a position of strength with 
resolve and firmness, but also with an eye and a respect for 
what China's interests are.

                                 INDIA

    A couple of others, India. India, we think in population 
will surpass China by the middle of the next century. Their 
economy also is growing in the 5 to 7 percent rate, like a lot 
of the other Asian nations. In the United States we usually 
talk about India and Pakistan in the same breath. It is a near-
term worry of India. The long-term issue with India is as they 
look to the East, they look to China as their main security 
problem, but they also look to the East to Southeast-Asia for 
their economic expansion. India will be a major player in the 
next century and a half.

                                 RUSSIA

    Russia: Mostly we talk about Russia, again, in the Western 
part of Russia, the European part of Russia, but they also have 
an Asia-Pacific presence to which they are looking with an 
increasing amount. Right now, owing to their economic 
conditions, Russia is neither a beneficiary nor a participant 
in either the economic or the security issues in the Asia-
Pacific.
    Our hope is we continue to deal with Russia. We think they 
will be back some time: and Russia has all the ingredients of a 
great power. They are going through a rough time, but will 
bring themselves back on line as a player and a responsible 
player in the Asia-Pacific.

                               SOUTH ASIA

    The South-Asian nations, which we tend to lump together: 
They range from Singapore, with 3 million people, with whom we 
do the same amount of trade that we do with France, up to 
Indonesia, with 200 million people, the fourth largest nation 
in the world. We lump them together, but there is a lot of 
diversity there. They have burgeoning economies, growing at a 
rate of 7 to 9 percent.
    The Southeast-Asian nations are working with a lot of 
vision and sophistication and long-range planning on their 
future, and they are doing very well.
    Indonesia, for example, they are trying to work very 
responsibly with a very tough security situation in Indonesia. 
It is hard to govern.
    Australia: We talked a little bit about that, Congressman 
Dicks is recently back from there. They are a staunch and 
friendly ally. They are easy for us to get along with, and we 
work well together.
    We nurture this relationship. Right now we have TANDEM 
THRUST 97, a major exercise going on with Australia with our 
Navy, Air Force, Marines and some Army units. We have 22,000 
people involved in this exercise from the U.S., which exceeds 
one-third of the total Australian defense forces.
    The essence of all of this is that engagement and our 
presence in the area are working for stability and working in 
the interests of the United States. They are the right 
solutions to cope with this uncertain world, I think, and our 
combat capable forces, plus our national will, enable our 
policy there to work.

                  BALANCING RESOURCES FOR OUR STRATEGY

    Sun-Tzu, about 2,500 years ago, said, the great General is 
the one who achieves objectives without fighting. I think that 
that is true for our Nation as well. But it requires capable 
forces in the right place to do that.
    For our resources in support of these national goals, one, 
we thank this Committee very much for the resources that you 
have helped provide to us. We are trying to use them 
responsibly. They are ready, capable, and well-positioned 
forces. 100,000 is a number, but it is a metric, and what it 
really represents is the capability of the SEVENTH Fleet, of 
the 5th and 7th Air Force, of the 2nd Infantry Division, and of 
the 3rd Marine Expeditionary Force. What it really represents 
is the capabilities. The 100,000 is just the metric for that. 
But it is the regional metric to which the nations look, and 
that is the expression of our commitment to the Asia-Pacific.
    IMET, the International Military Exchange and Training: Our 
total PACOM budget is about $6 million, just a decimal point or 
two over $6 million. It is the best money we spend almost. It 
is highly leveraged. It provides education for the leaders of 
other nations.
    Right now there are four major leaders in Asia who had IMET 
training in years ranging from 1965 up through 1984. They are 
the heads and ministers of the defense of their services. This 
money is very well spent. I support not restricting this money. 
It should be unrestricted in its use. It is a high payoff.
    The Asia-Pacific Center, I hope that you all get a chance 
to visit it when you come to Honolulu. It is a center that has 
started in the last 2 or 3 years. It promotes classes, about 
12-week classes, as well as conferences for military leaders, 
political leaders and economic leaders and academics from the 
area.
    There is a tremendous interplay for working in Asia, and 
they work together. One of the comments from one of the Indian 
participants in the first class said: ``Only the U.S. could do 
this. The time is right. It is critically important.''
    I think this is, again, money that is well-spent and highly 
leveraged.
    Stewardship of the assets that the CINCs are given. As I 
mentioned before, we very much appreciate both the dollar 
resources and the lives of the young men and women that are 
entrusted to us. It is important for all of the CINCs to take 
the long view, not just take the short view of readiness.
    We have to take the long view, particularly when 
modernization equals total future readiness. So we must take 
the long view and not ask for more than we need. We need to 
consider prudent risk in what we do as we take on projects. 
This long view and the stewardship issue are something that I 
think the CINCs are getting increasingly responsible for, and 
we have to do that.

                                SUMMARY

    In conclusion, the CINCs, the regional CINCs and certainly 
ours, have been full participants in all the processes going 
on. Our forces, your forces, are working very hard, they are 
doing a great deal. We are working to scrub the activities, to 
make sure that we have a high payoff on the things we do--and 
we are not always perfect in that--but that we are using our 
forces effectively and efficiently. Our assets and our 
readiness are adequate, but they are stretched.
    We thank you very much for what you have provided us. It is 
adequate to the need and we are working hard to do well with 
it, to keep the U.S. as a player and a partner and a 
beneficiary in the Asia-Pacific Region.
    Thank you, sir.
    [The statement of Admiral Prueher and the ``U.S. Pacific 
Command at a Glance'' booklet follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    Mr. Young. Admiral, thank you very much. We will have a lot 
of questions for you shortly.
    First, I would like to recognize General Tilelli for his 
statement, and then we will be back to both of you with our 
questions.

                  Summary Statement of General Tilelli

    General Tilelli. Thank you, Mr. Chairman.
    Mr. Chairman, distinguished Committee Members, thanks for 
the opportunity to be here.
    I consider myself lucky to be serving with the men and 
women in the Republic of Korea. It is an honor for me to 
discuss with you the current security situation within the 
Republic of Korea and the theater of operations.
    Before I do so, I want to thank you all and the Committee 
Members for your continued support of our forces in Korea, both 
past and present. It is very important to them and it is 
important to me.
    I am going to center my opening comments around three 
issues: One, the readiness of my command; two, the uncertainty 
of the threat that these men and women face every day; and last 
but not least, the quality of life afforded to all the U.S. men 
and women stationed and living in Korea, a faraway place from 
home.

                          READINESS OF FORCES

    The ROK-U.S. security alliance is strong, very strong. It 
has been in the past, is presently and must remain so in the 
future. It is the key mechanism for maintaining peninsula and 
regional peace and stability in a current environment where we 
are still in a truce environment rather than at peace.
    As the defenders of the ROK-United States Alliance, the 
Combined Forces Command, the United Nations Command, and U.S. 
Forces Korea are highly capable and well-trained. This force 
has secured peace for the last 43 years. The peace and 
stability have not only survived on the Korean Peninsula, but 
the fact is it will help secure peace in the region, an area 
described by Admiral Prueher as vital to the interests of the 
United States of America.
    These 43 years of peace did not happen by mistake or 
accident, but by design. At the center of that design is a 
constantly maintained strength and vigilance which equal 
readiness that has protected and will continue to protect the 
combined national interests of the United States of America and 
the Republic of Korea.
    Our combined forces readiness and capability are critical 
not for generic reasons, but because there is still a very 
powerful threat posed by an unstable North Korea to the 
Republic of Korea is specifically, and to stability within the 
Northeast-Asia Region.
    Events such as the North Korean submarine incursion, the 
defection of 9 North Korean senior ideologue and the tensions 
that accompanied these events demonstrate how precarious 
stability really is. It also highlights the uncertainty we 
face. Compounding these tensions is the reality that North 
Korea can initiate an attack from a standing start. Yet the 
most compelling element of the threat is its uncertainty, and 
it is this uncertainty, in my mind's-eye, that increases 
danger.
    So no matter what the scenario, our readiness must focus on 
security of this peninsula and the regional interests that 
Admiral Prueher has enunciated.

                      QUALITY OF LIFE OF PERSONNEL

    Finally, the quality of life of our soldiers, sailors, 
airmen and Marines within the United States Forces Korea and 
their families is important to me and it is important to my 
component commanders. Quality of life and morale are readiness 
multipliers. Although when we talk about readiness, we 
generally don't consider that very much.
    The men and women on the ground do influence the situation. 
They are a visible deterrent, and shape the environment for the 
future. Fighting men and women win wars, not equipment or 
machines.
    Our troops are forward-deployed and carrying out the 
command's mission every day--deterrence, and clearly if 
deterrence fails, to fight and win. And that is the charter I 
am given and that is the charter I think about every day.
    Serving away from home, the personnel tempo of these men 
and women is high. They serve selflessly away from home 365 
days with high morale and pride, and just as you and I would 
want them to do. In this tense and austere environment, our 
service members deserve an adequate quality of life.
    However, we are in a catch-up position in the area of 
quality of life as it applies to the condition of our barracks, 
dormitories, and family housing. Therefore, the MILCON 
appropriations for fiscal year 1995 through 1997, are greatly 
appreciated. Yet much remains to be done before the problem is 
fixed.

                                SUMMARY

    These issues, Mr. Chairman, are important to me as 
commander. Again, we in Korea must work hard every day at being 
ready in the face of very dangerous uncertainty in North Korea. 
If we are not prepared properly the price is obvious.
    Lastly, we are hopeful that the joint briefings in New York 
will lead to a substantive discussion in the Four-party talks. 
I have provided a more detailed statement for the record.
    I thank you very much. I am prepared to answer your 
questions.
    [The statement of General Tilelli follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                      QUALITY OF LIFE OF PERSONNEL

    Mr. Young. General, thank you very much.
    I wanted to ask you about quality of life with your forces. 
That is a big issue for the Members of this Committee, and I 
got the feeling from the way you presented the quality-of-life 
issue that maybe there are some things lacking, recognizing 
that you are in an austere condition.
    What is lacking in quality-of-life issues for your forces 
in Korea?
    General Tilelli. Mr. Chairman, as you know, there was a 5-
year MILCON hiatis in Korea. That was restarted in fiscal year 
1995, where we gratefully received MILCON appropriations. So we 
are in a catch-up mode. And in the real sense, if I had to 
describe to you from the perspective of the soldiers, sailors, 
airmen and Marines, what is the greatest quality-of-life issue 
within, it is the barracks and dormitories and housing.
    So consequently, that is where we are in the catch-up mode.
    At the same time, I would be remiss if I didn't say, and we 
give very little thought to it, the infrastructure on most of 
our installations in Korea is old and in need of repair, when 
we think about electrical, water, sewage, et cetera. But the 
primary issue with the men and women who serve there are the 
barracks and dormitories from the quality-of-life standpoint.
    Admiral Prueher. Mr. Chairman, if I might add, those in 
Korea have the least good barracks and dormitories in the whole 
AOR.
    Mr. Young. You mentioned military construction. Of course, 
we don't have that jurisdiction. But is it new construction 
that you are requiring, or do you need some real property 
maintenance as well as the new construction?
    General Tilelli. Mr. Chairman, as we think about this 
quality-of-life issue as it applies to a backlog of maintenance 
repair, new construction and repair of infrastructure, it 
really is a patchwork quilt, where all of those issues must be, 
if you will, focused upon in order to provide the quality of 
life that I think we think is adequate for our men and women 
who serve there.
    From my perspective, it is not only the MILCON that is a 
piece of it. It is the piece that gets us out of some Korean 
War vintage living conditions. But it is also the RPMA where 
you can do some of our own work to upgrade, and also the 
infrastructure dollars that do the below groundwork that no one 
likes to focus much on.
    Mr. Young. Well, believe me, we are concerned about the 
issue of the lifestyle that your forces have. We will spend 
considerable time on dealing with that as we prepare our 
legislation.
    General Tilelli. Thank you, Mr. Chairman.

                           COUNTRY RELATIONS

    Mr. Young. You mentioned our relationship with the various 
other countries in the region. You didn't mention New Zealand. 
Where do we stand with New Zealand today?
    Admiral Prueher. We stand in a very friendly way. The 
Defense Minister from New Zealand was visiting us in Honolulu 
just a little bit ago. He is the Defense Minister and Attorney 
General there. The New Zealand Armed Forces total 8,000 people.
    As you remember, the Lange government in 1986 terminated 
our ships coming into New Zealand, and that position has not 
changed. As a result of that, we do not do exercises with New 
Zealand, but we do have interplay with them. They are good 
global citizens. New Zealand has a ship in the Arabian Gulf 
doing Middle East force work. They participate in UN things.
    We participate with them in the ASEAN Regional Forum, but 
we do not have military exercises with them, only dialogue.
    This issue is complicated slightly, it is difficult for me 
anyway to talk about New Zealand without including Australia. 
Australia would like to see us do a little more with New 
Zealand because New Zealand is spending only 1.2 percent of 
their budget on defense. So they are not doing a lot.
    Australia is concerned that New Zealand will cease to be 
able to be a player, so they encourage us to do more with New 
Zealand as well.
    Right now, it is at a flat spot. We don't do anything. We 
would like to. We will continue to work with them where we can, 
but right now we do not exercise with New Zealand.

                      CHINESE FORCE MODERNIZATION

    Mr. Young. As we talk about defense budgets, it was 
revealed in the news this morning that China has announced that 
it will increase its defense budget by 12 to 15 percent. Is 
that significant to you? Do you have any concern about that? Do 
you have any indication as to whether that might be an increase 
in the size of their force or modernization of their force?
    Admiral Prueher. Yes, sir, we do. The modernization of 12 
to 15 percent, one, it is very difficult, that is their 
announced budget, which gets their total defense budget into 
the low billions, 9.7 according to China's official budget. 
There is a lot more that goes into the defense owing to the way 
the PLA is organized.
    But that increase is in support of a stated objective of 
China to modernize, and that does concern me. As I mentioned, I 
think if they did everything right, it would be about 15 years 
before they could modernize where they had a good force 
projection capability.
    I worry about over answering your questions here, but I 
think most of us look at defense and measure other people's 
defense justifies by looking at things, ships, airplane, tanks, 
number of people. But the training of people, the conscription 
and the training system and the tactics that people use, are 
also very important in looking at the effectiveness of a 
military.
    China can buy from Russia SU-27's and they are buying 250 
or so of those, and they will do that with that defense budget. 
But to grow someone that is the equivalent of one of our Non-
Commissioned Officers or Chief Petty Officers with 15 or 20 
years, that takes 15 to 20 years to get the people that can 
work that advanced equipment. So that is something, they are 
going to have to change their conscription system, their 
retention system and their training system, all of which will 
take time before they can really be a modern, effective power.
    So I am concerned about it, but I don't lose sleep over the 
fact they have increased their defense budget 12-7 percent.
    Mr. Young. Since we have a pretty good attendance today, we 
are going to have to go by the 5-minute rule. I am going to 
keep my other questions for both of you until I get a second 
chance.
    Mr. Murtha?
    Admiral Prueher. I will give shorter answers.
    Mr. Young. That is okay, we like your answers to be as 
thorough as possible.

                       ASSISTANCE TO NORTH KOREA

    Mr. Murtha. On the food negotiation going on right now in 
New York, does this help their military? If we give them food, 
is that food diverted to their military?
    For instance, are these negotiations talking to you folks 
at all about the impact of what would happen if we were to give 
them humanitarian assistance?
    General Tilelli. Mr. Murtha, let me answer that question in 
two ways. One, the briefing in New York, today is the joint 
briefing to the North Koreans, that will discuss the Four-party 
talks. In my view, I think that this is a very positive move 
and unprecedented and may lead to future Four-party talks, and 
secondarily, potentially lasting peace on the peninsula.
    To get to the nub of your question on, one, do we discuss 
with those who are involved in the humanitarian assistance to 
the North the implications as they apply to the military; and 
secondarily, do we in fact see that food being diverted? I 
think the answer to your first question is yes, we are 
consulted and we do discuss with those involved the 
implications of humanitarian support.
    Secondarily, I think our safeguards are adequate, and when 
I say adequate, that does not mean leakproof, there are 
adequate checks and balances to ensure that the humanitarian 
support which is provided by a host of countries, not only in 
the region but external to the region, that it is going to the 
right people, and that meaning the population.
    Mr. Murtha. The reason I asked the question is I understand 
even their troops are having trouble getting food now. I am 
just wondering if it is not counterproductive if we start going 
in there, so we give food to the civilians, that just means 
they divert food to the military. I don't know whether that is 
counterproductive or not. You seem to feel this is the right 
direction, that it is actually better even it they don't get 
the food.
    General Tilelli. Mr. Murtha, I would say two things. One is 
the military in North Korea still retains a higher priority of 
distribution of constrained resources as they have in the past. 
So, therefore, while the rest of the population may be 
suffering, they are suffering least as far as malnutrition.
    Secondary, I think food engenders, when we think about the 
population, a certain amount of stability, and stability and 
trying to remove the clouds of uncertainty I think are 
important as we think about a country that is in every metric 
that we can think about, in downward slide, maybe a death 
spiral.

                 CHINA'S POWER PROJECTION CAPABILITIES

    Mr. Murtha. Going back to Formosa and a year ago the 
activity there, could they have invaded Taiwan?
    Admiral Prueher. No, sir. The People's Republic of China, 
PRC does not have the amphibious lift capability to do an 
invasion of Taiwan.
    Mr. Murtha. When you said a decade to decade-and-a-half, 
you are talking about before they would have that capability?
    Admiral Prueher. Yes, sir. They would have to make right 
decisions along the way to get there. If they focused all their 
effort just on that, they could probably do that faster, but it 
is unlikely they will focus on their effort there.

                      U.S. PARTNERSHIP WITH JAPAN

    Mr. Murtha. Okinawa, I keep reading things that worry me. 
When I was Cochairman of the Election Delegation to the 
Philippines, all the top officials except the Speaker of the 
House of the Philippines told me we were going to be there 
forever. But there seemed like an awful lot of things going on 
in Okinawa which are similar to what happened in the 
Philippines. Is there any chance we will lose access to 
Okinawa?
    Admiral Prueher. Well, sir, phrased that way, any chance, I 
am sure there is. With the Hashimoto government and with the 
people of Okinawa, the businessmen that I talk to coming back 
say that there is about 80 to 90 percent support amongst people 
of Okinawa for U.S. presence there, our total military 
presence, Air Force and Marine.
    Mr. Murtha. This is in the business community?
    Admiral Prueher. No, this is a gross sampling of the 
people, and probably not very accurate, but roughly right.
    But Governor Ota and the perfectures down there are 
committed to all of the U.S. forces being gone. I believe we 
will be working this for a long time. I think it is Japan, the 
Government of Japan sees it very much in their interest that we 
be there, and the trends are in the right direction, but we are 
going to have a lot of publicity and a lot of discussion over 
the downsizing of Okinawa.

                          QUALITY OF RECRUITS

    Mr. Murtha. I have been to a number of recruit depots 
talking to recruits drills sergeants, and instructors, 
depending whether it was a Marine or Army base, telling me the 
people coming in, the quality is slowing down. I haven't seen 
this in the field. Have either of you seen a decrease in the 
quality of people coming from the recruit depots to the field?
    Admiral Prueher. I will say from the commanders reporting 
to me, their basic answer to that is there is not a degradation 
in the quality of the people coming in. I know statistically 
the number of high school graduates is a couple of percentage 
points lower.
    I think what we do see, and I know John will want to 
address this as well, but what we do see is the recruits coming 
in. We need to spend time at the access points for our recruits 
on training in different types of things than we have 
traditionally done, because they come in with certainly a 
different mind-set than what we grew up with. So we are 
spending more time, and, as a result, it tags a bigger chunk of 
time in the training to work that.
    These issues are manifest in a lot of things we deal with. 
But I think the services are coming to grips with that amount 
of training, for our recruits. We are still getting a good 
quality of recruits.
    John, do you want to add?
    General Tilelli. Sir, let me address the baseline question 
in the field. We are seeing no degradation in the quality of 
the men and women who come to us from the training bases. They 
are highly motivated, they are well-trained, they selflessly 
serve, and they act just the way you and I would want them to 
do. We are very pleased with the product in all of the United 
States Forces, of the men and women who come to us to serve on 
the peninsula.
    Mr. Young. Mr. Hobson.

                         REMARKS OF MR. HOBSON

    Mr. Hobson. Thank you, Mr. Chairman.
    I have 5 minutes, I am going to ask a bunch of questions 
and you answer them however you want.
    You know, one of the things I just learned in another 
Committee I just attended is there are 90,000 people that are 
going to be recruited by the Army this year. That is a lot of 
people, when we are doing about 65,000, I think, a year ago or 
so. I don't know if that number is right, but that is what I 
was told.
    There are five projects in Korea. Korea is apparently a 
place you don't want to go to live with a family, and I think 
one of the problems of all this is retention. There are five 
projects for $76 million. I would like some explanation of 
that.
    I would also like to talk about F-16's, sales of F-16's to 
Indonesia. I assume that is in your area. I would like some 
comment about that. I have had some people come up to me that 
are concerned about that. I am concerned about China, like 
everybody else is. I see the number of aircraft and things they 
are doing. I am sorry I didn't hear all of your presentation on 
that.
    But how many troops are permanently stationed in Hong Kong, 
or do they move in and out? Did we make a deal? What is going 
to happen from your perspective in Hong Kong?
    It used to be a nice place to visit. I don't know what is 
going to happen in the future. So those are the things I 
particularly would be concerned about right now.
    I am particularly concerned about Korea, because I sit on 
another Committee that has that. The overall thing of so many 
new troops, when you have new troops, you are putting them in 
with people maybe who aren't as experienced, and you have to go 
to war, or you get in an intense situation and you have a lot 
of new people, that is tough. I suspect that is tough.
    General Tilelli. Sir, let me address that, and I will 
briefly address it, because truly it is not within my purview, 
but I understand it, I think. On the recruitment of 90,000, I 
think what you are seeing is that the drawdown essentially has 
reached the point where we are now at a stable force of 495,000 
in the Army. That drawdown--and I think it is not only this 
year, but if you project it out in the future, will require as 
a function of soldiers who are terminating their service, it 
will require somewhere in the vicinity of 85,000 to 90,000 each 
year. So I think that number, although it seems high, is a 
function of stabilization rather than increased turnover.
    Secondary, as you know, sir, the force in Korea is a 
turbulent force, turbulent in that the preponderance of the 
forces are not command-sponsored. So about 90-plus percent each 
year rotate back to the United States of America to camps 
around the world.
    That dictates to me that we must have a very vibrant 
training program, which we do, that, one, integrates those men 
and women into their units, and then trains them in their 
readiness for their armistice and wartime mission. I think we 
do that very well. So consequently I do not get the feeling 
that this turbulence causes me unreadiness to perform my 
mission of deterrence in fighting and winning if all else 
fails.
    Lastly, I would say to you, and I did mention it when asked 
the question on quality. The quality of the men and women that 
are coming in, these are dedicated young men and women who 
serve very well and are very satisfied with not only the 
mission, but also job satisfaction when they are integrated.
    Admiral Prueher. A brief one on the numbers of new people 
is that all of the services are completing their drawdown, so 
we have harvested----
    Mr. Hobson. I think I get the Navy tomorrow. I have the 
Army today.
    Admiral Prueher. We have harvested the capital that existed 
in that drawdown, and as it flattens out, I think we are going 
to have to increase our numbers, all the services will have to 
increase their numbers to stay steady.
    One other point on new people is that traditionally the 
services and units have about a one-third turnover every year, 
so there is a constant flow of people. We are reasonably 
accustomed to dealing with it.

                        F-16 SALES TO INDONESIA

    F-16's to Indonesia is a complex topic. From a security 
point of view, the Indonesia military is, I think, working in a 
very responsible way. They need some aircraft. I was just in 
Indonesia a couple of weeks ago, maybe 3 weeks ago now. No one 
from the Vice President on down talked to me about the F-16's. 
They are not pressing hard for it.
    I think from a security point of view, I would support the 
F-16's going to Indonesia. They are a force for stability in 
the Asia-Pacific Region, and again a very large and influential 
force in Southeast-Asia. All the other leaders ask ``What does 
Feisal Tanjung think,'' he is the head of their defense forces. 
And also I might add, an IMET beneficiary in 1981. He is a 
force for stability in the area.
    So from a security point of view, I would support it. There 
are some other issues which are not in my kit that impinge on 
that decision.
    Mr. Hobson. Thank you.

                          HONG KONG REVERSION

    Admiral Prueher. Hong Kong. We don't have troops in Hong 
Kong, and we haven't had. We have a couple of handfuls of 
people that are attached to the consulate there that deal with 
ship visits and deal with coordination of supplies and things 
like that, but we don't have a troop placement that are not 
attached to the embassy there. The British have a garrison 
there that will move out.
    So that part is not a big issue, though it is a subset, if 
do we maintain a consulate in Hong Kong after reversion, and 
then do we have a couple of handfuls of military people 
attached to it? It is in that context.
    The Hong Kong reversion is one in which I think the Chinese 
are eager to do it well. Their stated objective to us is have 
it the same as before, only a change in sovereignty.
    Well, the type, as I mentioned before, of security and 
diplomatic and economic issues is so intertwined, I am not 
confident that the Chinese know how to absorb that great 
laissez-faire community and let it go on as before.
    So I am hopeful that it will work, but I think we are going 
to see some turbulence.
    Our consul, Richard Boucher, was just through Honolulu and 
we were in Hong Kong a little bit ago. It still is a pretty 
good place to visit, and I recommend it. But the businessmen 
there----
    Mr. Hobson. Been there, done that.

                      CHINA AND THE PACIFIC REGION

    Admiral Prueher. The businessmen are optimistic that things 
will work well, but they are also prepared to batten down the 
hatches for a while for some turbulence as they go through a 
stage working with china.
    I don't know the real answer. I think it is going to be 
turbulent, but again I stay optimistic, as do the people in 
Hong Kong.
    China, a huge topic that we talked at some length about 
before. But basically China is a major backdrop against which 
all the security and some of the economic decisions in the 
Asia-Pacific Region are made. China, a large country, is 
growing economically, but it is not homogeneous throughout, but 
they are growing at 7 to 9 percent a year.
    They are modernizing their military, but they have a long 
way to go to get to a modern military. Their missiles fit into 
a little bit of a different category because with their missile 
modernization, they can put other places at risk, like Taiwan. 
So that is a separate concern.
    But overall, we need to deal with China, not be too ardent 
about China. But I don't see, my opinion is that we will never 
be just close friends where the United States and China just 
completely embrace each other. There will be individuals that 
will do so, of course. But I think we can work with China out 
of a position of mutual respect and strength for the long haul.
    Again, I mentioned earlier, long haul is real long haul by 
our standards. We aren't going to sign a contract and have it 
done. It is going to be working in perpetuity.

                     MILITARY CONSTRUCTION IN KOREA

    General Tilelli. Let me address very briefly the projects 
in Korea that you alluded to. One, the components of projects 
provide what I call an adequate quality of life, places where 
soldiers, primarily soldiers, live and work. Those projects are 
deemed necessary and are a function of the quality of life 
that, in my view, is a function of a long hiatus of MILCON and 
RPMA, and working on the infrastructure is necessary to bring a 
leavening effect, if you will, for our men and women to serve.
    Mr. Young. I want to compliment the gentleman on a very 
effective way to use his 5 minutes.
    Mr. Hobson. Thank you, Mr. Chairman.
    Mr. Young. Mr. Dicks.

                            QUALITY OF LIFE

    Mr. Dicks. I want to welcome the Admiral and General and 
appreciate their statements. I am sorry I had to leave in the 
middle, but we have complicated schedules here.
    I would just point out again that we visited Korea with 
Congressman Murtha several times, and the need for that MILCON 
is essential. There were many years in which nothing was done, 
and especially for the most forward-deployed areas. The housing 
was simply unacceptable for U.S. standards.
    I am glad we finally got his money in the budget. We needed 
to do that.
    Now, can you tell us a little bit more, General? Are we 
making any progress on those problems?
    General Tilelli. Sir, let me address two things. One, I 
think we are making progress in improving the quality of life, 
and that is seen not only as a function of the construction 
dollars that are provided by the Congress, but also what I 
would call the burden-sharing dollars on the Korean projects 
that assist us in upgrading dormitories and barracks.
    The second part of that is we are in a continual upgrade 
program where we are upgrading places where we have some of our 
key systems employed, where primarily soldiers, because that is 
the largest quantity of personnel we have there, and Air Force, 
work. For example, a Patriot facility. We deployed a Patriot 
battalion there several years ago, and we have upgraded the 
facilities so they were in more or less temporary facilities. 
Part of the money we are talking about is going to do to that.
    We applied Apache helicopters, our highest level of 
helicopters to Korea. They have gone into temporary facilities. 
We are trying to upgrade the facilities so they not only have a 
quality of life where their aviators are living, but also have 
good places to maintain the helicopter.
    But we are making progress, and the progress, in my view, 
can be attributed to the great support that the Congress of the 
United States and the American people have given to the U.S. 
forces in Korea. My plea to you is that we continue that.

                   NORTH KOREAN MILITARY CAPABILITIES

    Mr. Dicks. Thank you. One of the things I have been worried 
about, when I was there we met, General Estes and his air 
component commander, and we talked about the potential for the 
North Koreans, if they were to attack us, to use chemical and 
biological weapons against our airfields and, in essence, be 
able to lock out the United States, or anyone, from bringing in 
TACAIR and bringing in airlifts in order to reinforce South 
Korea.
    How big a threat is that? How big a problem is that? Is 
that something you worry about and can we even talk about it at 
this level of classification?
    General Tilelli. Sir, I will talk about it. First, let me 
say that when we think of chemical and biological weapons, I 
think we all lose sleep over thinking about it and talk about 
it a lot. Secondarily, key to our execution of the operation 
plan is the maintenance of the airfields and ports.
    We, along with--remember that we are along USA links, we 
and the ROK are spending a serious amount of time and effort in 
determining: one, how do we keep those places open?
    Secondarily, what is the truth? And I think we have to take 
the concept of reality; what is the true effect of a weapon 
that is not very accurate with chemicals on pieces of those 
ports and airfields?
    Thirdly, and I think most importantly, we are upgrading our 
ability to decontaminate areas and equipment in the next 
several years, one, through the infusion of equipment, and 
secondly, through activation of the chemical battalion in the 
Republic of Korea.
    Mr. Dicks. Are they getting any more accurate with their 
SCUDS? Are there going to be advanced generations of SCUDS or 
Cruise Missiles that will be more accurate and more dangerous?
    General Tielli. Sir, I will answer that I think the 
accuracy of the SCUD is problematic. I think it is an area 
rather than a point weapon system. I think it will continue to 
remain that way.
    The concern, of course is when you volley SCUDS, they cover 
a large area.
    The second area is the Missile Development Program. We are 
concerned about their Missile Development Program. We are also 
concerned about whether or not that Missile Development Program 
will accelerate their capability to send chemical weapons our 
way.
    I will just say finally, as it applies to the use of 
chemical weapons, I would never discount that the North Koreans 
who would attack us would use the systems that they have. 
Consequently, it is one of those things that, as you said, I 
have to be aware; and two, I have to take those measures to 
protect our forces.

                        THEATER MISSILE DEFENSE

    Mr. Dicks. I would assume that Theater Missile Defense, the 
ability of the United States to have a high-quality Theater 
Missile Defense, has to be one of your highest priorities for 
protecting your forces in South Korea.
    General Tielli. That is absolutely correct. Theater Missile 
Defense is my number one priority, and I think it is a function 
of Lower Tier and Upper Tier, multilayer, where you can general 
protect the force. Your will never have a leakproof system, but 
when you have a two-tiered system, you better protect the 
force.
    Therefore, in my integrated priority list that I send to my 
friend Joe Prueher, Theater Missile Defense is one of those 
very high items on my integrated priority list. And, 
secondarily, without getting into force flows, in my force 
flow, the Theater Missile Defense assets are early in the flow.
    Mr. Dicks. Shouldn't they be prepositioned?
    General Tielli. I think with the battalion we have now and 
the batteries that we have now, that, coupled with the flow, I 
think we are all right.
    Mr. Young. Mr. Nethercutt?

                       MORALE AND QUALITY OF LIFE

    Mr. Nethercutt. Thank you, Mr. Chairman, Admiral and 
General, welcome to the Committee. Thank you for your 
testimony.
    General, I just want to follow up on your comment about our 
forces in Korea now. Did I hear you correctly to say that their 
tour is 365 days?
    General Tielli. Sir, let me elaborate on that, if you will.
    I think there are three issues. The preponderance of the 
force is on a one-year tour, a short tour, so that is a 365-day 
tour. Many times when we discuss quality of life and we talk 
about personnel turnover, we put it in the context of how many 
days you are away from your bed.
    In my context, I say the soldiers, sailors, airmen and 
Marines stationed in Korea are away from home for 365 days. 
Therefore, their personnel tempo is very, very high. 
Consequently, it is a short tour, whereby they are gainfully 
employed, focused on the war fight every day.
    Mr. Nethercutt. Is their morale good? Do people not want to 
go there, and if they get there, can they tough it out for the 
year? Is their moral, good, or bad, and do you see improvements 
needed?
    With regard to the housing construction needs we talk 
about, will it improve the moral? What else can we do as a 
Committee? That is a compound question.
    General Tilelli. Sir, it is not. It is an excellent 
question. One, their morale is good; two, they are satisfied 
for their job; three, when you look at these men and women 
while there and then talk to them after they leave, they are 
happy to have been there.
    The real issue is the responsible of leadership to provide 
an adequate quality of life. I feel more bad about it than most 
of the men and women who were serving there, because they do 
endure and they do well.
    So, that is the best answer I can give you.
    Mr. Nethercutt. But we will help, I take it, if we can get 
the better facilities and so on?
    General Tilelli. The thing about these men and women who 
serve there, when they see progress, improvement in their 
quality of life, it is a beacon for them.
    Mr. Nethercutt. They hope.
    General Tilelli. That will help and I think will help 
immensely.

                         MOBILE OFFSHORE BASES

    Mr. Nethercutt. Thank you. Admiral, I have heard some talk 
about the concept of a mobile offshore base, MOB, in terms of 
future planning, in your command area. What do you see as the 
likelihood of that developing over time? Is it a good thing? Is 
it something that is receiving adequate study? What can you 
tell the subcommittee about it?
    Admiral Prueher. The discussion of a mobile offshore base 
is associated with the troop movements in Okinawa, and the 
parlance has changed from a mobile offshore base to a sea-based 
facility, and it is not an MOB, it is an Sea Bound Faction, FBS 
now is under discussion.
    It would be something that would be funded by the Japanese 
to do, and they will not fund a mobile offshore base. And so 
what we are talking about in the formative stages is either 
something that is tethered to the shore or landfill that would 
be another base off of Okinawa. That is under development in 
the Futenima TANDEM Implementation Group. So we will not have a 
mobile offshore base in the theater and we are not seeking one.
    Mr. Nethercutt. Okay. Do you anticipate any costs to 
America in connection with the development or discussion?
    Admiral Prueher. In our arrangements with Japan, the 
planning costs accrue to the United States and the development 
costs and construction costs accrue to Japan. There is 
obviously a little merge in the middle and this group that is 
just forming up now is discussing this. In fact, Mr. Tanaka 
from Japan was just in talking to Dr. Kurt Campbell from OSD 
earlier this week and that is one of the discussion topics.
    Mr. Nethercutt. I understand. Well, thank you very much.
    Thanks, Mr. Chairman.
    Mr. Young. Thank you, Mr. Nethercutt.
    Mr. Cunningham.

                           TRAINING EXERCISES

    Mr. Cunningham. Thank you, Mr. Chairman. I always said why 
let rank lead when ability can do it better, but that is not 
the reason I got to move up here because I sat way down there 
with my colleagues.
    General, George Norwood was a Navy exchange pilot. I 
understand he is still in Korea with the Air Force general, I 
think, down there on the F-16. If you would, tell him hi for 
me. He blew--the very first landing on the carrier he blew both 
tires twice, but he is a good guy and a good friend.
    Second, I know that the political ramifications, when I 
worked for Seventh Fleet staff for Vice Admiral Brown, the CTS 
77, we were conducting a TEAM SPIRIT exercise and we used a 
combination of Reserves for support. I know politics has played 
in that. About 80 percent of my time was spent in country, even 
though I worked ULCHI FOCUS LENS and TANGENT FLASH and Yama 
Sakura and the other exercises. But we are still doing TEAM 
SPIRIT?
    And I know the problems of getting the bottoms there from 
the amphibs in those exercises. Using the Reserves was very, 
very important. And when you are looking at the threat, I can't 
think of a better place for Theater High Altitude Air Defense, 
THAAD, and upper tier than both Korea and Taiwan because of the 
restriction of our troops. And I am glad to see both of you 
support that. But are we still working TEAM SPIRIT?
    General Tilello. Sir, TEAM SPIRIT has been canceled for the 
last several years. However, I will say this, without going 
into a large amount of detail, that many of the training 
objectives and many of the forces that have been associated 
with TEAM SPIRIT have been applied to the three major exercises 
that we do year in and year out, and that is ULCHI Focus Lens 
which you mentioned, which is a very large exercise, our FOAL 
EAGLE exercise, which took many of the elements of TEAM SPIRIT 
to include deployment of forces; and thirdly, the Reception and 
Staging Onward Movement and Integration of Forces, which is 
also a deployment exercise. So the training objectives 
associated with TEAM SPIRIT are being accomplished, in my 
belief, to the level of training that I need.
    As you know, and you so adequately put it, as we think 
about the war fight on the peninsula, I am absolutely lashed, 
if you will, to the power projection strategy and the flow of 
forces, Navy, Marine and Army forces, and Air Force as we look 
at the culmination of flight.
    So all of those objectives are exercised in the three major 
exercises I have.
    Mr. Cunningham. Would you want to reestablish TEAM SPIRIT? 
Would that be a better way of response?
    General Tilelli. At this point, very candidly, I do not see 
the necessity at this point to reestablish TEAM SPIRIT in 
fiscal year 1997. But let me say, along with that, is I make an 
annual assessment, based on a multitude of variables and 
determine as to whether or not we should conduct a TEAM SPIRIT 
exercise or not. So I need that option. I want that option left 
open, where I can make an assessment based on those variables I 
see on the peninsula and external to the peninsula to say we 
need a TEAM SPIRIT this year.

                  RESERVIST CONTRIBUTION TO EXERCISES

    Mr. Cunningham. Joe?
    Admiral Prueher. I take a little bit of the Reserve part of 
that. The Reserves continue to be extremely active in the--from 
all the Services and especially--well, not especially, but 
equally in the Navy with the Seventh Fleet. In fact, that has 
been copied in the Sixth Fleet because it was such a good idea, 
and the exercise going on right now, the augmentation with 
Reserves to those staffs is immense and extremely productive 
and it is ingrained in what we do.
    Mr. Cunningham. Well, I would agree, because I know the 
importance, even when the fleet was there, of the deconfliction 
with ROK-AF, Republic of Korea Air Force the real world threat, 
plus the exercise threat that they went through. As on aside, 
my father-in-law was supply corps officer in Korea and he 
almost froze to death, General, and we spent a lot of time 
there.
    I empathize with the troops and I think the living 
conditions which your enlisted troops must endure are the 
worst. I mean, they live and work in little boxes--if members 
haven't been there, I recommend you go. These troops are in a 
cubicle sometimes no bigger than from here to there, to that 
wall. I mean, it is pretty remote living, and I would support 
that.
    General Tilelli. If I can make one comment on the Reserves?
    Mr. Cunningham. Sure.
    General Tilelli. I want to echo what Admiral Prueher said. 
When I think about the war fighting, I don't think about it 
from Active over Reserve because to me it is an integrated 
process. As I look at the flow of forces, I am looking at the 
flow of forces and not looking at the context of whether or not 
they are Active or Reserve, and they all are key critical. As 
we think about this power projection strategy of ours, they are 
key critical in the progression session of our operations plan.

                       INTELLIGENCE REQUIREMENTS

    Mr. Cunningham. Last question. Are you getting enough 
intelligence? I know with the SR-71 gone and the ------, are 
you using Predator or any other supplement or mostly just 
satellite reconnaissance?
    General Tilelli. Sir, and I will ask Admiral Prueher to 
help me on this, in a real sense, though, we do not have any 
Unmanned Aerial Vehicles, UAVs, on the peninsula. However, as 
we look at the requirement for UAVs to the war fight, they are 
a requirement.
    I am getting the intelligence indicators and warning and 
day-to-day intelligence I need from a combination of systems. 
Some are national and some are local. The U-2 is on the 
peninsula. I have got the Airborne Reconnaissance Vehicle low. 
I have Signals Intelligence, SIGINT, and imagery capability, 
both local and national. Plus at a time of crisis or potential 
crisis, Admiral Prueher and the Chairman and Joint Chiefs of 
Staff focus other Intel means to help me in establishing the 
requirements of our mission.
    Admiral Prueher. For theater Intel, our most recent real-
time need is General Tilelli's and most of our assets that are 
focused there are on a time-sharing basis.
    You have had--you have talked to General Joulwan about 
Bosnia, I believe, and right now we have a lot of our Nation's 
Intel treasure focused there. And so as a result of it being 
there, it is not somewhere else. And so there are--we don't 
have UAVs in theater right now. UAVs are high on our Integrated 
Priority List for the theater and there are many places, Korea 
among them--probably foremost among them, to support General 
Tilelli--but there are many places where that would be a good 
augmentation to our overhead capability.
    Mr. Cunningham. Thank you, Mr. Chairman.
    Mr. Young. Mr. Hefner.

                         MILITARY CONSTRUCTION

    Mr. Hefner. Thank you, Mr. Chairman. I will be very brief. 
I served as Chairman of the MILCON Subcommittee for several 
years and I don't remember if it was 1995, Gary Luck, who was a 
very good friend, served at Fort Bragg, and he had an immediate 
need. He said we have got to have $40 million. That was shortly 
after he took command. Of course, we were afraid not to give it 
to Gary, as you know. But I am glad to see that we are making 
some strides as far as the quality of life in Korea.
    There is no way we are doing enough on quality of life, we 
know that, but do you feel like we are maybe doing better in 
Korea than we have been in the past year?
    General Tilelli. Sir, I will say, the answer is, yes. We 
have been, since 1995, receiving $30 million in military 
construction so that is having an improved--that is having a 
beneficial effect on the quality of life in Korea.
    At the same time, because of the hiatus that Gary talked to 
you about, and he was my boss in Desert Storm, the hiatus that 
Gary talked about on military construction we are also in a 
catch-up mode. So I keep the pressure going on trying to force 
not only the MILCON dollars, but the RPMA dollars and the 
infrastructure dollars that will allow me to tie this quilt 
together and improve the overall quality of life for our men 
and women who serve there.

                  CHINESE FORCE PROJECTION CAPABILITY

     Mr. Hefner. Someone mentioned earlier about the Chinese 
capability to support an invasion of the force. Do you see in 
your intelligence that they are--we talk about planes, but 
being able to move--are they building in that direction of 
having an invasion force or occupational force? Does that show 
any focus toward that?
    Admiral Prueher. I think it is currently in their mind's 
eye. They have not procured yet. They have expressed at lot of 
interest in landing craft. Right now, the capability that we 
assess that China has is the ability to move one division, 
which would not be an adequate invasion force. They want to do 
it.
    Amphibious operations of that nature are certainly among 
the most complex operations that anyone could do. They are a 
long way from it. I think they aspire to have some sort of 
amphibious invasion force, but they don't have it and they are 
not very close to it right now, sir.
    Mr. Hefner. We can kind of relate to that because we have 
had a shortfall on amphibious and I know we were criticized 
very soundly a few years ago when we bought some capability for 
RO-Ros that we were buying that--the early eighties, I guess it 
was.
    I just have one other question. We understand that U.S. 
forces has an urgent requirement for 62 SEP units and we 
appropriated $5 million in 1997 to initiate the production of 
this. What is the Army's progress? Could you just give me, what 
are we doing and when are we going to do it?
    General Tilelli. Sir, I cannot give you a progress 
statement on that, but I will provide it for the record. I am 
not familiar with where we are as an Army on the SEP program.
    Mr. Hefner. Okay.
    Admiral Prueher. I can't help with that either, sir.
    [Clerk's note.--Classified insert was removed.]
    Mr. Hefner. I have no further questions, and if you happen 
to see General Luck, he is one of my favorite people, give him 
my best.
    General Tilelli. I will do that, sir. Thank you.
    Mr. Hefner. Thank you, Mr. Chairman.
    Mr. Young. Mr. Skeen.

                     FOOD SHORTAGES IN NORTH KOREA

    Mr. Skeen. Thank you, Mr. Chairman. Admiral and General, I 
apologize for not being here earlier, but we have got all of 
these Appropriations Committees going at one time. We are 
trying to seal the vault.
    I was privileged to have a tour in Korea some years ago 
with some other Members under Chairman Murtha, and I was struck 
by the fact that one of the primary considerations about the 
tenacity of North Korea is their lack of food supply. Has that 
changed dramatically here in the last couple of years or is it 
still about the same or is it still a factor? How does it play 
also with their cooperation with--their cooperation and help 
out of China?
    I know that is a strange--it is nonmilitary, but it has a 
direct bearing.
    General Tilelli. Let me answer the first part of the 
question and defer the second part to Admiral Prueher.
    First, the North Korean armed forces are given higher 
priority than the rest of the population. That applies to food 
and other training resources.
    Secondarily, and I always caution myself when I think about 
the effects of malnutrition on--even an American soldier and 
try to correlate that to the pugnacity, as you put it, and the 
will of the North Korean soldier as was displayed during the 
Korean War.
    So I think to put that in context, I would say that the 
lack of food resources and the lack of resources in general has 
had a denigrating effect on their capability. But I would still 
say that it is onerous and capable of vast destruction if given 
the order.
    Mr. Skeen. That is the point, the threat level stays at a 
relatively high level because of one of the things is the lack 
of food in the nation in its entirety.
    Admiral.
    Admiral Prueher. On the tie with China, I think China is 
interested in not having North Korea fail, and accordingly, 
they are also willing and have provided some foodstuffs. So the 
Chinese are in the--in that equation, as well, with respect to 
food. I don't think--General Tilelli can perhaps address this 
more. We know of no plans that China has to militarily support 
North Korea.
    Mr. Skeen. Well, that was a very interesting part of it. Of 
course, I am involved in agriculture and chair that 
subcommittee on the appropriations panel and we are seeing more 
corn going through the Panama Canal in American bottoms going 
to China than at any time in our history and I just wondered if 
through a round about way if we weren't supplying some of the 
foodstuffs for the North Koreans.
    Admiral Prueher. Well you know----
    Mr. Skeen. Without benefit of a pact or something.
    Admiral Prueher. I think just from our research of the 
grain embargo a few years ago, things went in circuitous paths. 
So I could not say that we are not. But China's three main 
issues that they are trying to face is jobs for 1.25 billion 
people; food and rising expectations for them. So I expect it 
is actually going to China because they do not have the food 
production capability alone now to provide for China; and the 
other issue is their energy demands, which are rising 
exponentially.
    General Tilelli. Also, I believe we also have seen in a 
humanitarian way, rather than in a military-to-military way, 
foodstuffs being provided from China to the North Koreans.
    Mr. Skeen. Thank you. I appreciate that response. Thank 
you, Mr. Chairman.

             INTERNATIONAL MILITARY EDUCATION AND TRAINING

    Mr. Young. Thank you, Mr. Skeen.
    Admiral, you and I talked about International Military 
Education and Training, IMET, several times before, and IMET 
tends to get a little controversial on occasion, not in this 
Committee, but in the Congress.
    General Tilelli. Yes, sir.
    Mr. Young. Could you provide us for the record maybe 8 or 
10 or a dozen good examples of foreign military officers who 
have been through the IMET Program, positions that they might 
hold today and how that benefits the United States and benefits 
you in performing your duties?
    Admiral Prueher. Yes, sir, I will be glad to provide that 
for the record. I can also give you--I could provide a little 
bit of it now, if you would like.
    Mr. Young. Yes, surely.
    Admiral Prueher. Well, the IMET Program, we talked before 
in my oral statement stands for International Military 
Education and Training. It is a highly leveraged amount of 
money. Our total U.S. program worldwide is about $43 million, 
and the Pacific portion of that is about $6.8 million, about 16 
percent.
    We have examples. The Minister of Defense in Korea went 
through IMET in 1973. Arturo Enrile, the recent head of the 
Philippine defense forces, went through in 1965. General Bey, 
who is the head of the Singapore defense forces, went through, 
in 1982. And Feisal Tanjung, who, as I mentioned is the head of 
the Indonesian defense forces, went through in 1981. These are 
long-term investments, small dollars which have a big payoff 
for us.
    What it does is give the opportunity to educate foreign 
military people, not only in the U.S. military, but in the U.S. 
way of thinking about things, and IMET students have taken 
these ideas and influenced their armed forces, so it is a good 
deal for us. And when we restrict those funds for whatever 
reason, it works to our disadvantage, not necessarily that of 
the other nation.
    Mr. Young. Thanks very much. If you want to expand on that 
for the record, please feel free to do so because it would help 
us in our preparation.
    Mr. Visclosky.

                  MILITARY CONSTRUCTION APPROPRIATIONS

    Mr. Visclosky. Thank you, Mr. Chairman.
    General, last year the Committee provided an additional 
$600 million to help improve conditions in various related 
facilities. Do you know if any of those monies that were added 
on by the Committee are currently being used in Korea?
    General Tilelli. Yes, sir. We were given dollars for 
barracks and dormitory construction and upgrades. I will 
provide for the record the exact amount.
    Mr. Visclosky. If you could. For the record, also, on your 
budget request for fiscal year 1998, was there an increase in 
the dollar amount in your budget for barracks and related 
facilities for Korea?
    General Tilelli. I will provide that for the record.
    Mr. Visclosky. If you could. And when you do that for the 
record, if it could be in relationship to your business line 
from fiscal year 1997 and relative to what the Committee added 
on.
    [The information follows:]

    United States Forces Korea Fiscal Year 97 Military 
Construction had not been increased from initial requests of 
$30 million for the Army and $9.8 million for the Air Force.
    Eighth United States Army did benefit from increases in the 
Fiscal Year 98 Military Construction Authority program. These 
totaled $46.1 million above the initial request of $30 million. 
The Air Force Program remained at the original $22.34 million 
request.
    It is clear that Congressionally added projects for United 
States Forces Korea in fiscal year 1995 and Fiscal Year 1996 
restored United States Military Construction support for Korea. 
The Fiscal Years 1995-98 Military Construction projects will 
have a significant positive impact on the quality of life for 
soldiers and airmen in Korea.

                      QUALITY OF LIFE OF PERSONNEL

    Mr. Visclosky. My concern, and a number of our colleagues 
have mentioned this, is about the quality of life for our 
troops. My experience here on the Committee is every year 
without fail, we add on $600 million for 1997, we added on $700 
million for various related facilities in 1996. I tried to get 
on this Committee for 7 years because we could pass all the 
policy in the world, but unless we spend the money or ask for 
the money, nothing is going to change as far as the quality of 
life for our troops.
    My concern is that the Department comes up to the Hill 
every year and expects us to do the lifting as far as real 
property maintenance and housing and that somehow we will come 
up with the dollars. I think the real commitment, as far as 
that quality of life, should be in the Department's budget.
    So if you could, for the record, I would appreciate seeing 
those figures.
    [The information follows:]

    The only fiscal years 1996 and 1997 Army Family Housing or 
Real Property Maintenance plus-ups that I can determine are:
    Fiscal year 1996 Real Property Maintenance: $19.7 million 
for Bridging the Gap reflected in the funding memorandum, 
however, there were corresponding real Property Maintenance 
decreases.
    Fiscal year 1996 family Housing: $8.5 million from Office 
of the Secretary of Defense Quality of Life plus-up.
    Fiscal year 1997 Real Property Maintenance: $10 million in 
Quality of Life Environment, Defense ($8 million for Army and 
$2 million for Air Force).

    General Tilelli. I will do that.

                         STATUS OF RUSSIAN NAVY

    Mr. Visclosky. That would be great.
    Admiral, could you talk for a minute or two about the state 
of the Russian navy in the Pacific and their activities?
    Admiral Prueher. Yes, I can. The Russian navy in the 
Pacific is not robust, but it is small and of good quality. 
They are led by their Pacific fleet commander, who is Admiral 
Kurogedov who is very aggressive and good, and interestingly, 
the Russian navy in the Pacific, as of about a month and a half 
ago, was fully paid in contrast to some other units around, so 
that that is not a homogeneous pay problem. But the Russian 
navy pays selectively to the units. ------. The surface navy is 
less well-maintained that the submarines, both their ballistic 
missile submarines and their attack boats. ------. Their 
surface ships have a few show ships that get underway; but the 
conditions are bad. They are sailing more and more.

                         VIETNAM/CAMBODIA/LAOS

    Mr. Visclosky. In the time remaining, could you comment on 
the situation in Vietnam, Cambodia and Laos?
    Admiral Prueher. Yes. The--in fact, I am going to make a 
trip to Vietnam later on this month, and our work with Vietnam 
is progressing at the proper rate. It is slow, but it is moving 
about as fast as we can--as we need to or they are able to 
work. And the economic piece of Vietnam is--there is alot of 
potential, but nothing much has come to fruition yet. And 
militarily, we do not have any planned exercises with Vietnam. 
They are not too eager to have a lot of our uniformed troops on 
the ground there just yet.
    Mr. Visclosky. Are they active in Cambodia at all or in 
Laos?
    Admiral Prueher. Are they active in Cambodia?
    Mr. Visclosky. Yes, the Vietnamese?
    Admiral Prueher. I am sure around the borders they are but 
a ------.
    Our big efforts there are toward some form of stability. 
The Khmer Rouge seem to be on the wane in Cambodia. ------. 
That is one of our major activities.
    Mr. Visclosky. Thank you very much.
    Thank you. Thank you, Mr. Chairman.
    Mr. Young. Admiral, you mentioned earlier China, Korea, 
Russia, and India. Give us a chart for the record or a graph of 
some kind that shows the relative size of their various 
military services ranking in the order of their size and then 
compare it to the U.S. forces.
    Admiral Prueher. All right, sir. We have that and we will 
provide that for the record.
    [Clerk's note.--The classified insert was removed.]

                EQUIPMENT PREPOSITIONING IN THE PACIFIC

    Mr. Young. Thank you very much, sir. I would like to go to 
a budget-related issue, that deals with the question of 
prepositioning in the Pacific theater. I am wondering if the 
current levels of prepositioned equipment are adequate?
    Admiral Prueher. Do you want to take the Army War Reserve, 
AWR-4 issue?
    General Tilelli. Let me, Mr. Chairman, address the 
prepositioning of the equipment in Korea. ------. At the same 
time, I am convinced that as we think about power projection 
and the movement of the forces from Fort Lewis, Washington, 
which is the 3rd brigade of the 2nd Infantry Division, that 
this set is critical and I place a lot of importance on meeting 
our requirements with that set.
    Mr. Young. What about prepositional ships?
    Admiral Prueher. The pre-po ships, overall, with the 
exception of what John just talked about, the shore-based, our 
AWR supplies are adequate. The pre-po ships are adequate for 
what we need. ------.
    And even without the MRC requirements, which are quite 
well-honed, in our theater, because of the time and the 
distance, having the number of assets as well as the 
distribution, which these ships enable, will be a big help to 
us and the LMSRs are vital for that reason, sir.
    Mr. Young. They are not in the budget, though, are they? 
They are not in the 1998 budget request?
    Admiral Prueher. I had thought they were, but let me check, 
sir, and I will get back to you.
    [The information follows:]

    The fiscal year 1998 budget request includes $812.9 million 
requested for Large Medium Speed Roll-on/Roll-off (LMSR) 
acquisition. This dollar figure was allocated for the purchase 
of three new acquisition LMSR's at an estimated cost of $200 
million per ship and to cover pre-acquisition costs associated 
with follow-on ships. Four new acquisition LMSR's are scheduled 
for acquisition in fiscal year 1999, with subsequent yearly 
acquisitions eventually leading to a total of 19 LMSR's by 
fiscal year 2001.

    General Tilelli. Certainly, sir, I would again agree with 
Admiral Prueher as we think about sea and airlift in our power 
projection strategy, the continued procurement of the C-17 
aircraft and the large medium speed roll off-roll on ship are 
critical. I would agree with the admiral on that.
    Mr. Dicks. The prepositioned ships, are they in Guam? Is 
that just the Marine Corps?
    Admiral Prueher. There is some--Army War Reserve, AWR-3 is 
in Guam, that set. There are some in Guam and there is some in 
Diego Garcia and then some stay in air and transit, but they 
are based in Guam, that one group.
    General Tilelli. I think what you are thinking about, Mr. 
Dicks, is the Marine Maritime Prepositioned Ships, MPS ships.
    Mr. Dicks. Right.
    General Tilelli. They are partially in Guam and partially 
in Diego Garcia.
    Mr. Dicks. Well, the Army now has some ships in Diego 
Garcia of its own.
    General Tilelli. That is the AWR-3.
    Mr. Dicks. We don't have any Army prepositioned ships in 
Guam?
    Admiral Prueher. There are both U.S. Marine Corps Maritime 
Pre-position Ship Squadrons and Army AWR-3 Ships stationed at 
Guam and Diego Garcia.
    General Tilelli. That is correct.
    Mr. Dicks. Should we?
    Admiral Prueher. Because of berth and anchorage limitations 
we must station these vessels in Guam and Diego Garcia. Both 
locations give us the ability to quickly respond to our needs 
in Korea as well as Southwest Asia.
    Mr. Dicks. Okay.
    General Tilelli. As I look at the flow for Korea, the MPS 
ships are located in the right place. They are the first ones 
that come in and are timed exactly right with the Marines that 
come with them. And secondarily, the AWR-3, if it does come to 
me, I think it comes in a timely way so I am not as concerned 
at this moment about moving the pre-po from where it is.
    Mr. Young. The Committee provided funding in the fiscal 
year 1997 budget for two additional MPF ships for the Marine 
Corps. Where will they be prepositioned?
    Admiral Prueher. Sir, I will have to provide that for the 
record in the worldwide flow.
    [The information follows:]

    Of the two additional Maritime Preposition Ships funded in 
Fiscal Year 1997 budget for the Marine Corps, one will be 
positioned with Maritime Preposition Squadron Two in Diego 
Garcia and one will be positioned with Maritime Preposition 
Squadron Three in Guam.

    Mr. Young. Are you considering other anchorages than the 
ones you are presently using for pre-po ships?
    Admiral Prueher. Yes, we are. ------. We are looking and 
have had a program ongoing to look at the other anchorages.
    Mr. Young. What about cargo handling in the various ports 
for our equipment? Do we have adequate equipment to handle the 
cargo? What is that called, lighterage? Is that what that is?
    Admiral Prueher. I don't know who coined the phrase 
``lighterage.'' Last year, we had quite a discussion about a 
lack of lighterage.
    I have--I had not gotten any comments--except pertaining to 
Korea, which is a real contingency. We haven't had a awful lot 
of problem off-loading. I will provide that for the record on 
the quantity of lighterage.
    [The information follows:]

    Lighterage assigned to each Maritime Prepositioning ships (MPS) 
squadron meets the notional equipment load as required by Department of 
the Navy and U.S. Marine Corps publication NWP 22-10/FMFM 1-5. The off 
loading of required prepositioned equipment into a seaport of 
debarkation to support Pacific Command operation plans has been 
successfully demonstrated during exercises.
    Currently, the lighterage inventory in each Pacific Command MPS 
squadron is:
          (1) Maritime Preposition Squadron Two based in Diego Garcia: 
        five side-loadable warping tugs (SLWT), 15 causeway sections--
        powered (CSP), 25 causeway sections--non-powered (CSNP), ten 
        landing craft mechanized (LCM-8);
          (2) Maritime Preposition Squadron Three based in Guam: four 
        SLWT's, 16 CSP's, 30 CSNP's, eight LCM-8's.
    There are shortages in Army lighterage requirements. The Army 
requires seven Roll-On/Roll-Off (RO/RO) Discharge Facility (RRDF) 
systems to offload strategic sealift ships anchored at sea during 
logistics-over-the-shore operations. The RRDF provides the essential 
interface between Army lighterage and RO/RO ships. Tracked and wheeled 
vehicles are driven across the RRDF from the RO/RO ships onto an Army 
lighterage moored alongside. The Army program corrects the shortage 
with the purchase of three RRDFs in Fiscal Year 1999, three in Fiscal 
Year 2001 and one in the outyears for the Reserve Component.
    The Army and Navy are undergoing a joint research and development 
(R&D) effort to acquire a Sea State Three capable lighter, designated 
the Joint Modular Lighterage System. This would enable logistics-over-
the-shore operations in sea states greater than current Sea State Two 
or below systems. Continued Congressional support is required to 
sustain this important R&D effort.
    Materiel Handling Equipment (MHE) is required to transfer cargo to/
from all modes of transportation: air, sea, and land. The types of MHE 
vary by type of cargo and mode of transport. We do not have enough MHE 
at our airbases for throughput. The availability of wide-body loaders 
(WBL) at our ports of debarkation remains one of our logistical 
concerns. We require 30 WBLs in our theater and have only 21. New 
60,000 pound aircraft loaders are in the budget but are several years 
away from worldwide distribution. A modification of some 25,000 pound 
loaders is in progress, but is a temporary solution.

    Mr. Young. Thank you very much. Mr. Murtha.

                             BOSNIA FUNDING

    Mr. Murtha. Just a couple of things. Are you being 
penalized at all because of the money we are spending in 
Bosina? Are you lacking funds right now? Have they said to you, 
anybody up there said to you, okay, you are going to have to 
slow down because we need the money for Bosnia?
    General Tilelli. Sir, let me speak from my perspective, 
they have not told us to slow down. However, there is always 
the--and I will use the term ``possibility'' out there, that if 
the supplemental appropriation is not approved for Bosnia, the 
pot of money is only one pot of money and it is going to have 
to come from somewhere, so there is a possibility that we may 
be required to contribute, which will cause a necessary slow 
down to pay for that contingency.
    Mr. Murtha. But at this point you haven't lost any money--
you have been able to spend your allowance. You haven't lost 
any money. Either of you lost any money?
    General Tilelli. I have not, sir.
    Admiral Prueher. No, sir, we haven't lost any money yet to 
Bosnia. We quarrel over distribution of--not quarrel.
    Mr. Murtha. True.
    Admiral Prueher. Well, distribution of assets.

                             OKINAWA, JAPAN

    Mr. Murtha. Let's go back to Okinawa. Let's say we are 
forced--I am sure you are looking at contingencies if we get 
forced out of there. Where would we go? I mean, we are talking 
about a pretty good distance if we lose that access, aren't we?
    Admiral Prueher. Yes, sir. We are always looking at the 
efficiencies and effectiveness and looking at contingencies. My 
opinion is, the way things are in the world right now, it is 
not wise of us to discuss those too much at this time.
    Mr. Murtha. All right.
    Admiral Prueher. But your point is correct. The number of 
choices of places to go are not--there are not a lot of them.
    Mr. Murtha. From a strategic standpoint we would be much 
worse off if we lose access?
    Admiral Prueher. Yes, sir, we would. Yes, sir.

                         WATER QUALITY IN KOREA

    Mr. Murtha. I heard that we don't even have good water in 
some of our bases. We are talking about giving the North 
Koreans money, yet at some of our bases there is not good water 
there for the 2nd Division. Is that accurate? I mean, the water 
is not--they can't drink it. Is that right?
    General Tilelli. That is correct. There are eight bases 
primarily that we have had some water monitoring issues with 
and when we see that it is beyond a certain tolerance level, we 
go to bottled water. Namely, Kunsan, Chong Ju, Kimhae, Kwang Ju 
and Taegu, Rokaos, Niolo Barracks and Camps Gray and Kim, where 
the quality of water is not what we want. We are in a 
monitoring and repair and replace process right now.
    Mr. Murtha. Is it cheaper to go to bottled water than it is 
to fix the situation?
    General Tilelli. For the long-term, it is cheaper.
    Mr. Murtha. What kind of dollars are you talking about to 
fix those eight places?
    General Tilelli. I can't give you that off the top of my 
head. I will provide that for the record, Mr. Murtha.
    [The information follows:]

    We would have an approximate initial investment of over $4 
million with recurring costs of over $400,000 per year.

    Mr. Dicks. Should we fix it?
    General Tilelli. I believe we should fix it. Our service 
members deserve it.
    Mr. Murtha. Thank you, Mr. Chairman.
    Mr. Dicks. Would you yield on that?
    Mr. Murtha. Yes.
    Mr. Dicks. Is there a problem with the South Korean 
Government?
    General Tilelli. There is not a problem with the South 
Korean Government. It is a problem--the water quality problem 
is one that has arisen after funds were programmed and we are 
working with them and also with our own dollars to attempt to 
fix that infrastructure issue.
    Mr. Murtha. Are you saying that is irresponsibility, the 
water?
    General Tilelli. No, it is not irresponsibility. It is an 
issue that just perked up through our monitoring process and we 
monitor all of the water standards throughout the peninsula 
because of different requirements and U.S. standards are 
somewhat higher. So consequently, this was picked up.
    Mr. Murtha. Is it going to be fixed in the next 6 months?
    General Tilelli. I can't say it will be fixed in the next 6 
months. We will certainly----
    Mr. Murtha. Is it lack of money?
    General Tilelli. At this point, we are trying to get an 
assessment of the costs and then apply the correct resources. 
We will not have--we will not have our service members drinking 
bad water.
    Mr. Murtha. Okay.
    Mr. Dicks. Are we using bottled water?
    General Tilelli. We are using bottled water for drinking 
water at this point.
    Mr. Young. Mr. Skeen.
    Mr. Skeen. I have no questions.
    Mr. Young. Mr. Dicks.

                 HUMANITARIAN ASSISTANCE TO NORTH KOREA

    Mr. Dicks. I am sorry I missed part of your presentation. I 
know this question was asked, but I want to ask it again 
because I want to hear your answer.
    As I understand it, the U.N. World Food Program, we are 
providing a total of $41.6 million in humanitarian assistance 
to help with the food shortage in North Korea. How do you feel 
about that? I mean, do you think that is the right thing to do?
    General Tilelli. Sir, I cannot address the amount of 
dollars that we are providing. However, it is my view that the 
contributions by many nations in the region contribute to the 
stability in the North. So I think it is appropriate that for 
humanitarian purposes, we provide food aid. As a matter of 
fact, the Republic of Korea, Japan and other countries are also 
providing food aid through humanitarian means for the North 
Koreans.
    Mr. Dicks. So you see it as a stabilizing event?
    Genneral Tilelli. I see it as stabilizing.
    Mr. Dicks. Anything we can do to prevent them from 
imploding or whatever?
    General Tilelli. I see it as truly a stabilizing event.

                      NORTH KOREAN NUCLEAR PROGRAM

    Mr. Dicks. Okay. How would you rate the nuclear program? We 
have had this long complicated arrangement with them to try to 
get them not to develop nuclear weapons and weapon-grade 
plutonium, for example. How is this program going?
    General Tilelli. The nuclear Agreed Framework is proceeding 
very well. The canning of the rods is ongoing and the latest I 
heard we were about 60 percent complete in canning. The piece 
of the nuclear Agreed Framework that didn't work exactly as 
everyone through it might work was an acceleration in the 
dialogue between the North and the South. I think in the 
prevention of a continuation of the nuclear program the North 
and in moving towards a light water reactor, I think that that 
program, from my view, is on track and I would ask Admiral 
Prueher if he would like to comment on that.
    Admiral Prueher. The KEDO agreement for the light water 
reactor is proceeding slowly. One thing, I support very much 
what General Tilelli said about the food to North Korea. I 
think trying to not make them feel so cornered that they have 
to lash out is important, and also maybe they will have a 
little less distance to recover at some point then they 
otherwise would.
    The nations in Southeast Asia and in Asia in general are 
all--not all, but many of them--are participating in the agreed 
framework to help support the funding for the light water 
reactor. And so it is a coalescing effect. North Korea is a 
festering spot, right in the middle of other people who are 
prospering. And what we need to do is get them to open up so 
that they can join the rest of the world.

                       POLICY TOWARDS NORTH KOREA

    Mr. Dicks. Do you think we need, as a nation, to be doing 
more? Should the United States be providing more leadership in 
terms of trying to bring help and assistance to the North 
Koreans to try to diffuse this situation? I mean, basically I 
think our efforts have been pretty meager up to this point.
    Admiral Prueher. I will offer my opinion and then defer to 
General Tilelli. It is very important for us to stay in concert 
with the Republic of Korea.
    Mr. Dicks. Not to get divided?
    Admiral Prueher. That is right. So I think that affects our 
pace, but I think it is important that we stay together, and 
that is almost more important than a rapid pace and so I think 
that affects what is going on.
    Mr. Dicks. Well, how does South Korea feel about this? Are 
they in favor of trying to engage the North Koreans on--besides 
on the nuclear program, but in the food program and trying to 
help, do they concur with this strategy?
    Admiral Prueher. I think they would not say they would want 
to go slowly, but they are--there are various factions. Some 
are more eager than others to move with it. So it is an issue.
    Mr. Dicks. How about the government, the current 
government?
    Admiral Prueher. They talk about--really I am getting into 
John's lane, but Kim Young-Sam, the government talks about 
North Korea largely as a threat, I think.
    General Tilelli. Let me address the three issues you 
raised, Mr. Dicks. One, should we be doing more on the 
humanitarian side? I think the program is about right, first of 
all.
    Secondly, I would say that I think Admiral Prueher's 
comment is very important in that one of the North Korean 
strategies is to drive a wedge between the United States and 
the South and we can't let that happen.
    Thirdly, in my view, and this is my personal opinion, when 
we think about North Korea and we think about providing them 
many things, there ought to be a quid in action.
    Mr. Dicks. In terms of diffusing?
    General Tilelli. In terms of diffusing the tensions. So 
consequently, I have not seen that--the quid. The first, and I 
think it is somewhat unprecedented, if you will, is the fact 
that they are attending the joint briefings today as we sit 
here. So this may be--the joint briefings in New York. This may 
be the first opening, and I think it is one that we must 
leverage for the future.
    The second part of your question applies to the South. I 
think that the Republic of Korea would certainly like increased 
dialogue with the North, to ease tensions and move forward. 
However, in a real sense, the North Koreans have been unwilling 
to do that and have been unwilling to open the door at all to 
the South and are more willing to do bilateral discussions with 
the United States.
    Mr. Dicks. All right. So I guess there might be an 
opportunity here to, as you suggest, to maybe tie future 
assistance to their diffusing the military situation of being 
right there on the border, et cetera, try to negotiate 
something with them?
    General Tilelli. I think the opportunity is the joint 
briefing and then a follow on four party talks. In my view, 
that is the opportunity that is laid before us right now, and I 
think the outcome of today's briefing will tell us more as to 
whether or not they are going to be amenable to any of that.
    Mr. Dicks. My time is up. But one thing I would say, too, 
is we ought to follow whether this assistance gets to the 
people or does it get to the military, too? That seems to me to 
be an important thing.
    General Tilelli. The other thing, and I would be remiss if 
I didn't say it, and that is while all this discussion is going 
on, I, as the commander over there, can't lose sight and focus, 
and that is deterrence and preparedness, and I can tell you 
that that is continuing to be my focus until something else 
occurs.

                 WATER QUALITY FOR U.S. FORCES IN KOREA

    Mr. Dicks. Thank you.
    Mr. Young. As we talk about helping the North Koreans with 
their food problems and things of that nature, we hear stories 
that some of your forces don't even have potable water. More 
specifically, the 2nd Division, the Kunsan Airfield. Are those 
stories true? Do we have a problem with adequate safe water 
there?
    General Tilelli. Mr. Chairman, these are eight places that 
this year we have found that the content of the water does not 
meet U.S. standards. So we have those eight places, Kunsan, 
Chong Ju, Kimhae, Kwang Ju, and Taegu, Niblo Barracks and Camps 
Gray and Kim, bases that we are working on diligently to fix 
the problem. And, secondarily, until we can fix the problem, 
through either an upgrade in the infrastructure or a filtration 
system, we are providing the soldiers and airmen who live on 
those places potable bottled water.
    Mr. Young. Okay.
    Mr. Murtha. How many people are there? How many people are 
at those eight bases?
    General Tilelli. I will have to give you the exact number 
for the record.
    [The information follows:]

    It is not a substantial number of the force--far less than one 
percent. Out of a total of 67,200 military and civilian employees on 
United States Forces Korea installations, less than 50 people live on 
Chang Ju and Kwang Ju Air Bases (two of the six installations with non-
potable water systems). We purchase bottled water for these Soldiers, 
Sailors, Airmen, Marines and 400 non-residential employees who work at 
all six locations. We continue to provide potable tap water at the 
remaining United States Forces Korea installations, where 99 percent of 
our people work and live.

    Mr. Murtha. Is it a substantial number of the force?
    General Tilelli. It is not a substantial number of the 
force. It is a small portion, very small. I will provide the 
number, the exact number for the record.
    Mr. Young. We provided all the forces in Desert Storm with 
bottled water, so I assume that is something that can be done 
without too much trouble.
    General Tilelli. Mr. Chairman, that is done--it is not much 
trouble to do it, although I find that it is not the preferred 
way for our people to live.
    Admiral Prueher. For just a bit of perspective, I will 
state that in most of our AOR, the State Department and some 
30,000 other DoD people that are not directly under our 
command, mostly drink bottled water every day, wherever they 
live. Most of the cities they live in don't have it, either.

                         NORTH KOREAN DEFECTORS

    Mr. Young. Admiral, in a previous visit I asked about the 
North Korean defector who was presently in the embassy in 
Beijing. Tell us anything that you can tell us this morning 
about whether he will be released and allowed to go to South 
Korea or just what the status is.
    Admiral Prueher. The latest update I had was yesterday 
afternoon, after we talked, and maybe General Tilelli has more, 
but that the Chinese had talked to him and that it looked like 
he would be released, which is essentially what we said 
yesterday, but the timing was something that was uncertain. 
Maybe General Tilelli has more later information.
    General Tilelli. Well, Mr. Chairman, that is the same 
update that I received. Also at issue is whether or not he will 
go directly to the Republic or Korea or through a third country 
and I think that is all being resolved over a period of time.
    Mr. Young. Thank you very much. Mr. Visclosky, do you have 
further questions?

                         WEAPONS MODERNIZATION

    Mr. Visclosky. Mr. Chairman, just one, if I could.
    Is there an arms race taking place in Southeast Asia and 
the Pacific Basin?
    Admiral Prueher. That is a frequently asked question, sir, 
and some of that is in the eye of the beholder. My answer is 
there is not an arms race taking place. Their economies are 
booming and they are upgrading and modernizing quite old things 
they have in many cases, but there is not an arms race.
    The countries are behaving responsibly in that they don't 
want to be the first one to introduce a new breakthrough 
weapons system, for example, beyond visual range missiles, and 
so I think they are behaving responsibly. It is coming in 
balance. There is not a race. I would say the nations, none of 
them want to be first, which imply race. They also don't want 
to be last. So they want to keep the water about level.
    I really think it would be wrong to characterize it as an 
arms race, sir.
    Mr. Visclosky. Thank you.
    Mr. Young. Admiral, General, thank you very much for an 
excellent presentation.
    Mr. Dicks. One last one?
    Mr. Young. Okay. Go ahead.

                      CHINA AMPHIBIOUS CAPABILITY

    Mr. Dicks. One minute. On the China issue, is it correct 
that China didn't have landing craft? If they wanted to do 
something against Taiwan, they literally could not have moved 
forces from the mainland of China?
    Admiral Prueher. They have some LST-type Landing Ship, tank 
ships. They have the capability to move about one division's 
worth. They do not have a capability--amphibious capability--to 
invade Taiwan. It would be a long way off.
    Mr. Dicks. So they have a lot of manpower, a lot of army, 
but their deployability is a major problem, isn't it? I mean, 
they are a threat in their area but----
    Admiral Prueher. They are not yet a force projector and 
they have a long way to go before they will be a projection 
force. But they are starting some ship visits around the area, 
which is all right. But they don't have a force projection 
capability.
    Mr. Young. Their ship visits include visits to the United 
States.
    Admiral Prueher. That is right.
    Mr. Young. And to our Western Coast for the first time 
ever, right?
    Admiral Prueher. That is right, sir. They have two 
combatants and an oiler coming to Honolulu early this next week 
and then going to San Diego and then to Peru.
    Mr. Young. We have some additional questions that we didn't 
get to because we are running out of time, but we would like to 
submit them in writing and ask that you respond to them, if you 
would.
    General Tilelli. Yes, sir.
    Mr. Young. The Committee will convene at 1:30 this 
afternoon and our witness will be General Peay, Commander in 
Chief, U.S. Central Command. And at this point thank you, 
again, very much, both of you. The Committee is adjourned.
    [Clerk's note.--Questions submitted by Mr. Murtha and the 
answers thereto follow:]

                        Combat Engineer Vehicle

    Question. General, one of the assets which has been available to 
you is the Combat Engineering Vehicle (CEV which mounts a 165mm 
demolition gun. The committee understands that the CEV is being 
withdrawn from service, and that some of the CEV missions may be filled 
by the M1 tank. What mission assigned to the CEV could be done by the 
M1 tank?
    Answer. The M1A1 and M1A2 tank equipped with the 120mm main gun and 
firing the M830A1 Multi Purpose Anti-Tank (MPAT) round can conduct the 
stand-off point obstacle reduction (i.e. shattering to smaller easily 
cleared pieces) portion of the mission performed by the M728 CEV. (M1 
tank models previous to the M1A1 cannot fire the M830A1 round because 
they have a 105mm main gun, hence they cannot perform that part of the 
CEV point obstacle breaching mission.) The M1A1 and M1A2 firing the 
M830A1 MPAT round can also demolish bridge piers and penetrate concrete 
bunkers up to at least two meters in thickness, as can the CEV. At 
present, the M1 tanks, including the M1A1 and M1A2, are not equipped 
with bulldozer blade systems so they cannot perform the point obstacle 
clearing portion of the CEV mission after the point obstacle has been 
reduced. The M1A1 and M1A2 tank gun has a long barrel (unlike the short 
165mm demolition gun on the CEV) which hinders the M1A1 or M1A2 tank 
from traversing to engage obstacle targets in close quarters as would 
be found in military operations in urban terrain (MOUT). The M1 family 
of tanks do not have crane booms, so they cannot perform the lifting 
mission of the CEV.
    Question. Do those missions still exist?
    Answer. Yes, the point obstacle breaching mission exists anywhere 
the enemy can take advantage of restrictive terrain and place point 
obstacles. Point obstacles range from simple wire and timber roadblocks 
to concrete filled buses, to the massive rock drop obstacles in the 
Korean theater consisting of up to one hundred concrete blocks, each 
block approximately two meters in diameter and up to four meters in 
depth. When executed, we presume that the enemy has mined the obstacle 
to prevent manual demolition. A stand-off reduction capability is 
therefore critical in terms of protecting our forces at the breach and 
getting the breach opened quickly so we can maintain our momentum. 
Point obstacles exist on both sides of the border in Korea. The CEV 
right now is the only integrated system that is capable of reducing and 
clearing point obstacles. The M1A1 and M1A2 tanks would either require 
a bulldozer blade capability or we would have to move slow moving, un-
armored bulldozers (along with their transports and crews) forward to 
have a pushing capability sufficient to clear the rubble out of the way 
after the M1A1 or M1A2 tank reduced the obstacle with the main gun. In 
restrictive terrain like Korea, where it is frequently not possible to 
bypass built-up areas, the ability to quickly engage enemy defended 
obstacles in urban terrain may mean more than just the life of the 
breaching tank crew; rather saving the lives of the friendly forces 
behind the breacher.
    Question. What testing of 120mm tank ammunition has been done for 
those missions, and what were the results?
    Answer. Tests were conducted at Aberdeen Proving Grounds from mid-
November 1996 through mid-December 1996 to determine if the M830A1 MPAT 
round could reduce scale concrete targets similar in diameter and half 
the length of a single individual block of the many blocks that make up 
the type 2 and larger type 3 rock drop obstacles in Korea. Published 
test results showed that the M830A1 MPAT round, the modified M830A1 
MPAT round with a solid nose, and the M123A1 High Explosive Penetrating 
round fired at a 100 meter distance to the target were able to reduce 
the unreinforced concrete target and the reinforced concrete targets. 
An excursion of the test showed that the M865 Kinetic Energy round 
fired at a 100 meter distance to the target was able to reduce the 
reinforced concrete target. Debris resulting from the MPAT, modified 
MPAT, and Kinetic Energy rounds was considerably larger, even after the 
second round hit, than the debris resulting from most second round hits 
(third in the case of a dud M123A fired against the bridge pier target) 
of the M123A1 HEP round for the CEV.
    Question. Which 120mm tank round will provide the best capability 
for those missions?
    Answer. From the test results, the modified M830A1 MPAT round will 
provide the best capability for a 120mm round to perform the point 
obstacle reduction mission. The concern is the clearing capability of 
the M1A1 or M1A2 tank (no bulldozer blade) or the currently fielded M9 
Armored Combat Earthmover (ACE) to push the large debris resulting from 
the MPAT round out of the way in the breach. The M123A1 HEP (165mm) 
round has a massive blast effect that tends to create small sized 
rubble and sweeps much of the rubble through the breach.

    [Clerk's note.--End of questions submitted by Mr. Murtha. 
Questions submitted by Mr. Hefner and the answers thereto 
follow:]

             Shortstop Electronic Protection System (SEPS)

    Question. The Committee understands that US Forces Korea has an 
urgent requirement for 62 SEPS units. What action is the Army taking to 
expeditiously satisfy this requirement?
    Answer. The Army is working to provide to US Forces Korea 26 
Engineering and Manufacturing Development (EMD) SEPS models that were 
in use in Bosnia. Those systems are being returned, and upon their 
return, they will undergo a period of maintenance for cleaning and any 
needed repairs. That process is estimated to take 45-60 days. Upon 
completion of the required maintenance, the systems will be sent to 
Korea.
    An additional 20 systems for a total of 46 will be bought with the 
congressional appropriation of $5 million for fiscal year 1997. 
Purchase of the remaining 16 systems will be addressed in an unfinanced 
requirement in fiscal year 1998, and if necessary, in the fiscal year 
1999-03 mini-POM.
    Question. Congress appropriated $5 million in fiscal year 1997 to 
initiate the production of SEPS for the urgent requirement in Korea. 
What is the Army's progress toward obligating these funds to initiate a 
production contract?
    Answer. The $5 million congressional appropriation is currently on 
OSD withhold. The Army is in the process of requesting that the funds 
be released from withhold. The processing time for that request is 
estimated to be 5-7 days. When the request is granted and the money is 
released, the Army will notify the contractor, Whittaker Electronics 
System, and the funds will be executed.

    [Clerk's note.--End of questions submitted by Mr. Hefner. 
Questions submitted by Mr. Young and the answers thereto 
follow:]

                      Priorities and Deficiencies

    Question. Do you feel the interests and needs of the Pacific 
Command have been adequately addressed in the fiscal year 1998 budget 
request?
    Answer. Overall, yes. We have many opportunities for input into the 
military budget decision process through the Joint Requirements 
Oversight Council, Chairman's Program Recommendations, Chairman's 
Program Assessment, Office of the Secretary of Defense Program and 
Budget Reviews, and the Defense Resources Board. In view of the need to 
balance the federal budget, Pacific Command's interests and needs are 
adequately addressed in the President's Budget.
    Question. What is your assessment of the major shortfalls in: 
personnel, training, equipment, and maintenance for those units under 
your day-to-day command as well as those that would be assigned to you 
in a war time situation?
    Answer. My assessment is that we are ready to execute our mission. 
However, we need to be attentive to indicators which may signal 
problems for future readiness.
    My biggest concern is our ability to keep quality people in 
uniform. Retention rates among many specialties are down in each 
Service. We need to provide adequate career progression opportunities, 
compensation, and quality of life, especially for our skilled career 
personnel. In the Pacific Command, the quality of barracks in Korea is 
of special concern.
    I am also concerned by problems identified by the Services in 
recruitment. The Department of the Army forecasts a recruiting 
shortfall of 6,000 through May 1997.
    Joint and Service funding to support our Joint and Combined 
Training Program are currently adequate. However, as costs continue to 
increase, funding must keep pace. Paying for contingency operations 
with training funds will reduce readiness.
    Equipment modernization programs present potential long-term 
readiness problems. For example, the Marine CH-46 helicopter fleet is 
29-years old. The V-22 will not replace the CH-46 as a medium-lift 
aircraft until 2014.
    The condition of Petroleum Enroute Infrastructure in the Pacific 
Command is another important concern. While the Fiscal Year 1998 budget 
provides for the most critical infrastructure needs, future program 
requirements await the conclusion of the Quadrennial Defense Review.
    Some Services are reporting aircraft readiness as a concern, as a 
result of age and deferred maintenance. Both the Air Force and Marines 
report increasing backlogs in intermediate aircraft maintenance which 
as affecting mission capability rates. The Navy estimates the average 
age of its aircraft fleet will increase from 14.3 years to 18.4 years 
by fiscal year 2003. Deferring depot maintenance for surface combatant 
ships is also a potential readiness problem.
    Quality people, training, equipment, and maintenance are all 
essential elements of readiness. The QDR process is evaluating the 
long-term readiness issues, based upon threats, strategy, and fiscal 
expectations.
    Question. What are the top ten priority items on your most recent 
integrated priority list?
    Answer. The Integrated Priority List (IPL) provides theater 
priorities for program funding to the Secretary of Defense and the 
Chairman, Joint Chiefs. The IPL leaves out many essential things, as it 
focuses only on identifying the shortfalls and required capabilities 
which are most important for accomplishment of Pacific Command's 
mission.
    In developing the IPL, my top priority is readiness. Ready forces 
composed of well trained people equipped with modern, sustainable 
technology are the foundation for the Pacific Command's ability to be 
an active player in the region.
    I consider quality of life and force protection overarching 
requirements to the IPL. These issues span all we do. The magnitude of 
their impact transcends a rank ordered list of system or program 
requirements.
    My top ten IPL items are as follows. ------.
    Question. In your view, are present levels of investment funding 
contained in the department's Future Years Defense Plan sufficient to 
address the long term recapitalization requirements of today's forces?
    Answer. We share the concerns of the Secretary of Defense and the 
Chairman, Joint Chiefs of Staff, about the annual funding shortfall of 
approximately $20 billion in Service modernization accounts for the 
Future Years Defense Plan.

         Quadrennial Defense Review and Future Force Structure

    Question. The Quadrennial Defense Review (QDR) will reexamine the 
current national security strategy and present the force structure of 
the armed services. The QDR will purportedly make recommendations as to 
what the appropriate mix of forces will look like to meet the strategic 
and regional threats of the future. The results are due to be presented 
to the Congress in May of this year.
    What formal role have you played in the QDR process?
    Admiral Prueher Answer. Both the Secretary of Defense and the 
Chairman of the Joint Chiefs of Staff permitted us to participate 
actively in the QDR process. My staff has worked closely with both the 
Joint Staff and the Office of the Secretary of Defense (OSD) staff. For 
example, we commented to the Joint Strategy Review and helped shape the 
evolving OSD Defense Strategy. We are participating in the Dynamic 
Commitment Wargame series, and reviewing numerous QDR products. We will 
also participate in a mid-April executive (CINC-level) review. I am 
satisfied that our voice has been heard in the QDR process.
    General Tilelli Answer. JCS and OSD are doing a good job of pulling 
in the respective CINC's representatives (senior officers and General 
officers) into this effort. This is resulting in a good cross 
fertilization of the services and CINC's requirements. Also, I and my 
staff are full participants in the QDR series of war gaming sessions 
(Dynamic Commitment series) and are working the hard questions (with 
JCS and OSD staffs) in terms of what our military services need to 
carry out the National Security Strategy.
    Question. What in your view, are the most important issues that the 
QDR should be examining?
    Admiral Prueher Answer. The most important issue the QDR should 
examine is how to best balance protection of U.S. interests through 
commitment of our military forces with modernizing for the future. 
Continued engagement of U.S. forces abroad is important, not only to 
respond to crises and prepare for war. Military forces also help shape 
the strategic environment. The presence of U.S. Pacific Command forces 
has underwritten the security and stability in the Asia-Pacific region 
since World War II.
    A review of our strategy and force structure is the right thing to 
do, but the QDR should bear in mind that the pace of change is also 
important. We should innovate, but do so carefully, and should accept 
some prudent risk. We should not make changes for sake of change, nor 
should we fall into the trap of seeing technology as a panacea. 
Finally, we have to remain aware of asymmetric challenges that could 
confront us now and in the future.
    General Tilelli Answer. As you know, OSD and JCS are taking a broad 
range review of the current national security strategy and the 
strategic context within which we must design our military forces. 
Since the QDR process is ongoing, I think that any detailed answer to 
this question would be premature. However, three points need to be 
stressed from a Korea/NEA perspective. (1) We clearly need to 
acknowledge that we are posturing for how we will ``shape'' and engage 
NEA in the future. In this regard we need to determine if we want to be 
reactive or proactive in this shaping; clearly determining what we want 
to shape in the future. (2) The QDR process must fully acknowledge the 
``flashpoint'' potential of Korean in the near-mid term. It is very 
likely that the Korean peninsula will still be a potential threat to 
national security even in 2005 (in terms of a nK regime or ongoing 
turbulence caused by massive reconstruction/reunification actions that 
could be going on as a result of nK collapse or possible war 
scenarios). (3) The QDR process must also acknowledge the ``Dominant 
Strategic Contexts'' that will drive stability in NEA and be a priority 
for our Nation to address. The ``Dominant Strategic Context'' for NEA 
in the mid-long term is clearly China's growth and expected motivation 
to exert influence over NEA from a leadership position. The near-mid 
term ``Dominant Strategic Context'' is the North/South Korea 
contingency. How we handle this near term ``potential flashpoint'' will 
set the stage for how we are perceived worldwide and be the framework 
for either maintaining US influence in the NEA area to balance the 
regional animosities or by which China steps in to establish regional 
hegemony.
    Question. Do you believe these issues are actually being addressed 
by the QDR?
    Admiral Prueher Answer. Yes. The QDR process has been open to the 
regional combatant commanders. As a result, I believe the QDR is 
addressing these issues. The QDR is reviewing the threats with a goal 
of recommending an appropriate mix of forward deployed, U.S. based, and 
reserve forces.
    General Tilelli Answer. Yes, UNC/CFC and PACOM are fully stressing 
the importance of these factors My only concern is that we do not 
forget the threat of war or severe instability in the near-mid term.
    Question. Some have spoken of the need to ``be open to a radical 
restructuring of our armed forces.'' Do you agree?
    Admiral Prueher Answer. I think that we should be willing to 
consider concepts involving a radical restructuring of our armed 
forces, but our best analysis shows that this is likely not the right 
thing to do. We have an appropriate balance of land, amphibious, naval, 
and air forces, with increased effectiveness and efficiencies residing 
in improved joint operations and support.
    In my judgment, the nature of warfare and of our tasks have not 
sufficiently changed to justify the considerable risks and expense 
radical restructuring would entail. We should take advantage of new 
technologies through pursuing the revolution in military affairs in a 
balanced manner. New technologies can enhance our efficiency and 
effectiveness in applying force. Excessive dependence on high 
technology solutions, though beguiling, will leave us vulnerable to a 
foe who applies asymmetric attack such as terrorism, counter-
insurgency, weapons of mass destruction, or information operations. 
Balance in leap ahead technology investment should be the watchword, so 
we do not abandon needed core competency.
    General Tilelli Answer. No. Rather, we need deliberate process by 
which we can refine the clearly capable military forces we have now. 
Radical approaches are for ``failure'' situations. Our nations military 
situation is one of ``success.'' I think the QDR process is approaching 
this challenge from this perspective.
    Radical restructuring is clearly not the way to go . . . rather, we 
need to focus on the expected strategic contexts that will face us in 
the near-mid term and long term, then determine the strategy by which 
we can clearly shape the international environment to protect and 
promote US interests. Once this is done, we then need to address the 
military capabilities across the board spectrum which will provide our 
Nation the strategic and operational flexibility to deal with the 
turbulent 21st century. This then provides a basis for sound force 
structure refining and reengineering that allows you to make 
``informed'' decisions as to how to refine and develop well balanced 
force structures that make sense.
    Question. Do you believe that the number of combat forces versus 
support forces, the so-called ``tooth to tail ratio'', is out of 
balance in the Defense Department today?
    Admiral Prueher Answer. Overall, I think that the ``tooth to tail'' 
ratio is in balance, with the exception of base infrastructure. We 
should continue to review our structure and take advantage of economies 
which exist.
    Sustaining quality forces which employ highly complex equipment 
requires extensive support. Further, we expect our military to operate 
at great distances over long periods of time with robust logistics and 
minimal risk. These goals necessitate a higher percentage of support 
forces than other nations. The larger consideration is for the 
capability of the force as a whole.
    Mission and location also affect the desired ``tooth to tail 
ratio'' of combat to support personnel. The ratio is concern for the 
Services as they manage their force structures. The Services review the 
issue carefully, and acknowledge the need to shed some base 
infrastructure.
    General Tilelli Answer. There is no simple answer to a question 
such as this. As much as we would like to have one, history affords us 
to single prescribed ratio of support and combat forces. The ``tooth to 
tail ratio'' varies for each of this country's available military 
options. In the Korean theater, for example, the available military 
options can include one or a combination of the following: civic 
action, humanitarian assistance, civil affairs, and other military 
activities to develop positive relationships with our Host Nation; 
confidence-building and other measures to reduce military tensions; 
military presence; armed conflict involving air, land, maritime, and 
strategic warfare campaigns and operations in Korea. In each instance, 
combat and support forces have a unique combat/support force 
apportionment. Are these forces ``out of balance.'' in today's 
Department of Defense? Probably not. The bottom-line is that a 
Commander-in-Chief of a United States Unified, Multi-national Command 
needs the flexibility that only a healthy tooth and a robust tail can 
provide. USFK must be able to successfully accomplish its assigned 
taks--whatever the mission, whatever the required tooth is tail ratio.

                              North Korea

    Question. Even by North Korean standards, the past month has been 
quite eventful. A Senor member of the North Korean government defected 
in Beijing, another North Korean defector was shot in Seoul and North 
Korean and U.S. officials have agreed to resume talks on achieving a 
permanent settlement on the peninsula. As our senior military commander 
in the theater and Korea itself, the Committee is very interested in 
your assessment of the present military and political situation in 
North Korea.
    Answer. The situation in North Korea is highlighted by its 
worsening economy, especially food shortages. Due to the poor 1996 
harvest and limited foreign aid, the food situation will become 
critical this spring and early summer. Additionally, coal and 
electricity shortages are severely impacting economy and living 
conditions. ------.
    Stark conditions have kindled a rise in economic crime and in 
malnutrition and related diseases, and a worsening of the apathetic 
attitude of the population. ------.
    Since spring the military has demonstrated its powerful potential. 
We have detected the following: a major naval exercise in May; an 
impressive road march exercise in 2d and 5th Corps in October; and a 
robust winter training cycle from December to March that was 
highlighted by high levels of mechanized and artillery training and 
featured a major exercise by the 108th Mechanized Corps with air and 
naval support in mid-January and an extensive nationwide exercise in 
later March.
    In international affairs, the North's apology for the submarine 
incursion was driven by the North's need for food and a relaxation of 
economic sanctions and other restrictions. The North's attendance at 
the explanatory briefing for the Four-Party Talks is consistent with 
these objectives, but this does not necessarily mean the actual talks 
will be realized. Pyongyang is prone to make limited concessions for 
short-time tactical gains, but is likely to resist any meaningful 
opening or improvement of relations with the ROK because this would 
threaten the survival of the Kim regime.
    North Korea's economic and other problems stem from their decades-
long efforts to create a military for achieving reunification. They 
have, from their perspective, largely achieved this capability and show 
no willingness to relinquish it. We must remain alert to the 
possibility that the North's leadership may conclude that the military 
option is the only way to preserve their privileged status.
    Question. What do you rate as the probability of armed conflict on 
the Korean peninsula over the next year? Five years?
    Answer. ------. We don't want to put a number on such a weighty 
judgment. We simply want to say conditions are such that we believe 
there's a higher probability than last year or the year before to use 
the army before its demise becomes total and final.
    Question. Update the Committee as to the current status of the 
North Korean military forces. In your answer please address unit 
readiness, force modernization, and development of weapons of mass 
destruction.
    Answer. North Korea maintains the capability to inflict enormous 
destruction on the south through large-scale combat operations despite 
readiness deficiencies caused by resource shortages. Deficits of food 
and other essential commodities have adversely affected the health, 
stamina, morale, and discipline and training levels of the soldiers. 
Despite these problems, the force worked hard during the recent Winter 
Training Cycle to improve readiness. Although overwhelming economic 
problems may limit the pace of that improvement, the military is 
capable of conducting corps and below movements and operations while 
coordinating the integration of air and naval support.
    The most significant force modernization trend has been the gradual 
shift over the past decade of military combat power towards the forward 
area. Of specific concern is the continuing forward deployment of long-
range artillery and MRL systems to underground facilities and hardened 
sites within 15 kms of the DMZ. Operational exploitation forces and 
front line corps with supporting artillery are positioned so far 
forward now that they could launch a no-notice surprise attack. Other 
notable activities include development of surface-to-surface missiles 
(SSM), construction of underground facilities and wartime relocation 
sites for industrial facilities, improvements in operations and 
communications security, the build up of the air-cushion landing craft 
fleet, submarine fleet enhancements, the forward deployment of fighter 
aircraft to airfields within 55 nautical miles of the DMZ, air defense 
improvements. ------.
    In the event of renewed fighting on the Korean Peninsula, we expect 
North Korea to employ chemical and possibly biological weapons. The 
North has an active chemical weapons program, which has produced 
several different types of chemical agents. ------. We assess that 
North Korea could have one, possibly two, nuclear devices with a yield 
in the 5-10 kiloton range. We don't believe these devices have been 
weaponized.
    Question. What are the present capabilities of the North Koreans to 
attack and destroy U.S. and South Korean military port facilities in 
the opening days of a conflict?
    Answer. Long-term support to a ground campaign on the Korean 
Peninsula requires port facilities to stay open. We need the ports to 
manage both the incoming equipment required for strategic reinforcement 
and the thousands of tons of consumable supplies, such as food, 
ammunition, and petroleum products, required for military operations. 
An airbridge from the United States could not move the required 
personnel and materiel to sustain high intensity combat. U.S. and ROK 
port facilities on peninsula are highly susceptible to disruption by a 
chemical or biological attack because of our need to protect the 
civilian stevedore force and to prevent incoming materiel from being 
contaminated during transshipment. ------.
    Question. Have there been any recent incidents along the DMZ?
    Answer. The number of incidents within the DMZ has decreased over 
the past several years. The rate of major incidents--intrusions or 
weapons firing across the Military Demarcation Line (MDL)--peaked 
during the late 1960's when there were numerous clashes in and near the 
DMZ. There have been relatively few major incidents in the 1990's. The 
most significant incident within the DMZ in 1996 occurred in April when 
North Korea conducted reinforcement drills in the Joint Security Area 
at Panmunjom. These drills involved the introduction of approximately 
200 excess soldiers into the area for several hours on two consecutive 
evenings. Another major incident on the peninsula occurred in September 
1996 approximately 100 kilometers south of the DMZ when 26 North Korean 
soldiers infiltrated ROK territory after their submarine ran aground in 
the coastal waters near Kangnung, South Korea. The ensuing manhunt 
conducted by South Korean forces resulted in the death of 24 North 
Korean infiltrators, eight South Korean soldiers and five South Korean 
civilians. Other major violations of the Armistice Agreement within the 
DMZ in 1996 involved soldiers intentionally crossing the MDL, 
introducing illegal weapons into the DMZ and firing weapons across the 
MDL. There were no casualties associated with these violations. The 
North Korean military in Panmunjom rejected all United Nations Command 
protests regarding these violations of the Armistice Agreement.
    Question. It is reported that the United States has a comprehensive 
plan to airlift its citizens out of Korea in the event of a conflict. 
Japan, however, with the second largest expatriate community in South 
Korea, has no such plan. It is also reported that the US has lobbied 
the Japanese government in vain to provide airborne assistance in the 
event an evacuation becomes necessary. Are these reports accurate? If 
so, does this situation concern you?
    Answer. The Office of the Secretary of Defense, in conjunction with 
HQ Pacific Command and HQ US Forces Korea, has initiated a Trilateral 
dialogue with the ROK and Japanese governments to cover a range of 
security issues in Northeast Asia. Noncombatant evacuations operations 
(NEO) is one of the topics being addressed, and it is a sensitive 
domestic political issues in Japan. We are entirely confident that in 
the event of a military crisis on the Korean Peninsula, the Japanese 
government would cooperate fully in evacuating both its substantial 
number of Japanese citizens as well as US citizens. Additionally, the 
US has refurbished aggressive programs using its lift assets to support 
a NEO contingency. For example, we will use all available airlift and 
sealift capabilities to evacuate South Korea.
    ------. And, likewise, the availability of cleared Sea-Lanes-of-
Communications and ferries will supplement our ability to conduct NEO. 
If the American Embassy through the Department of State ------ in the 
early stages of a crisis situation, these aircraft will greatly assist 
in maximizing the departure of noncombatants. I fully support the 
efforts of the American Embassy, in this endeavor. In all of our 
exercises, we involve the American Embassy, USTRANSCOM, US Forces 
Japan, and the Government of Korea in the coordination and planning to 
execute Noncombatant Evacuation Operations.

                              South Korea

    Question. What is your assessment of the present capabilities of 
the Republic of Korea's (ROK) armed forces? What is the overall 
readiness of the ROK forces?
    Answer. The ROK military is best characterized as a capable, well-
equipped, and well-trained force, but one that is out-gunned by a 
numerically superior foe. While readiness levels are high, in order to 
improve their condition, the ROK JCS has taken positive steps to 
resolve 22 specific military requirements identified at the most recent 
Military Committee Meeting. Seventeen of the twenty-two have solutions 
currently being implemented or programmed for implementation in the ROK 
1998-2002 Joint Strategic Objective Plan. These initiatives will 
enhance ROK capabilities and readiness into the foreseeable future. As 
we think of our alliance, the ROK and US bring different capabilities 
to the table; both are needed.
    Question. In what mission do you believe the ROK military requires 
the greatest modernization?
    Answer. Counter Artillery and Rocket fire and Theater Missile 
Defense and requirements that the ROK can improve considering the 
massive indirect Rocket and Artillery threat from North Korea. However, 
this is not to imply that the Republic of Korea is not addressing this 
shortfall. South Korea spent $15.9 billion on its armed services, 
approximately 3.1 percent of its GDP in 1996. Of this amount, the ROK 
purchased five Q-36 and two Q-37 Counter Fire Radars from the United 
States to supplement those systems employed by United States Forces 
Korea. To improve the combined Theater Missile Defense, South Korea is 
now considering purchasing Patriot.
    Question. Do you believe the South Korean government is providing 
adequate resources to maintain the present effectiveness and ensure the 
future modernization of their military?
    Answer. The Republic of Korea is improving those areas that we 
think should be improved. They are providing adequate resources towards 
its defense requirements. In 1996, the ROK defense was approximately 
3.1 percent of its GDP, which compares very favorably with the United 
States, In addition, the Republic of Korea is increasing the amount 
spent toward the common defense of Korea by raising its defense budget 
in 1997 by 12.8 percent.
    Question. Are you experiencing and difficulties with communications 
interoperability between ROK and US forces? Do US and ROK forces 
acquire the same types of tactical communications equipment? If not, 
why not?
    Answer. Communications interoperability between US and ROK forces 
is an issue with difficult problems to overcome. We have a command and 
control system called TACCIMS which is used by both the ROK and US; 
however, it is designed mainly for corps and above. The fielding of new 
US communications equipment has improved the capability of US forces 
but resulted in an ``interoperability gap'' with ROK forces. While the 
ROK is developing their own systems, lack of coordination with US over 
common standards in the design phase continues to hinder 
interoperability.
    There are ROK/US forums in place to provide coordination and we are 
addressing to the ROK the importance of interoperability with their 
main ally. These forums have improved some areas. For example, the US 
is preparing to release the standard for TADIL-J to the ROK.
    ROK/US communications interoperability remains the subject to 
continued attention yet progress has been slow. For each system 
affected we must emphasize to the ROK on the need to invest funds to 
assure interoperability. In the endeavor to field new systems on 
limited budgets this is difficult.
    In regards to the US and ROK acquiring the same types of tactical 
communications equipment, the ROK Government has made a conscious 
effort to reduce dependence of US or other foreign communications 
equipment. Communications is an area is which the ROK is able to 
produce indigenous products with state-of-the-art technology. The ROK 
wishes to utilize this capability as much as possible. This has 
resulted in the fielding of ROK equipment which is not fully 
interoperable with US equipment. On the other hand, the US must 
consider interoperability on a broader scale then the ROK. 
Interoperability with NATO and other allies dictate that we not acquire 
equipment that is only compatible with ROK equipment.
    We will continue to emphasize to the ROK the importance of 
interoperability with the US in its development and acquisition of new 
systems.
    Question. How confident are you in the ability of US and ROK 
intelligence and warning systems to detect a surprise attack from the 
north?
    Answer. ------. CFC and the national intelligence community monitor 
around the clock the hundreds of bases, railheads, and assembly areas 
associated with preparations for war. While fully realizing the North 
would go to extreme measures to deny us warning, our extensive 
collection effort against the North is likely to provide unambiguous 
warning of attack at least 12 to 24 hours in advance of the execution 
of even the most short-fuzed North Korean attack scenario.

                                 China

    Question. Admiral Prueher, can you please discuss the present 
capabilities of China's armed forced today? In your answer please 
address the present arms modernization program both conventional and 
nuclear, and the extent of Russian arms sales to the Chinese.
    Answer. The People's Republic or China (PRC) is capable of 
defending the mainland against conventional attack and maintaining 
internal stability. It possesses a limited ability to attack beyond its 
borders, due in large part to obsolescent weapons system and an 
inadequate logistics infrastructure.
    We share regional leaders' concern about China's military 
modernization and lack of transparency on security objectives. China's 
modernization program for the last decade has stressed the acquisition 
and development of modern weapons systems. It has also focused on 
command and control of forces. China has purchased the Russian Su-27/
FLANKER, but the Chinese version lacks aerial refueling capability. 
This limits its range. China also acquired the Russian KILO-class 
diesel submarine, with two already delivered and an additional two 
probably arriving this year or next. China purchased the SA-10/GRUMBLE 
air defense missile and deployed it around Beijing. ------.
    The Chinese are shifting from a large standing army to one 
attempting to incorporate advanced technology in a smaller force. While 
their intent to modernize is manifest, they will not have a significant 
force projection capability for at least a decade. ------.
    Question. What is the current status of the Chinese arms export 
program? Who are they exporting weapons to? What types of weapons are 
they exporting? Specifically, are they exporting ballistic missiles or 
weapons of mass destruction?
    Answer. From 1991 to 1995, China was the world's sixth leading arms 
supplier, providing low technology systems valued at $2.7 billion to 
Third World counties in Asia, the Middle East, and Africa. Chinese arms 
sales have been dropping since the late 1980s; this trend is expected 
to continue. China's largest regional market is in neighboring Asian 
states, primarily Pakistan, Burma, Thailand, Bangladesh, and Sri Lanka. 
Although Middle East sales are declining, Iran is China's largest 
customer. The African market is small. China continues to seek inroads 
into the Latin American arms market with very limited success.
    China's most significant arms exports include: ------. China 
provided Pakistan with nuclear and missile technologies. Beijing 
remains Iran's most important supplier of nuclear technologies, 
although so far it has refrained from selling technologies for uranium 
enrichment, spent fuel reprocessing, or plutonium production. China 
also is the most important supplier of equipment, materials, and 
technology for Iran's chemical warfare and missile programs.
    Question. Do you foresee any changes in China's top military 
leadership in the post-Deng era?
    Answer. We watch the structure of the People's Liberation Army 
carefully. The only top military leadership changes we anticipate soon 
are changes with in China's Central Military Commission. We expect 
those changes to occur during the 15th Party Congress scheduled for 
October 1997. We expect new appointments will come from among those 
military leaders who are familiar to us.
    Question. Have you observed anything out of the ordinary in recent 
training exercises conducted by the Chinese armed forces?
    Answer. With the exception of a naval exercise in October 1996, The 
People's Republic of China (PRC) has not conducted any extraordinary 
military exercises since March 1996, when the People's Liberation Army 
(PLA), Navy, and Air Force conducted a major exercise in the Taiwan 
Strait. ------. Training for the rest of 1996 and the beginning of 1997 
focused on antisurface and antisubmarine warfare, air defense, 
communications, limited combat maneuvers, mobilization, and amphibious 
operations. We believe this training constituted building blocks for 
force integration and joint operations.
    Recent Chinese military exercises have not compared in scope or 
size to the March and October 1996 exercises. We expect the norm of 
small, relatively uncomplicated exercises will continue through 1997, 
as Beijing focuses on the smooth reversion of Hong Kong to Chinese 
control and senior leadership visits to other Asian countries and to 
the United States.

                 Fiscal Year 1997 Supplemental Funding

    Question. As in the past two fiscal years, the Committee is being 
advised that if the Emergency Supplemental Appropriations Bill is not 
enacted before the end of this month, third and fourth quarter OPTEMPO 
funding and training opportunities will be lost.
    Do you anticipate any other readiness problems during the course of 
Fiscal Year 1997?
    Answer. Yes. Without prompt approval of supplemental funding, many 
commanders will be forced to make tough decisions reducing training and 
maintenance. Timely approval of supplemental funds for unscheduled 
contingencies will help prevent these shortfalls.

                            Joint Operations

    Question. The principal objective of the Goldwater-Nichols 
Department of Defense Reorganization Act was to address the persistent 
problems of interservice interoperability, unclear command 
relationships and competing doctrine that had hampered joint service 
contingency operations in the past. The intent being to make all 
services work together as a joint team.
    What progress do you believe has been made in your command and DoD 
as a whole in implementing the changes mandated by the Goldwater-
Nichols Act?
    Answer. The 1986 Goldwater-Nichols Act focused attention on joint 
manning, education, and operations. It took several years to develop 
joint doctrine and officers with joint warfighting skills. We have 
achieved this first level of ``jointness.'' We now have the doctrine 
and the necessary personnel to effectively conduct joint operations. 
Within the last two years in this theater we have made great strides in 
extending joint operations to service components. Our exercise program 
has helped apply joint doctrine to operational issues. For example, 
during the recent TANDEM THRUST exercise in Australia the commander of 
7th Fleet was the Joint Task Force commander. He was responsible for 
integrating amphibious landings by Marine forces, parachute landings by 
Army forces, Air Force bomber operations, as well as function in a 
mult-national environment. Because of training exercises such as TANDEM 
THRUST and the rest of the U.S. Pacific Command exercise program, our 
forces are much better able to operate in a joint environment.
    Question. What still needs to be accomplished and how do the 
individual Services become more efficient at fighting as a competent 
joint force in future contingency operations?
    Answer. We need to continue to exercise and strengthen joint 
integration among forces. However, most operations we conduct in this 
theater also involve other government agencies. The next level of focus 
for joint operations is inter-agency. We need to develop programs and 
policies which allow us to operate more effectively within the inter-
agency process. Recent training experiences in Humanitarian Assistance 
(TEMPO BRAVE) and Consequence Management Operations (ELLIPSE CHARLIE) 
highlight this need. We have begun to incorporate the inter-agency 
process into our training programs and expect to see near-term 
improvements.
    Beyond inter-agency cooperation, the next level of joint operations 
is multi-national. Cooperative engagement in peacetime promotes multi-
national cooperation in crisis. Continued funding of cooperative 
engagement programs is required to sustain multi-national ties.
    Component forces bring Service competencies to the joint fight. The 
Joint Force Commander is best served when provided trained and ready 
forces able to accomplish tasks which support the joint operation. 
Services need to focus on core competencies while incorporating 
interoperable doctrine, logistics, and communications.
    Question. Do you see any of the command relationships in USPACOM as 
redundant or unwieldy?
    Answer. Command Relationships in the U.S. Pacific Command are 
appropriate for the security structure within the theater. The mix of 
components and subunified commands is effective and supports efficient 
execution of our regional strategy. Subunified commands in Japan, 
Korea, and Alaska fulfill essential roles and help to overcome the 
tyranny of distance in the Pacific. The unique arrangements in Korea, 
while complex, are both proven and well understood.
    For contingencies outside Korea, Pacific Command implements command 
and control with Joint Task Force commanders reporting directly to the 
Commander-in-Chief of Pacific Command.
    Question. Do you believe major procurement decisions are made by 
the services today on the basis of what a program contributes to the 
nation's total defense capability as opposed to the individual 
service's?
    Answer. Yes. The Joint Requirement Oversight Council, in 
consultation with the Commanders-in-Chief, ensures military 
procurements are evaluated on the basis of the nation's defense and 
fulfill valid military necessities.

                  Force Levels in the Pacific Theater

    Question. About 100,000 United States military members are 
currently stationed in the Asia-Pacific region. Admiral Prueher, you 
have recently been quoted in reference to the Quadrennial Defense 
Review (QDR) as saying that ``the fact that we are reviewing our force 
structure and posture does not mean that troops will be trimmed in 
Asia.'' In addition, several of your component commanders have 
expressed the opinion that they expect no significant changes in force 
structure or troop numbers (as a result of the QDR).
    Do you believe that these thoughts are consistent with Secretary 
Cohen's statement that ``everything is on the table'' for the QDR?
    Answer. Yes. My thoughts are consistent with Secretary Cohen's 
statement. While our entire force structure and posture are ``on the 
table'' in the QDR, the national interests which call for forward 
deployed forces in Asia are compelling. The administration has recently 
reiterated and committed to the need for 100,000 in Asia, and I fully 
support this position. For the foreseeable future, the capabilities 
represented by 100,000 forward deployed personnel are about right to 
shape the security environment in the Asia-Pacific region, respond to 
crisis, and prepare for the future.
    Question. Does USPACOM intend to make any proposals in terms of 
force restructuring for the QDR?
    Answer. We do not intend to make any proposal for force 
restructuring of USPACOM forces for the QDR. We believe the current 
balance of forward deployed, forward based, and continental U.S. based 
forces is about right in quality and kind.
    For the foreseeable future, military requirements justify the 
continued forward deployment of the capabilities of about 100,000 
personnel represent in the III Marine Expeditionary Force, Fifth and 
Seventh Air Forces, 7th Fleet, and Eighth U.S. Army. We are working 
closely with the Joint Staff and the Office of the Secretary of Defense 
on the QDR.
    Question. Do you believe that the present force level of 100,000 
forward-deployed troops in USPACOM's area of responsibility is driven 
more by operational requirements or by the need for a politically 
significant level of troops in the theater?
    Answer. The two are clearly linked--the political significance of 
the force stems largely from its operational effectiveness. The United 
States military forward-deployed force level of approximately 100,000 
in the Asia-Pacific region is driven by operational requirements for 
capabilities. It is an essential element of regional security and 
America's global military posture. Forward-deployed forces in the 
Pacific ensure a rapid and flexible worldwide crisis response and 
warfighting capability; discourage the emergence of a regional hegemon; 
enhance our ability to influence a wide spectrum of important issues; 
overcome the tyranny of distance and demonstrate to our friends, 
allies, and potential enemies alike the United States' interest in the 
security of the entire region.
    While the number 100,000 represents a significant regional metric 
of U.S. commitment, we adjust the force based upon changes in 
requirements and capabilities. After the Cold War, American military 
forces forward deployed in Asia were adjusted. We reduced our forces in 
the region from approximately 135,000 in 1990 to approximately 100,000 
in 1994.
    For the foreseeable future, military requirements justify the 
continued forward deployment of the capabilities approximately 100,000 
personnel represent.

                            OPTEMPO/Training

    Question. Please list for the Committee the major deployments 
undertaken by USPACOM in the past fiscal year.
    Answer. We have executed a significant number of major deployments 
the past year, encompassing exercises, operational deployments, and 
operational missions. Last year we conducted 18 Pacific Command 
sponsored exercises throughout the region, involving over 86,000 
personnel. We conducted 22 operational deployments, including: 3 
Carrier Battle Groups and 3 Amphibious Ready Groups deployed to the 
Arabian Gulf; 2 Carrier Battle Groups deployed to the South China Sea 
in response to China/Taiwan tensions; over 8,000 U.S. Army soldiers in 
10 separate operational deployments; and 650 U.S. Air Force personnel 
to Southwest Asia in support of Central Command operations. We also 
deployed forces to support 9 operational missions, including over 2000 
personnel from all services to support Operation Pacific Haven, the 
large scale evacuation of Kurdish refugees to Guam, and over 200 U.S. 
Army personnel to execute Operation Marathon Pacific, returning Chinese 
migrants to China via Wake Island.
    Question. Is the operating tempo of any units under your command 
significantly higher than any other? If so, which units?
    Answer. (a) Yes. We extensively employ many of the units identified 
by the Joint Staff as ``Low Density High Demand'' (LD/HD). Many other 
units approach, and in rare cases exceed, their service OPTEMPO 
guidelines.
    (b) The LD/HD units most in demand in the Pacific Command are the 
EA-6B Prowler, U-2, P-3 Reef Point, and Civil Affairs detachments.
    Besides LD/HD units, the following units experienced the highest 
OPTEMPO within their components:
    Pacific Fleet: 5 units exceeded the Chief of Naval Operations' 
PERSTEMPO guidelines last year:
    --USS Bunker Hill, USS Thach, & USS Rodney M Davis, all homeported 
at Yokosuka, Japan.
    --SH-60F Squadrons 4 & 8, which deploy with Carrier Battle Groups.
    Pacific Air Forces (PACAF): PACAF strives to limit time away to 120 
days per year. Support to CENTCOM has driven PACAF to exceed 120 days 
for some units:
    --The 13th Fighter Squadron spent an average of 116.7 days away 
from Misawa, Japan last year. Half the squadron spent 180 days 
deployed.
    --67th FS personnel were gone 142 days away from Kadena, Japan.
    --Co-Pilots in the 909th Air Refuel Squadron averaged 131 days away 
from Kadena.
    US Army Pacific: Engineer and Military Intelligence specialists 
(such as translators) are the busiest soldiers, spending an average of 
6 months annually away from home, either deployed or in the field. 
Combat arms soldiers are gone only slightly less--usually 5 months 
annually.
    Marine Forces Pacific: Certain aviation units are the most 
deployed, annually spending an average of 8 to 9 months away from home. 
F-18 Hornet Squadrons and CH-46 helicopters are in especially high 
demand. Marine ground combat units spend at least six months annually 
deployed or in the field.
    Question. Do you believe that the troops under your command today 
are receiving adequate training? If not, why not?
    Answer. Yes. The forces within Pacific Command receive adequate 
training. We have made joint operations the norm through a series of 
exercises (TEMPEST EXPRESS, TEMPI BRAVE, TANDEM THRUST, and COBRA 
GOLD). We have used a ``crawl--walk--run'' training model to develop a 
joint team.
    We begin by using academic instructions and unit level training to 
establish the foundation for joint operations. My staff sends out 
mobile training teams to component headquarters to provide joint 
training and expertise during this initial phase to assist the 
components.
    We then move to the next stage, the TEMPEST EXPRESS exercise, which 
uses table-top simulations to train Joint Task Forces. We stop and 
regroup as often as necessary during the training to ensure we reach 
our training objectives. This Fiscal Year we will conduct TEMPEST 
EXPRESS exercises with five joint Task Forces (7th Fleet, I MEF, I 
Corps, ALCOM, and III MEF). We will train 3rd Fleet during the first 
quarter of Fiscal Year 1998.
    Finally, we exercise Joint Task Forces and the Pacific Command 
Headquarters staff during demanding exercises such as TEMPO BRAVE (7th 
Fleet last summer; III MEF this fall), TANDEM THRUST (7th Fleet), and 
COBRA GOLD (I Corps). In these exercises we include the entire joint 
team and carefully analyze our performance in after action reviews to 
ensure we capture all lessons learned. We use this feedback to design 
future training and to correct doctrinal or organizational 
deficiencies.
    The keys to successful joint training are well trained and equipped 
forces. All Pacific Command components have aggressive training 
programs which focus on developing and sustaining the unique skills of 
their force. Our success in integrating these forces into successful 
joint task forces is indicative of the high level of training of our 
component forces.
    Question. Do you feel that Military Operations Other than War 
(MOOTW) by U.S. forces has affected the readiness or combat skills of 
U.S. forces?
    Answer. Yes. However, the effects are uneven. Many of the command 
and control processes and systems used by U.S. Forces in MOOTW are the 
same they would use in combat. Military Operations Other than War 
usually involve a combination of air, land, sea, space, and special 
operations forces as well as the efforts of governmental agencies and 
non-governmental organization in a complementary fashion. Plans for 
MOOTW are prepared and executed in a similar manner as plans for war. 
The mission analysis and command estimate processes are as critical in 
planning for MOOTW as they are in planning for war. The basic planning 
process is unchanged, but the planning considerations are different. 
Likewise, the logistical systems and command and control systems are 
similar. Force projection, sustainment, and the command and control of 
these forces is accomplished using the same systems for both MOOTW and 
war. Therefore, at the joint force and service component planning 
levels, executing MOOTW operations does not significantly degrade 
readiness or combat skills.
    Individual and collective skills are degraded to some extent among 
some tactical units. Training time and money are limiting factors for 
all units. If units are diverted from training on combat skills to 
support MOOTW operations there is a degradation of combat skills. We 
rely on subordinate commanders to assess the readiness of those combat 
skills and ensure that the level of training for combat tasks remains 
adequate to support combat operations. Units within the Pacific Command 
are ready to execute their mission.
    Question. What are the major joint training exercises that will be 
undertaken by the Pacific Command in fiscal year 1997 and which ones 
are budgeted for 1998? Are the funds budgeted for the service's Fiscal 
Year 1998 request sufficient for your projected training needs? Has the 
U.S. participation in Operations Other than War altered the types of 
exercises you conduct?
    Answer. There are 24 joint training exercises scheduled for Fiscal 
Year 1997. The major exercises are: RECEPTION STAGING ONWARD MOVEMENT 
AND INTEGRATION, ULCHI FOCUS LENS, FOAL EAGLE, FREEDOM BANNER, ELLIPSE 
CHARLIE, TEMPEST EXPRESS, TANDEM THRUST, COBRA GOLD, KEEN SWORD, and 
BALIKATAN. Fiscal Year 1998 has a total of 28 joint training exercises 
scheduled. All are provided for within the budget.
    Yes. Service budgets are sufficient for Pacific Command to execute 
the Fiscal Year 1998 training and exercise programs.
    Yes. U.S. participation in Military Operations Other Than War has 
increased the training emphasis upon these types of operations during 
our Joint Task Force training exercises.
    Question. What new systems and methods (i.e. simulation etc.) are 
employed by USPACOM to make joint training more effective? Are the 
component services under your command adopting these new approaches?
    Answer. My guidance is, where sensible, to use simulations instead 
of moving people and equipment. We use a robust simulation program at 
all levels to develop training programs which are more efficient. We 
also leverage information technology so we are able to reach back into 
continental U.S. based resources. We strive to be efficient custodians 
of our training resources.
    Simulations of operations on the Korean peninsula are good examples 
of this effort. We blend service component simulations to support joint 
exercises using an Aggregate Level Simulation Protocol to employ 
component simulations in concert. We tie together the Army's Corps 
Battle Simulation, the Navy's Research Evaluation and System Analysis, 
the Air Force's Air Warfare Simulation, and the Marine Corps' Marine-
Air Ground Task Force Tactical Warfare Simulation.
    We are also incorporating emerging Joint Simulations (JSIMS) 
systems into our training and operations. Initial Operational 
Capability for JSIMS is scheduled for Fiscal Year 1999, with the focus 
on supporting Joint Task Force and unified combatant commands. JSIMS 
will integrate existing simulations into a common framework that 
includes live, virtual, and constructive modeling and simulation. JSIMS 
will also provide a training environment at the operational level of 
war that will accommodate requirements at the strategic and tactical 
levels including space, transportation, and intelligence. This effort 
will reduce overhead and operating costs for training and increase the 
overall utility of simulations.
    We use our information systems to ``reach back'' to assets in the 
continental U.S. We have leveraged facilitates such as Atlantic 
Command's Joint Training and Simulations Facility into exercises being 
conducted in South East Asia. We have also electronically connected 
Joint Exercise Control Groups from places such as the Army War College 
in Carlisle, Pennsylvania into exercises being conducted off Indonesia 
(TEMPO BRAVE 96). This capability is also used by our components. As 
Global Command and Control Systems mature our components' ability to 
interact with other headquarters will also continue to improve.

                   Troop Quality, Morale, and Medical

    Question. In visiting various statewide bases, members of the 
Committee have been hearing complaints about medical care and dental 
plans.
    How satisfied are troops in USPACOM with the medical care, and 
dental care for themselves and their dependents? What are the major 
shortcomings of medical care in your command? How many U.S. military 
operated hospitals are there in the Pacific Command?
    Answer. According to a Department of Defense survey, most personnel 
are satisfied with military health care in the Pacific. The Pacific 
region is in transition to a managed care program under TRICARE. 
TRICARE Pacific is being implemented in Alaska, Hawaii, and throughout 
the Western Pacific, including all remote sites. Once implementation is 
completed, TRICARE should maximize the operational readiness of our 
active duty military while continuing to provide a high quality of care 
for all beneficiaries.
    The influx of additional dental officers and support staff has 
improved accessibility in general dentistry and increased specialty 
care. Overall satisfaction with dental care is good. However, full 
service can not be provided to family members in remote locations.
    Some individuals perceive TRICARE will reduce benefits and 
flexibility. As implementation proceeds, we will monitor patient 
satisfaction with quality of care, access, and cost to the individual, 
and ask for your continued support to ensure that medical benefits 
remain intact.
    Geography, culture, and politics are obstacles to accessible, 
affordable, quality health care for many active duty personnel and 
their family members assigned to remote locations. This compels some 
service-members to pay significant out-of-pocket, up-front expenses 
when obtaining care on local economies. We could better serve these 
beneficiaries with local authority to contract for, and pay directly 
some costs, instead of reimbursement to the member. Family members 
stationed in locations where there are no U.S. dental facilities also 
need additional assistance in obtaining and paying for quality dental 
care.
    There are ten hospitals and fourteen branch clinics. The hospitals 
are in the following areas: Alaska, Hawaii, Okinawa, Guam, Japan, and 
Korea.

                Strategic Lift/Pre-Positioned Equipment

    Question. In the event of hostilities on the Korean peninsula, do 
you believe that adequate air and sealift capacity exists to ensure the 
rapid reinforcement of troops in theater? Do you have any deficiencies 
in terms of cargo handling equipment in the military port facilities on 
the peninsula or else where in theater?
    Answer. To be completely candid, I consider the available air and 
sealift capacity only adequate. To ensure rapid reinforcement of forces 
in Korea--or anywhere else, DoD must procure enough Large Medium-Speed 
Roll-On/Roll-Off Ships (LMSRs) to overcome the shortfall in sealift for 
vehicles. The most recent, fully integrated Time-Phased Force 
Deployment Data (TPFDD) for ------.
    As for cargo handling equipment, in Korea we are experiencing a 
Rough Terrain Container Handler (RTCH) shortfall. This limits our 
capability to download or transfer containers in the theater. The 
magnitude of the deficiency is not yet quantified; however, the 
container handling problem at the sea ports in Korea is currently being 
studied by FKJ4. The aerial port material handling equipment in Korea 
is being analyzed by Pacific Air Forces (PACAF).

                        Quality of Life--Housing

    Question. The Committee has added substantial amounts over the 
budget in the past two years to improve the quality of life for troops. 
In part, this funding has been added to improve the condition of 
barracks and related facilities. The Congress added $700 million in 
fiscal year 1996 and $600 million in FY 1997 for this purpose. The 
barracks housing unaccompanied troops in Korea have had perennial 
maintenance problems which have been addressed by the Congress on 
several occasions. Describe for the Committee the condition of the 
barracks and related housing and dining facilities in your command.
    Answer. Our largest housing requirement is for unaccompanied 
soldiers. Problems throughout Korea include shortages and over 
crowding; substandard buildings, such as Quonset huts and H-relocatable 
buildings; deteriorated older barracks with gang latrines; and 
substandard/non-existent officer and senior enlisted UPH (unaccompanied 
personnel housing. Survey results from a recent sexual harassment team 
visit pointed out that crowded housing conditions are the top problem 
and create an environment conducive to misconduct. We are addressing 
the barracks problems with an integrated program consisting of U.S. 
funded military construction (MILCON) and host nation funded 
construction (HNFC) to alleviate shortage and substandard conditions. 
Operations and maintenance funds are used to renovate existing 
buildings to current standards. Some service members must reside off 
the installations because of shortages. The Army alone spends 
approximately $18 million (M) per year to house over 800 unaccompanied 
officer and senior enlisted personnel off-post in Korea. Also, many 
must live on-post in substandard conditions due to military necessity. 
We are investigating alternate construction methods, such as pre-
fabricated housing, to develop an affordable solution. However, it is 
unlikely we will be able to correct this problem with operations and 
maintenance funding. Major construction funding is needed. Almost 70 
percent of our 50 dining facilities are over 20 years old. Only ten of 
these facilities have been renovated in the past nine years. We are 
using an approach similar to what we are using to solve the housing 
problem. The worst facilities are being replaced through U.S. funded 
MILCON and HNFC as funding permits.
    Question. Have any of the additional funds provided in the fiscal 
year 1997 Appropriations Act been directed to improve the facilities 
housing your troops?
    Answer. $10 million of the new Quality of Life Enhancements, 
Defense appropriation has been earmarked to improve our barracks in 
Korea, $8 million for the Army and $2 million for the Air Force.
    Question. What is the backlog of real property maintenance and 
repair work in your AOR? Is this increasing or decreasing?
    Answer. Our infrastructure, that is utility systems, are most 
effected by limited real property maintenance (RPM) funding. These 
systems have deteriorated to where they form the largest component of 
our backlog of maintenance and repair work. A recent Architect-Engineer 
study identified $659 million of requirements to repair or upgrade 
infrastructure on Eighth U.S. Army installations. We estimate our total 
infrastructure needs in U.S. Forces Korea to be $750 million. Our most 
serious problems resulted from past reductions in MILCON and operations 
and maintenance funding. Our unaccompanied housing and base 
infrastructure systems have suffered the worst from this lack of 
investment. Currently, we must rely exclusively on host nation funded 
construction to complete the majority of the infrastructure work. To 
support programmed major facility construction, such as new barracks, 
Eighth Army needs an additional $10 million in MILCON annually to 
rejuvenate deteriorated utility systems. Seventh Air Force requires an 
additional $5 million annually to solve similar problems. Otherwise, 
backlogs will continue to increase and catastrophic failures of utility 
systems will occur.

                             POW/MIA Status

    Question. Admiral Prueher, please describe the current status of 
efforts to resolve POW/MIA cases in Vietnam.
    Answer. There are 2127 Americans still unaccounted-for in Southeast 
Asia. Of this total 1588 were lost in Vietnam. Joint Task Force-Full 
Accounting (JTF-FA) is scheduled to conduct five Joint Field Activities 
(JFA) in Vietnam during Fiscal Year 1997. Our JTF-FA troops are doing a 
superb job. Each JFA lasts approximately 30 days during which JTF-FA 
deploys six recovery teams, two investigation teams, and one research 
and investigation team (over 100 U.S. personnel). JTF-FA completed five 
JFAs in Fiscal Year 1996. The Vietnamese Office for Seeking Missing 
Persons continues to provide good support to our operations.
    Question. How do you rate the Vietnamese at the present time in 
terms of their willingness to cooperate on this issue?
    Answer. The Socialist Republic of Vietnam (SRV) Government 
continues to cooperate on the POW/MIA effort and understands, I 
believe, that further cooperation is required to satisfactorily resolve 
the issue. Vietnamese support to Joint Field Activities remains good. 
Trilateral operations between the Vietnamese, Cambodians, and U.S. 
began in February 1997. Initial results are promising.
    Significant progress has been made on confirming the fates of 
individuals on the last known alive list. Of the original 196 
individuals, the fate of only 48 individuals is yet to be confirmed.
    The SRV Government is also continuing efforts to locate individuals 
with valuable first-hand information relating to cases of unaccounted-
for Americans. Vietnamese witnesses provided information which resulted 
in recovery of remains in Laos. The SRVE Government also recently 
turned over more than 150 documents, and permitted U.S. teams to review 
thousands of archival items in museums and other government offices. 
These documents and items provided a significant number of 
correlations. In response to unilateral case leads we provided to 
Vietnam between January and May 1996, the Vietnamese Office for Seeking 
Missing Persons has provided written reports on 73 case investigations.
    Question. How many cases have been resolved over the past year?
    Answer. In 1996, JTF-FA teams in Vietnam recovered and repatriated 
21 sets of remains to the Central Identification Laboratory Hawaii 
(CILHI) to process for identification. The Armed Forces Identification 
Review Board (AFIRB) in 1996 approved the identification of 15 sets of 
remains previously repatriated from Vietnam. Thus far in 1997, two sets 
of remains have been repatriated from Vietnam.

    [Clerk's note.--End of questions submitted by Mr. Young.]
                                          Thursday, April 17, 1997.

 TESTIMONY OF MEMBERS OF CONGRESS AND OTHER INTERESTED INDIVIDUALS AND 
                             ORGANIZATIONS

                              ----------                              


                   HMMWV AND OTHER TACTICAL VEHICLES

                                WITNESS

HON. TIM ROEMER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF INDIANA

                              Introduction

    Mr. Young. The Committee will come to order.
    This morning we are to hear testimony from Members of 
Congress and from witnesses outside the Congress. This is the 
last scheduled hearing for fiscal year 1998, although there 
will be a number of other special hearings on some subjects 
that we have to revisit. But we have completed the rest of the 
scheduled hearings.
    We have had testimony from the new Secretary of Defense, 
the chairman of each branch of the Joint Chiefs of Staff, the 
war-fighting CINCs, and many other DOD officials, and now we 
want to hear from you today. Your input is always very, very 
helpful to the members of this Committee.
    Many of you here today have testified before. For those 
here for the first time, let me explain something about our 
process. Each of your prepared statements will appear in the 
published hearing volume, and we ask you to summarize your 
actual testimony in 5 minutes. This is consistent with how the 
Committee operates under the 5-minute rule. The members of the 
Subcommittee only have 5 minutes during the hearing process for 
their questions of witnesses.
    Unfortunately, many of our members are not here this 
morning and will not be here because the other subcommittees 
are marking up their titles of the supplemental appropriations, 
and they are trying to finalize that today. We finished our 
part of it yesterday. All of our members serve on other 
Subcommittees as well.
    Our first witness this morning is Congressman Tim Roemer of 
South Bend, Indiana. Congressman Roemer serves on the Committee 
on Education and the Workforce and the Committee on Science. He 
is the expert in the Congress on the HMMWV, the principal means 
of land transportation for our troops.
    Last year, the HMMWV was not adequately funded and we were 
able to add $66 million to the budget to provide for unfunded 
requirements. It is one of the nonsexy but essential tools for 
our troops that we put on our scroll that identifies items like 
this that stretches across the room that identify shortages of 
equipment and supplies that are necessary to make the military 
work. We appreciate your input as it comes to the essential 
subject of HMMWVs, trucks, and the ability to move from one 
place to another.
    We are happy to hear from you at this time, Congressman. 
You have the floor.

                    Statement of Congressman Roemer

    Mr. Roemer. Thank you, Mr. Chairman.
    Let me start by just asking unanimous consent that my 
entire statement be entered into the record.
    Mr. Young. Without objection, that will be done.
    Mr. Roemer. Thank you. Thank you. Thank you for your help 
in the past.
    You mentioned your help to the HMMWV program last year. I 
really appreciate that. I appreciate Mr. Bonilla's attendance 
here initially and appreciate the help the entire Subcommittee 
and Full Committee and their attention to four different 
requests that I am going to make this morning.
    One is going to be I am requesting a total appropriation of 
$156.2 million in the Army procurement funding for the HMMWV. I 
am also requesting $65 million in Marine Corps funding 
procurement funds for the HMMWV Extended Service program--ESP 
program; $40 million in Army procurement for the 2.5 ton truck 
ESP; and finally, Mr. Chairman, a fiscal year 1999 issue, it 
does not include a funding request on the Vandal program, which 
I will explain a little bit about.
    Mr. Chairman, you said it eloquently and you said it 
articulately in your opening statement. I am here for the 
heart, the soul, and the guts of the Army programs. That is the 
best built Jeep in the entire world, the 2.5 ton truck, the 
kinds of equipment that keeps our young men and women safe when 
we put them in harm's way, whether it be in the Persian Gulf or 
whether it has to be in two different instances fighting, 
whether that be in the Middle East or in the Korean Peninsula 
some day in the future.
    Let me tell you a quick story about the HMMWV. When we had 
to invade, looking for General Noriega in Panama, they dropped 
HMMWV out of the sky. One of them came out of the sky and the 
parachute half opened and landed off target, which is unusual, 
upside down in a swamp. It was a HMMWV. They turned it over, 
they started it up, and it went and helped capture Noriega.
    In Bosnia, in the peacekeeping mission just recently, an 
armored HMMWV struck an antitank mine. It is not supposed to 
protect in all instances the personnel in that kind of 
situation. The three men in that HMMWV walked away unharmed.
    This vehicle works, it is the best in the world, and we 
need them to protect our troops. It also has all kinds of 
capabilities, fire truck capabilities, Avenger capabilities, 
all kinds of things that this can do for a very versatile 
mission.
    I really implore this Committee to continue to invest in 
this Jeep.
    Secondly, on the $40 million Army procurement for 2.5 ton 
trucks, we take a 25-year-old truck and we make it brand new, 
and we make it work better than it did the first time. Often 
times these trucks, which are older than the people driving 
them, come off the assembly line, they work better with central 
inflation on the air tire system, they have a 30 percent better 
engine for fuel efficiency, they have better equipment in them. 
These things run in a great manner to protect our troops and to 
feed and clothe and do everything for our troops on the line to 
get armor to them.
    This is not, again, a section I investment, it is a much-
needed investment, quite frankly, one that sometimes the Army 
does not do a very good job in lobbying for. It doesn't make 
for the same kind of section I thing as a roll out of the F-22, 
but these 25-year-old trucks are much needed for our personnel.
    Finally, Mr. Chairman, on the Vandal program, let me just 
say that there are a couple different issues on this program 
which I hope that you and your staff will look into. The Vandal 
program tests ship defense shipments against high-speed, low 
altitude ship missiles and is made by allied signal target 
systems.
    The Navy has always expressed satisfaction with the 
performance of the U.S. contractor on the target missile and 
not made clear why they are turning their backs on a U.S.-made 
system in favor of a Russian-made MA-31.
    I would hope that the Committee, first, is willing to ask 
the Navy if they are willing to lose its only U.S. supplier of 
supersonic sea skimming missiles, and, second, is all of the 
risk associated with purchasing a Russian target fully 
understood from both the technical and commercial standpoint?
    I have four or five other questions that I hope the 
Committee looks into.
    Let me just sum up by saying, Mr. Chairman, and joined by 
Mr. Hefner, the distinguished gentleman from North Carolina, 
thank you again for your support for these much-needed, heart, 
soul and guts types of items for our Army and our young people. 
Thank you for sending your staff out to the G.M. General plant 
last year. We very much look forward to cooperating with your 
Committee and answering your questions as you look into these 
requests.
    Mr. Young. Congressman, thank you very much. We appreciate 
the sincerity of your testimony.
    I wanted to tell you that I have ridden in a lot of 
different versions of the HMMWV, and it is impressive. The 
seats are not all that comfortable. We might get a little 
softer seat.
    Mr. Roemer. For you, Mr. Chairman, we probably have got 
one. They have got the private model now that Arnold 
Schwarzenegger has a copy of, he calls it the ``Terminator.'' 
They are selling those with CD players and air conditioners. I 
am sure that has a comfortable seat in it.
    Mr. Young. I saw Arnold's. It is pretty fancy.
    One of the rides I took was on the obstacle course where 
they train the soldiers, and I think a good portion of the 
time, we were on one wheel. This thing operates in the most 
unusual types of terrain. It is unbelievable. You are exactly 
right.
    Mr. Hefner, do you have any questions?
    Mr. Hefner. Thank you, Mr. Chairman.
    I think where you use to test them is on the roads in 
Indiana. Isn't that the obstacle course?
    Mr. Roemer. Our potholes aren't that bad, Mr. Hefner.
    Mr. Hefner. Just a little aside here, when our good friend 
Silvio Conte, who has long since passed, was here, we were 
having a debate about HMMWVs a long, long time ago, and Silvio 
was one of the big supporters of the HMMWV. He said, you know, 
it is one of the greatest pieces of equipment we have ever 
produced, and he said, besides that, it is one of the greatest 
hunting vehicles in the whole world. So I guess you have to 
have your priorities.
    We appreciate your testimony and coming before the 
Committee.
    Mr. Roemer. Thank you, Mr. Hefner. It is a very versatile 
program. As I said in my statement, we are now using it not 
only to protect troops, we have an up-armored version, we have 
an Avenger version, we have a version we hope to be able to 
sell to the Immigration and Naturalization Service to help 
patrol our borders, to the U.N. to help peacekeeping missions. 
This is a great investment for the American people.
    Mr. Young. Tim, thank you very much for coming. We 
appreciate your testimony.
    [The statement of Mr. Roemer follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 17, 1997.

                        TELEMEDICINE TECHNOLOGY


                                WITNESS

HON. CHARLIE NORWOOD, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    GEORGIA

                              Introduction

    Mr. Young. Next, we are going to hear from another of our 
colleagues, Congressman Charles Norwood, from Evans, Georgia. 
He serves on the Committee on Education and the Workforce and 
also the Commerce Committee. He knows something about the 
military, having served as a captain in the Army, including a 
tour in Vietnam.
    Congressman, please proceed.

                    Statement of Congressman Norwood

    Mr. Norwood. Thank you, Mr. Chairman. Thanks for having 
this hearing and thanks for giving us this opportunity to 
testify before your Subcommittee this morning on appropriations 
for telemedicine and teledentistry in the defense appropriation 
bill for fiscal year 1998.
    Telemedicine has existed in some form for nearly 40 years. 
Initially, the expansion of telemedicine was constrained by 
cost and technology limitations. However, recent advances in 
fiber-optics, satellite communications, and other technologies 
have enabled a renewed interest in telemedicine by the private 
and public sectors.
    Telemedicine is a communication system that connects 
primary care physicians, specialists, health care providers, 
and patients. It is the use of cutting edge communication 
technology to provide increased diagnostic and consultation 
services for patients.
    Telemedicine allows health care providers to take advantage 
of the best specialists to ensure appropriateness of care for 
their patient. It enables patients without transportation to 
access to consultation services that they need to ensure that 
we give them quality care. In rural sections of the United 
States, the application of this technology provides patients 
specialty consultations at metropolitan medical centers, 
university-based clinics, and community hospitals.
    The Department of Defense continues to develop applications 
for telemedicine. Your Subcommittee has heard the Surgeons 
General of the military services testify regarding the 
effectiveness of telemedicine at battalion aid stations in 
Bosnia and on board ships.
    I might mention here that this past Christmas I was in 
Bosnia and had the great pleasure of reading x-rays back from 
Fort Gordon, Georgia, that is now an Army hospital.
    A February 1997 United States General Accounting Office 
report stated that the Department of Defense has been 
instrumental in developing telemedicine technologies to deliver 
medical care to the battlefield or in operations other than 
war. Rapid prototyping demonstrations of telemedicine have also 
supported military operations in Somalia, Macedonia, and Haiti.
    In December 1996, as I mentioned, I traveled to Bosnia and 
Hungary where I witnessed deployed telemedicine among our 
forces. It is apparent to me that telecommunication links 
between field medical sites and specialists at military 
hospitals and aboard naval vessels ensure quality medical 
support for our service members. The rigorous testing of 
telemedicine under these extreme conditions validates this 
technology for civilian application.
    In 1994, the Secretary of Army established the Center for 
Total Access at Fort Gordon, Georgia, as a major initiative of 
the Department of Defense telemedicine test-bed. Its location 
at Fort Gordon facilitates efforts between U.S. Army Signal 
Center and School and Eisenhower Army Medical Center, the 
Medical College of Georgia, and Veteran's Affairs Medical 
Center in Augusta. The Center for Total Access spent the last 2 
years developing a strategic plan for the implementation of 
telemedicine in the Army's Southeast Regional Medical Command 
and the Department of Defense TRICARE Region 3, which you are 
very familiar with.
    There are 23 military treatment facilities and 1.1 million 
beneficiaries in the region served by the Center for Total 
Access. Specific clinical needs at each site have been 
identified in which telemedicine will provide a real benefit in 
the delivery of health care in our region.
    The Center for Total Access seeks to establish a regional 
communication network interconnecting with these treatment 
facilities, VA hospitals, university-based hospitals and 
clinics, and community medical treatment facilities in rural 
areas. The appropriate equipment provided to each clinical 
service will enable the direct consultation between health care 
providers, irrespective of their distance.
    Additionally, in May of 1996, the Department of Defense 
designated Fort Gordon as a theater medical informatics program 
test-bed. The primary purpose of this tri-service test-bed is 
to improve patient visibility, minimize evacuations, respond to 
trauma, leverage specialty care, and improve command and 
control situational awareness.
    Funds appropriated for DOD telemedicine projects directly 
enhance the capabilities of battlefield medicine and civilian 
health care. It is anticipated that operating costs for the 
Center for Total Access in fiscal year 1998 will be $5.4 
million in Army operations and maintenance funding. This is 
essential to allow the center to sustain existing systems and 
continue telemedicine initiatives to its fullest extent 
possible. Out year funding requirements is approximately $1 
million per year.
    I believe this investment in military telemedicine 
infrastructure and different initiatives will enhance the 
battlefield medicine capabilities of our armed forces. 
Telemedicine technologies validated in austere military 
environment will improve health care in rural America by 
ensuring patient access to diagnosis and different medical 
services.
    Mr. Chairman, I thank you and the members of your 
Subcommittee for this opportunity, and I will be very up front 
with you. I have a very large bias concerning this subject. I 
served in a MASH unit in Vietnam where we had four physicians 
and where we had two dentists, and frequently our numbers of 
casualties were a great deal more than we could handle. We were 
young, we were enthusiastic, which meant we may have not had 
all the experience in the world. And I can envision in my mind 
so clearly how valuable this would be to our troops in time of 
war. I can envision telemedicine packs on the backs of spec 5 
medics out in the field that bring to the patient on the ground 
in a firefight the needed information to save a life.
    Besides the great value I see of it in our armed forces, we 
know firsthand in Georgia how valuable it is because our State 
I think leads the way in this area in rural areas where we are 
connected up--the Medical College of Georgia is connected up 
with health clinics in almost all of our rural areas, and I go 
by constantly these clinics and see the value of this system. 
We hope you will look favorably upon our request.
    Mr. Young. Congressman, thank you very much for your very 
specific testimony. I think the members of this Subcommittee 
have established a very good record in recognizing the needs 
that you have identified, and we have, much to the chagrin of 
some of those across the river, added considerable funds on 
occasion to upgrade our medical capabilities for those in 
uniform.
    Mr. Norwood. Yes, sir, I know that, and thank you.
    Mr. Hefner. No questions.
    Mr. Young. Thank you very much again. We appreciate your 
being here.
    [The statement of Mr. Norwood follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 17, 1997.

                   ROCHESTER INSTITUTE OF TECHNOLOGY


                               WITNESSES

HON. LOUISE SLAUGHTER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW YORK
JUDITH GUSTINIS, DIRECTOR, CENTER FOR INTEGRATED MANUFACTURING STUDIES, 
    ROCHESTER INSTITUTE OF TECHNOLOGY

                              Introduction

    Mr. Young. Now I would like to introduce Representative 
Louise Slaughter from Fairport, New York, and I understand she 
is here to introduce another of our witnesses.
    Congresswoman Slaughter is a member of the Rules Committee, 
which is an extremely important Committee here in the Congress 
which is probably an understatement of the importance of that 
committee. We are happy to have you here this morning to 
introduce your guests.

                  Statement of Congresswoman Slaughter

    Ms. Slaughter. Thank you, sir. We are a little bit inclined 
to overstate it on the Rules Committee as well.
    Mr. Chairman, thank you very much for your time. 
Congressman Hefner, it is wonderful to see you this morning. I 
thank you both for giving me the opportunity to introduce to 
the Subcommittee Judith Gustinis, who is the Director of the 
Center of Integrated Manufacturing Studies at the Rochester 
Institute of Technology.
    Mr. Chairman, I am proud to say that the Rochester 
Institute of Technology is one of the Nation's greatest 
institutions of higher learning. It is the home of the national 
and internationally recognized programs in imaging, 
photography, software engineering, microelectronics 
engineering, packaging science, printing technology, and 
environmental management, and is also the home of the National 
Technical Institute for the Defense.
    Mr. Chairman, one of its great contributions to Rochester 
and the Nation is its effort to keep U.S. manufacturing 
industries with their viability and their competitiveness. 
Rochester and the Upstate New York area have the greatest 
concentration of manufacturers in the country. Assisting the 
companies is the main mission of our Center for Integrated 
Manufacturing Studies, or CIMS, as it is called.
    The CIMS center is designed to be a much-needed bridge 
between industry and academia. It allows small, medium, and 
even large manufacturing companies to work with the RIT 
researchers and students in finding the solutions to pressing 
manufacturing problems using the latest technological 
innovations.
    Judith Gustinis is the Director of the CIMS program and has 
an impressive program in industry, government, and academia. 
She has an MBA from Fairleigh Dickinson University and worked 
as a manufacturing executive for the Westinghouse and Pitney 
Bowes Companies. Prior to taking over the leadership of the 
CIMS program, Ms. Gustinis was head of the very successful New 
York State Manufacturing Extension Partnership. Supported by a 
multidisciplinary group from the RIT's Colleges of Engineering 
and Applied Science, Technology, Business and Imaging, along 
with its major industry partners such as Kodak, Xerox and IBM, 
and many small and medium-sized manufacturers, Ms. Gustinis' 
program in support of U.S. manufacturing is unique in the 
Nation and a major innovation.
    Mr. Chairman, Ms. Gustinis is here today to ask the 
Subcommittee to support a proposal to ask the Department of 
Defense to join CIMS as a supporting partner in a new and 
exciting research program that directly supports the 
department's own manufacturing technology research mission, the 
creation of a National Center for Remanufacturing at RIT CIMS 
center.
    The Nation's manufacturers, learning the process of 
remanufacturing, is an important way for us to regain 
competitiveness by increasing profitability and reducing waste. 
RIT's remanufacturing research program is currently training 
engineers to design products and systems so that they can be 
returned to the manufacturer, easily disassembled and 
remanufactured in a like-new condition, thereby dramatically 
reducing manufacturing and product unit costs.
    Mr. Chairman, DOD's MANTECH program exists to help defense 
contractors, large and small, improve their manufacturing 
processes in order to make their products more affordable. The 
program has established a number of Centers of Excellence in 
important manufacturing technology areas. RIT believes that its 
manufacturing research program can and should become a MANTECH 
Center of Excellence. Financial support provided by MANTECH 
will allow RIT's program to expand and become a model for the 
Nation.
    I hope that after you hear from Ms. Gustinis and review the 
proposal for a National Center for Remanufacturing that the 
Subcommittee will include funding for the initiative in the 
fiscal year 1998 national security appropriations bill.
    I would like to introduce Ms. Gustinis and give you my 
thanks, Mr. Chairman.
    Mr. Young. Thank you very much. We are happy to have Ms. 
Gustinis here this morning. Your entire statement will be 
placed in the record. We would ask that you summarize it now.

                       Statement of Ms. Gustinis

    Ms. Gustinis. Thank you very much, Mr. Chairman.
    Let me begin by thanking Congresswoman Slaughter for her 
very kind introduction, and also her tireless efforts on behalf 
of the Rochester Institute of Technology and the Center for 
Integrated Manufacturing Studies. Seated with me today is Dr. 
Nabeel Nasser, an expert on remanufacturing and a professor 
from the RIT College of Engineering. He works with us in the 
CIMS center.
    Mr. Chairman, I am the director of the very unique 
integrated manufacturing center which does work with companies 
on issues of affordability and manufacturing competitiveness 
for the U.S. The Department of Defense does have a very 
comprehensive program known as MANTECH which focuses on many of 
the issues that we as well focus on within the Center for 
Integrated Manufacturing Studies.
    We work with hundreds of manufacturers to help them improve 
their processes so that they can get their time to market down 
and improve their costs. This is where the concept of 
remanufacturing really arose and why we have been so involved 
in it over the past years.
    Remanufacturing is indeed a process, which Congressman Tim 
Roemer was talking about earlier, whereby material comes back 
from the field, it is disassembled, it is cleaned, it is 
inspected, it is reworked, replaced, reassembled and tested and 
out again into service.
    The result of this process is twofold: Much is learned 
about real wear and design, the effective design, that can go 
back into the design process. Second of all, the remanufactured 
product, as Congressman Roemer mentioned, is often better than 
when new, yet the total cost can be 30 to 50 percent lower. The 
reason it is lower is that as much as 85 percent of the 
original cost is recaptured in the process, rather than with 
recycling, where often it is returned to a raw material state 
and the energy and labor are lost. In remanufacturing they are 
captured.
    Remanufacture has been around for many years and some of 
the major companies in the United States, Detroit Diesel, 
Xerox, and Kodak being others, have learned if you apply more 
scientific process to the process of remover, you cut cost, 
time, and become highly competitive.
    The Eastman Kodak Company recently announced the 
remanufacture of the 100 millionth Fun-Saver Camera, for 
example. This, in fact, was designed to be remanufactured, and 
as a result, over 1,400 pounds of material is back in the 
product as opposed to being in waste, which is what allows it 
to be so competitive.
    Affordability is the key issue and it spans military 
systems and sustainability issues as well. As a result, there 
is a current dramatic increase of remanufacturing in the 
military. The defense contractors are the largest group of 
remanufacturers in the world. A few examples, the Bradley 
fighting vehicle, approximately 1,600 existing A-2s will be 
remanded to A-3s. In the Army, the medium tactical vehicle, 
this 5-ton truck, 8,000 of those are going to be 
remanufactured. In the Marine Corps, the AV-8B Harrier is in 
the process of remanufacture. In the Navy, the HH-60H and the 
SH-60CV helicopters are in a continuous process of 
remanufacturing.
    Our research indicates that there is no major mandate by 
the Congress or within the MANTECH program to take a scientific 
research look at this process of remanufacturing. Yet more 
scientific and technical approaches to this area will produce 
improvements in quality, in availability, and, most of all, 
affordability of weapons and other military systems.
    Mr. Chairman, we at the Rochester Institute of Technology 
at the Center for Integrated Manufacturing Studies would like 
to propose consideration of our center as a MANTECH Center of 
Excellence to focus on research in the area of remanufacture. 
At this center, we will execute a 5-year partnership with the 
Department of Defense and with defense contractors and industry 
that we work with today to provide scientific and technical 
leadership in this area. We will deliver research, training, 
tools, technical project work, that will advance design and 
remanufacture and affordability for defense-related 
requirements.
    For this program, we are requesting $4 million for fiscal 
year 1998, and this would cover start-up and first year program 
costs. Thank you for considering our request, Mr. Chairman. Dr. 
Nasser and I would be happy to answer any questions.
    Mr. Young. I thank you very much for your excellent 
testimony.
    As you know, this Committee has been very supportive of the 
remanufacturing and MANTECH, and we appreciate your being here 
today.
    Louise, thank you for bringing her.
    Any questions?
    Mr. Hefner. Just one question. Is there anyone else that is 
in this process? Are you standing alone? I know not in 
remanufacturing, but in what you are asking for here?
    Ms. Gustinis. To the best of our knowledge, there are some 
institutes of higher education looking at policy issues in 
remanufacturing, and to some extent at one piece of the 
remanufacturing process, known as disassembly. But no program 
of the comprehensive nature that we are aware of that we have 
at RIT.
    Mr. Hefner. You are kind of pioneering this?
    Ms. Gustinis. Yes, we are, sir.
    Mr. Young. Thank you again. We appreciate your being here 
and appreciate your testimony.
    Ms. Slaughter. Thank you very much.
    [The statement of Ms. Slaughter follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 17, 1997.

                       FORT MONMOUTH, NEW JERSEY


                                WITNESS

HON. MICHAEL PAPPAS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    JERSEY

                              Introduction

    Mr. Young. Next we will hear from Congressman Michael 
Pappas, from Rocky Hill, New Jersey. Congressman Pappas serves 
on the Government Reform and Oversight Committee, the Small 
Business Committee, and the National Security Committee.
    Congressman Pappas, welcome. We will be happy to hear from 
you. Your entire statement will be placed in the record, and 
please feel free to summarize it.

                    Statement of Congressman Pappas

    Mr. Pappas. Thank you very much, Mr. Chairman, members of 
the Committee. Congressman Pallone and I had planned to be here 
together and to jointly make several requests, and I expect 
that he should be here shortly. But my schedule precludes me 
from waiting any longer from this, so I appreciate you taking 
me out of order.
    I am a freshman and fortunate to serve as a member of the 
National Security Committee. Several weeks ago we had jointly 
attended a meeting of the Military Construction Subcommittee, 
and Mr. Hefner was there, so he probably is going to hear from 
me a second time. But two facilities that are mostly in my 
district, but the employees and the businesses associated with 
these two facilities, they being Fort Monmouth and Earle Naval 
Weapons Station, straddle our districts, and many of the people 
concerned with the future of those facilities are constituents 
of mine and Mr. Pallone's.
    Three of the four things I am going to speak about deal 
with Fort Monmouth, and one deals with Earle.
    Fort Monmouth is the main base of CECOM, and I am sure you 
are somewhat familiar with that. There is a request in the 
order of $27 million for infrastructure improvements for that. 
We believe that it is important that that get very serious 
consideration, because more and more--as communications become 
more and more important to not just our society, but in 
particular our national defense systems, having facilities such 
as that that have the tools that they need, I think is 
critically important.
    There is also a $300,000 request for walkway improvements, 
physical improvements, to connect some of the buildings that 
are very, very close. Several of these buildings have already 
been connected, and this would, we believe, assist the staff 
there in being much more efficient.
    Lastly, there is a request for $12 million for Fort 
Monmouth. There is a relationship which has been developed with 
Monmouth University which, from their perspective, they would 
be bringing to the table approximately $8 million in private 
funds for software engineering projects, and we believe that 
deserves consideration.
    Lastly, with regard to Earle, there are piers that are 
World War II vintage. Later this year there are to be two new 
ships that will be berthed there, and we believe to the tune of 
about $500,000 that there would be necessary improvements to 
electrical systems that are needed to adequately service that 
facility.
    I would appreciate it if I could include my entire written 
statement for the record.
    Mr. Young. Congressman, your entire statement will be 
included for the record.
    We appreciate your calling these items to our attention. 
Some of them we are familiar with from last year and the year 
before; some of them we tried to work out and were not able to. 
We will do the best we can to support your efforts. We 
appreciate your being here.
    [The statement of Mr. Pappas follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 17, 1997.

                       FORT MONMOUTH, NEW JERSEY


                                WITNESS

HON. FRANK PALLONE, JR., A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW JERSEY

                              Introduction

    Mr. Young. Our next witness is Congressman Frank Pallone of 
Long Branch, New Jersey. Congressman Pallone has testified 
before the Committee before. We are glad to have you back again 
this year.
    Last year, you presented a very persuasive argument to 
cover some of the walkways that Congressman Pappas just 
mentioned between the buildings at Fort Monmouth. This is the 
type of project that would normally be funded in the military 
construction bill. We tried to figure out a way to fund it in 
our bill since it was relatively small, but we were just not 
able to do that.
    So we are happy to hear from you again this year and hope 
we can do a better job for you. We understand there are many, 
many requirements out there we are not able to fund. We do the 
very best we can.
    Welcome again. Your entire statement will be placed in the 
record, and we would ask you to summarize in about 5 minutes.

                    Statement of Congressman Pallone

    Mr. Pallone. Thank you, Mr. Chairman. Good to see you and 
my Democratic colleagues.
    Since you have already said you are going to try to do 
this, maybe I just should leave.
    Mr. Young. I think we told you that last year, too.
    Mr. Pallone. I am assuming that my colleague from New 
Jersey Mr. Pappas probably went through some of the same 
things. I am just submitting my statement for the record.
    If I could just briefly summarize, basically our requests 
are with regard to Fort Monmouth and also Naval Weapons Station 
Earle. Both of these happen to basically bridge our 
congressional districts. Part of Fort Monmouth and Earle Naval 
Station are in my district and Mr. Pappas's district.
    With regard to Fort Monmouth, there are three projects. One 
is a $27 million telecommunications modernization plan. Fort 
Monmouth is the CECOM headquarters, Communications and 
Electronics Command for the Army. Much of their 
telecommunications and computer infrastructure were installed 
between the 1950s and 1970s and, therefore, is out of date. 
Basically this upgrading program is to bring them up to the 
present day.
    It is important because Fort Monmouth, pursuant to the Base 
Realignment and Closure--BRAC, was made to consolidate to the 
main post. In other words, we didn't lose anything, we actually 
gained jobs during the BRAC, but we took on additional 
functions with regard to communications and electronics. So we 
need to upgrade that basic infrastructure at Fort Monmouth, and 
that is our first request.
    The second one, of course, are the walkways that were 
already mentioned. I actually have been there during the winter 
and seen the situation. It may seem like what do they need 
walkways for, but it is very disruptive. Essentially what 
happened is all the people that work in the command in CECOM 
used to be about 2 miles away at a central building. Now they 
are in buildings that were refurbished that used to be 
barracks. So basically they are walking between these 
modernized barracks, and it is very difficult if the weather is 
severe. It has an impact on their job.
    The third thing is a request for $12 million for the 
development of an information resource center to be managed 
jointly by Fort Monmouth and nearby Monmouth University. A few 
years ago when Congressman Dwyer, one of my predecessors, was 
on the Appropriations Committee, he actually received funding 
through DOD to build a center for technological development and 
transfer at Monmouth University that also dovetailed with Fort 
Monmouth. This IRC concept is basically a continuation of that.
    Monmouth University is basically the university that trains 
people that work in the R&D functions at Fort Monmouth. So in 
the same way that the fort has a need to upgrade its 
infrastructure, the university has a need to develop and 
provide new computers and new centers for electronics and 
information and the new Information Age in order to train 
people to work at the fort.
    So that is basically what this IRC concept is. It is in the 
testimony, but it would basically provide video 
teleconferencing, library archives, educational video, 
recording capabilities, learning facilities, an essential link 
between the university's research and that of Fort Monmouth.
    I also wanted to mention Naval Weapons Station Earle again 
very briefly. We are also fortunate there in, again, we are 
taking on more responsibilities. There are two new AOE class 
ships now stationed in Norfolk, Virginia--I don't see the 
Virginia people here, so I guess I am okay in talking about 
this--that are going to be reassigned to Naval Weapons Station 
Earle. One is actually going to be moving there this year, and 
the other next year. As a result of these ships coming, as well 
as others that are anticipated beyond that, there need to be 
structural upgrades to Earle's pier complex.
    There are really three projects there. Two of them fall 
under military construction. The third, for $500,000, is to 
refurbish the pier's power distribution center. That falls 
within the DOD's Operation and Maintenance--O&M account.
    So, again, I don't know that I need to go into the details 
of that, but that is another thing we need in order to 
accommodate these new ships coming into Earle.
    I just wanted to make a couple of other comments. Later 
today I understand you are going to be getting proposals from 
the University of Medicine and Dentistry of New Jersey. One is 
with regard to construction of an international center for 
public health, and secondly is a proposal to do a series of 
studies. I think that Senator Torricelli is a sponsor of this 
in the Senate, and Senator Lautenberg has been helpful as well.
    They are trying--New Jersey has one of the highest rates, I 
think the highest rate, for breast cancer in the country. At 
the same time, we have the most Superfund toxic waste sites. 
Over the years and over the last 10 or 20 years, there has been 
a lot of evidence there is a link between the two. Essentially 
what we are trying to do is to get a research grant together 
with the University of Medicine And Dentistry and our Cancer 
Institute of New Jersey and the National Institute of 
Environmental Health Sciences to do a study on the link between 
those two.
    Again, I am not sure why that is here before your 
Subcommittee, but it is my understanding that they are going to 
be testifying later today on that proposal. I endorse both of 
those proposals. I think they are very important for our State 
and ultimately for the country as well.
    Thank you.
    Mr. Young. Thank you for being here. We will do the very 
best we can to work with you on these important issues that are 
important to you and the national security agencies.
    Thank you again for being here.
                              ----------                              

                                          Thursday, April 17, 1997.

              AMERICAN FEDERATION OF GOVERNMENT EMPLOYEES


                               WITNESSES

ELOY SIFUENTES, RECORDING SECRETARY, AMERICAN FEDERATION OF GOVERNMENT 
    EMPLOYEES
MARIO VILLARREAL, AMERICAN FEDERATION OF GOVERNMENT EMPLOYEES

                              Introduction

    Mr. Young. Now I would like to recognize Congressman Henry 
Bonilla, who is a very important Member of this Committee. 
Congressman Bonilla will be introducing two representatives of 
the AFGE from Laughlin Air Force Base. We will be more than 
happy to hear from them.
    Congressman, you have the Floor.

                    Statement of Congressman Bonilla

    Mr. Bonilla. Thank you, Mr. Chairman. I am delighted to 
have my constituents here today from Del Rio, Texas. They who 
have had a fine record of performance, an outstanding record of 
performance for their work over the years at Laughlin Air Force 
base on engine repair work.
    Many of us are troubled about the contract that has been 
awarded, the A-76 award for jet engine repair that went to a 
private contractor, not because it is a private contractor, but 
because it involves a surcharge that created an unfair 
opportunity for the contractor to win this bid. We have been 
fighting on this issue, and, for the record, I have been 
supportive of a more reasonable surcharge of 4 percent. I know 
that the members of the Local 1749, American Federation of 
Government Employees, feel very strongly about that as well. 
This affects their lives directly and their families and 
future. And I am delighted that you have an opportunity today 
to tell us your story, Mr. Eloy Sifuentes and Mario Villarreal. 
They are accompanied in the audience by Mr. Alfredo Garcia and 
Hector Guadalarama.
    At this time, gentleman, we would be pleased to hear your 
testimony.

                       Statement of Mr. Sifuentes

    Mr. Sifuentes. Thank you, Congressman. Like you heard from 
the Congressman, we are from AFGE Local 1749 at Laughlin Air 
Force Base, Del Rio, Texas. We represent over 900 government 
employees.
    I appear before this Committee to ask your assistance in 
reforming one aspect of the OMB A-76 competitive process. 
Specifically I want to address the application of a 12 percent 
factor against in-house personnel costs and how the in-house 
bid is put at a disadvantage by this 12 percent factor.
    I would like to make it clear that our local wholeheartedly 
supports the purpose and intent of the A-76 process. We believe 
that the A-76 process, its imperfections notwithstanding, 
provides a needed procedural framework which ensures through 
public-private competition that taxpayers and the Armed Forces 
get the most effectiveness, efficiency and reliability for the 
tax dollar invested.
    We support the stated goals of the circular and its 
supplements, which are to balance; provide a level playing 
field between the private and public sectors in the bid 
process; encourage competition and choice in the management and 
performance of commercial activities. However, you will see in 
my testimony the 12 percent direct cost difference applied to 
the in-house bid does not contribute in any way to these goals.
    Let me illustrate this point through our experience with 
the process at Laughlin Air Force Base. In December of 1994, 
the command announced its intent to examine jet engine 
maintenance at Laughlin Air Force Base. Both in-house and 
contractor costs were submitted. The most competitive 
contractor bid was $31.4 million. $32.3 million is the 
management in-house bid. It is our contention the in-house bid 
was made uncompetitive because the government is required by 
the Supplement to apply an arbitrary 12 percent surtax, a cost 
factor applied against the personnel's cost.
    It is our contention, based on our discussion with 
Laughlin's management and the facts they provided us, that the 
12 percent factor is too high. The facts gathered and confirmed 
by our management would indicate there is no cost associated 
with general and administrative support from internal or 
external activities in the case of Laughlin jet engine 
maintenance function which was competed for under A-76. The 
bottom line, Mr. Chairman, is that our general and 
administrative costs should have been zero, not 12 percent of 
the total personnel costs as is required by the new Supplement, 
a difference of $1.7 million.
    Mr. Chairman, if all costs had been correctly calculated, 
the most competitive bidder, the Federal employees at Laughlin, 
would have won, and the national defense and taxpayer would 
have gotten the savings we would have provided. Because of the 
12 percent factor rather than the factual data being applied, 
the best and cheapest competitor did not win. Consequently, 50 
Civil Service jobs were lost, and an additional 150 will be 
impacted over the life of the contract.
    We are not opposed to competition, but we oppose the 
application of a standard 12 percent penalty in this case, 
which denies us the opportunity to be competitive and provide 
the A-76 competitive analysis accurate data. It is our 
contention that the application of a static, across-the-board 
percentage fails to achieve cost estimate accuracy or lessen 
the controversy surrounding the definition, calculation and 
inclusion of overhead costs. The straight-line percentage 
concept is too rigid, would be too inaccurate and lead to 
overcharges to the government.
    This approach fails to take into account the different 
commercial activities that may be justified in costing 
different overhead considerations. Certainly it is not 
appropriate when performance of the function requires extensive 
equipment and space.
    Agencies, with the participation of labor, should define 
what is acceptable overhead cost and how it should be 
calculated. The agency as well as the in-house and private-
sector bidders should be held accountable for proper 
calculation of the fully allocated costs, and they should be 
forced to live with the consequences of the calculation. This 
would be in contrast with the current policy which requires the 
taxpayer to pay for a bailout every time there is a cost 
overrun.
    Mr. Chairman, we request you sponsor a General Accounting 
Office--GAO study, using the Laughlin jet engine competition as 
an example, which examines the justification for using a 
straight-line cost factor as opposed to itemized accounting as 
was required by past editions of A-76's Supplement. If the 
resulting reports support the facts as presented in my 
testimony, then I would ask your Committee to assist us in 
revising the Supplement to A-76 so that it would more 
accurately reflect general and administrative costs.
    Mr. Chairman, this concludes my testimony. Thank you for 
allowing me to present this important issue before the 
Committee. I stand ready to answer any questions on this 
matter.
    Mr. Young. I thank you very much.
    Did you have a statement also?
    Mr. Villarreal. I am here to support him. No, sir.
    Mr. Young. I wanted to tell you you are represented here by 
a very capable and very effective Member. He has kept the 
Members of the Committee fairly well advised on this issue. We 
will consider that as we proceed.
    Mr. Bonilla. Mr. Chairman, would you yield for one 
question?
    Gentlemen, one of the most important agencies that could 
hear your testimony is the Office of Management and Budget--
OMB. I am wondering if there is anyone from OMB here in the 
room today?
    It is unfortunate. We will make sure they receive your 
testimony, because when decisions like this are made, it is 
important to hear how people are actually affected; rather than 
just looking at numbers on a page of percentages, the way it 
affects you directly is very important.
    If I could ask just briefly, tell me how this has affected 
families and the morale of the workers at Laughlin Air Force 
Base. Maybe Mario would like to address that.
    Mr. Villarreal. Mr. Bonilla, we are just a small base in 
Texas, you represent our district there, and this is just a 
small contract. We were one of the first to go under the study, 
this 12 percent overhead, and it drastically affected us. We 
submitted a lower bid, a competitive bid, and consequently that 
12 percent overhead just threw us out of the playing field.
    It is kind of late for the jet engine shop there, but we 
need to look at this for the future, because we are a total 
Civil Service maintenance there. We are all manned Civil 
Service, and we put out quality engines, and the quality is 
what we do. We are not against privatization or private 
contractors. All we ask is to compete fairly on the bid.
    Mr. Bonilla. I appreciate that very much. I can assure you, 
as we discussed privately, we are continuing to try to knock 
that surcharge down to make it more fair.
    I want to thank you all for being here today. I appreciate 
your testimony very much.
    Mr. Young. Thank you very much.
    Mr. Hefner. You have to put it in laymen's terms what this 
12 percent is--why it is there and how does it work?
    Mr. Sifuentes. It represents general and administrative 
costs that are applied to line 1 of the bid, which is personnel 
costs. It is a surtax. OMB at this point, other than by the 
title being ``administrative overhead costs,'' has not 
identified it. Specifically under the current policy of 12 
percent, overhead cost is based on personnel cost plus fringe 
benefits. The 12 percent overhead cost is based on personnel 
costs plus fringe benefits. This is what they applied it 
against. Under the previous policy, it was based on 
reapplication of managed standards and actual growth 
requirements, but that is no longer the case. It is just a 
straight across 12 percent applied against that personnel cost.
    Mr. Bonilla. Mr. Hefner, I would be happy to sit down with 
you and explain this a little more at a later time. In essence, 
when a private contractor puts out a bid, the base workers 
enter their bid, and have 12 percent charge added because OMB 
feels that the full cost of labor is not included in the 
original bid and some of the other costs. They say just add 
that on, and it makes it more fair, but it is not, because the 
workers are already there at the facility and would not have to 
be hired in order to do this job.
    Mr. Hefner. So what you are saying is that you have got to 
add 12 percent in there to offset the people that you are going 
to hire to do it for the benefits that they already have?
    Mr. Bonilla. The real cost would not be 12 percent more. It 
is just an extra percentage----
    Mr. Hefner. I understand that, but that is the reason for 
it.
    Mr. Bonilla. I am not exactly sure what you are saying.
    Mr. Hefner. I am saying these guys are already there. They 
are doing the job.
    Mr. Bonilla. They have been doing years of good work.
    Mr. Hefner. If you had it contracted out, the contractor 
that makes the bid has to add 12 percent?
    Mr. Bonilla. Not the contractor. Only the base.
    Mr. Villarreal. Our contention is these are hidden costs, 
not attributable to the government side of the bid. Nobody can 
account for this 12 percent.
    Mr. Bonilla. It is just a figure that is in essence pulled 
out of thin air.
    Mr. Hefner. I may be dense, but where does the 12 percent 
go? It is paid by the taxpayers, isn't it?
    Mr. Bonilla. Well, the 12 percent in essence is already 
there. They are working there. They are at the base.
    Mr. Hefner. I understand that.
    Mr. Bonilla. So there is no additional cost--it is almost a 
phantom number that is added to what they have to bid.
    Mr. Hefner. Okay.
    Mr. Visclosky. It is an attributable overhead, I assume. 
The theory would be to make sure the bids are fair. They are 
attributing overhead to your labor.
    Mr. Bonilla. That is the theory.
    Mr. Visclosky. The argument is that the attributable 
overhead is too high.
    Mr. Bonilla. One very important point, the Air Force 
believes it is too high.
    Mr. Visclosky. Okay.
    Mr. Villarreal. We worked closely with management to come 
up with this testimony. Their contention is it is not 12 
percent. It is not there. We cannot find it, you know. But it 
is a fixed rate. It is added onto your personnel costs plus 
fringe benefits and actually comes out to--in reality it comes 
out closer to 16 percent, because you are adding on 30 percent 
of fringe benefits included in the calculation. So we are not 
actually looking at 12 percent, but more like 16 percent on the 
government's bid, not on the contractor's bid. We cannot 
compete competitively.
    Mr. Young. Well, thank you very much. Obviously this is a 
rather sticky issue and a very important issue. Mr. Bonilla 
will lead us through this and find a solution, if there is one.
    Thank you all for being here. You stimulated this hearing 
this morning.
    [The statement of Mr. Sifuentes follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 17, 1997.

                         INTELLIGENCE PROGRAMS


                                WITNESS

HON. MAXINE WATERS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA

                              Introduction

    Mr. Young. Next our witness is Congresswoman Maxine Waters 
from Los Angeles, California. Ms. Waters serves on the Banking 
and Financial Services Committee and the Judiciary Committee. 
She is also chair of the Black Caucus.
    We are very happy to have you here this morning. Your 
entire statement will be placed in the record, and you can 
summarize it any way you like.

                   Statement of Congresswoman Waters

    Ms. Waters. Thank you very much, Mr. Chairman, and Members.
    I would like to give you a little bit of background about 
why I am here. The Congressional Black Caucus developed its 
agenda for the 105th Congress. Our top priority is the 
eradication of drugs in our society. We are tired of the 
devastation of drugs in our communities and in this country. So 
we are trying to pay attention in any number of ways to how we 
create some real discussion and some real action on drug 
eradication in our work.
    I came here today because you fund a number of crucial 
programs, or funded in this Subcommittee's jurisdiction, and I 
want to focus today on the Central Intelligence Agency--CIA.
    I am going to introduce legislation to eliminate the CIA, 
and I know that is not going to happen. However, I think it is 
extremely important to create some attention and some focus in 
an area where I think there is a problem.
    I recently got involved as a result of the San Jose Mercury 
News series called The Dark Alliance, where after a year of 
investigation they discovered that there had been a large drug 
ring that operated in the 1980s in south-central Los Angeles, 
and they alleged and made a good case for CIA connection.
    So I have been working on this, and I have learned more 
than I would like to know about our Intelligence Community, and 
I am worried. I am worried about it because I do not think that 
our Intelligence Community should ever allow, participate in or 
turn their backs while there is drug trafficking, no matter 
what their goals are. There should be no connection with drugs 
by any of our Intelligence Community in an effort to carry out 
their work.
    I think that this message is very important because I have 
been able to identify not only some very, very serious concerns 
about the drug ring that was identified by the San Jose 
Mercury. For example, if I can just divert here for a minute, 
the person who laundered the money for this drug ring, Mr. 
Morio, was absolutely identified in the DEA reports, and we 
have gotten the information about all the companies that he 
organized as he laundered the money, is now back down in 
Nicaragua, head of an arm of government that receives foreign 
aid, in charge of the privatization efforts creating more 
companies supposedly to buy up the government-owned assets for 
privatization. And what I am trying to find out is whether or 
not our own U.S. foreign aid is in the hands of someone who is 
identified as a money launderer for drug traffickers.
    I think that is very serious. I will not go into detail. I 
will submit this for the record. But let me just point this 
out. Earlier this year, General Ramon Guyan Devilla, 
Venezuela's former drug czar, was indicted by Federal 
prosecutors in Miami for smuggling cocaine into the United 
States. According to a New York Times November 20th, 1993, 
article, the CIA anti-drug program in Venezuela shipped a ton 
of nearly pure cocaine into the United States in 1990. The CIA 
has acknowledged that the drugs--that they were involved in the 
shipment, and that the drugs were sold on the streets of the 
United States. The joint CIA-Venezuelan force was headed by 
General Devilla, and the ranking CIA officer was Mark 
McFarland, who worked with anti-guerilla forces in El Salvador 
in the 1980s. Not one CIA official has ever been indicted or 
prosecuted for this abuse of authority.
    I could go on and tell you about the involvement in Haiti, 
the Los Angeles--L.A. Times reported that Lieutenant Colonel 
Francois, one of the CIA's Haitian agents, a former army 
officer and key leader in the military regime that ran Haiti 
between 1991 and 1994, was indicted in Miami on a charge of 
smuggling 33 tons of cocaine into the United States. It goes on 
and on and on. But I am submitting this for the record.
    I guess what I am saying to you is this: As we look at the 
work that we are trying to do with drugs and working with the 
President and the drug czar and everybody else, we are looking 
at our own Intelligence Community, we are looking at the big 
boys, and I am going after Citicorp, who is identified and is 
under investigation now for the money laundering with Salinas' 
brother out of Mexico, some $200 million that was deposited in 
Citicorp, where they wire-transferred this money offshore into 
Antigua and the Cayman Islands.
    This is serious business, and we as policymakers can do 
more than we are doing about it. I know the Intelligence 
Community is secret, and we are not supposed to know or ask 
questions, but you guys ought to send them a message. You ought 
to do at least across-the-board cuts. Cut 10 percent of the 
intelligence budget and talk about the development of policy 
that will not allow the Intelligence Community to ever be 
involved in drug trafficking or know about it, turn their backs 
on it, or use it in any way.
    We cannot afford to continue to allow the amount of drugs 
that come into this country to be dumped on our streets, 
poisoning our children and devastating our communities. And it 
is time each of us takes some responsibility in this.
    I want to tell you that you guys have some power here to do 
something about it, and I wish you would help send this message 
in some profound way, because I think our greatest threat, the 
greatest threat to security, is certainly not the Soviet Union. 
The Cold War is over. And I don't think, no matter how much we 
dislike or we talk about a threat, nobody really wants to go to 
war with us. Our greatest threat is this, drugs being dumped on 
our streets, undermining our communities, poisoning our 
children, and devastating us in so many ways.
    So I have had an opportunity to preach to you, and I 
appreciate it. If you have any questions, I will be happy to 
answer them.
    Mr. Young. Thank you very much. I would just have to say 
for the Committee that we share your strong commitment on this 
issue. Last year during a major battle over having enough 
dollars, we added $165 million over the President's budget for 
counter-drug activities. When the Cali warlords were put in 
jail, it was the Department of Defense that helped identify and 
locate those warlords. So we are all working on that.
    I can tell you we are committed and appreciate your 
thought-provoking comments this morning. They are not wasted 
here. We paid close attention, and I assure you that we are 
strongly committed to this same objective.
    Are there other Members with questions?
    Thank you very much. We really appreciate your being here. 
We will stay in touch with you throughout this process.
    [The statement of Ms. Waters follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 17, 1997.

                       NAVAL RESERVE ASSOCIATION


                                WITNESS

REAR ADMIRAL JAMES J. CAREY, USNR (RET.), NATIONAL PRESIDENT, NAVAL 
    RESERVE ASSOCIATION

                              Introduction

    Mr. Young. Now I would like to welcome Rear Admiral James 
J. Carey, president of the Naval Reserve Association. Admiral 
Carey presented a list of unfunded Naval Reserve equipment 
items last year when he testified, and we were able to provide 
$247 million above the President's budget for that equipment 
including 36 C-9 replacement aircraft, funds for 10 mobile in-
shore undersea warfare vans, and $72 million dollars for P-3 
modifications.
    I want to say to you, Admiral, that I took a lengthy flight 
in a P-3 not too long ago. The crew was outstanding. The 
aircraft could use a little bit of cleaning up, but it is an 
old workhorse and does a good job.
    We are very pleased to have you here today, sir.

                       Statement of Admiral Carey

    Admiral Carey. Thank you very much, Mr. Chairman and the 
other Members here, for allowing us indeed to present our 
testimony again. I would salute this Committee for what you did 
for us last year, because it was correcting an incredible 
shortfall from the previous year.
    Mr. Chairman, when I testified last year, you, in fact, 
pointed out that the things I was talking about were not 
included. So I and the Naval Reserve Association fully 
appreciate what you all did for us.
    You also tasked me last year, you said your Committee would 
support, but I would have to go out and work with the Senate 
and the administration, and we did that, and it worked. So 
thank you, thank you, thank you.
    By the way, the lady from RIT, my last active-duty job was 
over in the Pentagon on the Chief of Naval Operatives--CNO 
staff. That program, the similar program came under me. It is a 
good program. I would just add that to her testimony.
    My main theme today will be that you get 20 percent of the 
entire Navy, the entire United States Navy, for 3 percent of 
the budget with the Naval Reserve. So your money is really 
spent well and stretched. If you forget everything else I say, 
that is my key theme: 20 percent of the whole Navy for 3 
percent of the budget.
    As you indicated, you have my written statement, so I will 
try to hit key focus areas as outlined in that paper. One of 
the first would be manpower. Several years ago when the cut was 
going from 150,000 Naval Reservists down to 100,000 and then 
ultimately 96,000, we went along with that because we thought 
it was in the best interests of the country and the Navy, and 
we felt it could be done. But we stride to draw a line in the 
sand and say we cannot go any lower and carry out the missions 
that have been assigned to us.
    The President's budget this year has a cut below that, to 
around 94,000; in fact, possibly even 93,500. I would tell you 
gentleman and the other Members of your Committee, that is not 
a good idea, and we should stay at the 96,000. We outline that 
in our written statement, and I would ask you all to take a 
look at that, if you would.
    On National Guard and Reserve Equipment--NG&RE equipment, 
as I asked you last year and you did, all I am asking for is 
our fair share of whatever the ultimate NG&RE budget is, that 
we get the Naval Reserve fair share. You did that last year.
    Mr. Chairman, as you indicated, you have an unfunded 
requirement from the Navy for about $1 billion of Naval Reserve 
equipment. I realize that is more than your whole NG&RE budget. 
That is why I stress simply our fair share. I would prioritize 
that from our side as the C-9 replacements, which we have 100 
percent of the whole Navy's logistics arm; the MIUW and costal 
warfare stuff, because we have 100 percent of that mission; 
and, although you funded some of the vans last year, I don't 
know that all of that money has been spent, and I think we have 
another 30 that need to be looked at.
    Finally, the other priority is SH-60B helicopters, which 
are needed on the FFGs that are coming into the Reserve fleet. 
The key for us to be able to operate with that fleet is 
compatibility with the regular Navy. If we can't talk to them 
or have the same equipment, it doesn't work, so we need those 
SH-60Bs.
    Finally, I would tell you that we also support Senator 
McCain's initiative to ultimately--if it can be done--to get 
away from NG&RE as a congressional add-on. We support it, 
however, only if we can be an equal player at the table, so 
when the President's budget, the Navy's budget comes up to you 
all, that the Naval Reserve requirements are in that budget. 
Until that happens, we desperately need you, however.
    I would say that in the bill last year, Senator McCain put 
a provision saying the services were supposed to come forth. In 
fact I know the Navy CNO ultimately did. We are very supportive 
of him for that effort.
    Military Construction, MILCON, last year you gave us $38 
million. The President's budget has that cut to $14 million 
this year. I would simply urge to bring it back to the 38 to 40 
million level, because we have buildings falling down around 
our people, and it is becoming a safety hazard.
    Operations and maintenance last year was $85 million. The 
President came in with $50 million less. I would tell you we 
need to keep it at the old level. If we are expected to do all 
the Operations--OPS, both drug OPS and the humanitarian and 
Bosnia's and other things, we have to have the money to do it.
    The Reserve Mobilization Insurance Program, I am sure all 
of you have heard from your constituents on that. We would 
simply urge this Committee to pay the troops that are paid to 
be in that program what was promised them if they paid the 
fees. I had heard a possible plan of trying to take the money 
to fund that thing out of NG&RE. That is absolutely lunacy as 
far as we are concerned and not a good idea. It should not come 
out of the other Reserve programs.
    I did see the DOD came out with an instruction on how they 
planned to handle the insurance thing. It is dated 8 April. I 
have not read it, but it tells me they have taken a hard look 
at it and have a proposal. I would urge each of you to have 
your staffs look at that.
    On health care, Congressman Moran had put a bill in. We 
were initially supportive of that, but yesterday Congressman 
J.C. Watts came out with a bill that my staff thinks is better, 
because it says if you cannot work out the TRICARE/CHAMPUS 
problems, that at least then our military members be allowed as 
an option to get into the Federal employees' health benefit 
plan so they are treated equally along with the rest of the 
Federal employees. So we now support the J.C. Watts bill on 
that.
    In closing, we have two point papers on a couple of these 
issues that I would like to ask if we could give them to the 
staffs. You can all see them. I was hoping Congressman Bonilla 
would be here, because we have been very supportive of his 
efforts in Val Verde County on his efforts for the military's 
right to vote where we, the United States Government, send them 
and where they live.
    With that, I think that is my 5 minutes. You helped us a 
lot last year. I am asking you for your help once again this 
year. I would ask to be added to your scroll up there on these 
things. That completes my statement. I again thank you for all 
you have done. I would answer any questions.
    Mr. Young. Thank you very much. We appreciate that.
    Some of the items on this scroll are items you provided for 
us. We are doing the best we can to put a blue line on them, 
which means they are done. We are doing the best we can with 
very, very limited resources.
    Okay, sir, thank you very much. We appreciate your being 
here.
    [The statement of Admiral Carey follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 17, 1997.

           RESERVE OFFICERS ASSOCIATION OF THE UNITED STATES


                                WITNESS

MAJOR GENERAL ROGER W. SANDLER, AUS (RET.), EXECUTIVE DIRECTOR, RESERVE 
    OFFICERS ASSOCIATION OF THE UNITED STATES

                              Introduction

    Mr. Young. Our next witness is Major General Roger Sandler, 
Executive Director of the Reserve Officers Association.
    General Sandler's organization represents all of the 
Reserve forces, and, as usual, his prepared statement contains 
a detailed list of unfunded equipment requirements, which are 
also on our scroll for each of the Reserve components. We are 
pleased to have you back before the Committee, and please 
proceed with your testimony.

                      Statement of General Sandler

    General Sandler. Thank you very much, Mr. Chairman. It is a 
pleasure to be back. Again, I thank you, as did Admiral Carey, 
regarding what you have done for the Reserve forces in the 
past.
    We have a significant involvement these days with the 
Reserve components in all areas of national defense, and I 
think it has become a reality that whenever there is an 
emergency, any kind of a contingency, we are calling upon the 
Reserve components. They were certainly well-founded in Desert 
Storm and they have gone on to perform extremely well in both 
Haiti and now in Bosnia. There are continuing rotations in 
Bosnia and so forth.
    What I wanted to do was really talk to you about three key 
issues: personnel, training, and equipment. Some of it will be 
overlapped with Jim Carey.
    I will not get into a lot of detail on this because you do 
have it in my submission for the record. But we are a great 
bargain, both for DOD and the country, with our Reserve 
components. Inasmuch as Admiral Carey indicated, the very small 
portion of the defense budget goes to maintain the Reserve 
components in all of the services. Therefore, it is important 
that they be maintained to the degree that is necessary to keep 
their readiness at a level that is important.
    The important thing that I wanted to bring up regarding 
personnel is that each of the services are being faced with 
personnel cuts. The indication of the Army Reserve, they have 
an off-site agreement which is carrying them through fiscal 
year 1998 and perhaps into 1999. We fully support that 
agreement in the indication of the Army.
    We support the Navy's position on maintaining the end 
strength at the levels they suggested, the 96,000-plus mark, 
the Marine Corps being held steady at the 42,000 end state, and 
we would also urge you to consider maintaining the Coast Guard 
at a level of 8,000. There has been a suggestion that they 
ought to be reduced to 7,600. Coast Guard missions go on 
regardless of war or peace, and the Coast Guard is integral, 
and we would urge this Committee to fund the 8,000.
    In the area of training, we find ourselves in the situation 
where many of our Reserve components are finding monies being 
diverted from readiness training to other purposes because of 
contingencies and so forth that are coming. We need to maintain 
a level of readiness training in our Reserve components to 
maintain their viability.
    In addition to that, schooling has suffered as a result of 
the shifting of money and so forth. Schooling is absolutely 
vital in the case of the Reserve components for their promotion 
and upward mobility. So, again, I would urge this Committee to 
continue to fund adequate training for readiness and for 
military education.
    Finally, let me talk about this Reserve equipment: I think 
the NG&RE account has certainly proved itself over the years. 
The administration this year has put zero monies against 
National Guard and Reserve equipment accounts. We have in our 
detailed submission to you a submission of the variety of 
equipment that is necessary in each of the services. But I 
would like at this point to insert the absolute necessity 
predicated on the CINCs request to the commandant of the Coast 
Guard to establish and equip three Newport security units. I 
would urge this Committee and, Mr. Chairman, I know you have 
had some discussions with the commandant, to go ahead and 
support those Port Security Units--PSUs, because they are 
vitally necessary for the CINCs to carry out their mission.
    With that, Mr. Chairman, I know I am ahead of schedule, but 
I do want to thank you again for having the Reserve Officers 
Association represented here today, and hope that we can 
continue to count on this committee to support the vital 
involvement of the Reserves.
    Mr. Young. General, thank you very much for your testimony. 
We appreciate that.
    You can count on our continued recognition of the 
importance that the Reserve forces play in our overall strategy 
and overall force concept. Again, thank you for being here.
    [The statement of General Sandler follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                          Thursday, April 17, 1997.

              NATIONAL ASSOCIATION FOR UNIFORMED SERVICES


                                WITNESS

MAJOR JAMES W. BAPPLE, U.S. ARMY (RETIRED), NATIONAL ASSOCIATION FOR 
    UNIFORMED SERVICES

                              Introduction

    Mr. Young. We would like to welcome Major James Bapple of 
the National Association for Uniformed Services.
    The Major has submitted a very detailed statement on the 
medical situation within the Department of Defense. I think 
everyone in this room knows we are definitely concerned about 
that and we do things about it. We are concerned about the 
health care available to our Nation's military personnel and 
their families.
    Major, I understand you also represent the 14 military and 
veterans organizations which make up the National Military and 
Veterans Alliance. We appreciate them.
    Your statement will be placed in our permanent record. I 
understand you have three exhibits that you would like to have 
made part of that record, which is fine and will be done.
    At this point, please proceed with your testimony.

                       Statement of Major Bapple

    Major Bapple. Thank you, Mr. Chairman. We appreciate this 
opportunity to speak with you this morning. It is good to see 
you again.
    Before I begin, let me say we appreciate your hard work and 
the hard work of this Committee. We appreciate your continuing 
support for the entire military family.
    As you correctly said, in addition to the National 
Association for Uniformed Services--NAUS--I am speaking on 
behalf of the National Military and Veterans Alliance, a group 
of 14 associations with a combined membership of 3.5 million 
members.
    For my 5 minutes, I want to talk about health care, which 
is only about 6 percent of the DOD budget, but it is a very 
important issue to most of our retirees and to the active duty 
population.
    Sir, we are very concerned with the medical system that 
even when it is fully operational it is only going to care for 
4 million of the 8.5 million beneficiaries. The medical system, 
of course, is TRICARE, and it is worthwhile to note there is no 
other plan at present that is going to take care of the 
remaining 4.5 million beneficiaries.
    A seasoned and well-respected soldier recently had this to 
say. He said ``TRICARE is a reduced version of the medical 
benefit that military members, their families and retirees have 
treasured for so long. And its primary reason for being is to 
save money, not improve service. If that were not the case, 
military aid societies would not be seeing increases in the 
number of families asking for help paying medical bills and 
retirees would not be flocking by the hundreds to join a class 
action lawsuit that claims the government is reneging on its 
promise of lifelong health care benefits.'' The soldier's name 
was General John Shalikashvili, Chairman of our Joint Chiefs of 
Staff.
    To maintain readiness and preserve the fighting strength of 
our men and women in uniform, the military health services 
system through our military treatment facilities does a good 
job; some would even say, I believe correctly, a world-class 
job.
    NAUS and the National Military and Veterans Alliance are 
enthusiastic supporters of TRICARE, particularly TRICARE-Prime. 
We continually see that health care, when it is accessible, is 
truly excellent. The key, of course, is accessibility.
    My son recently had knee surgery at a military hospital, 
and his military orthopedic surgeon remarked to me he and his 
wife both had a supplemental insurance policy for themselves 
and their families because even doctors within the hospitals 
and families could not be guaranteed care.
    As many of the members of this Committee know from 
firsthand experience, the number of installations and the 
number of military treatment facilities continue to decrease. 
Even today at least 17 hospitals are being targeted for 
downgrading to clinics. Additional closures seem inevitable. 
TRICARE-Extra and TRICARE-Standard, which of course, is the 
CHAMPUS replacement, are supposed to accommodate those eligible 
beneficiaries who cannot receive care through a military 
treatment facility. Unfortunately, our members in many regions 
throughout the United States are reporting extraordinary 
difficulties with industry care, particularly TRICARE.
    A retiree in Corpus Christi reported that five of six local 
doctors participating in the TRICARE network were breaking 
their contracts to leave the network. According to the retiree, 
it was because of the very low reimbursement rates and the 
extremely slow reimbursement rate.
    A young active duty sailor in Philadelphia told us of using 
CHAMPUS following the closure of the Naval hospital when he 
took his daughter with a broken arm to a civilian doctor and 
was subsequently saddled with bills totaling over several 
hundred dollars, which CHAMPUS refused to pay.
    A retiree in Indiana had his hip replaced. The doctor's 
bill was $5,000. The reimburse was $1,700, of which the retiree 
had to reimburse 25 percent.
    In spite of TRICARE's apparent efforts to reduce costs, and 
despite the low reimbursement rates, Richard Davis, the 
Director of the National Security Analysis for the GAO, said in 
a February 21 report to you, that future defense health program 
costs are likely to be greater than DOD has estimated. We are 
very concerned.
    Administrative costs are rising and more money is required 
to finish work on a system that will only take care of 4 
million of 8.5 million beneficiaries and a system that will 
disenfranchise our medicare-eligible beneficiaries, the only 
Federal employees who lose their employer-sponsored medical 
benefit when they become eligible for medicare.
    Mr. Chairman, yesterday your colleague from Oklahoma, the 
Honorable J.C. Watts, introduced a Military Health Care Justice 
Act that would offer all military health care beneficiaries a 
chance for DOD-sponsored health care. We believe that this bill 
will go a long way to fulfilling that promise of lifetime 
health care, and we ask for your support and support of this 
Committee. It would cost far less than many other options and 
would support the continuation of MTS and TRICARE with 
improvements as a primary source of care and it would make 
FEHBP available as an option. This act has the full support of 
the Veterans Alliance.
    Sir, that concludes my statement. Do you have any 
questions?
    Mr. Young. Thank you very much. We appreciate your 
statement. We appreciate your interest, and I think you know 
the commitment of this Committee is good, not adequate, not 
proper, but good medical care for the military and their 
families.
    We are wrestling with the issue of TRICARE. I am not 
exactly sure how that is going it play out, but we are doing 
our best to help the authorizers find a solution there.
    Again, thank you very much for being here. We appreciate 
your testimony.
    [The statement of Major Bapple follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 17, 1997.

                     BRAIN INJURY ASSOCIATION, INC.


                                WITNESS

MARTIN B. FOIL, JR., CHAIRMAN OF THE BOARD, BRAIN INJURY ASSOCIATION, 
    INC.

                              Introduction

    Mr. Young. I would like to now yield to Mr. Hefner, a very 
distinguished member of this Committee, as well as the 
Subcommittee on Military Construction, and he will introduce 
Mr. Martin Foil, the volunteer Chairman of the Brain Injury 
Association.
    Mr. Hefner. Thank you, Mr. Chairman. First of all, the 
members that are here, I would urge you to read the 
biographical data on Mr. Foil. It is so lengthy and his 
accomplishments are extraordinary, and I will not bother to 
read them all.
    But I do want to point out that Martin Foil has been a 
friend longer than both of us would care to remember, I guess. 
But he has been so involved in this particular endeavor. I 
would say this before I make my introduction. We have a 
sympathetic ear in our Chairman here who long before he was 
Chairman, championed the cause for bone marrow transplants and 
this sort of thing, and he certainly has been a big asset to us 
in this endeavor we are engaged in.
    Martin, I don't know, I guess one of your great assets is 
your lovely wife, who is not with you today.
    Mr. Foil. That is my best asset.
    Mr. Hefner. He had a 26-year-old son that unfortunately was 
struck with an accident. We were real happy you were able to 
come here, and went to the White House, and we had a session 
with the President and Senator Hatch and some of the folks that 
had supported us in this endeavor. And it is through the 
efforts of people like Mr. Foil that we have made tremendous 
advances in brain injury trauma.
    A lot of folks have said, why are you doing cancer research 
and doing bone marrow and head injuries in the defense bill? 
But I think it is very appropriate, because all these things we 
have to deal with in the military, just like we have to do in 
the private sector.
    So I want to welcome you to the Committee today. I think 
the Chairman would say your entire statement will be a part of 
the record, and any statement you would like to make other than 
that we would be happy to hear. You have some support folk with 
you here.
    Mr. Foil. Yes, I do.
    Mr. Hefner. I am not the Chairman, but I feel you can go 
ahead and introduce them.
    Mr. Foil. I will be happy to introduce them. This is Alice 
D'Nicholas. Alice is a mother, a prime volunteer, and mover and 
shaker in our organization, a mother of a brain injured son, 
who also volunteers in our office in Washington, a wonderful 
human being. This is Jean Brubay. She is our congressional 
liaison on our staff in Washington. She is new with us, but 
certainly not new to the Hill. We are just certainly tickled to 
death.
    Mr. Hefner. Also for the Members, Martin, you sponsor two 
fund-raisers in our area, the golf tournament.
    Mr. Foil. Coming up August 4th.
    Mr. Hefner. And also the big ball out at the Charlotte 
Motor Speedway.
    Martin, it is a real pleasure to have you.
    Mr. Chairman, in your absence, I took the liberty of 
putting you on record as being supportive of these issues like 
bone marrow and cancer research and head injuries, that we have 
a receptive ear, because you have been a leader.
    I remember years ago when you were not the Chairman and we 
worked together on the bone marrow issue, and we want to thank 
you for that, and thank you for letting me introduce my 
constituent.
    Mr. Young. Mr. Hefner, thank you very much. You and I have 
had a good working relationship on these medical issues, and I 
am proud of the role you played.

                         Statement of Mr. Foil

    Mr. Foil. Thank you, Chairman Young. It is a pleasure to be 
here.
    I want to thank my Congressman, Representative Hefner, from 
the 8th District of North Carolina, for that kind introduction.
    I want to make one more introduction. This is Robert 
D'Nicholas. He is a brain injury survivor and a worker in our 
office, and we are very pleased to have him here today.
    I was thinking as I stood in the hall what a wonderful 
country we have, and watching these young people, which is our 
future, running up and down the hall, that is what it is all 
about. So I am happy to be here, and if we all work to try to 
make a difference, we are really trying to make a difference 
for those young folks.
    My name is Martin Foil, and I come before you today as the 
father of a young man named Phillip with severe brain injury. 
In my real work, I am the Chairman and Chief Executive Office 
of Tuscarora Yarns in Mount Pleasant, and I must state I 
receive no compensation from the association for the programs I 
am testifying about here today, but I do contribute 
considerable sums of my own money to this organization, to the 
work which it does, to improve the life of people with brain 
injuries. I am here because I really care about the 9 million 
Americans who are living with brain injury and their families.
    I am going to talk about the Defense and Veterans Head 
Injury Project--DVHIP--and the program in the Violence and 
Brain Injury Project--VBIP--under the DOD. It is really 
critical for improving the lives of people with brain injury 
and to the prevention of brain injury in the first place 
because you understand, prevention is the only cure.
    As you know, this project not only serves all the active 
duty military personnel who sustain brain injuries, and, Mr. 
Chairman, that is approximately 8,000 a year in peacetime, but 
it also serves the veterans and the civilian population as 
well. It is truly an exemplary use and case of dual funding.
    I am proud to tell you that today this collaborative effort 
between the DOD, Veterans Affairs, and the BIA, or the Brain 
Injury Association, is continuing to pay off.
    What are some of the things we have done with these 
programs? We have established a patient registry treatment and 
referral network that includes over 20 medical centers, toll-
free help lines for people with brain injury and their care 
givers, and a multicenter randomized control clinical outcome 
study. This is something, that is a mouthful in the first 
place, but it is something that the civilian sector, Mr. 
Chairman, has not been able to accomplish and perform.
    We have established prevention and educational programs for 
people with brain injury, their families, their care givers, 
including our BIA, BIA programs and our multimedia interactive 
resource center, which is now in place at over 40 civilian and 
DVHIP centers. Fifteen of those centers are hospitals for the 
veterans.
    In addition, the programs further the international brain 
injury research effort in collaboration with the World Health 
Organization, and we sort of have been adopted by NATO, so-to-
speak.
    Brain injury truly is a silent epidemic. It is the single 
largest killer and cause of disability among our young people. 
We need your support for this $8.5 million in funding so that 
at the DVHIP, the VBIP, and the Brain Injury Association, we 
can carry on this unique partnership.
    Let me just make a couple other statements. It is truly a 
unique partnership that has done a lot of good. As you have 
seen and read, and I hope you will read in the larger 
testimony, some of the stories we have to tell about why it 
does work. But more importantly, as we go forward, the World 
Health Organization estimates that by the year 2010, 20 percent 
of the total cost of all health care problems will be due to 
violence. That is very scary. And this is a very important part 
of the program that we bring, not only to the military, but to 
civilians through this project.
    Thank you very much, Mr. Chairman, for allowing me to be 
here and all of us. Stand up, Mike.
    Mike is a young man from West Point who sustained a brain 
injury and is going to go to West Point who will be here before 
not too long and testify. Have you already been? You have 
already been. We are proud to have him here. I salute you, sir.
    Mr. Young. Thank you very much. We appreciate your 
testimony.
    You know this Committee feels very strongly about the 
issue. In fact, we added substantial funds last year for brain 
injury research through our university research programs, and 
we very strongly support this.
    I want to tell you that your concerns are very well 
represented here by your Congressman, Mr. Hefner, who will make 
sure we don't forget about any of this.
    Mr. Foil. I appreciate that.
    Mr. Young. Thank you for bringing your guests with you 
today.
    Mr. Foil. Thank you, Congressman. Thank you, Bill. I 
appreciate that.
    [The statement of Mr. Foil follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 17, 1997.

                         NAVAL ORDNANCE STATION


                                WITNESS

HON. ANNE M. NORTHUP, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    KENTUCKY

                              Introduction

    Mr. Young. The Committee is pleased now to welcome 
Congresswoman Northup from Louisville, Kentucky. Congresswoman 
Northup is a member of the Appropriations Committee and 
actually serves on one of our other subcommittees that several 
of us serve on but seldom get to attend because we spend most 
of our life in this room. She is on the Subcommittee on Labor-
Health, Human Services and the Education Subcommittee.
    We are pleased to have you here this morning and look 
forward to your testimony. Your entire statement will be placed 
in our record, and you may proceed any way that you wish.

                   Statement of Congresswoman Northup

    Mrs. Northup. Thank you very much, Mr. Chairman. I am 
delighted to be here and appear for the first time before this 
Subcommittee. I will submit my testimony for the record, but 
briefly summarize it now.
    Mr. Chairman, I am here on behalf of primarily the Naval 
Ordnance Station in Louisville, Kentucky. You may remember that 
was privatized last year. It has been really a tremendous 
opportunity for our armed forces and particularly the Navy to 
judge whether privatization is a good deal for the taxpayers 
and a good deal for defense.
    The truth is, it is a good deal for taxpayers. They are 
doing the same work with a 40 percent reduction in space and a 
40 percent reduction in personnel. What this means is that the 
American's tax dollars that go to defense can accomplish a 
great deal more.
    First of all, I am here to ask you to make sure that we 
keep intact the funding stream that is so essential in these 
early years so that naval ordnance can get up and on its feet 
and provide the real efficiencies and opportunities. It also 
serves as such a great test case for us for future 
privatization. So it is very important if we are going to gain 
the full benefit of this that we make sure the funding stream 
stays in place.
    I am sure you know, Mr. Chairman, that there is a great 
deal of political interest in bringing projects back to 
people's districts, and naval ordnance is no exception. There 
are certainly political interests in seeing the business at 
naval ordnance gravitate to other Members' districts. It would 
be a terrible mistake. It would lose all of the benefits we 
stand to gain from this experiment, and it also would be a 
terrible time at this time to allow anybody to use the up-
front, start-up costs, and use that as a reason to--as an 
operational cost and try to convince the Committee that this 
isn't so good for the taxpayers.
    Like I said, it is undisputable, for 40 percent less 
people, less room, they are accomplishing the same mission. In 
addition, Mr. Chairman, it has come to my attention that the 
Navy has reassessed the readiness of the guns that are repaired 
and updated at the naval ordnance, and has found that they are 
below the capacity that they think is so important to defense. 
I am going to be submitting an additional plus up for these 
guns.
    The Navy has asked that they speed up their renovation so 
that they can meet their obligations. Naval ordnance is the 
only place that this work is being done, and this would help 
them reach the capacity that they believe is so important.
    Finally, I want to warn you that there are several other 
requests that the Navy has made, and we are working with them 
to finalize figures in order to reach the capacity that Hughes 
needs for the work they also do in Louisville.
    Finally, I see in the President's budget that he has 
reduced the Kentucky Air National Guard by four airplanes, from 
12 to 8. That is a very unfair cut. We rank 23rd in population. 
Our Air National Guard is 42nd in population, and we are ranked 
as one of the top units in the country. We are at 97 percent 
full capacity. We fly 60 percent of our missions in actual 
missions in support of defense, and they have asked that that 
be retained at 12 planes.
    I know we are on a tight schedule. I appreciate your 
interest, giving me the opportunity to talk to you about these 
very important projects.
    Mr. Young. Thank you very much. We certainly share your 
concern, and, and your interest in these matters.
    As you are well aware, we have budgetary problems with the 
President's budget request being much lower than many of us 
think that it should be. We do the best we can to find the 
adequate resources to guarantee the programs like you have 
talked about continue on. We will continue to do that to the 
very best of our ability. We thank you for calling attention to 
some of these issues.
    Mrs. Northup. I look forward to working with this 
subcommittee. Thank you very much.
    Mr. Young. We invite you to stay in touch as we proceed 
through the year.
    Mrs. Northup. Thank you.
    [The statement of Mrs. Northrup follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 17, 1997.

              AMERICAN FEDERATION OF GOVERNMENT EMPLOYEES


                                WITNESS

RITA MASON, NATIONAL VICE PRESIDENT, AMERICAN FEDERATION OF GOVERNMENT 
    EMPLOYEES

                              Introduction

    Mr. Young. Our next witness is Rita Mason, the National 
Vice President of the American Federation of Government 
Employees--AFGE. Ms. Mason represents more than 700,000 
government workers, including 300,000 employed by the 
Department of Defense.
    Ms. Mason, your entire statement, including the seven 
issues that you feel so strongly about, will be made a part of 
the permanent record, and at this time we would ask you to 
summarize your statement.

                         Statement of Ms. Mason

    Ms. Mason. Thank you, Mr. Chairman.
    I would like to begin my testimony by thanking the 
Committee for this opportunity to testify on the fiscal year 
1998 appropriations bill for DOD. We know that you, Mr. 
Chairman, and other members of this Committee, share our belief 
that the United States must continue to remain ready to meet 
any threat to the security of our Nation. While there are many 
important issues affecting our Federal work force which this 
Committee will consider, I will limit my statement today to the 
three issues which are the most important to the American men 
and women who do so much to ensure our Nation's defense by 
protecting the depots, ensuring a strong public-private 
competition, through preservation of A-76, and preventing 
arbitrary personnel ceilings from causing wasteful contracting 
out.
    I fully understand that not all matters I will discuss fall 
routinely under this panel's jurisdiction. However, because 
they are so important to readiness and our members, I believe 
that they are relative to this hearing.
    The 60-40 safeguard and the $3 million competition 
safeguard plus the core work load safeguards protect our depots 
by retaining a federally controlled core work load which is 
capable of meeting maintenance needs of our armed forces in 
times of war and peace. AFGE strongly recommends that the 
Committee continue in the absence of any viable alternative to 
strongly support the statutory safeguards which ensure that our 
depots are ready when called upon to support our men and women 
in uniform.
    AFGE also asks this Committee to work to ensure that the 
Nation's depots are given maintenance assignments for new 
weapons systems.
    As Mr. Robert T. Mason, by the way, not a relative, the 
Deputy Under Secretary of Defense for Maintenance, Policy 
Programs and Resources told the congressional delegation in 
early 1996, ``If the depots don't get any new work from new 
weapons systems or from closing depots,'' a scenario that at 
least some senior officials in the Pentagon would actually like 
to bring about, ``they will all be closed in 9 years.''
    I would now like to address the issue of contracting out 
generally.
    For AFGE and its members, the central issue which should 
drive the discussion surrounding the outsourcing debate is 
readiness, how we can get the most effectiveness, efficiency, 
and reliability for the taxpayer dollars invested.
    AFGE is not antiprivatization. We are, however, 
unreservedly and nonnegotiably pro competition. On this 
principle we will not cave or compromise.
    It is imperative to remember that the way to generate 
efficiencies and savings is not contracting out or outsourcing 
or privatizing. Rather, what is key is ensuring real and 
genuine competition between the public and private sectors.
    AFGE was extensively involved in the 1995-1996 reform of 
Office of Managment and Budget--OMB Circular A-76. This effort 
resulted in a revised supplement that while permitting more 
flexibility to contract out, also enables Federal employees 
greater involvement in the competitive process and makes 
contracting out a two-way street by permitting work to be 
returned back in-house when it is more cost effective to do so.
    We have two recommendations to offer, Mr. Chairman, 
regarding A-76: One, AFGE urges the Committee to resist any 
attempts to exempt the Pentagon from the competitive 
requirements of A-76; two, AFGE urges the Committee to deny 
appropriations for conversions to contractor performance for 
all activities involving 10 or more employees until a 
commercial activities performance analysis has been completed 
in accordance with A-76.
    I would now like to address the serious consequences of 
full-time equivalent, FTE, personnel ceilings.
    Personnel ceilings are forcing some military bases to lay 
off their civilian employees and then to contract out the work 
at higher costs.
    The problem is especially noticeable at service depots 
where Federal employees are getting reduction in force notices 
while planes, tanks, and ships await repairs. But don't take 
our word for it. The personnel directors of four branches of 
the armed forces in testimony before the Congress in 1995 
bemoaned the fact that civilian ceilings, not work load costs 
or readiness concerns, are forcing them to send work to the 
contractors that could have been performed cheaper in-house.
    The representatives asserted that their services' depots 
must turn away valid, funded work load requirements because of 
the FTE ceilings, limiting the flexibility of our depots to 
adjust and meet quickly and critical unprogrammed surge 
requirements of our operating forces.
    In the fiscal year 1996 Defense Appropriations bill, the 
Congress instructed DOD to stop managing by FTE ceilings. 
However, that mandate has been defied. An example of this 
defiance is attached as an exhibit in my testimony.
    In a letter a senior Army official explicitly instructed an 
installation commander to abide by in-house staffing quotas, 
and then contracted out work that may have been performed more 
cheaply in-house.
    Clearly, the outcome of any competition at Fort Hood or 
elsewhere within forces command, for that matter, has already 
been decided in advance of the requirements of the A-76 and the 
interest of the taxpayers in fair public-private competition 
notwithstanding.
    I wish that I could say that this is an isolated case. 
Unfortunately, while it may be one of the more blatant cases, 
it is by no means unique. DOD's own Inspector General--IG 
reported 2 years ago that the goal of downsizing the Federal 
work force is widely perceived as placing DOD in a position of 
having to contract out services regardless of what is more 
desirable and cost effective.
    AFGE urges the Committee to require DOD to manage by budget 
rather than FTE ceilings. AFGE also urges the Committee to ask 
the service chiefs to appear before you and acknowledge or deny 
that they are managing by FTE ceilings. We also urge you to ask 
the General Acconting Office--GAO to determine whether the 
Pentagon has complied with the congressional prohibition 
against management by FTE ceilings.
    That concludes my overview of AFGE's views and concerns, 
with respect to the fiscal year 1998 defense appropriations.
    Mr. Young. Thank you very much for your testimony.
    [The statement of Mr. Harnage follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 17, 1997.

                    AMERICAN PSYCHIATRIC ASSOCIATION


                                WITNESS

JERRY M. WIENER, M.D., AMERICAN PSYCHIATRIC ASSOCIATION

                              Introduction

    Mr. Young. Our next witness will be Dr. Jerry Wiener of the 
American Psychiatric Association, which represents some 42,000 
psychiatric physicians.
    The association has not been bashful in its opposition to 
psychopharmacology demonstration projects, and the 
association's objections, contained in your full statement, 
will be noted. Your entire statement will be placed in the 
record. You may proceed as you wish.

                        Statement of Dr. Wiener

    Dr. Wiener. Thank you very much, Congressman Young. I 
appreciate your allowing me to go out of turn, so I have to 
leave earlier than I thought I would come on the regular 
schedule. So I very much appreciate that.
    I am the Past President of the American Psychiatric 
Association and Chairman of the Department of Psychiatry at 
George Washington University.
    I am going to address three issues. The demonstration 
project which you just mentioned in the Defense Department, 
which is proposed to train psychologists to prescribe 
medications for the treatment of mental illness, the American 
Psychiatric Association, together with the Defense Department, 
are in full agreement with the conclusion of the April 1997 
report, ``Given the Defense Department's readiness 
requirements, the Psychopharmacology Demonstration Project, 
PDP, substantial costs and questionable benefits and the 
project's persistent implementation difficulties, we see no 
reason to reinstate this demonstration project.''
    I will next talk about the coverage and delivery of mental 
health service in the military medical system, and third, the 
confidentiality of patient records.
    First, the PDP and the General Accounting Office report.
    When this program was terminated by the Congress, it 
required the GAO to evaluate the program and make 
recommendations regarding its continuation. This report 
entitled, ``Defense Health Care: Need for More Prescribing 
Psychologists Is Not Adequately Justified''; this report, it is 
attached at the end of my written testimony.
    The report documents what the American Psychiatric 
Association has consistently maintained, that the program is, 
and was from its beginning, a major boondoggle which was never 
needed and never requested by the military, but only by one 
Senate aide, who happens to be a psychologist and who used his 
Senator's control over the military's budget to fund a program 
which was of no benefit except to the profession of psychology 
and which began without any House or Senate hearings or any 
consideration by this Committee or Full Committee.
    This program has wasted now $6.1 million taxpayer dollars 
and used military personnel and their families as its subjects. 
Its original justification was to train psychologists to treat 
something called ``battle fatigue.'' When it was pointed out 
there was, per se, no such condition, then the rationale was 
changed to a shortage of psychiatrists and the cost-benefit of 
training psychologists to write prescriptions.
    So the GAO report concludes: ``Training psychologists to 
prescribe medication is not adequately justified because the 
military health services system has no demonstrated need for 
them, the cost is substantial, and their benefits uncertain. 
The MHSS has more psychiatrists than it needs to meet its 
current and upcoming readiness requirements.''
    The report goes on to make the following important points, 
that even with the training provided psychologists because they 
have no medical education, they cannot substitute for 
psychiatrists in diagnosis and treatment, and furthermore that 
the cost of the program is extremely high for the value of the 
product.
    $6.1 million has been spent, $610,000 per each graduate 
from the program, that has produced 10 prescription-writing 
psychologists, the last two of which had to be recruited out of 
the Senator's office and appointed to the rank of major in 
order to get sufficient students in the class, because there 
were no volunteers or insufficient volunteers from the Army.
    That cost of $610,000 compares to a cost of about $300,000 
in tuition and stipends and costs to produce a fully educated 
and trained psychiatrist over an 8-year period of medical 
school and residency, compared to the $610,000 for a 2-year 
quick course and one year of training, which the DOD's own 
oversight committee thought brought these psychologists about 
to the level of second year residents.
    Under the heading is that no government program is easily 
terminated, and despite the GAO report and the statement from 
the DOD that it has no plans to extend the program after the 
termination date of June 30th, 1997, as each of you may be 
aware, a major lobbying campaign has been undertaken to 
discredit the GAO report, to influence the Congress to 
reinstate this program, which from its inception was only a sad 
monument to a psychologist's wish to be a physician.
    The GAO report is solid, it is well balanced, and it is 
your own. Reinstatement would only tend to support the public's 
perception that the Congress sometimes spends millions of 
dollars on wasteful and needless programs.
    Now, in the delivery and coverage of mental health services 
in the military medical system, studies repeatedly document 
that mental disorders are as diagnosable, as serious, and as 
treatable, certainly as prevalent, and as costly as heart 
disease, diabetes, and cancer. There is a move at the present 
time to shift the CHAMPUS delivery system for mental health 
services into a managed care system, much as many other 
services are being shifted.
    For many reasons military life is more stressful than 
civilian life, especially for children and adolescents. CHAMPUS 
has now implemented the TRICARE program which moves CHAMPUS 
into the managed care arena. These systems generate savings for 
the insurer by limiting access to mental health care. We are 
concerned that TRICARE will follow this plan, including special 
limits on psychotherapy. These policies may save money in the 
short run, money which is converted into managed care profits, 
but these measures are more costly in terms of dysfunction, 
morale, and long-term costs, and that has been demonstrated 
several times over.
    Patients should receive the medical care they require, no 
more and no less. Our hope is that Congress will expect that 
TRICARE will strive to achieve this goal.
    Third and last, and very briefly, is the issue of great 
importance of confidentiality of patient records. Recently at 
Elmendorf Air Force Base in Anchorage, Alaska, the 20-year-old 
daughter of a military counterintelligence agent was allegedly 
raped by an airman. Her records, when she sought therapy at the 
base to deal with this, detailing her sessions with the 
psychiatrist, were requested by military lawyers to defend the 
airman charged with the rape because the records are considered 
government property.
    The Supreme Court majority in Jaffee v. Redmond stated that 
the balance of interest regarding psychotherapy was clearly on 
the side of confidentiality. I will not quote that statement, 
but it makes a very strong statement of the importance to the 
public and in this case to the military by extension on my part 
to the military, that the importance of confidentiality very 
much outweighs the evidentiary benefit that would result from 
the denial of the privilege.
    The Department of Defense's Assistant Secretary for Health 
Affairs has recommended that nonactive duty patient/Department 
of Defense psychotherapist communication should be privileged, 
as it is in the civilian sector.
    It is time overdue to take action on this generally agreed 
upon position. It is prima facie that confidentiality is 
necessary for accurate diagnosis and effective treatment. It is 
in the self-interest of the military to afford family members 
of active duty personnel the same right and access, and 
therefore to effective health care to which they would be 
entitled if they were not members of the military family. We 
urge you to request the DOD to amend the military rules of 
evidence to create this privilege.
    Thank you very much.
    Mr. Young. Doctor, thank you very much.
    [The statement of Dr. Wiener follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 17, 1997.

                   AMERICAN PSYCHOLOGICAL ASSOCIATION


                                WITNESS

MORTON ANN GERNSBACHER, Ph.D., AMERICAN PSYCHOLOGICAL ASSOCIATION

                              Introduction

    Mr. Young. I would like to invite Dr. Morton Ann 
Gernsbacher of the American Psychological Association to come 
to the table. They have a little different opinion of the PDP.
    Dr. Gernsbacher, you are recognized for 5 minutes. Your 
entire statement will be placed in the record. Please summarize 
as you wish.

                      Statement of Dr. Gernsbacher

    Ms. Gernsbacher. Thank you, Mr. Chairman.
    I am Dr. Morton Gernsbacher, the Sir Frederick C. Bartlett 
Professor of Psychology at the University of Wisconsin in 
Madison. So I am here on behalf of American psychologists who 
don't necessarily aspire to be physicians.
    I am here on behalf of the American Psychological 
Association, and I want to make three brief points: The 
continuing need to invest in research, including psychological 
research at the Department of Defense; the need to sustain 
support for the Army Research Institute for the behavioral and 
social sciences; and APA's continuing support of the 
department's demonstration program that is training 
psychologists to prescribe psychotropic medications.
    DOD has supported psychological research since World War 
II. Today, as our military forces streamline, downsize, and 
become more diverse, DOD-funded behavioral research is 
revealing ways in which to enhance human performance, train for 
complex tasks, and identify and build leadership.
    We believe that maintaining DOD's technology base must be 
6.1, 6.2, and 6.3A research in these areas. It is important to 
recognize that increasingly sophisticated weapons systems place 
more, not fewer, demands on human operators and maintainers. We 
must ensure that our military personnel are as well prepared as 
their machines to meet the challenge. This is not possible 
without a sustained investment in human-oriented research.
    Our written statement includes specific requests for 
research programs in the Navy, Air Force, and Army. But I want 
to highlight the need for the Committee to support an increased 
budget for the Army Research Institute--ARI.
    APA recommends a 1998 funding level of $21.4 million for 
ARI, and the allocation of 165 full-time equivalent positions. 
This is $3.65 million and 468 positions more than requested, 
yet it is lower than the current funding level of $23.7 
million.
    Funding for ARI has been eroding, despite the strong record 
of ARI in sponsoring research that is essential to the training 
and performance of Army personnel. It is critical that this 
Subcommittee stop the erosion this year.
    About half the Army's budget, some $45 billion, is spent on 
personnel, but less than $24 million is now spent to make these 
personnel more effective. In comparison, $16.2 billion is spent 
on material procurement and around $4.3 billion is spent on 
research to make the equipment more effective.
    ARI works to build the ultimate smart weapon, the American 
soldier, and its efforts deserve your support.
    The ARI was established to conduct personnel and behavioral 
research on such topics as minority and general recruitment, 
personnel testing and evaluation, training and retraining, and 
leadership. And this is the type of research that I conduct.
    Reliable data about these issues is critical, as you know 
from today's headlines. While the Army seeks to solve the 
problem of sexual harassment within its ranks and establish 
workplace ethics and procedures that bring out the best from a 
diverse work force, good data collected for the Army from 
scientists who understand how the Army works will help the Army 
plan and execute reasonable policies.
    ARI is the focal point and principal source of expertise 
for all the military services for leadership research, an 
important area for all the armed services. Research that helps 
identify, nurture, and train leaders is critical to their 
success. In addition, ARI conducts research on the training and 
other demands of the peacekeeping role, a difficult job that 
requires different training than the combat role.
    APA urges you to support a modest increase for ARI. Its 
budget has been reduced well over 50 percent from a high of 
around $50 million in 1995. The Army cannot buy this research 
more cheaply elsewhere. DOD's investment in ARI's scientific 
skills and its honest brokering of essential research will 
continue to serve our Nation well.
    Finally, I want to remind the Committee that APA remains 
very supportive of pharmacology training for psychologists in 
the military health services system.
    A respected research organization, Vector Research, Inc., 
in a May 1996 report commissioned by the DOD, extensively 
analyzed the Psychopharmacology Demonstration Project, PDP. 
This is the project within DOD that has trained a small number 
of military psychologists to prescribe psychotropic medication 
when appropriate. Vector showed the benefits of having 
pharmacopsychologists in the military, 10 of whom will have 
graduated from the 2-year Fellowship by mid-1997.
    I can only briefly summarize the report in my remaining 
time, but I refer you to the APA's written statement for a more 
complete discussion. The report states that, ``if 
pharmacopsychologists are utilized in lieu of some physicians 
on deployment, their contribution would be the safe and 
effective treatment of service members with psychotropic 
medications at a lower cost than could be achieved by utilizing 
physicians in that role.''
    A recent GAO report unfortunately misses the point, 
ignoring the beneficial effect of psychologists prescribing on 
the military health system overall. APA has serious concerns 
with the methodology used in this study, and with the fact that 
GAO ignored its own evidence that contradicted its conclusions. 
GAO itself admits that clinical psychologists can be trained to 
prescribe, and even admits that by using pharmacopsychologists 
DOD can save money.
    DOD is running a health care business, and the bottom line 
is what skills are needed and which providers can most 
efficiently provide those skills. The PDP shows that this type 
of training has proved to be a good way to increase access for 
military personnel to appropriate, high-quality mental and 
behavioral health care.
    APA urges Committee members to recognize the value to the 
MHSS of psychopharmacological training and to support making 
such training a permanent option for psychologists in the 
military.
    In summary, both psychological research and practice have 
and will continue to provide savings from increased efficiency 
and enhanced productivity in the armed forces, and we ask again 
for your support.
    Thank you.
    Mr. Young. Thank you very much.
    Mr. Young. Mr. Visclosky has some questions on this issue, 
and I would like to recognize him at this time.
    Mr. Visclosky. Mr. Chairman, if I could direct them to Dr. 
Wiener?
    Doctor, what would your reaction be to the Vector study?
    Dr. Wiener. Well, the Vector study has a number of serious 
problems in it. One, of course, is it was an internal study 
rather than an external study.
    Mr. Visclosky. Internal to the Department of Defense?
    Dr. Wiener. Yes. And there are many actual--they made a 
number--all of these studies make assumptions, and they start 
out if you start with this set of assumptions, you come out 
with this set of figures, and if you start with other sets, you 
come out with very different figures.
    The GAO study, for example, took all of the costs of the 
program, including the start-up costs, because there had been 
so few people in the program that they justified that, I 
thought very rationally so, that you couldn't ignore what the 
start-up costs were.
    Then they asked Vector to use the same cost basis and see 
what would happen. If I remember correctly, in the Vector 
study, even on the re-analysis, and this is contained in the 
GAO report, you would require that the psychologist prescribe 
anywhere from 85 to 110 percent of their time, and nobody is 
going to spend 85 percent of their time basically writing 
prescriptions or dealing with writing prescriptions. That is 
not realistic.
    Mr. Visclosky. They are at about 38 percent now, right?
    Dr. Wiener. The psychologists, you mean? I think that was 
the figure. I don't remember exactly. It is also important to 
remember that 38 percent is also still, for each one of them, 
under supervision, so there is an additional component of 
supervisory time involved in the cost. They have not been able 
to yet attain nonsupervised prescription writing privileges or 
psychopharmacology privileges. Also, they don't take into 
account the fact that particularly severely ill patients, sick 
patients, have a number of other illnesses as well, and that 
writing only prescriptions for psychoactive drugs without any 
realization or training or preparation to understand the other 
illnesses and their medications and their interactions is not 
really very appropriate.
    Mr. Visclosky. You would have us believe that a trained 
psychologist would not understand their limitations and would 
not therefore, prescribe in that circumstance?
    Dr. Wiener. I won't make that assumption.
    Mr. Visclosky. Would you presume, then, that psychologists 
shouldn't prescribe at all?
    Dr. Wiener. Yes. There is no purpose and no value and no 
adequate training available for psychologists to write 
prescriptions.
    Mr. Visclosky. In other fields of medicine you have MDs 
anesthetizing patients, and nurses anesthetizing patients as 
well.
    Dr. Wiener. Wait a minute, did you say MD?
    Mr. Visclosky. They are not MDs, nurses who are not MDs 
delivering anesthesia. In the field of eye care, you have 
ophthalmologists. And I would understand you have both nurse 
anesthetists in the military; you have ophthalmologists in the 
military; you have nurse practitioners. As you indicated, we 
are in health care. We have $15 billion here at stake and we 
are looking for cheaper solutions.
    I don't have a firm position one way or the other on the 
difference between the two of you, but I would suggest we ought 
to be looking at competition in the military, to reduce costs.
    Dr. Wiener. Well, I think you have looked at it, and I 
think the GAO report looked at it.
    Mr. Visclosky. I would respond as far as Vector, if it is 
going to be a permanent program, that the start-up costs that 
were factored into the GAO study are a one-time occurrence and 
would not be permanent to the program.
    Thank you very much, Doctor.
    Mr. Young. Doctor, do you have any response to any of those 
questions?
    Ms. Gernsbacher. No, thank you.
    Mr. Young. Thank you very much, both of you, for being 
here.
    [The statement of Dr. Gernsbacher follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 17, 1997.

NON COMMISSIONED OFFICERS ASSOCIATION OF THE UNITED STATES OF AMERICA

                                WITNESS

SERGEANT MAJOR MICHAEL F. OUELLETTE, U.S. ARMY (RET.), DIRECTOR OF 
    LEGISLATIVE AFFAIRS, NON COMMISSIONED OFFICERS ASSOCIATION OF THE 
    UNITED STATES OF AMERICA

                              Introduction

    Mr. Young. I would like to welcome back before the 
Committee Sergeant Major Michael Ouellette, the Director of 
Legislative Affairs for the Non Commissioned Officers 
Association of the United States. The sergeant major and I 
spend a lot of time together working on the quality-of-life 
issues for our troops and make sure we do the best we can to 
provide a good quality of life for them.
    I was interested in reading your testimony, Sergeant, 
that--I want to quote you--you say, ``Enlisted people indicate 
they no longer can afford to shop in the exchange for many 
items. In fact, many enlisted members have referred to the K-
Mart, WalMarts and Target Stores in the local communities as 
`enlisted exchanges.' ''
    You indicate that the solution to the problem would be 
lifting exchange restrictions. Tell us more about that as you 
proceed with your time.

                 Statement of Sergeant Major Ouellette

    Sergeant Major Ouellette. Fine, Mr. Chairman. Thank you 
very much again this year for the invitation to appear before 
you to discuss many issues that are very important to enlisted 
people currently serving in the Armed Forces and to virtually 
everybody serving.
    I would like to personally extend to you the thanks of the 
Non Commissioned Officers Association and the other members of 
the Military Alliance for the outstanding work that you have 
done in the past years to provide pay increases that went 
beyond those recommended by the administration, to do separate 
Basic Allowance for Quarters--BAQ increases, to provide 
military construction money for increases. I would really hate 
to see what the Armed Forces today would look like from a 
quality-of-life standpoint if it had not have been for the 
outstanding efforts of this Committee over the past number of 
years.
    The point that you mentioned in your opening remarks 
concerning the exchanges, I have found when I have traveled to 
many of the installations, military enlisted people will come 
up to me, and I will talk about exchanges. I feel the 
importance of exchanges are this: That by encouraging people to 
use them, to spend their dollars there, that money then rolls 
over into Morale, Welfare and Recreation--MWR programs and goes 
back into the installation. That consequently could reduce 
taxpayer liability for those programs. It is sort of a self-
supporting issue.
    When I talk to enlisted people, many of them say they no 
longer use the exchange on post, they are going down downtown 
to the WalMarts, the Target Stores, and even go so far as to 
refer to them as ``enlisted exchanges.'' And when I question 
them on that, it is simply this: They will say the exchanges 
tell you they will save you 30 to 40 percent on name brand 
merchandise, but if you can save 40 percent on a Tommy Hilfiger 
shirt that is sold in the exchange for $65, it really doesn't 
do me any good because I can't get there from here anyway.
    What we need to do is lift the restrictions. I think a lot 
of the lifting of the restrictions are really concerns that 
product lines, large top-of-the-line products, big-dollar 
products, will be brought in, and I don't think so.
    I think the other thing will be that the exchanges are 
recognizing the fact that they have pretty much priced enlisted 
people out of the market and retirees out of the market, and 
hopefully by allowing those stores to remain competitive with 
the outside, that we will be able to roll over money, maintain 
the money to help ourselves within their military communities, 
thereby reducing the appropriations needed to support those 
programs.
    When I was coming here to testify, I wanted to make a 
special note. Most of the statements submitted by military 
associations pretty much sang the same songs. We understand the 
issues and support the same kind of programs for the most part.
    I wanted to not take a whole lot of time, but I called a 
constituent of yours, an old retired command sergeant major 
named Jim Hare, who lives down in your area, was a great 
soldier, served for 35 years, has never worked after 
retirement. He does volunteer work, driving senior citizens to 
doctors' appointments in the area. He has been sort of slowed a 
little bit lately because he has glaucoma.
    But I called him, and I said, Jim, I am going to appear 
before your Representative, Bill Young. He said, a good man. I 
said, what would you want me to tell him? And he said, Mike, he 
said, if anything, he said, tell Mr. Young that I need his 
Committee to make decisions that support and protect the 
institution of the Armed Forces, that take care of the people 
that are in the Armed Forces that are currently doing the 
things I used to do and the people that worked for me did. But 
it is the institution that you really look at, and saving that 
in terms of recruiting, retention, you draw money into taking 
care of people, thereby maintaining that institution.
    He said, the other thing I would say is talk to Mr. Young 
about protecting my earned retirement benefits, whether it be 
military health care, which I am having a tough time with right 
now. I need some options out here. I have got to take care of 
my wife. She has got some medical problems. I need some help 
here because I don't know where to turn.
    We need to protect the commissary as an earned, non-pay 
benefit that I served for, that helps me make ends meet. We 
need to protect the exchanges and those kind of things.
    He was very sincere. He was most appreciative for the work 
you have done, particularly in cost-of-living-adjustments--
COLAs. He said that work has allowed him to continue doing what 
he has been able to do, because the cost-of-living adjustments, 
allowances, that you have provided every year, above and beyond 
removing the inequities, have allowed him to continue to pay 
the bills and be able to be an important part of the community, 
and he was most appreciative to you.
    Mr. Chairman, that is about all I have to say right now. If 
you have any other questions, I have got a statement that 
outlined our issues, and I know you understand them, and the 
Committee will work very hard to make life better for the 
people who serve this country.
    Mr. Young. We appreciate all the time you spend in this 
work and the way that you stay in touch with us, and we also 
appreciate the aid and assistance you give us on occasion when 
there are issues that need to be resolved.
    Mr. Young. Peter?
    Mr. Visclosky. No, thank you.
    Mr. Young. We appreciate your being here. I invite all of 
you to stay in touch. The quality of life of the people that 
serve our Nation is utmost in our priorities.
    Sergeant Major Ouellette. Thank you for the invitation and 
allowing the other military associations to bring their issues 
to the table. I appreciate it.
    [The statement of Sergeant Major Ouellette follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 17, 1997.

                    AIR FORCE SERGEANTS ASSOCIATION


                                WITNESS

CHIEF MASTER SERGEANT JOSHUA W. KREBS, USAF (RET.); MANAGER, 
    LEGISLATIVE AFFAIRS, AIR FORCE SERGEANTS ASSOCIATION

                              Introduction

    Mr. Young. Next on our agenda is Joshua Krebs of the Air 
Force Sergeants Association. When I reviewed the written 
statement, I was particularly interested in the discussion of 
increasing responsibilities given to enlisted members. You said 
the Air Force has converted many jobs from commissioned to 
enlisted, greatly raising the level of responsibility of 
enlisted members without a commensurate raise in pay.
    My son tells me about that, because he is a one-striper at 
Sheppard Air Force Base, and he wonders about that same thing. 
We would like to hear from you also. Your entire statement will 
be placed in the record.

                Statement of Chief Master Sergeant Krebs

    Sergeant Krebs. Thank you, sir. Understanding that you are 
running late, I will, in fact, just go to the issue you just 
brought up.
    The Air Force in particular has been converting many 
positions from officer to enlisted, noncommissioned, and at the 
same time the ratio of enlisted pay to officer pay has remained 
steady over many years. I did not go into any particular 
details of the positions that were converted, but I can tell 
you that over 1,000 weapons director positions have been 
converted from officer to enlisted. A number of forward air 
control positions that used to be fighter pilot have been 
converted. Scores of support positions throughout have been 
converted.
    Just as the military has taken away some of the layers of 
responsibility, they have also brought down the levels of 
responsibilities, so that the senior commissioned people have 
more responsibility than they had.
    We believe it is time that somebody takes a hard look at 
what was there 10 years ago as far as what enlisted people did 
and what is there today, and look at the same time at the 
proportionate pays that were given to enlisted people then 
versus today, and the officers. I think if we did that and took 
an honest look at it, we would find that the enlisted member is 
giving more to the military today than what they did 10 years 
ago for disproportionately less pay.
    That concludes my statement. Thank you, sir.
    Mr. Young. My understanding is that the enlisted Air Force 
personnel are now operating and flying the Satellite 
Constellations. Am I correct in that?
    Sergeant Krebs. To the best of my knowledge, yes, sir.
    Mr. Young. Well, that is a very interesting point that you 
raise. We will take a close look at that. Getting pay increases 
is not really easy. We will provide a pay increase this year. 
It won't be very much, unfortunately, but there have been times 
when we provided pay raises over the objection of the 
administration which didn't ask for them. But we understand we 
are way behind in pay for the members of the military, and we 
are way behind in a lot of the quality-of-life issues. We are 
doing the best we can to catch up.
    Again this year we will do the very best we can to make 
housing better, to make the medical care better, to make their 
responsibilities more recognized properly. So we are in this 
with you, and we are going to do the best we can. We appreciate 
your calling this to our attention.
    [The statement of Chief Master Sergeant Krebs follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 17, 1997.

                       FLEET RESERVE ASSOCIATION


                                WITNESS

CHARLES L. CALKINS, NATIONAL EXECUTIVE SECRETARY, FLEET RESERVE 
    ASSOCIATION

                              Introduction

    Mr. Young. I would like to welcome back Charles Calkins, 
the National Executive Secretary of Fleet Reserve Association. 
I think you now have about 162,000 members, and you are 
representing active-duty, Reserve and retired U.S. Navy, Marine 
Corps and Coast Guard enlisted personnel.
    Your prepared statement points out reducing end strength 
and increasing deployments place considerable strains on the 
service personnel and their families, and you will hear a very 
strong amen from the Members of this Committee. We recognize 
that, we see what it is doing to our overall readiness, to the 
morale of the troops, to the condition of our equipment. We 
understand that, believe me. We are happy to hear from you on 
the subject. You are recognized.

                        Statement of Mr. Calkins

    Mr. Calkins. Thank you, Mr. Chairman. You just stole half 
of my presentation.
    What we want to do is on behalf of the 162,000 members of 
the Fleet Reserve Association is to thank you for the watchdog 
that you have been, trying to protect those rights and benefits 
of the members at sea, to show our appreciation to you and our 
Committee.
    At the outset, the Fleet Reserve Association, as you said, 
directs your attention to the impact of continued high 
operational tempo within the uniformed services. End strengths 
have been reduced by roughly 25 percent during the drawdown, 
yet deployments have increased significantly, resulting in 
considerable strain on service personnel.
    A little personal note that I might add into that. About 3 
weeks ago I was headed up to Groton to do a legislative 
briefing to an active-duty group at the sub school, and I 
personally know a sailor up there, and I called and said, I am 
flying up on Sunday, why don't we get together Sunday afternoon 
or evening for lunch or for dinner. My presentation is on 
Monday morning, and I have got to fly back Monday evening. And 
he said, Dad, I would love to, but I got to work. I said, you 
don't have duty. He says, Dad, I haven't had a weekend off for 
about 3 or 4 weeks. I said, that is fine. I said, what time do 
you get out of work? He said, 5 o'clock. I said, 5 o'clock on a 
Sunday? He says, yeah.
    So we did eventually get together for dinner. I said, you 
know, you need some time off. You look like you are kind of run 
down. This young fellow is about 12 years in the Navy, and he 
is at a point where he has to make a decision to continue or to 
walk, and, of course, being retired Navy myself, I am kind of 
hoping he is going to follow my footsteps all the way to 30 
years and not stop at 20.
    And he said, Dad, I have to really take a hard look at what 
is going on. And he said, I look around at the civilians that 
come aboard to fix our ship. He says, they have Mondays through 
Fridays, they are off for the weekends, they get more pay than 
what I get, they get to spend more time with their families 
than I do.
    That is the real hard issue, and I think that is pretty 
well servicewide. I don't want to pick out the Navy 
specifically, but it really hits home with me and brings back 
some memories. I think we can go from every home port to every 
home port, discussion, it is the same issue. I think it is a 
very real thing.
    Specifically, and we are looking at more downsizing in the 
Navy further, 3 or 4 weeks ago there were discussions or rumors 
of cutting the Navy about another 11,000 people, and since then 
it is going to be cut another 6,000 people by 1999. I am 
looking at that and saying that is an awful lot of carriers or 
ships to go to sea, and what happens to our defense in the 
meantime.
    Several issues are out there as it has been indicated in 
our statement. The one thing that I think that really should 
hit home with the Committee, if I might ask, is the addendum 
that we added to my statement referring to the pay raises, a 
time lag in the pay raise. The pay raise becomes effective or 
is discussed in October. It doesn't become effective for 15 
months later. And the pay gap, as the chart shows, prior to the 
all-volunteer force, the pay comparability between senior 
enlisted personnel and junior enlisted personnel was 4.5 to 1, 
and yet senior officers and junior officers was 5.0 to 1. Since 
then, 1997, senior enlisted to junior enlisted is 2.6 to 1, and 
officers is 4.6 to 1.
    We need to take a hard look at that. The people that are 
making the Navy, the Marine Corps and the Coast Guard work are 
in our senior enlisted category, a group of people, and we 
should consider those pay raises.
    Mr. Chairman, again, welcome back. I hope you are in good 
health. You look good. Your color is back. Keep up the good 
work for us. We really appreciate it.
    Mr. Young. Thank you very much, sir. We appreciate you 
being here, and we appreciate the work you do for those who 
serve in our military. I also thank you for your comment. My 
health is very good now. I had a few bumps along the way, but I 
am back at full force again, and things are well. Again, thank 
you very much for being here.
    [The statement of Mr. Calkins follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 17, 1997.

                  NATIONAL MILITARY FAMILY ASSOCIATION


                               WITNESSES

SYDNEY T. HICKEY, ASSOCIATE DIRECTOR, GOVERNMENT RELATIONS, NATIONAL 
    MILITARY FAMILY ASSOCIATION

                              Introduction

    Mr. Young. Our next witness is Sydney Hickey, the Associate 
Director of Government Relations of the National Military 
Family Association. Mrs. Hickey has been a military family 
member for most of her life, is a spouse of a retired Naval 
officer and has an Air Force daughter. She also puts out one of 
the best newsletters in town, and last year I remember telling 
you that and asking that we be kept on your mailing list, and I 
make that request again. Please keep us on your mailing list, 
because we find it very, very informative.
    We would like to recognize you now. Your entire statement 
will be placed in the record. Please summarize.

                        Statement of Mrs. Hickey

    Ms. Hickey. Thank you very much, Mr. Chairman. I can assure 
you you will be the top of our mailing list. The families we 
serve remain indebted to you and the Members of the 
Subcommittee for your strong support of their quality of life.
    This morning I would like to touch briefly on three issues 
from our written testimony: compensation, health care and 
military communities. I think it is important to note that to 
military families, compensation is not only what goes into the 
bank account, but what doesn't have to come out of it for the 
basics such as food, shelter, clothing and the care of their 
children. So if you propose a cut in savings at the 
commissaries, or a 20 percent increase in child care costs as 
envisioned in the Navy's pilot program to subsidize bases in 
the civilian child care centers, if you propose housing 
privatization initiatives that may end up costing the members 
out of pocket, families view these as compensation cuts.
    Obviously depressing active-duty pay raises will continue 
to put military families further and further behind their 
peers, as will the Department of Defense's proposal to rob 
Peter in order to pay Paul a small amount of the basic 
allowance for subsistence.
    In health care, I think some of the problems of the TRICARE 
program have been adequately discussed before, so I would just 
like to jump to the fact that NMFA believes the underlying 
problem with the health care system is that the benefits 
provided, the cost to the beneficiary of those benefits, and 
the population covered by those benefits are subject to yearly 
budget battles within the Pentagon. We do not believe the 
military beneficiaries should be subject to the budget of a 
single agency. If, as with the Federal Employees Health 
Benefits Program, an economic change becomes necessary for the 
fiscal safety or health of the country, then, fine, let's 
debate that in the halls of Congress, not the halls of the 
Pentagon.
    Debate in the halls of the Pentagon has led to our leaving 
the age 64 and older population out of the current health care 
problem. Debate in the halls of the Pentagon is including 
discussions right now of charging even CHAMPUS-eligible 
military retirees over $900 just to put their big toe in the 
military health care facility. Is it any wonder that military 
families, including active-duty, are asking the question who is 
next?
    In the military community, the military community includes 
the installations, the organizations, the institutions and the 
people, and it is viewed as home by military families whether 
or not they actually live on the installation. Our family 
support centers teach skills enabling service members and their 
families to cope with the demands of military life, and then 
they provide that safety net to assist the families when their 
coping skills are not enough.
    With the current high personnel and operational tempo and 
the long workdays and workweeks even when the service member is 
home, the need for the services provided by these family 
centers has increased. Privatization and out-sourcing 
initiatives, whether for family housing, family support 
functions, or child care, have the potential to increase 
quality of life and reduce costs. NMFA believes that care 
should be taken that such initiatives reinforce the community 
and do not, no matter how inadvertent, lead to the destruction 
of the community and its support infrastructure.
    To conclude, as important as NMFA believes the strong 
family support structure is for military families, in the end 
nothing can totally stop the negative effects on family life of 
frequent separations, including what we call the ``they only 
sleep here'' syndrome. Thank you very much, Mr. Chairman.
    Mr. Young. Thank you very much for being here. We certainly 
share your concerns. It will be part of our consideration as we 
proceed to provide the funding for fiscal year 1998. We will do 
the best we can.
    Ms. Hickey. I know you will. Thank you, sir.
    [The statement of Ms. Hickey follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 17, 1997.

                          THE AMERICAN LEGION


                                WITNESS

DENNIS M. DUGGAN, ASSISTANT DIRECTOR, NATIONAL SECURITY-FOREIGN 
    RELATIONS COMMISSION, THE AMERICAN LEGION

                              Introduction

    Mr. Young. I would now like to now invite Colonel Dennis M. 
Duggan of the American Legion to come to the table. In addition 
to his post at the American Legion, Colonel Duggan served 25 
years in the military, including two tours of duty in Vietnam.
    We are always interested in hearing the views of the 
American Legion. You have expressed something in your written 
statement that is bothering all of us seriously, and that is 
the question of the possibility that we are returning to the 
days of the hollow forces. There is a lot of reason to believe 
that is happening. We would like for you to expand on that 
issue.
    Your entire statement will be placed in the record. Please 
feel free to summarize as you wish.

                        Statement of Mr. Duggan

    Mr. Duggan. Mr. Chairman, it is a pleasure to appear before 
you and your distinguished Committee. We have always looked 
forward to that. On behalf of the 3 million members of the 
American Legion, we are extremely grateful for this 
opportunity. We, as in our entire membership, as well as the 
members of the Armed Forces, I am sure, owe you a tremendous 
debt of gratitude for your continuing efforts to not only 
maintain a strong national defense, but to enhance the quality-
of-life features for our men and women who serve in uniform. We 
know, we are convinced, that you and your Committee will do 
your very, very best for our men and women.
    We receive daily letters not only from veterans and 
military retirees, but from a number of active-duty people and 
their families, and they actually cite, and we know you are 
aware of them, the actual and proposed string of broken 
promises and the growing list of benefits which apparently seem 
to be under attack. Letters daily from medicare-eligible 
military beneficiaries who are prohibited from enrolling in the 
TRICARE program. We are aware that some 58 military medical 
facilities are closed or are closing, and another 17, we 
understand, are identified for closure. The Department of 
Defense, once again, is proposing the closure of a cost-
effective Uniformed Services University of Health Sciences, 
which we strongly support, and the Defense Commissary Agency 
may have to close some 37 commissary stores to make up 
budgetary shortfalls. And the list goes on.
    If we had to prioritize, the Legion's greatest concerns 
include, first of all, military quality of life, closely 
followed by the readiness--and we realize quality of life is a 
form of readiness--and, lastly, modernization. A marked decline 
in quality-of-life features for the active force and military 
retirees, coupled with heightened operational TEMPOS, we 
believe, can only adversely impact on both retention and 
recruiting.
    As Chairman Floyd Spence noted in his extremely revealing 
and great report, there is a widespread perception that not 
only is the military having to do more with less, they are also 
getting less. Good soldiers, sailors, Marines and airmen are 
questioning the desirability of a career in uniform, and 
undoubtedly our youth will question the sincerity of a military 
service that provides diminishing health care, closing 
commissaries, paying less-than-inflation pay raises, living in 
substandard housing, and enduring frequent family separations. 
Most civilians would not endure a fraction of the sacrifices 
that our military and their families undergo.
    We also believe that many of our military retirees can no 
longer recommend a military career, or, for that matter, even 
military service. They themselves are seeing the promise of 
lifetime health care being broken.
    So we in the Legion support a broad array of options to 
help the medicare-eligible military retirees to include 
medicare subvention, the option of enrolling in the Federal 
Employees Health Benefits Plan regardless of age or health care 
status, and, of course, the GI Bill of Health.
    We also support the correction of such longtime inequities, 
for example of the concurrent receipt, however small, of both 
military retired pay and VA disability compensation, and 
removing the unfair automatic age 62 social security offset to 
the Survivors' Benefit Plan, or SBP.
    We have always believed that military service represents 
honorable and noble service to the Nation as it represents 
fulfillment of American patriotic obligation, but it is also a 
privilege and responsibility that has always embodied the 
highest form of service to the Nation. It is the only form of 
service which may call for paying the ultimate price for the 
common defense of the United States. We believe, therefore, 
that the beneficiary, the United States Government, continue to 
honor its obligations to all service members, all veterans, 
military retirees, and their dependents, or else we stand to 
lose the finest military in the world.
    Thank you, sir. If you have any questions?
    Mr. Young. Colonel, thank you very much.
    Mr. Young. Peter, do you have any questions?
    Mr. Visclosky. No. No, thank you.
    Mr. Young. I just want you to know we are committed to 
doing the very best we can. You know our resources get more 
limited all the time. The OPTEMPO that you mentioned, the 
Bosnia operation, which was supposedly going to cost us $1.5 
billion, is now over $6 billion. We are wearing out the 
equipment, we are wearing out the troops, and we are having to 
work with the real world. We are doing the best we can. You can 
count on us.
    Mr. Duggan. Yes, sir, we will.
    [The statement of Mr. Duggan follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 17, 1997.

                         THE MILITARY COALITION


                               WITNESSES

VIRGINIA TORSCH, CDR, MSC, USNR, THE RETIRED OFFICERS ASSOCIATION
MIKE LORD, CDR, USN (RET.), COMMISSIONED OFFICERS ASSOCIATION OF THE 
    U.S. PUBLIC HEALTH SERVICE, INC.

                              Introduction

    Mr. Young. Next is The Military Coalition, which is 
comprised of 23 military and veterans' organizations. The 
Coalition stays in touch with us on a regular basis, and we 
always appreciate those communications and the views that we 
receive.
    Representing The Coalition are the cochairs of the Health 
Care Committee, Commander Virginia Torsch and Commander Mike 
Lord. Your statements will be made a part of the record. It is 
my understanding that Commander Torsch will be making the 
testimony for both of you.
    Mr. Lord. That is correct, sir.

                        Statement of Ms. Torsch

    Ms. Torsch. Thank you very much, sir. In the interest of 
time, I only wanted to concentrate on one of our major issues, 
although we cover the other two components, the fix in TRICARE 
and medicare subvention. The most important one for this 
committee is our legislative initiative opening up the Federal 
Health Employments Benefits Program to the medicare-eligibles.
    I would like to express our very deep appreciation for your 
leadership and strong support last year for this initiative. 
Although your efforts to work out provisions for a 
demonstration fell short of its goal, we did make considerable 
progress. Significantly, the fiscal year 1997 defense 
appropriations conference agreement directed DOD to submit a 
report on the viability of such a demonstration program. 
Unfortunately, we understand this report is still in progress 
and probably will not arrive in time for the fiscal year 1998 
hearing cycle. Given this disappointment, these hearings take 
on added significance.
    First, it seems DOD will not cooperate in designing and 
setting up an FEHBP-65 demonstration program unless directed to 
by statute. Second, the TRICARE program is not measuring up to 
expectations, and, of course, as I said, our written testimony 
detailed many problems with TRICARE that must be worked out to 
make this program a more effective health care benefit.
    Further, although the Coalition strongly supports medicare 
subvention, we recognize there is little likelihood it will 
benefit more than 40 percent of the eligible beneficiaries. The 
Coalition estimates that even after accounting for those who 
may already be enrolled in medicare at-risk HMOs or already 
participate in comparable private sector plans, there are still 
about 480,000 medicare-eligible beneficiaries who will not have 
any access through the government-sponsored health care program 
DOD promised them as a part of their lifetime health care 
commitment.
    Mr. Chairman, military retirees do not understand, and 
neither does The Military Coalition, why they should not be 
given the opportunity to participate in the health care program 
that provides Federal civilians retiree health care that is 
second to none. Therefore, The Coalition is seeking your 
support to authorize all medicare-eligible uniformed service 
beneficiaries to enroll in the Federal Health Employment 
Benefits Plan.
    Mr. Chairman, although The Military Coalition strongly 
endorses implementation of FEHBP-65 nationwide, we recognize 
there are still many unanswered questions that need to be 
addressed about the initiative. Therefore, The Coalition 
strongly urges this committee to spearhead the enactment of an 
FEHBP demonstration program. A test would provide concrete 
information on the number of uniformed services beneficiaries 
who would avail themselves of this option if offered. If the 
number of enrollees is less than the 95 participation rate 
predicted by the Congressional Budget Office, an estimate we 
believe is extremely high, the actual cost of the FEHBP-65 
option would be considerably less than current estimates.
    Secondly, since a separate risk pool would be established, 
there is every likelihood the cost to DOD would be further 
reduced. One reason is that the vast majority of military 
retirees are covered by medicare, and when you combine medicare 
with FEHBP, the health care outlays for FEHBP insurers are only 
70 cents for every dollar of premium paid.
    The Coalition therefore supports a test of this as a 
critical bridge to health care equity and requests the 
subcommittee appropriate an amount not to exceed $50 million to 
test this program at two sites in fiscal year 1998. Given the 
reality that Congress will approve more than $4 billion to 
provide FEHBP to Federal civilian retirees, some with as few as 
5 years of service, it doesn't seem unreasonable to ask for 
this insignificant sum be allocated to those who sacrificed to 
keep this Nation free. They did not equivocate then, and this 
Nation should not equivocate now.
    That concludes my testimony. I would be happy to answer any 
questions you have.
    Mr. Young. Thank you very much. As you heard throughout the 
day, this is an important issue. Last year, unfortunately, we 
ran into some jurisdictional issues, and medicare subvention, 
for example, died on the vine when the Congress adjourned. 
Fortunately, our colleagues recognize the importance of 
resolving this problem, and all I can tell you is you have our 
assurance we are going to continue to find a way to do this, 
and hopefully our authorizers will be able to get together and 
at least decide which of the three potential committees will 
actually assume jurisdiction.
    We appreciate your statement. Thank you for being here.
    Thank you.
    [The statement of Ms. Torsch follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 17, 1997.

    ENLISTED ASSOCIATION OF THE NATIONAL GUARD OF THE UNITED STATES


                                WITNESS

MICHAEL P. CLINE, MASTER SERGEANT (RET.), EXECUTIVE DIRECTOR, ENLISTED 
    ASSOCIATION OF THE NATIONAL GUARD OF THE UNITED STATES

                              Introduction

    Mr. Young. Now I would like to welcome back Master Sergeant 
Michael Cline of the Enlisted Association of the National 
Guard.
    We have again, as in the past, examined your statement as 
well as the other statements, and as you point out very, very 
accurately, the Guard is being called upon more and more to 
provide not only peacetime, but combat-ready support for 
contingencies around the world. As the drawdown of the active 
force continues, your role becomes that much more important.
    Your prepared statement will be included in the record, and 
we would like for you to summarize them.

                   Statement of Master Sergeant Cline

    Master Sergeant Cline. Thank you, Mr. Chairman. I would 
like to bring greetings from Command Sergeant Major Bill Reed 
from the Florida National Guard, and also from your group, 
Major General Bob Inslen. They have both inquired about your 
health. I will report back to them you look better than ever.
    One thing I would like to comment on, Mr. Chairman, your 
status on the list of Sydney Hickey. I don't know if I would 
want to be on that list, so you may want to take that into deep 
concern, because being on Sydney's list is not good.
    Mr. Chairman, Members of the subcommittee, we thank you for 
giving us the opportunity to present the views of the enlisted 
men and women of the National Guard of the United States. 
Pursuant to House rules, the Enlisted Association of the 
National Guard receives no Federal grants or other public 
funds.
    What I would like to expand upon is what House National 
Security Chairman Floyd Spence wrote about in his April 9th 
report on the rhetoric and reality of military readiness. 
Although Congressman Spence's report did not address issues of 
the National Guard and Reserve components, I did find many 
interesting similarities to what the National Guard is faced 
with in the administration's fiscal year 1998 budget request.
    In his report, the Chairman wrote that more than one 
division of the Army's 10 active-duty divisions is hollow and 
has no manning. The active Army is confronted with increased 
deployments, which is stretching not only the manpower 
resources, but also the funds necessary to properly train and 
maintain units, and therefore have turned and are relying on 
increased participation by the National Guard and its sister 
Reserve components to fill the void.
    However, the Guard is also faced with similar problems. The 
units that are being called upon to either backfill active 
component units or for deployment to Bosnia and other 
peacekeeping operations around the world will receive only 8 
percent of OPTEMPO funds necessary to train with.
    It does not take a master's or doctor's degree to figure 
out if the Guard units, under tiered readiness, who only train 
at a portion of the active components requirements and only are 
funded at the 8 percent level of the reduced requirement, 
which, by the way, are more than 60 percent of your Army and 
National Guard units, will not have sufficient training and 
will not be available for the active component to deploy, 
because no longer can they maintain many minimal readiness 
levels.
    Can you imagine, Mr. Chairman, having a professional truck 
driver who has a minimum of 23 miles behind the wheel of an 
80,000-pound truck to be qualified to run our Nation's 
highways, or, better yet, the Beltway or Interstate I-95 at 
rush hour? Yet the budget submission will only allow tank crews 
to drive and train with a 69-ton tank 23 miles per year. How 
will someone tell the families of Guard members that they were 
injured or gave their life because there were not sufficient 
funds to properly train them?
    Chairman Spence wrote about the shortcomings in training 
and lack of unit cohesion. The Guard is also faced with the 
same problems. More than 60 percent of the Army National Guard 
forces have no funds earmarked for schools. This includes 12 of 
the 15 enhanced readiness brigades. Individuals will have to 
attend what schools they can, using their 15 annual training 
days. Units going to annual training will report without 
sufficient personnel to do unit-level training, and have the 
same unit cohesiveness problems that the Chairman wrote about. 
Again, these are the same units that are being called upon to 
relieve the active component.
    The Chairman wrote about the 30 percent overall failure 
rate of new recruits in the Army. The Guard is faced with a 
similar problem, and it is because of the budget shortfalls. 
Twenty-four out of every 100 new recruits into the National 
Guard will not enter into initial entry training.
    The Congress has mandated the requirement of prior service 
personnel to be recruited into the National Guard. However, 
with the budget shortfalls, the strong possibility that the 
Guard would have to go below the required end strength levels 
agreed to in the off-site agreement, there will be no spaces 
for these prior service personnel.
    It is ironic, Mr. Chairman, that we, the taxpayer, spend 
$70,000 to $80,000 to initially train a new soldier regardless 
of whether they are active duty, National Guard, or Reserve. 
Then we spend millions of dollars to transition them out of the 
service because another study changes something.
    Congressman Spence also wrote that there is concern over 
the readiness assumptions, and those in charge of conducting 
the administration's Quadrennial Defense Review, QDR, that they 
will use. Recently Secretary of Defense Cohen stated we need to 
modernize and technologically advance the military for the 
future. However, the active Army has had to resort to 
recruiting CAP-3 recruits to meet recruiting goals.
    You would think that we would want the highest and smartest 
to be part of America's Army. It takes dedication, education, 
and skills to manage and use the new, updated equipment we 
already have, yet alone that of the future. Meanwhile, we have 
transitioned out of the service those who currently have the 
necessary skills and education to meet the needs of today's 
modern Army. The money invested into their training and 
education is totally lost, and we are not able to maintain them 
in the Guard and Reserve because of budget reductions or loss 
of positions.
    As a father and a husband, I want to know, Mr. Chairman, is 
the Congress and the administration going to provide the 
required resources so that National Guard can perform the 
missions that are requested of them and do it in a manner which 
is not only professional, and properly resourced and trained? 
Because if that is not going to happen, I don't want my wife 
and my two sons who serve in the National Guard to be in harm's 
way.
    I believe in the saying that the more you sweat in the 
classroom, there is less blood that will be spilled on the 
battlefield. However, to sweat in a training field or a 
classroom, the Guard must be properly resourced and funded.
    Mr. Chairman, I want to make it quite clear that our 
association actively supports our active-duty brothers and 
sisters. We believe they must be funded at 100 percent to be 
the first line of defense for our country. But to provide the 
necessary relief that they need in peacekeeping operations, and 
to relieve the stress on active-duty members and their 
families, the National Guard, a parent of America's Army, must 
also be properly resourced and trained. Although our Air Force 
and Navy can deploy anywhere in the world and literally bomb 
the heck out of a potential enemy, it takes trained, well-
disciplined soldier and Marines who occupy the real estate to 
say we now have undeniable control.
    Mr. Chairman, the Enlisted Association of the National 
Guard is proud to be a member of The Military Coalition, and we 
fully support and endorse the legislative proposals. Again, 
thank you for giving the Enlisted Association of the National 
Guard an opportunity to express its views on the fiscal year 
1998 defense budget.
    Mr. Young. Thank you very much for your views. You know we 
place a lot of credibility in the position that you represent. 
We appreciate your being here to talk with us about this. As I 
have told so many folks earlier today, we are going to do the 
best we can, and we do understand the importance of the 
National Guard.
    [The statement of Master Sergeant Cline follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 17, 1997.

               AMERICAN ASSOCIATION OF NURSE ANESTHETISTS


                                WITNESS

RONALD L. VAN NEST, AMERICAN ASSOCIATION OF NURSE ANESTHETISTS

                              Introduction

    Mr. Young. I would like to invite now Ronald Van Nest of 
the American Association of Nurse Anesthetists. The association 
represents over 26,000 certified registered nurse anesthetists, 
including more than 600 in the military.
    Mr. Van Nest, your prepared statement will be made a part 
of our official record. We ask you to summarize your statement 
for us at this time.

                       Statement of Mr. Van Nest

    Mr. Van Nest. Mr. Chairman, I am a certified registered 
nurse anesthetist, a CRNA, and I am here to speak to you on 
behalf of the American Association of Nurse Anesthetists, the 
AANA. I have been a member of the AANA Federal Services Ad Hoc 
Committee for 3 years, and I am a recent retiree of the U.S. 
Navy Nurse Corps, and the immediate former nurse anesthesia 
consultant to the Navy Surgeon General.
    The AANA is the professional association that represents 
over 26,000 CRNAs, including over 600 CRNAs in the military.
    I am here to speak with you about the cost savings of your 
continued support of CRNAs in the military. It is important to 
note that CRNAs provide the same high-quality care as our 
physician counterparts as measured by outcome studies.
    Now, how do CRNAs save Americans money? Nurse anesthetists 
are less costly to educate and far less expensive to retain on 
active duty. The cost of a 30-month nurse anesthesia education 
is approximately $29,000, while the cost of a 4-year residency 
for physicians is approximately $339,000. On those numbers 
alone, more than 10 CRNAs can be created for the cost of one 
physician anesthesia provider.
    Bonus money is another great savings when using CRNAs. If a 
nurse and a physician start anesthesia training at the same 
time, in 8 years the nurse anesthetist will have received 
$69,000 in special pays, while the anesthesiologist will have 
received $253,500, a quarter of a million dollars. In the case 
of the physician, all of it was received under payback 
obligation for their education.
    Now to staffing ratios. DOD can save more money by 
utilizing the two anesthesia provider groups in more 
appropriate numbers. The CRNA-to-anesthesiologist levels right 
now in the services are Army, 2 to 1; Air Force, 1.6 to 1; and 
the Navy, 1 to 1.
    It is ironic that during World War II when, nurse 
anesthesia training was very brief and mostly on-the-job 
training, that the ratio was 17 to 1. Yet now, when the 
anesthesia is far safer, with sophisticated technology, 
computerized monitors and alarms, and nurse anesthesia at the 
master's degree level, CRNAs are being supervised at much lower 
ratios.
    In the invasion of Panama, only CRNAs were assigned to the 
deployed combat units. When aircraft carriers deploy now for 
extended periods of time, the usual anesthesia provider on 
board is a highly qualified CRNA as the sole anesthesia 
provider. If such practice models are acceptable for deployed 
situations, then they should be acceptable in urban medical 
treatment facilities.
    I would like to briefly discuss the issue of board 
certification pay, BCP. The AANA is highly supportive of the 
board certification pay for all advanced practice nurses, yet 
many CRNAs do not receive it. This is the result of the 
interpretation that a CRNA must hold a master's degree in 
clinical anesthesia. Many experienced officers who are CRNAs 
have over their military career chosen to broaden their 
education by pursuing an advanced degree in fields such as 
education and management, but these do not qualify for the BCP. 
In the future, this bonus will act as a financial disincentive 
for nurse anesthetists to broaden their education.
    The AANA encourages DOD and the respective services to 
reexamine the issue of awarding board certification pay only to 
CRNAs who have clinical master's degrees.
    In conclusion, the AANA thanks this committee for its 
support of military nurse anesthetists through the incentive 
special pay increases and the board certification pay. The AANA 
believes that the appropriate utilization of CRNAs in the 
military is of critical concern and is an area that DOD could 
examine for increased cost savings.
    I thank the Committee members for their consideration of 
these issues, and I will be happy to answer any questions they 
may have.
    Mr. Young. Mr. Visclosky?
    Mr. Visclosky. Thank you very much, Mr. Chairman.
    Thank you very much for your testimony. I have three 
questions, if I could. On the issue of certification, my 
understanding is that the current national certification 
program does not require a master's degree.
    Mr. Van Nest. In 1998, that will be a requirement.
    Mr. Visclosky. You will have to have graduated from an 
accredited program.
    Mr. Van Nest. The Task Force on Accreditation requires by 
1998 all nursing anesthetist programs will be at the master's 
degree.
    Mr. Visclosky. Will it specify what type of master's degree 
you will have to have?
    Mr. Van Nest. No, sir.
    Mr. Visclosky. So you would want essentially DOD's policy 
to mirror what the national accreditation standards would be?
    Mr. Van Nest. That is correct.
    Mr. Visclosky. On the bonus program, you allude to that in 
your testimony, you don't have a recommendation. Do you have 
one you would be willing to submit to the subcommittee? You 
talk about the disparity, the discrepancy between nurse 
anesthetists and anesthesiologists.
    Mr. Van Nest. I am glad you asked that question. I don't 
want to give the committee the impression I came here to 
``doc'' bash. It is just that money has been put in this to 
these folks at a time that they are already under service 
obligation. When the bonuses were awarded to the nurse 
anesthetists, that argument that they were already under 
contract was used to use it more as an incentive to basically 
reenlist, to retain on active duty. My recommendation perhaps 
would be, personal recommendation would be, to utilize it more 
as a retention tool after service obligation has been paid 
back.
    Mr. Visclosky. Okay. As far as the ratios, have the ratios 
developed near 1-to-1 simply because of hiring practices; that 
is, not because of the regulations that have been proposed? 
Your testimony relates to the proposals that there be 1-to-1 
supervision on many of the bases. Is it just the way hiring has 
transpired?
    Mr. Van Nest. There are no regulations to that effect.
    Mr. Visclosky. You would be concerned about those 
occurring?
    Mr. Van Nest. Yes, sir, I certainly would. There are no 
such regulations. What seems to be going on is there is a glut, 
if you will, of anesthesiologists in particular in the civilian 
world, and that has created somewhat of a backfill in the 
military of people who used to get out and do not now. I think 
this has helped raise the issue of supervision as basically a 
personal opinion, a means of justifying the continuation of 
these billets.
    Mr. Visclosky. Getting back to bonuses, I understand you 
are not trying to pull anybody down. You are looking at trying 
to narrow a discrepancy. You are suggesting instead of using 
bonuses to attract enlistment, you are asking that it be used 
more as a retention tool?
    Mr. Van Nest. That is correct.
    Mr. Visclosky. Thank you very much.
    Mr. Young. Thank you. Thank you very much, sir, for your 
testimony. We appreciate your being here today.
    [The statement of Mr. Van Nest follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




            NATIONAL GUARD ASSOCIATION OF THE UNITED STATES


                                WITNESS

WILLIAM H. SKIPPER, JR., DIRECTOR, LEGISLATIVE ACTIVITIES, THE NATIONAL 
    GUARD ASSOCIATION OF THE UNITED STATES

                              Introduction

    Mr. Young. Next is Mr. Bill Skipper, Director of 
Legislative Activities for the National Guard Association.
    In reading your testimony, we see that you raised some of 
the same points that Sergeant Cline did, but you even spell out 
more shortfalls in the President's budget for the National 
Guard and the Air Guard. We appreciate the cost-effectiveness 
of the investment that the taxpayer makes in the Army Guard and 
the Air Guard, and we would like to hear your testimony. We 
will place your entire statement in the record and ask you to 
summarize.

                        Statement of Mr. Skipper

    Mr. Skipper. Thank you, Mr. Chairman. On behalf of the 
National Guard Association of the United States and the tens of 
thousands of commissioned and warrant officers who constitute 
our membership, I thank you for the opportunity to express our 
views regarding the National Guard today and its prospects for 
the future. I have a prepared statement and ask it be submitted 
for the record. I will revise and extend some of those remarks 
as we go through. Mr. Chairman, first, I would like to start 
off thanking you personally for the hard work and what your 
Subcommittee has done for the National Guard. And also I would 
like to extend thanks to your staff. You have got a fine staff 
that we can always count on to assist us with frank discussion 
on the issues.
    The continuing support of this Committee for National Guard 
and Reserve programs has earned it the gratitude of every 
member of this association. Your continued support in the 
future will become increasingly important as the Department of 
Defense attempts to define the requirements of our national 
defense strategy through the ongoing Quadrennial Defense 
Review--QDR.
    Our association is, though, extremely concerned, however, 
about the funding levels requested for the National Guard in 
fiscal year 1998, which is not adequate to maintain the 
existing force levels, readiness, OPTEMPO or modernization 
programs. In other words, Mr. Chairman, we cannot sustain the 
Guard as you know it today based on that budget. It is just not 
there for us to do that.
    We have established three legislative priorities for fiscal 
year 1998 that addresses the problem. These priorities are: The 
stabilization of the National Guard force structure and end 
strength, full resourcing of readiness requirements and a 
reduction of the National Guard military construction backlog. 
And for brevity sake, I would like to address the major issues 
and that will be the funding.
    Mr. Chairman, the continuing reductions in the overall 
Defense budget have resulted in funding shortfalls in important 
National Guard readiness accounts; namely, pay and allowances 
and operations and maintenance. Readiness funding shortages are 
particularly acute in this year's budget request for the Army 
National Guard. For fiscal year 1995, the resources provided to 
the National Guard were commensurate with the assigned 
missions. The 1998 budget shortfall is $743 million short of 
meeting that readiness requirement.
    As a result, Mr. Chairman, none of the soldiers in 12 of 
the 15 enhanced brigades or eight guard divisions will be able 
to attend a military school. Twenty-five percent of the new 
recruits will not be able to go to basic training or advanced 
individual training. And over 27,000 Army Guard soldiers will 
be unable to attend annual training in 1998 based on the 
budget.
    This 1998 budget request provides operations and readiness 
funding for some of our tiered readiness early-deployed units. 
Funding is not provided to maintain the minimum levels of 
readiness for later deploying units. Base operations and depot 
maintenance are also severely underfunded.
    Given the increase in OPTEMPO for many of these Guard 
units, as I alluded to earlier, any reduction in readiness 
could have a long-term impact on the National Guard's 
capability and accessibility, and, Mr. Chairman, as you know, 
the thousands of guardsmen and women on duty today in support 
of State-related missions up and down the Ohio River in North 
and South Dakota and deployed throughout the world in support 
of the CINCs' missions.
    The 1998 budget request proposes a reduction in the number 
of aircraft and several airlift units of the Air National 
Guard. Last year, thanks to you and to the Congress, you were 
able to reverse the proposed reduction of 12 to 10 primary 
aircraft units--PAA. The funding provides for only 8 PAA in 
those same units that you worked so hard on last year.
    These reductions will place an increased burden on the Air 
National Guard and its support of the Air Force missions and 
commander in chief's requirements.
    Mr. Chairman, as you know, modern compatible equipment is 
critical to National Guard readiness and the relevance of the 
National Guard units. Army National Guard requirements include 
a field artillery system such as Paladin and Multiple Launch 
Rocket System--MLRS; tracked combat vehicles such as M1A2 
Abrams main battle tank, and Bradley fighting vehicle, air 
defense systems such as Patriot and Avenger systems; Black Hawk 
utility helicopters, training devices and simulators, 
communications equipment and the list goes on and on.
    The Air National Guard is also in need of equipment 
modernization, airlift, refueling fighter and bomb 
requirements. The National Guard Association asks you and the 
committee, sir, to direct the DOD to fully resource National 
Guard readiness requirements and increase funding for National 
Guard operations and maintenance, military personnel and 
equipment modernization. Fully resourced readiness accounts 
will assure a trained and ready National Guard for the conduct 
of combat operations peace support and support of our 
Governors.
    Mr. Chairman, in addition, the National Guard Association 
urges the committee to review the total military construction 
backlog and direct the Department of Defense to develop 
innovative and reasonable solutions to rectify this problem.
    In conclusion, the National Guard Association remains 
convinced that the Army and Air National Guard represent the 
most cost-effective and capable component of the U.S. military, 
as you spoke to earlier.
    The Army National Guard provides over 50 percent of the 
combat forces, 15 percent of the combat support forces and 24 
percent of the combat service support forces for the total 
Army, while accounting for only 9 percent of the Army's budget. 
Also this force is paid for within only 2 percent of the DOD 
budget.
    The Air Guard provides 30 percent of the general purpose 
fighter Air Force, 20 percent of the air support forces and 42 
percent of the theater airlift forces with only a 6 percent 
share of the Air Force's budget. At a time when reductions in 
defense spending appear to be imminent and maintaining a robust 
national security posture seems increasingly difficult, the 
National Guard should not be viewed as a bill payer, but 
represent a solution.
    Mr. Chairman, I think we could both agree that the economic 
benefit that the Guard provides the national defense is 
quantifiable and indisputable.
    Mr. Chairman, the National Guard Association appreciates 
the past support of this committee and the opportunity to 
express our views regarding our national security and the 
National Guard, and we appreciate your time, sir.
    Mr. Young. Thank you very much and we appreciate your 
statement and your statement of support, and we will do the 
very best that we can with the limited resources we have. If 
you have any influence at the White House, tell them to get 
that number a little bit higher when they send the budget over 
here.
    [The statement of Mr. Skipper follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 17, 1997.

           AMERICAN SOCIETY OF TROPICAL MEDICINE AND HYGIENE


                                WITNESS

ROBERT EDELMAN, MD, ASSOCIATE DIRECTOR FOR CHEMICAL RESEARCH CENTER FOR 
    VACCINE DEVELOPMENT, UNIVERSITY OF MARYLAND SCHOOL OF MEDICINE

                              Introduction

    Mr. Young. Our next witness is Dr. Robert Edelman of the 
University of Maryland School of Medicine, representating the 
American Society of Tropical Medicine and Hygiene. The society 
has been supportive of infectious disease and HIV research 
programs, as has been this Subcommittee, and, doctor, we 
appreciate you being here and we will place your entire 
statement in the record and ask that you summarize at this 
time.

                        Statement of Dr. Edelman

    Dr. Edelman. Thank you, Mr. Chairman. It is a pleasure to 
be here. You have been exposed to the statement for a week now 
and I would like to give over to you some personal thoughts.
    I have been involved in this field for 30 years. I got--I 
cut my teeth in tropical medicine and infectious disease as 
part of the Walter Reed Research Team assigned to Bangkok, 
Thailand and Vietnam. And I can tell you firsthand, I have been 
able to see for 30 years the evolution in the emergence of 
these infections which are now beginning to lap at our shores.
    There have been focal outbreaks along the Caribbean, 
thousands of thousands of cases creeping up through Mexico. I 
run--I helped direct a tropical disease traveler's clinic at 
the university medical system. We see some of our patients who 
go overseas coming back with malaria, dengue fever at a rate 
that we have never seen before in the past. I can tell you from 
very personal feeling that I am very much concerned about these 
developments throughout the world, and I am sure that your 
subcommittee and yourself also share that.
    Really, the Department of Defense maintains a unique 
capability in medical research. It is one of the few government 
groups or private groups who are committed for maintaining the 
health of our forces overseas, but it also has very important 
impacts upon many other segments of our society. An example 
would be we send over about 8 million travelers overseas every 
year of which 4 million go into the tropics, and many of these 
individuals are exposed to the same things that our troops are.
    Again, I will repeat that many--we are all seeing an 
increased number of these infections breaking out and we are 
particularly concerned that there is increasing numbers of 
drug-resistant forms of diseases such as malaria and infectious 
diseases that affect the bowel causing traveler's diarrhea that 
is becoming a tremendous concern not only for the military, but 
all segments of our society.
    I am also involved as part of one of the largest vaccine 
development units in the United States, academic units on the 
development of vaccines against dengue and malaria and I have 
been involved in working with dengue vaccines with the Walter 
Reed Institute of Research and with the malaria vaccines with 
the Navy Medical Research Institute.
    We are concerned that recently there has been some funds 
that have been diverted from the support of these tropical 
medicine programs to support the peacekeeping efforts in 
Bosnia. For example, some of the research going on at the Navy 
in the Navy Research Institute here and overseas has been 
curtailed as of last March because of funding decrements as a 
result of peacekeeping efforts and to support those efforts in 
Bosnia.
    The other aspect I would like to touch on is the unique 
opportunity that these programs play for training future 
physicians and health care providers to protect our troops 
overseas and as a result, to help with other segments such as 
our enormous numbers of travelers overseas. An example of that, 
I am a child of two of those laboratories and I can tell you 
that they are really jewels in the crown of the American health 
care establishment.
    The Society would like very much to encourage your 
continued bipartisan support for these laboratories and for the 
Walter Reed group and for the Navy Medical Research Program and 
for the program of Infectious Disease Institute in Frederick, 
Maryland.
    We would also like to focus a moment on the importance of 
about a $5 million budget to help establish a program for 
surveillance of infectious diseases throughout the tropical 
areas of the world. We are increasingly seeing, as I mentioned 
before, sexually transmitted diseases, malaria, and diarrhea 
diseases being increasingly resistant to available antibiotics.
    We don't have vaccines as of yet. We have a vigorous 
program, and we are trying to explore that avenue, but we need 
to have constant surveillance for these infections, and these 
overseas laboratories in South America, in Kenya, and in Asia 
will provide eyes and ears for the military and for our entire 
society for the incursion of these highly resistant pathogens.
    As a conclusion, I would like to summarize we are all very 
grateful for your support of the military medical infectious 
disease efforts. We encourage you to continue that support and 
we would like for you to consider the addition of roughly $5 
million to help support a plan for putting surveillance in 
place for these emerging infections and to become cognizant of 
the problem we have with the divertment of funds more recently 
away from their intended use by the medical research 
establishment toward peacekeeping efforts. Thank you very much.
    Mr. Young. Thank you very much, Doctor. We will do the best 
we can to continue. You know that we have a sincere interest in 
medical care and the prevention of diseases if possible. And as 
our troops are deployed around the world, they become more and 
more exposed. So thank you very much for calling this to our 
attention and we look forward to working with you.
    Dr. Edelman. Thank you, Mr. Chairman.
    [The statement of Dr. Edelman follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 17, 1997.

     NATIONAL COALITION FOR OSTEOPOROSIS AND RELATED BONE DISEASES


                                WITNESS

SANDRA C. RAYMOND, EXECUTIVE DIRECTOR, NATIONAL OSTEO- POROSIS 
    FOUNDATION

                              Introduction

    Mr. Young. Congressman McDade is one of the very 
distinguished members of this Committee and a senior Majority 
Member on the overall Appropriations Committee, and I would 
like to yield at this time to Congressman McDade to introduce 
the next witnesses.
    Mr. McDade. Mr. Chairman, I am very, very grateful to you 
for letting me sort of break into the program for a minute. I 
want to explain to the audience that I am chairing another 
Committee which requires my attendance in two places at once.
    But I was able to break away and I wanted to come over to 
introduce Sandra Raymond, who is the next witness, who is going 
to testify. I have known Sandy for a long, long time and she 
takes a very deep and active interest in health issues in the 
country. I am thrilled to come over and welcome her because, 
like so many of you, she has only one ax to grind: The public 
health of the people of the United States.
    Sandy, won't you please come up and offer your testimony.
    Mr. Young. Ms. Raymond, you are recognized.

                        Statement of Ms. Raymond

    Ms. Raymond. Thank you, and I thank Congressman McDade for 
being here. He is certainly an advocate for the American people 
and I have great admiration and respect for him. I am here 
representing the National Coalition for Osteoporosis and 
Related Bone Diseases and, I want to thank you and your 
Committee for your very generous $10 million appropriation for 
bone disease research in the fiscal year 1997 DOD budget.
    I want to emphasize just a few points. You have my written 
testimony. This is not--the DOD program is not an extension of 
the NIH bone disease research program. This is funding that 
will carry on a bone disease research program that has specific 
relevance to the military age population. The goal of the Bone 
Disease Research Program is to enhance military readiness by 
reducing the incidence of fracture which spells loss of time 
and a lot of money, especially during physically intensive 
training, and we think it may have long-lasting effects.
    You may know or you may have heard of the word, ``stress 
fractures.'' Perhaps somebody in your family has had a stress 
fracture. Stress fractures affect 10 to 15 percent of women 
recruits during the 8 weeks of basic training, and I am only 
speaking about women here, not the male recruits. Most of us 
think of stress fractures as ones that sort of heal over time, 
and the integrity of the bone is maintained.
    But, in fact, untreated and repeated stress fractures which 
occur in the same long bone in the leg, for example, or in the 
arm, can lead to a complete fracture and this results not only 
in pain and disability, and costly surgery at some times, but 
also follow-up rehabilitation.
    There is a very famous woman marathon runner who ran in the 
Boston marathon. I am not going to mention her name. She 
suffered stress fractures and she is now foreclosed from ever 
running again, ever training again because she is at such risk 
for fracture. We have an increasing number of women in the 
military, and the bone health of female recruits is a growing 
concern for all Americans, and for these Americans, if they are 
going to serve at a maximum capacity and strength.
    According to the Army itself, the minimum time away from 
significant duty for a male or a female soldier who develops a 
stress fracture is 6 to 8 weeks. Stress fractures are very slow 
to heal. Full recovery takes as long as 12 weeks, and they are 
one of the more frequent injuries that affect men and women in 
the Army.
    In a recent survey, 1,338 stress fractures were diagnosed 
in 100,000 undergoing basic training. We need advances. We need 
to understand the overall bone health of military men and 
women.
    Military recruits are at an age where dietary and 
environmental factors can still influence the amount of peak 
bone mass that they develop. The greater bone mass that we 
achieve during the first three decades of life, the stronger 
the bones are likely to be throughout life. So to achieve that 
peak bone mass and retain that inner structural strength, what 
do we need to know in the DOD research program? We need to know 
what the relationship is between muscle strength and 
development and bone mass. We don't know those answers. We need 
to know the impact of physical fitness and diet on peak bone 
mass. We have to know what environmental factors are related.
    Are carbonated beverages in the diet of our military 
recruits doing damage? Is their alcohol intake a factor? Is 
their smoking a factor? What are the predictors of risk? Are 
there genetic factors that we need to have more information on? 
And what are the best preventive, diagnostic and treatment 
strategies for the young population? For those we recruit for 
military service?
    I think that the DOD research program is going to 
contribute greatly to bringing bone disease under control not 
only in the military, but in the U.S. population as a whole.
    Osteoporosis and related bone diseases, the diseases that 
we are talking about here, are serious threats to the American 
public. To almost 30 million Americans. You know that these 
diseases cause loss of independence, death, disability. The 
annual cost is about $14 billion, and is rising. Bone diseases 
affect women, men and children of all ages. From infancy to the 
oldest, these diseases profoundly alter the quality of life for 
millions of Americans.
    By discovering how we can build bone mass to peak capacity 
in young recruits, we are not only building a strong military, 
we are building a strong Nation ready to withstand the stresses 
of an extended life span. You know, NASA has long recognized 
the importance of bone loss in space and how that relates to 
their astronauts. It is a key priority for NASA. And equally, I 
think, if they do not find the answers about those astronauts, 
their missions are subverted. Equally, the mission of DOD 
cannot be achieved without this important bone disease 
research.
    Today, Mr. Chairman, Mr. McDade, Mr. Murtha and others, we 
are urging you to consider a very reasonable $20 million in 
appropriations for bone disease research in fiscal year 1998.
    I want to thank you for this opportunity and thank you 
again, Mr. McDade.
    Mr. Young. Thank you very much for being here. And I want 
you to know that you and your cause are represented by one of 
the great Members of Congress.
    Ms. Raymond. I know that well. Thank you. Any questions?
    Mr. McDade. No questions.
    Mr. Young. Thank you again for being here.
    [The statement of Ms. Raymond follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 17, 1997.

    AMERICAN ACADEMY OF OTOLARYNGOLOGY--HEAD AND NECK SURGERY, INC.


                                WITNESS

MICHAEL D. MAVES, M.D., MBA, EXECUTIVE VICE PRESIDENT, AMERICAN ACADEMY 
    OF OTOLARYNGOLOGY--HEAD AND NECK SURGERY, INC.

                              Introduction

    Mr. Young. Next on our agenda is Dr. Michael Maves, 
Executive Director of the American Academy of Otolaryngology-
Head and Neck Surgery, Incorporated. The academy and the 
physicians who belong to it are dedicated to the treatment of 
patients' diseases of the head and neck.
    Thank you for coming today and your entire statement will 
be placed in our record, and summarize it as you wish.

                         Statement of Dr. Maves

    Dr. Maves. Thank you. I appreciate the opportunity to be 
able to present this testimony on behalf of the roughly 11,000 
otolaryngologists in this country. I am Dr. Michael Maves, 
Executive Vice President of the American Academy of 
Otolaryngology and a practicing otolaryngologist at the 
Georgetown University Medical Center.
    We have three issues that we would like to bring before you 
and, of course, we have testified on this in past years. The 
first is the issue of tobacco cessation in the military. The 
American Academy of Otolaryngology head and neck surgery has 
been opposed to the use of tobacco for many decades. We are the 
surgeons who, for the most part, take care of patients who are 
afflicted with head and neck cancers and we see firsthand the 
effects of tobacco use on our patients every day.
    There are increasing news reports of tobacco companies 
admitting to the adverse impacts of tobacco on their users. We 
also know that there can be significant impacts on individuals 
and especially children who are exposed to secondhand smoke and 
have to live in households with this.
    We were pleased several years ago to see that the 
Department of Defense announced a policy banning smoking in all 
DOD workplaces. This far-reaching initiative really makes DOD 
workplaces free of harmful secondhand smoke and as well will 
improve, I believe, the health of our overall military 
personnel.
    We do know, however, that many in the military have 
substituted the use of smokeless tobacco for smoking tobacco to 
avoid disciplinary action where smoking itself is prohibited. 
As we indicated in our written testimony, we realize that 
smokeless tobacco, again, is harmful, is a substance which can 
cause cancer of the oral cavity and would like to seek 
limitations of its use as well.
    Even with all the information that we have about the 
harmful effects of tobacco use, we find that it is still 
indirectly subsidized by the military through subsidized sale 
of tobacco products at military commissaries and PXs where 
cigarettes and tobacco products can be bought at a much lower 
price than otherwise would be charged.
    We, today, as we have in the past have expressed our 
concern of the action that the DOD would very likely not ban 
tobacco product sales in the commissary system. For that 
reason, we support the concept of bringing tobacco prices in 
the PX and commissary to at least parity with civilian prices 
to help cut down on use.
    You know, there have been a number of recent studies which 
have shown that cigarette smokers, particularly young people, 
are very, very sensitive to the price of cigarettes and so we 
feel that this would be an important action. We especially urge 
the Department of Defense to promote tobacco cessation programs 
with both personnel and their families, but especially in 
relationship to mothers and children about the harmful effects 
of secondhand smoke as far as tobacco.
    The second issue I would like to discuss with you is that 
of skin cancer and UV radiation. Last year, the Academy 
indicated its strong support of the Environmental Protection 
Agency and the National Weather Service and the Centers for 
Disease Control and prevention in developing a nationwide UV or 
ultraviolet index to alert members of the public to the dangers 
of excessive radiation from the sun which can potentially cause 
skin cancer.
    We understand that one of your Senate colleagues, Senator 
Connie Mack of Florida, has begun an effort with the National 
Association of Physicians for the Environment to survey 
selected Federal agencies to determine the extent of 
educational programs regarding skin cancer as affected by 
excessive ultraviolet radiation exposure from sunlight. Those 
Federal agencies would obviously include those which have 
employees, but also ones which have clients such as the 
Department of Agriculture where farmers themselves are 
routinely exposed to very high sunlight.
    Of course, the major agency with such personnel is the 
Department of Defense. Millions of our young men and women are 
routinely exposed to excessive sunlight for long periods of 
time in carrying out their routine duties. Senator Mack has 
requested from the DOD a report on its educational activities 
and we will follow up as we are sure with recommendations for 
necessary actions to be taken.
    We would be remiss if we did not report that in this same 
vein we are pleased to see that a large number of military 
units have been receiving awards from the EPA Stratospheric 
Protection Division for their work in reducing the use of CFCs 
and other atmospheric ozone depletion chemicals leading to 
depletion of the stratospheric ozone protection. This layer 
protects us from excessive UV radiation. In this activity, like 
many others, the Department of Defense has become a leader, and 
as we have seen also in ``greening'' of environmental areas of 
departmental facilities.
    The last area I would like to speak to you about, Mr. 
Chairman, is that of noise reduction. Our Academy, from its 
beginning, has been concerned about the effects of excessive 
noise on the structures of the ear, particularly those noises 
which are extremely excessive. The American Academy of 
Otolaryngology, representing the 11,000 otolaryngologists in 
this country, also known as ear, nose and throat doctors, are 
the primary physicians who take care of patients with hearing 
loss. We know that noise is necessarily a part of daily 
military life, particularly so in wartime. Nonetheless, we 
believe that many of these noise effects on military personnel 
can be reduced by the use of appropriate noise-reducing and 
prevention activities.
    Mr. Chairman, in summary, it is a pleasure to once again 
bring these issues up to you this year. We have raised these 
before. We have been pleased to see the activities of your 
committee and the Department of Defense on these areas and hope 
to be able to come back to you again in the future and once 
again report on the good progress which the Department of 
Defense has made in these areas. Thank you, very much.
    Mr. Young. Doctor, thank you very much and we do look 
forward to your continued communication with us. As one of the 
principal members involved in outlawing smoking on buses, 
trains, planes and things of that nature, I am happy to have 
your report and your support. Hopefully, we have a better 
environment on those public transportation units because of 
that.
    Dr. Maves. Thank you very much, Mr. Chairman.
    Mr. Young. Thank you, sir.
    [The statement of Dr. Maves follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 17, 1997.

                         JOSLIN DIABETES CENTER


                                WITNESS

KENNETH E. QUICKEL, JR., M.D., PRESIDENT, JOSLIN DIABETES CENTER

                              Introduction

    Mr. Young. Next we will hear from Dr. Kenneth Quickel, the 
President of the Joslin Diabetes Center. The annual cost 
associated with diabetes is $138 million; more than 15 percent 
of health care costs annually in the United States. We would 
like to hear more about that and hear from you at this time. 
Your entire statement will be placed in the record, and you may 
summarize it as you wish.

                        Statement of Dr. Quickel

    Dr. Quickel. Thank you for providing the opportunity to 
summarize a program which I think can be of immense value in 
helping to control some of that cost which falls on the 
Department of Defense.
    I am Dr. Ken Quickel and I am the President of the Joslin 
Diabetes Center in Boston, which is one of the Harvard 
institutions.
    Our research and patient care teams who have led the world 
in diabetes research for perhaps 100 years now, have now 
developed some methods of diabetes care which can produce 
improvements in health status and reduce the cost of providing 
health care to people with diabetes. And we would like to talk 
about those in the context of the department.
    Diabetes among civilian and military Department of Defense 
personnel will mirror the effects and the costs of diabetes in 
the population in general. Among the Department's civilian and 
military personnel, there will be about 188,000 people with 
diabetes known to have diabetes. There will be an approximately 
equal number of individuals who have diabetes, but do not yet 
know it.
    Four thousand of them will die every year from the 
diabetes. Three hundred will develop end-stage kidney failure 
from the diabetes. One thousand two hundred will have 
nontraumatic amputations due to diabetes, and between 3 and 900 
of them will develop blindness from their diabetes every year.
    Joslin Diabetes Center in Boston is a comprehensive 
resource for diabetes care and research and we would like to 
make a proposal to join with the Department of Defense in 
endeavoring to address some of these issues. And what we are 
proposing is a pilot program that would have three primary 
components. The first component would be to endeavor to use up-
to-date technology to detect undetected diabetes in department 
personnel.
    Recently, our researchers have discovered a method of 
shining a little light through the pupil of the eye and then 
measuring the scattering of that light from the proteins in the 
eye fluids. We know that when the blood sugar is elevated, the 
proteins combine with the glucose and that changes the 
scattering of the light in a very characteristic and specific 
way.
    And it allows us, with this very simple technique, which 
doesn't involve taking a urine specimen or blood specimen, to 
very quickly and rapidly diagnose diabetes.
    And we would like to use that technology among Department 
of Defense personnel to try to gain early detection and 
preventive aspects of that result.
    The second piece is a telemedicine strategy, and we are 
quite aware of the tremendous advances that the military has 
made in telemedicine, and we think that there is an additional 
use in application which could be of great benefit. In 1967, 
our researchers at Joslin discovered that a laser could be used 
to reduce the progress of diabetic eye disease. Subsequently, 
the technology has developed to the point where we can now 
prevent 98 percent of the blindness due to diabetes by proper 
detection and aggressive therapy.
    But diabetes remains the leading cause of blindness in 
working age Americans despite that and the reason for that is 
that many individuals, perhaps most individuals with diabetes, 
do not get screened annually for eye disease as they should. 
Others are screened by people who do not know what the 
therapeutic possibilities are so they don't get into the health 
care system effectively.
    We have developed--our researchers have developed a thing 
they call the Joslin Vision Network, which is a highly 
effective method of taking a three-dimensional image of the 
back of the eye using a small low-light camera. This form of 
digitized image can be transmitted over phone lines, bounced 
off satellites, stored on chips, and, in fact, read by experts 
some place other than where the image is acquired.
    The system has been linked to a medical records system 
which automatically grades the eye disease, develops a 
treatment plan and communicates with the referring physician or 
the health care team on the site about what needs to be done. 
And it can be done quite efficiently in terms of cost.
    The third piece to address the problem of diabetes has to 
do with some new strategies to train individuals with diabetes 
in the skills of self-management. We know from a recent large 
NIH-funded study that if we can normalize the blood sugar, we 
can reduce the costly complications of diabetes by as much as 
50 percent. Fifty percent, that is a huge reduction.
    We also know that most people with diabetes do not have the 
self-management skills that are necessary to implement that 
degree of control. And since over 90 percent of the people with 
diabetes are cared for by primary care physicians, many of 
these physicians simply don't have the tools, the time, the 
resources to train their patients in self-management.
    We have developed a diabetes outpatient intensive treatment 
program. We call it DOIT, which is a 3-day program to 
intensively involve all of the physician and nonphysician 
personnel, dieticians, exercise physiologists, psychologists, 
who are part of the diabetes treatment team and over the past 4 
years we have utilized this system for probably 700 patients 
now. And we have been able to measure the effectiveness of the 
system. We know which patients it works best on and we think 
that we could very significantly, in a fixed population of 
individuals such as the Department of Defense, significantly 
improve health care and reduce costs.
    What we are specifically proposing is a pilot program 
consisting of the three strategies that I have outlined to 
attack the problem of diabetes. And to apply it initially in 
two regions; in New England where we have a number of 
facilities and in Hawaii, where we have a partner facility at 
the Stroub Clinic.
    We would propose that this program be funded over a 2-year 
trial period at a level of $2.5 million each year and the hope 
would be that if we can document the effectiveness of the 
program, we could then expand it to other areas in the 
department, but also use the now validated methodology to apply 
to the population in general through the United States.
    We believe that since diabetes is such a major cause of 
death and disability and cost, that the program that we are 
proposing will pay for itself. And we hope that you will 
consider our proposal as we bring it forward and we thank you 
for your attention and your offering us an opportunity to 
describe our proposal.
    Mr. Young. Doctor, thank you very much, and I have one 
quick question. Have you spoken to anyone in the Pentagon about 
the pilot program that you are suggesting?
    Dr. Quickel. We are scheduled to do that. We need to talk 
locally also with people both in Hawaii and in the New England 
region about this, and we have scheduled the meetings to do 
that.
    Mr. Young. Well, what I would ask you is that you let us 
know after those meetings and let us know how things went and 
see where we might be able to play a role in helping you.
    Dr. Quickel. We certainly will. Thank you very much.
    Mr. Young. Thank you very much, sir.
    [The statement of Dr. Quickel follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 17, 1997.

                    NATIONAL BREAST CANCER COALITION


                                WITNESS

FRANCES M. VISCO, PRESIDENT, NATIONAL BREAST CANCER COALITION

                              Introduction

    Mr. Young. Our next witness is Fran Visco, President of the 
National Breast Cancer Coalition. The Coalition represents 400 
member organizations and more than 40,000 individual women, 
their families and friends.
    Fran, your prepared statement urges Congress and the 
President to continue support for the DOD peer review research 
program. You know where this committee stands on that issue. We 
have stood up to the administration on numerous occasions when 
they thought we shouldn't use DOD money for that purpose and we 
used it anyway. Hopefully, it has been used in an effective 
way.
    I actually asked the Department of Defense for an audit 
trail to make sure where the money went, and if it actually was 
used for what we intended it to be used for, so we are happy to 
hear from you today. Please understand that your statement will 
be printed in the record, and you may summarize it.

                         Statement of Ms. Visco

    Ms. Visco. Thank you very much and thank you, Mr. Chairman, 
for your continued support for this program.
    You know that it has been an incredible success on all 
fronts. One of the reasons I think it has been so successful is 
because it really is a collaboration that works.
    We hear a lot nowadays about public-private partnerships; 
they are the ``in thing,'' but most of them don't work. This 
one does. And it has captured the enthusiasm, the enthusiastic 
support of the scientific community, of women like me who have 
had breast cancer, of our organization, of policymakers 
everywhere.
    It is being covered more and more by the press. As a matter 
of fact, it is the subject of a book that was published over 
the past couple of weeks that was very well reviewed in The New 
York Times Sunday Book Review last week. It is getting more and 
more support, more credibility and more attention.
    I think it is important to recognize that this program 
continues to foster innovation and, at the same time, keeps the 
quality assurance mechanisms that we put in place. And equally 
important is the fact that there is no bureaucracy involved 
here. The overhead for this program is 10 percent. That is it.
    When the Coalition was successful initially, several years 
ago, in getting more money for breast cancer research, I 
remember meeting with Sam Broder, then the Director of the 
National Cancer Institute, and I was complaining to him about 
the fact that they weren't looking at the innovation and they 
were not changing their strategies, and what he said to me was 
the National Cancer Institute is like a huge battleship that 
you cannot turn on a dime. And what I said to him was, what we 
need is a program that can design a battleship that will turn 
on a dime. And that is what we did with this program, and we 
did it under the leadership of this subcommittee. It has been 
incredible.
    We are able every year to respond quickly to what we see in 
the scientific community. We can shift our strategies, shift 
the funding within the program. It has just been wonderful. 
This November we are going to have a conference that is going 
to showcase everyone who has been funded through the program. 
It is going to be here in Washington, D.C. We expect a thousand 
scientists and many consumer activities and we hope, Mr. 
Chairman, that you will come and participate in the conference, 
and we are going to showcase to the public all of the work that 
this program has funded.
    In addition, I am very excited to tell you that Canada, the 
Government of Canada is coming to be briefed on this program 
because they want to replicate it in their country. And I think 
a briefing on that is already scheduled. And we have also been 
contacted by Great Britain. The United Kingdom wants to come 
and do the same thing, so the support and the recognition of 
the success of this program is now worldwide.
    I wanted to tell you very briefly about the strategy we 
adopted last year, and that is to fund those idea grants, the 
scientists who have a great idea, but they don't have a lot of 
preliminary data. And they are distinguished scientists with 
wonderful ideas, but they don't have years of research behind 
them and tons of data to bring to the National Institutes of 
Health to get funding. They don't have any place to turn for 
their funding. They didn't in the past, but now they do; they 
have this program.
    And we were very excited to see the number of idea grants 
and the ideas that this program generated. Unfortunately, we 
are only able to fund 9 percent of those idea grants, and we 
hope that this year we are going to keep that strategy in 
place, and we hope that this year we can see an appropriation 
of $175 million for this program so that we continue to fund 
those ideas.
    You know the statistics about breast cancer. I don't have 
to remind you. But I really believe that this program is going 
to be one of the key elements in changing those statistics and 
eradicating breast cancer. So thank you for your continued 
support, and I look forward to ongoing work with you on this 
program.
    Mr. Young. Well, we look forward to it as well. This is a 
terrible, terrible disease, and as you pointed out, we have 
worked together very closely to try to make adequate funds 
available.
    I appreciate you very much for being here and all the work 
that you do.
    [The statement of Mr. Visco follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 17, 1997.

         THE UNIVERSITY OF MEDICINE AND DENTISTRY OF NEW JERSEY


                                WITNESS

RUSS MOLLOY, DIRECTOR OF GOVERNMENT RELATIONS, THE UNIVERSITY OF 
    MEDICINE AND DENTISTRY OF NEW JERSEY

                              Introduction

    Mr. Young. I would like to invite Mr. Russ Molloy, the 
Director of Government Relations on behalf of the University of 
Medicine and Dentistry of New Jersey. Your statement will be 
made a part of the record, and we would ask you to summarize at 
this time.

                        Statement of Mr. Molloy

    Mr. Molloy. Thank you very much, Mr. Chairman. It is 
interesting that two previous speakers today have already 
talked about elements of what it is that we are seeking before 
this subcommittee today. Let me give just a brief background 
about the university and touch lightly on those two major 
issues.
    The University of Medicine and Dentistry is the largest 
public health sciences university in the Nation. Its statewide 
system is located on four academic campuses statewide, 
consisting of three medical schools--schools of dentistry, 
nursing, a graduate school of biomedical sciences, health-
related professions. It also has its own acute care hospital, 
one of the largest in the State. It has in addition three core 
teaching hospitals, a behavioral health establishment statewide 
and affiliations with more than 100 health care institutions. I 
appreciate this opportunity to make note of our two top 
priorities with the university.
    Let me begin also echoing the previous speaker to thank 
you, Mr. Chairman, as well as Mr. Murtha for your achievements 
and your work in the area of breast cancer research and 
biomedical needs and funding, because this has been a critical 
issue for the country. And one of the issues that we want to 
bring before you is the need for us to continue to move forward 
together to try to address this terrible issue of breast 
cancer.
    New Jersey itself has the fourth highest incidence of 
breast cancer in the country and ranks second in mortality from 
the disease. There is an estimation of some 6,500 new breast 
cancer cases in the State of New Jersey alone in the next year 
of which 2,000 women will die.
    What makes this more ironic and of great concern to the 
State of New Jersey and the State university is that the 
numbers and statistics demonstrate that the individuals who are 
being diagnosed with breast cancer, in fact, far surpass any 
national or regional statistics. We are one of the most 
affluent States in the Nation, but we are also highly urbanized 
and densely populated and we have a unique title as well 
because we are the home to, by far, the largest number of 
Superfund sites and contaminated waste sites in the entire 
country.
    As a result, there has been a discussion of a linkage 
between the environmental factors that are taking effect and 
its linkage directly to breast cancer in the State of New 
Jersey. What we need is the Committee and your personal 
support, Mr. Chairman, to undertake a multifaceted approach to 
actually detect, diagnose and treat breast cancer. We have an 
ideal laboratory in the State of New Jersey that allows us this 
opportunity to really look at the actual questions about the 
causes of breast cancer because we are going to link not only 
the lifestyle and the standard information, but we are also 
going to focus on the environmental causes of this as well as 
genetics.
    New Jersey is the site of the National Cancer Institute's 
newest designated clinical cancer center. The Cancer Institute 
of New Jersey is the first and only such site in the state. It 
has established the program focusing on the causes and 
prevention of breast cancer that brings together the 
oncologists, associate workers, specialty nurses, geneticists, 
nutritionists, toxicologists, et cetera, all of whom are staff 
members of the University of Medicine and Dentistry.
    The Cancer Institute of New Jersey received its key funding 
from this Subcommittee in order to allow it to be built, and it 
is now serving--it was approximately 2 months ago it was 
designated by the NCI as a clinical cancer facility. This was 
also one--through the sponsorship and support of both Dean 
Gallo and Mr. Bernie Dwyer. They have been the primary movers 
behind moving this cancer institute forward. And now we are 
taking it to the next level.
    New Jersey has an additional linkage with the issue of the 
environment because the University of Medicine and Dentistry 
also houses one of the 18 National Institutes of Environmental 
Health Science Centers, which is a joint venture between us and 
Rutgers University. Its researchers are closely affiliated with 
the Cancer Institute in a unique relationship that is not found 
elsewhere which allows the clinicians, the people that are 
actually treating people with cancer, to have direct access to 
those researchers that are actually studying the causes, due to 
the environment, of cancer.
    The center itself also houses one of the leading and 
largest academically based exposure assessment research teams 
in the country, which is looking at a variety of different 
toxic waste sites in developing molecular markers for exposure 
and risk, which is now a level of technology which allows us to 
really look into breast cancer and its causes due to the 
environment.
    To accomplish the goal of diminishing this incidence of 
this terrible disease, we have proposed to you a project to 
focus on the epidemiology, surveillance and prevention, and for 
this project, we respectfully request an appropriation of $10.5 
million. It will allow us and the Cancer Institute and the 
NIEHS Center at the university to serve as the national 
demonstration project for this issue into the linkage between 
the environment and breast cancer.
    The last item is something I don't want to give short 
shrift to, but it has already been discussed by Dr. Edelman, 
concerning the problem we have with infectious disease. We have 
proposed before the Committee a project known as the 
International Center for Public Health, to be located in the 
City of Newark, to focus on and to bring together two key 
current institutes: the Public Health Research Institute, which 
is a world-class, well-known nonprofit agency, which focuses on 
the basic biology and study of infectious diseases--we are 
going to bring them over and put them into University Heights 
Science Park in Newark and team them up with our national TB 
centers, one of the three model TB centers in the Nation, and 
have the two of them focus on dealing with the issues of 
infectious disease, which is now becoming, as Dr. Edelman 
described, of huge concern to the Department of Defense and 
security.
    This is now becoming--because of the immense amount of 
travel that is taking place among the citizens, it is now 
bringing to the United States this whole issue about how 
infectious disease is being spread. Our proposal is designed to 
address this issue directly at the Gateway for some of the 
largest population changes and movements, because of the 
location of our eight central seaports and airports in the 
State of New Jersey.
    I want to thank the Committee and you, particularly, Mr. 
Chairman, for all of your efforts and thank you for the 
opportunity to address you today.
    Mr. Young. Mr. Molloy, thank you very much for an excellent 
statement. I would like our record to show that you are 
accompanied today by Marilyn Thompson as your backup. We 
appreciate her being here, and look forward to working with you 
as we proceed through the fiscal year 1998 season.
    Mr. Molloy. Thank you very much, sir.
    [The statement of Mr. Molloy follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 17, 1997.

                   JOINT POLICY BOARD FOR MATHEMATICS


                                WITNESS

JOHN GUCKENHEIMER, PROFESSOR OF MATHEMATICS AND MECHANICS, CORNELL 
    UNIVERSITY

                              Introduction

    Mr. Young. I would like to invite Dr. John Guckenheimer, 
professor of math and mechanics at Cornell University, to come 
to the table. The doctor is president of the Society for 
Industrial and Applied Mathematics, and he is representing the 
Joint Policy Board for Mathematics.
    Doctor, your statement will be made a part of our record, 
and you may summarize in any way that you like.

                     Statement of Dr. Guckenheimer

    Dr. Guckenheimer. Good afternoon, Mr. Chairman. Thank you 
very much for giving me this opportunity to comment on fiscal 
year 1998 appropriations for the Department of Defense. I will 
be speaking on behalf of the Joint Policy Board for Mathematics 
(JPBM), which represents three associations of mathematical 
scientists.
    Mr. Chairman, JPBM once again calls on Congress to provide 
full support for DOD's investment in bank research, especially 
research conducted at universities. The buying power of DOD's 
support for research is down 30 percent compared to 30 years 
ago and nearly 10 percent since fiscal year 1994. We urge this 
subcommittee to stem the erosion in these critical investments 
and provide DOD's full fiscal year 1998 funding request for 
basic research, 6.1 activities.
    We ask this because basic research is essential to 
maintaining the technological superiority of our forces. The 
origins of many key defense technologies can be traced to DOD's 
support for basic research conducted at U.S. academic 
institutions. Rigorous decision-making processes within DOD 
guide these investments to ensure both scientific excellence 
and consistency with DOD's strategic priorities. These 
thoughtfully planned investments need stable year-to-year 
funding.
    Let me describe my own experience with DOD's investment in 
basic research. I work on dynamical systems. My goal is to 
reveal universal patterns in dynamical processes on phenomena 
ranges from neural behavior to fluid flows. Today, I shall 
describe research that is leading to new mathematical 
technologies for use in the design of jet engines. Designers 
attempt to optimize engine performance and fuel efficiency, 
thrust, emissions and longevity. High cycle fatigue that leads 
to catastrophic failure of engines is the cause of many tragic 
accidents.
    My research addresses limits on engine performance due to 
harmful mechanical oscillations or combustion instabilities. 
Computer models are used in engine design. My research produces 
tools that automate the analysis of these models. In 
particular, I seek faster, more efficient ways to determine 
parameter values that lead to stable operation of engines. 
Resulting tools greatly reduce the need for time-consuming 
simulation and provide a framework for understanding engine 
instabilities.
    Fifteen years ago, the Air Force Office of Scientific 
Research helped stimulate my interest in computation. The 
research I described today began after foresighted mathematical 
scientists at AFOSR introduced me to a group at United 
Technologies' research center. This project and others 
sponsored by AFOSR are outstanding examples of how the Federal 
Government, universities and industry can work together on 
matters of importance to the national defense and economy. 
Basic research supported by DOD is making an impact within our 
defense industries.
    I strongly urge you to contribute your support for DOD's 
investment in basic research and the contributions of 
university-based researchers. Thank you for this opportunity to 
express our views for the record regarding fiscal year 1998 
appropriations.
    I would be pleased to answer any questions you might have.
    Mr. Young. Doctor, I had an opportunity to visit a number 
of universities that were doing research on programs through 
the Department of Defense, and I have to say that I have been 
really impressed with the types of research they have done as 
well as the results they are getting. We do have a little 
difficulty on occasion. There are those who don't want to 
provide any DOD money for university projects, but this 
Chairman thinks that they are very productive, at least most of 
them. The ones that I have seen are very productive and we 
appreciate the work that you are doing. Hopefully, we will be 
able to have a good bill for you that will carry on some of 
this research.
    My question would be, have you looked at the President's 
budget and how do you see the university research doing in his 
budget?
    Dr. Guckenheimer. Well, there is a large coalition of 
scientific organizations that have been recommending increases 
of approximately 7 percent for basic scientific research across 
many agencies, and the targets for DOD research happily are 
approaching that level in the President's budget. But we would 
certainly propose that increases of that order of magnitude are 
needed to restore some of the losses that we have seen in 
recent years.
    Mr. Young. Well, I think it is a great investment, I have 
to tell you. And I think an awful lot of things that the 
Department of Defense gets credit for actually came from the 
university research programs. So I thank you very much for 
being here and being part of our program today, and I invite 
you to stay in touch with us.
    If you have an opportunity, give us some good examples of 
what university research has produced that we can go to our 
colleagues with and say, look, here is the money, but here is 
what we have gotten for it. Those kinds of things are very 
helpful when we get into the debates about whether or not to 
fund or increase or reduce the research budget.
    Dr. Guckenheimer. Thank you. We will do that. Thank you.
    Mr. Young. Thank you very much.
    [The statement of Dr. Guckenheimer follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 17, 1997.

     FEDERATION OF BEHAVIORAL, PSYCHOLOGICAL AND COGNITIVE SCIENCES


                                WITNESS

DAVID JOHNSON, Ph.D., EXECUTIVE DIRECTOR, FEDERATION OF BEHAVIORAL, 
    PSYCHOLOGICAL AND COGNITIVE SCIENCES

                              Introduction

    Mr. Young. We now welcome Dr. David Johnson who is the 
Executive Director of the Federation of Behavioral, 
Psychological and Cognitive Sciences. Your prepared statement 
expresses concern about a number of reductions in the 
President's budget to research funding. That statement will be 
made a part of the record, and we invite you to present your 
testimony in any way that you would like.

                        Statement of Dr. Johnson

    Dr. Johnson. Thank you, Mr. Chairman. I would like to say 
that I appreciate every year that you sit here until the end. 
Not every Chairman does that, so I am glad that you do.
    I am testifying today primarily on the 6.1 or basic 
research budget and particularly on the basic behavioral 
research support in that budget.
    But basic research begins a process toward application. 
Thus, the 6.2 and 6.3a budgets go hand-in-hand with basic 
research. Support of the whole research pipeline--research 
development, testing and evaluation--is necessary to assure 
that basic research contributes optimally to national defense. 
So we support the administration's request for a 7.8 percent 
increase for 6.1 research. The increase recovers some losses 
suffered in the last 2 years, and provides an inflationary 
adjustment.
    While most of the research budget is consumed by hardware 
and electronics development, a small part of the 6.1 budget, 
only about $30 million across all the service branches, out of 
the $1.164 billion requested for 6.1 research, is devoted to 
research aimed at improving human performance. Much mission-
oriented research is supported by that meager allocation.
    At the Air Force, behavioral research is determining how 
much and what kind of information is needed to assure top 
performance of pilots in combat. At the Navy, it is perfecting 
systems and techniques for embedded training that will reduce 
costs and improve training quality, especially for rare, 
demanding tasks like threat recognition and response.
    And among other things, the Army is supporting research to 
understand the factors leading to sexual harassment in the 
military.
    We regret that the requests for 6.1 behavioral research at 
the Navy and Air Force are zero percent and 3.5 percent, a far 
cry from the 7.8 percent increase sought for 6.1 research 
overall. Nevertheless, we are relieved that these requests 
represent only an inflationary loss for the Navy and a steady-
state budget for the Air Force, rather than actual cuts. Thus, 
we ask the subcommittee to support at least the funding levels 
requested for behavioral research at the Navy and Air Force. 
Those levels are $16 million for the Navy and $9.057 million 
for the Air Force.
    We are deeply troubled, however, by the requested 25 
percent cut in overall research funding and a planned single-
year staff reduction of 53 percent for the Army Research 
Institute.
    The concept known as reliance is important in downsizing of 
military research. The approach designates a lead service as 
the provider to all the services for research in a given area. 
All research on social and organizational issues is assigned to 
the Army Research Institute. The Army is the only service doing 
research on leadership, on the integration of recruits from 
diverse backgrounds into well-functioning teams, on sexual 
harassment, and on the training of troops for peacekeeping 
missions.
    The cuts proposed for 1998 will cripple ARI; both the 
contemplated staffing level and the requested funding level are 
well below what ARI needs to fulfill its responsibilities at an 
acceptable level of quality. We must plead with this 
subcommittee to give ARI the minimum tools it needs to do its 
job.
    Without your intervention, fiscal 1998 will see a 
precipitous and, we believe, ultimately fatal plunge for ARI. 
The research request is $17.75 million, with 6.1 receiving 2 
million of that total. The current funding level is $23.7 
million, with 6.1 receiving 2.9 million.
    Its current authorized staffing level is 254 positions. The 
planned level for 1998 is 119 positions. We urge the 
subcommittee to support a fiscal 1998 funding level of $21.4 
million and a staffing level of 165 full-time equivalent 
positions. Both represent painful but survivable cuts from 
their 1997 levels.
    If ARI is crippled or eliminated, not just the Army, but 
the Navy and the Air Force as well, will have lost a critically 
important tool to address problems that are as current as 
tomorrow's headlines.
    I thank you for this opportunity to present our views, and 
I thank the subcommittee for its continuing leadership in 
support of the Nation's defense.
    Mr. Young. Doctor, thank you very much and thank you for 
being here. I hope you have the feeling that we are pretty much 
committed to basic research; I think that it is essential to 
keep America's forces equipped with the best technology that is 
possible, and the best quality of life.
    We will review your written statement. I tried to make some 
quick notes as you were talking, but we will review those as we 
get ready to do our markup later on in the early summer.
    Thank you for coming. We appreciate your interest and your 
involvement.
    Dr. Johnson. Thank you.
    Mr. Young. The Committee is adjourned.
    [The statement of Dr. Johnson follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                           W I T N E S S E S

                              ----------                              
                                                                   Page
Bapple, Maj. J. W................................................   461
Brown, L. P......................................................   966
Bye, Dr. R. E., Jr...............................................   951
Cabral, R. J.....................................................   947
Calkins, C. L....................................................   652
Carey, J. J......................................................   415
Clark, Les.......................................................   947
Cline, M. P......................................................   739
Combest, Hon. Larry..............................................   941
Cunha, Manuel, Jr................................................   947
Duggan, D. M.....................................................   693
Edelman, Robert..................................................   780
Foil, M. B., Jr..................................................   479
Gernsbacher, M. A................................................   599
Guckenheimer, John...............................................   897
Gustinis, Judith.................................................   367
Harnage, Bobby, Jr...............................................   545
Harper, J. M.....................................................   939
Hickey, S. T.....................................................   672
Johnson, David...................................................   903
Jollivette, C. M.................................................   983
Joulwan, Gen. G. A...............................................     1
Kenny, M. P......................................................   947
Krebs, Chief Mas. Sgt. J. W......................................   643
Lord, Mike.......................................................   716
Mason, Rita......................................................   542
Mauderly, J. L...................................................   974
Maves, M. D......................................................   835
Molloy, Russ.....................................................   876
Mundy, Greg......................................................   827
Northup, Hon. Anne...............................................   536
Norwood, Hon. Charlie............................................   359
Quellette, Sgt. Maj. M. F........................................   625
Pallone, Hon. Frank, Jr..........................................   388
Pappas, Hon. Michael.............................................   384
Peay, Gen. J. H. Binford, III....................................   161
Prueher, Adm. J. W...............................................   237
Quickel, K. E., Jr...............................................   845
Raymond, Sandra..................................................   824
Reheis, C. H.....................................................   947
Roemer, Hon. Tim.................................................   351
Sandler, Maj. Gen. R. W..........................................   431
Savoie, Dr. E. J.................................................   990
Schaffer, Hon. Bob...............................................   938
Schmidly, David..................................................   942
Sheehan, Gen. J. J...............................................    95
Sifuentes, Eloy..................................................   390
Skipper, W. H., Jr...............................................   768
Slaughter, Hon. Louise...........................................   367
Tilelli, Gen. J. H...............................................   237
Torsch, Virginia.................................................   716
Van Nest, R. L...................................................   753
Villarreal, Mario................................................   390
Visco, F. M......................................................   867
Waters, Hon. Maxine..............................................   400
Wiener, J. M.....................................................   577


                               I N D E X

                              ----------                              

           COMMANDER IN CHIEF, UNITED STATES ATLANTIC COMMAND

                                                                   Page
Advanced Concept Technology Demonstrations (ACTDs)...............   152
    Dragonfly....................................................   159
Budget Inefficiencies............................................   128
Cuba...........................................................140, 156
Current Operations/Training......................................   141
Drug Interdiction..............................................135, 158
Haiti............................................................   157
Information Warfare............................................125, 131
Interoperability.................................................   127
Introduction.....................................................    95
Joint Interoperability/C4I Programs..............................   155
Joint Operations, Shortfalls in................................128, 139
Link-16..........................................................   137
National Military Strategy.......................................   133
Nuclear, Biological and Chemical (NBC) Weapons...................   137
Priorities and Deficiencies......................................   146
Quadrennial Defense Review (QDR)...............................124, 150
    Future Force Structure, and the..............................   150
Quality of Recruits..............................................   125
Remarks of Mr. Murtha............................................    95
Russian Naval Activity...........................................   134
Statement of General John J. Sheehan.............................    98
Summary Statement of General Sheehan.............................    96
Tactical Aircraft Modernization..................................   151
Theater and Ballistic Missile Defense............................   136
    Atlantic Command Role in Theater Missile Defense.............   152
Training, Joint..................................................   126
Training, Readiness..............................................   138
Troop Quality, Morale, and Medical Issues........................   149
Unmanned Aerial Vehicles (UAV)...................................   129

           COMMANDER IN CHIEF, UNITED STATES CENTRAL COMMAND

Afghanistan/Pakistan Concerns....................................   217
Air Expeditionary Forces.........................................   228
Bahrain..........................................................   231
Forward Presence.................................................   214
Guard and Reserve Personnel, Role of.............................   234
Intelligence Budget..............................................   212
Intelligence Reports.............................................   219
Introduction.....................................................   161
Iran, Action Against...........................................220, 229
Iraq, Enforcing No Fly Zone Over.................................   227
    Iraqi Threat...............................................214, 226
Khobar Towers Incident...........................................   218
    Potential Retaliation for Khobar Bombing.....................   224
Kurdish Situation, United States Policy Regarding................   217
Kuwait...........................................................   230
Oil Exports......................................................   233
Persian Gulf Security............................................   215
Prepositioned Assets in Middle East..............................   232
Priorities and Deficiencies......................................   223
Quality and Morale...............................................   234
Readiness Concerns...............................................   222
Saudi Arabia, Internal Unrest in...............................213, 224
Saudi Government, Cooperation of.................................   220
Statement of General J. H. Binford Peay, III.....................   166
Summary Statement of General Peay................................   162
    Key Enabling Requirements....................................   165
    Safeguarding United States Interests and Security............   162
    USCENTCOM's Five-Pillar Theater Strategy.....................   163
Terrorism........................................................   216
    Civilians as Terrorist Targets...............................   222
    Counter-Terrorism............................................   225
Theater Missile Defense..........................................   231

           COMMANDER IN CHIEF, UNITED STATES EUROPEAN COMMAND

Africa...........................................................    91
Airborne Reconnaissance..........................................    81
Bosnia, Operation Joint Endeavor:
    Arms Control in..............................................    87
    Civilian Programs, Progress of...............................    86
    Contractor Logistics Support.................................    85
    Cost of American Presence in.................................    81
    Deployment...................................................    52
    Effect of United States Military Presence in.................    69
    Exit Strategy................................................76, 83
    Guard and Reserve in Bosnia, Role of.........................71, 86
    Identification of Mines in...................................    54
    Iranian Presence in..........................................    51
    Policy Issues................................................    83
    Reconstruction...............................................    72
    Russian Troops in............................................    67
    Training Bosnia Muslims......................................    53
Computer Security................................................    74
Cooperation with Russia..........................................    88
European Command (EUCOM) Priorities and Deficiencies.............    90
Fiscal Year 1997 Emergency Supplemental..........................50, 62
Full Spectrum Force..............................................73, 74
International Military Education and Training (IMET).............    62
Introduction.....................................................     1
Israel...........................................................    52
Joint Intelligence Center........................................    67
Joint Surveillance Target and Attack Radar System (JSTARS) 
  Aircraft.......................................................    67
Medium Extended Air Defense System (MEADS).......................    74
Military Health Care.............................................    90
Military Personnel, Quality of...................................    89
Mine Threat to United States Troops..............................75, 86
Missile Defense..................................................    65
NATO Expansion...................................................72, 82
    NATO Forces..................................................    72
    NATO-Russian Brigade, Joint..................................    58
    Russian Reaction to NATO Expansion...........................    57
Quality of Life..................................................    70
Remarks of Mr. Cunningham........................................    78
Russian Military Forces..........................................75, 88
Statement of General George A. Joulwan...........................     7
Summary Statement of General Joulwan.............................     2
    Bosnia, Operation Joint Endeavor.............................     3
    Operations TEMPO (OPTEMPO)...................................     2
    Partnership for Peace Programs...............................     4
    Quality of Life..............................................     5
Terrorism Threat.................................................    63
Troop Strength...................................................    84
Turkey...........................................................    51
Unmanned Aerial Vehicle (UAV)................................55, 63, 64
Weapons of Mass Destruction (WMD)................................    80

  COMMANDER IN CHIEF, UNITED STATES PACIFIC COMMAND COMMANDER, UNITED 
                          STATES FORCES, KOREA

Bosnia Funding...................................................   328
China............................................................   342
    Amphibious Capability........................................   334
    and the Pacific Region.......................................   315
    Force Modernization, Chinese.................................   310
    Power Projection Capabilities..............................311, 322
Combat Engineering Vehicle (CEV).................................   335
Country Relations................................................   309
Equipment Prepositioning in the Pacific..........................   326
F-16 Sales to Indonesia..........................................   314
Fiscal Year 1997 Supplemental Funding............................   343
Force Levels in the Pacific Theater..............................   344
Hong Kong Reversion..............................................   314
Intelligence Requirements........................................   321
International Military Education and Training (IMET).............   323
Introduction.....................................................   237
Japan, United States Partnership With............................   312
    Okinawa, Japan...............................................   329
Joint Operations.................................................   343
Military Construction Appropriations...........................321, 324
Mobile Offshore Bases............................................   318
Korea..........................................................339, 341
    Assistance to North Korea....................................   311
    Food Shortages in North Korea................................   322
    Humanitarian Assistance to North Korea.......................   330
    Military Construction in.....................................   315
    North Korean Defectors.......................................   333
    North Korean Military Capabilities...........................   316
    North Korean Nuclear Program.................................   331
    Policy Towards North Korea...................................   331
    Water Quality for United States Forces in Korea..............   329
Personnel, Quality of Life of..................................309, 325
POW/MIA Status...................................................   348
Priorities and Deficiencies......................................   336
Quadrennial Defense Review (QDR) and Future Force Structure......   337
Quality of Life...........................................316, 318, 348
Recruits, Quality of.............................................   312
Remarks of Mr. Hobson............................................   313
Russian Navy, Status of..........................................   325
Shortstop Electronic Protection System (SEPS)....................   336
Statement of Admiral Joseph W. Prueher...........................   243
Statement of General John H. Tilelli, Jr.........................   292
Strategic Lift/Prepositioned Equipment...........................   347
Summary Statement of Admiral Prueher.............................   237
    Balancing Resources for our Strategy.........................   241
    Country Assessments..........................................   239
        China....................................................   239
        India....................................................   240
        Japan....................................................   239
        North Korea..............................................   239
        Russia...................................................   240
        South Asia...............................................   241
    Pacific Command Strategy.....................................   238
    Summary......................................................   242
Summary Statement of General Tilelli.............................   292
    Quality of Life of Personnel.................................   293
    Readiness of Forces..........................................   292
    Summary......................................................   293
Theater Missile Defense (TMD)....................................   317
Training Exercises...............................................   319
    Operations Tempo (OPTEMPO) and Training......................   345
    Reservist Contribution to Exercises..........................   320
Troop Quality, Morale, and Medical...............................   347
Vietnam/Cambodia/Laos............................................   326
Weapons Modernization............................................   334

 TESTIMONY OF MEMBERS OF CONGRESS AND OTHER INTERESTED INDIVIDUALS AND 
                             ORGANIZATIONS

Air Force Sergeants Association..................................   643
American Academy of Otolaryngology--Head and Neck Surgery, Inc...   835
American Association of Nurse Anesthetists.......................   753
American Federation of Government Employees....................390, 542
American Psychiatric Association.................................   577
American Psychological Association...............................   599
American Society of Tropical Medicine and Hygiene................   780
Brain Injury Association, Inc....................................   479
California Industry and Government Coalition on PM-10/PM-2.5.....   947
Colorado State University........................................   938
Enlisted Association of the National Guard of the United States..   739
Federation of Behavioral, Psychological and Cognitive Sciences...   903
Fleet Reserve Association........................................   652
Florida State University.........................................   951
Fort Monmouth, New Jersey......................................384, 388
High Mobility Multipurpose Wheeled Vehicle (HMMWV) and Other 
  Tactical Vehicles..............................................   351
Intelligence Programs............................................   400
Joint Policy Board for Mathematics...............................   897
Joslin Diabetes Center...........................................   845
National Association for Uniformed Services......................   461
National Association of Energy Service Companies.................   957
National Breast Cancer Coalition.................................   867
National Coalition for Osteoporosis and Related Bone Diseases....   824
National Guard Association of the United States..................   768
National Military Family Association.............................   672
Naval Ordnance Station, Louisville, Kentucky.....................   536
Naval Reserve Association........................................   415
New York University..............................................   966
Non Commissioned Officers Association of the United States of 
  America........................................................   625
Reserve Officers Association of the United States................   431
Rochester Institute of Technology................................   367
State of Louisiana...............................................   990
Telemedicine Technology..........................................   359
Texas Tech University............................................   941
The American Legion..............................................   693
The Lovelace Respiratory Research Institute......................   974
The Military Coalition...........................................   416
The University of Medicine and Dentistry of New Jersey...........   876
University of Miami..............................................   983

                                <greek-d>


</pre></body></html>
